<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
  Prepared Statement of the Association of American Cancer Institutes
    The Association of American Cancer Institutes (AACI), representing 
95 of the Nation's premier academic and free-standing cancer centers, 
appreciates the opportunity to submit this statement for consideration 
by the United States Senate's Subcommittee on Labor, Health and Human 
Services, and Education, and Related Agencies.
    AACI applauds recent budgetary commitments--notably, increased 
funding for the National Institutes of Health (NIH) and support from 
the Obama administration through the American Recovery and Reinvestment 
Act of 2009 (ARRA)--that have created a more encouraging landscape for 
cancer research compared to recent years. We hope that this support 
will continue in the years ahead, to ensure that this recognition of 
the importance of biomedical research is sustained.
    AACI congratulates the administration and Congress on their 
commitment to ensuring quality care for cancer patients, as well as for 
providing researchers with the tools that they need to develop better 
cancer treatments and, ultimately, to cure this disease.
    President Obama has released his fiscal year 2011 budget which 
includes a $1 billion increase to NIH budget for an expansion of 
support for biomedical research. This funding boost would make the NIH 
budget $32.1 billion, representing a 3.2 percent increase. The National 
Cancer Institute (NCI) would receive an additional $161 million, or 
3.16 percent more, for a total of $5.26 billion.
    AACI has joined its colleagues in the biomedical research community 
in supporting the proposed increase for NIH and in calling on Congress 
to further strengthen the impact of the President's request by 
increasing funding to $35 billion.
    With the extra NIH and NCI funding, the cancer community will be 
better equipped to leverage ARRA financial support. ARRA dollars have 
helped to sustain the momentum achieved in reducing death rates from 
cancer, and they are proving to be an effective means of stimulating 
local economies and creating or maintaining jobs throughout the 
country.
    For example, The Ohio State University Comprehensive Cancer Center 
and the Winthrop P. Rockefeller Cancer Institute at the University of 
Arkansas for Medical Sciences are moving forward with major 
construction projects supported by ARRA funding. Another AACI member, 
the University of New Mexico Cancer Center, is buying equipment and 
hiring more staff with ARRA money, while a researcher at Tennessee's 
Vanderbilt-Ingram Cancer Center is studying imaging techniques in 
colorectal cancer with help from ARRA grants (Association of American 
Cancer Institutes, AACI Update, February 2010).
    Maintaining the flow of sufficient, dependable funding streams for 
NCI will help to continue the work that started under the stimulus 
plan. It will also serve as recognition that $70 million worth of great 
ideas--the approximate amount of ARRA funding for NCI to date--might 
not have been explored if it were not for the administration's 
unprecedented infusion of funds for cancer research. And much untapped 
scientific potential remains.
Cancer Research: Benefiting all Americans
    Cancer's financial and personal impact on America is substantial 
and growing--1 in 2 men and 1 in 3 women will face cancer in their 
lifetimes, and cancer cost our Nation more than $228 billion in 2008 
(Centers for Disease Control and Preventions, Addressing The Cancer 
Burden: At A Glance 2010). This year, cancer will become the world's 
number one killer. Investing in cancer research is a prudent step--both 
for the health of our Nation and for our Nation's economic well-being.
    Cancer research, conducted in academic laboratories across the 
country, saves money by reducing healthcare costs associated with the 
disease, enhances the United States' global competitiveness, and has a 
positive economic impact on localities that house a major research 
center. While these aspects of cancer research are important, what 
cannot be overstated is the impact cancer research has had on 
individuals' lives--lives that have been lengthened and even saved by 
virtue of discoveries made in cancer research laboratories at cancer 
centers across the United States.
    Biomedical research has provided Americans with better cancer 
treatments, as well as enhanced cancer screening and prevention 
efforts. Some of the most exciting breakthroughs in current cancer 
research are those in the field of personalized medicine. In 
personalized medicine for cancer, not only is the disease itself 
considered when determining treatments, but so is the individual's 
unique genetic code. This combination allows physicians to better 
identify those at risk for cancer, detect the disease, and treat the 
cancer in a targeted fashion that minimizes side effects and refines 
treatment in a way to provide the maximum benefit to the patient.
    In the laboratory setting, multi-disciplinary teams of scientists 
are working together to understand the significance of the human genome 
in cancer. For instance, the Cancer Genetic Markers of Susceptibility 
initiative is comparing the DNA of men and women with breast or 
prostate cancer with that of men and women without the diseases to 
better understand the diseases. The Cancer Genome Atlas is in 
development as a comprehensive catalog of genetic changes that occur in 
cancer.
    These projects--along with the work being performed by dedicated 
physicians and researchers at cancer centers across the United States 
every day--have the potential to radically change the way cancer, as a 
collection of diseases, affects the people who live with it every day. 
Every discovery contributes to a future without cancer as we know it 
today.
Clinical Trials
    Clinical trials are the cornerstone of cancer research, and it is 
commonly held that ``yesterday's clinical trials are today's standard 
therapies''. Without clinical trials we cannot discover new cancer 
drugs and better treatments, and without volunteers we cannot conduct 
trials.
    With no more than 5 percent of adult cancer patients participating 
in clinical trials, attracting volunteers to trials has been a long-
standing struggle for cancer researchers. And yet, thanks in large part 
to advances realized through clinical trials, two-thirds of cancer 
patients now survive at least 5 years after diagnosis, compared with 
only half a generation ago.
    Unfortunately, running a clinical trial from start to finish can be 
prohibitively complicated and expensive. While the Nation's cancer 
centers represented by AACI work to untangle red tape and other factors 
that can derail trials, a serious obstacle stands largely beyond their 
control--the cost to patients of participating in trials.
    Section 2709 of the Patient Protection and Affordable Care Act of 
2010 requires health insurance plans, including those offered through 
the Federal Employee Health Benefit Program, to provide coverage for 
routine costs associated with participation in clinical trials.
    Commercial health insurers often refuse to pay for routine care 
costs associated with a clinical trial, arguing that the trial is 
``investigational'' and thus optional or unnecessary. Consequently, 
patients experience financial difficulties that limit their 
participation in trials. That, in turn, has a negative impact on 
research and patients' ability to receive promising treatments that are 
available through trials. It slows the development of new cancer 
therapies.
    Routine costs associated with clinical trials include physician 
visits, blood work, hospital stays and x-rays. These costs would 
usually be reimbursed by the insurer if the patient was not 
participating in a clinical trial. The investigational portion of the 
trial (usually a new drug or device) is not charged to the patient or 
the insurer.
    Since 1994, 27 States and the District of Columbia have passed laws 
requiring insurance coverage for routine patient care costs when 
patients participate in clinical trials, and another 5 States have 
established cooperative agreements with insurers to do so. However, 
beyond the patchwork nature of such coverage, some of these laws do not 
necessarily require insurers to cover all cancer patients, such as 
those in phase I or II clinical trials, or those with employer self-
insured plans, in which a large company self-insures its employees. 
With the new Federal policy, all cancer patients can now afford to 
enroll in a potentially life-saving clinical trial.
The Nation's Cancer Centers
    The nexus of cancer research in the United States is the Nation's 
network of cancer centers represented by AACI. These cancer centers 
conduct the highest-quality cancer research anywhere in the world and 
provide exceptional patient care. The Nation's research institutions, 
which house AACI's member cancer centers, receive an estimated $3.15 
billion from NCI to conduct cancer research; this represents 65 percent 
of NCI's total budget (U.S. Department of Health and Human Services, 
National Institutes of Health, National Cancer Institute 2008 Fact 
Book). In fact, 84 percent of NCI's budget supports research at nearly 
650 universities, hospitals, cancer centers, and other institutions in 
all 50 States. Because these centers are networked nationally, 
opportunities for collaborations are many--assuring wise and 
nonduplicative investment of scarce Federal dollars.
    Collaboration between the cancer centers' and NCI is also 
essential, and extramural input in shaping NCI's programmatic 
priorities is vital for effecting cancer research breakthroughs. 
Furthermore, AACI endorses the call for greater collaboration expressed 
in recent testimony by Robert S. DiPaola, MD, Director of the Cancer 
Institute of New Jersey, delivered before the Health Subcommittee of 
the House Energy and Commerce Committee. The association is in strong 
agreement with Dr. DiPaola that ``culture of collaboration'' needs to 
be nurtured among NCI-designated cancer centers, as well as between 
such centers and the pharmaceutical and biotechnology companies that 
develop drug treatment for cancer and related illnesses.
    In addition to conducting basic, clinical, and population research, 
the cancer centers are largely responsible for training the cancer 
workforce that will practice in the United States in the years to come. 
Much of this training depends on Federal dollars, via training grants 
and other funding from NCI. Sustained Federal support will 
significantly enhance the centers' ability to continue to train the 
next generation of cancer specialists--both researchers and providers 
of cancer care.
    By providing access to a wide array of expertise and programs 
specializing in prevention, diagnosis, and treatment of cancer, cancer 
centers play an important role in reducing the burden of cancer in 
their communities. The majority of the clinical trials of new 
interventions for cancer are carried out at the Nation's network of 
cancer centers.
Ensuring the Future of Cancer Care and Research
    Because of an aging population, an increasing number of cancer 
survivors require ongoing monitoring and care from oncologists, and new 
therapies that tend to be complex and often extend life.
    Demand for oncology services is projected to increase 48 percent by 
2020. However, the supply of oncologists expected to increase by only 
20 percent and 54 percent of currently practicing oncologists will be 
of retirement age within that timeframe. Also, alarmingly, there has 
been essentially no growth over the past decade in the number of 
medical residents electing to train on a path toward oncology as a 
specialty (American Society of Clinical Oncology, Forecasting the 
Supply of and Demand for Oncologists: A Report to the American Society 
of Clinical Oncology (ASCO) from the AAMC Center for Workforce Studies, 
2007).
    Without immediate action, these predicted shortages will prove 
disastrous for the state of cancer care in the United States. The 
discrepancy between supply and demand for oncologists will amount to a 
shortage of 9.4 to 15.1 million visits, or a shortage of 2,550 to 4,080 
oncologists. (American Cancer Society, Cancer Facts and Figures 2008).
    Cancer physicians--while essential--are only one part of the 
oncology workforce that is in danger of being stretched to the breaking 
point. For example, the Health Resources and Services Administration 
has predicted that by 2020, more than 1 million nursing positions will 
go unfilled. The Department of Health and Human Services projects that 
today's 10 percent vacancy rate in registered nursing positions will 
grow to 36 percent, representing more than 1 million unfilled jobs by 
2020.
    Greater Federal support for training oncology physicians, nurses, 
and other professionals who treat cancer must be enacted to prevent a 
disaster where demand for oncology services far outstrips the system's 
ability to provide adequate care for all.
Conclusion
    These are exciting times in science and, particularly, in cancer 
research. The AACI cancer center network is unrivaled in its pursuit of 
excellence, and places the highest priority on affording all Americans 
access to superior cancer care, including novel treatments and clinical 
trials. It is through the power of collaborative innovation that we 
will accelerate progress toward a future without cancer, and research 
funding through the NIH and NCI is essential to achieving our goals.
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Nursing
    The American Association of Colleges of Nursing (AACN) respectfully 
submits this testimony highlighting funding priorities for nursing 
education and research programs in fiscal year 2011. AACN represents 
nearly 650 schools of nursing at public and private institutions with 
baccalaureate and graduate nursing programs that include more than 
270,000 students and 13,000 faculty members. These institutions educate 
almost half of our Nation's Registered Nurses (RNs) and all of the 
Advanced Practice Registered Nurses (APRNs), nurse faculty, and 
researchers.
The Nationwide Nursing Shortage
    The United States is in the midst of a nursing shortage that has 
impacted the quality care in our Nation's healthcare system for 12 
years. The current economic downturn has led to a false impression that 
the nursing shortage is ``easing'' in some parts of the country because 
hospitals are enacting hiring freezes and nurses are choosing to delay 
retirement. However, this trend is only temporary. More positions 
continue to open for RNs across the country due to factors such as an 
aging population, increased complexity of care, and a significant 
population with chronic diseases. Moreover, the new healthcare reform 
law will increase access to care, which will require a surge in the 
number healthcare providers. RNs and APRNs will be in high demand. This 
comes at a time when the U.S. Bureau of Labor Statistics (BLS), 
currently reports that nursing is the Nation's top profession in terms 
of projected job growth with more than 581,000 new positions being 
created through 2018 (a 22 percent increase in the workforce). Unless 
we act now, this shortage will further jeopardize patient access to 
quality care.
    Nursing and economic research clearly indicate that today's 
shortage is far worse than those of the past. The current supply and 
demand for nurses demonstrates two distinct challenges. First, due to 
the present and looming demand for healthcare by American consumers, 
the supply is not growing at a pace that will adequately meet long-term 
needs, including the demand for primary care, which is often provided 
by APRNs. This is further compounded by the number of nurses who will 
retire or leave the profession in the near future, ultimately reducing 
the nursing workforce. Second, the supply of nurses nationwide is 
stressed due to capacity barriers in schools of nursing. According to 
AACN, 54,991 qualified applicants were turned away from baccalaureate 
and graduate nursing programs in 2009 primarily due to insufficient 
number of faculty, clinical sites, classroom space, clinical 
preceptors, and budget constraints. Federal support for nursing 
education is critical at this juncture in American history. National 
reform goals cannot be met without an adequate number of nurses to 
provide the cost-effective and quality care associated with the nursing 
discipline.
Nursing Workforce Development Programs: A Proven Solution
    For nearly five decades, the title VIII Nursing Workforce 
Development Programs (42 U.S.C. 296 et seq.) have supported hundreds of 
thousands of nurses and nursing students. The title VIII programs award 
grants to nursing education programs, as well as provide direct support 
to nurses and nursing students through loans, scholarships, 
traineeships, and programmatic grants.
    The Nursing Workforce Development Programs are effective and meet 
their authorized mission. AACN's 2009-2010 title VIII Student Recipient 
Survey included responses from 1,420 students who noted that these 
programs played a critical role in funding their nursing education, 
which will ultimately help them to achieve future career goals. The 
students responding to the title VIII survey have career aspirations 
that meet the direct needs of the healthcare system and the profession. 
A high percentage of the students surveyed (48.9 percent) reported that 
their career goal is to become a nurse practitioner. Given the demand 
for primary care providers, the title VIII funds are helping to support 
the next generation of these essential practitioners. Moreover, the 
nurse faculty shortage continues to inhibit the ability of nursing 
schools to increase student capacity and address the shortage. Of the 
students who responded to the survey, 40.6 percent stated their 
ultimate career goal was to become nurse faculty. Providing support for 
title VIII is the key to help schools expand student capacity, fill 
vacant nursing positions, and, in turn, improve healthcare quality.
    While millions of Americans are struggling during this economic 
downturn and thousands of students need to obtain student loans for 
their education, Federal support is greatly appreciated. The student 
recipients reported that more funding was needed for these programs to 
help offset the considerable cost of nursing education. Fifty-two 
percent of the students responded that the title VIII funding paid for 
25 percent or less of their total student loans. Of those students, 26 
percent stated that the funding paid for less than 5 percent of their 
total nursing student loans.
    Over the last 45 years, Congress has used the title VIII 
authorities as a mechanism to address past nursing shortages. When the 
need for nurses was great, higher funding levels were appropriated. For 
example, during the nursing shortage in the 1970s, Congress provided 
$160.61 million to the title VIII programs in 1973. Adjusting for 
inflation to address the 37-year difference, $160.61 million (fiscal 
year 1973 funding level) in 2010 dollars would be approximately $784 
million. At a time when nursing economists project the current shortage 
to be twice as large as any nursing shortage experienced in this 
country since the mid-1960s, more must be invested in title VIII to 
decrease the magnitude of the RN demand.
    AACN respectfully requests $267.3 million (a 10 percent increase) 
for the Nursing Workforce Development programs authorized under title 
VIII of the Public Health Service in fiscal year 2011. Last year, your 
subcommittee provided a significant funding boost for title VIII that 
helped support the Loan Repayment and Scholarship program and Nurse 
Faculty Loan program. These increases will help bolster the pipeline of 
nurses and nurse faculty, which are so critical to reversing the 
nursing shortage. It is extremely important to maintain last year's 
funding level for these crucial programs in fiscal year 2011. AACN 
believes the 10 percent requested increase should be directed to the 
four title VIII programs that have not kept pace with inflation since 
fiscal year 2005. These programs include the Advanced Education 
Nursing, Nursing Workforce Diversity, Nurse Education, Practice, and 
Retention, and Comprehensive Geriatric Education programs, which help 
expand nursing school capacity and increase patient access to care. The 
10 percent increase awarded to these programs in proportion to their 
fiscal year 2010 funding level would be a wise investment of Federal 
resources.
Nursing Research: Supporting Health Promotion and Disease Prevention
    The National Institute of Nursing Research (NINR) is 1 of the 27 
Institutes and Centers at the National Institutes of Health (NIH). As 
the nucleus for nursing science, NINR funds research that establishes 
the scientific basis for health promotion, disease prevention, and 
high-quality nursing care services to individuals, families, and 
populations. Often working collaboratively with physicians and other 
researchers, nurse scientists are vital in setting the national 
research agenda. While medical research focuses on curing diseases, 
nursing research is conducted to prevent disease. The four strategic 
areas of emphasis for research at NINR are:
  --Promoting Health and Preventing Disease.--Presently, more than 1.7 
        million Americans die each year from chronic diseases. Nurse 
        researchers focus on investigating wellness strategies to 
        prevent these chronic diseases. A healthcare system that 
        promotes prevention is a major focus of the new health reform 
        law, and NINR is a leader in funding scientific research to 
        discover optimal prevention methods.
  --Eliminating Health Disparities.--Race, gender, socioeconomic 
        status, ethnic origin, geography, and culture impact the 
        healthcare of individuals and communities. NINR is committed to 
        funding research that investigates culturally appropriate 
        interventions and care strategies focused on at-risk 
        populations.
  --Improving Quality of Life.--Disease prevention is a critical goal 
        of clinical research. NINR is committed to funding research 
        that assists individuals with managing their own health 
        conditions, decreases adverse symptoms, and reduces the burden 
        on caregivers.
  --Setting Directions for End-of-Life Research.--Palliative care and 
        respect for those at the end of their life is a critical part 
        of treatment for serious and life-threatening illness. This 
        care is provided alongside disease treatment to ease suffering 
        and improve the quality-of-life for the patient. NINR seeks, 
        through scientific research, to improve the understanding of 
        the processes underlying palliative care efforts and develop 
        effective strategies to optimize care across all patient 
        populations.
    Research conducted at NINR improves quality of care to benefit 
health both globally and nationally. With increased appropriations for 
NINR, more comprehensive, complex, and longitudinal studies could be 
funded in the areas provided below as well as meet the current goals, 
projects, and priorities of the Institute.
  --Expand the scope of science in symptom management;
  --Global health;
  --Increase funding for scientist-initiated research applications;
  --Expand the translation, dissemination, and outreach of NINR 
        generated research to bridge the gap between scientific 
        evidence and clinical practice;
  --Evaluate the impact of nursing science on the health of the Nation; 
        and
  --Support future nurse researchers.
    Considering that NINR presently allocates 7 percent of its budget 
to training that helps develop the pool of nurse researchers, 
additional funding would support NINR's efforts to prepare faculty 
researchers needed to educate new nurses.
    NINR's fiscal year 2010 funding level of $145.66 million is 
approximately 0.47 percent of the overall $31.247 billion NIH budget 
(see Figure 1). Spending for nursing research is a modest amount 
relative to the allocations for other health science institutes and for 
major disease category funding. For NINR to adequately continue and 
further its mission, NINR must receive additional funding. Cuts in 
funding have impeded NINR from supporting larger comprehensive studies 
needed to advance nursing science and improve the quality of patient 
care.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Therefore, AACN respectfully requests $160 million for the National 
Institute of Nursing Research, an additional $14.34 million over the 
fiscal year 2010 level.
The Capacity for Nursing Students and Faculty Program, Section 804 of 
        the Higher Education Opportunity Act of 2008 (Public Law 110-
        315)
    According to AACN (2010), the major barriers to increasing student 
capacity in nursing schools are insufficient numbers of faculty, 
admission seats, clinical sites, classroom space, clinical preceptors, 
and budget constraints. The Capacity for Nursing Students and Faculty 
Program, a section of the Higher Education Opportunity Act of 2008, 
offers capitation grants (formula grants based on the number of 
students enrolled/or matriculated) to nursing schools allowing them to 
increase the number of students. AACN respectfully requests $50 million 
for this program in fiscal year 2011.
Conclusion
    AACN acknowledges the fiscal challenges within which the 
Subcommittee and the entire Congress must work. However, the Title VIII 
authorities provide a dedicated, long-term vision for educating the new 
nursing workforce and the next cadre of nurse faculty. The National 
Institute of Nursing Research invests in developing the scientific 
basis for quality nursing care. The Capacity for Nursing Students and 
Faculty Program will allow schools to increase student capacity. To be 
effective these programs must receive additional funding. AACN 
respectfully requests $267.3 million for title VIII programs, $160 
million for NINR, and $50 million for the Capacity for Nursing Students 
and Faculty Program in fiscal year 2011. Additional funding for these 
programs will assist schools of nursing to expand their educational and 
research programs, educate more nurse faculty, increase the number of 
practicing RNs, and ultimately improve the patient care provided in our 
healthcare system.
                                 ______
                                 
     Prepared Statement of the American Association of Colleges of 
                          Osteopathic Medicine
    On behalf of the American Association of Colleges of Osteopathic 
Medicine (AACOM), I am pleased to submit this testimony in support of 
increased funding in fiscal year 2011 for programs at the Health 
Resources Services Administration (HRSA), the National Institutes of 
Health (NIH), and the Agency for Healthcare Research and Quality 
(AHRQ). AACOM represents the administrations, faculty, and students of 
the Nation's 26 colleges of osteopathic medicine and three branch 
campuses that offer the doctor of osteopathic medicine degree. Today, 
more than 18,000 students are enrolled in osteopathic medical schools. 
Nearly 1 in 5 U.S. medical students is training to be an osteopathic 
physician, a ratio that is expected to grow to 1 in 4 by 2019.
Title VII
    The health professions education programs, authorized under title 
VII of the Public Health Service Act and administered through the HRSA, 
support the training and education of health practitioners to enhance 
the supply, diversity, and distribution of the healthcare workforce, 
acting as an essential part of the healthcare safety net and filling 
the gaps in the supply of health professionals not met by traditional 
market forces. Title VII and title VIII nurse education programs are 
the only Federal programs designed to train clinicians in 
interdisciplinary settings to meet the needs of special and underserved 
populations, as well as increase minority representation in the 
healthcare workforce.
    According to HRSA, an additional 30,000 health practitioners are 
needed to alleviate existing health professional shortages. Combined 
with faculty shortages across health professions disciplines, racial 
and ethnic disparities in healthcare, and a growing, aging population, 
the anticipated demand for access to care once 32 million more 
Americans have health insurance as a result of healthcare reform will 
strain an already fragile healthcare system. While AACOM appreciates 
the investments that this subcommittee has made in these programs, it 
recommends increasing funding to $330 million in fiscal year 2011 for 
the title VII programs. Investment in these programs, including the 
Training in Primary Care Medicine Program, the Health Careers 
Opportunity Program, and the Centers of Excellence, is necessary to 
address the primary care workforce shortage. Strengthening the 
workforce has been recognized as a national priority, and the 
investment in these programs recommended by AACOM will help sustain the 
health workforce expansion supported by the American Recovery and 
Reinvestment Act (ARRA) and necessitated by the demand for a well 
trained, diverse workforce that this country will experience as a 
result of healthcare reform.
National Health Service Corps (NHSC)
    AACOM applauds Congress for increasing the authorization to $414 
million in fiscal year 2011 for the NHSC through direct appropriations 
and including the authorized Community Health Center Fund (CHC Fund), 
which also covers the NHSC, in the Patient Protection and Affordable 
Care Act. Approximately 50 million Americans live in communities with a 
shortage of health professionals, lacking adequate access to primary 
care. Through scholarships and loan repayment, NHSC supports the 
recruitment and retention of primary care clinicians to practice in 
underserved communities. At a field strength of 4,760 in fiscal year 
2009, the NHSC still fell more than 24,000 practitioners short of 
fulfilling the need for primary care, dental, and mental health 
practitioners in federally designated Health Professions Shortage Areas 
(HPSAs), as estimated by HRSA. Growth in HRSA's Community Health Center 
Program must be complemented with increases in the recruitment and 
retention of primary care clinicians to ensure adequate staffing, which 
the NHSC provides. ARRA funding for the NHSC has been vital in this 
regard, and additional investment will be necessary to sustain the 
progress as the ARRA funding period ends. AACOM supports the 
President's budget request of $169 million for the NHSC program in 
fiscal year 2011, which would be sufficient to trigger the release of 
dollars from the CHC Fund. AACOM further recommends that the 
subcommittee include report language directing the Secretary to provide 
enhanced funding for the NHSC, as required under the Patient Protection 
and Affordable Care Act.
Medical School Development
    The President's fiscal year 2011 budget request included $100 
million for the development of new medical schools in HPSAs. The grant 
program would be administered by HRSA. The budget projected that these 
funds would support approximately 20 grants for new academic health 
centers to provide training and research in community-oriented 
settings. The goal is to increase clinical training in HPSAs as well as 
to increase the number of new providers who go on to practice in these 
underserved areas. AACOM supports the appropriation of these funds at a 
time when it is critical to support the training of new medical 
students in order to ensure that Americans have access to care.
NIH
    Research funded by the NIH leads to important medical discoveries 
regarding the causes, treatments, and cures for common and rare 
diseases as well as disease prevention. These efforts improve our 
Nation's health and save lives. To maintain a robust research agenda, 
further investment will be needed. AACOM recommends $35 billion in 
fiscal year 2011 for the NIH.
    In today's increasingly demanding and evolving medical curriculum, 
there is a critical need for more research geared toward evidence-based 
osteopathic medicine. AACOM believes that it is vitally important to 
maintain and increase funding for biomedical and clinical research in a 
variety of areas related to osteopathic principles and practice, 
including osteopathic manipulative medicine and comparative 
effectiveness. In this regard, AACOM encourages support for the NIH's 
National Center for Complementary and Alternative Medicine to continue 
fulfilling this essential research role.
AHRQ
    The AHRQ supports research to improve healthcare quality, reduce 
costs, advance patient safety, decrease medical errors, and broaden 
access to essential services. AHRQ plays an important role in producing 
the evidence base needed to improve our Nation's health and healthcare. 
The incremental increases for AHRQ's Patient Centered Health Research 
Program in recent years, as well as the funding provided to AHRQ in the 
ARRA, will help AHRQ generate more of this research and expand the 
infrastructure needed to increase capacity to produce this evidence. 
More investment is needed, however, to fulfill AHRQ's mission and 
broader research agenda, especially research in patient safety and 
prevention and care management research. AACOM recommends $611 million 
in fiscal year 2011 for AHRQ, as requested by the President. This 
investment will preserve AHRQ's current programs while helping to 
restore its critical healthcare safety, quality, and efficiency 
initiatives.
    AACOM greatly appreciates the support of the subcommittee for these 
funding priorities in an ever-increasing competitive environment and is 
grateful for the opportunity to submit its views. AACOM looks forward 
to continuing to work with the subcommittee on these important matters.
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Pharmacy
    AACP and its member colleges and schools of pharmacy appreciate the 
continued support of the U.S. Senate Appropriations Subcommittee on 
Labor, Health and Human Services, and Education, and Related Agencies. 
Our Nation's 116 accredited colleges and schools of pharmacy are 
engaged in a wide-range of programs supported by grants and funding 
administered through the U.S. Department of Education and agencies of 
the Department of Health and Human Services (HHS). We also understand 
the difficult task you face annually in your deliberations to do the 
most good for the nation and remain fiscally responsible to the same. 
AACP respectfully offers the following recommendations for your 
consideration as you undertake your deliberations.
u.s. department of education supported programs at colleges and schools 
                              of pharmacy
    AACP supports the recommendation of the Student Aid Alliance that 
the:
  --Perkins Loan Program Federal Capital Contribution should be 
        increased to the newly reauthorized level of $300 million and 
        loan cancellations should be increased to $125 million.
  --Pell Grant maximum be increased to $5,710.
  --Gaining Early Awareness and Readiness for Undergraduate Programs 
        (GEAR UP) should be increased to the authorized level of $400 
        million.
  --Graduate level programs should be increased to $126 million.
    AACP recommends a funding level of $160 million for the Fund for 
the Improvement of Post Secondary Education (FIPSE).
    The Department of Education supports the education of healthcare 
professionals by:
  --assuring access to education through student financial aid 
        programs;
  --supporting educational research allows faculty to determine 
        improvements in educational approaches; and
  --maintaining the quality of higher education through the approval of 
        accrediting agencies.
    AACP actively supports increased funding for undergraduate student 
financial assistance programs. Admission to into the pharmacy 
professional degree program requires at least 2 years of undergraduate 
preparation. Student financial assistance programs are essential to 
assuring colleges and schools of pharmacy are accessible to qualified 
students. Likewise, financial assistance programs that support graduate 
education are an important component of creating the next generation of 
scientists and educators that both our nation and higher education 
depend on.
  u.s. department of health and human services supported programs at 
                    colleges and schools of pharmacy
Agency for Healthcare Research and Quality (AHRQ)
    AACP supports the Friends of AHRQ recommendation of $611 million 
for AHRQ programs in fiscal year 2011.
    Pharmacy facultyare strong partners with the Agency for Healthcare 
Research and Quality (AHRQ). Academic pharmacy researchers are working 
to develop a sustainable health services research effort among faculty 
with AHRQ grant support. As partners in the AHRQ Effective Healthcare 
programs (CERTs, DeCIDE), pharmacy faculty researchers improve the 
effectiveness of healthcare services. Some of this research will take 
place through the development of practice-based research networks 
focused on improving the medication use process.
    Researchers, including faculty at the University of Illinois, 
Chicago School of Pharmacy, supported through an AHRQ DEcIDE Network 
contract determined that a specific drug triad regularly prescribed to 
patients suffering from chronic obstructive pulmonary disease reduced 
the risk of death. Researchers determined that other drug combinations 
increased the risk of death. This research was published in the 
Archives of Internal Medicine allowing for ready translation of this 
life-saving knowledge into practice. AHRQ Contract Number 290-05-0038
    Pharmacy faculty researchers at the University of Iowa, supported 
by AHRQ grant HS018353-01, will seek to improve the quality of 
medication therapy management programs (MTM) which is a mandated 
service of the Medicare Part D benefit. This research will provide 
additional guidance to CMS, PDPs, and other payers and organizations 
interested in improving the quality of care provided to patients in 
regard to their medications.
Centers for Disease Control and Prevention (CDC)
    AACP supports the CDC Coalition recommendation of $8.8 billion for 
CDC core programs in fiscal year 2011.
    The educational outcomes of a pharmacist's education include those 
related to public health. When in community-based positions, 
pharmacists are frequently providers of first contact. The opportunity 
to identify potential public health threats through regular interaction 
with patients provides public health agencies such as the CDC with on-
the-ground epidemiologists. Pharmacists support the public health 
system through the risk identification of patients seeking medications 
associated with preventing and treating travel-related illnesses. 
Pharmacy faculty are engaged in CDC-supported research in areas such as 
immunization delivery, integration of pharmacogenetics in the pharmacy 
curriculum and inclusion of pharmacists in emergency preparedness. 
Information from the National Center for Health Statistics (NCHS) is 
essential for faculty engaged in health services research and for the 
professional education of the pharmacist.
    Researchers at the University of Mississippi School of Pharmacy 
will be supported in their work to develop and test new malaria drugs 
by CDC grant 3U01CI000211-05S1.
Health Resources and Services Administration (HRSA)
    AACP supports the Friends of HRSA recommendation of $8.5 billion 
for fiscal year 2011.
    HRSA is a Federal agency with a wide-range of policy and service 
components. Faculty at colleges and schools of pharmacy are integral to 
the success of many of these. Colleges and schools of pharmacy are the 
administrative units for interprofessional and community-based linkages 
programs including geriatric education centers and area health 
education centers. Pharmacy faculty are supported in their research 
efforts regarding rural health issues through the Office of Rural 
Health Policy. Pharmacy students benefit from diversity program funding 
including Scholarships for Disadvantaged Students.
Office of Pharmacy Affairs
    AACP recommends a program funding of $5 million for fiscal year 
2011 for the Office of Pharmacy Affairs.
    AACP member institutions are actively engaged in Office of Pharmacy 
Affairs (OPA) efforts to improve the quality of care for patients in 
federally qualified health centers and entities eligible to participate 
in the 340B drug discount program. The success of the HRSA Patient 
Safety and Clinical Pharmacy Collaborative is a direct result of past 
OPA actions linking colleges and schools of pharmacy with federally 
qualified health centers. www.hrsa.gov/patientsafety. The result of 
these links has been the establishment of medical homes that improve 
health outcomes for underserved and disadvantaged patients through the 
integration of clinical pharmacy services. The Office of Pharmacy 
Affairs would benefit from a direct line-item appropriation so that 
public-private partnerships aimed at improving the quality of care 
provided at federal qualified health centers can be sustained and 
expanded.
Poison Control Centers
    Colleges and schools of pharmacy are supported by HRSA grant 
funding for the operation of 9 of the 42 poison control centers 
administered by HRSA.
    Jill E. Michels, faculty member from the University of South 
Carolina--South Carolina College of Pharmacy (USC), and the Palmetto 
Poison Center (PPC) were awarded a $310,000 grant from HRSA. The PPC is 
housed at the College of Pharmacy and serves all 46 counties in South 
Carolina receiving more than 37,000 calls per year for information and 
advice. The PPC provides services free-of-charge to the public and 
health professionals 24 hours-a-day, 365 days-a-year. A recent USC 
study found that for every $1 spent on the Palmetto Poison Center, more 
than $7 were saved in unnecessary healthcare costs, including emergency 
room and physician visits, ambulance services, and unnecessary medical 
treatments. http://poison.sc.edu/about.html
Bureau of Health Professions (BHPr)
    AACP supports the Health Professions and Nursing Education 
Coalition (HPNEC) recommendation of $600 million for title VII and VIII 
programs in fiscal year 2011.
    AACP member institutions are active participants in BHPr programs. 
Two colleges of pharmacy are current grantees in the Centers of 
Excellence program (Xavier University--Louisiana, University of 
Montana). This program focuses on increasing the number of underserved 
individuals attending health professions institutions. Colleges and 
schools of pharmacy are also part of title VII interprofessional and 
community-based linkages programs including Geriatric Education Centers 
and Area Health Education Centers. These programs are essential for 
creating the educational approaches necessary for the Institute of 
Medicine's recommendations of improving quality through team-based, 
patient-centered care.
                                 ______
                                 
   Prepared Statement of the American Association for Cancer Research
    The American Association for Cancer Research (AACR) recognizes and 
expresses its thanks to the United States Congress for its longstanding 
support and commitment to funding cancer research. The continuing 
investment in research through the American Recovery and Reinvestment 
Act of 2009 (ARRA) and the fiscal year 2010 budget will support current 
projects and provide for new efforts in the fight against cancer. These 
new efforts are now underway and promise to yield innovative and 
potentially breakthrough approaches to understanding, preventing, 
treating, and ultimately curing cancer. The full potential, however, 
will not be fully realized in a short 1- or 2-year period. Sustained, 
stable funding through regular appropriations will be necessary to 
allow researchers to uncover the discoveries today that will lead to 
more lives saved tomorrow.
    Unquestionably, the Nation's investment in cancer research is 
having a remarkable impact. Cancer deaths in the United States have 
declined in recent years. This progress is occurring in spite of an 
aging population and the fact that more than three-quarters of all 
cancers are diagnosed in individuals aged 55 and older. Yet this good 
news will not continue without stable and sustained Federal funding for 
critical cancer research priorities.
    AACR urges the United States House of Representatives to strongly 
support biomedical research funding at the National Institutes of 
Health (NIH), including carrying out President Obama's vision for 
doubling cancer research funding in order to find a cure for cancer in 
our time. Therefore, the AACR supports the biomedical community's 
recommendation of sustaining the current funding for NIH, which would 
amount to $35.2 billion in fiscal year 2011.
AACR: Fostering a Century of Research Progress
    AACR has been moving cancer research forward since its founding in 
1907. Celebrating its 101st annual meeting in Washington, DC, this 
April, the AACR and its more than 30,000 members worldwide strive 
tirelessly to carry out its important mission to prevent and cure 
cancer through research, education, and communication. It does so by:
  --fostering research in cancer and related biomedical science;
  --accelerating the dissemination of new research findings among 
        scientists and others dedicated to the conquest of cancer;
  --promoting science education and training; and
  --advancing the understanding of cancer etiology, prevention, 
        diagnosis, and treatment throughout the world.
Facing an Impending Cancer ``Tsunami''
    Over the last century, enormous progress has been made toward the 
conquest of the Nation's second most lethal disease (after heart 
disease). Thanks to discoveries and developments in prevention, early 
detection, and more effective treatments, many of the more than 200 
diseases called cancer have been cured or converted into manageable 
chronic conditions while preserving quality of life. The 5-year 
survival rate for all cancers has improved over the past 30 years to 
more than 65 percent. The completion of the doubling of the NIH budget 
in 2003 is bearing fruit as many new and promising discoveries are 
unearthed and their potential realized. However, there is much left to 
be done, especially for the most lethal and rare forms of the disease.
    We recognize that the underlying causes of the disease and its 
incidence have not been significantly altered. The fact remains that 
men have a 1 in 2 lifetime risk of developing cancer, while women have 
a 1 in 3 lifetime risk. The leading cancer sites in men are the 
prostate, lung and bronchus, and colon and rectum. For women, the 
leading cancer sites are breast, lung and bronchus, and colon and 
rectum. And cancer still accounts for 1 in 4 deaths, with more than 
half a million people expected to die from their cancer in 2010. Age is 
a major risk factor this Nation faces a virtual ``cancer tsunami'' as 
the baby boomer generation reaches age 65 in 2011. A renewed commitment 
to progress in cancer research through leadership and resources is 
essential to avoid this cancer crisis.
Blueprint for Progress: National Cancer Institute (NCI) Strategic 
        Objectives
    Basic, translational, and clinical cancer research in this country 
are conducted primarily through three venues--government, academia, and 
the nonprofit sector--and the pharmaceutical/biotechnology industry. 
The Congress provides the appropriations for the NCI, through which 
most of the Government's research on cancer is conducted. The NCI has 
developed documents and processes that describe and guide its 
priorities established with extensive community input for the use of 
these finite resources. ``The NCI Strategic Plan for Leading the 
Nation'' and ``The Nation's Investment in Cancer Research: An Annual 
Plan and Budget Proposal Fiscal Year 2011'' are the recognized 
professional blueprints for what needs to be done to accelerate 
progress against cancer.
    AACR and many in the cancer research community concur that if the 
NCI receives the increased investment of $1.2 billion as proposed for 
fiscal year 2011, the NCI will have the capability to rebuild America's 
research infrastructure capacity and accelerate research progress in 
critical priority areas:
  --understanding the causes and mechanisms of cancer;
  --accelerating progress in cancer prevention;
  --improving early detection and diagnosis;
  --developing effective and efficient treatments;
  --understanding the factors that influence cancer outcomes;
  --improving the quality of cancer care;
  --improving the quality of life for cancer patients, survivors, and 
        their families; and overcoming cancer health disparities.
Federal Investment for Local Benefit
    More than half of the NCI budget is allocated to research project 
grants that are awarded to outside scientists who work at local 
hospitals and universities throughout the country. More than 6,500 
research grants are funded at more than 150 cancer centers and 
specialized research facilities located in 49 States. In more than half 
the States, grants and contracts to institutions exceed $15 million. 
This Federal investment also provides needed economic stimulus to local 
economies. For example, on average, each $1 of NIH funding generated 
more than twice as much in State economic output in fiscal year 2007. 
Many AACR member scientists across the Nation are engaged in this 
rewarding work, and many have had their long-term research jeopardized 
by grant reductions caused by the flat and declining overall funding 
for the NCI since 2003. The recent increase in fiscal year 2010 
appropriations and the ARRA funding will help to revitalize America's 
research infrastructure; however, sustained and stable funding is 
critical to reap the benefits of this investment. Thus, the AACR 
supports sustaining the current investment in the NCI with a budget of 
$5.8 billion.
Understanding the Causes and Mechanisms of Cancer
    Basic research into the causes and mechanisms of cancer is at the 
heart of what the NCI and many of AACR's member scientists do. The 
focus of this research includes: investigating the underlying basis of 
the full spectrum of genetic susceptibility to cancer; identifying the 
influence of the macroenvironment (tumor level) and microenvironment 
(tissue level) on cancer initiation and progression; understanding the 
behavioral, environmental, genetic, and epigenetic causes of cancer and 
their interactions; developing and applying emerging technologies to 
expand our knowledge of risk factors and biologic mechanisms of cancer; 
and elucidating the relationship between cancer and other human 
diseases.
    Basic research is the engine that drives scientific progress. The 
outcomes from this fundamental basic research including laboratory and 
animal research, in addition to population studies and the deployment 
of state-of-the-art technologies will inform and drive the cancer 
research enterprise in ways and directions that will lead to 
unparalleled progress in the search for cures.
Accelerating Progress in Cancer Prevention
    Preventing cancer is far more cost-effective and desirable than 
treating it. NCI's strategic plan supports research in: understanding 
and modifying behaviors that increase risk; reducing the influence of 
genetic and environmental risk factors; and interrupting the initiation 
of cancer through early medical intervention. A critical component of 
this multifaceted approach is ensuring that evidence-based advances 
that have been shown to inform and motivate people toward healthy 
behaviors are widely disseminated and accessible.
    The NCI uses multidisciplinary teams and a systems biology approach 
to identify early events and determine how to modify them. More than 
half of all cancers are related to modifiable behavioral factors, 
including tobacco use, diet, physical inactivity, sun exposure, and 
failure to get cancer screenings. The NCI supports research to 
understand how people perceive risk, make health-related decisions, and 
maintain healthy behavior. Prevention is the keystone to success in the 
battle against cancer.
Developing Effective and Efficient Treatments
    The future of cancer care is all about developing individualized 
therapies tailored to the specific characteristics of a patient's 
cancer. The NCI's research in this area concentrates on: identifying 
the determinants of metastatic behavior; validating cancer biomarkers 
for prognosis, metastasis, treatment response, and progression; 
accelerating the identification and validation of potential cancer 
molecular targets; minimizing the toxicities of cancer therapy; and 
integrating the clinical trial infrastructure for speed and efficiency. 
The completion of the Human Genome Project and breakthroughs resulting 
from The Cancer Genome Atlas project are leading the way toward an era 
of personalized medicine.
Overcoming Cancer Health Disparities
    Some minority and underserved population groups suffer 
disproportionately from cancer. Solving this issue will contribute 
significantly to reducing the cancer burden. The NCI's investments in 
this area include: studying the factors that cause cancer health 
disparities; working with underserved communities to develop targeted 
interventions; developing the knowledge base for integrating cancer 
services to the underserved; collaborating to implement culturally 
appropriate information dissemination approaches to underserved 
populations; and examining the role of health policy in eliminating 
cancer health disparities. One size does not fit all in cancer research 
special populations require special treatment to achieve success.
Training and Career Development for the Next Generation of Researchers
    Of critical importance to the viability of the long-term cancer 
research enterprise is supporting, fostering, and mentoring the next 
generation of investigators. The NCI historically devotes approximately 
4 percent of its budget to support training and career development, 
including sponsored traineeships, a Medical Scientist Training Program, 
special set-aside grant programs, and bridge grants for early career 
cancer investigators. Increased funding for these foundational 
opportunities is essential to retain the scientific workforce that is 
needed to continue the fight against cancer.
AACR's Initiatives Augment Support for the NCI
    The NCI is not working alone or in isolation in any of these key 
areas. NCI research scientists reach out to other organizations to 
further their work. The AACR is engaged in scores of initiatives that 
strengthen, support, and facilitate the work of the NCI. Just a few of 
AACR's contributions include:
  --sponsoring the largest meeting of cancer researchers in the world, 
        with more than 14,000 scientists, where 6,000 scientific 
        abstracts featuring the latest basic, translational, and 
        clinical scientific advances are presented;
  --publishing more than 3,400 original research articles each year in 
        six prestigious peer-reviewed scientific journals, including 
        Cancer Research, the most frequently cited cancer journal;
  --sponsoring the annual International Conference on Frontiers of 
        Cancer Prevention Research, the largest such prevention meeting 
        of its kind in the world;
  --supporting the work of the AACR Chemistry in Cancer Research 
        Working Group;
  --convening and supporting the AACR-FDA-NCI Cancer Biomarkers 
        Collaborative;
  --hosting, with NCI, the Molecular Targets and Cancer Therapeutics 
        Conference;
  --sponsoring and supporting a Minorities in Cancer Research Council 
        and a Women in Cancer Research Council;
  --conducting the scientific review and grants administration for the 
        more than $100 million donated to Stand Up To Cancer; and
  --raising and distributing more than $5 million in awards and 
        research grants.
Stable, Sustained Increases in Research Funding
    Remarkable progress is being made in cancer research, but much more 
remains to be done. Cancer costs the Nation more than $228 billion in 
direct medical costs and lost productivity due to illness and premature 
death. Respected University of Chicago economists Kevin Murphy and 
Robert Topel have estimated that even a modest 1 percent reduction in 
mortality from cancer would be worth nearly $500 billion in social 
value. In addition, investments in cancer research stimulate the local 
economy today and promise huge potential returns in the future. Thanks 
to successful past investments, promising research opportunities abound 
and must not be lost. To maintain our research momentum, AACR urges the 
United States House of Representatives to support a budget of $35.2 
billion for the NIH, including $5.8 billion for NCI.
                                 ______
                                 
   Prepared Statement of the American Association for Dental Research
Introduction
    Mr. Chairman and members of the subcommittee, I am David Wong, 
Director of the Dental Research Institute at the University of 
California, Los Angeles (UCLA) School of Dentistry. My testimony is on 
behalf of the American Association for Dental Research (AADR).
    I thank the subcommittee for this opportunity to testify about the 
exciting advances in oral health science. Research funded by the 
National Institutes of Health (NIH) has returned significant dividends 
in terms of recent advances in healthcare, including dental care and 
oral health research thanks to the efforts of the National Institute of 
Dental and Craniofacial Research (NIDCR). Since 1948, NIDCR has 
conducted research, trained researchers, and disseminated health 
information in order to improve the health of Americans and make it 
possible for them to live longer and healthier lives.
What Is the American Association for Dental Research?
    The AADR, headquartered in Alexandria, Virginia, is a nonprofit 
organization with more than 4,000 individual members and 100 
institutional members within the United States. Its mission is: (1) to 
advance research and increase knowledge for the improvement of oral 
health; (2) to support and represent the oral health research 
community; and (3) to facilitate the communication and application of 
research findings. AADR is the largest Division of the International 
Association for Dental Research.
Why Oral Health Is Important
    Oral health is an essential component of health throughout life. 
Poor oral health and untreated oral diseases and conditions can have a 
significant impact on quality of life. They can affect the most 
significant human needs including the ability to eat and drink, 
swallow, maintain proper nutrition, smile, and communicate.
    Over the past 50 years, there has been a dramatic improvement in 
oral health. Still, oral diseases remain a major concern. Oral health 
and general health are inseparable. Diseases and conditions of the 
mouth have a direct impact on the health of the entire body.
    Good oral health can help improve birth outcomes, keep children 
from developing painful cavities and prevent seniors, and those with 
chronic health conditions, from developing life-threatening 
complications. In recent years, new scientific reports have linked poor 
oral health to poor general health. Dental decay (cavities) is one of 
the most common chronic illnesses among children. Although most dental 
diseases are preventable, many children unnecessarily suffer from 
dental disease because of inadequate home care and lack of access to 
dental services. An estimated 51 million school hours per year are lost 
in the United States because of dental-related illness. Poor oral 
health has been related to decreased school performance, poor social 
relationships, and less success later in life.
    Employed adults in the United States lose more than 164 million 
hours of work each year as a result of oral health problems or dental 
visits. About 30 percent of adults 65 years old and older have lost all 
of their natural teeth. Older Americans with the poorest oral health 
are those who are economically disadvantaged, lack insurance, and are 
members of racial and ethnic minorities.
    As the Nation ages, oral health issues related to gum disease and 
the impact of medical treatments and medicines will increase. 
Maintaining good oral health throughout a person's life is important.
Research Accomplishments
    Oral and Systemic Health.--The oral cavity plays an important role 
in the overall health of the body. Some say the mouth is the body's 
mirror. And while associations between oral and systemic health can be 
made, specific cause-and-effect relationships remain elusive. It has 
been reported that 3 out of every 4 Americans have signs of mild 
periodontal disease. Almost 30 percent show signs of the more severe 
disease, chronic periodontitis. We now have reason to believe that the 
health of your teeth and gums may have a significant effect on the 
overall health of your body. Recent scientific literature suggests a 
strong relationship between oral disease and other systemic diseases 
and medical conditions.
    According to numerous studies, there are three ways oral disease 
may affect your overall health. First, bacteria from your gums enter 
the saliva. From the saliva it may adhere to water droplets within the 
air you inhale each time you breathe. These bacteria laden water 
droplets may be aspirated into the lungs, potentially causing pulmonary 
infection and pneumonia. This can be a serious problem for the elderly 
or those who may suffer from generalized weakened immunity, associated 
with chronic obstructive pulmonary disease (COPD). Inflammatory 
mediators found in inflamed gums called ``cytokines'' can also enter 
your saliva.
    Secondly, bacteria associated with periodontal disease can enter 
the body's circulatory system through the gums (periodontium) around 
teeth and travel to all parts of the body. As the oral bacteria 
travels, it may cause secondary infections or it may contribute to the 
disease process in other tissues and organ systems.
    Finally, inflammation associated with periodontal disease may 
stimulate a second systemic inflammatory response within the body and 
contribute to or complicate other disease entities that may have an 
inflammatory origin such as, cardiovascular disease, diabetes, and 
kidney disease.
    The goal of many studies being conducted at dental schools and 
research centers throughout the world is to understand just how oral 
bacteria affect overall health. As these studies are published, 
healthcare professionals will begin to better understand the underlying 
biological mechanisms that are responsible for this oral systemic 
connection.
    Health Disparities.--Despite remarkable improvements in the oral 
health of many, not everyone in the nation has benefited equally. Oral, 
dental, and craniofacial conditions remain among the most common health 
problems for low-income, racial/ethnic minority, disadvantaged, 
disabled, and institutionalized individuals across the life span. 
Dental caries, periodontal diseases, and oral and pharyngeal cancer are 
of particular concern.
    The NIDCR Health Disparities Research Program supports studies 
that:
  --Provide a better understanding of the basis of health disparities 
        and inequalities;
  --Develop and test interventions tailored and targeted to underserved 
        populations; and
  --Explore approaches to the dissemination and implementation of 
        effective findings to assure rapid translation into practice, 
        policy and action in communities.
    The NIDCR supports:
  --Research that seeks to understand a broadened array of determinants 
        of disparities/inequalities in oral health status and care at 
        multiple levels;
  --Interventional research designed to have a meaningful impact on 
        oral health status and quality of life that will influence 
        action in healthcare, public policy, or diseases/disability 
        prevention in communities;
  --Cost analyses of interventions as well as comparative effectiveness 
        studies;
  --Behavioral and social science intervention research that is 
        grounded in theory and considers mechanisms of action;
  --Research that utilizes new technologies and approaches that are 
        practical, culturally appropriate and sustainable for 
        individuals, caregivers, and workers.
  --Novel interventions as well as those that have previously been 
        untested with vulnerable populations.
    Researchers from many backgrounds and disciplines contribute to 
health disparities/inequalities research. Some of the disciplines of 
researchers on health disparities/inequalities research teams are 
genetics, dentistry and dental hygiene, and medicine and nursing. Teams 
that conceptualize, plan and conduct this type of research include 
community members of the disadvantaged and vulnerable population 
subgroups as partners in the research enterprise.
    Salivary Diagnostics.--Oral and systemic diseases can be difficult 
to diagnose, involving complex clinical evaluation and/or blood and 
urine tests that are labor intensive, expensive, and invasive. Now, 
after years of research, saliva is poised to be used as a noninvasive 
diagnostic fluid for a number of oral and systemic conditions. Salivary 
diagnostics has come of age. In just a little more than 6 years, 
research supported by the NIDCR has sprung to the forefront of basic, 
translational, and clinical research.
    Saliva not only combats bacteria and viruses that enter the mouth, 
but it also serves as a first line of defense in oral and systemic 
diseases. It contains many compounds indicating a person's overall 
health and disease status and, like blood or urine, its composition may 
be altered in the presence of a disease. Saliva is very easy to 
collect, providing a major advantage over the use of blood or urine for 
diagnostic tests. Saliva has the same biomarkers found in blood and 
urine.
    Oral cancer affects 38,000 Americans each year. The death rate 
associated with this cancer is especially high due to delayed 
diagnosis. Saliva is not only more accurate than blood for oral cancer 
detection, but saliva diagnostics will likely outperform other biomedia 
for other disease diagnostics as well. The risk of oral cancer, 
prostate cancer, breast cancer, and a host of other health conditions 
can be determined and often prevented when acting on information 
provided from a saliva hormonal assay. Saliva tests could prove to be a 
potentially life-saving alternative to detect diseases where early 
diagnosis is critical, such as certain cancers. For most cancers, 
successful treatment depends on early detection and successful 
prevention depends on the accurate evaluation of risk. Early detection 
of oral cancer will increase survival rate, improve the quality of life 
of cancer patients, and will result in a significant reduction in 
healthcare costs.
Conclusion
    As you can see, Mr. Chairman, there are many research opportunities 
with an immediate impact on patient care that need to be pursued. A 
consistent and reliable funding stream for NIH overall, and NIDCR in 
particular, is essential for continued improvement in the oral health 
of Americans.
    In order to sustain momentum in the field of oral and systemic 
health, health disparities, and salivary diagnostics, it is requested 
that NIH receive a fiscal year 2011 appropriation of $35 billion, of 
which NIDCR should receive an fiscal year 2011 appropriation of $481 
million.
    Thank you for the opportunity to testify.
                                 ______
                                 
    Prepared Statement of the American Academy of Family Physicians
    As one of the largest national medical organizations, representing 
94,700 family physicians, residents, and medical students, the AAFP 
recommends that the Senate Appropriations Subcommittee on Labor, Health 
and Human Services, and Education, and Related Agencies continue its 
commitment to title VII in fiscal year 2011 and increase funding for 
other key Health Resources and Services Administration programs to 
allow health reform to succeed. We also recommend increased funding for 
the Agency for Healthcare Research and Quality to provide better 
healthcare all.
              health resourses and services administration
    The Patient Protection and Affordable Care Act (Public Law 111-148) 
holds the promise of health security for Americans and moves us toward 
genuine health system reform, but it will require the support of this 
subcommittee to invest in the necessary primary care physician 
workforce. Primary care physicians will serve as a strong foundation 
for a more efficient and effective healthcare system. We are pleased 
that the health reform law reauthorizes the title VII health 
professions programs including the grants for the education and 
training of primary care physicians under title VII, section 747.
Workforce Shortages
    Successful implementation of health reform requires an investment 
to strengthen our Nation's primary care workforce. The current national 
primary care physician workforce of just more than 200,000 is estimated 
to be 8,000-10,000 lower than projected demand based on adjusted 
average population utilization patterns, according to the Robert Graham 
Center for Policy Studies in Family Medicine and Primary Care. However, 
distribution is not equitable leaving many areas with physician 
shortages, especially in rural and underserved communities with 
measurable social deprivation.
    In the coming years, medical services utilization is likely to rise 
given the increasing and aging population as well as the insured status 
of more of the populace. Those demographic trends will cause primary 
care physician shortages to worsen. By 2025, the current downturn in 
primary care physician production is expected to yield a workforce 28.5 
percent below need based on current practice models or 50 percent below 
the level needed to provide all Americans with a patient-centered 
medical home.
    The recently enacted health reform legislation includes a number of 
provisions to increase the primary care workforce. It amends and 
expands many of the existing health workforce programs authorized under 
title VII (health professions) and makes a number of changes to 
Medicare graduate medical education (GME) payments to teaching 
hospitals, in part to encourage the training of more primary care 
physicians. The new law also establishes a national commission to study 
projected health workforce needs and make appropriate recommendations. 
Increasing the level of Federal funding for primary care training would 
reinvigorate medical education, residency programs, as well as academic 
and faculty development in primary care to prepare physicians to 
support the patient centered medical home.
    This subcommittee has demonstrated its commitment to a strong 
primary care workforce by doubling the appropriation for training under 
title VII section 747 of the Public Health Services Act in the American 
Recovery and Reinvestment Act of 2009 (Public Law 111-5).
    The AAFP urges the subcommittee to provide a fiscal year 2011 
appropriation of $170 million for the title VII section 747 Primary 
Care Training and Enhancement and the Integrative Academic 
Administrative Units programs as authorized by the Patient Protection 
and Affordable Care Act. We also recommend an appropriation of at least 
$600 million for all of the Health Professions Training Programs 
authorized under title VII of the Public Health Services Act.
Rural Health Needs
    Physician shortages are harder for Americans in rural areas who 
face more barriers to care than those in urban and suburban areas. 
Rural residents also struggle with the higher rates of illness 
associated with lower socioeconomic status.
    We were pleased that title VII, section 749B, the ``Rural Physician 
Training Grants'' program, was enacted to help medical schools to 
recruit students most likely to practice medicine in underserved rural 
communities, provide rural-focused training and experience, and 
increase the number of recent medical school graduates who practice in 
underserved rural communities.
    Family physicians provide the majority of care for America's 
underserved and rural populations.\1\ Despite efforts to meet 
scarcities in rural areas, the shortage of primary care physicians 
continues. Studies, whether they be based on the demand to hire 
physicians by hospitals and physician groups or based on the number of 
individuals per physician in a rural area, all indicate a need for 
additional physicians in rural areas.
---------------------------------------------------------------------------
    \1\ Hing E, Burt CW. Characteristics of office-based physicians and 
their practices: United States, 2003-04. Series 13, No. 164. 
Hyattsville, MD: National Center for Health Statistics. 2007.
---------------------------------------------------------------------------
    HRSA's Office of Rural Health administers a number of programs to 
improve healthcare services to the quarter of our population residing 
in rural communities.
    The AAFP requests that the Committee provide $4 million in fiscal 
year 2011 for title VII section 749B Rural Physician Training Grants. 
The AAFP also encourages the subcommittee to provide $176 million for 
the programs administered by HRSA's Office of Rural Health to address 
the many unique health service needs of rural communities.
Teaching Health Centers
    The AAFP supported the authorization in the health reform 
legislation of the innovative Teaching Health Centers program under 
title VII section 749A to increase primary care physician training 
capacity. Federal financing of graduate medical education has led to 
training which occurs mainly in hospital inpatient settings in spite of 
the fact that most patient care is delivered outside of hospitals in 
ambulatory settings across the Nation. As a result, we have been 
training physicians using experiences which poorly prepare them to 
practice primary care in the community outside the hospital.
    The Teaching Health Center program will train primary care 
residents in nonhospital settings where most primary care is delivered. 
A Teaching Health Center can be any community based ambulatory care 
setting that operates a primary care residency program including 
Federally Qualified Health Centers or Federally Qualified Health 
Centers Look Alikes, Rural Health Clinics, Community Mental Health 
Centers, a Health Center operated by the Indian Health Service, or a 
center receiving title X grants.
    We were pleased that the Patient Protection and Affordable Care Act 
authorized a mandatory appropriations trust fund of $230 million over 5 
years to fund the operations of Teaching Health Centers. However, if 
this program is to be effective, there must be funds for the planning 
grants to establish newly accredited or expanded primary care residency 
programs.
    The AAFP recommends that the subcommittee appropriate the full 
authorized amount for the new title VII Teaching Health Centers 
development grants of $50 million for fiscal year 2011.
National Health Service Corps
    The National Health Services Corps (NHSC) has long served to 
provide access to healthcare to underserved Americans and offer 
incentives for practitioners to enter primary care. NHSC also provides 
important student debt relief for new physicians.
    Student debt was found to be a significant barrier to the 
production of primary care physicians by a report published in March 
2009, by the Graham Center with the support of the Macy Foundation.\2\ 
The AAFP supports the work of the NHSC toward the goal of full funding 
for the training of the health workforce and zero disparities in 
healthcare. We recognize that this subcommittee provided an increase 
for the NHSC in the American Recovery and Reinvestment Act, and we 
commend Congress for increasing the authorization level for the NHSC in 
the new health reform law.
---------------------------------------------------------------------------
    \2\ The Robert Graham Center. Specialty and Geographic Distribution 
of the Physician Workforce: What Influences Medical Student & Resident 
Choices? March 2, 2009.
---------------------------------------------------------------------------
    The AAFP recommends that the National Health Service Corps receive 
$414.1 million in fiscal year 2011 as authorized in the Patient 
Protection and Affordable Care Act which makes $290 million of that 
amount available from a fund created in section 10503.
Workforce Commission
    The AAFP has called for a commission on national health workforce 
issues which represents the multiple stakeholders and reports to 
Congress and the Executive Branch as appropriate. We were pleased that 
the health reform bill established a National Health Care Workforce 
Commission to provide ``analysis of, and recommendations for, 
eliminating the barriers to entering and staying in primary care, 
including provider compensation.'' We also recognize the importance of 
the National Center for Health Care Workforce Analysis as well as State 
and Regional Centers for such analysis. The legislation authorized such 
sums as necessary to establish the Commission as well as $8 million in 
planning grants and $150 million for implementation grants. The 
National Center was authorized at $7.5 million annually and the State 
and Regional Centers were authorized at $4.5 million annually.
    The AAFP recommends that the subcommittee fully fund the National 
Health Care Workforce Commission, the National and State and Regional 
Centers for Health Care Workforce Analysis in fiscal year 2011.
               agency for heatlhcare research and quality
    To assure the success of health reform, we must also focus on 
paying for quality rather than quantity. The mission of the Agency for 
Healthcare Research and Quality (AHRQ)--to improve the quality, safety, 
efficiency, and effectiveness of healthcare for all Americans--closely 
mirrors the AAFP's own mission. AHRQ is a small agency with a huge 
responsibility for research to support clinical decisionmaking, reduce 
costs, advance patient safety, decrease medical errors and improve 
healthcare quality and access. Family physicians recognize that AHRQ 
has a critical role to play in patient-centered, comparative 
effectiveness research.
Primary Care Extension Program
    The AAFP commends the Congress for authorizing in the Patient 
Protection and Affordable Care Act a Primary Care Extension Program to 
be administered by AHRQ to provide support and assistance to primary 
care providers about evidence-based therapies and techniques so that 
providers can incorporate them into their practice. Family physicians 
Kevin Grumbach, MD and James W. Mold, MD, MPH recognized that small 
primary care practices need a similar kind of support offered by the 
Federal Government to farms by the Cooperative Extension Service to 
implement innovation and best practices.\3\
---------------------------------------------------------------------------
    \3\ Grumbach K, Mold JW. A Health Care Cooperative Extension 
Services: Transforming Primary Care and Community Health. JAMA, June 
24, 2009--Vol. 301, No. 24.
---------------------------------------------------------------------------
    The AAFP requests that the subcommittee provide $731 million for 
AHRQ in fiscal year 2011 to provide for the funding requested by the 
President's budget request of $611 million as well as the important new 
Primary Care Extension program authorized by the health reform law at 
$120 million.
                                 ______
                                 
Prepared Statement of the American Association for Geriatric Psychiatry
    The American Association for Geriatric Psychiatry (AAGP) 
appreciates this opportunity to comment on issues related to fiscal 
year 2011 appropriations for mental health research and services. AAGP 
is a professional membership organization dedicated to promoting the 
mental health and well being of older Americans and improving the care 
of those with late-life mental disorders. AAGP's membership consists of 
approximately 2,000 geriatric psychiatrists as well as other health 
professionals who focus on the mental health problems faced by aging 
adults. Although we generally agree with others in the mental health 
community about the importance of sustained and adequate Federal 
funding for mental health research and treatment, AAGP brings a unique 
perspective to these issues because of the elderly patient population 
served by our members.
A National Health Crisis: Demographic Projections and the Mental 
        Disorders of Aging
    The aging of the baby boomer generation will result in an increase 
in the proportion of persons older than 65 from 12.7 percent currently 
to 20 percent in 2030, with the fastest growing segment of the 
population consisting of age 85 and older. During the same period, the 
number of older adults with major psychiatric illnesses will more than 
double, from an estimated 7 million to 15 million individuals, meeting 
or exceeding the number of consumers in discrete, younger age groups.
    The cost of treating mental disorders can be staggering. For 
example, it is estimated that total costs associated with the care of 
patients with Alzheimer's disease is more than $100 billion per year in 
the United States. Psychiatric symptoms (including depression, 
agitation, and psychotic symptoms) affect 30 to 40 percent of people 
with Alzheimer's and are associated with increased hospitalization, 
nursing home placement, and crippling family burden. These psychiatric 
symptoms can increase the cost of treating these patients by more than 
20 percent. However, these costs pale when compared to the costs of not 
treating mental disorders including lost work time, co-morbid illness, 
and increased nursing home utilization. It is also important to note 
the added burden, financial and emotional, on family caregivers, as the 
Nation's informal caregiving system is already under tremendous strain 
and will require more support in the years to come.
Preparing a Workforce To Meet the Mental Health Needs of the Aging 
        Population
    In 2008, the Institute of Medicine (IOM) released a study of the 
readiness of the Nation's healthcare workforce to meet the needs of its 
aging population. The Re-tooling for an Aging America: Building the 
Health Care Workforce called for immediate investments in preparing our 
healthcare system to care for older Americans and their families. AAGP 
is deeply grateful to this subcommittee and its House counterpart for 
providing, in the appropriations bill for fiscal year 2010, funding for 
a follow-up study of the current and projected mental and behavioral 
healthcare needs of the American people, particularly for aging and 
growing ethnic populations. This study, first proposed by Senator Kohl 
in the Retooling the Health Care Workforce for an Aging America Act (S. 
245), will complement the 2008 IOM study in providing in-depth 
consideration of the mental health needs of geriatric and ethnic 
minority populations that were precluded by the broad scope of the 
earlier one.
    Virtually all healthcare providers need to be fully prepared to 
manage the common medical and mental health problems of old age. In 
addition, the number of geriatric health specialists, including mental 
health providers, needs to be increased both to provide care for those 
older adults with the most complex issues and to train the rest of the 
workforce in the common medical and mental health problems of old age. 
The small numbers of specialists in geriatric mental health, combined 
with increases in life expectancy and the growing population of the 
Nation's elderly, foretells a crisis in healthcare that will impact 
older adults and their families nationwide.
    Already, there are programs administered by the Bureau of Health 
Professions in the HHS Health Resources and Services Administration 
administers that are aimed to help to assure adequate numbers of 
healthcare practitioners for the Nation's geriatric population, 
especially in underserved areas. The breadth of these programs has been 
strengthened by provisions from S. 245 included in the recently enacted 
Patient Protection and Affordable Care Act (PPACA).
    The geriatric health professions program supports these important 
initiatives:
  --The Geriatric Education Center (GEC) program provides 
        interdisciplinary training for healthcare professionals in 
        assessment, chronic disease syndromes, care planning, emergency 
        preparedness, and cultural competence unique to older 
        Americans. PPACA authorizes $10.8 million in supplemental 
        grants for the GEC Program to support training in geriatrics, 
        chronic care management, and long-term care for faculty in a 
        broad array of health professions schools, as well as direct 
        care workers and family caregivers. GECs receiving these grants 
        are required to develop and include material on depression and 
        other mental disorders common among older adults, medication 
        safety issues for older adults, and management of the 
        psychological and behavioral aspects of dementia in all 
        appropriate training courses.
  --The Geriatric Training for Physicians, Dentists, and Behavioral and 
        Mental Health Professionals provides fellows with exposure to 
        older adult patients in various levels of wellness and 
        functioning and from a range of socioeconomic and racial/ethnic 
        backgrounds.
  --The Geriatric Academic Career Awards (GACA) support the academic 
        career development of geriatric specialists in junior faculty 
        positions who are committed to teaching geriatrics in 
        professional schools. PPACA expands the disciplines eligible 
        for the awards. GACA recipients are required to provide 
        training in clinical geriatrics, including the training of 
        interdisciplinary teams of healthcare professionals.
  --PPACA authorized a new Geriatric Career Incentive Awards Program in 
        title VIII of the Public Health Service Act for grants to 
        foster great interest among a variety of health professionals 
        in entering the field of geriatrics, long-term care, and 
        chronic care management. This program was authorized for $10 
        million over 3 years.
  --A new program, authorized by PPACA at $10 million for 3 years, will 
        provide advanced training opportunities for direct care workers 
        in the field of geriatrics, long-term care or chronic care 
        management.
    AAGP strongly supports increased funding for the existing programs, 
particularly as the disciplines included have been expanded, and 
funding to fully authorized levels for the new programs.
National Institutes of Health (NIH) and National Institute of Mental 
        Health (NIMH)
    With the graying of the population, mental disorders of aging 
represent a growing crisis that will require a greater investment in 
research to understand age-related brain disorders and to develop new 
approaches to prevention and treatment. Even in the years in which 
funding was increased for NIH and the NIMH, these increases did not 
always translate into comparable increases in funding that specifically 
address problems of older adults. For instance, according to figures 
provided by NIMH, NIMH total aging research amounts decreased from 
$106,090,000 in 2002 to $85,164,000 in 2006 (dollars in thousands: 
$106,090 in 2002, $100,055 in 2003, $97,418 in 2004, $91,686 in 2005, 
$85,164 in 2006).
    The critical disparity between federally funded research on mental 
health and aging and the projected mental health needs of older adults 
is continuing. If the mental health research budget for older adults is 
not substantially increased immediately, progress to reduce mental 
illness among the growing elderly population will be severely 
compromised. While many different types of mental and behavioral 
disorders occur in late life, they are not an inevitable part of the 
aging process, and continued and expanded research holds the promise of 
improving the mental health and quality of life for older Americans. 
This trend must be immediately reversed to ensure that our next 
generation of elders is able to access effective treatment for mental 
illness. Federal funding of research must be broad-based and should 
include basic, translational, clinical, and health services research on 
mental disorders in late life.
    AAGP believes that it is critical that NIH begin to invest 
increased funding in future evidence-based treatments for our Nation's 
elders. Annual increases of funds targeted for geriatric mental health 
research at NIH should be used to: (1) identify the causes of age-
related brain and mental disorders to prevent mental disorders before 
they devastate lives; (2) speed the search for effective treatments and 
efficient methods of treatment delivery; and (3) improve the quality of 
life for older adults with mental disorders.
            Participation of Older Adults in Clinical Trials
    Federal approval for most new drugs is based on research 
demonstrating safety and efficacy in young and middle-aged adults. 
These studies typically exclude people who are old, who have more than 
one health problem, or who take multiple medications. As the population 
ages, that is the very profile of many people who seek treatment. Thus, 
there is little available scientific information on the safety of drugs 
approved by the Food and Drug Administration (FDA) in substantial 
numbers of older adults who are likely to take those drugs. Pivotal 
regulatory trials never address the special efficacy and safety 
concerns that arise specifically in the care of the Nation's mentally 
ill elderly. This is a critical public health obligation of the 
Nation's health agencies. Just as the FDA has begun to require 
inclusion of children in appropriate studies, the agency should work 
closely with the geriatric research community, healthcare consumers, 
pharmaceutical manufacturers, and other stakeholders to develop 
innovative, fair mechanisms to encourage the inclusion of older adults 
in clinical trials. Clinical research must also include elders from 
diverse ethnic and cultural groups. In addition, AAGP urges that 
Federal funds be made available each year for support of clinical 
trials involving older adults.
            Study on NIH Funding for Mental Disorders among Older 
                    Adults
    As little emphasis has been placed on the development of new 
treatments for geriatric mental disorders, AAGP encourages NIH to 
promote the development of new medications specifically targeted at 
brain-based mental disorders of the elderly. AAGP urges this 
subcommittee to request a Government Accountablity Office (GAO) study 
on spending by NIH on conditions and illnesses related to the mental 
health of older individuals. NIH has already undertaken, in its 
Blueprint for Neuroscience Research, an endeavor to enhance cooperative 
activities among NIH Institutes and Centers that support research on 
the nervous system. A GAO study of the work being done by these 16 
Institutes in areas that predominately involve older adults could 
provide crucial insights into possible new areas of cooperative 
research, which in turn will lead to advances in prevention and 
treatment for these devastating illnesses.
Center for Mental Health Services
    It is critical that there be adequate funding for the mental health 
initiatives under the jurisdiction of the Center for Mental Health 
Services (CMHS) within the Substance Abuse and Mental Health Services 
Administration (SAMHSA). While research is of critical importance to a 
better future, today's patients must also receive appropriate treatment 
for their mental health problems.
            Evidence-based Mental Health Outreach and Treatment for the 
                    Elderly
    For the last 8 years $5 million has been allocated for evidence-
based mental health outreach and treatment to the elderly. AAGP urges 
an increase in funding from $5 million to $10 million for this 
essential program to disseminate and implement evidence-based practices 
in routine clinical settings across the States.
            Centers of Excellence for Depressive and Bipolar Disorders
    PPACA also included authorization for a new national network of 
centers of excellence for depressive and bipolar disorders, which will 
enhance the coordination and integration of physical, mental and social 
care that are critical to the identification and treatment of 
depression and other mental disorders across the lifespan. The work of 
these centers will help to disseminate and implement evidence-based 
practices in clinical settings throughout the country. AAGP strongly 
supports funding for the centers authorized by this legislation.
Conclusion
    AAGP recommends:
  --Increased funding for the geriatric health professions education 
        programs under title VII of the Public Health Service Act and 
        full funding for new programs authorized by the PPACA;
  --Funding to support clinical trials involving older adults;
  --A GAO study on spending by NIH on conditions and illnesses related 
        to the mental health of older individuals;
  --Increased funding for evidence-based geriatric mental health 
        outreach and treatment programs at CMHS;
  --Funding for Centers of Excellence for Depressive and Bipolar 
        Disorders.
                                 ______
                                 
    Prepared Statement of the American Association of Immunologists
    The American Association of Immunologists (AAI), a not-for-profit 
professional association representing more than 6,500 of the world's 
leading experts on the immune system, appreciates having this 
opportunity to submit testimony regarding fiscal year 2011 
appropriations for the National Institutes of Health (NIH). The vast 
majority of AAI members--research scientists and physicians who work in 
academia, Government, and industry--depend on NIH funding to advance 
their work.\1\ With more than 80 percent of the $30.5 billion budget 
awarded to scientists in communities throughout the United States and 
around the world, NIH funding advances not only immunological and 
biomedical research, but also regional and national economies by 
creating and supporting skilled jobs that are focused on improving 
human health.\2\
---------------------------------------------------------------------------
    \1\ AAI members receive grants from the National Institute of 
Allergy and Infectious Diseases (NIAID), the National Cancer Institute; 
the National Institute on Aging, and the National Institute of 
Arthritis and Musculoskeletal and Skin Diseases, but may also receive 
grants from other NIH Institutes and Centers.
    \2\ NIH funding supports ``almost 50,000 competitive grants to more 
than 325,000 researchers at over 3,000 universities, medical schools, 
and other research institutions in every State and around the world.'' 
See http://www.nih.gov/about/budget.htm (2/8/10).
---------------------------------------------------------------------------
The Immune System's Wide Reach
    Influenza, HIV/AIDS, malaria, tuberculosis, salmonella, the common 
cold, and more--all are infectious diseases that challenge and 
sometimes overcome the defenses mounted by the immune system. Chronic 
diseases like cancer, diabetes, multiple sclerosis, rheumatoid 
arthritis, asthma, inflammatory bowel disease, and lupus, are either 
caused by--or due in large part to--an overactive or underactive immune 
response.\3\ Scientists' discovery of ways to prevent, diagnose, and 
treat these diseases depends on increased knowledge in the field of 
immunology.\4\ Important new challenges require understanding the 
immune response to: (1) pathogens that threaten to become the next 
pandemic,\5\ (2) man-made and natural infectious organisms that are 
potential agents of bioterrorism (including plague, smallpox, and 
anthrax),\6\ and (3) environmental threats. The immune system, 
therefore, plays a crucial role in preserving human and animal health 
\7\ and increasingly--in our fast-paced, interconnected world--ensuring 
both community and global health.
---------------------------------------------------------------------------
    \3\ The immune system works by recognizing and attacking bacteria 
and viruses inside the body and by controlling the growth of tumor 
cells. A healthy immune system can protect its human or animal host 
from illness or disease either entirely--by destroying the virus, 
bacterium, or tumor cell--or partially, resulting in a less serious 
illness. It is also responsible for the rejection response following 
transplantation of organs or bone marrow. The immune system can also 
malfunction, causing the body to attack itself, resulting in an 
``autoimmune'' disease, such as Type 1 diabetes, multiple sclerosis, 
lupus or rheumatoid arthritis.
    \4\ Although the first vaccine (against smallpox) was developed in 
1798, most of our basic understanding of the immune system has 
developed in the last 30-40 years, making immunology ripe for new 
discoveries.
    \5\ While researchers and public health professionals must respond 
to emergent threats, AAI believes that the best preparation for a 
pandemic is to focus on basic research to combat seasonal flu, 
including building capacity, pursuing new production methods, and 
seeking optimized flu vaccines and delivery methods.
    \6\ To best protect against bioterrorism, scientists should focus 
on basic research, including working to understand the immune response, 
identifying new and potentially modified pathogens, and developing 
tools (including new and more potent vaccines) to protect against these 
pathogens.
    \7\ Research on the immune system leads to new vaccines/treatments 
for pets and livestock, and improves our understanding of animal to 
human transmission [as, for example, with H1N1 influenza (``swine 
flu'')].
---------------------------------------------------------------------------
Recent Advances in Immunological Research
    Knowledge of the intricacies of the immune system has led to 
unprecedented medical advances such as successful organ 
transplantation, new vaccines, and better treatments. Recent 
immunological advances may further yield profound improvements for 
people afflicted with debilitating diseases. One such advance involves 
lupus, a serious chronic autoimmune disease affecting some 1.5 million 
Americans.\8\ Exciting recent results from the largest clinical trials 
yet performed have opened the door for the first new drug for effective 
lupus treatment in 50 years. These trials show that a new type of 
therapeutic that inactivates the natural molecule ``BLyS'' results in 
substantial disease reduction in lupus patients. Both the discovery of 
BLyS and the development of novel effective treatments are a product of 
decades of basic immunology research by scientists supported by NIH and 
other nonprofit organizations.
---------------------------------------------------------------------------
    \8\ See http://www.lupusresearch.org/about/press-room/press-
releases/new-study-findings-represent.html.
---------------------------------------------------------------------------
    An advance with international importance was the successful 
response of the biomedical research community to the 2009 swine flu/
H1N1 influenza outbreak. Researchers working against time were able to 
develop an effective vaccine within 4 months after the first U.S. case 
was diagnosed on April 13, 2009 \9\. This success depended on years of 
comprehensive basic research on the immune and viral systems, including 
the ability to identify the molecular DNA sequence of the virus 
necessary to produce a vaccine. This provided an excellent ``test run'' 
for a future pandemic of even more significant public health 
concern,\10\ and demonstrated a successful collaboration among basic 
and translational scientists, clinical practitioners, and 
pharmacological companies against an infectious disease pandemic.
---------------------------------------------------------------------------
    \9\ See http://www3.niaid.nih.gov/about/directors/pdf/
110409NIAIDStatementLHHSH1N1.pdf. On 7/22/09, NIAID reported the launch 
of clinical trials on two candidate H1N1 vaccines in adults (see http:/
/www.nih.gov/news/health/jul2009/niaid-22.htm). On 8/18, NIAID 
announced it would begin trials in children (see http://
www3.niaid.nih.gov/news/newsreleases/2009/H1N1pedvax.htm). The Food and 
Drug Administration approved a vaccine on 9/15; it was made publicly 
available on 10/5 (see http://www3.niaid.nih.gov/about/directors/pdf/
110409NIAIDStatementLHHSH1N1.pdf).
    \10\ A pandemic can be mild or serious. Seasonal influenza, which 
may or may not lead to a pandemic, results in 200,000 hospitalizations 
and 36,000 deaths nationwide in an average year. A serious influenza 
pandemic could result in the hospitalization of nearly 10 million 
Americans and the death of almost 2 million, at a projected cost of 
over $680 billion. (See ``Pandemic Influenza: Warning, Children At-
Risk,'' Trust for America's Health, 10/07, at http://
healthyamericans.org/reports/fluchildren/KidsPandemicFlu.pdf).
---------------------------------------------------------------------------
    Another advance involves the successful use of new and improved 
technologies to identify all the human genes stimulated by a vaccine, 
in this case, the Yellow Fever vaccine.\11\ This was the first time 
scientists could determine how different individuals immunized with the 
same vaccine responded on a molecular level; this approach will 
significantly enhance our ability to determine how effective vaccines 
stimulate protective responses and may lead the way to customize 
vaccines to be more effective for the individual.
---------------------------------------------------------------------------
    \11\ Published in Nature Immunology, Jan. 10, 2009, pp. 116-25, 
from the laboratory of B. Pulendran.
---------------------------------------------------------------------------
The NIH Budget: Building on a Strong Start
    AAI greatly appreciates the strong support of this subcommittee for 
medical research, from doubling the NIH budget (fiscal year 1999 to 
fiscal year 2003), to passing the fiscal year 2009 and 2010 
Appropriations Acts, to including in the ``American Recovery and 
Reinvestment Act of 2009'' (ARRA) a $10.4 billion supplemental 
appropriation for NIH. ARRA underscored both the President's and 
Congress's realization that investing in biomedical research would not 
only improve individual and global health, but also stimulate economic 
activity and job creation: NIH has estimated that each NIH grant 
supports, on average, ``6 to 7 in-part or full scientific jobs,'' \12\ 
while Families USA, a nonprofit consumer organization, has found that, 
on average, each $1 of NIH funding going into a State generates more 
than twice as much in State economic output.\13\
---------------------------------------------------------------------------
    \12\ Testimony of Raynard S. Kington, M.D, Ph.D., Acting Director, 
National Institutes of Health, Witness appearing before the House 
Subcommittee on Labor-HHS-Education Appropriations, March 26, 2009.
    \13\ ``In Your Own Backyard: How NIH Funding Helps Your State's 
Economy,'' Families USA (June 2008).
---------------------------------------------------------------------------
    As a result of this generous infusion of funds, NIH has also been 
able to fund many excellent, innovative projects with great promise for 
advancing human health, and to invest in modernizing the Nation's 
research infrastructure. And while AAI--and the biomedical research 
community--are deeply grateful for these funds, AAI is concerned that 
imminent advances may not come to fruition if the fiscal year 2011 
appropriations level fails to acknowledge the crucial role that ARRA 
funding now plays within the NIH budget. The AAI funding recommendation 
for fiscal year 2011 is premised on that concern and designed to 
address that future.
AAI Recommendation for NIH Funding for Fiscal Year 2011: Achieving the 
        President's Vision
    Although President Obama's proposed fiscal year 2011 budget of 
$32.2 billion, a 3.2 percent increase over the regular fiscal year 2010 
appropriations level, is a good next step toward achieving the 
President's vision that ``investments in research will improve and save 
countless lives for generations to come . . .,'' \14\ it will not 
ensure that important ongoing research currently funded by combined 
regular and supplemental (ARRA) appropriations is not interrupted, 
suspended or delayed. AAI urges the subcommittee to provide NIH with a 
fiscal year 2011 budget of $37 billion to preserve ongoing research and 
to enable NIH to grow modestly from its 2009 and 2010 program levels of 
$35 billion.\15\ Such a budget would also provide NIH with 
predictable, sustained funding that stabilizes ongoing research 
projects and the overall research enterprise, inspiring many of our 
brightest young students to pursue careers in biomedical research.\16\
---------------------------------------------------------------------------
    \14\ See http://www.whitehouse.gov/blog/09/09/30/
An_Historic_Commitment_to_Research.
    \15\ After adding an increase for the projected rate of biomedical 
research inflation (3.2 percent), and (2) a modest increase for growth 
(2.5 percent), the total increase requested above the fiscal year 2010 
program level is 5.71 percent.
    \16\ Presidential candidate Barack Obama acknowledged that 
``Sustained and predictable increases in research funding will allow 
the United States to . . . provide greater support for . . . young 
scientists at the beginning of their careers.'' (See http://
www.sciencedebate2008.com/www/index.php?id=42) (8/30/08).
---------------------------------------------------------------------------
NIH Research Priorities for Fiscal Year 2011
    AAI is concerned that the President's proposed budget focuses 
primarily on large-scale, trans-NIH initiatives, at the expense of 
investigator-initiated research, a proven route to medical advancement. 
In fact, the fiscal year 2011 budget decreases the number of competing 
Research Project Grants by 199. AAI urges that the budget support the 
NIH Director's stated commitment to individual investigator-initiated 
research. In addition, AAI supports the proposed 6 percent increase for 
the Ruth Kirschstein National Research Service Awards, a long-needed 
training stipend increase for the young scientists who are the next 
generation of research leaders. AAI also supports the President's 
request for $300 million for the Global Fund to Fight AIDS, 
Tuberculosis, and Malaria--infectious diseases which devastate people 
and communities worldwide.
Preserving High-quality Peer Review
    Peer review is at the heart of the many decades of successful 
biomedical research in the United States; the NIH peer review system is 
internationally respected and highly successful. NIH is currently 
implementing dramatic changes intended to improve its system. Although 
AAI supports NIH's effort to address legitimate problems, AAI is 
concerned that some of the changes have harmed the peer review system, 
its reviewers, and its applicants, and believes that independent 
oversight and evaluation is urgently needed.
The NIH Common Fund
    AAI is concerned that the proposed increase of $17.5 million for 
the NIH Common Fund (CF), which supports trans-NIH initiatives, may 
over-emphasize large-scale, multi-disciplinary initiatives, as compared 
with entrepreneurial investigator-initiated approaches. Although AAI 
recognizes the value of interdisciplinary research, the CF should not 
permit the funding less well regarded research. Instead, all CF 
applications should be subject to a transparent and rigorous peer 
review process like all other funded research grant applications. In 
addition, AAI recommends that the CF not grow faster than the overall 
NIH budget so that individual researchers, who drive American 
scientific advancement, are not marginalized.
NIH Operations and Oversight
    AAI strongly supports the President's request for $1.525 billion 
for the NIH Research, Management, and Services account, which supports 
the management, monitoring, and oversight of all research activities. 
NIH must have adequate resources to supervise and oversee its 
increasingly large and complex portfolio.
The NIH Public Access Policy
    AAI requests that the subcommittee require NIH to publicly report 
on the cost of the NIH Public Access Policy (Policy), including the 
cost of implementing the voluntary Policy (May 2, 2005-January 11, 
2008); the mandatory Policy (fiscal year 2009 and fiscal year 2010); 
and the Policy in fiscal year 2011 (projected cost). AAI believes that 
the Policy duplicates publications and services which are already 
provided cost-effectively and well by the private sector. The private 
sector, including not-for-profit scientific societies, already 
publishes--and makes publicly available--thousands of scientific 
journals (and millions of articles) that report cutting-edge research 
funded by NIH and other entities. AAI urges that, rather than 
supporting a Government bureaucracy that competes with private 
publishers, NIH should partner with publishers to enhance public access 
while addressing publishers' key concerns, including respecting 
copyright law and ensuring journals' continued ability to provide 
quality, independent peer review of NIH-funded research.
Conclusion
    AAI thanks the subcommittee for its strong support for biomedical 
research, the NIH, and the biomedical researchers who devote their 
lives to scientific discovery and the prevention, treatment, and cure 
of disease.
                                 ______
                                 
   Prepared Statement of the Association of American Medical Colleges
    The Association of American Medical Colleges (AAMC) is a not-for-
profit association representing all 131 accredited U.S. medical 
schools; nearly 400 major teaching hospitals and health systems; and 
nearly 90 academic and scientific societies. Through these institutions 
and organizations, the AAMC represents 128,000 faculty members, 75,000 
medical students, and 110,000 resident physicians. The association 
appreciates the opportunity to address four programs that play critical 
roles in assisting medical schools and teaching hospitals to fulfill 
their missions of education, research, and patient care: the National 
Institutes of Health (NIH); the Agency for Healthcare Research and 
Quality (AHRQ); health professions education funding through the Health 
Resources and Services Administration (HRSA)'s Bureau of Health 
Professions; and the National Health Service Corps (NHSC). The AAMC 
thanks the Subcommittee for its steadfast support of these programs.
    National Institutes of Health (NIH).--The AAMC believes that the 
NIH is one of the Nation's greatest achievements. The Federal 
Government's unwavering support for medical research through the NIH 
has created a scientific enterprise that is the envy of the world and 
has contributed greatly to improving the health and well-being of all 
Americans--indeed of all humankind.
    The AAMC supports the Obama administration's proposal to increase 
funding for NIH to $32 billion in fiscal year 2011. Boosting NIH's 
funding to a level that keeps pace with biomedical inflation recognizes 
the need for continued, predictable growth in the Nation's medical 
research effort. At a time when the Nation faces extraordinary fiscal 
challenges, the President's commitment to medical research is a wise 
investment that will yield long-term benefits for our Nation's health. 
The partnership between NIH and America's medical schools and teaching 
hospitals continues to serve as the engine for this Nation's search for 
an ever-greater understanding of the mechanisms underlying human health 
and disease. The foundation of scientific knowledge that continues to 
be built through NIH-funded research drives medical innovation that 
improves health and quality of life through new and better diagnostics, 
improved prevention strategies, and more effective treatments.
    For example, a new ability to comprehend the genetic mechanisms 
responsible for disease is already providing insights into diagnostics 
and identifying a new array of drug targets. We are entering an era of 
personalized medicine, where prevention, diagnosis, and treatment of 
disease can be individualized, instead of using the standardized 
approach that all too often wastes healthcare resources and potentially 
subjects patients to unnecessary and ineffective medical treatments and 
diagnostic procedures.
    Peer-reviewed, investigator-initiated basic research is the heart 
of NIH research. These inquiries into the fundamental cellular, 
molecular, and genetic events of life are essential if we are to make 
real progress toward understanding and conquering disease. Additional 
funding is needed to sustain and enhance basic research activities, 
including increasing support for current researchers and promoting 
opportunities for new investigators and in those areas of biomedical 
science that have historically been underfunded.
    The application of the results of basic research to the detection, 
diagnosis, treatment, and prevention of disease is the ultimate goal of 
medical research. Clinical research not only is the pathway for 
applying basic research findings, but it often provides important 
insights and leads to further basic research opportunities. The AAMC 
supports additional funding for the continued expansion of clinical 
research and clinical research training opportunities, including 
rigorous, targeted postdoctoral training; developmental support for new 
and junior investigators; and career support for established clinical 
investigators, especially to enable them to mentor new investigators.
    Anecdotal evidence suggests that changes in healthcare delivery 
systems and other financial factors pose a serious threat to the 
research infrastructure of America's medical schools and teaching 
hospitals, particularly for clinical research. The AAMC supports 
efforts to enhance the research infrastructure, including resources for 
clinical and translational research; instrumentation and emerging 
technologies; and animal and other research models.
    The AAMC supports efforts to reinvigorate research training, 
including developing expanded medical research opportunities for 
minority and disadvantaged students. For example, the volume of data 
being generated by genomics research, as well as the increasing power 
and sophistication of computing assets on the researcher's lab bench, 
have created an urgent need, both in academic and industrial settings, 
for talented individuals well-trained in biology, computational 
technologies, bioinformatics, and mathematics to realize the promise 
offered by modern interdisciplinary research.
    The AAMC is heartened by the administration's proposals to provide 
a 6 percent stipend increase for predoctoral and postdoctoral research 
trainees supported by NIH's Ruth L. Kirschstein National Research 
Service Awards program. These stipend increases are necessary if 
medical research is to remain an attractive career option for the 
brightest U.S. students. Attracting the most talented students and 
postdoctoral fellows is essential if the United States is to retain its 
position of world leadership in biomedical and behavioral research.
    As President Obama noted in his State of the Union address, ``We 
need to encourage American innovation.'' Research conducted and 
supported by NIH has played a major role in the development of the 
biotechnology, pharmaceutical, and medical device industries and 
continues to provide the basis for their continued success. Sustaining 
this Nation's investment in medical research will continue to 
strengthen our Nation's economic health by creating skilled and high-
paying jobs, new products and industries, and improved technologies.
    Agency for Healthcare Research and Quality.--Complementing the 
medical research supported by NIH, AHRQ sponsors health services 
research designed to improve the quality of healthcare, decrease 
healthcare costs, and provide access to essential healthcare services 
by translating research into measurable improvements in the healthcare 
system. The AAMC firmly believes in the value of health services 
research as the Nation continues to strive to provide high-quality, 
efficient, and cost-effective healthcare to all of its citizens. The 
AAMC supports the President's request for AHRQ, which calls for $611 
million for the agency in fiscal year 2011.
    As the lead Federal agency to improve healthcare quality, AHRQ's 
overall mission is to support research and disseminate information that 
improves the delivery of healthcare by identifying evidence-based 
medical practices and procedures. The funding increase proposed in the 
President's budget will allow AHRQ to continue to support patient-
centered health research and other valuable research initiatives, 
including strategies for translating the knowledge gained from patient-
centered research into clinical practice, healthcare delivery, and 
provider and patient behaviors. These research findings will better 
guide and enhance consumer and clinical decisionmaking, provide 
improved healthcare services, and promote efficiency in the 
organization of public and private systems of healthcare delivery.
    While we support a strong investment in patient-centered health 
research, we also encourage the subcommittee to maintain balance across 
AHRQ's portfolio to allow the agency to support the full spectrum of 
activities aligned with its mission. For example, the President's 
budget does not continue funding for the Centers for Education and 
Research in Therapeutics (CERTs) grants, and instead, funds six new 
CERTs in the Patient-Centered Health Research portfolio and one new 
pediatric patient safety CERT. The AAMC believes AHRQ is perfectly 
positioned to take the lead on improving the quality of healthcare 
through the reduction of medical errors, and strongly supports the 
CERTs program; we encourage the subcommittee not to limit or narrow its 
scope. The request also decreases other initiatives within the agency's 
``Crosscutting Activities'' portfolio, including a proposed decrease 
for investigator-initiated research that would preclude AHRQ from 
offering any new grants in this area.
    Additionally, in recent years, much of the funding for AHRQ has 
been derived from interagency transfers, rather than direct 
appropriations. The AAMC urges the subcommittee to provide the majority 
of the agency's funding through direct appropriations.
    Health Professions Funding.--The AAMC thanks the Subcommittee for 
the increased support in recent years for the health professions and 
nursing education programs under titles VII and VIII of the Public 
Health Service Act. These programs work to improve the diversity, 
distribution, and supply of the health professions workforce, with an 
emphasis on primary care and interdisciplinary training.
    The AAMC is pleased that the Patient Protection and Affordable Care 
Act (Public Law 111-148) updated and restructured the existing title 
VII and VIII programs to improve their efficiency, effectiveness, and 
accountability, and reauthorized them at funding levels that reflect 
the health workforce needs of the Nation. To enable the programs to 
perform most optimally and help achieve the goals of the legislation, 
the AAMC joins the Health Professions and Nursing Education Coalition 
(HPNEC) in support of an fiscal year 2011 appropriation of at least 
$600 million for the existing title VII and title VIII programs. This 
funding level will allow the programs to continue educating and 
training health professionals that are prepared to respond to the 
increased demand for healthcare services, improving access and quality 
of care across the country.
    In addition to the existing health professions programs, the 
legislation authorizes several new programs and initiatives under 
titles VII and VIII designed to mitigate health workforce challenges 
and expand the scope of the programs to additional fields. These new 
programs recognize the breadth of shortages across healthcare 
disciplines and aim to alleviate these existing and looming workforce 
shortages. The AAMC encourages the subcommittee to support these new 
programs with an investment that supplements the support for the core 
of title VII and VIII programs that have demonstrated their 
effectiveness.
    During their 40-year existence, the title VII and VIII programs 
have created a network of initiatives across the country that supports 
the training of many disciplines of health providers. These are the 
only Federal programs designed to create infrastructures at health 
professions schools and in their communities that facilitate customized 
training designed to bring the latest emerging national priorities to 
the populations at large and meet the healthcare needs of special, 
underserved populations. The AAMC urges the subcommittee to continue 
its commitment to the title VII and VIII health professions programs.
    National Health Service Corps.--The AAMC lauds the ambition of the 
Patient Protection and Affordable Care Act to provide up to $414 
million for the NHSC in fiscal year 2011 through discretionary 
appropriations and the HHS Secretary's new Community Health Center 
(CHC) Fund.
    The NHSC is widely recognized--both in Washington and in the 
underserved areas it helps--as a success on many fronts. It improves 
access to healthcare for the growing numbers of underserved Americans, 
provides incentives for practitioners to enter primary care, reduces 
the financial burden that the cost of health professions education 
places on new practitioners, and helps ensure access to health 
professions education for students from all backgrounds. Over its 39-
year history, the NHSC has offered recruitment incentives, in the form 
of scholarship and loan repayment support, to more than 29,000 health 
professionals committed to serving the underserved.
    In spite of the NHSC's success, demand for health professionals 
across the country remains high. At a field strength of 4,760 in fiscal 
year 2009, the NHSC fell more than 24,000 practitioners short of 
fulfilling the need for primary care, dental, and mental health 
practitioners in Health Professions Shortage Areas (HPSAs), as 
estimated by HRSA. While the ``American Recovery and Reinvestment Act 
of 2009'' (Public Law 111-5) provided a temporary boost in annual 
awards, this increase must be sustained to help address the health 
professionals workforce shortage and growing maldistribution.
    The AAMC supports the President's fiscal year 2011 budget request 
($169 million), which will ensure that the NHSC has access to 
additional dedicated funding through the HHS Secretary's CHC Fund. The 
AAMC further recommends that the subcommittee include report language 
directing the Secretary to provide enhanced funding for the NHSC over 
the fiscal year 2008 level, as directed under healthcare reform.
                                 ______
                                 
  Prepared Statement of the American Association of Nurse Anesthetists
            fiscal year 2011 appropriations request summary

----------------------------------------------------------------------------------------------------------------
                                                                                          AANA fiscal year 2011
                                       Fiscal year 2010 actual  Fiscal year 2011 budget          request
----------------------------------------------------------------------------------------------------------------
HHS/HRSA/BHPr Title VIII Advanced      Awaiting grant           Grant allocations not    $4 million for nurse
 Education Nursing, Nurse Anesthetist   allocations--in fiscal   specified.               anesthesia education
 Education Reserve.                     year 2009 awards
                                        amounted to
                                        approximately $3.5
                                        million.
Total for Advanced Education Nursing,  $64.44 million for       $64.44 million for       $76.514 million for
 from Title VIII.                       Advanced Education       Advanced Education       Advanced Education
                                        Nursing.                 Nursing.                 Nursing
Title VIII HRSA BHPr Nursing           $243,872,000...........  $243,872,000...........  $267,300,000
 Education Programs
CDC/Division of Healthcare Quality                                                       $26 million
 and Promotion.
HHS/Office of the Secretary..........                                                    $1 million
----------------------------------------------------------------------------------------------------------------

    The American Association of Nurse Anesthetists (AANA) is the 
professional association for the 44,000 Certified Registered Nurse 
Anesthetists (CRNAs) and student nurse anesthetists practicing today, 
representing over 90 percent of the nurse anesthetists in the United 
States. Today, CRNAs deliver approximately 32 million anesthetics to 
patients each year in the U.S. CRNA services include administering the 
anesthetic, monitoring the patient's vital signs, staying with the 
patient throughout the surgery, and providing acute and chronic pain 
management services. CRNAs provide anesthesia for a wide variety of 
surgical cases and in some states are the sole anesthesia providers in 
almost 100 percent of rural hospitals, affording these medical 
facilities obstetrical, surgical, and trauma stabilization, and pain 
management capabilities. CRNAs work in every setting in which 
anesthesia is delivered, including hospital surgical suites and 
obstetrical delivery rooms, ambulatory surgical centers (ASCs), pain 
management units and the offices of dentists, podiatrists and plastic 
surgeons. Nurse anesthetists are experienced and highly trained 
anesthesia professionals whose record of patient safety in the field of 
anesthesia was bolstered by the Institute of Medicine report in 2000, 
which found that anesthesia is 50 times safer than in the 1980s. (Kohn 
L, Corrigan J, Donaldson M, ed. To Err is Human. Institute of Medicine, 
National Academy Press, Washington DC, 2000.) Nurse anesthetists 
continue to set for themselves the most rigorous continuing education 
and re-certification requirements in the field of anesthesia. Relative 
anesthesia patient safety outcomes are comparable among nurse 
anesthetists and anesthesiologists, with Pine having concluded, ``the 
type of anesthesia provider does not affect inpatient surgical 
mortality.'' (Pine, Michael MD et al. ``Surgical mortality and type of 
anesthesia provider.'' Journal of American Association of Nurse 
Anesthetists. Vol. 71, No. 2, p. 109--116. April 2003.)
    Even more recently, a study published in Nursing Research indicates 
that obstetrical anesthesia, whether provided by CRNAs or 
anesthesiologists, is extremely safe, and there is no difference in 
safety between hospitals that use only CRNAs compared with those that 
use only anesthesiologists. (Simonson, Daniel C et al. ``Anesthesia 
Staffing and Anesthetic Complications During Cesarean Delivery: A 
Retrospective Analysis.'' Nursing Research, Vol. 56, No. 1, pp. 9-17. 
January/February 2007). In addition, a recent AANA workforce study 
showed that CRNAs and anesthesiologists are substitutes in the 
production of surgeries. Through continual improvements in research, 
education, and practice, nurse anesthetists are vigilant in our efforts 
to ensure patient safety.
    CRNAs provide the lion's share of anesthesia care required by our 
U.S. Armed Forces through active duty and the reserves. For decades, 
CRNAs have staffed ships, remote U.S. military bases, and forward 
surgical teams without physician anesthesiologist support. In addition, 
CRNAs predominate in rural and medically underserved areas, and where 
more Medicare patients live.
      importance of title viii nurse anesthesia education funding
    The nurse anesthesia profession's chief request of the subcommittee 
is for $4 million to be reserved for nurse anesthesia education and 
$76.514 million for advanced education nursing from the title VIII 
program. We feel that this funding request is well justified, as we are 
seeing a vacancy rate of nurse anesthetists in the United States that 
is impacting the public's access to healthcare. The title VIII program, 
which has been strongly supported by members of this subcommittee in 
the past, is an effective means to help address the nurse anesthesia 
workforce demand.
    Increasing funding for advanced education nursing from $64.44 
million to $76.514 million is necessary to meet the continuing demand 
for nursing faculty and other advanced education nursing services 
throughout the United States. The program provides for competitive 
grants that help enhance advanced nursing education and practice and 
traineeships for individuals in advanced nursing education programs. 
This funding is critical to meet the nursing workforce needs of 
Americans who require healthcare, particularly as we see more patients 
enter the system with the successful passage of health reform. More 
APRNs will be needed to fill the gap to ensure access to care. In 
addition, this funding provides a two-fold benefit for the nurse 
workforce. It not only seeks to increase the number of providers in 
rural and underserved America but also prepares providers at the 
master's and doctoral levels, increasing the number of clinicians who 
are eligible to serve as faculty.
    There continues to be high demand for CRNA workforce in clinical 
and educational settings. In 2007, an AANA nurse anesthesia workforce 
study found a 12.6 percent vacancy rate in hospitals for CRNAs, and a 
12.5 percent faculty vacancy rate. The supply of clinical providers has 
increased in recent years, stimulated by increases in the number of 
CRNAs trained. Between 2000-2009, the number of nurse anesthesia 
educational program graduates doubled, with the Council on 
Certification of Nurse Anesthetists (CCNA) reporting 1,075 graduates in 
2000 and 2,239 graduates in 2009. This growth is leveling off somewhat, 
but is expected to continue. However, even though the number of 
graduates has doubled in 8 years, the nurse anesthetist vacancy rate 
remained steady at around 12 percent, which is likely due to increased 
demand for anesthesia services as the population ages, growth in the 
number of clinical sites requiring anesthesia services, and CRNA 
retirements.
    The problem is not that our 108 accredited programs of nurse 
anesthesia are failing to attract qualified applicants. It is that they 
have to turn them away by the hundreds. The capacity of nurse 
anesthesia educational programs to educate qualified applicants is 
limited by the number of faculty, the number and characteristics of 
clinical practice educational sites, and other factors. A qualified 
applicant to a CRNA program is a bachelor's educated registered nurse 
who has spent at least 1 year serving in an acute care healthcare 
practice environment. Nurse anesthesia educational programs are located 
all across the country, including Alabama, Arkansas, Iowa, Illinois, 
Louisiana, Pennsylvania, Rhode Island, Tennessee, Texas, Washington, 
and Wisconsin.
    Recognizing the important role nurse anesthetists play in providing 
quality healthcare, the AANA has been working with the 108 accredited 
nurse anesthesia educational programs to increase the number of 
qualified graduates. In addition, the AANA has worked with nursing and 
allied health deans to develop new CRNA programs. To truly meet the 
nurse anesthesia workforce challenge, the capacity and number of CRNA 
schools must continue to grow. With the help of competitively awarded 
grants supported by Title VIII funding, the nurse anesthesia profession 
is making significant progress, expanding both the number of clinical 
practice sites and the number of graduates.
    The AANA is pleased to report that this progress is extremely cost-
effective from the standpoint of Federal funding. Anesthesia can be 
provided by nurse anesthetists, physician anesthesiologists, or by 
CRNAs and anesthesiologists working together. As mentioned earlier, the 
study by Pine et al confirms, ``the type of anesthesia provider does 
not affect inpatient surgical mortality.'' Yet, for what it costs to 
educate one anesthesiologist, several CRNAs may be educated to provide 
the same service with the same optimum level of safety. Nurse 
anesthesia education represents a significant educational cost-benefit 
for supporting CRNA educational programs with Federal dollars vs. 
supporting other, more costly, models of anesthesia education.
    To further demonstrate the effectiveness of the title VIII 
investment in nurse anesthesia education, the AANA surveyed its CRNA 
program directors to gauge the impact of the title VIII funding. Of the 
11 schools that had reported receiving competitive title VIII Nurse 
Education and Practice Grants funding from 1998 to 2003, the programs 
indicated an average increase of at least 15 CRNAs graduated per year. 
They also reported on average more than doubling their number of 
graduates. Moreover, they reported producing additional CRNAs that went 
to serve in rural or medically underserved areas.
    We believe it is important for the subcommittee to allocate $4 
million for nurse anesthesia education for several reasons. First, as 
this testimony has documented, the funding is cost-effective and 
needed. Second, this particular funding is important because nurse 
anesthesia for rural and medically underserved America is not affected 
by increases in the budget for the National Health Service Corps and 
community health centers, since those initiatives are for delivering 
primary and not surgical healthcare. Third, this funding meets an 
overall objective to increase access to quality healthcare in medically 
underserved America.
       title viii funding for strengthening the nursing workforce
    The AANA joins The Nursing Community and the Americans for Nursing 
Shortage Relief (ANSR) Alliance in support of the Subcommittee 
providing a total of $267.3 million in fiscal year 2011 for nursing 
shortage relief through title VIII. This amount is a modest 10 percent 
increase over fiscal year 2010 levels and necessary in a time of 
expanded access through health reform. As more patients enter the 
system, it's imperative there are enough nurses to care for them. AANA 
asks that of the $267.3 million, $76.514 million go to Advanced 
Education Nursing to help increase clinicians in underserved 
communities and those eligible to serve as faculty. The AANA 
appreciates the support for nurse education funding in fiscal year 2010 
and past fiscal years from this subcommittee and from the Congress.
    In the interest of patients past and present, particularly those in 
rural and medically underserved parts of this country, we ask Congress 
to invest in CRNA and nursing educational funding programs and to 
provide these programs the sustained increases required to help ensure 
Americans get the healthcare that they need and deserve. Quality 
anesthesia care provided by CRNAs saves lives, promotes quality of 
life, and makes fiscal sense. This Federal support for title VIII and 
advanced education nurses will improve patient access to quality 
services and strengthen the Nation's healthcare delivery system.
                        safe injection practices
    As a leader in patient safety, the AANA has been playing a vigorous 
role in the development and projects of the Safe Injection Practices 
Coalition, intended to reduce and eventually eliminate the incidence of 
healthcare facility acquired infections. In the interest of promoting 
safe injection practice, and reducing the incidence of healthcare 
facility acquired infections, we recommend the subcommittee provide the 
following appropriations for fiscal year 2011:
  --$26 million for the Centers for Disease Control and Prevention's 
        (CDC) Division of Healthcare Quality and Promotion to address 
        outbreaks and promote innovative ways to adhere to injection 
        safety and infection control guidelines. $5 million would be 
        used to support the CDC's efforts around provider education and 
        patient awareness activities; and
  --$1 million for the Department of Health and Human Services (HHS) to 
        expand its current focus for reducing healthcare acquired 
        infections (HAIs) from hospitals to outpatient settings with 
        the development of an action plan to reduce HAIs in outpatient 
        settings with a specific focus on injection safety.
                                 ______
                                 
   Prepared Statement of the American Academy of Nurse Practitioners
    The American Academy of Nurse Practitioners is the full service 
organization representing more than 135,000 nurse practitioners 
throughout the United States. This testimony speaks to the need for 
continued and increased Federal funding for nurse practitioner 
educational programs and traineeships for the coming fiscal year.
    As the subcommittee knows, nurse practitioners are highly qualified 
healthcare providers who have demonstrated their ability and interest 
in providing primary care to individuals and families in both rural and 
urban settings, regardless of age, occupation or income. The quality of 
their care has been well documented over the years. With their advanced 
preparation, they are able to manage the medical and health problems 
seen in the primary care and acute care settings in which they work.
    Nurse practitioners constitute an effective body of primary care 
providers that may be utilized at a cost savings in both fee for 
service and managed care arenas in this country. Savings to the Federal 
government of greater than $100,000,000 per year in the Medicare 
program alone are estimated when full utilization of nurse 
practitioners is implemented. Likewise, managed care data has 
demonstrated cost savings among patients seen by nurse practitioners 
when compared to similar patients being cared for by physicians.
    Other cost savings that can be realized by the Government when 
nurse practitioners are appropriately utilized, include savings due to 
reductions in emergency room visits and hospitalizations and savings 
associated with the treatment of illness in its early stages. Studies 
in both fee for service and managed care have been conducted that 
demonstrate cost savings in diagnostic testing, prescribing, and 
hospitalizations and emergency room use when these two groups of 
providers are utilized to provide primary care to populations of all 
ages.
    Nurse practitioner specialties include family, adult, pediatric, 
women's health, and gerontology. Their services include obtaining 
medical histories, performing physical examinations, ordering, 
performing, supervising and interpreting diagnostic tests, diagnosing 
and treating acute episodic and chronic illnesses including the 
prescription of medications and other nonpharmacologic treatments, and 
appropriate referral to other sources of care. In addition, they are 
skilled in the areas of health promotion and disease prevention which 
include health education, screening and counseling for patients of all 
ages.
    Nurse practitioners provide care in both rural and urban settings, 
in community health centers, public health clinics, hospitals and 
hospital outpatient clinics, Indian Health Service and National Health 
Service Corps sites as well as other freestanding primary care 
settings. According to data collected by the American Academy of Nurse 
Practitioners, more than 70 percent of nurse practitioners provide 
primary care and more than 50 percent of their patients have family 
incomes in the poverty range.
    In order to guarantee the proper preparation of nurse 
practitioners, assistance in the development of high-quality programs 
continues to be needed across the country. The funding for such 
programs has always been limited, and should always be more. The value 
and worth of such funding continues to be undisputable.
    The sums of money described here are but a drop in the bucket 
compared to investments made by the Federal Government to underwrite 
the cost of preparing other medical professionals. Yet in the face of 
significant nursing shortages, the existence of more than 40,000,000 
people with no health insurance and the continued lack of primary care 
providers in this country increases in this funding are obviously 
needed. Without these increases, additional barriers to the effective 
utilization of the most cost-effective primary care providers in our 
healthcare system are created.
    Likewise, traineeship monies are being utilized by students in all 
50 States and the District of Columbia. These monies are of particular 
importance in the recruitment of nurse practitioners. Current funds 
fall far short of the mark for assisting in the preparation of these 
important, cost-effective healthcare providers in the system. These 
appropriations help to reduce barriers for many students desiring to 
become nurse practitioners. Surveys of nurse practitioners have shown 
this investment to be a good one in terms of assisting students who 
otherwise might not be able to return to school, and in terms of adding 
providers who care for the rural and urban underserved in this country.
    The recommended increase of 10 percent to the current funding 
levels in the advanced practice line of title VIII will only begin to 
make a dent in meeting the unmet healthcare needs of today's 
populations. In light of the current and future needs for primary care 
providers, it is obvious that increasing appropriations for nurse 
practitioner education, traineeships and program exploration will be a 
wise investment.
    We thank the members of the Appropriations Committee for their 
efforts in behalf of nurse practitioners and the patients they serve. 
We know you recognize the value of our services and the need for 
utilizing us in the provisions of quality, cost-effective healthcare. 
It is obvious that we can be part of the solution to the current 
shortage of healthcare providers in this country and we are asking for 
your help to facilitate the process. If there is anything we can do to 
provide further information or assistance regarding this issue, please 
feel free to call on us.
                                 ______
                                 
      Prepared Statement of the American Academy of Ophthalmology
                           executive summary
    The American Academy of Ophthalmology requests fiscal year 2011 NIH 
funding at $35 billion, which reflects a $3 billion increase more than 
President Obama's proposed funding level of $32 billion. Funding at $35 
billion, which reflects NIH's net funding levels in both fiscal year 
2009 and fiscal year 2010, ensures it can maintain the number of multi-
year investigator-initiated research grants, the cornerstone of our 
Nation's biomedical research enterprise.
    The vision community commends Congress for $10.4 billion in NIH 
funding in the American Recovery and Reinvestment Act (ARRA), as well 
as fiscal year 2009 and fiscal year 2010 funding increases that enabled 
NIH to keep pace with biomedical inflation after 6 previous years of 
flat funding that resulted in a 14 percent loss of purchasing power. 
Fiscal year 2011 NIH funding at $35 billion enables it to meet the 
expanded capacity for research--as demonstrated by the significant 
number of high-quality grant applications submitted in response to ARRA 
opportunities--and to adequately address unmet need, especially for 
programs of special promise that could reap substantial downstream 
benefits, as identified by NIH Director Francis Collins, M.D., Ph.D. in 
his top five priorities. As President Obama has stated repeatedly, 
including at a visit to the NIH in September 2009, biomedical research 
has the potential to reduce healthcare costs, increase productivity, 
and ensure the global competitiveness of the United States.
    The Academy requests that Congress improve upon the President's 
proposed 2.5 percent NEI increase--the second smallest increase of all 
Institutes and Centers--especially if it does not increase overall NIH 
funding above the President's request.
    In 2009, Congress spoke volumes in passing S. Res. 209 and H. Res. 
366, which acknowledged NEI's 40th anniversary and designated 2010-2020 
as The Decade of Vision, in which the majority of 78 million baby 
boomers will turn 65 years of age and face greatest risk of aging eye 
disease. This is not the time for a less-than-inflationary increase 
that nets a loss in NEI's purchasing power, which eroded by 18 percent 
in the fiscal year 2003-2008 timeframe. NEI-funded research is 
resulting in treatments that save vision and restore sight, which can 
reduce healthcare costs, maintain productivity, ensure independence, 
and enhance quality of life.
    Fiscal year 2011 NIH funding at $35 billion enables the NEI to 
build upon the impressive record of basic and clinical collaborative 
research that meets NIH's top five priorities and was funded through 
fiscal year 2009-2010 ARRA and increased ``regular'' appropriations.
    NEI's research addresses the pre-emption, prediction, and 
prevention of eye disease through basic, translational, epidemiological 
and comparative effectiveness research which also address the top five 
NIH priorities, as identified by Dr. Collins: genomics, translational 
research, comparative effectiveness, global health, and empowering the 
biomedical enterprise. NEI continues to be a leader within the NIH in 
elucidating the genetic basis of ocular disease--NEI Director Paul 
Sieving, M.D., Ph.D., has reported that one-quarter of all genes 
identified to date through collaborative efforts with the National 
Human Genome Research Institute (NHGRI) are associated with eye disease 
or visual impairment.
    NEI received $175 million of the $10.4 billion in NIH ARRA funding. 
As a result, NEI's total funding levels in the fiscal year 2009-2010 
timeframe were $776 million and $794.5 million, respectively. In fiscal 
year 2009, NEI made 333 ARRA-related awards, the majority of which 
reflect investigator-initiated research that funds new science or 
accelerates ongoing research, including 10 Challenge Grants. Several 
examples of research and the reasons why it is important, include:
  --Biomarker for Neovascular Age-related Macular Degeneration (AMD).--
        Researchers will use a recently discovered biomarker for 
        choroidal neovascularization (CNV)--the growth of abnormal 
        blood vessels into the retina and responsible for 90 percent of 
        vision loss associated with AMD--to develop an early detection 
        method to minimize vision loss. Why is this important? AMD is 
        the leading cause of vision loss in the United States, 
        especially in the elderly.
  --Cellular Approach to Treating Diabetic Retinopathy (DR).--
        Researchers propose to develop a clinical treatment for 
        diabetic retinopathy--in which diabetes damages small blood 
        vessels in the retina, causing them to leak--that uses stem 
        cells from the patient's own blood that have been activated 
        outside of the body and then returned to repair damaged vessels 
        in the eye. Why is this important? DR is the leading cause of 
        vision loss in younger Americans and its incidence is 
        disproportionately higher in African Americans, Latinos, and 
        Native Americans.
  --Small Heat Shock Proteins as Therapeutic Agents in the Eye.--
        Researchers propose to develop new drugs to prevent or reverse 
        blinding eye diseases, such as cataract (clouding of the lens), 
        that are associated with the aggregation of proteins. Research 
        will focus on the use of small ``heat shock'' proteins that 
        facilitate the slow release and prolonged delivery of targeted 
        macromolecules to degenerating cells of the eye. Why is this 
        important? Delivering effective, long-lasting therapies through 
        a minimally invasive route into the eye is a major challenge.
  --Identification of Genes and Proteins That Control Myopia 
        Development.--Researchers propose to identify targets that will 
        facilitate development of interventions to slow or prevent 
        myopia (nearsightedness) development in children. Identifying 
        an appropriate myopia prevention target can reduce the risk of 
        blindness and reduce annual life-long eye care costs. Why is 
        this important? More than 25 percent of the U.S. population has 
        myopia, costing $14 billion annually, from adolescence to 
        adulthood.
  --Comparison of Interventions for Retinopathy of Prematurity (ROP).--
        In animal studies, researchers will simulate Retinopathy of 
        Prematurity--a blinding eye disease that affects premature 
        infants--and study novel treatments that involve modulating the 
        metabolism of the retina's rod photoreceptors. Why is this 
        important? ROP affects 15,000 children a year, about 400-600 of 
        whom progress to blindness, at an estimated lifetime cost for 
        support and unpaid taxes of $1 million each.
  --The NEI Glaucoma Human Genetics CollaBORation, NEIGHBOR.--This 
        research network, in which seven U.S. teams will lead genetic 
        studies of glaucoma, may lead to more effective diagnosis and 
        treatment. Researchers were primarily funded through ARRA 
        supplements. Why is this important: Glaucoma, a complex 
        neurodegenerative disease that is the second leading cause of 
        preventable blindness in the United States, often has no 
        symptoms until vision is lost.
  --Comparative Effectiveness of Interventions for Primary Open Angle 
        Glaucoma (POAG).--Researchers will evaluate existing data on 
        the effectiveness of various treatment options for primary open 
        angle glaucoma--many emerging from past NEI research. Why is 
        this important? POAG is the most common form of the disease, 
        which disproportionately affects African Americans and Latinos.
    In addition to ARRA funding, the ``regular'' appropriations 
increases in fiscal year 2009-2010 enabled NEI to continue to fund key 
research networks, such as:
  --The African Descent and Glaucoma Evaluation Study (ADAGES), is 
        designed to identify factors accounting for differences in 
        glaucoma onset and the rate of progression between individuals 
        of African and European descent.
  --The Diabetic Research Clinical Research Network's (DRCR) initiation 
        of new trials comparing the safety and efficacy of drug 
        therapies as an alternative to laser treatment for diabetic 
        macular edema and proliferative diabetic retinopathy.
  --The Neuro-Ophthalmology Research Disease Investigator Consortium 
        (NORDIC), which will lead multi-site observational and 
        treatment trials involving nearly 200 community and academic 
        practitioners, to address the risks, diagnosis and treatment of 
        visual dysfunction due to increased intracranial pressure and 
        thyroid eye disease.
    The unprecedented level of fiscal year 2009-2010 vision research 
funding is moving our Nation that much closer to the prevention of 
blindness and restoration of vision. With an overall NIH funding level 
of $35 billion, which translates to an NEI funding level of $794.5 
million, the vision community can accelerate these efforts, thereby 
reducing healthcare costs, maintaining productivity, ensuring 
independence and enhancing quality of life.
    If Congress does not increase fiscal year 2011 NIH funding above 
the President's request, it is even more vital to improve upon the 
proposed 2.5 percent increase for NEI.
    The NIH budget proposed by the administration and developed by 
Congress during the very first year of the Congressionally-designated 
Decade of Vision should not contain a less-than-inflationary increase 
for NEI due to the enormous challenges it faces in terms of the aging 
population, the disproportionate incidence of eye disease in fast-
growing minority populations and the visual impact of chronic disease 
(e.g., diabetes). If Congress is unable to fund NIH at $35 billion in 
fiscal year 2011 (NEI level of $794.5 million) and adopts the 
President's proposal, the 2.5 percent increase in funding must be 
increased to at least an inflationary level of 3.2 percent to prevent 
any further erosion in NEI's purchasing power. NEI funding is an 
especially vital investment in the overall health, as well as the 
vision health, of our Nation. It can ultimately delay, save and prevent 
health expenditures, especially those associated with the Medicare and 
Medicaid programs, and is therefore a cost-effective investment.
    Vision loss is a major public health problem: increasing healthcare 
costs, reducing productivity, diminishing life quality.
    NEI estimates that more than 38 million Americans age 40 and older 
experience blindness, low vision, or an age-related eye disease such as 
AMD, glaucoma, diabetic retinopathy or cataracts. This is expected to 
grow to more than 50 million Americans by year 2020. The economic and 
societal impact of eye disease is increasing not only due to the aging 
population, but due to its disproportionate incidence in minority 
populations and as a co-morbid condition of chronic disease such as 
diabetes.
    Although NEI estimates that the current annual cost of vision 
impairment and eye disease to the United States is $68 billion, this 
number does not fully quantify the combined impacts of direct 
healthcare costs, lost productivity, reduced independence, diminished 
quality of life, increased depression and accelerated mortality. The 
continuum of vision loss presents a major public health problem and 
financial challenge to the public and private sectors.
              about the american academy of ophthalmology
    The American Academy of Ophthalmology is a 501c(6) educational 
membership association. The Academy is the largest national membership 
association of eye M.D.s with more than 27,000 members, over 17,000 of 
which are in active practice in the United States. Eye M.D.s are 
ophthalmologists, medical and osteopathic doctors who provide 
comprehensive eye care, including medical, surgical and optical care. 
More than 90 percent of practicing U.S. eye M.D.s are Academy members.
                                 ______
                                 
   Prepared Statement of the American Academy of Physician Assistants
    On behalf of the nearly 80,000 clinically practicing physician 
assistants in the United States, the American Academy of Physician 
Assistants is pleased to submit comments on fiscal year 2011 
appropriations for Physician Assistant (PA) educational programs that 
are authorized through title VII of the Public Health Service Act.
    A member of the Health Professions and Nursing Education Coalition 
(HPNEC), the Academy supports the HPNEC recommendation to provide at 
least $330 million for title VII programs in fiscal year 2011, 
including a minimum of $7 million to support PA educational programs. 
This would fund the programs at the 2005 funding level, not accounting 
for inflation.
    AAPA recommends that Congress provide additional support to grow 
the PA primary care workforce through healthcare reform initiatives. A 
reformed healthcare system will require a much-expanded primary 
healthcare workforce, both in the private and public healthcare 
markets. For example, the National Association of Community Health 
Centers' March 2009 report, Primary Care Access: An Essential Building 
Block of Health Reform, predicts that in order to reach 30 million 
patients by 2015, health centers will need at least an additional 
15,585 primary care providers, just over one-third of whom are 
nonphysician primary care professionals.
    The Academy believes that the recommended restoration in funding 
for title VII health professions programs is well justified.
    A review of PA graduates from 1990-2009 demonstrates that PAs who 
have graduated from PA educational programs supported by title VII are 
67 percent more likely to be from underrepresented minority populations 
and 47 percent more likely to work in a rural health clinic than 
graduates of programs that were not supported by title VII.
    A study by the UCSF Center for California Health Workforce Studies 
found a strong association between physician assistants exposed to 
title VII during their PA educational preparation and those who ever 
reported working in a federally qualified health center or other 
community health center.
    Title VII safety net programs are essential to the development and 
training of primary healthcare professionals and, in turn, provide 
increased access to care by promoting healthcare delivery in medically 
underserved communities. Title VII funding is especially important for 
PA programs as it is the only Federal funding available on a 
competitive application basis to these programs.
    The AAPA is very appreciative of the recent funding increases, for 
the Title VII Health Professions Programs, in the fiscal year 2009 
Omnibus appropriations bill (Public Law 111-8), which appropriated 
$221.7 million, a 14.3 percent increase, more than fiscal year 2008 and 
the American Recovery and Reinvestment Act (Public Law 111-5), which 
invested $200 million in expanding Title VII Health Professions 
Programs. However, the AAPA believes that these recent investments only 
begin to rectify the chronic underfunding of these programs and address 
existing and looming shortages of health professionals, especially 
physician assistants. According to HRSA, an additional 30,000 health 
practitioners are needed to alleviate existing health professional 
shortages.
    We wish to thank the members of this subcommittee for your 
historical role in supporting funding for the health professions 
programs, and we hope that we can count on your support to restore 
funding to these important programs in fiscal year 2010 to the fiscal 
year 2005 funding level.
Overview of Physician Assistant Education
    Physician assistant programs train students to practice medicine 
with physician supervision. PA programs are located within schools of 
medicine or health sciences, universities, teaching hospitals, and the 
Armed Services. All PA educational programs are accredited by the 
Accreditation Review Commission on Education for the Physician 
Assistant.
    The typical PA program consists of 26 months of instruction, and 
the typical student has a bachelor's degree and about 4 years of prior 
healthcare experience. The first phase of the program consists of 
intensive classroom and laboratory study. More than 400 hours in 
classroom and laboratory instruction are devoted to the basic sciences, 
with more than 75 hours in pharmacology, approximately 175 hours in 
behavioral sciences, and almost 580 hours of clinical medicine.
    The second year of PA education consists of clinical rotations. On 
average, students devote more than 2,000 hours, or 50-55 weeks, to 
clinical education, divided between primary care medicine--family 
medicine, internal medicine, pediatrics, and obstetrics and 
gynecology--and various specialties, including surgery and surgical 
specialties, internal medicine subspecialties, emergency medicine, and 
psychiatry. During clinical rotations, PA students work directly under 
the supervision of physician preceptors, participating in the full 
range of patient care activities, including patient assessment and 
diagnosis, development of treatment plans, patient education, and 
counseling.
    After graduation from an accredited PA program, physician 
assistants must pass a national certifying examination developed by the 
National Commission on Certification of Physician Assistants. To 
maintain certification, PAs must log 100 continuing medical education 
hours every 2 years, and they must take a recertification exam every 6 
years.
Physician Assistant Practice
    Physician assistants are licensed healthcare professionals educated 
to practice medicine as delegated by and with the supervision of a 
physician. In all States, physicians may delegate to PAs those medical 
duties that are allowed by law and are within the physician's scope of 
practice and the PA's training and experience. All States, the District 
of Columbia, and Guam authorize physicians to delegate prescriptive 
privileges to the PAs they supervise. Nineteen percent of all PAs 
practice in nonmetropolitan areas where they may be the only full-time 
providers of care (State laws stipulate the conditions for remote 
supervision by a physician). Approximately 41 percent of PAs work in 
urban and inner city areas. Approximately 40 percent of PAs are in 
primary care. Roughly 80 percent of PAs practice in outpatient settings 
AAPA estimates that in 2008, more than 257 million patient visits were 
made to PAs and approximately 332 million medications were written by 
PAs.
Critical Role of Title VII Public Health Service Act Programs
    Title VII programs promote access to healthcare in rural and urban 
underserved communities by supporting educational programs that train 
health professionals in fields experiencing shortages, improve the 
geographic distribution of health professionals, increase access to 
care in underserved communities, and increase minority representation 
in the healthcare workforce.
    Title VII programs are the only Federal educational programs that 
are designed to address the supply and distribution imbalances in the 
health professions. Since the establishment of Medicare, the costs of 
physician residencies, nurse training, and some allied health 
professions training have been paid through Graduate Medical Education 
(GME) funding. However, GME has never been available to support PA 
education. More importantly, GME was not intended to generate a supply 
of providers who are willing to work in the Nation's medically 
underserved communities--the purpose of title VII.
    Furthermore, title VII programs seek to recruit students who are 
from underserved minority and disadvantaged populations, which is a 
critical step towards reducing persistent health disparities among 
certain racial and ethnic U.S. populations. Studies have found that 
health professionals from disadvantaged regions of the country are 3 to 
5 times more likely to return to underserved areas to provide care.
    It is also important to note that a December 2008 Institute of 
Medicine report characterized HRSA's health professions programs as 
``an undervalued asset.''
Title VII Support of PA Educational Programs
    Targeted Federal support for PA educational programs is authorized 
through section 747 of the Public Health Service Act. The program was 
reauthorized in the 105th Congress through the Health Professions 
Education Partnerships Act of 1998, Public Law 105-392, which 
streamlined and consolidated the Federal health professions education 
programs. Support for PA education is now considered within the broader 
context of training in primary care medicine and dentistry.
    Public Law 105-392 reauthorized awards and grants to schools of 
medicine and osteopathic medicine, as well as colleges and 
universities, to plan, develop, and operate accredited programs for the 
education of physician assistants, with priority given to training 
individuals from disadvantaged communities. The funds ensure that PA 
students from all backgrounds have continued access to an affordable 
education and encourage PAs, upon graduation, to practice in 
underserved communities. These goals are accomplished by funding PA 
educational programs that have a demonstrated track record of: (1) 
placing PA students in health professional shortage areas; (2) exposing 
PA students to medically underserved communities during the clinical 
rotation portion of their training; and (3) recruiting and retaining 
students who are indigenous to communities with unmet healthcare needs.
    The PA programs' success in recruiting and retaining 
underrepresented minority and disadvantaged students is linked to their 
ability to creatively use title VII funds to enhance existing 
educational programs. For example, PA programs in Texas use title VII 
funds to create new clinical rotation sites in rural and underserved 
areas, including new sites in border communities, and to establish 
nonclinical rural rotations to help students understand the challenges 
faced by rural communities. One Texas program uses title VII funds for 
the development of Web based and distant learning technology and 
methodologies so students can remain at clinical practice sites. In New 
York, a PA program with a 90 percent ethnic minority student population 
uses title VII funding to focus on primary care training for 
underserved urban populations by linking with community health centers, 
which expands the pool of qualified minority role models that engage in 
clinical teaching, mentoring, and preceptorship for PA students. 
Several other PA programs have been able to use title VII grants to 
leverage additional resources to assist students with the added costs 
of housing and travel that occur during relocation to rural areas for 
clinical training.
    Without title VII funding, many of these special PA training 
initiatives would not be possible. Institutional budgets and student 
tuition fees simply do not provide sufficient funding to meet the needs 
of medically underserved areas or disadvantaged students. The need is 
very real, and title VII is critical in meeting that need.
Need for Increased Title VII Support for PA Educational Programs
    Increased title VII support for educating PAs to practice in 
underserved communities is particularly important given the market 
demand for physician assistants. Without title VII funding to expose 
students to underserved sites during their training, PA students are 
far more likely to practice in the communities where they were raised 
or attended school. Title VII funding is a critical link in addressing 
the natural geographic maldistribution of healthcare providers by 
exposing students to underserved sites during their training, where 
they frequently choose to practice following graduation. Currently, 36 
percent of PAs met their first clinical employer through their clinical 
rotations.
    Changes in the healthcare marketplace reflect a growing reliance on 
PAs as part of the healthcare team. Currently, the supply of physician 
assistants is inadequate to meet the needs of society, and the demand 
for PAs is expected to increase. A 2006 article in the Journal of the 
American Medical Association (JAMA) concluded that the Federal 
Government should augment the use of physician assistants as physician 
substitutes, particularly in urban CHCs where the proportional use of 
physicians is higher. The article suggested that this could be 
accomplished by adequately funding title VII programs. Additionally, 
the Bureau of Labor Statistics projects that the number of available PA 
jobs will increase 39 percent between 2008 and 2018. Title VII funding 
has provided a crucial pipeline of trained PAs to underserved areas. 
One way to assure an adequate supply of physician assistants practicing 
in underserved areas is to continue offering financial incentives to PA 
programs that emphasize recruitment and placement of PAs interested in 
primary care in medically underserved communities.
    Despite the increased demand for PAs, funding has not 
proportionately increased for title VII programs that educate and place 
physician assistants in underserved communities. Nor has title VII 
support for PA education kept pace with increases in the cost of 
educating PAs. A review of PA program budgets from 1984 through 2004 
indicates an average annual increase of 7 percent, a total increase of 
256 percent over the past 20 years, as Federal support has decreased.
Recommendations on Fiscal Year 2011 Funding
    The American Academy of Physician Assistants urges members of the 
Appropriations Committee to consider the inter-dependency of all public 
health agencies and programs when determining funding for fiscal year 
2010. For instance, while it is critical, now more than ever, to fund 
clinical research at the National Institutes of Health (NIH) and to 
have an infrastructure at the Centers for Disease Control and 
Prevention (CDC) that ensures a prompt response to an infectious 
disease outbreak or bioterrorist attack, the good work of both of these 
agencies will go unrealized if the Health Resources and Services 
Administration is inadequately funded. HRSA administers the ``people'' 
programs, such as title VII, that bring the results of cutting edge 
research at NIH to patients through providers such as PAs who have been 
educated in title VII-funded programs. Likewise, CDC is heavily 
dependent upon an adequate supply of healthcare providers to be sure 
that disease outbreaks are reported, tracked, and contained.
    The Academy respectfully requests that title VII health professions 
programs receive $330 million in funding for fiscal year 2011, 
including a minimum of $7 million to support PA educational programs. 
Thank you for the opportunity to present the American Academy of 
Physician Assistants' views on fiscal year 2011 appropriations.
                                 ______
                                 
         Prepared Statement of the Alliance for Aging Research
    Chairman Harkin and members of the subcommittee, for more than two 
decades the not-for-profit Alliance for Aging Research has advocated 
for research to improve the experience of aging for all Americans. Our 
efforts have included supporting Federal funding of aging research by 
the National Institutes of Health (NIH), through the National Institute 
on Aging (NIA) and other institutes and centers that work with the NIA 
on cross-cutting initiatives. To this end, the Alliance appreciates the 
opportunity to submit testimony highlighting the important role that 
the NIH plays in facilitating aging research activities and the ever 
more urgent need for increased appropriations to advance scientific 
discoveries to keep individuals healthier longer.
    The Alliance for Aging Research supports the continuation and 
expansion of NIH research activities which affect tens of millions of 
older Americans. The NIA leads national research efforts within the NIH 
to better understand the aging process and ways to better maintain the 
health and independence of Americans as they age. Research on healthy 
aging has never been more critical for so many Americans as the first 
of the baby boomers will turn 65 in 2011. Presently, there are about 36 
million Americans age 65 and older and this group is expected to double 
in size within the next 25 years. By 2050, an estimated 19.4 million 
Americans will be over the age of 85. Healthcare spending in the United 
States is growing, and by 2018 national healthcare spending is 
projected to be about $4.4 trillion and account for 20.3 percent of 
GDP, according to Centers for Medicare and Medicaid Services.
    Many diseases of aging are expected to become more widespread as 
the number of older Americans increases. The number of Americans age 65 
and older with Alzheimer's disease is projected to more than double by 
2030. A recent report in the Journal of Clinical Oncology projected 
cancer incidence will increase by about 45 percent from 2010-2030, 
accounted for largely by cancer diagnoses in older Americans and 
minorities, and by 2030, people aged 65 and older will represent 70 
percent of all cancer diagnoses in the United States. Currently, the 
average 75-year old has three chronic health conditions and takes five 
prescription medications. Six diseases--heart disease, stroke, cancer, 
diabetes, Alzheimer's and Parkinson's diseases--cost the United States 
more than $1 trillion each year. The rising tide of chronic diseases of 
aging threatens to deluge the U.S. healthcare system in the coming 
years.
    Late-in-life diseases such as type 2 diabetes, cancer, neurological 
diseases, heart disease, and osteoporosis are increasingly driving the 
need for healthcare services in this country. If rapid discoveries are 
not made now to reduce the prevalence of age-related diseases and 
conditions like these, the costs associated with caring for the oldest 
and sickest Americans will place an unmanageable burden on patients, 
their families, and our healthcare system. According to a 2005 AHRQ 
report, up to $2.5 billion per year could be saved by preventing 
diabetes-related hospitalizations with appropriate primary care, and 
much of the savings would come from Medicare and Medicaid. Osteoporosis 
is estimated to cost the United States $25.3 billion per year by 2025 
unless discoveries are made to better treat and prevent the disease. 
According to an Alzheimer's Association report from 2004, research 
breakthroughs that slow the onset and progression of Alzheimer's 
disease could yield annual Medicare savings of $51 billion by 2015 and 
$126 billion by 2025. Research which leads to a better understanding of 
the aging process and human vulnerability to age-related diseases could 
help Americans live longer, more productive lives, and help reduce the 
need for care to manage costly chronic diseases.
    In fiscal year 2009, the NIA, which supports a range of genetic, 
biological, clinical, social and economic research related to aging and 
the diseases of the elderly, oversaw approximately 1,900 research 
projects. Through the Division of Aging Biology (DAB), the NIA funds 
research focused on understanding and exploiting the mechanisms 
underlying the aging process. Research supported by the DAB program is 
critically important in that much of it is centered around how changes 
in function considered to be ``normal aging'' become risk factors for 
many age-associated infirmities. Some studies supported by the DAB 
assess the beneficial effects of reducing caloric intake in animals. 
Intramural and extramural research is ongoing to test compounds that 
mimic this process in subjects with the potential to extend the years 
of disease-free life. Both approaches have produced promising results 
that may lead to insights into human applications. By capitalizing on 
these and other successful studies to identify genes that influence 
longevity, investigators hope to delay the onset of disease and 
disability associated with human aging in the future.
    The NIA has supported grants in recent years to examine public 
health concerns caused by the rising obesity epidemic. In particular, 
NIA's Division of Behavioral and Social Science Research funded 
projects to investigate the role social networks play in influencing an 
individual's food choices, acceptability of being overweight, and how 
those networks might be modifiable to slow the spread of obesity; as 
well as those to explore how the rapid increase in obesity will 
negatively affect U.S. gains in life expectancy. Investigators 
supported by the Division of Geriatrics and Clinical Gerontology have 
focused heavily on the central role exercise plays in improving the 
health of older adults, reducing health risks associated with diabetes 
and cardiovascular disease, and lowering the risk of death by 
increasing a individual's fitness level. Results from studies such as 
these will not only yield important information for use in the care of 
the elderly, but also for promoting healthier behavior by the larger 
U.S. population.
    The NIA also participates in collaborations on disease-specific 
research aimed at preventing, diagnosing, and more effectively treating 
age-related illnesses. The Alzheimer's Disease Neuroimaging Initiative 
(ADNI) is a major public-private partnership led by the NIA to evaluate 
imaging technologies, biological markers, and other tests to improve 
knowledge surrounding the progression of Alzheimer's disease. ADNI has 
produced a wealth of data that is accessible to researchers worldwide. 
It is believed that ADNI findings could lead to shorter and less costly 
clinical trials for Alzheimer's therapies. Streamlined clinical trials 
could accelerate the development and approval of more effective AD 
treatments to the benefit of those who are yet to be diagnosed.
    The Diabetes Prevention Program (DPP), a large nationwide clinical 
study of adults at high risk for diabetes, funded in part by the NIA, 
showed that lifestyle intervention (intensive training on diet, 
physical activity and behavior changes with the goal of weight loss) 
reduced the development of diabetes by 58 percent over several years. 
The risk reduction was even greater, 71 percent, among adults aged 60 
years or older. Taking an oral diabetes drug reduced the development of 
diabetes among participants by 31 percent, but was less effective in 
adults older than age 45 compared to younger adults. This landmark 
research study identified effective interventions for adults with pre-
diabetes and showed the development of diabetes was not necessarily 
inevitable but could be slowed or prevented in this group by losing a 
modest amount of weight through diet and exercise. More recent studies, 
both completed and ongoing, have further examined DPP data and continue 
to build on the findings from the diverse group of study participants. 
The Diabetes Prevention Program Outcomes Study is examining the long 
term risk reduction effects of the DPP intervention and the clinical 
course of new-onset diabetes and complications in participants, with 
attention to differences among minority populations and gender groups. 
Shedding light on differences between these groups could have wide-
reaching implications for millions of Americans at risk for diabetes 
and may assist in the creation of more effective interventions.
    Eighty percent of all the nonprofit medical research in the United 
States is funded by the NIH. However, the unfortunate reality is that 
shrinking budgets have impeded progress. Aging is a field of research 
whose progress has been hampered by stagnant funding. In part the 
scarcity of resources has resulted in a decline of the overall success 
rate for NIH research grant applications. The effect of this has been 
reluctance on behalf of new investigators to submit truly ground-
breaking research proposals for consideration. To operate in this 
environment the NIA and other Institutes involved in aging-related 
research have not been able to fund increasing numbers of high-quality 
research grants each year. At its lowest point only one in four 
research proposals could be funded by the NIH. In recognition of this 
downward trend, last February President Obama signed into law the 
American Recovery and Reinvestment Act of 2009 (ARRA), which 
appropriated $10.4 billion in funding to the NIH to be used 
expeditiously in fiscal year 2009 and fiscal year 2010. That March, the 
NIH budget for fiscal year 2009 was increased 3.2 percent more than 
fiscal year 2008 to $30.3 billion. This was a much needed boost across 
the NIH Institutes for critical medical research to benefit Americans, 
including just more than 170 research grants funded by the NIA in 
ARRA's first year.
    Promising areas of research targeted by the NIA to receive ARRA 
funds include those to identify additional risk factor genes associated 
with Alzheimer's disease, discovering improved diagnostic tools, 
possible biomarkers, and therapies. ADNI will receive the most 
significant amount of stimulus funding to further groundbreaking 
research that will enable experts to track changes in living brains as 
older adults as they transition from normal cognitive aging to the 
early stages of Alzheimer's disease. The overall impact of this 
investment will be to increase knowledge of the sequence and timing of 
events leading up to disease onset and to develop better methods of 
early detection and monitoring of the disease. Another grant awarded 
funding through ARRA will develop new technologies, called biosensors, 
to follow protein folding in cells. Proper protein folding 
(proteostasis) is important to health. Researchers believe that protein 
folding is affected by age. If proteins are formed incorrectly, or they 
misfold normal cell function is disrupted. These problems are thought 
to cause disease. The biosensors created with ARRA funds will help 
monitor aging and age-related disease by focusing on patterns of 
protein folding. ARRA funds have also been awarded to investigators who 
will study the effects of rapamaycin, a compound that mimics caloric 
restriction, on models of human diseases in mice. Models of Alzheimer's 
disease, atherosclerosis, cardiovascular disease, Parkinson's disease, 
kidney disease and cancer will be utilized in this project. The 
investigators will ultimately seek to determine if the quality of life 
for the mice has improved and if the age-related diseases have been 
slowed or reduced over a 2-year period.
    The ARRA funding begins to make up for flat budgets and unfunded 
research proposals that have occurred in recent years. However, 
research at the NIH cannot be sustained and will not flourish in the 
long term without a steady increase in appropriations which, at 
minimum, keeps pace with inflation. A slowdown in NIH funding will have 
a devastating impact on the rate of basic discovery, innovation and the 
development of interventions which could have major health benefits for 
the burgeoning population of older Americans. The Alliance for Aging 
Research supports funding the NIH at $35 billion in fiscal year 2011 
with a minimum of $1.14 billion in funding for the NIA specifically. 
This level of support would allow the NIH and the NIA to adequately 
fund new and existing research projects, accelerating progress toward 
findings which could prevent, treat, slow the progression or even 
possibly cure conditions related to aging. With the silver tsunami on 
the near horizon, an increased investment in NIA's research activities 
has never been more necessary or had such potential to impact so many 
Americans.
    Mr. Chairman, the Alliance for Aging Research thanks you for the 
opportunity to outline the challenges posed by the aging population 
that lie ahead as you consider the fiscal year 2011 appropriations for 
the NIH and we would be happy to furnish additional information upon 
request.
                                 ______
                                 
           Prepared Statement of the American Brain Coalition
Introduction
    The National Institutes of Health (NIH) is the world's leader in 
medical discoveries that improve people's health and save lives. NIH-
funded scientists at universities and research centers throughout the 
Nation investigate ways to prevent, treat, and even cure the complex 
diseases of the brain. Because there is much work still to be done, the 
American Brain Coalition (ABC) writes to ask for the Senate 
Appropriations Committee's continued support for increased biomedical 
research funding at NIH.
ABC
    ABC is a nonprofit organization that seeks to reduce the burden of 
brain disorders and advance the understanding of the functions of the 
brain. The ABC, made up of more than 50 member organizations, brings 
together afflicted patients, the families of those that suffer, the 
caregivers, and the professionals that research and treat diseases of 
the brain.
    The brain is the center of human existence, and the most complex 
living structure known. As such, there are thousands of brain diseases 
from Rett Syndrome and autism to mental illness and Parkinson's 
disease. ABC, unlike any other organization, brings together people 
affected by all diseases of the brain.
    The ABC is working to raise public awareness and support for 
diseases of the brain. Fifty million Americans--our relatives, friends, 
neighbors, and your constituents--are affected by diseases of the 
brain. This number does not include the millions more family members 
whose lives are affected as they care for those who suffer. Our goal is 
to be a united voice for these patients, and to work with Congress and 
the administration to alleviate the burden of brain disease. A large 
part of that goal involves support for NIH research.
Thank You for Your Support
    ABC would like to thank the members of this subcommittee and the 
Senate for its support for the $10 billion provided to NIH in the 2009 
economic stimulus package. This funding provided the opportunity for a 
substantial number of 2-year research grants and infrastructure 
projects in every State of the Nation to move forward and enhance our 
understanding of an array of physical and mental health concerns.
    Progress in the fields of addiction, alcoholism, Parkinson's 
disease, and stroke has already been made by scientists funded through 
ARRA funding. One such investigator is studying how to improve motor 
function following stroke. Another investigator is using specially 
designed video games to understand the cognitive effects of autism, in 
order to develop behavioral or drug treatments. Please visit http://
bit.ly/a0g8aA to learn more about the progress made.
    More than 1,900 new investigators received ARRA grant funding. 
Scientists were inspired to do more research and patients suffering 
from debilitating neurological and psychiatric disorders were given 
hope, thanks to your generous support of ARRA.
Congressional Support Accelerates Discovery
    In the late 1990s, Congress made a commitment to double the budget 
of the NIH over the course of 5 years. The primary goal for the added 
funds was to discover better treatments and cures for human disease. 
Congress delivered on its promise, and scientists have amassed a wealth 
of medical knowledge. Today, researchers have a greater understanding 
of how the brain and nervous system function due to NIH-funded 
research.
    Many recent scientific discoveries, including those in neurology, 
psychiatry, and behavioral research have begun to show their potential. 
Insights into the biology of schizophrenia, epilepsy, Alzheimer's, and 
other disorders have led to the development of enhanced diagnostic 
techniques, better prevention methods, and more effective treatments. 
Simply put: the result of congressional support for research leads to 
improved patient care.
Today's Research: Hope for the Future
    Today's research is the foundation for future breakthroughs. The 
Federal Government's investment in research must be sustained in order 
to translate today's scientific findings into further bedside 
treatments, and the ABC supports NIH in its entirety. Recent 
discoveries, such as those listed below, are a direct result of robust 
funding for the NIH.
  --The development of drugs that reduce the severity of symptoms for 
        those suffering with multiple sclerosis and Parkinson's 
        disease.
  --The identification of stroke treatment and prevention methods.
  --The discovery of a new class of anti-depressants that produce fewer 
        side effects than their predecessors.
  --The creation of new drugs to help prevent epileptic seizures.
  --The expansion of treatments for the psychotic symptoms of 
        schizophrenia.
    My own field of research concerns schizophrenia, a devastating 
brain disorder that affects 1 percent of the population but is the 
seventh most costly medical illness to our society because of its life-
long disability. Basic brain research funded by the National Institute 
of Mental Health has transformed our understanding of the disorder and 
illuminated new targets for therapeutic intervention that affect 
symptoms untouched by existing drugs.
Research Improves Health and Fuels the Economy
    Diseases of the nervous system pose a significant public health and 
economic challenge, affecting nearly 1 in 3 Americans at some point in 
life. Improved health outcomes and positive economic data support the 
assertion that biomedical research is needed to improve public health 
today and save money tomorrow.
    Not only does research save lives and fuel today's economy, it is 
also a wise investment in the future. For example, 5 million Americans 
suffer from Alzheimer's disease today, and the cost of caring for these 
people is staggering. Medicare expenditures are $91 billion each year, 
and the cost to American businesses exceeds $60 billion annually, 
including lost productivity of employees who are caregivers. As the 
baby boom generation ages and the cost of medical services increases, 
these figures will only grow. Treatments that could delay the onset and 
progression of the disease by even 5 years could save $50 billion in 
healthcare costs each year. Research funded by the NIH is critical for 
the development of such treatments. The cost of investing in NIH today 
is minor compared to both current and future healthcare costs.
    Additionally, it is estimated that each billion of dollars of NIH 
funding generates 15,000 to 20,000 well-paying jobs that can't be sent 
offshore. Science funding also generates more than twice as much in 
State and local economic output. A strong Federal investment in 
research can assist your State in maintaining a biomedical research 
foundation that attracts companies and investors. For instance, in 
fiscal year 2007, NIH dollars generated more than $50 billion in new 
State business.
    Strong science funding can bolster the economy today and improve 
our Nation's long term health and competitiveness tomorrow. Robust 
research and development investment remains the key to America's long-
term global competitiveness. NIH funding serves as the basis for future 
innovation and industries such as pharmaceutical, medical device, and 
biotechnology.
Fiscal Year 2011 Recommendation
    ABC supports $35 billion for the National Institutes of Health in 
fiscal year 2011. This represents the new functional capacity funded by 
the annual appropriations process and the American Recovery and 
Reinvestment Act. In addition, it will help the NIH to achieve its 
broad research goals and provide hope for the millions of Americans 
affected with neurological and psychiatric disorders, while 
strengthening the economy and creating jobs throughout the country.
    There is still much work to be done to uncover the mysteries of the 
brain. Fiscal year 2011 provides Congress with the opportunity to renew 
its past commitment to health funding as a national priority.
                                 ______
                                 
        Prepared Statement of the American College of Cardiology
    The American College of Cardiology (ACC) appreciates the 
opportunity to provide the subcommittee with recommendations for fiscal 
year 2011 funding for cardiovascular research and prevention. The ACC 
is a more than 38,000 member, non-profit professional medical society 
and teaching institution whose mission is to advocate for quality 
cardiovascular care--through education, research promotion, development 
and application of standards and guidelines--and to influence 
healthcare policy.
    Heart disease is America's number one killer and a major cause of 
permanent disability. Nearly 1 in 3 adults in the United States suffers 
from heart disease. Heart disease and stroke will cost the United 
States an estimated $503.2 billion in 2010, including healthcare costs 
and lost productivity.
    The death rates attributable to cardiovascular disease actually 
have declined due to advances in science through diagnostic tests, drug 
and device therapies, surgical innovations, enhanced emphasis on 
prevention, and innovative public education programs. Federal research 
provided for many of these advances that improve understanding of the 
prevention and treatment of cardiovascular disease, leading to better 
outcomes and increased quality of life for patients.
            acc funding recommendations for fiscal year 2011
    As the subcommittee considers its appropriations for programs 
within the Department of Health and Human Services, the ACC urges 
support of the following recommendations.
National Institutes of Health (NIH)
    The ACC supports an appropriation of $35.2 billion for the National 
Institutes of Health (NIH). This funding level will allow the NIH to 
build on momentum achieved from investments from the American Recovery 
and Reinvestment Act (ARRA). The NIH currently invests only 4 percent 
of its budget on heart research; the ACC urges NIH to invest a higher 
percentage of its budget to heart research.
National Heart, Lung, and Blood Institute (NHLBI)
    The ACC supports an appropriation of $3.514 billion for the 
National Heart, Lung, and Blood Institute (NHLBI). The NHLBI does 
critical research into the causes, diagnosis, and treatment of heart 
disease.
Agency for Healthcare Research and Quality (AHRQ)
    The ACC supports the President's budget request of $611 million for 
the Agency for Healthcare Research and Quality (AHRQ). The ACC supports 
the recent increases in funding for AHRQ's comparative effectiveness 
research program, and also believes AHRQ's health services research 
related to healthcare costs, quality, and access are critically 
important.
CDC Heart Disease and Stroke Prevention
    The ACC supports an appropriation of $76.221 million for the 
Centers for Disease Control and Prevention (CDC) Division for Heart 
Disease and Stroke Prevention. These public education efforts are 
helping to reduce blood pressure and cholesterol, educate about heart 
disease and stroke signs and symptoms, enhance emergency response and 
quality care, and end treatment disparities.
    The ACC also supports an appropriation of $37.087 million for CDC's 
WISEWOMAN program. This program screens uninsured and under-insured 
low-income women ages 40 to 64 for heart disease and stroke risk and 
those with abnormal results receive counseling, education, referral and 
follow up.
HRSA Rural and Community AED Program
    The ACC supports an appropriation of $8.927 million for the Health 
Resources and Services Administration (HRSA) Rural and Community Access 
to Emergency Devices Program, which would restore it to its fiscal year 
2005 level when 47 States received resources from the initiative. This 
program provides competitively awarded grants to States to purchase 
automated external defibrillators (AEDs), train lay rescuers and first 
responders in their use, and place them in public areas where sudden 
cardiac arrests are likely to occur. In 2009 only ten states received 
funding for this initiative.
NHLBI and CDC: Congenital Heart Disease Research and Surveillance
    The ACC is pleased that the recently enacted ``Patient Protection 
and Affordable Care Act'' includes provisions to enhance and expand the 
infrastructure to track the epidemiology of congenital heart disease 
(CHD) and to conduct and support research on it. The ACC as well as the 
Adult Congenital Heart Association, Mended Little Hearts and Children's 
Heart Foundation, stand ready to work with the subcommittee to advance 
these policies.
    Congenital heart defects are the most common birth defect in the 
United States and are a leading cause of child mortality. The success 
of childhood cardiac intervention has created a new chronic disease--
CHD. Those who receive successful intervention will need life-long 
special cardiac care and face high rates of heart failure, rhythm 
disorders, stroke and sudden cardiac death. Thanks to the increase in 
survival, the CHD population is rising by 5 percent a year; there are 
about 800,000 children and 1 million adults in the United States now 
living with CHD.
    Despite the prevalence and seriousness of the disease, data 
collection and research are limited. Federal funding support for CHD 
surveillance through CDC and research through NHLBI is necessary to 
help prevent premature death and disability in this rapidly growing and 
severely underserved population.
                  cardiovascular disease research gaps
    As the healthcare system evolves towards better integration of 
health information technology (HIT), clinical decision support tools, 
and performance measurement, the need for meaningful clinical practice 
guidelines is essential. The American College of Cardiology Foundation 
(ACCF) and the American Heart Association (AHA) have a long history in 
the development of clinical practice guidelines, and have close to 20 
guidelines on a range of cardiovascular topics. The guidelines are 
developed through a rigorous, evidence-based methodology, including 
multiple layers of review and expert interpretation of the evidence on 
an ongoing, regular basis.
    Many clinical research questions remain unanswered or understudied, 
however. The ACC has identified knowledge gaps for cardiovascular 
disease that if addressed, have potential to positively impact patient 
outcomes, costs, and the efficiency of care delivery. A Federal 
investment through the NHLBI and AHRQ to answer the following questions 
will help to better narrow the target population who can benefit from 
treatment and therefore increase the efficacy and efficiency of 
patient-centered care delivery.
  --What is the effect of common cardiovascular therapies on elderly 
        populations whose metabolism and kidney function are lower and 
        may not respond to medications in the same way as the younger 
        patients typically included in clinical trials?
  --What is the effect of common cardiovascular therapies on patients 
        with multiple other diseases/conditions?
  --What is the effect of common cardiovascular therapies on women? 
        What are signs and risk factors for cardiovascular disease in 
        women?
  --What are the best approaches to increasing patient compliance with 
        existing therapies?
  --What screening and risk models (existing or new) could further 
        define who will benefit from various therapies?
  --What are the optimal management strategies for anticoagulation and 
        antiplatelet agents in heart attack patients, patients with 
        stents, and atrial fibrillation patients to maximize benefit 
        and reduce bleeding risks?
  --What are the best approaches to managing complex but understudied 
        cardiovascular topics such as congenital heart disease, 
        valvular heart disease, and hypertrophic cardiomyopathy? These 
        topics have become areas of higher research interest as 
        techniques have developed to extend the lives of patients with 
        these disorders.
  --What are the risks and benefits of common off-label uses of widely 
        used therapies and procedures?
  --What are the risks and benefits of various cardiovascular screening 
        protocols, such as those for imaging methods used to correctly 
        identify patients who will benefit from surgical, endovascular, 
        and/or medical interventions?
  --What are the best catheter-based techniques to increase treatment 
        success and reduce complications for both coronary and cardiac 
        rhythm procedures?
  --What are the effects of nutrition, environment and genetics on the 
        occurrence of congenital heart defects?
    The above list of topics is not exhaustive but gives an overview of 
some of the themes of the evidence gaps that exist across the ACCF/AHA 
guidelines. In addition to specific clinical research topics, the ACCF 
recommends funding to help address structural issues that could help 
identify, prioritize, and interpret research findings over the long 
term.
  --The NIH and or AHRQ should fund more trials of direct comparison of 
        clinical effectiveness between pharmacological and other 
        therapies. Without these important trials, the current emphasis 
        on promoting comparative effectiveness will be founded upon 
        efficacy trials and not effectiveness.
  --The NHLBI should work with the clinical cardiology community to 
        proactively design clinical trials to address unanswered 
        clinical questions and identify methods that allow for greater 
        comparability among studies. NHLBI should work with ACCF and 
        the AHA to develop an evidence model that would drive future 
        research initiatives based on current evidence gaps in the 
        guidelines; and
  --NIH should fund the development of a robust informatics 
        infrastructure across Institutes to process research evidence. 
        Studies should be designed such that their results could be 
        ``fed'' into a computer model that would provide additional 
        insights for developers of clinical recommendations.
  --NIH and or AHRQ should fund studies of patient preference and 
        values.
      arra in action: collaborating to improve cardiovascular care
    In September 2009, the ACC was pleased to be awarded two Federal 
grants under ARRA. The ACC has applied for three others, in addition to 
serving as a subcontractor on several other grant applications.
Grand Opportunity Grants
            Comparative Effectiveness of PCI versus CABG Grant
    The NHLBI awarded a Grand Opportunity grant to the ACC in 
partnership with the Society of Thoracic Surgeons (STS) to study the 
comparative effectiveness of the two forms of coronary 
revascularization; percutaneous coronary intervention (PCI) and 
coronary artery bypass graft (CABG) surgery (Award Number 1RC2HL10148). 
Now entering the second half of this 2 year award period, the study is 
comparing these two cardiac procedures using existing databases from 
the ACC and STS, as well as the Centers for Medicare and Medicaid 
Services 100 percent denominator file data. By linking these three 
databases, the study will help physicians make better decisions and 
improve healthcare for patients with coronary artery disease.
            National Cardiovascular Research Infrastructure (NCRI) 
                    Grant
    The NHLBI also awarded a Grand Opportunity grant (Award Number 
1RC2HL101512-01) to Duke Clinical Research Institute (DCRI), with the 
ACC serving as a subcontractor, to develop a clinical investigator 
network based upon the data collection activities of ACC's National 
Cardiovascular Data Registries (NCDRr). These registries have 
previously been used to quantify outcomes and identify gaps in the 
delivery of quality cardiovascular patient care in the United States. 
The current grant will extend these existing systems by establishing a 
National Cardiovascular Research Infrastructure (NCRI) that will unify 
sites with a centralized clinical research network. NCRI will 
facilitate interoperable clinical research by enhancing site 
recruitment, training, performance, and accountability and will create 
a sustained improvement in the efficiency and quality of the 
interaction between the clinical research subject, the clinician 
investigator, the expert guidelines committee, and policymakers.
Prospect Grants #RFA-HS-10-005: Building New Clinical Information for 
        Comparative Effectiveness Research
            Valvular Heart Disease Registry Grant Application
    In February 2010, ACC and STS again joined forces to submit a grant 
application entitled ``ACCF-STS Database Development and Collaboration 
on the Comparative Effectiveness of Valvular Heart Disease.'' This 
application was in response to the above announcement from AHRQ. The 
DCRI Data Coordinating and Analysis Center collaborated on the 
development of this grant and, if awarded, would provide the clinical 
outcomes and analysis for the project. The purpose of this grant would 
be for ACCF and STS to take advantage of their existing registries to 
create and maintain a sustainable disease-based, multi-center registry 
for valvular heart disease (VHD), a robust, efficient system of 
longitudinal follow-up for registry patients, and to perform a direct 
comparison of initial clinical outcomes following different management 
strategies of patients with severe aortic stenosis.
            Infrastructure Development for the Comparative 
                    Effectiveness of Atrial Fibrillation
    In partnership with the Heart Rhythm Society (HRS), ACC submitted a 
grant to AHRQ proposing to develop the electronic database 
infrastructure necessary to collect prospective data of patients with 
atrial fibrillation through use of ACC's NCDR. Once developed, new 
evidence comparing various interventions will be available by using 
this new NCDR registry database to better understand the procedures and 
improve healthcare for patients with atrial fibrillation, one of the 
most common arrhythmias in clinical practice. Such data will contain 
process, risk-adjusted outcomes, utilization, provider characteristics, 
and cost data spanning several years that has a potentially great 
benefit to society. Specifically, this study will permit comparative 
effectiveness research of the management of patients with atrial 
fibrillation, including comparisons across race, gender, and age. These 
comparisons will be more comprehensive than any currently available, 
and will be of inestimable benefit in provider decisionmaking and 
patient care in a variety of clinical situations.
Enhanced Registries for Quality Improvement and Comparative 
        Effectiveness (AHRQ #RFA-HS-10-020)
            Integrating Local EHR Data into the ACC NCDR Registry to 
                    Improve Care (LEAN) Grant Application
    The aim of this grant application is to develop an informatics 
solution that captures and delivers real-time clinical patient 
information to multiple care settings. ACC is collaborating with Yale 
University School of Medicine, Christiana Care Center for Outcomes 
Research, Sisters of Mercy Health System, Saint Luke's Hospital of 
Kansas City-Mid America Heart Institute, and Duke University Medical 
Center on this important endeavor. The formation of the proposed 
infrastructure will not only drive quality improvement, but also 
facilitate comparative effectiveness research. This project aligns 
particularly well with the goals and purposes expressed nearly 2 years 
ago by the ACCF and the NCDR with the launch of the IC\3\ Registry 
(renamed the PINNACLE Registry<SUP>TM</SUP> in the fall of 2009). 
PINNACLE was designed to improve the quality of outpatient 
cardiovascular care by reducing inappropriate variations in care, by 
eliminating gaps in care, and by improving care coordination for 
patients with cardiovascular disease. Realization of these objectives 
will rely on the existence of a strong, unified data collection 
infrastructure that will allow for retrieval across both inpatient and 
outpatient care settings, as well as provide quality improvement 
feedback.
                                 ______
                                 
      Prepared Statement of the Adult Congenial Heart Association
    The Adult Congenial Heart Association (ACHA) is pleased that the 
recently enacted ``Patient Protection and Affordable Care Act'' 
includes provisions to enhance and expand the infrastructure to track 
the epidemiology of congenital heart disease (CHD) and to conduct and 
support research on causation, including genetic causes; long-term 
outcomes in individuals with congenital heart disease; diagnosis, 
treatment, and prevention; studies using longitudinal data and 
retrospective analysis to identify effective treatments and outcomes; 
and identifying barriers to life-long care for individuals with 
congenital heart disease. The Adult Congenital Heart Association, along 
with coalition partners Mended Little Hearts and Children's Heart 
Foundation, stand ready to work with the subcommittee and Members of 
Congress to advance these policies.
    CHD are the most common birth defect in the United States and are a 
leading cause of child mortality. The success of childhood cardiac 
intervention has created a new chronic disease--CHD. Those who receive 
successful intervention will need life-long special cardiac care and 
face high rates of heart failure, rhythm disorders, stroke, and sudden 
cardiac death. Thanks to the increase in survival, the CHD population 
is rising by 5 percent a year. There are about 800,000 children and 1 
million adults in the United States now living with CHD.
    Despite the prevalence and seriousness of the disease, data 
collection and research are limited. In 2004, the National Heart, Lung 
and Blood Institute (NHLBI) convened a working group on congenital 
heart disease, which recommended developing a research network to 
conduct clinical research and establishing a national database of 
patients.
    Federal funding support for CHD surveillance through CDC and 
research through NHLBI will help prevent premature death and disability 
in this rapidly growing and severely underserved population.
                                 ______
                                 
   Prepared Statement of the American Congress of Obstetricians and 
                             Gynecologists
    The American Congress of Obstetricians and Gynecologists, 
representing 53,000 physicians and partners in women's healthcare, is 
pleased to offer this statement to the Senate Committee on 
Appropriations, Subcommittee on Labor, Health and Human Services, and 
Education, and Related Agencies. We thank Chairman Harkin, and the 
entire subcommittee for their leadership to continually address women's 
health research at the Department of Health and Human Services. Today, 
the United States lags behind other nations in healthy births, yet 
remains high in birth costs. ACOG's Making Obstetrics and Maternity 
Safer (MOMS) Initiative seeks to improve maternal outcomes through more 
research and better data, and we urge you to make this a top priority 
in fiscal year 2011.
    Research is critically needed to understand why our maternal and 
infant mortality rate remains comparatively high. Having better data 
collection methods and comprehensive maternal mortality reviews has 
shown maternal mortality rates in some States, such as California, to 
be higher than previously thought. States without these resources are 
likely underreporting maternal and infant deaths and complications from 
childbirth. Without accurate data, the full range of causes of these 
deaths remains unknown. Effective research based on comprehensive data 
is a key MOMS element to developing and implementing evidence-based 
interventions.
    Unfortunately, the MOMS Initiative is threatened by the sizeable 
cliff in research funding that will be created in fiscal year 2011 once 
the stimulus package ends this year. Building funding levels from the 
stimulus into the base for fiscal year 2011 appropriations will ensure 
the continuation of current research important to the MOMS Initiative, 
and ensure that future research necessary to improving maternal 
outcomes does not go unfunded.
    The President's budget for fiscal year 2011 takes a positive first 
step towards this goal, including a $1 billion increase for NIH, and 
ACOG requests the subcommittee build on these increases to maintain the 
momentum created by the stimulus. The NIH and many other HHS agencies 
are vital to carrying out the goals of the MOMS Initiative. Therefore, 
ACOG asks for a 13.5 percent increase for NIH to $35.2 billion, a 22.3 
percent increase for HRSA to $9.15 billion, a 35.9 percent increase for 
CDC to $8.8 billion, and a 53.9 percent increase for AHRQ to $611 
million.
    Research and programs in the following areas are vital to the MOMS 
Initiative:
Maternal/Child Health Research at the NIH
    The Eunice Kennedy Shriver National Institute of Child Health and 
Human Development (NICHD) conducts the majority of women's health 
research. Despite the NIH's critical advancements, reduced funding 
levels have made it difficult for research to continue.
    ACOG supports a 12.5 percent increase in funds over fiscal year 
2010 to $1.495 billion for the NICHD. These funds will assist the 
following research areas critical to the MOMS Initiative:
            Reducing the Prevalence of Premature Births
    There is a known link between pre-term birth and infant mortality, 
and women of color are at increased risk for delivering pre-term. NICHD 
is helping our Nation understand how adverse conditions and health 
disparities increase the risks of premature birth in high-risk racial 
groups, and how to reduce these risks. Prematurity rates have increased 
almost 35 percent since 1981, accounting for 12.5 percent of all 
births, yet the causes are unknown in 25 percent of cases. Preterm 
births cost the Nation $26 billion annually, $51,600 for every infant 
born prematurely. Direct healthcare costs to employers for a premature 
baby average $41,610, 15 times higher than the $2,830 for a healthy, 
full-term delivery.
    ACOG supports the Surgeon General's effort to make the prevention 
of pre-term birth a national public health priority, and urges Congress 
to allocate $1 million to NICHD to create a Trans-disciplinary Research 
Center on Prematurity to help streamline efforts to reduce pre-term 
births.
            Obesity Research, Treatment, and Prevention
    Obese pregnant women are at higher risk for poor maternal and 
neonatal outcomes. Additional research and interventions are needed to 
address the increased risk for poor outcomes in obese women receiving 
infertility treatment, the increased incidence of birth defects and 
stillbirths in obese pregnant women, ways to optimize outcomes in obese 
women who become pregnant after bariatric surgery, and the increased 
future risk of childhood obesity in their offspring.
    ACOG is grateful to the NIH for making obesity a priority and 
initiating trans-disciplinary approaches to combat obesity. We also 
applaud First Lady Michelle Obama for naming childhood obesity a top 
priority. ACOG urges the NIH and the NICHD to make obesity in pregnant 
women a high priority, to improve the health of mother and child.
Maternal/Child Health Programs at CDC
    CDC funds programs that are critical to providing resources to 
mothers and children in need. Where NIH conducts research to identify 
causes of pre-term birth, CDC funds programs that provide resources to 
mothers to help prevent pre-term birth, and help identify factors 
contributing to pre-term birth and poor maternal outcomes.
    ACOG supports a 35.9 percent increase in funds over fiscal year 
2010 to $8.8 billion to increase CDC's ability to bring prevention, 
treatment and interventions to more women and children in need, and to 
help enact some of the important provisions within healthcare reform. 
This funding will help the following programs important to the MOMS 
Initiative:
            Maternal Mortality Reviews, Division of Reproductive Health
    National data on maternal mortality is inconsistent and incomplete 
due to the lack of standardized reporting definitions and mechanisms. 
To capture the accurate number of maternal deaths and plan effective 
interventions, maternal mortality should be addressed through multiple, 
complementary strategies. ACOG recommends that CDC fund States in 
implementing maternal mortality reviews that would allow them to 
conduct regular reviews of all deaths within the State to identify 
causes, factors in the communities, and strategies to address the 
issues. Combined with adoption of the recommended birth and death 
certificates in all States and territories, CDC could then collect 
uniform data to calculate an accurate national maternal mortality rate. 
Results of maternal mortality reviews will inform research needed to 
identify evidence based interventions addressing causes and factors of 
maternal mortality and morbidity.
    ACOG urges Congress to provide $2.375 million to the Division of 
Reproductive Health to assist States in setting up maternal mortality 
reviews.
            Electronic Birth Records and Death Records, National Center 
                    for Health Statistics (NCHS), National Vital 
                    Statistics System (NVSS)
    NCHS is the Nation's principal health statistics agency; it 
collects, analyzes and reports on data critical to all aspects of our 
healthcare system. NCHS collects State data needed to monitor maternal 
and infant health, such as use of prenatal care, and smoking during 
pregnancy. This data allows investigators to monitor maternal and child 
health objectives, and develop efficient prevention and treatment 
strategies.
    Uniform consistent data from birth and death records is critical to 
conducting research and directing public programs to combat maternal 
and infant death. Only 75 percent of States and territories use the 
2003 recommended birth certificates and 65 percent have adopted the 
2003 recommended death certificate. Within the increased funding 
provided to NCHS in the President's budget, $8 million was included 
specifically for the National Vital Statistics System (NVSS) to support 
States and territories in implementing the 2003 birth certificate and 
modernizing their infrastructure to collect these data electronically 
to expand the scope and quality of data collected on a national basis. 
The President's budget provides NVSS $3 million to phase in the 2003 
death certificate and electronic death records in States and 
territories.
    ACOG urges Congress to allocate $11 million for States to modernize 
their birth and death records systems to the 2003 recommended 
guidelines, consistent with the President's budget.
            Safe Motherhood/Infant Health
    Two to three women a day die from delivery complications. The Safe 
Motherhood Program supports CDC's work with State health departments 
and other groups to identify and gather information on pregnancy-
related deaths; collect and provide information about women's health 
and health behaviors before, during, and immediately after pregnancy; 
and expand the acceptance and use of findings and guidelines on 
preconception care into everyday practice and healthcare policy.
    Safe Motherhood also tracks infant morbidity and mortality 
associated with pre-term birth. ACOG is concerned with recent trends 
particularly among rates of late pre-term births. Increased funding is 
needed for CDC to improve national data systems to track pre-term birth 
rates and expand epidemiological research that focuses especially on 
the causes and prevention of preterm birth and births at 37-38 weeks 
gestation.
    ACOG urges Congress to include a 23.7 percent increase in funds to 
$55.4 million for Safe Motherhood, consistent with the President's 
budget.
Maternal/Child Health Programs at HRSA
    HRSA delivers critical resources to communities to improve the 
health of mothers and children. ACOG urges a 22.3 percent increase in 
funds over fiscal year 2010 to $611 million to increase the scope of 
HRSA programs, ultimately bringing more resources to more mothers and 
children. This funding will help expand the following programs 
important to the MOMS Initiative:
            Fetal Infant Mortality Reviews, Healthy Start Program
    After decades of decline, the U.S. infant mortality rate is again 
on the rise and is particularly severe among minority and low-income 
women. The infant mortality rate among African American women has been 
increasing since 2001 and reached 14.2 deaths per 1,000 births in 2004. 
There also has been a startling rise in infant mortality in the South. 
Mississippi, for example, had an infant mortality rate of 11.4 in 2005 
compared to 9.6 the previous year.
    The Healthy Start Program through HRSA promotes community-based 
programs that focus on infant mortality and racial disparities in 
perinatal outcomes. These programs are encouraged to use the Fetal and 
Infant Mortality Review (FIMR) which brings together ob-gyn experts and 
local health departments to help solve problems related to infant 
mortality. Today more than 220 local programs in 42 States find FIMR a 
powerful tool to help solve infant mortality.
    ACOG urges Congress to include $.5 million for Healthy Start 
Programs to include FIMR.
            Maternal Child Health Block Grant (MCH)
    The MCH is the only Federal program that exclusively focuses on 
improving the health of mothers and children. State and territorial 
health agencies and their partners use MCH Block Grant funds to reduce 
infant mortality, deliver services to children and youth with special 
healthcare needs, support comprehensive prenatal and postnatal care, 
screen newborns for genetic and hereditary health conditions, deliver 
childhood immunizations, and prevent childhood injuries.
    ACOG urges Congress to increase funding for MCH $730 million, a 
10.3 percent increase over fiscal year 2010.
Comparative Effectiveness Research on Maternal Disparities at AHRQ
    There are glaring disparities in maternal outcomes among different 
ethnic and racial groups, particularly related to pre-term birth and 
maternal and infant mortality rates among African American women. For 
that reason, disparities research is a major tenant of ACOG's MOMS 
Initiative. Comparative effectiveness research has the capacity to 
greatly improve pre-term birth rates and maternal and infant mortality 
rates by testing the efficacy of prevention and treatment interventions 
on different populations. As more comparative effectiveness research 
gets funded from the stimulus and healthcare reform bills, ACOG urges 
Congress to make disparities research into maternal outcomes a top 
priority.
    ACOG supports a 53.9 percent increase in funds for AHRQ to $611 
million, consistent with the President's budget.
    Again, we would like to thank the subcommittee for its continued 
support of programs to improve women's health, and we urge you to 
consider our MOMS Initiative in fiscal year 2011.
                                 ______
                                 
        Prepared Statement of the American College of Physicians
    Chairman Harkin and Ranking Member Cochran, thank you for allowing 
me to share the American College of Physicians' (ACP) views on the 
Department of Health and Human Services (HHS) budget for fiscal year 
2011.
    I am Joseph W. Stubbs, MD, FACP, President of the ACP. I have also 
had the privilege of serving adult patients for the past 27 years as a 
full-time internist and geriatrician in a nine-person primary care 
group practice in Albany, Georgia. Every day, I see where the rubber of 
health policy meets the road of real patient lives. In my practice, we 
have more than 50 employees, and I have seen the ratio of physician to 
staff grow from 1:3 to 1:6 in the last 10 years. Healthcare in the 
United States is facing an unprecedented challenge of affordability and 
sustainability. I am pleased to be able to represent ACP.
    ACP represents 129,000 internal medicine physicians, residents, and 
medical students. ACP is also the Nation's largest medical specialty 
society and its second largest physician membership organization.
    ACP is pleased to urge full funding for the following proven 
programs that currently receive appropriations from the subcommittee:
  --Title VII, section 747, Primary Care Training and Enhancement, at 
        no less than $125 million;
  --National Health Service Corps, $414,095,394, in addition to the 
        $290 million in enhanced funding through the Community Health 
        Fund; and
  --Agency for Healthcare Research and Quality, $611 million.
    In addition to fully funding the existing programs noted above, ACP 
is pleased to support the following new programs, as created in the 
Patient Protection and Affordable Care Act (PPACA), with the 
stipulation that they should be fully funded:
  --Title VII, section 747A, Teaching Health Centers, $50 million;
  --Primary Care Training Extension Program, $120 million;
  --National Health Care Workforce Commission;
  --State healthcare workforce development grants; and
  --State demonstration programs to evaluate alternatives to current 
        medical tort litigation, $50 million.
    We are experiencing a primary care shortage in this country, the 
likes of which we have not seen. The expected demand for primary care 
in the United States continues to grow exponentially while the Nation's 
supply of primary care physicians dwindles and interest by U.S. medical 
graduates in adult primary care specialties steadily declines. With 
passage of the PPACA, we expect the demand for primary care services to 
increase with the addition of 32 million Americans receiving access to 
health insurance, once the law is fully implemented.
    A strong primary care infrastructure is an essential part of any 
high-functioning healthcare system. In this country, primary care 
physicians provide 52 percent of all ambulatory care visits, 80 percent 
of patient visits for hypertension, and 69 percent of visits for both 
chronic obstructive pulmonary disease and diabetes, yet they comprise 
only one-third of the U.S. physician workforce. Those numbers are 
compelling, considering that more than 100 studies show primary care is 
associated with better outcomes and lower costs of care (http://
www.acponline.org/advocacy/where_we_stand/policy/primary_shortage.pdf).
    Many regions of the country are currently experiencing shortages in 
primary care physicians. The Institute of Medicine reports that it 
would take 16,261 additional primary care physicians to meet the need 
in currently underserved areas alone. A 2008 study published in Health 
Affairs projects a shortage of 35,000 to 40,000 or more primary care 
physicians for adults by 2025 (Colwill JM, Cultice JM, Kruse RL. Will 
generalist physician supply meet demands of an increasing and aging 
population? Health Affairs (Millwood). 2008 May-Jun;27(3):w232-41. Epub 
2008 Apr 29). With an aging and growing population, family physicians' 
and general internists' workloads are expected to increase by 29 
percent between 2005 and 2025. To help alleviate the shortage of 
primary care physicians, we believe sufficient funding should be 
provided for title VII programs and the National Health Service Corps.
    The health professions education programs, authorized under title 
VII of the Public Health Service Act and administered through the 
Health Resources and Services Administration (HRSA), support the 
training and education of healthcare providers to enhance the supply, 
diversity, and distribution of the healthcare workforce, filling the 
gaps in the supply of health professionals not met by traditional 
market forces, and are critical to help institutions and programs 
respond to the current and emerging challenges of ensuring all 
Americans have access to appropriate and timely health services.
    Within the title VII program, while we applaud the President's 
request for $54 million for the section 747, Training in Primary Care 
Medicine and Dentistry, with passage of the PPACA and the 
reauthorization of the section 747, Primary Care Training and 
Enhancement, we urge the subcommittee to fund the program at $177.6 
million, which is double the amount of funding the program received in 
fiscal year 2005, the high watermark for this program. We urge the 
subcommittee to not designate a percentage of the funding to a specific 
primary care disciple, as has been done in previous years. The 
reauthorization of the section 747 program calls for capacity building 
in the fields of general internal medicine, general pediatrics, and 
family medicine, as well as eliminates the rateable reduction language 
which has diverted over two-thirds of the funding in this program to 
one primary care discipline. The section 747 program is the only source 
of Federal training dollars available for general internal medicine, 
general pediatrics, and family medicine. For example, general 
internists, who have long been at the frontline of patient care, have 
benefited from title VII training models that promoted 
interdisciplinary training that helped prepare them to work with other 
health professionals, such as physician assistants, patient educators 
and psychologists.
    ACP strongly supports the creation of the title VII, section 749A, 
Teaching Health Centers Development Grants, as established in the 
PPACA, which would provide grants and Graduate Medical Education 
funding for Teaching Health Centers to train primary care physicians in 
community based settings. Developing residency programs within 
community-based ambulatory primary care settings, with the appropriate 
infrastructure investment, will help strengthen the primary care 
workforce. Residents in primary care training programs need increased 
exposure to the ambulatory care setting, a practice environment that 
demonstrates that satisfaction can be gained from providing ongoing, 
continuous care to patients. The evidence suggests that residents who 
spend increased time in outpatient settings opposed to the hospital 
deliver a higher quality of care and maintained a higher degree of 
satisfaction from their work. ACP strongly urges the subcommittee to 
fully fund this program at its fiscal year 2011 authorized level of $50 
million.
    ACP recommends an appropriation of $414,095,394 for the National 
Health Service Corps (NHSC), the amount authorized for fiscal year 2011 
under the PPACA. This is in addition to the $290 million in enhanced 
funding the HHS Secretary has been given the authority to provide to 
the NHSC through the Community Health Care Fund in fiscal year 2011, as 
authorized under the PPACA. The increase in funds must be sustained to 
help address the health professionals' workforce shortage and growing 
maldistribution.
    The NHSC scholarship and loan repayment programs provide payment 
toward tuition/fees or student loans in exchange for service in an 
underserved area. The programs are available for primary medical, oral, 
dental, and mental and behavioral professionals. Participation in the 
NHSC for 4 years or more greatly increases the likelihood that a 
physician will continue to work in an underserved area after leaving 
the program. In 2000, the NHSC conducted a large study of NHSC 
clinicians who had completed their service obligation up to 15 years 
before and found that 52 percent of those clinicians continued to serve 
the underserved in their practice.
    At a field strength of 4,760 in fiscal year 2009, the NHSC fell 
more than 24,000 practitioners short of fulfilling the need for primary 
care, dental, and mental health practitioners in Health Professions 
Shortage Areas (HPSA), as estimated by HRSA. The NHSC estimates that 
nearly 50 million Americans currently live in a HPSA and that 27,000 
primary care professionals are needed to adequately serve the people 
living in a HPSA. The National Advisory Council on the NHSC has 
recommended that Congress double the appropriations for the NHSC to 
more than double its field strength to 10,000 primary care clinicians 
in underserved areas. The programs under NHSC have proven to make an 
impact in meeting the healthcare needs of the underserved, and with 
more appropriations, they can do more.
    The Primary Care Extension Program, a new program created by the 
PPACA under title III of the Public Health Service Act, would help to 
educate and provide technical assistance to primary care providers 
including general internists currently in practice, about evidence-
based therapies, preventive medicine, health promotion, chronic disease 
management, and mental health. This much-needed assistance will 
strengthen primary care practices caring for newly insured individuals 
and an aging population with multiple chronic conditions. ACP 
encourages the subcommittee to fund this program at its fiscal year 
2011 authorized level of $120 million.
    We encourage the subcommittee to fully fund the necessary amounts 
for the National Health Care Workforce Commission, as created by the 
passage of the PPACA. The Commission is authorized to review current 
and projected healthcare workforce supply and demand and make 
recommendations to Congress and the administration regarding national 
healthcare workforce priorities, goals, and polices. ACP believes the 
Nation needs sound research methodologies embedded in its workforce 
policy to determine the Nation's current and future needs for the 
appropriate number of physicians by specialty and geographic areas; the 
work of the Commission is imperative to ensure Congress is creating the 
best policies for our Nation's needs.
    The PPACA also establishes a competitive healthcare workforce 
development grant program for the purpose of enabling State 
partnerships to complete comprehensive planning and to carry out 
activities leading to coherent and comprehensive healthcare workforce 
development strategies at the State and local levels. We urge the 
subcommittee to fully fund the necessary amounts as needed, for both 
planning and implementation grants, given that our States are an 
essential link in sustaining our Nation's health.
    The Agency for Healthcare Research and Quality (AHRQ) is the 
leading public health service agency focused on healthcare quality. 
AHRQ's research provides the evidence-based information needed by 
consumers, providers, health plans, purchasers, and policymakers to 
make informed healthcare decisions. ACP is dedicated to ensuring AHRQ's 
vital role in improving the quality of our Nation's health and endorses 
the President's fiscal year 2011 budget request of $611 million. This 
amount will allow AHRQ to continue its critical healthcare safety, 
quality, and efficiency initiatives; strengthen the infrastructure of 
the research field; re-ignite innovation and discovery; develop the 
next generation of scientific pioneers; and ultimately, help transform 
health and healthcare.
    ACP is supportive of ARHQ's investigator-initiated research 
program, a critically important element of our Nation's healthcare 
research effort. The funding stream provides for many clinical 
innovations, innovations that improve patient outcomes, facilitates the 
translation of research into clinical practice and disease management 
strategies, and addresses the healthcare needs of vulnerable 
populations. Investment in AHRQ's investigator-initiated research is an 
investment in America's health. Additionally, investment in 
investigator-initiated research represents a cost-effective and 
efficient use of our Federal health research dollars. The relatively 
modest investment provided to clinical investigators in the form of 
grants often result in advancements with positive economic implications 
far outweighing the original investment.
    The PPACA allows the HHS Secretary to establish State demonstration 
programs to evaluate alternatives to current medical tort litigation, 
such as certificate of merit programs, which require a finding that a 
suit has merit before it can proceed to trial, and health courts, which 
would have cases heard by a panel of medical experts rather than a lay 
jury. ACP believes that reform of medical liability system is 
essential, and this program is a step in that direction. ACP strongly 
urges the subcommittee to fully fund the program at its authorized 
level of $50 million immediately, allowing States the opportunity to 
build upon the work already being done under the October 2009 Funding 
Opportunity Announcement released by AHRQ, entitled ``Medical Liability 
Reform and Patient Safety Planning Grants.''
                               conclusion
    Mr. Chairman and Ranking Member Cochran, I appreciate the 
opportunity to offer testimony on the importance of HHS budget for 
fiscal year 2011.
    ACP is keenly aware of the fiscal pressures facing the subcommittee 
today, but strongly believes the United States must invest in these 
programs in order to achieve a high performance healthcare system and 
build capacity in our public health system. ACP greatly appreciates the 
support of the subcommittee on these issues and looks forward to 
working with Congress as you begin to work on the fiscal year 2011 
appropriations process.
                                 ______
                                 
   Prepared Statement of the American College of Preventive Medicine
Recommendation
    The American College of Preventive Medicine (ACPM) urges the Labor, 
Health and Human Services, Education, and Related Agencies 
Appropriations Subcommittee to reaffirm its support for training 
preventive medicine physicians and other public health professionals by 
providing $5 million in fiscal year 2011 for preventive medicine 
residency training under the public health, dentistry, and preventive 
medicine line item in title VII of the Public Health Service Act. ACPM 
also supports the recommendation of the Health Professions and Nursing 
Education Coalition that $600 million be appropriated in fiscal year 
2011 to support all health professions and nursing education and 
training programs authorized under titles VII and VIII of the Public 
Health Service Act.
The Need for Preventive Medicine is Growing
    In today's healthcare environment, the tools and expertise provided 
by preventive medicine physicians are integral to the effective 
functioning of our Nation's public health system. These tools and 
skills include the ability to deliver evidence-based clinical 
preventive services, expertise in population-based health sciences, and 
knowledge of the social and behavioral aspects of health and disease. 
These are the tools employed by preventive medicine physicians who 
practice in public health agencies and in other healthcare settings 
where improving the health of populations, enhancing access to quality 
care, and reducing the costs of medical care are paramount. As the body 
of evidence supporting the effectiveness of clinical and population-
based interventions continues to expand, so does the need for 
specialists trained in preventive medicine.\1\ \2\ \3\
---------------------------------------------------------------------------
    \1\ Berrino F Role of Prevention: Cost Effectiveness of Prevention. 
Annals of Oncology 2004; 15:iv245-iv248.
    \2\ Eikjemans G, Takala J. Moving Knowledge of Global burden into 
Preventive Action. American Journal of Industrial Medicine 2005; 
48:395-399.
    \3\ Ortegon M, Redekop W, Niesen L. Cost-Effectiveness of 
Prevention and Treatment of the Diabetic Foot. Diabetes Care 2004; 
27:901-907.
---------------------------------------------------------------------------
    Organizations across the spectrum have recognized the growing 
demand for public health and preventive medicine professionals. The 
Institute of Medicine released a report in 2007 calling for an 
expansion of preventive medicine training programs by an ``additional 
400 residents per year''. The Health Resources and Services 
Administration's (HRSA) Bureau of Health Professions, using data 
extracted from the Department of Labor, reports that the demand for 
public health professionals will grow at twice the rate of all 
occupations between 2000 and 2010.\4\ The Council on Graduate Medical 
Education recommends increased funding for training physicians in 
preventive medicine.\5\ In addition, the Nation's medical schools are 
devoting more time and effort to population health topics.\6\ These are 
just a few of the examples demonstrating the growing demand for 
preventive medicine professionals.
---------------------------------------------------------------------------
    \4\ Biviano M. Public Health and Preventive Medicine: What the Data 
Shows. Presented at the 9th Annual Preventive Medicine Residency 
Program Directors Workshop, San Antonio, Texas. HRSA. 2002.
    \5\ Glass JK. Physicians in the Public Health Workforce. In Update 
on the Physician Workforce. Council on Graduate Medical Education. 
2000.
    \6\ Sabharwal R. Trends in Medical School Graduates' Perceptions of 
Instruction in Population-Based Medicine. In Analysis in Brief. 
American Association of Medical Colleges. Vol. 2, No. 1. January 2002.
---------------------------------------------------------------------------
    In fact, preventive medicine is the only 1 of the 24 medical 
specialties recognized by the American Board of Medical Specialties 
that requires and provides training in both clinical medicine and 
public health. Preventive medicine physicians possess critical 
knowledge in population and community health issues, disease and injury 
prevention, disease surveillance and outbreak investigation, and public 
health research. Preventive medicine physicians are employed in 
hospitals, State and local health departments, Health Maintenance 
Organizations (HMOs), community and migrant health centers, industrial 
sites, occupational health centers, academic centers, private practice, 
the military, and Federal Government agencies.
    The recent focus on emergency preparedness is also driving the 
demand for these skills. Unfortunately, many experts have expressed 
concerns about the preparedness level of our public heath workforce and 
its ability to respond to emergencies. The nonpartisan, not-for-profit 
Trust for America's Health has published annual reports assessing 
America's public health emergency response capabilities. The most 
recent report, released in December 2008, found that neither State nor 
Federal Governments are adequately prepared to manage a public health 
emergency. One reason for this is a significant shortfall in funding 
needed to improve the Nation's public health systems.\7\
---------------------------------------------------------------------------
    \7\ Hearne S, Chrissie J, Segal L, Stephens T, Earls M. Ready or 
Not? Protecting the Public's Health from Diseases, Disasters, and 
Bioterrorism 2008; Trust for America's Health. 
www.healthyamericans.org.
---------------------------------------------------------------------------
    Furthermore, the Centers for Disease Control and Prevention 
recently affirmed that there are significant holes in U.S. hospital 
emergency planning efforts for bioterrorism and mass casualty 
management.\8\ These include varying levels of training among hospital 
staff for treating exposures to chemical, biological or radiological 
agents; lack of memoranda of understanding with supporting local 
healthcare facilities; and lack of preparedness training for explosive 
incidents. Yet, the skills needed to effectively prepare for and 
respond to bioterrorism and other public health threats--epidemiologic 
surveillance, disease prevention and containment, understanding and 
management of the health systems--are at the heart of preventive 
medicine training and public health practice. Preventive medicine 
training produces the public health leaders needed to effectively 
respond to today's threats to the public's health. A recent article on 
public health leadership trends showed that health department directors 
who were not physicians had difficulty handling serious outbreaks and 
other medical emergencies.\9\
---------------------------------------------------------------------------
    \8\ Niska R, Burt C. Bioterrorism and mass casualty preparedness in 
hospitals: United States, 2003. Advance data from vital and health 
statistics; no 364. Hyattsville, MD: National Center for Health 
Statistics. 2005.
    \9\ Kahn, LH. A Prescription for Change: The Need for Qualified 
Physician Leadership in Public Health. Health Affairs 2003; 22:241-8.
---------------------------------------------------------------------------
The Supply of Preventive Medicine Specialists is Shrinking
    According to HRSA and health workforce experts, there are personnel 
shortages in many public health occupations, including among others, 
preventive medicine physicians, epidemiologists, biostatisticians, and 
environmental health workers.\10\
---------------------------------------------------------------------------
    \10\ Health Professions and Nursing Education Coalition. 
Recommendation for Fiscal Year 2007. March 2006.
---------------------------------------------------------------------------
    Exacerbating these shortages is a shrinking supply of physicians 
trained in preventive medicine:
  --In 2002, only 6,893 physicians self-designated as specialists in 
        preventive medicine in the United States, down from 7,734 in 
        1970. The percentage of total U.S. physicians self-designating 
        as preventive medicine physicians decreased from 2.3 percent to 
        0.8 percent over that time period.\11\
---------------------------------------------------------------------------
    \11\ American Medical Association (AMA). Physician Characteristics 
and Distribution in the U.S. 2004, Table 5.2, p. 323.
---------------------------------------------------------------------------
  --Between 1999 and 2006, the number of residents enrolled in 
        preventive medicine training programs declined nearly 20 
        percent.\12\
---------------------------------------------------------------------------
    \12\ AMA. Graduate Medical Education Database. Copyright 1994-2005, 
Chicago, IL.
---------------------------------------------------------------------------
  --The number of preventive medicine residency programs decreased from 
        90 in 1999 to 71 in 2008-2009.\12\
    ACPM is deeply concerned about the shortage of preventive medicine-
trained physicians and the ominous trend of even fewer training 
opportunities. The decline in numbers is dramatic considering the 
existing critical shortage of physicians trained to carry out core 
public health activities. This deficiency will lead to major gaps in 
the expertise needed to deliver clinical prevention and community 
public health. The impact on the health of those populations served by 
HRSA may be profound.
Funding for Residency Training is Eroding
    Physicians training in the specialty of Preventive Medicine, 
despite being recognized as an underdeveloped national resource and in 
shortage for many years, are the only medical residents whose graduate 
medical education (GME) costs are not supported by Medicare, Medicaid 
or other third-party insurers. Training occurs outside hospital-based 
settings and therefore is not financed by GME payments to hospitals. 
Both training programs and residency graduates are rapidly declining at 
a time of unprecedented national, State, and community need for 
properly trained physicians in public health and disaster preparedness, 
prevention-oriented practices, quality improvement and patient safety. 
Both the Council on Graduate Medical Education and Institute of 
Medicine have called for enhanced training support.
    Currently, residency programs scramble to patch together funding 
packages for their residents. Limited stipend support has made it 
difficult for programs to attract and retain high-quality applicants; 
faculty and tuition support has been almost nonexistent.\13\ Directors 
of residency programs note that they receive many inquiries about and 
applications for training in preventive medicine; however, training 
slots often are not available for those highly qualified physicians who 
are not directly sponsored by an outside agency or who do not have 
specific interests in areas for which limited stipends are available 
(such as research in cancer prevention).
---------------------------------------------------------------------------
    \13\ Magee JH. Analysis of Program Data for Preventive Medicine 
Residencies in the United States: Report to the Bureau of Health 
Resources & Services Administration. Washington, DC: American College 
of Preventive Medicine, 1997.
---------------------------------------------------------------------------
    The Health Resources and Services Administration (HRSA)--as 
authorized in title VII of the Public Health Service Act--is a critical 
funding source for several preventive medicine residency programs, as 
it represents the largest Federal funding source for these programs. 
HRSA funding ($2.3 million in 2010) currently supports only physicians 
in preventive medicine training programs. An increase of $2.7 million 
will allow HRSA to support up to 25 new preventive medicine residents.
    These programs directly support the mission of the HRSA health 
professions programs by facilitating practice in underserved 
communities and promoting training opportunities for underrepresented 
minorities:
  --Forty percent of HRSA-supported preventive medicine graduates 
        practice in medically underserved communities, a rate four 
        times the average for all health professionals.\4\ These 
        physicians are meeting a critical need in these underserved 
        communities.
  --One-third of preventive medicine residents funded through HRSA 
        programs are under-represented minorities, which is three times 
        the average of minority representation among all health 
        professionals.\4\ Increased representation of minorities is 
        critical because (1) under-represented minorities tend to 
        practice in medically underserved areas at a higher rate than 
        nonminority physicians, and (2) a higher proportion of 
        minorities contributes to high-quality, culturally competent 
        care.
  --Fourteen percent of all preventive medicine residents are under-
        represented minorities, the largest proportion of any medical 
        specialty.
The Bottom Line: A Strong, Prepared, Public Health System Requires a 
        Strong Preventive Medicine Workforce
    The growing threats of a flu pandemic, disasters, and terrorism has 
thrust public health into the forefront of the Nation's consciousness. 
ACPM applauds recent investments in disaster planning, information 
technology, laboratory capacity, and drug and vaccine stockpiles. 
However, any efforts to strengthen the public health infrastructure and 
disaster response capability must include measures to strengthen the 
existing training programs that help produce public health leaders.
    Many of the public health leaders who guided the Nation's public 
health response in the aftermath of the September 11 attacks and the 
recent hurricane disasters were physicians trained in preventive 
medicine. According to William L. Roper, MD, MPH, Dean of the School of 
Public Health, The University of North Carolina at Chapel Hill, 
``Investing in public health preparedness and response without 
supporting public health and preventive medicine training programs is 
like building a sophisticated fleet of fighter jets without training 
the pilots to fly them.''
                                 ______
                                 
 Prepared Statement of the Association for Clinical Research Training 
                                 (ACRT)
    The Association for Clinical Research Training (ACRT), the 
Association for Patient-Oriented Research (APOR), the Clinical Research 
Forum (CR Forum), and the Society for Clinical and Translational 
Science (SCTS) represent a coalition of professional organizations 
dedicated to improving the health of the public through increased 
clinical and translational research, and clinical research training. 
United by the shared priorities of the clinical and translational 
research community, ACRT, APOR, CR Forum, and SCTS advocate for 
increased clinical and translational research at the National 
Institutes of Health (NIH), the Agency for Healthcare Research and 
Quality (AHRQ), and other Federal science agencies.
    On behalf of ACRT, APOR, CR Forum, and SCTS, I would like to thank 
the Subcommittee for their continued support of clinical and 
translational research, and clinical research training. The creation of 
the Patient-Centered Outcomes Research Institute in recent healthcare 
reform legislation will provide a much-needed and greatly appreciated 
boost to comparative effectiveness research (CER) at the Federal level. 
As outlined by NIH Director Dr. Francis Collins in his five priorities 
for NIH, the translation of basic science to clinical treatment is an 
integral component of modern biomedical research, and a necessity to 
developing the treatments and cures of tomorrow.
    Today, I would like to address a number of issues that cut to the 
heart of the clinical and translational research community's 
priorities, including the Clinical and Translational Science Awards 
program (CTSA) at NIH, career development for clinical researchers, and 
support for CER at the Federal level.
    As our Nation's investment in biomedical research expands to 
provide more accurate and efficient treatments for patients, we must 
continue to focus on the translation of basic science to clinical 
research. The CTSA program at NIH is quickly becoming an invaluable 
resource in this area, but full funding is needed if we are to truly 
take advantage of the CTSA infrastructure.
Fully Funding and Support for the CTSA Program at NIH
    With its establishment in 2006, the CTSA program at NIH began to 
address the need for increased focus on translational research, or 
research that bridges the gap between basic science discoveries and the 
bedside. Originally envisioned as a consortium of 60 academic 
institutions, the CTSA program currently funds 46 academic medical 
research institutions nationwide, and is set to expand to the full 60 
by 2012. The CTSAs have an explicit goal of improving healthcare in the 
United States by transforming the biomedical research enterprise to 
become more effectively translational. Specifically, the CTSA program 
hopes to (1) improve the way biomedical research is conducted across 
the country; (2) reduce the time it takes for laboratory discoveries to 
become treatments for patients; (3) engage communities in clinical 
research efforts; (4) increase training and development in the next 
generation of clinical and translational researchers; and (5) 
accelerate T1 translational science.
    Although the promise of the CTSA program is recognized both 
nationally and internationally, it has suffered from a lack of proper 
funding along with NIH, and the National Center for Research Resources 
(NCRR). In 2006, 16 initial CTSAs were funded, followed by an 
additional 12 in 2007 and 14 in 2008. Level-funding at NIH curtailed 
the growth of the CTSAs, preventing recipient institutions from fully 
implementing their programs and causing them to drastically alter their 
budgets after research had already begun. If budgets continue to 
decline, the CTSAs risk jeopardizing not only new research but also the 
research begun by first, second, and third generation CTSAs. 
Professional judgment determined full funding to be at a level of $700 
million.
    We recognize the difficult economic situation our country is 
currently experiencing, and greatly appreciate the commitment to 
healthcare Congress has demonstrated through stimulus funding, the 
fiscal year 2010 appropriations process, and most recently through 
healthcare reform. The CTSAs are currently funding 46 academic research 
institutions nationwide at a level of $474 million, with the goal of 
full implementation by 2012. In order to reach full implementation of 
60 CTSAs by 2012, and to realize the promise of the CTSAs in 
transforming biomedical research to improve its impact on health, it is 
imperative that the CTSA program receive funding at the level of $700 
million in fiscal year 2011. Without full funding, more CTSAs will be 
expected to operate with fewer resources, curtailing their 
transformative promise.
    A major part of the CTSA program's promise lies in its synergy with 
all of NIH's Institutes and Centers (ICs), and the acceleration and 
facilitation of the ICs' impact. The translation of laboratory research 
to clinical treatment directly benefits patients suffering from complex 
diseases and all fields of medicine. The CTSA program has created 
improved translational research capacity and processes from which all 
NIH's ICs stand to benefit. The development of a formal NIH-wide plan 
to link all ICs to the CTSA program would efficiently capitalize on NIH 
and NCRR's investment in clinical and translational science.
    It is our recommendation that the subcommittee support full 
implementation of the CTSA program by providing $700 million in fiscal 
year 2011, and we ask that the subcommittee support the development of 
a formal NIH-wide plan to integrate the CTSAs to all of NIH's 
Institutes and Centers.
Continuing Support for Research Training and Career Development 
        Programs Through the K Awards
    The future of our Nation's biomedical research enterprise relies 
heavily on the maintenance and continued recruitment of promising young 
investigators. Clinical investigators have long been referred to as an 
``endangered species'', as financial barriers push medical students 
away from research. This trend must be arrested if we are to continue 
our pursuits of better treatments and cures for patients.
    The K Awards at NIH and AHRQ provide much-needed support for the 
career development of young investigators. As clinical and 
translational medicine takes on increasing importance, there is a great 
need to grow these programs, not reduce them. Career development grants 
are crucial to the recruitment of promising young investigators, as 
well as to the continuing education of established investigators. 
Reduced commitment to the K-12, K-23, K-24, and K-30 awards would have 
a devastating impact on our pool of highly trained clinical 
researchers. Even with the full implementation of the CTSA program, it 
will be critical for institutions without CTSAs to retain their K-30 
Clinical Research Curriculum Awards, as the K-30s remain a highly cost-
effective method of ensuring quality clinical research training. ACRT, 
APOR, CRF, and SCTS strongly support the ongoing commitment to clinical 
research training through K Awards at NIH and AHRQ.
    We ask the subcommittee to continue their support for clinical 
research training and career development through the K Awards at NIH 
and AHRQ, in order to promote and encourage investigators working to 
transform biomedical science.
Continuing Support for CER
    Comparative effectiveness research or ``CER'' emerged at the 
forefront of the healthcare reform debate, capturing the interest of 
lawmakers and the American people. CER is the evaluation of the impact 
of different options that are available for treating a given medical 
condition for a particular set of patients. This broad definition can 
include medications, behavioral therapies, and medical devices among 
other interventions, and is an important facet of evidence-based 
medicine. On behalf of ACRT, APOR, CR Forum, and SCTS, I would like to 
thank the Senate for the creation of the Patient-Centered Outcomes 
Research Institute in the Patient Protection and Affordable Care Act, 
as well as the $1.1 billion included for CER at NIH and AHRQ in the 
American Recovery and Reinvestment Act (ARRA). Both AHRQ and NIH have 
long histories of supporting CER, and the standards for research 
instituted by agencies like NIH and AHRQ serve as models for best 
practices worldwide. Not only are these agencies experienced in CER, 
they are universally recognized as impartial and honest brokers of 
information.
    We are pleased that Congress recognizes the importance of these 
activities and believe that the peer review processes and 
infrastructure in place at NIH and AHRQ ensure the highest quality CER. 
We believe that collaboration between the Patient-Centered Outcomes 
Research Institute, NIH, and AHRQ will motivate all Federal CER 
efforts. In addition to support for the CTSA program at NIH, we 
encourage the Subcommittee to provide continued support for Patient-
Centered Health Research at AHRQ.
    Thank you for the opportunity to present the views and 
recommendations of the clinical research training community. On behalf 
of ACRT, APOR, CR Forum, and SCTS, I would be happy to be of assistance 
as the appropriations process moves forward.
                                 ______
                                 
     Prepared Statement of the American College of Sports Medicine
    On behalf of the American College of Sports Medicine (ACSM), I am 
pleased to offer this written testimony to the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, Education, and 
Related Agencies for inclusion in the official Committee record. I will 
focus my comments on the importance of programs within the Department 
of Health and Human Services (HHS), the Department of Education, and 
programs recently authorized in the Patient Protection and Affordable 
Care Act (Public Law 111-148) that serve as a means to educate about or 
provide services that enhance healthy lifestyles for all Americans. 
Within these programs, ACSM is strongly supportive of the inclusion of 
provisions that enhance access to information about physical activity 
and exercise as a mechanism for improving health and reducing chronic 
diseases or health disparities.
    ACSM is a 35,000-member organization that applies knowledge, 
training, and dedication in sports medicine and exercise science to 
promote healthier lifestyles for people around the globe. ACSM members 
are dedicated to improving public health through a spectrum that ranges 
from basic research to translating that research into effective 
practice. ACSM members include leading scientists, physicians, 
educators, public health experts, clinical exercise physiologists, 
health and fitness professionals, physical therapists, and more.
    The Nation's focus on physical activity and exercise as a means to 
improve health and prevent disease has recently been garnering 
increased attention. However, expanded and sustained Federal support is 
necessary to fully leverage the health benefits that have been shown to 
result from physical activity and exercise. Additional funding is 
needed to expand basic and translational research to ensure that the 
most up-to-date and effective guidance is disseminated and that 
programs are developed with the goals of keeping Americans strong and 
healthy and reducing the levels of chronic diseases such as heart 
disease, diabetes, obesity, stroke, osteoporosis, and depression.
    In particular, scientific and medical research conducted at the 
National Institutes of Health (NIH) will be instrumental in building on 
current efforts to improve the Nation's health and reduce diseases and 
health disparities. ACSM appreciates the subcommittee's past support 
for NIH and encourages the subcommittee to maintain its commitment by 
allocating a total discretionary budget of $32.239 billion, which is 
equal to the President's fiscal year 2011 budget request for NIH. ACSM 
also encourages the subcommittee to direct a portion of this increased 
funding toward institutes and programs that focus on prevention and 
wellness. The combination would allow NIH to fund a record number of 
research grants, including those that will help us to understand what 
is needed to ensure Americans live healthier lifestyles.
    In addition, summarized below are recommendations for fiscal year 
2011 funding for programs within HHS, the Department of Education, and 
new programs recently authorized through the Patient Protection and 
Affordable Care Act (Public Law 111-148) to help ensure that the 
necessary mechanisms are provided to improve health, eliminate 
disparities, and reduce diseases among all Americans.
                department of health and human services
    The agencies within HHS include programs that support ACSM's goals. 
ACSM urges the subcommittee's support for the following HHS programs:
    Community Health Centers.--ACSM appreciates the subcommittee's 
support for the Health Centers program within the Health Resources and 
Services Administration (HRSA). The Health Centers program provides 
access to comprehensive primary healthcare, including supportive 
services such as transportation and education for individuals and 
families in high-need communities. ACSM urges the Committee to 
appropriate at least the President's fiscal year 2011 request of $2.5 
billion for the program, an increase of $290 million above the fiscal 
year 2010 enacted level and to direct a portion of this funding to 
allow new and existing centers to expand to include services and 
information that highlight the health benefits of physical activity and 
exercise.
    Centers for Disease Control and Prevention.--ACSM supports the 
increases proposed in the President's fiscal year 2011 budget request 
for programs within the Centers for Disease Control and Prevention 
(CDC), including: Chronic Disease Prevention, Health Promotion and 
Genomics, a total of $937 million; Public Health Research, a total of 
$31 million; and Preventive Health and Health Services Block Grant, a 
total of $102 million. ACSM urges the Committee to direct a portion of 
the funding within these programs to physical activity and exercise 
programs and research.
               patient protection and affordable care act
    ACSM urges the subcommittee to fund the following programs 
authorized in the Patient Protection and Affordable Care Act (Public 
Law 111-148), which deal with prevention of chronic disease and 
improving public health:
    Prevention and Public Health Fund.--This fund would be administered 
by the Secretary of HHS and would increase funding for programs 
authorized by the Public Health Service Act for prevention, wellness, 
and public health activities. ACSM urges the Committee to use its 
authority to transfer money from the fund to existing or new programs 
authorized by the Public Health Service Act that have a particular 
focus on physical activity and exercise, including the Community 
Transformation grant program.
    U.S. Preventive Services Task Force/Community Preventive Services 
Task Force.--These task forces will coordinate with the Advisory 
Committee on Immunization Practices, and will comprise experts to 
review scientific evidence related to effectiveness, appropriateness, 
and cost-effectiveness of clinical preventive services for the purpose 
of developing recommendations to be widely distributed to and utilized 
by the public. ACSM urges the Committee to appropriate the necessary 
funding to establish these task forces, in order to help ensure that 
the best practices in health and wellness, including physical activity 
and exercise guidelines and recommendations, are being promoted.
    Education and Outreach Campaign.--This campaign would be developed 
by a public-private partnership with the aim of raising public 
awareness of health improvement across the life span. ACSM urges the 
Committee to appropriate funding to allow for successful development 
and implementation of the campaign.
                        department of education
    ACSM urges the subcommittee to support the following program at the 
Department of Education:
    Carol M. White Physical Education Program/Successful, Safe, and 
Healthy Students.--ACSM supports programming within the Department of 
Education that focuses on developing healthy lifestyles for students 
and the Nation's youth population. In the President's fiscal year 2011 
budget request, the Carol M. White Physical Education Program was 
proposed for consolidation into an overarching Successful, Safe, and 
Healthy Students program, of which one goal is improving students' 
physical health and well-being through the use of, or access to, 
comprehensive services that improve student physical activity and 
fitness. ACSM urges the Committee to provide increased funding for the 
Carole M. White Physical Education Program or direct a significant 
portion of the funding provided to the Successful, Safe, and Healthy 
Students program to focus on physical activity, exercise, and the 
development of healthy lifestyles for youth.
    I appreciated the opportunity to submit these recommendations and 
hope the Committee will consider them while developing appropriations 
for fiscal year 2011.
                                 ______
                                 
        Prepared Statement of the American Diabetes Association
    Thank you for the opportunity to provide this testimony to the 
Senate Labor, Health and Human Services, and Education, and Related 
Agencies Subcommittee. I am pleased to have the opportunity to submit 
testimony on behalf of the American Diabetes Association. As someone 
who has lived with diabetes for more than 30 years, I am proud to be a 
representative of the 81 million American adults and children living 
with diabetes or pre-diabetes.
    Every minute, three more people are diagnosed with the disease. 
While nearly 24 million Americans have diabetes today, that number is 
expected to grow to 44 million in the next 25 years if present trends 
continue. Every 24 hours, 230 people with diabetes will undergo an 
amputation, 120 people will enter end-stage kidney disease programs, 
and 55 people will go blind from diabetes. Each and every day diabetes 
will cost our country over a half a billion dollars, yet, it is but a 
fraction of the costs that lie ahead unless we take action immediately 
to stop the march of this epidemic.
    Thanks to you and your colleagues, Congress has consistently funded 
vital Department of Health and Human Services programs to help reduce 
the overwhelming costs of diabetes. However, if we are to cure and 
prevent diabetes, there is much more to accomplish. Therefore, the 
Association urges the Senate Labor, Health and Human Services, and 
Education, and Related Agencies Subcommittee to invest in research and 
prevention proportionate to the magnitude of the burden diabetes has on 
our country and, by doing so, to change the future of diabetes in 
America.
    As the Nation's leading nonprofit health organization providing 
diabetes research, information and advocacy, the Association believes 
Federal funding for diabetes prevention and research is critical, not 
only for the 24 million American adults and children (nearly 8 percent 
of the population) who currently have diabetes, but for the 57 million 
more with pre-diabetes. Of the 24 million, 6 million are unaware they 
have diabetes. Together, this means 25 percent of the U.S. population 
either has, or is at risk for developing, this serious disease. Federal 
funding for diabetes prevention and research efforts is critical to 
reversing this epidemic.
    Diabetes is a chronic condition that impairs the body's ability to 
use food for energy. The hormone insulin, which is made in the 
pancreas, helps the body change food into energy. In people with 
diabetes, either the pancreas does not create insulin, which is type 1 
diabetes, or the body does not create enough insulin and/or cells are 
resistant to insulin, which is type 2 diabetes. If left untreated, 
diabetes results in too much glucose in the blood stream. The majority 
of diabetes cases, 90 to 95 percent, are type 2, while type 1 diabetes 
accounts for 5 to 10 percent of diagnosed cases. The complications of 
diabetes are widespread and serious. In those with pre-diabetes, blood 
glucose levels are higher than normal and taking action to reduce their 
risk of developing diabetes is essential.
    The Centers for Disease Control and Prevention (CDC) has identified 
diabetes as a disabling, deadly epidemic that is on the rise. Between 
1990 and 2001, the prevalence of diabetes increased by 60 percent. 
According to the CDC, 1 in 3 children born in the year 2000 is likely 
to develop the disease in their lifetime if current trends continue. 
This number is even greater among minority populations, where nearly 1 
in 2 children will develop diabetes.
    Additionally, type 2 diabetes, traditionally seen in older 
patients, is beginning to reach a younger population, due in part to 
the surge in childhood obesity. Approximately 1 in every 500 children 
and adolescents has Type 1 diabetes, and an alarming 2 million 
adolescents (or 1 in 6 overweight adolescents) aged 12-19 have pre-
diabetes. The impact diabetes has on individuals and the healthcare 
system is enormous and continues to grow at a shocking rate. Diabetes 
is a leading cause of kidney disease, adult-onset blindness and lower 
limb amputations as well as a significant cause of heart disease and 
stroke. Since 1987, the death rate due to diabetes has increased by 45 
percent. In that same period, death rates for heart disease, stroke, 
and cancer have dropped.
    In addition to the physical toll, diabetes also attacks our 
pocketbooks. A recent study by the Lewin Group found when factoring in 
the additional costs of undiagnosed diabetes, pre-diabetes, and 
gestational diabetes, the total cost of diabetes and related conditions 
in the United States in 2007 was $218 billion ($18 billion for 
undiagnosed diabetes; $25 billion for pre-diabetes; $623 million for 
gestational diabetes). That year, medical expenditures due to diabetes 
totaled $116 billion, including $27 billion for diabetes care, $58 
billion for chronic diabetes-related complications, and $31 billion for 
excess general medical costs. Indirect costs resulting from increased 
absenteeism, reduced productivity, disease-related unemployment 
disability and loss of productive capacity due to early mortality 
totaled $58 billion. This is an increase of 32 percent since 2002. 
Thus, in just 5 years, the cost of diabetes increased by $42 billion, 
or $8 billion per year. In fact, approximately 1 out of every 5 
healthcare dollars is spent caring for someone with diagnosed diabetes, 
while 1 in 10 healthcare dollars is attributed to diabetes. 
Additionally, one-third of Medicare expenses are associated with 
treating diabetes and its complications.
    Despite these numbers, there is hope. A greater Federal investment 
in diabetes research at the National Institute of Diabetes and 
Digestive and Kidney Diseases (NIDDK) at the National Institutes of 
Health (NIH), and prevention, surveillance, control, and research work 
currently being done at the Division of Diabetes Translation (DDT) at 
the CDC is crucial for finding a cure and improving the lives of those 
living with, or at risk for, diabetes. Additionally, the National 
Diabetes Prevention Program (NDPP), a new program authorized through 
the Patient Protection and Affordable Care Act (Public Law 111-148, 
section 399V-3), is poised to cut dramatically the number of new 
diabetes cases in high-risk individuals. In this vein, for fiscal year 
2011, the American Diabetes Association is requesting:
  --$2.209 billion for the NIDDK, an increase of $252 million over the 
        fiscal year 2010 level. This additional funding will act to 
        offset years of flat funding and inflation that caused cutbacks 
        to promising research. It will also demonstrate Congress's 
        commitment to science and research.
  --$86 million for the CDC's DDT, which represents a total increase of 
        $20 million for the DDT's critical prevention, surveillance and 
        control programs. Expanded investment in the DDT will produce 
        much larger savings in reduced acute, chronic, and emergency 
        care spending.
    Additionally, we are also requesting your support of $80 million 
for the implementation of the NDPP through the Prevention and Public 
Health Fund created in Public Law 111-148.
NIH's National Institute of Diabetes and Digestive and Kidney Diseases 
        (NIDDK)
    One of the 27 Institutes housed at the NIH, NIDDK is poised to make 
major discoveries that could prevent diabetes, better treat its 
complications, and--ultimately--find a cure. Researchers at the NIH are 
working on a variety of projects that represent hope for the millions 
of individuals with both type 1 and type 2 diabetes. The list of 
advances in treatment and prevention is long, but it is important to 
understand much more can be achieved for people with diabetes with an 
increased investment in scientific research at the NIDDK.
    Researchers have already learned a great deal about the biology of 
diabetes, and they now understand much more about the loss of islet 
cell function, which can affect the body's ability to regulate blood 
glucose levels. These discoveries have led directly to islet cell 
transplants and ongoing work to extend the life of transplanted cells. 
Thanks to research at the NIDDK, people with diabetes now manage their 
disease with a variety of insulin formulations and regimens far 
superior to those used in decades past. The result is the ability to 
live healthier lives with diabetes. Because of these advances, my 
hemoglobin A1C, which provides a snapshot of an individual's blood 
glucose, went from 12.9 percent to 5.9 percent. This is a dramatic 
development for me and proof of the importance of NIDDK's work.
    Recent discoveries at the NIDDK include the ability to predict type 
1 diabetes risk, new drug therapies for type 2 diabetes, and the 
discovery of genetic markers that explain the increased burden of 
kidney disease among African Americans. The NIDDK funded the Diabetes 
Prevention Program, a multicenter clinical research trial that found 
modest weight loss through dietary changes and increased physical 
activity could prevent or delay the onset of type 2 diabetes by 58 
percent.
    While great strides have been made in diabetes research, there are 
many unanswered questions about the disease that merit further study. 
Towards that end, the NIDDK, in its role as the convener of the 
Diabetes Mellitus Coordinating Committee, a panel of key HHS agencies, 
including the Food and Drug Administration and the CDC, and other 
Federal partners such as the Department of Veterans Affairs, has 
developed a Diabetes Research Strategic Plan, to be finalized later 
this year, which outlines diabetes research needs.
    The plan identifies a number of areas for additional research. 
These include study into the intersection of genetic and environmental 
risk factors for diabetes in people of color in order to reduce the 
prevalence of the disease and its complications; identification of the 
key genetic factors that predispose or protect individuals against 
diabetes complications; and, study of the natural history of type 1 
diabetes in order to foster the design of preventive therapy. 
Additional fiscal year 2011 funding would allow the NIDDK to support 
additional research in order to build upon past successes, improve 
prevention and treatment, and close in on a cure.
CDC's Division of Diabetes Translation (DDT)
    The CDC's DDT works to eliminate the preventable burden of diabetes 
through proven educational programs, best practice guidelines and 
applied research. Funds appropriated to the DDT focus on developing and 
maintaining State-based Diabetes Prevention and Control Programs 
(DPCPs); supporting the National Diabetes Education Program (NDEP); 
defining the diabetes burden through the use of public health 
surveillance; and translating research findings into clinical and 
public health practice. Our request of an additional $20 million will 
allow these critical programs at the DDT to reach more at risk 
Americans and help to prevent or delay this destructive disease.
    The DDT's most important efforts are based within the DPCPs in all 
50 States, the District of Columbia, and 8 other territories and are 
cornerstones of the Division's work. DPCPs work to not only reduce the 
incredible burden of diabetes, but to make certain the people they 
serve are fully aware of the disease and those with or at risk of 
developing diabetes are receiving the highest quality of care possible. 
Because they are community based, DPCPs are highly adaptable and 
capable of reaching those at greatest risk in a given area. DPCPs 
provide a vital infrastructure to coordinate diabetes prevention and 
control efforts, however, a severe lack of funding leaves DPCPs unable 
to reach all of those who could benefit from their work.
    The Division also recognizes the role that education and awareness 
plays in the fight against diabetes. With this in mind, the DDT 
implements the NDEP in coordination with the NIDDK. The NDEP develops 
and disseminates information on the prevention and control of diabetes 
that serve as the guiding principles to improve the treatment and 
outcomes for people with diabetes and to prevent or delay the onset of 
diabetes. Another vital component of the DDT's efforts is the National 
Diabetes Surveillance System, which provides comprehensive diabetes 
data at the national, State, and local levels so analysts may better 
track the epidemic, and ensure the most effective use of taxpayer 
dollars.
    The DDT also identifies important research findings, including the 
results of clinical trials and scientific studies, in order to pinpoint 
the public health implications of the research. These findings are 
applied in healthcare systems and within local communities. Areas of 
translational research include access to quality care for diabetes; 
cost-effectiveness of diabetes prevention and control activities; 
effectiveness of health practices to address risk factors for diabetes; 
and demonstration of primary prevention of type 2 diabetes. One example 
of a highly successful translational effort by the DDT is the Diabetes 
Prevention Program Initiative (DPPI), a structured lifestyle 
intervention modeled after the NIDDK's Diabetes Prevention Program 
(DPP) clinical research study. The DPPI is proving group lifestyle 
intervention can lower diabetes risk while being delivered in a cost 
effective way in a community setting, thus increasing the likelihood of 
improved outcomes for individuals at risk of developing the disease.
    While the DDT has played an invaluable and instrumental role in 
fighting the diabetes epidemic, the reach of the Division could be 
significantly broader with additional fiscal year 2011 funding. With an 
additional $20 million, the DDT will be able to expand the reach of 
DPCPs in every State and territory. Given the dramatic decreases in 
funding for State and local health departments, supporting the work of 
the DPCPs to provide prevention and control guidelines and technical 
assistance to health officials in local communities is more critical 
than ever to ensure access to affordable and high-quality diabetes care 
and services.
    Increased funding for the DDT will also allow the Division to build 
upon its work in reducing health disparities through vital programs 
such as the Native Diabetes Wellness Program, furthering the 
development of effective health promotion activities and messages 
tailored to American Indian/Native Alaskan communities. Additional 
resources will enable the DDT to expand its translational research 
studies that will lead to improved public health interventions. An 
excellent example of this work is the Search for Diabetes in Youth 
study; a collaboration between the DDT and the NIDDK designed to 
further clarify the impact of type 2 diabetes in youth so prevention 
activities aimed at young people can be improved.
The National Diabetes Prevention Program (NDPP)
    Further studies of the DPP have shown this groundbreaking 
intervention can be replicated in community settings for a cost of less 
than $300 per participant. With this in mind, the NDPP was authorized 
by the Patient Protection and Affordable Care Act of 2010 (Public Law 
111-148). This new program will provide funding to the CDC to expand 
such evidence-based programs across the country. The Association 
acknowledges your leadership in the implementation of Public Law 111-
148, specifically the Prevention and Public Health Fund (section 4002), 
which provided $15 billion in mandatory funding over the next 10 years 
for public health, wellness and prevention programs. We respectfully 
ask the subcommittee to support $80 million from the Fund for the NDPP.
    The NDPP meets the goals of the Fund, which seeks to make a 
national investment in prevention and public health programs, both to 
improve the health of Americans and to rein in healthcare costs. The 
Urban Institute reported our country could save as much as $190 billion 
over 10 years by bringing the NDPP to scale. Implementation of the NDPP 
would allow the CDC to expand the reach of evidence-based community 
programs to identify, refer and provide those at high risk for diabetes 
with cost-effective interventions.
                               conclusion
    As you consider the fiscal year 2011 appropriation for the NIDDK 
and the DDT, we ask that you consider diabetes is an epidemic growing 
at an astonishing rate. If left unaddressed diabetes will overwhelm the 
healthcare system with tragic consequences. To change this future we 
need to increase our commitment to research and prevention in a way 
that reflects the burden diabetes poses both for us and for our 
children.
    Increasing NIDDK funding to $2.209 billion for next year opens the 
door to research opportunities that will both improve patient outcomes 
and reduce the economic cost of diabetes. Through the CDC's important 
programs at the DDT, we have the chance to drastically reduce the 
number of people with diabetes. Given the astounding costs of diabetes, 
the request of $86 million for DDT is a modest investment in our 
future. Further, $80 million from the Prevention and Public Health Fund 
for the implementation of the NDPP will not only improve the health of 
millions of Americans who are at high risk for diabetes, but it will 
also save healthcare costs in the long term.
    Our fight against diabetes must be significantly expanded. Your 
continued leadership in combating this growing epidemic is essential in 
stemming the epidemic. Thank you for your commitment to the diabetes 
community and for the opportunity to submit this testimony. The 
Association is prepared to answer any questions you might have on these 
important issues.
                                 ______
                                 
    Prepared Statement of the American Dental Education Association
    The American Dental Education Association (ADEA) is pleased to 
offer its recommendations for fiscal year 2011 appropriations for 
dental education and research.
    The ADEA represents all 60 dental schools in the United States, in 
addition to more than 700 dental residency training programs and nearly 
600 allied dental programs, as well as more than 12,000 faculty who 
educate and train the nearly 50,000 students and residents attending 
these institutions. It is at these academic dental institutions that 
future practitioners and researchers gain their knowledge, where the 
majority of dental research is conducted, and where significant dental 
care is provided. ADEA member institutions serve as dental homes for a 
broad array of racially and ethnically diverse patients, many who are 
uninsured, underinsured, or reliant on public programs such as Medicaid 
and the Children's Health Insurance Program for their healthcare.
    ADEA's requests build upon funding from the American Economic 
Recovery and Reinvestment Act (ARRA) and the Labor, Health and Human 
Services, and Education, and Related Agencies fiscal year 2010 
appropriations. The Department of Health and Human Services has several 
oral health programs that address the various aspects needed to improve 
oral healthcare in America. These programs build and sustain State oral 
health departments, fund proven public health programs to prevent oral 
disease, target research to eradicate dental disease, and work to 
develop an adequate workforce of dentists with advanced training to 
serve children, the aged and those suffering from specific diseases 
like AIDS.
    Our budget recommendations include the following:
  --Dental Education.--The Title VII Health Professions Education and 
        Training Programs and Diversity and Student Aid Programs, 
        administered by the Health Resources and Services 
        Administration (HRSA);
  --Oral Health Research.--The National Institutes of Health (NIH) and 
        the National Institute of Dental and Craniofacial Research 
        (NIDCR); and
  --Access to Care.--The Ryan White CARE Act HIV/AIDS Dental 
        Reimbursement Program and the Community-Based Dental 
        Partnerships Program; the Dental Health Improvement Act; the 
        Oral Health Program at the Centers for Disease Control and 
        Prevention (CDC); and the National Health Service Corps (NHSC).
    Specifically, the ADEA respectfully urges the subcommittee to 
provide $30 million for section 5303 of (Public Law 111-148) for the 
continuation and enhancement of dental training programs. The following 
programs help to address the Nation's oral healthcare needs:
                            dental education
$16 Million for General Dentistry and Pediatric Dentistry Residency 
        Training in the Title VII Health Professions Programs
    The Title VII General and Pediatric Dentistry Programs are critical 
to building the primary care dental workforce. Support for these 
programs is essential to expanding existing or establishing new general 
dentistry and pediatric dentistry residency programs, which have shown 
to be effective in increasing access to dental care for vulnerable 
populations, including patients with developmental disabilities, 
children, and geriatric patients. These primary care dental residency 
programs generally include outpatient and inpatient care and afford 
residents an excellent opportunity to learn and practice in all phases 
of primary care dentistry, including trauma and emergency care, and 
comprehensive ambulatory dental care for adults and children.
$118 Million for Diversity and Student Aid
            $33 Million for Centers of Excellence
            $49 Million for Scholarships for Disadvantaged Students
            $35 Million for Health Careers Opportunity Program
            $1.3 Million for Faculty Loan Repayment Program
    The Title VII Diversity and Student Aid programs play a critical 
role in helping to diversify the health profession's student body and 
thereby the healthcare workforce. Blacks, Hispanics, and American 
Indians currently represent more than 25 percent of the U.S. 
population. By the year 2050, nearly 1 in 5 Americans (19 percent) will 
be an immigrant, compared with 1 in 8 (12 percent) in 2005. Despite 
these population trends, minorities are underrepresented in the U.S. 
healthcare workforce. This is no less true of dentistry, where they 
comprise less than 5 percent of dentists and about 9 percent of dental 
faculty. For the last several years, these programs have not enjoyed an 
adequate level of funding to sustain the progress that is necessary to 
meet the challenges of an increasingly diverse U.S. population.
                          oral health research
$35 Billion for the NIH, Including $463 Million for the NIDCR
    Discoveries stemming from dental research have reduced the burden 
of oral diseases, led to better oral health for tens of millions of 
Americans, and uncovered important associations between oral and 
systemic health. Dental researchers are poised to make new 
breakthroughs that can result in dramatic progress in medicine and 
health, such as repairing natural form and function to faces destroyed 
by disease, accident, or war injuries; diagnosing systemic disease from 
saliva instead of blood samples; and deciphering the complex 
interactions and causes of oral health disparities involving social, 
economic, cultural, environmental, racial, ethnic, and biological 
factors. Dental research is the underpinning of the profession of 
dentistry. With grants from NIDCR, dental researchers in academic 
dental institutions have built a base of scientific and clinical 
knowledge that has been used to enhance the quality of the Nation's 
oral health and overall health.
    Dental scientists also are putting science to work for the benefit 
of the healthcare system through translational research, comparative 
effectiveness research, health information technology, health research 
economics, and further research on health disparities. NIDCR continues 
to make disparities a priority by renewing five disparities centers for 
2008-2015: Boston University Henry M. Goldman School of Dental 
Medicine, the University of California San Francisco School of 
Dentistry, the University of Colorado Denver School of Dental Medicine, 
the University of Florida College of Dentistry, and the University of 
Washington School of Dentistry.
    The latest NHANES data that provided a full dental examination, 
1999-2004, show that dental caries in young children has actually 
increased, particularly in those populations covered by SCHIP and 
Medicaid. The June 2009 IOM Study on Comparative Effectiveness Research 
(CER) included two oral health topics in the top 100 national 
priorities for CER.
    NIDCR funded four ARRA Challenge Grants on CER. Investments in 
dental research will produce inventions that make corporations more 
competitive in the global economy and benefit everyone with new 
businesses and jobs. Investments in dental research will produce 
inventions that make corporations more competitive in the global 
economy and benefit everyone with new businesses and jobs. It is 
important to note that NIH disproportionately creates higher-paying 
employment opportunities that require a higher level of technical 
sophistication in construction, staffing, and supporting laboratories. 
The average wage associated with jobs created through NIH grants and 
contracts was $52,000 in 2007.
                         access to dental care
$19 Million for the Dental Reimbursement Program and the Community-
        Based Dental Partnerships Program, part F of the Ryan White 
        HIV/AIDS Treatment and Modernization Act
    Patients with compromised immune systems are more prone to oral 
infections like periodontal disease and tooth decay. By providing 
reimbursement to dental schools and schools of dental hygiene, the 
Dental Reimbursement Program provides access to quality dental care for 
people living with HIV/AIDS while simultaneously providing educational 
and training opportunities to dental residents, dental students, and 
dental hygiene students who deliver the care. The Dental Reimbursement 
Program is a cost-effective Federal/institutional partnership that 
provides partial reimbursement to academic dental institutions for 
costs incurred in providing dental care to people living with HIV/AIDS. 
Particularly important to this program is the fact that Congress 
designated dental care as a ``core medical service'' when it 
reauthorized the Ryan White program in 2006.
    The Community-Based Dental Partnership Program fosters partnerships 
between dental schools and communities lacking academic dental 
institutions to ensure access to dental care for HIV/AIDS patients 
living in those areas.
$20 Million for the Dental Health Improvement Act (DHIA)
    This program supports the development of innovative dental 
workforce programs specific to States' dental workforce needs and 
increases access to dental care for underserved populations. In fiscal 
year 2006, Congress provided first-time DHIA funding of $2 million to 
assist States in developing innovative dental workforce programs. The 
inaugural grant cycle, held in fiscal year 2006, yielded 36 
applications from States. Eighteen States were awarded grants ranging 
from $67,865 to $124,080. Grants are being used to support a variety of 
initiatives including, but not limited to, loan repayment programs to 
recruit culturally and linguistically competent dentists to work in 
underserved areas with underserved populations including the 
developmentally disabled; rotating residents and students in rural 
areas; recruiting dental school faculty; training pediatricians and 
family medicine physicians to provide oral health services (screening 
exams, risk assessments, fluoride varnish application, parental 
counseling, and referral of high-risk patients to dentists); and 
supporting teledentistry.
$33 Million for the Oral Health Programs at the Centers for Disease 
        Control and Prevention (CDC)
    The CDC Oral Health Program expands the coverage of effective 
prevention programs. The program increases the basic capacity of State 
oral health programs to accurately assess the needs of the State, 
organize and evaluate prevention programs, develop coalitions, address 
oral health in State health plans, and effectively allocate resources 
to the programs. CDC's funding and technical assistance to States is 
essential to help oral health programs build capacity. Increasing the 
funding will help to ensure that all States that apply may be awarded 
an oral health grant.
$414 Million for the NHSC
    The NHSC scholarship and loan repayment program provides awards to 
healthcare professionals, including dentists and dental hygienists who 
agree to work in underserved communities for a minimum of 2 years. 
Participants must work in a Health Professional Shortage Area (HPSA), 
and dentists and dental hygienists work in Dental Health Professional 
Shortage Areas (Dental HPSAs). According to the HRSA there are 4,230 
Dental HPSAs with 49 million people living in them. It would take 9,642 
practitioners to meet their need for dental providers (a population to 
practitioner ratio of 3,000:1). The dedicated clinicians of the NHSC 
provide quality care to millions of people who would otherwise lack 
adequate access to health services.
    The ADEA is grateful to the subcommittee for considering our fiscal 
year 2011 budget requests for Federal agencies and programs that 
sustain and enhance dental education, oral health research, and access 
to care. A continuing Federal commitment is needed to help meet the 
challenges oral diseases pose to the Nation's most vulnerable citizens, 
including children. Also critical is the development of a partnership 
between the Federal Government and dental education programs to 
implement a national oral health plan that guarantees access to dental 
care for everyone, ensures continued dental health research, and 
eliminates disparities and workforce shortages.
                                 ______
                                 
             Prepared Statement of the Arthritis Foundation
    The Arthritis Foundation greatly appreciates the opportunity to 
submit testimony in support of increased funding for arthritis 
prevention at the Centers for Disease Control and Prevention (CDC); 
additional investment in arthritis research at the National Institutes 
of Health (NIH); and funding for the Health Resources and Services 
Administration (HRSA) to commence a loan repayment program for 
pediatric specialists.
    Arthritis is a term used to describe more than 100 different 
conditions that affect joints as well as other parts of the body. 
Arthritis is one of the most prevalent chronic health problems and the 
most common cause of disability in the United States. Forty-six million 
people (1 in 5 adults) and almost 300,000 children live with the pain 
of arthritis every day. The medical and societal impact of arthritis in 
the United States is staggering at $128 billion, including $81 billion 
in direct costs for physician visits and surgical interventions and $47 
billion in indirect costs for missed work days. Counter to public 
perception, two-thirds of the people with doctor-diagnosed arthritis 
are under the age of 65.
    By the year 2030, an estimated 67 million or 25 percent of the 
projected adult population will have arthritis. Furthermore, arthritis 
limits the ability of people to effectively manage other chronic 
diseases. More than 57 percent of adults with heart disease and more 
than 52 percent of adults with diabetes also have arthritis. The 
Arthritis Foundation strongly believes that in order to prevent or 
delay arthritis from disabling people and diminishing their quality of 
life that a significant investment in prevention and intervention 
strategies is essential. Research shows that the pain and disability of 
arthritis can be decreased through early diagnosis and appropriate 
management, including evidence based self-management activities such as 
weight control and physical activity. The Arthritis Foundation's Self-
Help Program, a group education program, has been proven to reduce 
arthritis pain by 20 percent and physician visits by 40 percent. These 
interventions are recognized by the CDC to reduce the pain of arthritis 
and importantly reduce healthcare expenditures through a reduction in 
physician visits.
CDC
    During the past year, the CDC has partnered with the Arthritis 
Foundation and more than 50 organizations to create a National Public 
Health Agenda for Osteoarthritis. The Agenda states the need to 
increase availability of evidence-based intervention strategies; 
increase public health attention for prevention and disease management; 
and increase research to better understand disease risk factors and 
other effective disease management strategies.
    With CDC funding, 12 State health departments in partnership with 
other State organizations have successfully increased public awareness 
of the burden of arthritis and increased the availability of four main 
interventions. First, self-management education (as described above) is 
proven to improve the quality of life and healthcare for people with 
arthritis and should be expanded to people with symptomatic arthritis. 
Second, physical activity is the best medicine to fight arthritis pain. 
The promotion of low-impact aerobic physical activity and muscle 
strengthening exercises for weight loss and to provide joint support is 
key. Losing just 1 pound of weight reduces 4 pounds of pressure off 
each knee. Third, preventing joint injuries through existing policies 
and interventions which have been shown to reduce arthritis-related 
joint injuries. Finally, promoting weight management and healthy 
nutrition will facilitate the prevention and treatment of arthritis. 
Now, is the time to make a significant investment to sustain and 
improve the reach of these proven interventions.
    Currently, the CDC's arthritis program receives $13 million in 
annual funding and about half of that amount is distributed via 
competitive grant to 12 States. An additional investment of $10 million 
would fund 12-14 new States and enable evidence-based prevention 
programs to reach many more Americans through innovative delivery 
approaches. The Arthritis Foundation strongly recommends that Congress 
invest an additional $10 million (total of $23 million) in the CDC's 
arthritis program in fiscal year 2011 to expand proven prevention and 
treatment strategies and fund up to 14 new States.
NIH/National Institute of Arthritis and Musculoskeletal and Skin 
        Diseases (NIAMS)
    While new treatment options are available which greatly improve the 
quality of life for people living with arthritis, the ultimate goal is 
to find a cure. The Arthritis Foundation firmly believes research holds 
the key to tomorrow's advances and provides hope for a future free from 
arthritis pain. As the largest nonprofit contributor to arthritis 
research, the Arthritis Foundation fills a vital role in the big 
picture of arthritis research. Our research program complements 
Government and industry-based arthritis research by focusing on 
training new investigators and pursuing innovative strategies for 
preventing, controlling, and curing arthritis. By supporting 
researchers in the early stages of their careers, the Arthritis 
Foundation makes important initial discoveries possible that lead to 
ultimate breakthrough results.
    The mission of NIAMS is to support research into the causes, 
treatment, and prevention of arthritis and musculoskeletal and skin 
diseases, the training of basic and clinical scientists to carry out 
this research, and the dissemination of information on research 
progress in these diseases. Research opportunities at NIAMS are being 
curtailed due to the stagnating and in some cases declining numbers of 
new grants being awarded for specific diseases. The training of new 
investigators has unnecessarily slowed down and contributed to a crisis 
in the research community where new investigators have begun to leave 
biomedical research careers in pursuit of other more successful 
endeavors.
    The Arthritis Foundation is dedicated to finding a cure for 
arthritis. However, the investment in NIH research is absolutely 
crucial to realize this dream. With continued and increased investment 
in research, the Arthritis Foundation believes a cure is on the 
horizon. To support research that will lead to improved treatments and 
a potential cure for arthritis, the Arthritis Foundation urges Congress 
to provide $603.8 million, a 12 percent increase, for the NIH/NIAMS.
HRSA
    Juvenile arthritis is the leading cause of acquired disability in 
children and is the sixth most common childhood disease. Sustaining the 
field of pediatric rheumatology is essential to the care of the almost 
300,000 children under the age of 18 living with a form of juvenile 
arthritis. Children who are diagnosed with juvenile arthritis will live 
with this chronic and potentially disabling disease for their entire 
life. Therefore, it is imperative that children are diagnosed quickly 
and start treatment before significant irreversible joint damage is 
done. However, it is a challenge to first find a pediatric 
rheumatologist, as nine States do not have a single one, and then to 
have a timely appointment as many States have only one or two to see 
thousands of patients. Pediatric rheumatology is one of the smallest 
pediatric subspecialties with less than 200 pediatric rheumatologists 
actively practicing in the United States. A report to Congress in 2007 
stated there was a 75 percent shortage of pediatric rheumatologists and 
recommended loan repayment program to help address the workforce issue.
    The recent passage of the Patient Protection and Affordable Care 
Act authorizes HRSA to commence a loan repayment program for pediatric 
specialists and authorizes Congress to appropriate $30 million for this 
program. A percentage of this funding should be allocated for pediatric 
rheumatology. The Arthritis Foundation strongly recommends funding this 
program immediately at the $30 million level to help increase the 
pediatric rheumatology workforce.
    The Arthritis Foundation appreciates the opportunity to submit our 
recommendations to Congress on behalf of the 46 million people with 
arthritis. The mission of the Arthritis Foundation is the prevention, 
control, and cure of arthritis. The Arthritis Foundation urges Congress 
to focus Federal investment through a $23 million appropriation for 
arthritis prevention at CDC; a $30 million appropriation to help 
control juvenile arthritis; and a 12 percent increase toward a cure in 
arthritis research at the NIH. Each part of the equation-prevention, 
control, and cure-are an essential part to a future world free of 
arthritis pain and disability.
                                 ______
                                 
          Prepared Statement of the American Heart Association
    Over the past 50 years, significant progress has been made in the 
battle against cardiovascular disease (CVD) and stroke. The improved 
diagnosis and treatment has been remarkable--as has the survival rate. 
According to the National Institutes of Health (NIH), 1.6 million lives 
have been saved since the 1960s that otherwise would have been lost to 
CVD. Americans can expect to live on average 4 years longer due to the 
reduction in heart-related deaths.
    However, one startling fact remains. Heart disease and stroke are 
still respectively the No. 1 and No. 3 killers of men and women in the 
United States. Nearly 2,300 Americans die of CVD each day--one death 
every 38 seconds. CVD is a leading cause of disability and will cost 
our Nation an estimated $503 billion in medical expenses and lost 
productivity this year.
    An estimated 81 million American adults now suffer from heart 
disease, stroke, and other forms of CVD. Risk factors such as obesity 
and diabetes are increasing. At the age of 40, lifetime risk for CVD is 
2 in 3 for men and more than 1 in 2 for women.
    In the face of these staggering statistics, heart disease and 
stroke research, treatment and prevention programs remain woefully 
underfunded and overall funding for the NIH is too volatile to have the 
continuity of effort needed for the major breakthroughs that will 
redefine diseases, spur prevention and promote best care.
    CVD is the No. 1 killer in each State and many preventable and 
treatable risk factors continue to rise. Yet, the Centers for Disease 
Control and Prevention (CDC) invests on average only 16 cents per-
person a year on heart disease and stroke prevention. Specifically, CDC 
still provides basic implementation awards to only 14 States for its 
Heart Disease and Stroke Prevention Program and only 20 States are 
funded for WISEWOMAN--a heart disease and stroke screening and 
prevention program proven to be effective in reaching uninsured and 
under-insured low-income women ages 40 to 64 with a high prevalence of 
risk factors for these diseases.
    Where you live could also affect if you survive a very deadly form 
of heart disease--sudden cardiac arrest (SCA). Only 10 States received 
funding in fiscal year 2009 for Health Resources and Services 
Administration's (HRSA) Rural and Community Access to Emergency Devices 
Program designed to save lives from sudden cardiac death.
    The American Heart Association applauds the Administration and 
Congress for providing hope to the 1 in 3 adults in the United States 
who live with the consequences of CVD through the enactment of the 
American Recovery and Reinvestment Act (ARRA).
    The $10 billion in funding for NIH and the $650 million for 
Communities Putting Prevention to Work Program are wise and prudent 
investments that have provided a much needed boost to improve our 
Nation's physical and fiscal health. Yet, these funds denote a one-time 
infusion of resources. Stable and sustained funding is imperative in 
fiscal year 2011 to advance heart disease and stroke research, 
prevention and treatment.
     funding recommendations: investing in the health of our nation
    Heart disease and stroke risk factors continue to rise, yet 
promising research opportunities to stem this tide go unfunded. 
Americans still die from CVD, while proven prevention programs and 
techniques beg for implementation. Clearly, now is the time to 
capitalize on the momentum achieved under ARRA to enhance research, 
prevention and treatment of America's No. 1 and most costly killer. If 
Congress fails to build on this progress, Americans will pay more in 
the future in lives lost and higher healthcare costs. Our 
recommendations below address these issues in a comprehensive and 
fiscally responsible manner.
Capitalize on ARRA Investment for the National Institutes of Health 
        (NIH)
    NIH research has revolutionized patient care and holds the key to 
finding new ways to prevent, treat and even cure CVD, resulting in 
longer, healthier lives and reduced healthcare costs. NIH invests 
resources in every State and in 90 percent of congressional districts. 
Each NIH grant generates on average 7 jobs.
    The American Heart Association Advocates.--We advocate for a fiscal 
year 2011 appropriation of $35.2 billion for NIH--a $4.2 billion 
increase more than fiscal year 2010, to capitalize on the momentum 
achieved under the ARRA investment to save lives, advance better 
health, spur our economy and spark innovation. NIH-supported research 
prevents and cures disease, generates economic growth and preserves the 
U.S. role as the world leader in pharmaceuticals and biotechnology.
Enhance Funding for NIH Heart and Stroke Research: A Proven and Wise 
        Investment
    Death rates for coronary heart disease fell 36 percent and nearly 
34 percent for stroke from 1996-2006. These declines are directly 
related to NIH heart and stroke research, with scientists on the verge 
of exciting discoveries that could lead to new treatments and even 
cures. Landmark NIH research has shown that surgery and stenting are 
both safe and effective in preventing stroke. It has demonstrated that 
over-zealous blood pressure lowering and combination lipid drugs do not 
cut cardiovascular disease in adult diabetics more so than standard 
evidence-based care; nor does postmenopausal hormone therapy avert 
heart disease or stroke. And it has defined the genetic basis of risky 
responses to vital blood-thinners.
    In addition to saving lives, NIH-funded research can cut healthcare 
costs. For example, the original NIH tPA drug trial resulted in a 10-
year net $6.47 billion reduction in stroke healthcare costs. The Stroke 
Prevention in Atrial Fibrillation Trial 1 produced a 10-year net 
savings of $1.27 billion. But, in the face of such solid returns on 
investments and other successes, NIH still invests a meager 4 percent 
of its budget on heart research, and a mere 1 percent on stroke 
research.
Cardiovascular Disease Research: National Heart, Lung, and Blood 
        Institute (NHLBI)
    Despite progress and promising research opportunities, there is no 
cure yet for CVD. As our population ages, the demand will increase for 
more and better ways to allow Americans to live healthy and productive 
lives despite CVD. Stable and sustained funding is needed to allow 
NHLBI to build on ARRA investments that provided grants to use genetics 
to identify and treat those at greatest risk from heart disease; hasten 
drug development to treat high cholesterol and high blood pressure; and 
create tailored strategies to treat, slow or prevent heart failure. 
Other important studies include an analysis of whether maintaining a 
lower blood pressure than currently recommended further reduces risk of 
heart disease, stroke, and cognitive decline. This information is 
critically important to ideally manage the burden of heart disease and 
stroke. Continued needed funding will allow for aggressive 
implementation of other initiatives in both the NHLBI general and 
cardiovascular strategic plans.
Stroke Research: National Institute of Neurological Disorders and 
        Stroke (NINDS)
    An estimated 795,000 Americans will suffer a stroke this year, and 
more than 137,000 will die. Many of the 6.4 million survivors face 
severe physical and mental disabilities, emotional distress and huge 
costs--a projected $74 billion in medical expenses and lost 
productivity in 2010.
    Stable and sustained funding is required for NINDS to capitalize on 
ARRA investments to prevent stroke, protect the brain from damage and 
enhance rehabilitation. This includes: (1) initiatives to determine 
whether MRI brain imaging can assist in selecting stroke victims who 
could benefit from the clot busting drug tPA beyond the 3-hour 
treatment window; (2) assessing chemical compounds that might shield 
brain cells during a stroke; and (3) advance stroke rehabilitation by 
studying whether the brain can be helped to ``rewire'' itself.
    Continued needed funding will also allow for assertive 
implementation of the NINDS Stroke Progress Review Group Report--a 
long-term, stroke research strategic plan. A variety of research 
initiatives have been undertaken, but more resources are needed to 
fully implement the plan. The fiscal year 2010 estimate for NINDS 
stroke research is less than half of the expected need.
    The American Heart Association Advocates: AHA supports an fiscal 
year 2011 appropriation of $3.514 billion for the NHLBI; and $1.857 
billion for the NINDS. These funding levels represent comparable 
increases to the Association's overall recommended percentage increase 
for the NIH.
Increase Funding for the Centers for Disease Control and Prevention 
        (CDC)
    Prevention is the best way to protect the health of all Americans 
and reduce the economic burden of heart disease and stroke. However, 
effective prevention strategies and programs are not being implemented 
due to insufficient Federal resources. Currently, CDC invests on 
average only 16 cents per-person each year on heart disease and stroke 
prevention.
    For example, despite the fact that cardiovascular disease remains 
the No. 1 killer in every State, CDC's Division for Heart Disease and 
Stroke Prevention still funds only 14 States to implement programs in 
healthcare, worksite and community settings to: (1) reduce high blood 
pressure and elevated cholesterol; (2) improve emergency response and 
quality care; and (3) end treatment disparities. Another 27 States 
receive funds for capacity building (planning). However, there are no 
funds for actual implementation and many of these States have been 
stalled in the planning phase for years--some for a decade. Nine States 
receive no prevention resources at all.
    This CDC division also administers the WISEWOMAN program that 
screens uninsured and under-insured low-income women ages 40 to 64 in 
20 States for heart disease and stroke risk. They receive counseling, 
education, referral and follow-up as needed. From 2000 to mid-2008, 
WISEWOMAN reached more than 84,000 low-income women, provided more than 
210,000 lifestyle interventions, and identified 7,647 new cases of high 
blood pressure, 7,928 new cases of high cholesterol, and 1,140 new 
cases of diabetes. Among those participants who were re-screened 1 year 
later, average blood pressure and cholesterol levels had decreased 
considerably.
    The American Heart Association Advocates: AHA joins with the CDC 
Coalition in support of an appropriation of $8.8 billion for CDC core 
programs, including increases for the Heart Disease and Stroke 
Prevention Program and WISEWOMAN. Within the total for CDC, AHA 
recommends $76.221 million for the Heart Disease and Stroke Prevention 
Program, allowing CDC to: (1) add the nine unfunded States; (2) elevate 
more States to basic program implementation; (3) continue to support 
the remaining funded States; (4) maintain the Paul Coverdell National 
Acute Stroke Registry; (5) increase the capacity for National, State 
and local heart disease and stroke surveillance; and (6) provide 
additional assistance for prevention research and program evaluation. 
AHA also advocates $37 million to expand WISEWOMAN to additional States 
and screen more eligible women in funded States. And, we join the 
Friends of the NCHS in recommending $162 million for the National 
Center for Health Statistics.
Restore Funding for Rural and Community Access to Emergency Devices 
        (AED) Program
    About 92 percent of SCA victims die outside of a hospital. However, 
prompt CPR and defibrillation, with an automated external defibrillator 
(AED), can more than double their chances of survival. Communities with 
comprehensive AED programs have achieved survival rates of about 40 
percent. HRSA's Rural and Community AED Program provides grants to 
States to buy AEDs, train lay rescuers and first responders in their 
use and place AEDs where SCA is likely to occur. During year one, 6,400 
AEDs were bought, and placed and 38,800 people were trained. Due to 
budget cuts, only 10 States received funds for this life-saving program 
in fiscal year 2009.
    The American Heart Association Advocates: For fiscal year 2011, AHA 
advocates restoring HRSA's Rural and Community AED Program to its 
fiscal year 2005 level of $8.927 million.
Increase Funding for the Agency for Healthcare Research and Quality 
        (AHRQ)
    AHRQ develops scientific evidence to improve health and healthcare. 
Through its Effective Health Care Program, AHRQ supports research on 
outcomes, comparative effectiveness and appropriateness of 
pharmaceuticals, devices and healthcare services for diseases, such as 
heart disease, stroke, and high blood pressure. Also, AHRQ's health 
information technology (HIT) plan is helping bring healthcare into the 
21st century through more than $300 million invested in over 200 
projects and demonstrations since 2004. AHRQ and its partners identify 
challenges to HIT adoption and use; develop solutions and best 
practices; and produce tools that help hospitals and clinicians 
successfully integrate HIT. This work is a key component to healthcare 
reform.
    The American Heart Association Advocates.--AHA joins Friends of 
AHRQ in advocating for $611 million for AHRQ to preserve its vital 
initiatives, boost the research infrastructure, reignite innovation, 
nurture the next generation of scientists and help reinvent health and 
healthcare.
    Cardiovascular disease continues to inflict a deadly, disabling and 
costly toll on Americans. But, our recommended funding increases for 
NIH, CDC, and HRSA outlined above will save lives and cut rising 
healthcare costs. The American Heart Association urges Congress to 
seriously consider our recommendations during the fiscal year 2011 
appropriations process. They represent a wise investment for our Nation 
and the health and well-being of this and future generations.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
                    department of education programs
Higher Education Act Programs
    Strengthening Developing Institutions.--Section 316 of Higher 
Education Act (HEA) title III-A, specifically supports TCUs through two 
separate grant programs: (a) formula funded development grants, and (b) 
competitive facilities/construction grants designed to address the 
critical facilities needs at TCUs. The TCUs request that the 
subcommittee appropriate $36 million to support these two vital 
programs.
    TRIO Programs.--Retention and support services are vital to 
achieving the administration's goal of having the highest percentage of 
college graduates globally by 2020. The President's fiscal year 2011 
budget request includes level funding for TRIO programs, which if 
ultimately enacted, will result in a decrease in the current level of 
program services. In addition to increasing Pell Grants, it is 
imperative that Congress bolster TRIO programs such as Student Support 
Services and Upward Bound so that low-income students are given the 
support necessary to persist in and, ultimately, complete their 
postsecondary courses of study. The TCUs support an increase in fiscal 
year 2011 TRIO programs and technical assistance funding.
    Pell Grants.--TCUs urge the subcommittee to fund the Pell Grant 
program at the highest possible level.
Perkins Career and Technical Education Programs
    Section 117 of the Carl D. Perkins Vocational and Technical 
Education Act provides funding for the operating budgets for the 
Nation's two tribally controlled vocational institutions: United Tribes 
Technical College in Bismarck, North Dakota, and Navajo Technical 
College in Crownpoint, New Mexico. AIHEC requests $10 million for the 
two tribal colleges that are funded under this section. Additionally, 
TCUs strongly support the Native American Career and Technical 
Education Program (NACTEP) authorized under section 116 of the act.
Relevant Title IX Elementary and Secondary Education Act (ESEA) 
        Programs
    Adult and Basic Education.--Although Federal funding for tribal 
adult education was eliminated in fiscal year 1996, TCUs continue to 
offer much needed adult education, GED, remediation and literacy 
services for American Indians, yet their efforts cannot meet the 
demand. The TCUs request that the subcommittee direct $5 million of the 
Adult Education State Grants appropriated funding to make awards to 
TCUs to support their ongoing and essential adult and basic education 
programs.
    American Indian Teacher and Administrator Corps.--The American 
Indian Teacher Corps and the American Indian Administrator Corps offer 
professional development grants designed to increase the number of 
American Indian teachers and administrators serving their reservation 
communities. The TCUs request that the subcommittee support these 
programs at $10 million and $5 million, respectively.
            department of health and human services program
Tribal Colleges and Universities Head Start Partnership Program (DHHS-
        ACF)
    TCUs are ideal partners to help achieve the goals of Head Start in 
Indian country. The TCUs are working to meet the mandate that Head 
Start teachers earn degrees in Early Childhood Development or a related 
discipline. The TCUs request that a minimum of $5 million be designated 
for the TCU-Head Start Partnership program, to ensure the continuation 
of current programs and the resources needed to expand participation to 
include additional TCU-Head Start Partnership programs.
                           background on tcus
    TCUs are accredited by independent, regional accreditation agencies 
and like all institutions of higher education, must undergo stringent 
performance reviews on a periodic basis to retain their accreditation 
status. In addition to college level programming, TCUs provide 
essential high school completion (GED), basic remediation, job 
training, college preparatory courses, and adult education programs. 
TCUs fulfill additional roles within their respective reservation 
communities functioning as community centers, libraries, tribal 
archives, career and business centers, economic development centers, 
public meeting places, and child and elder care centers. Each TCU is 
committed to improving the lives of its students through higher 
education and to moving American Indians toward self-sufficiency.
    TCUs, chartered by their respective tribal governments, were 
established in response to the recognition by tribal leaders that 
local, culturally based institutions are best suited to help American 
Indians succeed in higher education. TCUs effectively blend traditional 
teachings with conventional postsecondary curricula. They have 
developed innovative ways to address the needs of tribal populations 
and are overcoming long-standing barriers to success in higher 
education for American Indians. Since the first TCU was established on 
the Navajo Nation more than 40 years ago, these vital institutions have 
come to represent the most significant development in the history of 
American Indian higher education, providing access to, and promoting 
achievement among, students who may otherwise never have known 
postsecondary education success.
  justifications for fiscal year 2011 appropriations requests for tcus
Higher Education Act
    The Higher Education Act Amendments of 1998 created a separate 
section (Sec. 316) within title III-A specifically for the Nation's 
TCUs. Programs under titles III and V of the act support institutions 
that enroll large proportions of financially disadvantaged students and 
that have low per-student expenditures. Tribal colleges, which are 
truly developing institutions, are providing access to quality higher 
education opportunities to some of the most rural, impoverished, and 
historically underserved areas of the country. A clear goal of the HEA 
title III programs is ``to improve the academic quality, institutional 
management and fiscal stability of eligible institutions, in order to 
increase their self-sufficiency and strengthen their capacity to make a 
substantial contribution to the higher education resources of the 
Nation.'' The TCU title III program is specifically designed to address 
the critical, unmet needs of their American Indian students and 
communities, in order to effectively prepare them to succeed in a 
global, competitive workforce. The TCUs urge the subcommittee to 
appropriate $36 million in fiscal year 2011 for HEA title III-A section 
316, an increase of $5.8 million more than fiscal year 2010, and to 
direct the Department to reserve a portion of the funds, as authorized, 
to award several competitive construction grants. These funds will 
afford these developing institutions the resources necessary to 
continue their ongoing grant programs, and address the needs of their 
historically underserved students and communities, as well as their 
substandard facilities and infrastructure issues.
    Retention and support services are vital to achieving the 
administration's goal of having the highest percentage of college 
graduates globally by 2020. The TRIO-Student Support Services program 
was created out of recognition that college access was not enough to 
ensure advancement and that multiple factors worked to prevent the 
successful completion of higher education for many low-income and 
first-generation students and students with disabilities. Therefore, in 
addition to increasing Pell Grants, it is critical that Congress also 
bolster student assistance programs such as Student Support Services so 
that low-income students have the support necessary to allow them to 
persist in and, ultimately, complete their postsecondary courses of 
study.
    The importance of Pell Grants to TCU students cannot be overstated. 
Department of Education figures show that the majority of TCU students 
receive Pell Grants, primarily because student income levels are so low 
and our students have far less access to other sources of financial aid 
than students at State-funded and other mainstream institutions. Within 
the TCU system, Pell Grants are doing exactly what they were intended 
to do--they are serving the needs of the lowest-income students by 
helping them gain access to quality higher education, an essential step 
toward becoming active, productive members of the workforce. TCUs urge 
the subcommittee to fund this critical program at the highest possible 
level.
Carl D. Perkins Career and Technical Education Act
    Tribally Controlled Postsecondary Career and Technical 
Institutions.--Section 117 of the Perkins Act provides operating funds 
for two of our member institutions: United Tribes Technical College in 
Bismarck, North Dakota, and Navajo Technical College in Crownpoint, New 
Mexico. The TCUs urge the subcommittee to appropriate $10 million for 
section 117 of the act.
    Native American Career and Technical Education Program.--The Native 
American Career and Technical Education Program (NACTEP) under section 
116 of the act reserves 1.25 percent of appropriated funding to support 
Indian vocational programs. The TCUs strongly urge the subcommittee to 
continue to support NACTEP, which is vital to the continuation of much 
needed career and technical education programs being offered at TCUs.
Greater Support of Indian Education Programs
    American Indian Adult and Basic Education (Office of Vocational and 
Adult Education).--This program supports adult basic education programs 
for American Indians offered by State and local education agencies, 
Indian tribes, agencies, and TCUs. Despite a lack of funding, TCUs must 
find a way to continue to provide basic adult education classes for 
those American Indians that the present K-12 Indian education system 
has failed. Before many individuals can even begin the course work 
needed to learn a productive skill, they first must earn a GED or, in 
some cases, even learn to read. The number of students in need of 
remedial education before embarking on their degree programs is 
considerable at TCUs. There is a broad need for basic adult educational 
programs and TCUs need adequate funding to support these essential 
activities. TCUs respectfully request that the subcommittee direct $5 
million of the funds appropriated for the Adult Education State Grants 
to make awards to TCUs to help meet the ever increasing demand for 
basic adult education and remediation program services that exists on 
their respective reservations.
    American Indian Teacher/Administrator Corps (Special Programs for 
Indian Children).--American Indians are severely underrepresented in 
the teaching and school administrator ranks nationally. These 
competitive programs are designed to produce new American Indian 
teachers and school administrators for schools serving American Indian 
students. These grants support recruitment, training, and in-service 
professional development programs for Indians to become effective 
teachers and school administrators and in doing so become excellent 
role models for Indian children. We believe that the TCUs are ideal 
catalysts for these two initiatives because of their current work in 
this area and the existing articulation agreements they hold with 4-
year degree awarding institutions. The TCUs request that the 
subcommittee support these two programs at $10 million and $5 million, 
respectively, to increase the number of qualified American Indian 
teachers and school administrators in Indian country.
department of health and human services/administration for children and 
                          families/head start
    Tribal Colleges and Universities (TCU) Head Start Partnership 
Program.--The TCU-Head Start Partnership has made a lasting investment 
in our Indian communities by creating and enhancing associate degree 
programs in Early Childhood Development and related fields. Graduates 
of these programs help meet the degree mandate for all Head Start 
program teachers. More importantly, this program has afforded American 
Indian children Head Start programs of the highest quality. A clear 
impediment to the ongoing success of this partnership program is the 
erratic availability of discretionary funds made available for the TCU-
Head Start Partnership. In fiscal year 1999, the first year of the 
program, some colleges were awarded 3-year grants, others 5-year 
grants. In fiscal year 2002, no new grants were awarded. In fiscal year 
2003, funding for eight new TCU grants was made available, but in 
fiscal year 2004, only two new awards could be made because of the lack 
of adequate funds. The TCUs request that the subcommittee direct the 
Head Start Bureau to designate a minimum of $5 million, of the more 
than $8.2 billion included in the President's fiscal year 2011 budget 
request for programs under the Head Start Act, for the TCU-Head Start 
Partnership program, to ensure that this critical program can be 
expanded so that all TCUs have the opportunity to participate in the 
TCU-Head Start Partnership program to benefit their respective tribal 
communities.
                               conclusion
    TCUs are providing access to higher education opportunities to many 
thousands of American Indians and essential community services and 
programs to many more. The modest Federal investment in TCUs has 
already paid great dividends in terms of employment, education, and 
economic development, and continuation of this investment makes sound 
moral and fiscal sense. TCUs need your help if they are to sustain and 
grow their programs and achieve their missions to serve their students 
and communities.
    Thank you again for this opportunity to present our funding 
recommendations. We respectfully ask the members of the subcommittee 
for their continued support of the Nation's TCUs and full consideration 
of our fiscal year 2011 appropriations needs and recommendations.
                                 ______
                                 
Prepared Statement of the American Institute for Medical and Biological 
                              Engineering
    Mr. Chairman and members of the subcommittee: The American 
Institute for Medical and Biological Engineering (AIMBE) appreciates 
the opportunity to submit testimony to advocate for funding for 
research within the National Institutes of Health (NIH) broadly, and 
specifically research funding within the National Institute for 
Biomedical Imaging and Bioengineering (NIBIB). NIH and NIBIB provide 
avenues for research funding that are vital to the Nation's efforts to 
support medical and biological engineering (MBE) innovation. AIMBE 
represents 50,000 individuals and organizations throughout the United 
States, including major healthcare companies, academic research 
institutions and the top 2 percent of engineers, scientists and 
clinicians whose discoveries and innovations have touched the health of 
many Americans. While today's testimony focuses on the impact MBE has 
on improving the health and well being of Americans, it is important to 
note that MBE can also have a positive impact on many of the other 
important issues facing us today; ranging from improvements to the 
environment by finding green-energy solutions, to solving problems 
relating to hunger, disease prevention, diagnosis and treatment of 
disease; to economic growth spurred by the innovation of new health 
products.
    AIM BE was founded in 1991 to establish a clear and comprehensive 
identity for the field of medical and biological engineering--which 
applies principles of engineering science and practice to imagine, 
create, and perfect the medical and biological technologies that are 
used to improve the health and quality of life of Americans and people 
across the world. AIMBE's vision is to ensure MBE innovations continue 
to develop for the benefit of humanity.
    AIMBE applauds the past support of this subcommittee to provide 
funding to NIH, and is particularly pleased to see the strong 
investment in NIH provided by the American Recovery and Reinvestment 
Act. However, we believe more stable, adequate and reliable funding is 
necessary to ultimately ensure America remains competitive and 
continues to develop innovations that improve human health. We 
therefore support NIBIB at the level of $332.4 million for fiscal year 
2011. This increase in funding will support important work which is 
highly translatable or applicable research into products that are life-
saving, and life enhancing. NIBIB is the only Institute at the NIH with 
the specific purpose of supporting and conducting biomedical 
engineering research, which impacts all sectors of health across many 
disease states. Research conducted within NIBIB is on the cutting edge 
of biomedical engineering research and has the potential to save lives 
and reduce healthcare costs.
    While each Institute within the NIH plays a vital role researching 
and identifying disease prevention and treatment positively impacting 
patient outcomes; the NIBIB plays a unique role and has not benefited 
from large-scale NIH funding increases, such as the doubling of the 
budget in 2004. First appropriated with its own funding in 2004 (fiscal 
year 2003 and fiscal year 2004 were funded through transfers from other 
Institutes within NIH), the mission of NIBIB is to improve health by 
leading the development and accelerating the application of biomedical 
technologies. The NIBIB is committed to integrating the physical and 
engineering sciences with the life sciences to advance basic research 
and medical care. This is achieved through research and development of 
new biomedical imaging and bioengineering techniques and devices to 
fundamentally improve the detection, treatment, and prevention of 
disease; enhancing existing imaging and bioengineering modalities; 
supporting related research in the physical and mathematical sciences; 
encouraging research and development in multidisciplinary areas; 
supporting studies to assess the effectiveness and outcomes of new 
biologics, materials, processes, devices, and procedures; developing 
nonimaging technologies for early disease detection and assessment of 
health status; and developing advanced imaging and engineering 
techniques for conducting biomedical research at multiple scales 
through modeling and simulation. Finally, the NIBIB plays an important 
role in providing engineering research resources to the entirety of the 
NIH. As the only engineering research arm within the NIH, NIBIB is 
often relied upon to partner with other institutes at the NIH to 
provide engineering expertise. The Laboratory of Molecular Imaging and 
Nanomedicine, and Laboratory of Bioengineering and Physical Science are 
two examples of NIBIB's role as a partner for researchers working at 
other Institutes at the NIH.
    We strongly recommend that early-stage, proof-of-concept projects 
for translational research be funded at an enhanced level, ideally 0.5 
percent of all external research budgets, at all Institutes. This is 
critical to maintaining the U.S. lead in innovation by moving new 
discoveries and novel systems to the stage where third-party private 
funding can take them through development to the marketplace where they 
help patients and health of Americans. Publicly held companies cannot 
invest in this stage of work due to stockholder pressures, so that the 
Federal Government is critical to ensuring the viability of this 
innovation pipeline.
NIBIB as a Stimulus for Innovation/Cost Effectiveness
    The fiscal year 2010 NIBIB Budget submission is $316.6 million, a 
2.7 percent increase from the fiscal year 2009 appropriation, and is 37 
percent lower than the original 5-year congressional authorization for 
NIBIB funding of $504 million. As the economy worsens, private industry 
and private investors are less likely to invest in high-risk research, 
potentially slowing the pace of innovation. By funding bioengineering 
research, NIBIB fills a void by providing funding for high-risk, high-
reward research that leads to the development of new technologies. 
Often times, private investors in biomedical innovation are unwilling 
to invest in this type of research, because of the risks involved. 
However, NIBIB can be a mechanism to bring new technologies to market 
and fills the void left by a lack of private capital.
    The NIBIB's Quantum Grants program, for example, challenges the 
research community to propose projects that have a highly focused, 
collaborative, and interdisciplinary approach to solve a major medical 
problem or to resolve a highly prevalent technology-based medical 
challenge. The program consists of a 3-year exploratory phase to assess 
feasibility and identify best approaches, followed by a second phase of 
5 to 7 years. Major advances in medicine leading to quantifiable 
improvements in public health require the kind of funding commitment 
and intellectual focus found in the Quantum Grants program at NIBIB, 
because early stage investors are reluctant to invest in high-risk 
research. That said, the Quantum Grants offer a place for Government to 
invest in translational research, potentially solving huge medical 
problems facing Americans today.
    The five currently funded Quantum Grants focus on: stem cell 
therapies for patients suffering from the effects of diabetes and 
stroke; the utilization of nanoparticles to help visualize brain tumors 
so that surgeons can easily see and remove the cancerous mass in the 
patient's brain; the development of an implantable artificial kidney 
offering an improved quality of life for patients currently undergoing 
dialysis treatment; and a microchip to capture circulating tumor cells 
for clinicians to diagnose cancer earlier than ever before, giving 
patients a greater hope for recovery thanks to earlier detection and 
treatment. All these projects, in their early stages of funding, have 
demonstrated promise for improving patient outcomes in the laboratory 
setting.
    An increase of funding to NIBIB and the Quantum Grants program may 
offer opportunities to expedite research beyond laboratory study and 
move to clinical trial. For example, if this research is developed and 
put on the market, the cost reduction to a person with kidney disease 
would radically decrease because it would eliminate the need for 
dialysis, which is a costly and resource heavy procedure typically done 
in an out-patient hospital setting.
The Fundamental Role of Engineering Research
    Advances in the process of engineering research, in a variety of 
fields, are a part of technological innovation. Medical and biological 
engineering draws from research specialties across disciplines 
(including mechanical, electrical, material, medical and biological 
engineering, and clinicians), bringing together teams to create unique 
solutions to the most pressing health problems. Engineering is the 
practical application of science and math to solve problems. For 
example, the insulin pump, which is the primary device used by patients 
with diabetes who requires continuous insulin infusion therapy, is the 
result of multi-disciplinary effort by engineers to develop a more 
efficient way to manage diabetes. The science to develop and perfect an 
insulin pump existed well before the creation of the medical device; 
however it took biomedical engineers to apply the basic science toward 
product development.
    The first insulin pump to be manufactured was released in the late 
1970s. It was known as the ``big blue brick'' because of its size and 
appearance. It sparked interest among healthcare professionals who saw 
it as a device that would render syringes obsolete for people who have 
daily insulin injection needs. While the technology was promising, the 
first commercial pump lacked the controls and interface to make it a 
safe alternative to manual injections. Dosage was inaccurate thus 
making the device more of a danger than a solution.
    It was only in the beginning of the 1990's that biomedical 
engineers began to develop more user-friendly models that could be used 
by diabetics. Advances in biomedical engineering research focused on 
reducing device size, increasing energy efficiency (and thus improving 
battery life), and improving reliability were of great benefit to 
insulin pump manufacturers who were able to make their models smaller, 
more affordable, and easier for patients to use. Insulin pumps enable 
many diabetic patients to live productive lives due to fewer absences 
from work and reduced hospitalizations.
    A similar advancement in the treatment of atherolosclerosis through 
MBE is the use of angioplasty with an arterial stent which releases 
drugs directly to the coronary artery (referred to as a drug eluting 
stent). This advancement has replaced more then 500,000 bypass 
surgeries a year, at an annual cost savings of $4 billion, and an 
immeasurable improvement in the quality of life of patients receiving 
this treatment.
    Engineering research in human physiology, specifically in range of 
motion and function, has increased the function for artificial limbs. 
The decreasing mortality and increasing number of disabled war veterans 
highlights the need for more highly functional prosthetics. Engineering 
research and development processes have taken the strapped wooden leg 
to a realistic synergic leg and foot transtibial prosthetic that 
employs advanced biomechanics and microelectronic controls to allow a 
fuller range of motion, including running. Basic engineering research 
in polymers and materials science has changed the look and feel of 
prosthetic limbs so they are no longer easily discernable, reducing the 
stigma, and making them more durable, lessening the cost of maintenance 
and replacement. Researchers in Baltimore, Cleveland and Chicago are 
developing the next generation of prosthetic limbs, utilizing cutting 
edge biomedical engineering research to develop prosthesis that are 
more sensitive, more responsive, and more lifelike then anything 
developed in the past. These new ``bionic limbs'' are giving patients 
pieces of their body back, pieces taken from them through traumatic 
injury or disease. Increases in funding to NIBIB, who uniquely partners 
with other Federal agencies such as the Department of Veterans Affairs 
and Department of Defense, may lead to biomedical engineering 
innovations to improve the quality of life of warfighters injured on 
the battlefield as well as civilians.
    The engineering research process has played a large part in 
extending and deploying innovative imaging technologies such as 
magnetic resonance imaging (MRI) and ultra-fast computerized tomography 
(CT scan). These technologies facilitate early detection of disease and 
dysfunction, allowing for earlier treatment and slowing the progression 
of disease. When prescribed correctly these technologies can reduce the 
costs of healthcare by diagnosing diseases earlier, allowing for 
earlier clinical intervention and reduced hospitalizations with faster 
recovery times.
    The Nation deserves to obtain a strong return on its investment in 
the basic medical research funded by NIH. Additional engineering 
research, including translation of basic research into new devices and 
more efficient medical procedures, is a critical part of ensuring that 
return. This combination of basic scientific studies and engineering 
research, will in turn, lead to many technological innovations which 
will improve the quality of life and well being of Americans. Industry 
will supply developmental engineering research; however, they usually 
do not support the fundamental level of engineering research done at 
NIH and NIBIB due to the high risks to their returning investments. The 
government needs to continue to fund the vital research at NIH and 
NIBIB to continue to be a leader in healthcare innovation, and for the 
creation of jobs in the healthcare segment of our national economy.
    AIMBE looks forward to the opportunity to continue this dialogue 
with all of you individually. Thank you again for your time, and 
consideration on this important matter.
                                 ______
                                 
     Prepared Statement of the Association of Independent Research 
                               Institutes
    The Association of Independent Research Institutes (AIRI) 
respectfully submits this written testimony for the record to the 
Senate Appropriations Subcommittee on Labor, Health and Human Services, 
and Education, and Related Agencies. AIRI appreciates the commitment 
that the members of this subcommittee have made to biomedical research 
through your strong support for the National Institutes of Health 
(NIH), and recommends that you maintain this support for NIH in fiscal 
year 2011 by providing the agency with a total discretionary budget of 
at least $32.239 billion as requested by President Obama. This would be 
a 3.2 percent increase more than the fiscal year 2010 enacted level.
    AIRI is a national organization of 91 independent, nonprofit 
research institutes that perform basic and clinical research in the 
biological and behavioral sciences. AIRI institutes vary in size, with 
budgets ranging from a few million to hundreds of millions of dollars. 
In addition, each AIRI member institution is governed by its own 
independent Board of Directors, which allows our members to focus on 
discovery based research while remaining structurally nimble and 
capable of adjusting their research programs to emerging areas of 
inquiry. Researchers at independent research institutes consistently 
exceed the success rates of the overall NIH grantee pool, and receive 
about 10 percent of NIH's peer reviewed, competitively awarded 
extramural grants. On average, AIRI member institutes receive a total 
of $1.6 billion in extramural grants from NIH in any given year.
    Through passage of the American Recovery and Reinvestment Act 
(ARRA) and recent year appropriations bills, Congress has taken 
important steps to jump start the Nation's economy through investments 
in science. Simultaneously, Congress is advancing and accelerating the 
biomedical research agenda in this country by focusing on scientific 
opportunities to address public health challenges. NIH now has the 
ability to fund a record number of research grants, with special 
emphasis on groundbreaking projects in areas that show the greatest 
potential for improving health, including genetic medicine, clinical 
research, and health disparities. In addition, NIH is also funding 
construction projects and providing support for equipment and 
instrumentation, which is critically needed to update aging research 
facilities. We urge NIH to continue its commitment to facility, 
equipment, and infrastructure support. The infrastructure that we are 
creating needs to be maintained. Large fluctuations in funding will be 
disruptive to training, to careers, to long range projects and 
ultimately to progress. The research engine needs a predictable, 
sustained investment in science to maximize our return.
    NIH is responding to its charge of stimulating the economy through 
job creation by supporting new scientists. ARRA investments allowed us 
to see firsthand how research is impacting the economy. We cannot stop 
the momentum created by these historic investments. We need to be able 
to continue to advance the new directions charted with the ARRA support 
in 2011 and beyond.
    Keeping up with the rising cost of medical research in the fiscal 
year 2011 appropriations will help NIH begin to prepare for the ``post-
stimulus'' era. In 2011 and beyond we need to make sure that the total 
funding available to NIH does not decline and that we can resume a 
steady, sustainable growth that will enable us to complete the 
President's vision of doubling our investment in basic research, which 
is why we are respectfully urging this subcommittee to increase funding 
for NIH in fiscal year 2011 by at least 3.2 percent.
                           airi's commitment
    Pursuing New Knowledge.--The United States model for conducting 
biomedical research, which involves supporting scientists at 
universities, medical centers, and independent research institutes, 
provides an effective approach to making fundamental discoveries in the 
laboratory and translating them into medical advances that save lives. 
AIRI member institutes are private, stand-alone research centers that 
set their sights on the vast frontiers of medical science, specifically 
focused on pursuing knowledge about the biology and behavior of living 
systems and to apply that knowledge to extend healthy life and reduce 
the burdens of illness and disability.
  --High Throughput Technologies.--AIRI Institutes have embraced 
        technologies and research centers to collaborate on biological 
        research for all diseases. Using advanced technology platforms 
        or ``cores,'' AIRI institutes use genomics, imaging, and other 
        broad-based technologies for drug discovery.
  --Translational Research.--Translational sciences bridges the divide 
        between basic biomedical research and implementation in a 
        clinical setting. Currently, more than 15 AIRI member 
        institutes are affiliated with and collaborate with the 
        Clinical and Translational Science Awards (CTSA) Program. Many 
        AIRI institutes also support research on human embryonic stem 
        cells (hESC) with the hope of discovering new and innovative 
        disease interventions.
  --Using Science to Enable Health Care Reform.--As basic biomedical 
        research institutes, AIRI members collaborate with other 
        research partners on patient-centered outcomes research. AIRI 
        members act as the basic research arm for disease treatment 
        (for example, by supporting genetic testing), while other 
        project collaborators study other aspects of disease 
        intervention in an effort to learn the best practices for 
        preventing and treating disease.
  --Global Health.--AIRI member institutes focus on a wide range of 
        diseases, many of which have a global affect on human health. 
        Besides supporting research for the treatments, vaccines, and 
        cures of the world's deadliest diseases, a number of AIRI 
        institutes partner with research institutions in the developing 
        world to support international disease research, such as 
        collaborations on HIV/AIDS, Tuberculosis, and Malaria.
  --Reinvigorating the Biomedical Research Community.--AIRI supports 
        policies that promote the United States' ability to maintain a 
        competitive edge in biomedical science. The biomedical research 
        community is dependent upon a knowledgeable, skilled, and 
        diverse workforce to address current and future critical health 
        research questions. The cultivation and preservation of this 
        workforce is dependent upon the ability to recruit scientists 
        and students globally as well as training programs in basic and 
        clinical biomedical research. Initiatives focusing on career 
        development and recruiting a diverse scientific workforce are 
        important to innovation in biomedical research for the benefit 
        of public health.
    Providing Efficiency and Flexibility.--AIRI member institutes' 
small size and valuable flexibility provide an environment that is 
particularly conducive to creativity and innovation. In addition, 
independent research institutes possess a unique versatility/culture 
that encourages them to share expertise, information, and equipment 
across their institutes and elsewhere, which helps to minimize 
bureaucracy and increase efficiency when compared to larger degree 
granting academic universities.
    Supporting Young Researchers.--While the primary function of AIRI 
institutes is research, most are strongly involved in training the next 
generation of biomedical researchers and ensuring that a pipeline of 
promising researchers are prepared to make significant and potentially 
transformative discoveries in a variety of areas.
    AIRI would like to thank the subcommittee for its important work to 
ensure the health of the Nation, and we appreciate this opportunity to 
present funding recommendations concerning NIH in the fiscal year 2011 
appropriations bill. AIRI looks forward to working with Congress to 
carry out the research that will lead to improving the health and 
quality of life for all Americans.
                                 ______
                                 
          Prepared Statement of the American Lung Association
                          summary of programs
Centers for Disease Control and Prevention (CDC)
    Increased overall CDC funding--$8.8 billion
  --Funding CDC COPD Program--$3 million
  --Funding Healthy Communities--$52.8 million
  --Office on Smoking and Health--$280 million
  --Asthma programs--$70 million
  --Environment and Health Outcome Tracking--$50 million
  --Tuberculosis programs--$220.5 million
  --CDC Influenza preparedness--$159.1 million
  --NIOSH--$364.3 million
National Institutes of Health (NIH)
    Increased overall NIH funding--$35 billion
  --National Heart, Lung and Blood Institute--$3.514 billion
  --National Cancer Institute--$5.725 billion
  --National Institute of Allergy and Infectious Diseases--$5.395 
        billion
  --National Institute of Environmental Health Sciences--$779.4 million
  --National Institute of Nursing Research--$163 million
  --National Center on Minority Health & Health Disparities--$236.9 
        million
  --Fogarty International Center--$78.4 million
    The American Lung Association is pleased to present our 
recommendations to the Labor, Health and Human Services, and Education, 
and Related Agencies Appropriations Subcommittee. The public health and 
research programs funded by this subcommittee will prevent lung disease 
and improve and extend the lives of millions of Americans who suffer 
from lung disease.
    The American Lung Association is the oldest voluntary health 
organization in the United States, with national offices and local 
associations around the country. Founded in 1904 to fight tuberculosis, 
the American Lung Association today fights lung disease in all its 
forms through research, advocacy and education.
                 a sustained and sustainable investment
    We thank the chairman and the subcommittee for your leadership in 
healthcare reform and the priority paid to prevention and wellness. The 
investments this committee makes can and will pay near-term and long-
term dividends for the health of the American people.
    Specifically, we want to highlight the need for the American 
Recovery and Reinvestment (ARRA) funds to be incorporated into base 
funding levels in order to sustain these critical investments, 
particularly for the Center for Disease Control and Prevention's public 
health programs. These investments in prevention and wellness are 
crucial to ensuring a healthier population and a reduction in 
healthcare costs. Chronic disease is a huge driver of cost and human 
suffering and incorporating the ARRA funds into the baseline will allow 
sustained investments in proven interventions like smoking cessation.
    The United States must also maintain its renewed commitment to 
medical research. While our focus is on lung disease research, we 
strongly support increasing the investment in research across the 
entire National Institutes of Health.
                              lung disease
    Each year, almost 400,000 Americans die of lung disease. It is 
responsible for 1 in every 6 deaths. More than 35 million Americans 
suffer from a chronic lung disease. Each year lung disease costs the 
economy an estimated $173 billion. Lung diseases include: lung cancer, 
asthma, chronic obstructive pulmonary disease (COPD), tuberculosis, 
pneumonia, influenza, sleep disordered breathing, pediatric lung 
disorders, occupational lung disease and sarcoidosis.
                        improving public health
    The American Lung Association strongly supports investments in the 
public health infrastructure. In order for the CDC to carry out its 
prevention mission, and to assure an adequate translation of new 
research into effective State and local programs to improve the health 
of all Americans, we strongly support increasing the overall CDC 
funding to $8.8 billion.
    We strongly encourage improved disease surveillance and health 
tracking to better understand diseases like asthma. We support an 
appropriations level of $50 million for the Environment and Health 
Outcome Tracking Network to allow Federal, State, and local agencies to 
track potential relationships between hazards in the environment and 
chronic disease rates.
    We strongly support investments in communities to bring together 
key stakeholders to identify and improve policies and environmental 
factors influencing health in order to reduce the burden of chronic 
diseases. These programs lead to a wide range of improved health 
outcomes including reduced tobacco use. We strongly recommend at least 
$52.8 million in funding for the Healthy Communities program to expand 
its reach to more communities.
                 chronic obstructive pulmonary disease
    Chronic Obstructive Pulmonary Disease, or COPD, is the fourth 
leading cause of death both in the United States and worldwide. Yet, it 
remains relatively unknown to most Americans. COPD refers to a group of 
largely preventable diseases, including emphysema and chronic 
bronchitis that gradually limit the flow of air in the body. It has 
been estimated that 12.1 million patients have been diagnosed with some 
form of COPD and as many as 24 million adults may suffer from its 
consequences. In 2006, 120,970 people in the United States died of 
COPD. The annual cost to the nation for COPD in 2010 is projected to be 
$49.9 billion. Medicare expenses for COPD beneficiaries were nearly 2.5 
times that of the expenditures for all other patients.
    Despite the enormity of this problem, COPD receives far too little 
attention at CDC or in health departments across the Nation. The 
American Lung Association strongly supports the establishment of a 
national COPD program within CDC's National Center for Chronic Disease 
Prevention and Health Promotion with a specific line item of $3 million 
for fiscal year 2011 to create a comprehensive national action plan for 
combating COPD. Creating this plan will address the public health role 
in prevention, treatment and management of this disease.
    Today, COPD is treatable but not curable. Despite promising 
research leads, the American Lung Association believes that research 
resources committed to COPD are not commensurate with the impact COPD 
has on the United States and the world. The American Lung Association 
strongly recommends that the NIH and other Federal research programs 
commit additional resources to COPD research programs. We strongly 
support funding the National Heart, Lung and Blood Institute and its 
lifesaving lung disease research program at $3.514 billion.
                              tobacco use
    Tobacco use is the leading preventable cause of death in the United 
States, killing more than 443,000 people every year. Smoking is 
responsible for 1 in 5 U.S. deaths. The direct healthcare and lost 
productivity costs of tobacco-caused disease and disability are also 
staggering, an estimated $193 billion each year.
    Given the magnitude of the tobacco-caused disease burden and how 
much of it can be prevented; the CDC Office on Smoking and Health 
should be much larger and better funded. This neglect cannot continue 
if the nation wants to prevent disease and promote wellness. Public 
health interventions have been scientifically proven to reduce tobacco 
use.
    In light of new funds available from the Patient Protection and 
Affordable Care Act and the subcommittee's fiscal year 2010 request to 
OSH for a 5-year plan to significantly reduce tobacco use in the United 
States, the American Lung Association urges that a minimum of $280 
million be appropriated to CDC's Office on Smoking and Health for 
fiscal year 2011.
                              lung cancer
    An estimated 364,996 Americans are living with lung cancer. During 
2009, an estimated 219,440 new cases of lung cancer were diagnosed, and 
158,664 Americans died from lung cancer in 2006. Survival rates for 
lung cancer tend to be much lower than those of most other cancers and 
significant health disparities exist in the incidence and treatment of 
this disease.
    Lung cancer receives far too little attention and focus. Given the 
magnitude of lung cancer and the enormity of the death toll, the 
American Lung Association strongly recommends that the NIH and other 
Federal research programs commit additional resources to lung cancer. 
We support a funding level of $5.725 billion for National Cancer 
Institute and urge more attention and focus on lung cancer.
                                 asthma
    Asthma is a chronic lung disease in which the bronchial tubes 
become swollen and narrowed, preventing air from getting into or out of 
the lung. Approximately 23.3 million Americans currently have asthma, 
of which 12.7 million had an asthma attack in 2008. Asthma is expensive 
and incurs an estimated annual economic cost of $20.7 billion to our 
Nation. Asthma is the third leading cause of hospitalization among 
children under the age of 15. It is also one of the leading causes of 
school absences. The Federal response to asthma has three components: 
research, programs and planning.
    We recommend that the National Heart, Lung and Blood Institute 
receive $3.514 billion and the National Institute of Allergy and 
Infectious Diseases be appropriated $5.395 billion, and that both 
agencies continue their investments in asthma research in pursuit of 
treatments and cures.
    The American Lung Association also recommends that CDC be provided 
$70 million in fiscal year 2011 to expand its asthma programs.
                               influenza
    Influenza is a highly contagious viral infection and one of the 
most severe illnesses of the winter season. It is responsible for an 
average of 226,000 hospitalizations and 36,000 deaths each year. 
Further, the emerging threat of a pandemic influenza is looming as the 
recently emerging strain of H1N1 reminded us. The American Lung 
Association supports funding the Federal CDC Influenza efforts at $156 
million. We also support investments in influenza totaling $45 million 
for the Food and Drug Administration (FDA), $35 billion for the 
National Institutes of Health (NIH), and $66 million for the Office of 
the Secretary, as proposed in the President's budget.
                              tuberculosis
    Tuberculosis primarily affects the lungs but can also affect other 
parts of the body. There are an estimated 10 million to 15 million 
Americans who carry latent TB infection. Each has the potential to 
develop active TB in the future. In 2008, there were 12,904 cases of 
active TB reported in the United States. While declining overall TB 
rates are good news, the emergence and spread of multi-drug resistant 
TB pose a significant threat to the public health of our Nation. 
Continued support is needed if the United States. is going to continue 
progress toward the elimination of TB. We request that Congress 
increase funding for tuberculosis programs at CDC to $220.5 million.
                               conclusion
    Mr. Chairman, lung disease is a continuing, growing problem in the 
United States. It is America's number three killer, responsible for 1 
in 6 deaths. Progress against lung disease is not keeping pace with 
other major causes of death and more must be done. The level of support 
this subcommittee approves for lung disease programs should reflect the 
urgency illustrated by these numbers.
                                 ______
                                 
          Prepared Statement of the American Liver Foundation
    Mr. Chairman and members of the subcommittee, thank you for giving 
the American Liver Foundation the opportunity to provide testimony as 
the subcommittee begins to consider funding priorities for fiscal year 
2011. My name is Dr. Allan Wolkoff and I am the Chairman of the Board 
of Directors of the American Liver Foundation (ALF), a national 
voluntary health organization dedicated to the prevention, treatment 
and cure of hepatitis and other liver diseases through research, 
education and advocacy. I am also a Professor of Medicine and Chief of 
the Division of Hepatology at the Albert Einstein College of Medicine.
    ALF has a nationwide network of divisions and provides information 
to 300,000 patients and families. More than 70,000 physicians, 
including primary care practitioners and liver specialists and 
scientists also receive information from ALF. The ALF Board of 
Directors is composed of scientists, clinicians, patients and others 
who are directly affected by liver diseases. Every year ALF handles 
more than 100,000 requests for information, helping patients and their 
families understand their illnesses, informing them about available 
services, and showing them that there are knowledgeable and concerned 
individuals to assist them in every possible way.
    Mr. Chairman, ALF joins the Ad Hoc Group for Medical Research 
Funding, a coalition of some 300 patient and voluntary health groups, 
medical and scientific societies, academic research organizations and 
industry, in recommending $35 billion in funding for the National 
Institutes of Health in fiscal year 2011. While the ALF recognizes the 
demands on our Nation's resources, we believe the ever-increasing 
health threats and expanding scientific opportunities continue to 
justify increased funding levels for the National Institutes of Health 
(NIH). To ensure that NIH's momentum is not further eroded, and to 
ensure the fight against diseases and disabilities that affect millions 
of Americans can continue, ALF supports $35 billion for the NIH in 
fiscal year 2011 and a minimum increase of 12 percent ($235 million) 
for the National Institute for Diabetes and Digestive and Kidney 
Diseases and for liver disease research across all NIH Institutes.
    In addition to the NIH, there are a number of programs within the 
jurisdiction of the subcommittee that are important to ALF including 
the Centers for Disease Control's Division of Viral Hepatitis and the 
Health Resources Services Administration. Mr. Chairman, our specific 
recommendations for these and other areas of interest are summarized in 
a table at the end of this statement.
             recognizing the leadership of the subcommittee
    Mr. Chairman, ALF appreciates your leadership and the leadership of 
this Subcommittee in supporting NIH in a time of fiscal austerity. Your 
leadership in supporting CDC and HRSA are also greatly recognized and 
appreciated. These programs are important to our shared goals of 
improving the public health response to the threats of hepatitis and 
liver disease and to increasing the rate of organ donation. We applaud 
the subcommittee's leadership in making progress in these important 
areas and to allocating increased funding to these programs during 
periods of fiscal austerity.
  a national strategy for prevention and control of hepatitis b and c.
    The ALF is very pleased that the Office of the Secretary has 
convened and established an inter-departmental task-force to address 
the public health challenge of viral hepatitis. This is an important 
step for the Department to take to develop a comprehensive response to 
the challenge of hepatitis. In January 2010, the Institute of Medicine 
released a groundbreaking report titled ``Hepatitis and Liver Cancer: A 
National Strategy for Prevention and Control of Hepatitis B and C'' 
documenting the problem and highlighting a course of action to address 
it. ALF urges its review and consideration by the Task Force. ALF also 
urges the Committee to request an update from the Task Force of their 
recommendations and actions and further urges the Committee to review 
and address the chronic underfunding of viral hepatitis prevention 
programs within the Department, including the National Institutes of 
Health and the CDC's Division of Viral Hepatitis.
the national institutes of health and the liver disease research action 
                                  plan
    We depend upon the NIH to fund research that will lead to new and 
more effective interventions to treat people with liver diseases. The 
American Liver Foundation joins with the Ad Hoc Group for Biomedical 
Research and requests a funding level of $35 billion for the NIH in 
fiscal year 2011.
    We thank the subcommittee for their continued investment in NIH in 
fiscal year 2010. Sustaining progress in medical research is essential 
to the twin national priorities of smarter healthcare and economic 
revitalization. With additional investment, the nation can seize the 
unique opportunity to build on the tremendous momentum emerging from 
the strategic investment in NIH made through the 2009 American Recovery 
and Reinvestment Act (ARRA). NIH invested those funds in a range of 
potentially revolutionary new avenues of research that will lead to new 
early screenings and new treatments for disease.
    In fiscal year 2009, NIH spent approximately $651 million on liver 
disease research overall (ARRA and non-ARRA funds), and estimates that 
in fiscal year 2010 $635 million will be spent. This includes research 
for viral hepatitis, liver cancer, and a host of other liver diseases. 
An additional $235 million (12 percent increase) for the National 
Institute of Diabetes and Digestive and Kidney Diseases, the Institute 
with lead on liver disease research, could make transformational 
advances in research leading to better treatments for people with liver 
disease. The ALF recommends that in fiscal year 2011 the National 
Institute of Diabetes and Digestive and Kidney Diseases be funded at 
$2,192,247,000 and that overall NIH funding total $35 billion.
    Mr. Chairman, in December of 2004, the NIDDK released the Liver 
Disease Research Action Plan outlining major research goals for the 
various aspects of liver disease. Working with the leading scientific 
experts in the field, the plan is organized into 16 chapters and 
identifies numerous areas of research important to virtually every 
aspect of liver disease, including: improving the success rate of 
therapy of hepatitis C; developing noninvasive ways to measure liver 
fibrosis; developing sensitive and specific means of screening 
individuals at high risk for early hepatocellular carcinoma; developing 
standardized and objective diagnostic criteria for major liver diseases 
and their grading and staging; and decreasing the mortality rate from 
liver disease. Each year, the plan is reviewed and updated. The ALF 
urges the Committee to provide adequate funding and policy guidance to 
NIH to urge continued implementation of the plan.
                   cdc's division of viral hepatitis
    The Division of Viral Hepatitis (DVH) is included in the National 
Center for HIV/AIDS, Viral Hepatitis, STD, and TB Prevention at the 
CDC, and is responsible for the prevention and control of viral 
hepatitis, a disease which impacts more than 6 million Americans and 
often leads to liver cancer and liver failure. The DVH provides the 
scientific and programmatic foundation for the prevention, control and 
elimination of hepatitis virus infections in the United States and also 
assists the international public health community in these activities. 
DVH works with State and local health departments to provide the 
guidance and technical expertise needed to integrate hepatitis 
prevention services such as hepatitis A and B vaccine, hepatitis B and 
C counseling, and testing and referral to existing public health 
programs serving individuals at high risk.
    DVH is currently funded at $19.3 million, $6 million less than its 
funding level in fiscal year 2003, which does not allow for the 
provision of core prevention services. The ALF joins the hepatitis 
community and urges a fiscal year 2011 funding level for the Division 
of Viral Hepatitis of $50 million.
              increasing the supply of organs for donation
    As the subcommittee knows, even with advances in the use of living 
liver donors, the increase in the demand for livers needed for 
transplantation will continue to exceed the number available. The need 
to increase the rate of organ donation is critical. On April 9, 2010 
there were 106,917 men, women and children on the national 
transplantation waiting list. Last year an average of 80 patients were 
transplanted each day; however a daily average of 18 patients died 
because the organ they needed did not become available in time to save 
them. The shortage of organs for donation can be positively impacted by 
healthcare professionals, particularly physicians, nurse, and physician 
assistants that are frequently the first to identify and refer a 
potential donor. These professionals also have an established 
relationship with the family members that weigh the option to donate 
their loved one's organs. In order to improve the knowledge and skills 
of the several key health professions, ALF requests funding to develop 
curriculum and continuing medical education programs for targeted 
health professions. To launch a new five year effort to improve the 
competency of health professionals to help meet the goal of increasing 
the number or organs available for transplantation $450,000 is 
requested for the United Network for Organ Sharing (UNOS) to be made 
available from within the Division of Health Professions set aside 
authority for technical assistance.
                         summary and conclusion
    Mr. Chairman, again we wish to thank the subcommittee for its past 
leadership. Significant progress has been made in developing better 
treatments and cures for the diseases that affects mankind due to your 
leadership and the leadership of your colleagues on this subcommittee. 
Significant progress has also similarly been made in the fight against 
liver disease. For fiscal year 2011 we recommend a 12 percent, increase 
for NIH above the level of the fiscal year 2010 funding levels, with 
the level of liver disease research also increased by at least 12 
percent. We also urge a $50 million for the CDC's Division of Viral 
Hepatitis to strengthen the public health response to hepatitis and 
liver disease and a $2 million increase to HRSA's Division of 
Transplantation, as well as $450,000 for the Division of Health 
Professions to increase the rate of organ donation. Mr. Chairman, if 
this country is to maintain its leadership role in health maintenance, 
disease prevention, and the curing of diseases, adequate funding for 
NIH, CDC and HRSA is paramount. The ALF appreciates the opportunity to 
provide testimony to you on behalf of our constituents and yours.
            alf recommendations for fiscal year 2010 funding
    NIH and the Liver Disease Research Action Plan: $35 billion for NIH 
overall and 12 percent increase for the National Institute of Diabetes 
and Digestive and Kidney Diseases; and +$25 million to implement the 
Liver Research Action Plan.
    CDC: National Hepatitis C Prevention Strategy, Public Health 
Information, HAV & HBV Vaccinations: Fund the CDC's Division of Viral 
Hepatitis at $50 million to strengthen the public health response to 
chronic viral hepatitis.
    HRSA: Expanding the supply or organs: +$450,000 for an organ 
donation curriculum development initiative at HRSA's Division of Health 
Professions.
                                 ______
                                 
         Letter From the American Mosquito Control Association
                                                    April 12, 2010.
Hon. Tom Harkin,
Chairman, Labor, Health and Human Services, Education, and Related 
        Agencies Subcommittee, Washington, DC.
    Dear Chairman Harkin: On behalf of the American Mosquito Control 
Association, I am writing to ask your assistance in maintaining $26.7 
million in funding for controlling vector-borne diseases including West 
Nile Virus (WNV) under the fiscal year 2011 Labor, Health and Human 
Services, and Education, and Related Agencies appropriations bill.
    The American Mosquito Control Association represents an 
international association of individuals and organizations interested 
in mosquito and other vector control. Our mission is to provide 
leadership, information, and education leading to the enhancement of 
public health and quality of life through the suppression of mosquitoes 
and other vectors.
    Since 1999, there have been more than 29,000 documented cases of 
WNV in the United States.
    Almost 12,000 of those cases have involved West Nile Neuroinvasive 
Disease, the most severe form. It is estimated that 1.65 million people 
in the United States have been infected with and 1,122 people have died 
from WNV since 1999. It is believed that WNV will continue to 
intermittently produce local or regional epidemics resulting in 
thousands of human cases.
    Since 2000, appropriated funds have been provided to the Centers 
for Disease Control and Prevention for distribution to States to assist 
them in developing and sustaining public health infrastructure to 
reduce risk of WNV. These funds are used for surveillance and 
monitoring of mosquito populations and the presence of WNV, for virus 
testing, and for applied research. Many State public health agencies 
and State, county, or municipal mosquito control programs depend upon 
these funds to contend with WNV, and have also utilized this support to 
develop capacity to deal with exotic diseases transmitted by insects 
that may be introduced into the country.
    However, the President's budget recommendation for fiscal year 2011 
eliminates all of the current $26.7 million of this funding. Given the 
virulence of WNV, coupled with the fiscal strain already put on States 
due to various economic factors, we respectfully request that the 
Labor, Health and Human Services, and Education, and Related Agencies 
Appropriations Subcommittee resist elimination of any of this funding 
for fiscal year 2011. Any savings provided by eliminating this 
essential funding will be insignificant compared to the losses suffered 
if the mosquito vector populations that spread WNV are not adequately 
suppressed.
    Thank you for your consideration of this urgent public health 
matter.
            Sincerely,
                                               David Brown,
                                                          Chairman.
                                 ______
                                 
  Prepared Statement of the Association of Maternal and Child Health 
                                Programs
    Chairman Harkin and distinguished subcommittee members: I am 
grateful for this opportunity to submit written testimony on behalf of 
the Association of Maternal and Child Health Programs (AMCHP), our 
members, and the millions of women and children that are served by the 
Title V Maternal and Child Health Services Block Grant. My name is Dr. 
Phyllis Sloyer and I am the current President of AMCHP, as well a 
Division Director at the Florida Department of Health. I am asking the 
subcommittee to support an increase in funding for the Title V Maternal 
and Child Health Services Block Grant to $730 million for Federal 
fiscal year 2011.
    To help illustrate the importance of Title V MCH Block Grant 
funding, I want to begin by sharing the story of a girl from Iowa who 
was helped by title V-supported services:
  --Cora is a girl who was born 34 weeks prematurely. She was first 
        seen at a Child Health Specialty Clinic when she was only 3 
        weeks of age. While at the clinic, she was diagnosed with 
        plagiocephaly--sometimes referred to a ``flat head syndrome.'' 
        This problem occurs when a portion of an infant's skull becomes 
        flattened due to pressure from outside forces and is not 
        uncommon in premature infants. Workers at the clinic provided 
        the new family with vital information on the disorder and what 
        to expect. Cora was able to be seen by a pediatrician via 
        telemedicine and was able to obtain a referral to see 
        specialists in the treatment of plagiocephal. Cora is now 20 
        months old and likes to go to the local park and ride the 
        merry-go-round. This same clinic that helped Cora and her 
        family is supported by the Title V MCH Block Grant and would 
        not be able to remain open without the funds and support that 
        title V funds offer. It is a great thing that families can come 
        to a clinic close to their home, or be seen using health 
        technology and be provided a complete physical, neurological, 
        developmental evaluation for their kids.
    This is just one example of the literally thousands of children, 
children with special healthcare needs and pregnant women that are 
served by Title V MCH Block Grant programs in Chairman Harkin's State 
alone. The Title V MCH Block Grant supports a similar network in my 
home State of Florida, and none of this could happen without Title V 
MCH Block Grant funding.
    Health reform was a great step forward in advancing the health of 
women and children but America still faces huge challenges in improving 
maternal and child health outcomes and addressing the needs of very 
vulnerable children.
    Reductions in maternal and infant mortality have stalled in recent 
years and rates of preterm and low birth weight births have increased 
over the last decade. Today the United States ranks 30th in infant 
mortality rates and 41st in maternal mortality when compared to other 
nations. Every 18 minutes a baby in America dies before his or her 
first birthday. Each day in America we lose 12 babies due to a Sudden 
Unexpected Infant Death. There are places in this country where the 
African-American infant mortality rate is double, and in some places 
even triple, the rate for whites. Preventable injuries remain the 
leading cause of death for all children, the United States still fails 
to adequately screen all young children for developmental concerns and 
childhood obesity has reached epidemic proportions, threatening to 
reverse a century of progress in extending life expectancy.
    Health reform will increase coverage and work to improve access to 
healthcare and services for millions of Americans and Title V MCH Block 
Grant programs have the expertise to assure that women's and children's 
specific needs are addressed as programs are implemented. MCH is 
uniquely positioned to support and strengthen health reform by:
  --Ensuring that improvements in health, not just healthcare, are 
        realized through health reform. Coverage and access to medical 
        care have only a limited impact on overall population health. 
        Within the maternal and child health community, many States are 
        seeing that early access to quality prenatal care services is 
        no longer adequate to assure healthy birth outcomes for high-
        risk women. Despite expanded access to healthcare for pregnant 
        women, the infant mortality rate in America has not improved 
        significantly in the past decade. Programs funded by the Title 
        V MCH Block Grant can help assure statewide implementation of 
        primary prevention strategies including public information and 
        education efforts targeted to populations at risk. Title V MCH 
        Block Grant can help guide implementation of systems of 
        comprehensive secondary prevention services (including newborn 
        screening and counseling; regionalized systems of perinatal and 
        neo-natal high-risk services; high-risk tracking and follow-up 
        services; early intervention services; and infectious disease 
        control).
  --Offering leadership and support for outreach, enrollment, and 
        access to family-centered care. All children will now have 
        health insurance coverage and Title V MCH Block Grant programs 
        can help reach out to those children and their families to help 
        them access the healthcare system. Since the 1990's Title V MCH 
        leaders have been instrumental in supporting the Bright Futures 
        initiative that sets a standard of care for kids and children 
        with special healthcare needs. In health reform, co-pays for 
        these preventive care and screening guidelines were eliminated, 
        showing that Congress recognizes the importance of this 
        national health promotion and Maternal and child health 
        programs at the State level will support and promote The Bright 
        Futures guidelines by offering training to children's health 
        professionals. Many already insured individuals report they do 
        not have a usual source of care. Only 50 percent of Children 
        with Special Health Care Needs report that they receive 
        comprehensive care within the context of a medical home and 
        less than 20 percent of youth with special needs are able to 
        find an adult healthcare provider who can appropriately care 
        for them. Those with special needs often need additional 
        services and care coordination not typically covered by health 
        insurance.
  --Assessing the health status of women and children by conducting 
        data collection, surveillance, and monitoring activities 
        related to MCH population health measurement and outcomes. 
        Title V MCH Block Grant programs regularly collect and report 
        on public health measures, vital statistics, and personal 
        health services data and use this information to inform state 
        and local program planning.
    Without increased funding, Title V MCH Block Grant Programs will be 
overwhelmed by this work if they are not provided the resources they 
need. AMCHP asks for your leadership in providing States the funding 
they need by increasing the Title V MCH Block Grant to $730 million for 
fiscal year 2011. We have a track record of demonstrating that we make 
a positive difference and are fully accountable for the funds that we 
receive. Increasing the funding to the Title V MCH Block Grant is an 
effective and efficient way to invest in our Nation's women, children, 
and families.
    The Office of Management and Budget found that Title V MCH Block 
Grant-funded programs deliver results and decrease the infant mortality 
rate, prevent disabling conditions, increase the number of children 
immunized, increase access to care for uninsured children, and improve 
the overall health of mothers and children. Close coordination with 
other health programs assures that funding is maximized and services 
are not duplicated.
    Our results are available to the public through a national website 
known as the Title V Information System. Such a system is remarkably 
rare for a Federal program and we are proud of the progress we have 
made.
    However, despite the increasing demand for maternal and child 
health services, reductions to the Title V MCH Block Grant threaten the 
ability of programs to carry out their vital work. As States continue 
to face increasing economic hardship, more women and children will seek 
services through Title V MCH Block Grant funded programs. Due to years 
of reduced investment, the Title V MCH Block Grant is at its lowest 
funding level since 1993, $662 million, meaning States again are being 
asked to continue to serve additional people with less.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Crucial MCH activities are also supported by title V under the 
Special Projects of Regional and National Significance (SPRANS) 
program, including MCH research, training, hemophilia diagnostic and 
treatment centers, and MCH improvement projects that develop and 
support a broad range of strategies. The SPRANS investment drives 
innovation for MCH programs and is an important part of the Title V MCH 
Block Grant.
    Mr. Chairman and distinguished members, in closing I ask you to 
imagine with me an America in which every child in the United States 
has the opportunity to live until his or her first birthday; a Nation 
where our Federal and State partnership has effectively moved the 
needle on our most pressing maternal and child health issues. Imagine a 
day when we are celebrating significant reductions or even the total 
elimination of health disparities by creatively solving our most urgent 
maternal and child health challenges. The Title V MCH Block Grant aims 
to do just that--using resources effectively to improve the health of 
all of America's women and children. Investing in the Title V MCH Block 
Grant is a cost-effective investment in our Nation's future, and we 
again appreciate your leadership to fund it at to $730 million for 
Federal fiscal year 2011. Thank you.
                                 ______
                                 
 Prepared Statement of the Association of Minority Health Professions 
                                Schools
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. Leo Rouse, 
Chairman of the Association of Minority Health Professions Schools 
(AMHPS) and the dean of the college of dentistry at Howard University. 
AMHPS, established in 1976, is a consortium of our Nation's 12 
historically black medical, dental, pharmacy, and veterinary schools. 
The members are two dental schools at Howard University and Meharry 
Medical College; four schools of medicine at The Charles Drew 
University, Howard University, Meharry Medical College, and Morehouse 
School of Medicine; five schools of pharmacy at Florida A&M University, 
Hampton University, Howard University, Texas Southern University, and 
Xavier University; and one school of veterinary medicine at Tuskegee 
University. In all of these roles, I have seen firsthand the importance 
of minority health professions institutions and the Title VII Health 
Professions Training programs.
    Mr. Chairman, time and time again, you have encouraged your 
colleagues and the rest of us to take a look at our Nation and evaluate 
our needs over the next 10 years. I want to say that minority health 
professional institutions and the Title VII Health Professionals 
Training programs address a critical national need. Persistent and 
severe staffing shortages exist in a number of the health professions, 
and chronic shortages exist for all of the health professions in our 
Nation's most medically underserved communities. Furthermore, even 
after the landmark passage of health reform, it is important to note 
that our Nation's health professions workforce does not accurately 
reflect the racial composition of our population. For example while 
blacks represent approximately 15 percent of the U.S. population, only 
2-3 percent of the Nation's health professions workforce is black. Mr. 
Chairman, I would like to share with you how your subcommittee can help 
AMHPS continue our efforts to help provide quality health professionals 
and close our Nation's health disparity gap.
    There is a well-established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than nonminority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas; (2) provide care 
for minorities; and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    In fiscal year 2011, funding for the Title VII Health Professions 
Training programs must be restored to the fiscal year 2005 level of at 
least $300 million, with two programs--the Minority Centers of 
Excellence (COEs) and Health Careers Opportunity Program (HCOPs)--in 
particular need of further funding restoration. In addition, the 
National Institutes of Health (NIH)'s National Institute on Minority 
Health and Health Disparities (NIMHD), as well as the Department of 
Health and Human Services (HHS)'s Office of Minority Health (OMH), are 
both in need of a funding increase.
    Minority Centers of Excellence (COE).--COEs focus on improving 
student recruitment and performance, improving curricula in cultural 
competence, facilitating research on minority health issues and 
training students to provide health services to minority individuals. 
COEs were first established in recognition of the contribution made by 
four historically black health professions institutions to the training 
of minorities in the health professions. Congress later went on to 
authorize the establishment of ``Hispanic'', ``Native American'' and 
``Other'' Historically black COEs. For fiscal year 2011, I recommend a 
funding level of $33.6 million for COEs.
    Health Careers Opportunity Program (HCOP).--HCOPs provide grants 
for minority and nonminority health profession institutions to support 
pipeline, preparatory, and recruiting activities that encourage 
minority and economically disadvantaged students to pursue careers in 
the health professions. Many HCOPs partner with colleges, high schools, 
and even elementary schools in order to identify and nurture promising 
students who demonstrate that they have the talent and potential to 
become a health professional. For fiscal year 2011, I recommend a 
funding level of $35.6 million for HCOPs.
National Institutes of Health (NIH): Extramural Facilities Construction
    Mr. Chairman, if we are to take full advantage of the recent 
funding increases for biomedical research that Congress has provided to 
NIH over the past decade, it is critical that our Nation's research 
infrastructure remain strong. The current authorization level for the 
Extramural Facility Construction program at the National Center for 
Research Resources is $250 million. The law also includes a 25 percent 
set-aside for ``Institutions of Emerging Excellence'' (many of which 
are minority institutions) for funding up to $50 million. Finally, the 
law allows the NCRR Director to waive the matching requirement for 
institutions participating in the program. We strongly support all of 
these provisions of the authorizing legislation because they are 
necessary for our minority health professions training schools. In 
fiscal year 2011, please provide a funding appropriation of $50 million 
for extramural facilities.
    Research Centers in Minority Institutions.--The Research Centers at 
Minority Institutions program (RCMI) at the National Center for 
Research Resources has a long and distinguished record of helping our 
institutions develop the research infrastructure necessary to be 
leaders in the area of health disparities research. Although NIH has 
received unprecedented budget increases in recent years, funding for 
the RCMI program has not increased by the same rate. Therefore, the 
funding for this important program grow at the same rate as NIH overall 
in fiscal year 2011.
    Strengthening Historically Black Graduate Institutions--Department 
of Education.--The Department of Education's Strengthening Historically 
Black Graduate Institutions program (title III, part B, section 326) is 
extremely important to AMHPS. The funding from this program is used to 
enhance educational capabilities, establish and strengthen program 
development offices, initiate endowment campaigns, and support numerous 
other institutional development activities. In fiscal year 2011, an 
appropriation of $75 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.
    National Center on Minority Health and Health Disparities 
(NCMHD).--NCMHD is charged with addressing the longstanding health 
status gap between minority and nonminority populations. The NCMHD 
helps health professional institutions to narrow the health status gap 
by improving research capabilities through the continued development of 
faculty, labs, and other learning resources. The NCMHD also supports 
biomedical research focused on eliminating health disparities and 
develops a comprehensive plan for research on minority health at the 
NIH. Furthermore, the NCMHD provides financial support to health 
professions institutions that have a history and mission of serving 
minority and medically underserved communities through the Minority 
Centers of Excellence program. For fiscal year 2011, I recommend a 
funding level of $500 million for the NCMHD.
    Department of Health and Human Services' Office of Minority Health 
(OMH).--Specific programs at OMH include: assisting medically 
underserved communities with the greatest need in solving health 
disparities and attracting and retaining health professionals; 
assisting minority institutions in acquiring real property to expand 
their campuses and increase their capacity to train minorities for 
medical careers; supporting conferences for high school and 
undergraduate students to interest them in health careers, and 
supporting cooperative agreements with minority institutions for the 
purpose of strengthening their capacity to train more minorities in the 
health professions.
    The OMH has the potential to play a critical role in addressing 
health disparities. For fiscal year 2011, I recommend a funding level 
of $75 million for the OMH.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
AMHPS's member institutions and the Title VII Health Professions 
Training programs can help this country to overcome health disparities. 
Congress must be careful not to eliminate, paralyze or stifle the 
institutions and programs that have been proven to work. The 
Association seeks to close the ever widening health disparity gap. If 
this subcommittee will give us the tools, we will continue to work 
towards the goal of eliminating that disparity everyday.
    Thank you, Mr. Chairman, and I welcome every opportunity to answer 
questions for your records.
                                 ______
                                 
         Prepared Statement of the American Nurses Association
    The American Nurses Association (ANA) appreciates this opportunity 
to comment on fiscal year 2011 appropriations for nursing education, 
workforce development, and research programs. Founded in 1896, ANA is 
the only full-service professional association representing the 
interests of the Nation's 3.1 million registered nurses (RNs) through 
its constituent member nurses associations, its organizational 
affiliates, and its workforce advocacy affiliate, the Center for 
American Nurses. The ANA advances the nursing profession by fostering 
high standards of nursing practice, promoting the rights of nurses in 
the workplace, projecting a positive and realistic view of nursing, and 
by lobbying the Congress and regulatory agencies on healthcare issues 
affecting nurses and the public.
    The ANA gratefully acknowledges this subcommittee's history of 
support for nursing education and research. We also appreciate your 
continued recognition of the important role nurses play in the delivery 
of quality healthcare services. This testimony will provide an update 
on the status of the nursing shortage, its impact on the Nation, and 
the outlook for the future.
The Nursing Shortage Today
    The nursing shortage is far from solved. Here are a few quick 
facts:
  --The Bureau of Labor Statistics reports that registered nursing will 
        have remarkable job growth in the time period spanning 2006-
        2016. During this time decade, the healthcare system will 
        require more than 1 million new nurses.
  --The Health Resources and Services Administration (HRSA) projects 
        that the supply of nurses in America will fall 26 percent (more 
        than 1 million nurses) below requirements by the year 2020. In 
        year 2020, Wisconsin's demand for full-time RNs will outstrip 
        the supply by 20 percent (a shortage of 10,200 RNs). New York's 
        shortage will reach 39 percent (54,200 RNs) and Ohio will have 
        a 30 percent shortage (34,000 RNs). California's demand will 
        outstrip its supply by 45 percent (116,600 RNs).
    This growing nursing shortage is having a detrimental impact on the 
entire healthcare system. Numerous studies have shown that nursing 
shortages contribute to medical errors, poor patient outcomes, and 
increased mortality rates. A study published in the January/February 
2006 issue of Health Affairs showed that hospitals could avoid 6,700 
deaths per year by increasing the amount of RN care provided to their 
patients. This study, ``Nurse Staffing in Hospitals: Is There a 
Business Case for Quality?'' by Jack Needleman, Peter Buerhaus, et al. 
also revealed that hospitals are currently providing 4 million days 
worth of inpatient care annually to treat avoidable patient 
complications associated with a shortage of RN care.
    Research published in the October 23, 2002 Journal of the American 
Medical Association also demonstrated that more nurses at the bedside 
could save thousands of patient lives each year. In reviewing more than 
232,000 surgical patients at 168 hospitals, researchers from the 
University of Pennsylvania concluded that a patient's overall risk of 
death rose roughly 7 percent for each additional patient above four 
added to a nurse's workload.
Nursing Workforce Development Programs
    Federal support for the Nursing Workforce Development Programs 
contained in title VIII of the Public Health Service Act is 
unduplicated and essential. The 107th Congress recognized the 
detrimental impact of the developing nursing shortage and passed the 
Nurse Reinvestment Act (Public Law 107-205). This law improved the 
title VIII Nursing Workforce Development programs to meet the unique 
characteristics of today's shortage. This achievement holds the promise 
of recruiting new nurses into the profession, promoting career 
advancement within nursing, and improving patient care delivery. 
However, this promise cannot be met without a significant investment. 
ANA strongly urges Congress to increase funding for title VIII programs 
by at least $23 million (10 percent increase) to a total of $267.3 
million in fiscal year 2011.
    Current funding levels are clearly failing to meet the need. In 
fiscal year 2008 (most recent year statistics are available), HRSA was 
forced to turn away 92.8 percent of the eligible applicants for the 
Nurse Education Loan Repayment Program (NELRP), and 53 percent of the 
eligible applicants for the Nursing Scholarship Program (NSP) due to a 
lack of adequate funding. These programs are used to direct RNs into 
areas with the greatest need--including departments of public health, 
community health centers, and disproportionate share hospitals.
    In 1973, Congress appropriated $160.61 million to title VIII 
programs. Inflated to today's dollars, this appropriation would equal 
$763.52 million, more than three times the fiscal year 2010 
appropriation. Certainly, today's shortage is more dire and systemic 
than that of the 1970's; it deserves an equivalent response.
    Title VIII includes the following program areas:
    NELRP and Scholarships.--This line item is comprised of the NELRP 
and the NSP. In fiscal year 2010, the NELRP s received $93.8 million.
    The NELRP repays up to 85 percent of a RN's student loans in return 
for full-time practice in a facility with a critical nursing shortage. 
The NELRP nurse is required to work for at least 2 years in a 
designated facility, during which time the NELRP repays 60 percent of 
the RN's student loan balance. If the nurse applies and is accepted for 
an optional third year, an additional 25 percent of the loan is repaid.
    The NELRP boasts a proven track record of delivering nurses to 
facilities hardest hit by the nursing shortage. HRSA has given NELRP 
funding preference to RNs who work in departments of public health, 
disproportionate share hospitals, skilled nursing facilities, and 
federally designated health centers. However, lack of funding has 
hindered the full implementation of this program. In fiscal year 2008, 
92.8 percent of applicants willing to immediately begin practicing in 
facilities hardest hit by the shortage were turned away from this 
program due to lack of funding.
    The NSP offers funds to nursing students who, upon graduation, 
agree to work for at least 2 years in a healthcare facility with a 
critical shortage of nurses. Preference is given to students with the 
greatest financial need. Like the NELRP, the NSP has been stunted by a 
lack of funding. In fiscal year 2008, HRSA received 3,039 applications 
for the NSP. Due to lack of funding, a mere 177 scholarships were 
awarded. Therefore, 2,862 nursing students (94 percent) willing to work 
in facilities with a critical shortage were denied access to this 
program.
    Nurse Faculty Loan Program.--This program establishes a loan 
repayment fund within schools of nursing to increase the number of 
qualified nurse faculty. Nurses may use these funds to pursue a 
master's or doctoral degree. They must agree to teach at a school of 
nursing in exchange for cancellation of up to 85 percent of their 
educational loans, plus interest, over a 4-year period. In fiscal year 
2010, this program received $25 million.
    This program is vital given the critical shortage of nursing 
faculty. America's schools of nursing cannot increase their capacity 
without an influx of new teaching staff. Last year, schools of nursing 
were forced to turn away tens of thousands of qualified applicants due 
largely to the lack of faculty. In fiscal year 2008, HRSA funded 95 
faculty loans.
    Nurse Education, Practice, and Retention Grants.--This section is 
comprised of many programs designed to support entry-level nursing 
education and to enhance nursing practice. The education grants are 
designed to expand enrollments in baccalaureate nursing programs; 
develop internship and residency programs to enhance mentoring and 
specialty training; and provide new technologies in education including 
distance learning. All together, the Nurse Education, Practice, and 
Retention Grants supported 42,761 nurses and nursing students in fiscal 
year 2008. The program received $39.8 million in fiscal year 2010.
    Retention grant areas include career ladders and improved patient 
care delivery systems. The career ladders program supports education 
programs that assist individuals in obtaining the educational 
foundation required to enter the profession, and to promote career 
advancement within nursing. Enhancing patient care delivery system 
grants are designed to improve the nursing work environment. These 
grants help facilities to enhance collaboration and communication among 
nurses and other healthcare professionals, and to promote nurse 
involvement in the organizational and clinical decisionmaking processes 
of a healthcare facility. These best practices for nurse administration 
have been identified by the American Nurse Credentialing Center's 
Magnet Recognition Program. These practices have been shown to double 
nurse retention rates, increase nurse satisfaction, and improve patient 
care.
    Nursing Workforce Diversity.--This program provides funds to 
enhance diversity in nursing education and practice. It supports 
projects to increase nursing education opportunities for individuals 
from disadvantaged backgrounds--including racial and ethnic minorities, 
as well as individuals who are economically disadvantaged. In fiscal 
year 2008, 85 applications were received for workforce diversity 
grants, 51 were funded. In fiscal year 2010, these programs received 
$16 million.
    Advanced Nurse Education.--Advanced practice registered nurses 
(APRNs) are nurses who have attained advanced expertise in the clinical 
management of health conditions. Typically, an APRN holds a master's 
degree with advanced didactic and clinical preparation beyond that of 
the RN. Most have practice experience as RNs prior to entering graduate 
school. Practice areas include, but are not limited to: anesthesiology, 
family medicine, gerontology, pediatrics, psychiatry, midwifery, 
neonatology, and women's and adult health. Title VIII grants have 
supported the development of virtually all initial State and regional 
outreach models using distance learning methodologies to provide 
advanced study opportunities for nurses in rural and remote areas. In 
fiscal year 2008, 5,649 advanced education nurses were supported 
through these programs. In fiscal year 2010, these programs received 
$64.4 million.
    These grants also provide traineeships for master's and doctoral 
students. Title VIII funds more than 60 percent of U.S. nurse 
practitioner education programs and assists 83 percent of nurse 
midwifery programs. More than 45 percent of the nurse anesthesia 
graduates supported by this program go on to practice in medically 
underserved communities. A study published last year in the Journal of 
Rural Health showed that 80 percent of the nurse practitioners who 
attended a program supported by title VIII chose to work in a medically 
underserved or health profession shortage area after graduation.
    Comprehensive Geriatric Education Grants.--This authority awards 
grants to train and educate nurses in providing healthcare to the 
elderly. Funds are used to train individuals who provide direct care 
for the elderly, to develop and disseminate geriatric nursing 
curriculum, to train faculty members in geriatrics, and to provide 
continuing education to nurses who provide geriatric care. In fiscal 
year 2008, 6,514 nurses and nursing students were supported through 
these programs. In fiscal year 2010, these grants received $4.5 
million.
    The growing number of elderly Americans and the impending 
healthcare needs of the baby boom generation make this program 
critically important.
Conclusion
    While ANA appreciates the continued support of this subcommittee, 
we are concerned that title VIII funding levels have not been 
sufficient to address the growing nursing shortage. In preparation for 
the implementation of healthcare reform initiatives, which ANA 
supported, we believe there will be an even greater need for nurses and 
adequate funding for these programs is even more essential. ANA asks 
you to meet today's shortage with a relatively modest investment of 
$267.3 million in title VIII programs. Thank you.
                                 ______
                                 
         Prepared Statement of the American National Red Cross
    Chairman Tom Harkin, Ranking Member Thad Cochran, and members of 
the subcommittee, the American Red Cross and the United Nations 
Foundation appreciate the opportunity to submit testimony in support of 
measles control activities of the U.S. Centers for Disease Control and 
Prevention (CDC). The American Red Cross and the United Nations 
Foundation recognize the leadership that Congress has shown in funding 
CDC for these essential activities. We sincerely hope that Congress 
will continue to support the CDC during this critical period in measles 
control.
    In 2001, CDC--along with the American Red Cross, the United Nations 
Foundation, the World Health Organization, and UNICEF--founded the 
Measles Initiative, a partnership committed to reducing measles deaths 
globally. The current U.N. goal is to reduce measles deaths by 90 
percent by 2010 compared to 2000 estimates. The Measles Initiative is 
committed to reaching this goal by proving technical and financial 
support to governments and communities worldwide.
    The Measles Initiative has achieved ``spectacular'' \1\ results by 
supporting the vaccination of more than 700 million children. Largely 
due to the Measles Initiative, global measles mortality dropped 78 
percent, from an estimated 733,000 deaths in 2000 to 164,000 in 2008. 
During this same period, measles deaths in Africa fell by 92 percent, 
from 371,000 to 28,000.
---------------------------------------------------------------------------
    \1\ The Lancet, Volume 8, page 13 (January 2008).
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Working closely with host governments, the Measles Initiative has 
been the main international supporter of mass measles immunization 
campaigns since 2001. The Initiative mobilized more than $720 million 
and provided technical support in more than 60 developing countries on 
vaccination campaigns, surveillance and improving routine immunization 
services. From 2000 to 2008, an estimated 4.3 million measles deaths 
were averted as a result of these accelerated measles control 
activities at a donor cost of $184/death averted, making measles 
mortality reduction one of the most cost-effective public health 
interventions.
    Nearly all the measles vaccination campaigns have been able to 
reach more than 90 percent of their target populations. Countries 
recognize the opportunity that measles vaccination campaigns provide in 
accessing mothers and young children, and ``integrating'' the campaigns 
with other life-saving health interventions has become the norm. In 
addition to measles vaccine, Vitamin A (crucial for preventing 
blindness in under nourished children), de-worming medicine (reduces 
malnutrition), and insecticide-treated bed nets (ITNs) for malaria 
prevention are distributed during vaccination campaigns. The scale of 
these distributions is immense. For example, more than 40 million ITNs 
were distributed in vaccination campaigns in the last few years. The 
delivery of multiple child health interventions during a single 
campaign is far less expensive than delivering the interventions 
separately, and this strategy increases the potential positive impact 
on children's health from a single campaign.
    By the end of 2008 all WHO regions, with the exception of one 
(South East Asia), achieved the 2010 goal 2 years ahead of target. The 
extraordinary reduction in global measles deaths contributed an 
estimated 25 percent of the progress to date toward Millennium 
Development Goal #4 (reducing under 5 child mortality). However, at the 
height of global achievements in measles control, a sharp decline in 
commitments threatens to erase the gains of the last decade and a 
global measles resurgence is likely. If mass immunization campaigns are 
not continued, an estimated 1.7 million measles-related deaths could 
occur between 2010-13, with more than half a million deaths in 2013 
alone.
    To achieve the 2010 goal and avoid a resurgence of measles the 
following actions are required:
  --Accelerating activities, both campaigns and further efforts to 
        improve routine measles coverage, in India since it is the 
        greatest contributor to the global burden of measles.
  --Sustaining the gains in reduced measles deaths, especially in 
        Africa, by strengthening immunization programs to ensure that 
        more than 90 percent of infants are vaccinated against measles 
        through routine health services before their first birthday as 
        well as conducting timely, high-quality mass immunization 
        campaigns.
  --Securing sufficient funding for measles-control activities both 
        globally and nationally. The Measles Initiative faces a funding 
        shortfall of an estimated $47 million for 2011. Implementation 
        of timely measles campaigns is increasingly dependent upon 
        countries funding these activities locally. The decrease in 
        donor funds available at global level to support measles 
        elimination activities makes increased political commitment and 
        country ownership of the activities critical for achieving and 
        sustaining the goal of reducing measles mortality by 90 
        percent.
    If these challenges are not addressed, the remarkable gains made 
since 2000 will be lost and a major resurgence in measles deaths will 
occur.
    By controlling measles cases in other countries, U.S. children are 
also being protected from the disease. Measles can cause severe 
complications and death. A resurgence of measles occurred in the United 
States between 1989 and 1991, with more than 55,000 cases reported. 
This resurgence was particularly severe, accounting for more than 
11,000 hospitalizations and 123 deaths. Since then, measles control 
measures in the United States have been strengthened and endemic 
transmission of measles cases have been eliminated here since 2000. 
However, importations of measles cases into this country continue to 
occur each year. In 2008, several measles outbreaks in the United 
States, all linked to importation of the virus from overseas, led to 
the largest number of U.S. measles cases since 1996. These cases 
resulted in dozens of hospitalizations and the costs of response to the 
outbreaks were substantial, both in terms of the costs to public health 
departments and in terms of productivity losses among people with 
measles, parents of sick children, and people exposed to measles cases.
The Role of CDC in Global Measles Mortality Reduction
    Since fiscal year 2001, Congress has provided approximately $43.6 
million annually in funding to CDC for global measles control 
activities. These funds were used toward the purchase of approximately 
415 million doses of measles vaccine for use in large-scale measles 
vaccination campaigns in more than 60 countries in Africa and Asia, and 
for the provision of technical support to Ministries of Health in those 
countries. Specifically, this technical support includes:
  --Planning, monitoring, and evaluating large-scale measles 
        vaccination campaigns;
  --Conducting epidemiological investigations and laboratory 
        surveillance of measles outbreaks; and
  --Conducting operations research to guide cost-effective and high-
        quality measles control programs.
    In addition, CDC epidemiologists and public health specialists have 
worked closely with WHO, UNICEF, the United Nations Foundation, and the 
American Red Cross to strengthen measles control programs at global and 
regional levels. While it is not possible to precisely quantify the 
impact of CDC's financial and technical support to the Measles 
Initiative, there is no doubt that CDC's support--made possible by the 
funding appropriated by Congress--was essential in helping achieve the 
sharp reduction in measles deaths in just 8 years.
    The American Red Cross and the United Nations Foundation would like 
to acknowledge the leadership and work provided by CDC and recognize 
that CDC brings much more to the table than just financial resources. 
The Measles Initiative is fortunate in having a partner that provides 
critical personnel and technical support for vaccination campaigns and 
in response to disease outbreaks. CDC personnel have routinely 
demonstrated their ability to work well with other organizations and 
provide solutions to complex problems that help critical work get done 
faster and more efficiently.
    In fiscal year 2010, Congress has appropriated approximately $51.9 
million to fund CDC for global measles control activities. The American 
Red Cross and the United Nations Foundation thank Congress for the 
increase in financial support from past years. We respectfully request 
level funding for fiscal year 2011 for CDC's measles control activities 
to prevent a global resurgence of measles and a loss of progress toward 
Millennium Development Goal #4.
    Your commitment has brought us unprecedented victories in reducing 
measles mortality around the world. In addition, your continued support 
for this initiative helps prevent children from suffering from this 
preventable disease both abroad and in the United States.
    Thank you for the opportunity to submit testimony.
                                 ______
                                 
      Prepared Statement of Americans for Nursing Shortage Relief
    The undersigned organizations of the ANSR Alliance greatly 
appreciate the opportunity to submit written testimony regarding fiscal 
year 2011 appropriations for Title VIII--Nursing Workforce Development 
Programs. We represent a diverse cross-section of healthcare and other 
related organizations, healthcare providers, and supporters of nursing 
issues that have united to address the national nursing shortage. ANSR 
stands ready to work with the Congress to advance programs and policy 
that will ensure that our Nation has a sufficient and adequately 
prepared nursing workforce to provide quality care to all well into the 
21st century. The Alliance, therefore, urges Congress to:
  --Appropriate $267.3 million in funding in fiscal year 2011 for the 
        Nursing Workforce Development Programs under title VIII of the 
        Public Health Service Act at the Health Resources and Services 
        Administration (HRSA).
  --Direct the requested increase at the title VIII programs that have 
        not kept pace with inflation since fiscal year 2005: Advanced 
        Education Nursing, Nursing Workforce Diversity, Nurse 
        Education, Practice and Retention, and Comprehensive Geriatric 
        Education. These programs, which help expand nursing school 
        capacity and increase patient access to care, would greatly 
        benefit from the 10 percent increase awarded in proportion to 
        their fiscal year 2010 funding levels.
The Extent of the Nursing Shortage
    Nursing is the largest healthcare profession in the United States. 
According to the National Council of State Boards of Nursing, there 
were nearly 3.733 million licensed RNs in 2008.\1\ Nurses and advanced 
practice nurses (nurse practitioners, nurse midwives, clinical nurse 
specialists, and certified registered nurse anesthetists) work in a 
variety of settings, including primary care, public health, long-term 
care, surgical care facilities, and hospitals. In 2008, 60 percent of 
RN jobs were in hospitals.\2\ About 8 percent of RN jobs were in 
physician offices, 5 percent in home healthcare services, 5 percent in 
nursing care facilities, and 3 percent in employment services. The 
remainder worked mostly in government agencies, social assistance 
agencies, and education services. A Federal report published in 2004 
estimates that by 2020 the national nurse shortage will increase to 
more than one million full-time nurse positions. According to these 
projections, which are based on the current rate of nurses entering the 
profession, only 64 percent of projected demand will be met.\3\ A 
study, published in March 2008, uses different assumptions to calculate 
an adjusted projected demand of 500,000 full-time equivalent registered 
nurses by 2025.\4\ According to the U.S. Bureau of Labor Statistics, 
employment of registered nurses is expected to grow by 22 percent from 
2008 to 2018, much faster than the average for all occupations and, 
because the occupation is very large, 581,500 new jobs will result. 
Based on these scenarios, the shortage presents an extremely serious 
challenge in the delivery of high-quality, cost-effective services, as 
the Nation looks to reform the current healthcare system. Even 
considering only the smaller projection of vacancies, this shortage 
still results in a critical gap in nursing service, essentially three 
times the 2001 nursing shortage.
---------------------------------------------------------------------------
    \1\ National Council of State Boards of Nursing, (2010). 2008 Nurse 
Licensee Volume and NCLEX Examination Statistics. (Research Brief Vol. 
42). On the Internet at: https://www.ncsbn.org/
10_2008NCLEXExamStats_Vol42_web_links.pdf (Accessed March 15, 2010).
    \2\ Bureau of Labor Statistics, U.S. Department of Labor. 
Occupational Outlook Handbook, 2010-11 Edition, Registered Nurses. On 
the Internet at: http://www.bls.gov/oco/ocos083.htm (Accessed February 
26, 2010).
    \3\ Health Resources and Services Administration, (2004). What is 
Behind HRSA's Projected Supply, Demand, and Shortage of Registered 
Nurses? On the Internet at: http://bhpr.hrsa.gov/healthworkforce/
reports/behindrnprojections/4.htm. (Accessed February 26, 2010).
    \4\ Buerhaus, P., Staiger, D., Auerbach, D. (2008). The Future of 
the Nursing Workforce in the United States: Data, Trends, and 
Implications. Boston, MA: Jones & Bartlett.
---------------------------------------------------------------------------
Building the Capacity of Nursing Education Programs
    Nursing vacancies exist throughout the entire healthcare system, 
including long-term care, home care and public health. Even the 
Department of Veterans Affairs, the largest sole employer of RNs in the 
United States, has a nursing vacancy rate of 10 percent. In 2006, the 
American Hospital Association reported that hospitals needed 116,000 
more RNs to fill immediate vacancies, and that this 8.1 percent vacancy 
rate affects hospitals' ability to provide patient/client care.\5\ 
Government estimates indicate that this situation only promises to 
worsen due to an insufficient supply of individuals matriculating in 
nursing schools, an aging existing workforce, and the inadequate 
availability of nursing faculty to educate and train the next 
generation of nurses. At the exact same time that the nursing shortage 
is expected to worsen, the baby boom generation is aging and the number 
of individuals with serious, life-threatening, and chronic conditions 
requiring nursing care will increase. Consequently, more must be done 
now by the government to help ensure an adequate nursing workforce for 
the patients/clients of today and tomorrow.
---------------------------------------------------------------------------
    \5\ American Hospital Association, (2007). The State of America's 
Hospitals: Taking the Pulse, Findings from the 2007 AHA Survey of 
Hospital Leader. On the Internet at: http://www.aha.org/aha/content/
2007/PowerPoint/StateofHospitalsChartPack2007.ppt. (Accessed December 
3, 2008).
---------------------------------------------------------------------------
    A particular focus on securing and retaining adequate numbers of 
faculty is essential to ensure that all individuals interested in--and 
qualified for--nursing school can matriculate in the year they are 
accepted. The National League for Nursing found that in the 2007-2008 
academic year, 119,000 qualified applications--or 39 percent of all 
qualified applications submitted to nursing education programs--were 
denied due to lack of capacity. Baccalaureate degree programs turned 
away 24 percent of its applications, while associate degree programs 
turned away 42 percent.\6\ Aside from having a limited number of 
faculty, nursing programs struggle to provide space for clinical 
laboratories and to secure a sufficient number of clinical training 
sites at healthcare facilities.
---------------------------------------------------------------------------
    \6\ National League for Nursing, (2010). Nursing Data Review 2007-
2008: Baccalaureate, Associate Degree, and Diploma Programs. On the 
Internet at: http://www.nln.org/research/slides/index.htm. (Accessed 
February 26, 2010).
---------------------------------------------------------------------------
    The Alliance supports the need for sustained attention on the 
efficacy and performance of existing and proposed programs to improve 
nursing practices and strengthen the nursing workforce. The support of 
research and evaluation studies that test models of nursing practice 
and workforce development is integral to advancing healthcare for all 
in America. Investments in research and evaluation studies have a 
direct effect on the caliber of nursing care. Our collective goal of 
improving the quality of patient/client care, reducing costs, and 
efficiently delivering appropriate healthcare to those in need is 
served best by aggressive nursing research and performance and impact 
evaluation at the program level.
The Impact on the Nation's Public Health Infrastructure
    The National Center for Health Workforce Analysis reports that the 
nursing shortage challenges the healthcare sector to meet current 
service needs. Nurses make a difference in the lives of patients/
clients from disease prevention and management to education to 
responding to emergencies. Chronic diseases, such as heart disease, 
stroke, cancer, and diabetes, are the most preventable of all health 
problems as well as the most costly. Nearly half of Americans suffer 
from one or more chronic conditions and chronic disease accounts for 70 
percent of all deaths. In addition, increased rates of obesity and 
chronic disease are the primary cause of disability and diminished 
quality of life.
    Even though America spends more than $2 trillion annually on 
healthcare--more than any other nation in the world--tens of millions 
of Americans suffer every day from preventable diseases such as type 2 
diabetes, heart disease, and some forms of cancer that rob them of 
their health and quality of life.\7\ In addition, major vulnerabilities 
remain in our emergency preparedness to respond to natural, 
technological and manmade hazards. An October 2008 report issued by 
Trust for America's Health entitled ``Blueprint for a Healthier 
America'' found that the health and safety of Americans depends on the 
next generation of professionals in public health.\8\ Further, existing 
efforts to recruit and retain the public health workforce are 
insufficient. New policies and incentives must be created to make 
public service careers in public health an attractive professional 
path, especially for the emerging workforce and those changing careers.
---------------------------------------------------------------------------
    \7\ KaiserEDU.org. ``U.S. Health Care Costs: Background Brief.'' 
Kaiser Family Foundation. On the Internet at: <http://
www.kaiseredu.org/topics_im.asp?imID=1&parentID=61&id=358> (Accessed 
November 24, 2008).
    \8\ Trust for America's Health. (2008). Blueprint for a Healthier 
America: Modernizing the Federal Public Health System to Focus on 
Prevention and Preparedness. On the Internet at: http://
healthyamericans.org/report/55/blueprint-for-healthier-america 
(Accessed December 3, 2008).
---------------------------------------------------------------------------
    An Institute of Medicine report notes that nursing shortages in 
U.S. hospitals continue to disrupt hospitals operations and are 
detrimental to patient/client care and safety.\9\ Hospitals and other 
healthcare facilities across the country are vulnerable to mass 
casualty incidents themselves and/or in emergency and disaster 
preparedness situations. As in the public health sector, a mass 
casualty incident occurs because of an event where sudden and high 
patient/client volume exceeds the facilities/sites resources. Such 
events may include the more commonly realized multi-car pile-ups, train 
crashes, hazardous material exposure in a building or within a 
community, high occupancy catastrophic fires, or the extraordinary 
events such as pandemics, weather-related disasters, and intentional 
catastrophic acts of violence. Since 80 percent of disaster victims 
present at the emergency department, nurses as first receivers are an 
important aspect of the public health system as well as the healthcare 
system in general. The nursing shortage has a significant adverse 
impact on the ability of communities to respond to health emergencies, 
including natural, technological and manmade hazards.
---------------------------------------------------------------------------
    \9\ Institute of Medicine. Committee on the Future of Emergency 
Care in the United States Health System. (2007) Hospital-Based 
Emergency Care: At the Breaking Point. On the Internet at: http://
www.iom.edu/?id=48896. (Accessed December 3, 2008).
---------------------------------------------------------------------------
Summary
    The link between healthcare and our Nation's economic security and 
global competitiveness is undeniable. Having a sufficient nursing 
workforce to meet the demands of a highly diverse and aging population 
is an essential component to reforming the healthcare system as well as 
improving the health status of the nation and reducing healthcare 
costs. To mitigate the immediate effect of the nursing shortage and to 
address all of these policy areas, ANSR requests $267.3 million in 
funding for the Nursing Workforce Development Programs under Title VIII 
of the Public Health Service Act at HRSA in fiscal year 2011. The 
requested increase should be directed at the Title VIII programs that 
have not kept pace with inflation since fiscal year 2005: Advanced 
Education Nursing, Nursing Workforce Diversity, Nurse Education, 
Practice and Retention, and Comprehensive Geriatric Education. These 
programs, which help expand nursing school capacity and increase 
patient access to care, would greatly benefit from the 10 percent 
increase awarded in proportion to their fiscal year 2010 funding 
levels.
                       undersigned organizations
    Academy of Medical-Surgical Nurses
    American Academy of Ambulatory Care Nursing
    American Academy of Nurse Practitioners
    American Academy of Nursing
    American Association of Critical-Care Nurses
    American Association of Nurse Anesthetists
    American Association of Nurse Assessment Coordinators
    American Association of Nurse Executives
    American Association of Occupational Health Nurses
    American College of Nurse Practitioners
    American Organization of Nurse Executives
    American Psychiatric Nurses Association
    American Society for Pain Management Nursing
    American Society of PeriAnesthesia Nurses
    American Society of Plastic Surgical Nurses
    Association for Radiologic & Imaging Nursing
    Association of Pediatric Hematology/Oncology Nurses
    Association of periOperative Registered Nurses
    Association of Rehabilitation Nurses
    Association of State and Territorial Directors of Nursing
    Association of Women's Health, Obstetric & Neonatal Nurses
    Citizen Advocacy Center
    Developmental Disabilities Nurses Association
    Emergency Nurses Association
    Gerontological Advanced Practice Nurses Association
    Infusion Nurses Society
    International Society of Nurses in Genetics, Inc.
    Legislative Coalition of Virginia Nurses
    National Association of Clinical Nurse Specialists
    National Association of Hispanic Nurses
    National Association of Neonatal Nurses
    National Association of Neonatal Nurse Practitioners
    National Association of Nurse Massage Therapists
    National Association of Nurse Practitioners in Women's Health
    National Association of Orthopaedic Nurses
    National Association of Pediatric Nurse Practitioners
    National Association of Registered Nurse First Assistants
    National Black Nurses Association
    National Council of State Boards of Nursing
    National Council of Women's Organizations
    National Gerontological Nursing Association
    National League for Nursing
    National Nursing Centers Consortium
    National Nursing Staff Development Organization
    National Organization for Associate Degree Nursing
    National Organization of Nurse Practitioner Faculties
    National Student Nurses' Association, Inc.
    Nurses Organization of Veterans Affairs
    Pediatric Endocrinology Nursing Society
    RN First Assistants Policy & Advocacy Coalition
    Society of Gastroenterology Nurses and Associates, Inc.
    Society of Pediatric Nurses
    Society of Trauma Nurses
    Women's Research & Education Institute
    Wound, Ostomy and Continence Nurses Society
                                 ______
                                 
      Prepared Statement of the Association of Organ Procurement 
                             Organizations
    The Association of Organ Procurement Organizations (AOPO) supports 
additional funding for the Division of Transplantation. AOPO is the 
nonprofit, national organization that represents the Nation's 58 
federally designated organ donation agencies through advocacy, support, 
and program development that will maximize the availability of organs 
and tissues. AOPO seeks to enhance the quality, effectiveness, and 
integrity of the donation process. The Division of Transplantation's 
mission is to provide oversight and guidance to the donation and 
transplantation regulations and processes in the United States, and, in 
that role, it enhances the efforts of AOPO and other organizations 
working to increase the number of lives saved through transplantation, 
research, education and therapy.
    The timeliness of this funding request is particularly urgent. 
Organ donation saves lives. Since transplantation is standard therapy 
for end-stage organ failure, donation is a vital component of end-of-
life care in the United States. There are almost 107,000 people waiting 
for a transplant in the United States, 18 of whom will die today while 
waiting for the gift of life. That equates to approximately one person 
dying every 90 minutes, an entirely preventable public health crisis.
    In 2005, the Office of Management and Budget (OMB) set a Federal 
goal to increase the number of organs donated annually by deceased 
individuals in the United States to 35,000 by 2012. In 2009, more than 
24,000 organs were donated. As one of the catalysts in the donation 
process, organ procurement organizations (OPOs) must coordinate with 
all stakeholders to reach this Federal goal. OPOs provide community 
education and programs to medical professionals to help them 
participate and support the donation process in every hospital in the 
United States. The hospital turns to the OPO for support and expertise 
when a donation situation presents itself. By law, OPOs must meet 
strict Federal performance standards and operate within a regulated 
system under the Department of Health and Human Services.
    Increasing organ availability in the United States can be achieved 
through several simultaneous strategies: enrolling all willing donors 
in donor registries; improving how donation from deceased donors is 
handled in U.S. hospitals; and by encouraging and protecting those who 
wish to donate organs while they are still alive.
    Organ donation from deceased donors remains the most important 
source of increasing organ availability. Today, donation occurs in 
approximately 68 percent of eligible cases. This is up from 50 percent 
in 2003. OPOs now recover more than 3 organs per deceased individual. 
More increases can be achieved if the government and organ donation and 
transplantation professionals act on the changing nature of the organ 
donor pool. The increases in the incidence of obesity, diabetes and 
hypertension that affect the general public affect organ donors as 
well. It takes more resources to evaluate medically complex donation 
cases and it takes longer for recipients to recover from 
transplantation when these organs are received. Outdated Federal 
regulations fail to account for this new donation and transplantation 
reality, and do not go far enough to safeguard the potential supply of 
organs and tissues from possible unintended consequences. Performance 
outcome measures for transplant hospitals and OPOs must be risk-
adjusted to account for the use of these donors with potentially 
compromising medical conditions. OPOs are already reimbursed on a cost-
basis. Any reduction in payment would cause recovery costs to fall 
below the actual costs of procuring organs. Increased funding is 
critical to ensure that organ and tissue recovery does not decrease as 
a result of inadvertent consequences. New healthcare reform measures 
should not affect reimbursement policies by penalizing hospitals for 
potentially longer inpatient stays to manage transplant recipients with 
challenged donor organs because transplanting these organs is the 
optimal outcome for these patients.
    Current OPO success measures are based on organs transplanted per 
donor and categorized by the type of donor. Preliminary work shows 
promise with a more objective and replicable evaluation system for 
OPOs. With additional funding, new tools can be developed that 
strengthen performance-based metrics and expand organ donation 
potential. To accomplish these goals, it is necessary for HHS officials 
and representatives of HRSA and CMS to partner with the donation and 
transplantation community to create a regulatory and reimbursement 
environment that fosters achievement of national performance goals.
    The President's fiscal year 2011 budget allocates $4 million for 
Breakthrough Collaboratives on Organ Donation and Transplantation, 
initiatives that encourage teams of organ procurement, transplantation 
and critical care professionals to improve the organ donation and 
transplantation process in their local areas. OPOs must have the 
ability to identify, recruit, train, and financially support the 
involvement of critical care professionals (e.g., physicians, nurses, 
respiratory therapists) in local, regional, and national efforts to 
optimize donor organ function prior to donation. Best practices are 
shared for replication on a local level. More funding can and should be 
provided to ensure that healthcare professionals are properly trained 
to partner with OPO professionals to lead the donation process in their 
hospitals. We recommend that funding for the Collaboratives be 
increased from $4 million to $6 million to strengthen this national 
learning program.
    The extra $2 million appropriated to the Division of 
Transplantation in fiscal year 2010 was allocated to the OPTN (Organ 
Procurement and Transplantation Network) to develop strategies to 
increase living donation and establish a greater number of paired 
kidney programs. Although living donation is one way to increase the 
supply of scarce resources, and the $2 million will make a positive 
impact, our country currently lacks the infrastructure to take full 
advantage of this donation option. Barriers to living donation remain. 
For example, there is no national living donor registry. Even more 
concerning, insurance companies can include living donation as a 
preexisting condition. Legislation to include prohibiting living organ 
donation as a preexisting condition for health insurance exclusions was 
introduced more than a year ago in both the House (H.R. 1558) and 
Senate (S. 623). Last June, a bill was introduced that would amend the 
Family and Medical Leave Act of 1993 to allow non-Federal employees up 
to 12 weeks of unpaid, job-protected leave in a 12-month period to 
provide living donation. Other methods to encourage living donation, 
such as the Living Organ Donor Tax Credit Act of 2009 (H.R. 218), have 
been proposed to allow incentives to encourage organ donation. Though 
this bill is stalled, it would allow a nonrefundable tax credit of up 
to $5,000 for unreimbursed costs and lost wages related to living 
donation. No action has been taken on any of these bills. Until this is 
done, it could be unwise to encourage more organ donation from living 
individuals.
    OPOs and other agencies, such as Donate Life America, have tried to 
counterbalance the rising waiting list numbers by increasing the number 
of Americans who are registered organ and tissue donors. At the end of 
2009, donor registrants in state registries topped 86.3 million. Donate 
Life America has just released a survey in early 2010 showing that 57 
percent of U.S. adults support organ donation, a 7 percent increase 
from a 2009 survey. While 57 percent of Americans would sign up, only 
37.1 percent have actually done so, indicating many do not know how to 
do so.
    Representative Clay from Missouri proposed a bill (H.R. 3071) which 
authorized successful grants for the development, enhancement, 
expansion, and evaluation of State organ and tissue donor registries to 
aid in this effort to expand the donor pool. In addition, AOPO has 
worked with States to strengthen donor designation laws through efforts 
such as a nationwide effort to pass the revised Uniform Anatomical Gift 
Act (UAGA) in every State, and through a proposed resolution to the 
National Association of Attorneys General (NAAG). Donor registries have 
proven successful, but to close this gap, funding for public and 
professional education programs focused on increasing donor 
registrations should be extended from $3.749 million to $6.2 million.
    Almost 107,000 people in the United States are waiting for 
lifesaving organ transplants, and every 11 minutes another name is 
added to the transplant waiting list. A million more suffer from 
conditions that could be successfully treated with donated corneas or 
tissue. The current system is not keeping pace with the critical 
shortage of vital organs in this country. Through additional funding 
for research, training and outreach, many more lives will be saved and 
improved.
    The Division of Transplantation represents less than 0.35 percent 
of HRSA's discretionary budget authority, but adequate funding to help 
reach the HRSA national performance goals could amount to millions of 
dollars in savings to the Medicare program as a result of patients 
being freed from the requirement of long-term dialysis. These are the 
additional increases to the fiscal year 2011 budget supported by AOPO:
  --Additional funding for the Division of Transplantation should be 
        granted. In order to reach Federal goals, the pool of potential 
        donors must be widened. OPOs are looking at numerous ways to 
        increase organ donation. Some programs are taking advantage of 
        extended criteria donors, while others are mastering other 
        donation options such as donation after cardiac determination 
        of death. In order to fully and safely explore these and other 
        avenues to increase donation, funding for these and other 
        programs must be specified. OPOs operate under strict 
        governmental guidelines, which limit the amount of research and 
        development OPOs can perform.
  --Studies about the effect of potential healthcare reform measures 
        should be conducted to guarantee organ recovery is not 
        negatively impacted. We recommend that the $500,000 to conduct 
        a study to define organ donor potential in the United States be 
        increased to $2 million.
  --HRSA has not altered the types of organ donation grants in several 
        years. We recommend that funding for new grant projects to 
        increase organ donation be given $10.2 million, up from $7.2 
        million requested.
                                 ______
                                 
      Prepared Statement of the American Psychological Association
    The American Psychological Association (APA), in Washington, DC, is 
the largest scientific and professional organization representing 
psychology in the United States, including more than 150,000 
researchers, educators, clinicians, consultants, and students. APA 
works to advance psychology as a science, as a profession and as a 
means of promoting health, education and human welfare. Below are APA's 
recommendations for the funding of programs in the Departments of 
Health and Human Services, and Education for fiscal year 2011.
    APA supports the recommendations of the Ad Hoc Group for Medical 
Research Funding of $35 billion for the National Institutes of Health, 
and of the Coalition for Health Funding which supports an increase of 
$9.3 billion for all the agencies of the U.S. Public Health Service. 
The public health system requires additional support after years of 
underinvestment. We are concerned that our already fragile public 
health infrastructure lacks the capacity to support mounting health 
needs under the weight of an ongoing recession, an aging population, a 
health workforce shortage, and persisting declines in health status.
                department of health and human services
    Bureau of Health Professions, Graduate Psychology Education 
Program.--The APA requests that the Subcommittee include $7 million for 
the Graduate Psychology Education Program (GPE) within the Health 
Resources & Services Administration. This nationally competitive grant 
program provides integrated healthcare services to underserved rural 
and urban communities and individuals most in need of mental and 
behavioral health support with the least access to these services 
(e.g., children, older adults, chronically ill persons, victims of 
abuse or trauma, including veterans). To date there have been 70 grants 
in 30 States to universities and hospitals throughout the Nation. All 
psychology graduate students who benefited from GPE funds are expected 
to work with underserved populations and 34-100 percent will work in 
underserved areas immediately after completing the training.
    Currently it is authorized under the Public Health Service Act 
(Public Law 105-392 section 755(b)(1)(J)) and funded under the ``Allied 
Health and Other Disciplines'' account in the Labor, Health and Human 
Services, and Education, and Related Agencies appropriations bill. 
Explicit authorizing legislation was introduced in the First Session of 
the 111th Congress in the U.S. Senate (S. 811), as well as in the U.S. 
House of Representatives (H.R. 2066). The GPE Program has been included 
in the President's Budget for the past 2 years.
    Established in 2002, GPE grants have supported the 
interdisciplinary training of more than 2,500 graduate students of 
psychology and other health professions to provide integrated 
healthcare services to underserved populations. The fiscal year 2011 
GPE funding request will focus especially on providing services to 
older adults, returning veterans, and the unemployed. The GPE funding 
request will also be used to create training opportunities at our 
Nation's Federal Qualified Health Centers, which play a critical role 
in meeting the health and mental/behavioral healthcare needs of 
underserved communities all across the country.
    The GPE Program specifically seeks to address the needs of older 
adults. Approximately 20 percent of older adults have a mental health 
condition, such as depression, anxiety, alcohol, or substance abuse. In 
addition, studies show that substance abuse combined with depression 
makes older adults especially vulnerable to suicide (Retooling for an 
Aging America, IOM, 2008). Moreover, older adults with chronic 
illnesses such as heart disease have higher rates of depression than 
those who are physically healthy (APA, 2008). Rural areas have a 
greater percentage of older adults than urban areas, and older adults 
in rural communities have a higher incidence of chronic illnesses such 
as heart disease, diabetes, high blood pressure, and obesity than those 
in urban communities (Alliance for Health Reform, RWJ Foundation, 
January 2010).
    Because of their extensive education and training, psychologists 
are uniquely qualified to address the needs of unemployed persons 
(e.g., assessing skills and interests for retraining; determining the 
emotional status of the individual; treating mental and behavioral 
health issues; and providing guidance for job searches, interviewing 
strategies and techniques). The issue of joblessness and unemployment 
is a serious problem for many families, including those of returning 
veterans. Job loss due to multiple deployments has become a serious 
issue for this population, especially in the current economy.
    Center for Mental Health Services, Minority Fellowship Program.--
MFP's mission is to increase the number of minority mental health 
professionals and by training mental health professionals to become 
culturally competent. APA urges Congress to fund Minority Fellowship 
Program at $7.5 million for fiscal year 2011. APA does not recommend 
that SAMHSA include additional organizations in the program if it would 
mean reductions in funding for current grantees.
    Center for Substance Abuse Prevention, Substance Use and Mental 
Disorders of Persons with HIV.--HIV-positive individuals who have co-
occurring mental health and substance use disorders rarely receive 
``integrated'' care with a treatment plan for all three disorders. APA 
recommends that Congress urge HRSA and SAMHSA to collaborate to expand 
the availability of the integrated care model. An integrated approach 
to HIV/AIDS care, mental health support and substance abuse treatment 
can improve patient adherence and lead to more favorable health 
outcomes for people living with HIV/AIDS.
    Emergency Mental Health and Traumatic Stress Services Branch, Child 
Trauma.--APA urges full funding for the National Child Traumatic Stress 
Initiative at the authorized level of $50 million for fiscal year 2011. 
Also, APA recommends the Committee to encourage SAMHSA to expand the 
duration of NCTSI grant awards from 3 years to 6 years.
    Centers for Disease Control and Prevention, National Center for 
Health Statistics, Sexual and Gender Identity Inclusion in Health Data 
Collection.--APA recommends the allocation of an additional $2 million 
in funding for NHIS in the NCHS budget, to cover the cost of adding a 
sexual orientation/gender identity question to the survey. This would 
enable government agencies to better understand and plan for the unique 
health needs of lesbian, gay, bisexual, and transgender individuals.
    CDC, National Center for Injury Prevention and Control, Youth 
Violence Prevention.--APA supports CDC's efforts to foster innovation 
in evidence-based youth violence prevention strategies through its 
Striving to Reduce Youth Violence Everywhere program. Recent, high-
profile incidents have highlighted youth violence as a significant 
public health concern and homicide as the second leading cause of death 
among individuals age 10-24.
    Community Health Centers (CHCs), Child Maltreatment Prevention.--
APA recommends the implementation of at least 10 demonstration projects 
of evidence-based preventative parenting programs through CHCs. 
Technical assistance to demonstration sites should be provided by 
organizations with expertise in parent-child relationships, parenting 
programs, prevention of child maltreatment, and the integration of 
behavioral health in primary and community health center settings. APA 
recommends evaluating the demonstration projects' implementation and 
outcomes. APA also supports education, recruitment, and training of 
mental health and primary care providers to implement culturally 
informed preventative programs that enhance parenting practices and 
screenings at the centers.
    Administration for Children and Families, Healthy Media for 
Youth.--Research links sexualization with three of the most common 
mental health problems of female children, adolescents, and adults: 
eating disorders, depression or depressed mood, and low self-esteem. 
APA encourages HHS to fund media literacy and youth empowerment 
programs to prevent and counter the effects of the sexualization of 
female children, adolescents, and adults.
    Strengthening Families.--APA encourages ACF to continue its support 
of research programs that aim to strengthen families with economic 
hardship using empirically supported skills-based approaches. These 
projects aim to teach proven family strengthening skills and principles 
such as relationship education, stress management, and child-centered 
parenting to promote healthy inter-parental relationships that lead to 
healthy, well-functioning children.
    National Institutes of Health (NIH), behavioral research.--
Understanding the complex influences of behavior on health is a 
critical part of NIH's mission. There is strong evidence that half of 
all deaths in the United States can be attributed to behavioral factors 
such as smoking, poor diet, substance abuse, and physical inactivity. 
In addition, behavioral and social factors contribute to the staggering 
costs of preventable morbidity and mortality. NIH-supported behavioral 
and social sciences research ranges from basic research on memory, 
learning and perception, to prevention research, to clinical trials and 
comparative effectiveness research.
    NIH, Office of Behavioral and Social Sciences Research.--OBSSR was 
authorized by Congress in the NIH Revitalization Act of 1993 and 
established in 1995. For fiscal year 2011, APA supports a budget of 
$41.32 million for OBSSR to fulfill its coordinating role, commensurate 
with the administration's request of $38.2 million for the Office and 
the scientific community's request for the NIH as a whole.
    NIH, Office of Behavioral and Social Sciences Research, Basic 
Behavioral and Social Sciences Research.--APA is pleased that NIH has 
established a initiative to increase and coordinate trans-NIH support 
for basic behavioral and social sciences research. Coordinated by OBSSR 
with leadership and contributions from multiple NIH institutes, the 
Opportunity Network for Basic Behavioral and Social Sciences Research 
(OppNet), will fund basic research to help fill gaps in knowledge about 
fundamental mechanisms and patterns of behavioral and social 
functioning, relevant to health and well-being, as they interact with 
each other, with biology and the environment.
    NIH, National Institute on Minority Health and Health Disparities, 
Health Disparities.--The recent healthcare reform legislation elevated 
the National Center on Minority Health and Health Disparities within 
NIH, giving it greater authority to address the health disparities that 
exist in minority communities. APA recommends that Congress provide 
sufficient funding for NIMHD to carry out its mandated functions, and 
urges Congress to support NIMHD in its enhanced role to address 
priority health conditions of minority populations.
    NIH, Behavioral Research Highlights.--The following areas of NIH-
supported research are good examples of the breadth and vitality of the 
behavioral research portfolio at NIH:
    NIH Roadmap, Science of Behavior Change.--By focusing basic 
research on the initiation, personalization, and maintenance of 
behavior change, and by integrating work across disciplines, this 
Roadmap effort and subsequent trans-NIH activity could lead to an 
improved understanding of the underlying principles of behavior change, 
and drive a transformative increase in the efficacy, effectiveness, and 
(cost) efficiency of many behavioral interventions.
    NIMH, Children's Mental Health.--Early diagnosis, prevention and 
treatment is critical for the millions of families affected by autism, 
attention deficit hyperactivity disorder, anxiety disorders, 
depression, bipolar disorder, and eating disorders. NIMH is supporting 
important clinical trials to demonstrate the evidence base for 
effective pharmacological and behavioral interventions treatments for 
child and adolescent populations with these disorders.
    NIDA, Tobacco Addiction.--While significant declines in smoking 
have been achieved in recent decades, too many Americans, particularly 
youth, remain addicted to tobacco products. NIDA-supported researchers 
are identifying genetic and environmental factors that contribute to 
nicotine dependence and affect the efficacy of smoking cessation 
treatments.
                        department of education
    National Institute on Disability and Rehabilitation Research: 
Disability Research.--APA recommends that NIDRR pursue mental health-
related research proposals through its investigator-initiated and other 
grants programs, including sponsoring studies that will demonstrate the 
impact of socio-emotional, behavioral and attitudinal aspects of 
disability. APA encourages initiatives that support a broad field of 
NIDRR research, including Health and Functioning, Community Integration 
and Employment which will address societal barriers, such as 
stigmatization and discrimination, and their impact on people with 
physical, mental and neurological disabilities.
                                 ______
                                 
 Prepared Statement of the Association for Professionals in Infection 
                        Control and Epidemiology
    The Association for Professionals in Infection Control and 
Epidemiology (APIC) thanks you for this opportunity to submit testimony 
and greatly appreciates this subcommittee's leadership in providing the 
necessary funding for the Federal Government to have a leadership role 
in the effort to eliminate healthcare-associated infections (HAIs).
    APIC's mission is to improve health and patient safety by reducing 
the risk of healthcare-associated infections and related adverse 
outcomes. The organization's more than 13,000 members, known as 
infection preventionists, direct infection prevention programs that 
save lives and improve the bottom line for hospitals and other 
healthcare facilities throughout the United States and around the 
globe. Our association strives to promote a culture within healthcare 
institutions where all members of the healthcare team fully embrace the 
elimination of HAIs. We advance these efforts through education, 
research, collaboration, practice guidance, public policy, and 
credentialing.
    HAIs are among the leading causes of preventable death in the 
United States, accounting for an estimated 1.7 million infections and 
99,000 associated deaths in 2002. In addition to the substantial human 
suffering caused by HAIs, these infections contribute $28 billion to 
$33 billion in excess healthcare costs each year.
    We are greatly appreciative of funding provided in the fiscal year 
2010 Consolidated Appropriations Act to resource HAI reduction efforts. 
In particular, we support the $5 million appropriation for the HHS 
Office of the Secretary to coordinate and integrate HAI-related 
activities across the Department, $136 million for the Centers for 
Disease Control and Prevention's (CDC) emerging infectious diseases 
portfolio for expanded surveillance, public health research and 
prevention activities, $15 million to expand the CDC National 
Healthcare Safety Network (NHSN) and finally, $34 million for the 
Agency for Healthcare Research and Quality's (AHRQ) MRSA Collaborative 
Research Initiative and for implementing evidence-based HAI prevention 
training nationwide.
    In fiscal year 2011, we ask that you support the CDC Coalition's 
$8.8 billion for CDC's ``core programs.'' CDC serves as the command 
center for our Nation's public health defense system against emerging 
and reemerging infectious diseases. From pandemic flu preparedness and 
prevention activities to West Nile virus to smallpox to SARS, the 
Centers for Disease Control and Prevention is the Nation's--and the 
world's--expert resource and response center, coordinating 
communications and action and serving as the laboratory reference 
center. APIC members rely on CDC for accurate information and direction 
in a crisis or outbreak. We ask that you provide $2.3 billion for the 
CDC's Infectious Diseases programs.
    Because our members are on the front line in healthcare facilities, 
bringing their expertise in infection prevention to the patient's 
bedside, there are so many areas within the CDC budget that we could 
highlight. Allow us to outline some of the areas of greatest concern to 
our membership. We support the administration's fiscal year 2011 
request for $27 million to expand NHSN to approximately 2,500 new 
hospitals. Currently, 21 States require hospitals to report HAIs using 
NHSN. However, CDC supports more than 2,300 participating hospitals in 
NHSN in all 50 States. This surveillance system plays an important role 
in improving patient safety at the local and Federal levels. NHSN's 
data analysis function helps our members analyze facility-specific data 
and compare rates to national aggregate metrics. It also allows CDC to 
estimate and characterize the current burden of HAIs in the United 
States. Every step taken to create interoperable data systems in which 
our members can input HAI data and have it go directly to NHSN is a 
step toward freeing our members to do more hands-on infection 
prevention activities.
    We also appreciate the administration's proposal of $155.9 million 
for emerging infectious diseases in fiscal year 2011 and ask that you 
increase funding for this purpose to $200 million to allow CDC to work 
with partners at the State and local level to detect and respond to 
this important public health threat.
    In addition, we support the $10 million budget request for the new 
Health Prevention Corps. We appreciate the importance of targeting 
disciplines with existing shortages with a workforce program designed 
to recruit talented new individuals for State and local health 
departments.
    APIC is concerned, that the administration's proposed budget would 
cut the Antimicrobial Resistance budget by $8.6 million, just more than 
50 percent. We agree with the agency's congressional justification that 
this is ``one of the world's most pressing public health problems'' and 
ask that you increase funding for CDC antimicrobial resistance 
activities in fiscal year 2011 to $40 million.
    In addition, we support the $34 million in the administration's 
fiscal year 2011 budget to build upon AHRQ efforts--now in all 50 
States, the District of Columbia and Puerto Rico--to reduce bloodstream 
infections in intensive care units (ICUs) through implementation of a 
safety compliance checklist and providing staff with evidence-based 
practices. We support these efforts and AHRQ's plans to reach out to 
the CDC to identify and design projects to reduce the incidence of HAIs 
in other infection sites using evidence-based practices.
    Further, APIC supports the administration's request to build upon 
American Recovery and Reinvestment Act (ARRA) efforts by supporting use 
of the HAI survey tool developed jointly by CDC and the Centers for 
Medicare and Medicaid Services (CMS) with ARRA funds. The 
administration's fiscal year 2011 request under Survey and 
Certification would increase survey frequencies at ambulatory surgery 
centers (ASCs) to every 4 years. Due to the increasing number of 
surgeries performed in outpatient settings, and the need to ensure that 
basic infection prevention practices are followed, APIC supports 
efforts to increase the use of this survey tool.
    Finally, we support the administration's $5 million request for HAI 
activities to support continued efforts of the HHS Action Plan to 
Prevent Healthcare-Associated Infections (HAI Action Plan). This 
funding will allow HHS to continue current efforts and expand upon a 
national media campaign, utilize social media tools, develop a single 
comprehensive Web site for HAI information, and evaluate the media 
campaign and original Action Plan and assess whether it is achieving 
its intended goals.
    We believe the development of the HAI Action Plan and the funding 
to support these activities has been an essential tool in the effort to 
build support for a coordinated Federal message on preventing 
infections. Additionally, we feel very strongly that the CDC has the 
necessary expertise to define appropriate metrics through which the HAI 
Action Plan can best measure its efforts.
    APIC strongly believes that to move toward our goal of HAI 
elimination, there needs to be a concerted effort to fund research into 
the knowledge gaps outlined in the HAI Action Plan, with an eye toward 
the science of implementation.
    This subcommittee has taken essential steps in using stimulus funds 
to build the necessary infrastructure within States to address HAI 
reduction. Your leadership has also put resources into improving 
surveillance efforts and scaling-up proven HAI prevention approaches. 
However, while resources have encouraged States to plan for HAI 
prevention efforts, APIC's 2009 Economic Survey of our membership 
indicates that infection prevention budgets within healthcare 
facilities have been hard hit, particularly in the area of education.
    Three-quarters of our members who reported that their budgets were 
cut in our recent survey have experienced decreases for the education 
that trains healthcare workers in preventing HAI transmission. Half saw 
reductions in overall budgets for infection prevention, including money 
for technology, staff, education, products equipment and updated 
resources. Nearly 40 percent had layoffs or reduced hours. While we 
fully support your effort to put infrastructure in place in States to 
promote HAI reduction efforts and believe that was a very wise use of 
one-time stimulus funding, we need to make clear that our membership 
would be hard-pressed to scale up HAI reduction efforts while their 
budgets are facing these kinds of decreases.
    We thank you for the opportunity to submit testimony and greatly 
appreciate this subcommittee's leadership in providing the necessary 
funding for the Federal government to have a leadership role in the 
effort to eliminate HAIs.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) is the national 
service organization representing the interests of more than 2,000 
municipal and other State and locally owned utilities throughout the 
United States (all but Hawaii). Collectively, public power utilities 
deliver electricity to 1 of every 7 electricity consumers 
(approximately 45 million people), serving some of the Nation's largest 
cities. However, the vast majority of APPA's members serve communities 
with populations of 10,000 people or less.
    We appreciate the opportunity to submit this statement supporting 
funding for the Low-Income Home Energy Production Assistance Program 
(LIHEAP) for fiscal year 2011.
    APPA has consistently supported an increase in the authorization 
level for LIHEAP. The administration's fiscal year 2011 budget requests 
$3.3 billion for LIHEAP. APPA supports a level of $5.1 billion for the 
program.
    APPA is proud of the commitment that its members have made to their 
low-income customers. Many public power systems have low-income energy 
assistance programs based on community resources and needs. Our members 
realize the importance of having in place a well-designed low-income 
customer assistance program combined with energy efficiency and 
weatherization programs in order to help consumers minimize their 
energy bills and lower their requirements for assistance. While highly 
successful, these local initiatives must be coupled with a strong 
LIHEAP program to meet the growing needs of low-income customers. In 
the last several years, volatile home-heating oil and natural gas 
prices, severe winters, high utility bills as a result of dysfunctional 
wholesale electricity markets and the effects of the economic downturn 
have all contributed to an increased reliance on LIHEAP funds.
    Also when considering LIHEAP appropriations this year, we encourage 
the subcommittee to provide advanced funding for the program so that 
shortfalls do not occur in the winter months during the transition from 
one fiscal year to another. LIHEAP is one of the outstanding examples 
of a State-operated program with minimal requirements imposed by the 
Federal Government. Advanced funding for LIHEAP is critical to enabling 
States to optimally administer the program.
    Thank you again for this opportunity to relay our support for 
increased LIHEAP funding for fiscal year 2011.
                                 ______
                                 
        Prepared Statement of the American Physiological Society
    The American Physiological Society (APS) thanks the Chairman and 
all the members of this subcommittee for their support for the National 
Institutes of Health (NIH). Research carried out by the NIH contributes 
to our understanding of health and disease, which allows all Americans 
to look forward to a healthier future. In this testimony, APS 
recommends that the NIH be funded at $37 billion in fiscal year 2011.
    APS is a professional society dedicated to fostering research and 
education as well as the dissemination of scientific knowledge 
concerning how the organs and systems of the body work. APS was founded 
in 1887 and now has nearly 10,000 member physiologists. APS members 
conduct NIH-supported research at colleges, universities, medical 
schools, and other public and private research institutions across the 
United States.
Momentum From the American Recovery and Reinvestment Act (ARRA) Should 
        be Maintained at NIH
    The inclusion of $10.4 billion for biomedical research in ARRA has 
provided the NIH with an unprecedented opportunity to move science 
forward. To date, the ARRA investment has funded more than 14,000 
scientific projects in all 50 States.\1\
---------------------------------------------------------------------------
    \1\ http://report.nih.gov/recovery/arragrants.cfm
---------------------------------------------------------------------------
    Last year the NIH moved quickly to take advantage of the 
opportunities provided by ARRA to address important areas of scientific 
need. ARRA funds are already being used to support new science in high-
priority areas such as biomarker discovery, regenerative medicine, stem 
cell research and translational science through the Challenge Grant 
program. ARRA funds are also being used to support highly meritorious 
research proposals that had gone unfunded due to years of slow growth 
in the NIH budget. In recent years, only 1 out of every 5 proposals 
submitted to the NIH received funding, leaving many important research 
questions unexplored. The ARRA funds have allowed NIH to direct funds 
to some of the most interesting and important projects that were 
unfunded for budgetary reasons. ARRA funds will also reach the next 
generation of scientists through hands-on summer research experiences 
for approximately 5,000 undergraduates and science educators.
    As a result of the ARRA investment, the NIH estimates that 50,000 
jobs nationwide will be created or retained.\2\ The widespread 
distribution of NIH ARRA funds has already had a direct economic impact 
on the research community by funding labs and projects that would 
otherwise have gone unfunded. However, State and local economies also 
stand to benefit substantially from the stimulus funds being spent by 
NIH researchers. A report by Families USA showed that on average in the 
year 2007, every $1 of NIH funding generated twice as much in State 
economic output.\3\
---------------------------------------------------------------------------
    \2\ http://report.nih.gov/PDF/
Preliminary_NIH_ARRA_FY2009_Funding.pdf
    \3\ http://www.familiesusa.org/assets/pdfs/global-health/in-your-
own-backyard.pdf
---------------------------------------------------------------------------
    In order to capitalize and build on the functional capacity created 
through the ARRA investment, we urge Congress to make every effort to 
fund the NIH at a level of $37 billion in fiscal year 2011. Funding at 
this level takes into account the additional ARRA funds that have been 
added to the NIH budget, and allows for growth at the rate of the 
biomedical research and development price index (BRDPI). This will 
maintain the momentum created by ARRA and start the NIH on a new path 
of consistent and sustainable growth in future budget cycles.
NIH Funds Outstanding Science
    As a result of improved healthcare, Americans are living longer and 
healthier lives in the 21st century than ever before. However, diseases 
such as heart failure, diabetes, cancer, and emerging infectious 
diseases continue to inflict a heavy burden on our population. The NIH 
invests heavily in basic research to explore the mechanisms and 
processes of disease. This investment results in new tools and 
knowledge that can be used to design novel treatments and prevention 
strategies. A key example comes from the recent outbreak of H1N1 flu. 
From the time that the first cases of the disease emerged, it took 
approximately 6 months to develop a vaccine, identify those most at 
risk and begin to understand how and why the H1N1 flu strain differs 
from those seen in an average year. The ability to rapidly respond to 
this and other threats to human health is directly dependent upon 
maintaining a robust scientific enterprise.
    Last year the Nobel Prize in Physiology or Medicine was awarded to 
three longtime NIH grantees. Drs. Jack Szostak, Elizabeth Blackburn and 
Carol Greider shared the 2009 prize for their discovery of how the tips 
of chromosomes are protected from degradation during cell division. 
Since the discovery of this fundamental cellular mechanism, researchers 
have been able to apply this knowledge to better understand how cells 
age and why they sometimes become cancerous. Collectively NIH has 
supported their research for more than 30 years.\4\ Three other NIH 
grantees won the Nobel Prize in Chemistry in 2009. Drs. Venkatraman 
Ramakrishnan, Thomas A. Steitz and Ada E. Yonath identified the 
structure of the ribosome, the molecular machinery that makes proteins 
in cells. NIH has supported these researchers in their work for nearly 
four decades.\5\
---------------------------------------------------------------------------
    \4\ http://www.nigms.nih.gov/News/Results/nobel20091005.htm
    \5\ http://www.nigms.nih.gov/News/Results/nobel_20091007a.htm
---------------------------------------------------------------------------
NIH Nurtures the Biomedical Research Enterprise
    In addition to supporting research, the NIH must also address 
workforce issues to ensure that our Nation's researchers are ready to 
meet the challenges they will face in the future. The administration's 
fiscal year 2011 budget proposal includes funding for a 6 percent 
increase in stipend levels for National Research Service Awards. The 
APS applauds this proposed increase and calls on Congress to make every 
effort to fully fund the request.
    New investigators entering the scientific workforce have frequently 
encountered long training periods before gaining independence and 
funding for their own research labs. In fiscal year 2007, the average 
age of new investigators receiving their first awards from NIH rose to 
42 years. To address this problem and foster the next generation of 
scientists, the NIH has committed to funding new investigators at 
approximately the same rate as established investigators.\6\ This will 
allow investigators to become independent and able to explore 
innovative ideas at an earlier stage of their careers. However, efforts 
will be successful only if funds are available to continue to support 
the careers of new and young investigators beyond the period of their 
first grant.
---------------------------------------------------------------------------
    \6\ http://grants.nih.gov/grants/new_investigators/index.htm
---------------------------------------------------------------------------
    The NIH is also home to the Institutional Development Award (IDeA) 
Program. Established in 1993, the goal of the IDeA program is to 
broaden the geographic distribution of NIH funds by serving researchers 
and institutions in areas that have not historically received 
significant NIH funding. IDeA builds research capacity and improves 
competitiveness in those States through the development of shared 
resources, infrastructure and expertise. IDeA currently serves 
institutions and investigators in 23 States and Puerto Rico.
    The APS joins the Federation of American Societies for Experimental 
Biology in urging that NIH be provided with $37 billion in fiscal year 
2011 so that researchers can build on the momentum and capacity created 
through the ARRA investment.
                                 ______
                                 
    Prepared Statement of the Association for Psychological Science
                       summary of recommendations
    As a member of the Ad Hoc Group for Medical Research Funding, 
Association for Psychological Science (APS) recommends $35 billion for 
the National Institutes of Health (NIH) in fiscal year 2011.
    APS requests subcommittee support for behavioral and social science 
research and training as a core priority at NIH in order to: better 
meet the Nation's health needs, many of which are behavioral in nature; 
realize the exciting scientific opportunities in behavioral and social 
science research; and accommodate the changing nature of science, in 
which new fields and new frontiers of inquiry are rapidly emerging.
    Given the critical role of basic behavioral science research and 
training in addressing many of the Nation's most pressing public health 
needs, we ask the subcommittee to ensure that NIH leadership sustains 
its cross-NIH basic behavioral research funding initiative, the Basic 
Behavioral and Social Science Opportunity Network (OppNet), and 
coordinates with all Institutes and Centers to provide support for 
basic behavioral science research.
    APS encourages the subcommittee to support behavioral science 
priorities at individual institutes. Examples are provided in this 
testimony to illustrate the exciting and important behavioral and 
social science work being supported at NIH.
    Mr. Chairman, members of the subcommittee: My name is Dr. Amy 
Pollick, and I am speaking on behalf of the APS. Thank you for the 
opportunity to provide this statement on the fiscal year 2011 
appropriations for NIH. As our organization's name indicates, APS is 
dedicated to all areas of scientific psychology, in research, 
application, teaching, and the improvement of human welfare. Our 22,000 
members are scientists and educators at the Nation's universities and 
colleges, conducting NIH-supported basic and applied, theoretical, and 
clinical research. They look at such things as: the connections between 
emotion, stress, and biology and the impact of stress on health; they 
use brain imaging to explore thinking and memory and other aspects of 
cognition; they develop ways to manage debilitating chronic conditions 
such as diabetes and arthritis as well as depression and other mental 
disorders; they look at how genes and the environment influence 
behavioral traits such as aggression and anxiety; and they address the 
behavioral aspects of smoking and drug and alcohol abuse.
    As a member of the Ad Hoc Group for Medical Research Funding, APS 
recommends $35 billion for NIH in fiscal year 2011, an increase of 12.6 
percent more than the fiscal year 2010 appropriations level. This 
increase would halt the erosion of the Nation's public health research 
enterprise, and help restore momentum to our efforts to improve the 
health and quality of life of all Americans.
    Within the NIH budget, APS is particularly focused on behavioral 
and social science research and the central role of behavior in health. 
The remainder of my testimony concerns the status of those areas of 
research at NIH.
      health and behavior: the critical role of basic and applied 
                         psychological research
    Behavior is a central part of health. Many leading health 
conditions--such as heart disease; stroke; lung disease and certain 
cancers; obesity; AIDS; suicide; teen pregnancy; drug abuse and 
addiction; depression and other mental illnesses; neurological 
disorders; alcoholism; violence; injuries and accidents--originate in 
behavior and can be prevented or controlled through behavior.
    As just one example: stress is something we all feel in our daily 
lives, and we now have a growing body of research that illustrates the 
direct link between stress and health problems:
  --chronic stress accelerates not only the size but also the strength 
        of cancer tumors;
  --chronic stressors weaken the immune system to the point where the 
        heart is damaged, paving the way for cardiac disease;
  --children who are genetically vulnerable to anxiety and who are 
        raised by stressed parents are more likely to experience 
        greater levels of anxiety and stress later in life;
  --animal research has shown that stress interferes with working 
        memory; and
  --stressful interactions may contribute to systemic inflammation in 
        older adults, which in turn extends negative emotion and pain 
        over time.
    None of the conditions or diseases described above can be fully 
understood without an awareness of the behavioral and psychological 
factors involved in causing, treating, and preventing them. Just as 
there exists a layered understanding, from basic to applied, of how 
molecules affect brain cancer, there is a similar spectrum for 
behavioral research. For example, before you address how to change 
attitudes and behaviors around AIDS, you need to know how attitudes 
develop and change in the first place. Or, to design targeted therapies 
for bipolar disorder, you need to know how to understand how circadian 
rhythms work as disruptions in sleeping patterns have been shown to 
worsen symptoms in bipolar patients.
NIH's New Commitment to Basic Behavioral Science Research Should Be 
        Made Permanent
    Broadly defined, behavioral research explores and explains the 
psychological, physiological, and environmental mechanisms involved in 
functions such as memory, learning, emotion, language, perception, 
personality, motivation, social attachments, and attitudes. Within 
this, basic behavioral research aims to understand the fundamental 
nature of these processes in their own right, which provides the 
foundation for applied behavioral research that connects this knowledge 
to real-world concerns such as disease, health, and life stages. Thanks 
in large part to the leadership of this Committee and your counterparts 
in the House, NIH has launched a new initiative that supports and 
expands new basic behavioral research throughout NIH. In November 2009, 
NIH leadership launched the Basic Behavioral and Social Science 
Opportunity Network (OppNet), and has already released several funding 
opportunities. OppNet is currently organizing its strategic plan to 
prioritize research areas it will fund over the next 4 years. This plan 
should include, at the very least, the following areas of research that 
will be critical to its success and more importantly, critical for the 
NIH to best take advantage of what this field has to offer:
  --identifying the dimensions of the environment that create, 
        moderate, and reverse risks for mental and physical health 
        disorders;
  --a rigorous understanding of emotions, their regulation, and 
        functions;
  --development of multiple methods of behavioral measurement;
  --the role of emotions and environmental factors in behavior change;
  --animal models of behavior that enrich our understanding of human 
        processes;
  --interpersonal interactions across the lifespan and across social, 
        economic, and cultural contexts; and
  --individual processes underlying personality, self, and identity.
    While we are greatly encouraged by the launch of OppNet, it is 
slated to end in 2014. That, combined with the lack of a permanent 
organizational structure for basic behavioral research at NIH, creates 
enormous uncertainty for an enterprise that by nature inherently 
requires a longer-term, stable commitment.
    APS respectfully asks the subcommittee to:
  --ensure that NIH adequately supports and sustains a strong, 
        permanent program of basic behavioral science research and 
        training as a critical element in improving the health and 
        welfare of all Americans; and
  --ensure that behavioral research is a priority at NIH both by 
        providing maximum funding for those institutes where behavioral 
        science is a core activity and encouraging NIH to advance a 
        model of health that includes behavior in its scientific 
        priorities.
Psychological Clinical Science Training and Public Health
    One in 4 adults and 1 in 5 children in the United States have a 
diagnosable mental disorder that impairs normal functioning, and mental 
illness accounts for more than 15 percent of the burden of disease in 
major nations; the economic burden associated with mental illness 
exceeds that of all forms of cancer combined. The costs associated with 
mental illness are staggering; $69 billion was spent on mental health 
services in the United States alone in 1996. This is more than 7 
percent of our total health spending. For these reasons, it is critical 
that our understanding of, diagnosis, treatment, and prevention of 
mental illness reflects the very best and most modern science possible.
    Unfortunately, the vast majority of clinical psychologists are 
currently being trained outside of the major research universities and 
hospitals. Even in the best of these training programs, students 
receive little or no direct contact with cutting-edge research. In many 
of these programs there is even an anti-science bias; students in these 
programs are being trained to diagnose and treat mental illness using 
methods that have no scientific support or, even worse, that have been 
shown to be of little or no value. To combat this problem, a group of 
the top 50 clinical psychology programs in the United States formed the 
Academy for Psychological Clinical Science, an organization committed 
to reaffirming the critical importance of science in clinical 
psychology training. The Academy recently established an independent 
accreditation system to insure that clinical psychology training 
programs meet the highest scientific standards, which will be critical 
for re-establishing the scientific foundation of clinical psychology.
    Individuals with mental illness and their families will know that 
practitioners who graduate from these programs will be delivering 
treatments that incorporate state-of-the-art scientific advances and 
that have passed the most critical scientific tests of their efficacy. 
Those communities and organizations wishing to provide state-of-the-
art, scientifically based mental health services will know where to 
seek consultation and find the very best personnel. And finally, this 
new accreditation system will increase the supply of highly skilled 
scientists who will continue to fight the good fight again the ravages 
of mental illness.
    The National Institute of Mental Health's (NIMH) mission includes 
the assurance that that the science-based interventions its researchers 
generate can be used by patients, families, healthcare providers, and 
the wider community involved in mental healthcare. Most of the 
institutions that will be accredited under the new system (called the 
Psychological Clinical Science Accreditation System) include NIMH-
funded researchers, and NIMH has already begun to support the new 
system in the spirit of advancing scientifically-sound treatments that 
its research helped develop. APS asks the Committee to support the new 
accreditation system for psychological clinical science training 
programs in order to reduce the burden of mental illness on 
individuals, families, communities, and society, through the use of 
empirically validated treatments by qualified practitioners.
                  behavioral science at key institutes
    In the remainder of my testimony, I would like to highlight 
examples of cutting-edge behavioral science research being supported by 
individual institutes.
    National Cancer Institute (NCI).--NCI is at the forefront of 
supporting behavioral science in the spirit of advancing the Nation's 
effort to prevent cancer. The Behavioral Research Program continues to 
invest in research on the development and dissemination of 
interventions in areas such as tobacco use, dietary behavior, sun 
protection, and decisionmaking. For example, knowledge about basic 
psychological mechanisms can be brought to bear on warnings about risky 
behavior, with a particular focus on tobacco use. The recently enacted 
FDA regulation of tobacco products is a landmark opportunity for 
tobacco control, and it presents a complimentary invitation for 
psychological science to revolutionize the study of warning labels and 
risky behavior. Specifically, recent research on graphic warning labels 
for cigarettes indicates that specific types of images can improve 
understanding of the consequences of smoking, and encourage motivations 
to quit smoking. APS asks the subcommittee to support NCI's behavioral 
science research and training initiatives and to encourage other 
Institutes to use them as models.
    National Institute on Aging (NIA).--NIA's Division of Behavioral 
and Social Research has one of the strongest psychological science 
portfolios in all of NIH, and is supporting wide-ranging and innovative 
work. For example, older individuals face important and often complex 
decisions about retirement and other financial matters, and the normal 
aging process alters many of the psychological capacities and neural 
systems that come into play when making these decisions. Researchers 
are now looking at how healthy aging influences the psychological and 
neural bases of economic choice, and hope to speed along the 
development of interventions that remediate problems with 
decisionmaking in the elderly, resulting in public health benefits. 
NIA's commitment to cutting-edge behavioral science is further 
illustrated by the Institute's leadership role in NIH's new Common Fund 
initiative on the Science of Behavior Change. APS asks the subcommittee 
to support NIA's behavioral science research efforts and to increase 
NIA's budget in proportion to the overall increase at NIH in order to 
continue its high-quality research to improve the health and well-being 
of Americans across the lifespan.
    Eunice Kennedy Shriver National Institute for Child Health and 
Human Development (NICHD).--NICHD is to be commended for supporting a 
broad spectrum of behavioral research, particularly as it relates to 
real-world problems. Let me give you one example, centering on the 
effects of socioeconomic adversity on children's brain development. 
Researchers are beginning to clarify the relationship among 
socioeconomic status (SES), early life experience, and learning in 
adolescents. We know that learning ability is positively correlated 
with SES, and recent research suggests that the effects of childhood 
experience on the development of certain parts of the brain may 
partially explain this. Researchers at the University of Pennsylvania 
are now learning about the nature and causes of the SES disparity in 
learning ability by examining its scope across different types of 
learning and different neural systems, and assessing its relation to 
early experience, including stress and parental nurturing. Thus, we are 
closer to understanding the crucial role played by learning in the 
academic, occupational, and personal lives of all Americans, and the 
prospect of preserving and fostering the learning ability in at-risk 
youth though the application of insights from the cognitive 
neuroscience of memory, stress, and early experience. APS asks the 
subcommittee to support NICHD's sustained behavioral science research 
portfolio and to encourage other Institutes to partner with NICHD to 
maximize the development of interventions in early stages of life that 
have invaluable benefits in adulthood.
    National Institute on Deafness and Other Communication Disorders 
(NIDCD).--NIDCD supports a vibrant and important portfolio of 
behavioral science research on voice, speech, and language. This 
research expands our understanding of the role of each hemisphere of 
the brain in communication and language, of early specialization of the 
brain, and of the recovery process following brain damage. Scientists 
are now exploring the genetic bases of child language disorders, as 
well as characterizing the linguistic and cognitive deficits in 
children and adults with language disorders. This and similar research 
programs are important because they offer valuable insight into the 
basis of the disorder and the associated academic problems encountered 
by many children with SLI. They are also likely to improve the 
classification, diagnosis, and treatment of other language, reading, 
and speech disorders. APS asks the subcommittee to support NIDCD's 
behavioral science research program and to increase NIDCD's budget in 
proportion to the overall increase at NIH in order to continue making 
significant advances in our understanding of and treatments for 
communication disorders in Americans of all ages.
    It's not possible to highlight all of the worthy behavioral science 
research programs at NIH. In addition to those reviewed in this 
statement, many other Institutes play a key role in the NIH behavioral 
science research enterprise. These include the National Institute of 
Mental Health, the National Institute on Alcohol Abuse and Alcoholism, 
and the National Institute on Drug Abuse. Behavioral science is a 
central part of the mission of these Institutes, and their behavioral 
science programs deserve the subcommittee's strongest possible support.
    This concludes my testimony. Again, thank you for the opportunity 
to discuss NIH appropriations for fiscal year 2011 and specifically, 
the importance of behavioral science research in addressing the 
Nation's public health concerns. I would be pleased to answer any 
questions or provide additional information.
                                 ______
                                 
    Prepared Statement of the American Physical Therapy Association
    Chairman Harkin and Members of the Senate Subcommittee on Labor, 
Health and Human Services, and Education, and Related Agencies: On 
behalf of more than 74,000 physical therapists, physical therapist 
assistants, and students of physical therapy, the American Physical 
Therapy Association (APTA) thanks you for the opportunity to submit 
official testimony regarding recommendations for the fiscal year 2011 
appropriations. APTA's mission is to improve the health and quality of 
life of individuals in society by advancing physical therapist 
practice, education, and research. Physical therapists across the 
country utilize a wide variety of Federally funded resources to work 
collaboratively toward the advancement of these goals. APTA's 
recommendations for Federal funding as outlined in this document 
reflect the commitment toward these priorities for the good of society 
and the rehabilitation community.
                department of health and human services
National Institutes of Health (NIH)
    Rehabilitation research was funded at $404 million within NIH's 
approximately $30.5 billion budget in fiscal year 2009. This represents 
roughly 1 percent of NIH funds for an area of biomedical research that 
impacts a growing percentage of our Nation's seniors, persons with 
disabilities, young persons with chronic disease or traumatic injuries, 
and children with development disabilities. The Institute of Medicine 
estimates that 1 in 7 individuals have an impairment or limitation that 
significantly limits their ability to perform activities of daily 
living. Investment in and recognition of rehabilitation within NIH is a 
necessary step toward continuing to meet the needs of these individuals 
in our population. Through the American Recovery and Reinvestment Act 
(ARRA), rehabilitation research has been able to take advantage of an 
extra infusion of approximately $75 million in fiscal year 2009. 
However, APTA believes that rehabilitation research at NIH has been 
underfunded for many years. The funds currently utilized are well-
invested for the impact that rehabilitation interventions will have on 
the quality of lives of individuals. Continued investment and greater 
recognition and coordination of rehabilitation research among 
Institutes and across Federal Departments will enhance the returns the 
Federal Government receives when investing in this area. Taking this 
into consideration, APTA advocates for $35.2 billion (a $4.2 billion 
increase more than fiscal year 2010) for NIH to capitalize on the 
momentum achieved under the ARRA investment to improve health, spur 
economic growth and innovation, and advance science.
    Specifically, the physical therapy and rehabilitation science 
community recommends that Congress allocate crucial funding 
enhancements in the following Institutes:
  --$1.5 billion (a 12.5 percent increase more than fiscal year 2010) 
        for the Eunice Kennedy Shriver National Institute of Child 
        Health and Human Development which houses the National Center 
        for Medical Rehabilitation Research (NCMRR), the only entity 
        within NIH explicitly focused on the advancement of 
        rehabilitation science. NCMRR fosters the development of 
        scientific knowledge needed to enhance the health, 
        productivity, independence, and quality-of-life of people with 
        disabilities. A primary goal of the Center-supported research 
        is to bring the health-related problems of people with 
        disabilities to the attention of the best scientists in order 
        to capitalize upon the myriad advances occurring in the 
        biological, behavioral, and engineering sciences.
  --$1.857 billion ($221 million increase more than fiscal year 2010) 
        for the National Institute of Neurological Disorders and 
        Stroke. This funding level is required to enhance existing 
        initiatives and invest in new and promising research to prevent 
        stroke and advance rehabilitation in stroke treatment. Despite 
        being a major cause of disability and the number three cause of 
        death in the United States, NIH invests only 1 percent of its 
        budget on stroke research. However, APTA recognizes the 
        advancements that NIH-funded research has achieved in the 
        specific area of stroke rehabilitation. APTA commends this area 
        of leadership at NIH and encourages a continued focus on 
        rehabilitation interventions and physical therapy to maximize 
        an individual's function and quality of life after a stroke.
  --$500 million in arthritis and musculoskeletal research within the 
        National Institute of Arthritis and Musculoskeletal and Skin 
        Diseases
Centers for Disease Control and Prevention (CDC)
    APTA was disappointed to see the cuts that have been proposed for 
CDC through the administration's fiscal year 2011 budget proposal. The 
potential contributions of CDC to the lives of countless individuals 
are limited only by the resources available for carrying out its vital 
mission. Our Nation and the world will continue to benefit from further 
improvement in public health and investment in scientific advancement 
and prevention. APTA recommends Congress provide at least $8.8 billion 
for CDC's fiscal year 2010 ``core programs'' in the fiscal year 2011 
Labor, Health and Human Services, and Education, and Related Agencies 
appropriations bill. This request reflects the support CDC will need to 
fulfill its core missions for fiscal year 2011. APTA strongly believes 
that the activities and programs supported by CDC are essential in 
protecting the health of the American people.
    Physical therapists play an integral role in the prevention, 
education, and assessment of the risk for falls. The CDC is currently 
only allocating $2 million per year to address the increasing 
prevalence of falls, a problem costing more than $19.2 billion a year. 
Among older adults, falls are the leading cause of injury deaths. This 
is why APTA respectfully requests that $20.7 million be provided in 
funding for the ``Unintentional Injury Prevention'' account to allow 
CDC's National Center for Injury Prevention and Control to 
comprehensively address the large-scale growth of older adult falls.
    Currently, CDC's program on arthritis receives $13 million in 
annual funding, and about half of which is distributed via competitive 
grants to 12 States to deliver and promote proven arthritis 
intervention strategies. Physical therapy interventions are designed to 
restore, maintain, and promote maximal physical function for people 
with arthritis. An additional investment of $10 million, beginning in 
fiscal year 2011, would fund up to 14 new States and bring evidence-
based prevention programs to many more Americans through innovative 
delivery approaches.
    Traumatic Brain Injury (TBI) is a leading cause of death and 
disability among young Americans and continues to be the signature 
injury of the conflicts in Iraq and Afghanistan. CDC estimates that at 
least 5.3 million Americans, approximately 2 percent of the U.S. 
population, currently require lifelong assistance to perform activities 
of daily living as a result of TBI. High-quality, evidence-based 
rehabilitation for TBI is typically a long and intensive process. From 
the battlefield to the football field, American adults and youth 
continue to sustain TBIs at an alarming rate and funding is desperately 
needed for better diagnostics and evaluation, treatment guidelines, 
improved quality of care, education and awareness, referral services, 
State program services, and protection and advocacy for those less able 
to advocate for themselves. APTA recommends at least $10 million in 
fiscal year 2011 for CDC's TBI Registries and Surveillance, Brain 
Injury Acute Care Guidelines, Prevention, and National Public 
Education/Awareness programs.
    APTA would like to see $76 million ($20 million increase more than 
fiscal year 2010) for CDC's Heart Disease and Stroke Prevention Program 
in fiscal year 2011. CDC spends on average only 16 cents a person each 
year on heart disease and stroke prevention, despite the fact that 
heart disease, stroke, and other forms of cardiovascular disease remain 
our Nation's number one and most costly killer. A $20 million increase 
in funding will allow CDC to support the 9 States that receive no 
funding for the competitively awarded Heart Disease and Stroke 
Prevention Program, elevate more States to basic program 
implementation, and support the other funded States.
    CDC's Well-Integrated Screening and Evaluation for Women Across the 
Nation (WISEWOMAN) programs screens uninsured and under-insured low-
income women ages 40 to 64 for heart disease and stroke risk and those 
with abnormal results receive counseling, education, referral and 
follow up. WISEWOMAN reached more than 84,000 women and provided more 
than 210,000 lifestyle intervention sessions from 2000 to mid-2008, 
while also identifying 7,647 new cases of high blood pressure, 7,928 
new cases of high cholesterol, and 1,140 new cases of diabetes. Among 
those WISEWOMAN participants who were re-screened 1 year later, average 
blood pressure and cholesterol levels had decreased considerably. APTA 
recommends $37 million ($16.3 million increase more than fiscal year 
2010) for CDC's WISEWOMAN Program in fiscal year 2011.
Health Resources and Services Administration (HRSA)
    Through the successful passage of healthcare reform legislation, it 
becomes more important now than ever that America is able to supply an 
adequate and well-trained healthcare workforce to meet the demands of 
an expanded market of U.S. citizens that have health insurance 
coverage. APTA urges you to provide at least $9.15 billion for HRSA in 
fiscal year 2011. This amount reflects the minimum amount necessary for 
the agency to adequately meet the needs of the populations they serve. 
The relatively level funding HRSA has received over the past several 
years has undermined the ability of its successful programs to grow and 
be expanded to represent professions that shape the entire healthcare 
team, such as physical therapy. Any shortage areas of physical 
therapists and rehabilitation professionals may become more accentuated 
as the percentage of the U.S. population that has health coverage 
increases and demand rises. It is beneficial to undertake efforts to 
strengthen the healthcare workforce and delivery across the whole 
spectrum of an individual's care--from onset through rehabilitation. 
More resources are needed for HRSA to achieve its ultimate mission of 
ensuring access to culturally competent, quality health services; 
eliminating health disparities; and rebuilding the public health and 
healthcare infrastructure.
    In conjunction with the importance of funding TBI efforts within 
CDC, APTA also recommends $8 million for the HRSA Federal TBI State 
Grant Program and $4 million for the HRSA Federal TBI Protection & 
Advocacy (P&A) Systems Grant Program
                        department of education
    In 2008, as part of the reauthorization of the Higher Education Act 
(Public Law 110-315), the Loan Forgiveness for Service in Areas of 
National Need (LFSANN) program was created. This program would provide 
a modest amount of loan forgiveness for a variety of education and 
healthcare professional groups, including physical therapists, upon a 
commitment to serve in targeted populations that were identified as 
areas of crucial importance and national need. However, the program has 
not been implemented because it has not received any funding. APTA 
commends the recent efforts of Congress to reform the higher education 
loan industry. The lowering of the limit on the income-based repayment 
plan for consolidated Federal Direct Loans will assist the burdensome 
payments for all higher education loan borrowers. However, this program 
still fails to meet the most important impact of LFSANN--channeling 
providers and professionals into areas where there are demonstrated 
shortages and high need, such as physical therapy care for veterans and 
children and adolescents. APTA strongly urges Congress to take action 
and provide $10 million in initial funding for this vital LFSANN 
program that will impact the healthcare and education services of those 
most in need.
National Institute for Disability and Rehabilitation Research (NIDRR)
    NIDRR has been one of the longest standing agencies to focus on 
federally funded medical rehabilitation research. Rehabilitation 
research makes a difference in the lives of individuals with 
impairments, functional limitations, and disability. Advancements in 
rehabilitation research have led to greater quality of life for 
individuals who have spinal cord injuries, loss of limb, stroke and 
other orthopedic, neurological, and cardiopulmonary disorders. 
Investment in NIDRR is a necessary step toward continuing to meet the 
needs of individuals in our population who have chronic disease, 
developmental disabilities or traumatic injuries. Therefore, APTA 
recommends at least $20 million per year for NIDRR to support research 
and development, capacity building, and knowledge translation in 
health, rehabilitation, and function.
    APTA also requests $11 million for NIDRR's TBI Model Systems 
administered by the Department of Education. The TBI Model Systems of 
Care program represents an already existing vital national network of 
expertise and research in the field of TBI, and weakening this program 
would have resounding effects on both military and civilian 
populations. The TBI Model Systems are the only source of 
nonproprietary longitudinal data on what happens to people with brain 
injury. They are a key source of evidence-based medicine and 
rehabilitation care for this crucial and growing population.
Interagency Committee on Disability Research (ICDR)
    APTA would like to see $1.5 million appropriated for the ICDR to 
support a research agenda-setting summit. The disability and 
rehabilitation research community feels that such a meeting would 
ultimately be beneficial to work cooperatively on strategies to 
leverage the Federal investments in disability and rehabilitation 
research across all respective agencies and facilitate the conducting 
of meaningful collaborative projects and initiatives, including 
capacity building and knowledge translation.
                               conclusion
    APTA looks forward to working with the subcommittee and the various 
agencies outlined above to advance the resources available for the 
rehabilitation needs of society.
                                 ______
                                 
Prepared Statement of the Association of Public Television Stations and 
                      Public Broadcasting Service
    On behalf of America's 361 public television stations, we 
appreciate the opportunity to submit testimony for the record on the 
importance of Federal funding for local public television stations.
Corporation for Public Broadcasting--Fiscal Year 2013 Request: $604 
        Million, Advance Funded
    More than 40 years after the inception of public television, local 
stations continue to serve as the treasured cultural institutions 
envisioned by their founders, reaching America's local communities with 
unsurpassed programming and services. Furthermore, the power of digital 
technology has enabled stations to greatly expand their delivery 
platforms to reach Americans where they are increasingly consuming 
media--online and on-demand--in addition to on-air.
    However, at the same time that stations are expanding their 
services and the impact they have in their communities, stations are 
also facing unprecedented revenue declines--presenting them with the 
greatest financial challenge in their 40-year history. Every revenue 
source upon which our operations depend is under siege. State funding 
support is in a wholesale free-fall. Financial contributions from 
foundations and underwriters, at the local and national levels, have 
declined. Individual contributions, the bed-rock of every public 
station's annual operating budget, are dropping, reflecting the effects 
of rising unemployment and declining personal discretionary income. As 
such, increased Federal support for public broadcasting is perhaps more 
important now than ever before.
    Funds appropriated to CPB reach local stations in the form of 
Community Service Grants (CSGs). CSGs, while accounting for 
approximately 15 percent of the average station's overall budget, serve 
as the backbone of support for stations. Stations are also able to 
leverage those CSGs to raise additional funds from State legislatures, 
private foundations and their viewers.
    Funding through CPB is absolutely essential to public television 
stations. A 2007 GAO report concluded that Federal funding, such as 
CSGs, is an irreplaceable source of revenue, and that ``substantial 
growth of non-Federal funding appears unlikely.'' It also found that 
``cuts in Federal funding could lead to a reduction in staff, local 
programming or services.''
    Federal support for CPB and local public television stations has 
resulted in a nationwide system of locally owned and controlled, 
trusted, community-driven and community responsive media entities. For 
the seventh consecutive year, a 2010 Roper poll rated public television 
the most trusted institution among nationally known organizations. And 
in a recent report, the American Academy of Pediatrics recommended that 
Congress increase funding for public television, characterizing it as 
``the sole source for high quality, educational, noncommercial 
programming for children.''
    In addition, the advent of digital technology has created enormous 
potential for stations, allowing them to bring content to Americans in 
new, innovative ways while retaining our public service mission. Public 
television stations are now utilizing a wide array of digital tools to 
expand their current roles as educators, local conveners and vital 
sources of trusted information at a time when their communities need 
them most.
    For example, in an effort to address the decline of local 
journalism, CPB has just announced a significant investment in 
partnership with 28 local public television and radio stations to form 
seven regional journalism centers. The Centers will form teams of 
multimedia journalists, who will focus on issues of particular 
relevance to each region; their in-depth reports will be presented 
regionally and nationally via digital platforms, community engagement 
programs and radio and television broadcasts. For example, in the 
Plains, the project will focus on agribusiness including farming 
practices, food and fuel production. In the Upper-Midwest, the 
collaboration will focus on the changing economy of the region. In the 
Southwest, a bilingual reporting team will focus on cultural shifts 
that are transforming the southwest, including Latino, Native American, 
and border issues.
    In order for our stations to continue playing this vital role in 
their communities, APTS and PBS respectfully request $604 million for 
CPB, advance funded for fiscal year 2013. Advance funding is essential 
to the mission of public broadcasting. The longstanding practice 
ensures that stations are able to insulate programming decisions from 
political influence, leverage the promise of Federal dollars to raise 
State, local and private funds, and have the critical lead-in time 
needed to plan and produce programs.
Digital Funding--Fiscal Year 2010 Request: $59.5 million
    Public television stations have been at the forefront of the 
digital transition, embracing the technology early and recognizing its 
benefits to their viewers. Fortunately, Congress wisely recognized that 
the Federal mandated transition to digital broadcast would place a 
hardship on public television's limited resources. Since 2001, Congress 
has provided public television stations with funds to ensure that they 
have the ability to continue to meet their public service mission and 
deliver the highest-quality educational, cultural and public affairs 
programming post-transition.
    Although the Federal mandated portion of the transition is 
complete, what remains to be finished is the ability of stations to 
fully replicate in digital their analog services. As stations have 
completed the transition of their main transmitters, they will continue 
to convert their master controls, digital storage equipment and other 
necessary studio equipment--necessary to produce and distribute local 
educational programming. This program is also critical to providing 
funds that can be invested in interactive public media that maximizes 
investments in digital infrastructure--including such content 
investments as the American Archive.
    Unlike most commercial broadcasters, public television has used 
this new public digital spectrum to maximize programming choices by 
offering an array of new channel options, including the national 
offerings of V-me (the first 24-hour, Spanish-language, educational 
channel), World, and Create.
    More importantly, stations have also used these multicast 
capabilities to expand their local offerings with digital channels 
dedicated to community or State-focused programming. Some stations have 
even utilized this technology to provide gavel-to-gavel coverage of 
their state legislatures. In addition, digital broadcasting has enabled 
stations to double the amount of noncommercial, children's educational 
programming offered to the American public.
    APTS and PBS respectfully request $59.5 million in CPB Digital 
funding for fiscal year 2011 to enable stations to fully leverage this 
groundbreaking technology.
Ready To Learn and Ready to Teach (U.S. Department of Education)
    The President's budget proposed for the consolidation of both the 
Ready To Learn and Ready To Teach programs into larger grant programs. 
APTS and PBS are concerned that the consolidation of these programs 
could lead to, at worst, the elimination of these critical programs 
that Congress has seen fit to invest more than $216 million since 
fiscal year 2005. At best, under the proposed budget, these programs 
would cease to exist in their current structure, removing the 
mechanisms that have provided for the tremendous efficient and 
effective nature in which these programs successfully operate.
    Consolidation or elimination of these programs would severely 
affect the ability of local stations to respond to their communities' 
educational needs, removing the needed resources provided by these 
programs for children, parents and teachers. For example, our stations 
that participate in Ready To Learn or Ready To Teach activities in 
places such as Iowa (Iowa Public Television), Wisconsin (Wisconsin 
ECB), Washington (KCTS 9), Louisiana (Louisiana Public Broadcasting), 
Illinois (WSIU, WEIU), Arkansas (AETN), Pennsylvania (WPSU, WQLN, WITF, 
WVIA), Mississippi (Mississippi Public Broadcasting), New Hampshire 
(New Hampshire Public Television), Texas (KLRN, KLRU, KAVC, KAMU, KEDT, 
KMBH, KUHT, KNCT, KTXT, KOCV, KWBU), Alabama (Alabama Public 
Television) and Tennessee (WLJT, WNPT) would be severely impacted by 
the proposed consolidation.
    We urge that the subcommittee maintain the Ready To Learn and Ready 
To Teach programs as stable line-items in the fiscal year 2011 budget 
and resist the calls for consolidation. Additionally, we encourage the 
subcommittee to express their support for Ready To Learn and Ready To 
Teach as stable, Federal funded programs as Congress considers the 
reauthorization of the Elementary and Secondary Education Act which 
contains the authorizing language for both of these programs.
Ready To Learn--Fiscal Year 2011 Request: $32 million
    With a specific target of at-risk children, Ready To Learn is 
improving the reading skills of all of America's children through fully 
researched, engaging educational television and on-line content, with a 
particular focus on more than 150,000 low-income households in 23 
States and the District of Columbia. Ready To Learn content, based on 
the findings of the National Reading Panel of 2000, is on-air-reaching 
99 percent of the country's television households through Public 
Television stations--as well as on-line, and on the ground in 
classrooms and communities.
    In addition to successful on the ground partnerships with local 
stations, national nonprofit organizations and State education leaders, 
including the Council of Chief State School Officers, Ready To Learn's 
signature component is its research-based and teacher-tested television 
programs that teach key reading skills, including: ``SUPER WHY!'', 
``WordWorld'', ``Martha Speaks'', ``Sesame Street'', ``Between The 
Lions'', and ``The Electric Company'' produced by the best educational 
children's content producers.
    Recent evaluations of one such program, ``SUPER WHY!'', tell a 
story of enormous success.
    The evaluation found that preschool children who watched the 
program performed significantly better on most of the standardized 
measures of early reading achievement when compared with those 
preschool children who watched an alternate program. In fact, pre-test 
to post-test gains averaged 28.7 percent for ``SUPER WHY!'' viewers 
compared with an average gain of 13.2 percent for alternate program 
viewers. Specifically, preschool children demonstrated significant 
growth in targeted early literacy skills featured in ``SUPER WHY!'', 
including alphabet knowledge, phonological and phonemic awareness, 
symbolic and linguistic awareness, and comprehension.
    In addition, ``SUPER WHY!'s'' 2008 5-day Summer Reading Camps--33 
camps in 19 communities with 454 low-income Pre-K children--produced 
measurable results in raising children's reading skills through their 
interaction with strategically executed instructional materials 
designed to boost letter knowledge, decoding, encoding, and reading 
ability. During these camps, preschoolers showed an 84 percent gain in 
phonics skills and a 139 percent gain in word recognition skills.
    A separate study conducted by the University of Michigan, found 
that low income children who were exposed to Ready to Learn content 
used in formal curriculum preformed at nearly the same level as their 
higher income peers--effectively erasing the achievement gap.
    With additional funding, Ready To Learn can continue to meet the 
needs of those most lacking reading skills by extending the program's 
community engagement and partnership-driven work to additional high-
need communities nationwide and by increasing capacity and reach 
through the innovative use of digital media.
    APTS and PBS respectfully request $32 million for Ready To Learn in 
fiscal year 2011.
Ready To Teach--Fiscal Year 2011 Request: $17 million
    Ready To Teach was first introduced in Congress in 1994 as a 
demonstration project to show how distance learning technology coupled 
with public broadcasting's rich educational content could help teachers 
enhance their proficiency in specific curriculum areas.
    Later authorized under the No Child Left Behind Act, Ready To Teach 
currently funds the development of digital educational services aimed 
at enhancing teacher performance. Through four Ready To Teach 
services--PBS TeacherLine, e-Learning for Educators, VITAL and HELP--
PBS, Alabama Public Television, Thirteen/WNET and Rocky Mountain PBS 
(RMPBS), have provided online professional development targeted toward 
Pre-K-12 educators, video clips aligned to math and reading State 
standards, and an English-Language Learner program for math 
instruction.
    Together, Ready To Teach programs have served nearly 500,000 
educators since 2001, and represent an enormously successful 
utilization of innovative, digital technology for the benefit of 
teachers and their students in the 21st century classroom.
    APTS and PBS respectfully request $17 million in fiscal year 2011 
in order to build the library of professional development courses, 
resources and support materials for teachers through the public 
broadcasting infrastructure, and increase the number of local stations 
able to participate in Ready To Teach, thereby increasing the efforts 
to prepare highly qualified teachers.
                                 ______
                                 
     Prepared Statement of the Association of Rehabilitation Nurses
Introduction
    On behalf of the Association of Rehabilitation Nurses (ARN), I 
appreciate having the opportunity to submit written testimony to the 
Senate Labor, Health and Human Services, and Education, and Related 
Agencies Appropriations Subcommittee regarding funding for nursing- and 
rehabilitation-related programs in fiscal year 2011. ARN represents 
5,700 Registered Nurses (RNs) with 10,000 nurses certified in the 
specialty who work to enhance the quality of life for those affected by 
physical disability and/or chronic illness. ARN understands that 
Congress has many concerns and limited resources, but believes that 
chronic illnesses and physical disabilities are heavy burdens on our 
society that must be addressed.
Rehabilitation Nurses and Rehabilitation Nursing
    Rehabilitation nurses help individuals affected by chronic illness 
and/or physical disability adapt to their condition, achieve their 
greatest potential, and work toward productive, independent lives. They 
take a holistic approach to meeting patients' nursing and medical, 
vocational, educational, environmental, and spiritual needs. 
Rehabilitation nurses begin to work with individuals and their families 
soon after the onset of a disabling injury or chronic illness. They 
continue to provide support and care, including patient and family 
education, and empower these individuals when they return home, or to 
work, or school. The rehabilitation nurse often teaches patients and 
their caregivers how to access systems and resources.
    Rehabilitation nursing is a philosophy of care, not a work setting 
or a phase of treatment. Rehabilitation nurses base their practice on 
rehabilitative and restorative principles by: (1) managing complex 
medical issues; (2) collaborating with other specialists; (3) providing 
ongoing patient/caregiver education; (4) setting goals for maximum 
independence; and (5) establishing plans of care to maintain optimal 
wellness. Rehabilitation nurses practice in all settings, including 
freestanding rehabilitation facilities, hospitals, long-term subacute 
care facilities/skilled nursing facilities, long-term acute care 
facilities, comprehensive outpatient rehabilitation facilities, and 
private practices, just to name a few.
    To ensure that patients receive the best quality care possible, ARN 
supports Federal programs and research institutions that address the 
national nursing shortage and conduct research focused on nursing and 
medical rehabilitation, e.g., traumatic brain injury. Therefore, ARN 
respectfully requests that the subcommittee provide increased funding 
for the following programs:
Nursing Workforce and Development Programs at the Health Resources and 
        Services Administration (HRSA)
    ARN supports efforts to resolve the national nursing shortage, 
including appropriate funding to address the shortage of qualified 
nursing faculty. Rehabilitation nursing requires a high-level of 
education and technical expertise, and ARN is committed to assuring and 
protecting access to professional nursing care delivered by highly 
educated, well-trained, and experienced Registered Nurses (RNs) for 
individuals affected by chronic illness and/or physical disability.
    According to the Department of Health and Human Services, an 
estimated 36,750 nurses need to be recruited, educated, and retained 
through the Federal Nursing Workforce Development program at HRSA to 
meet the current demands of the healthcare system. Efforts to recruit 
and educate individuals interested in nursing have been thwarted by the 
shortage of nursing faculty. In July 2008, the American Health Care 
Association reported that more than 19,400 RN vacancies exist in long-
term care settings. These vacancies, coupled with an additional 116,000 
open positions in hospitals reported by the American Hospital 
Association in July 2007, bring the total RN vacancies in the United 
States to more than 135,000. The demand for nurses will continue to 
grow as the baby-boomer population ages, nurses retire, and the need 
for healthcare intensifies. According to the U.S. Bureau of Labor 
Statistics (BLS), nursing is the Nation's top profession in terms of 
projected job growth, with more than 587,000 new nursing positions 
being created through 2016. Furthermore, BLS analysts project that more 
than 1 million new and replacement nurses will be needed by 2016.
    ARN strongly supports the national nursing community's request of 
$267.3 million in fiscal year 2011 funding for Federal Nursing 
Workforce Development programs at HRSA.
National Institute on Disability and Rehabilitation Research (NIDRR)
    The National Institute on Disability and Rehabilitation Research 
(NIDRR) provides leadership and support for a comprehensive program of 
research related to the rehabilitation of individuals with 
disabilities. As one of the components of the Office of Special 
Education and Rehabilitative Services at the U.S. Department of 
Education, NIDRR operates along with the Rehabilitation Services 
Administration and the Office of Special Education Programs.
    The mission of NIDRR is to generate new knowledge and promote its 
effective use to improve the abilities of people with disabilities to 
perform activities of their choice in the community, and also to expand 
society's capacity to provide full opportunities and accommodations for 
its citizens with disabilities. NIDRR conducts comprehensive and 
coordinated programs of research and related activities to maximize the 
full inclusion, social integration, employment and independent living 
of individuals of all ages with disabilities. NIDRR's focus includes 
research in areas such as: employment, health and function, technology 
for access and function, independent living and community integration, 
and other associated disability research areas.
    ARN strongly supports the work of NIDRR and encourages Congress to 
provide the maximum possible fiscal year 2011 funding level.
National Institute of Nursing Research (NINR)
    ARN understands that research is essential for the advancement of 
nursing science, and believes new concepts must be developed and tested 
to sustain the continued growth and maturation of the rehabilitation 
nursing specialty. The National Institute of Nursing Research (NINR) 
works to create cost-effective and high-quality healthcare by testing 
new nursing science concepts and investigating how to best integrate 
them into daily practice. NINR has a broad mandate that includes 
seeking to prevent and delay disease and to ease the symptoms 
associated with both chronic and acute illnesses. NINR's recent areas 
of research focus include the following:
  --End of life and palliative care in rural areas;
  --Research in multi-cultural societies;
  --Bio-behavioral methods to improve outcomes research; and
  --Increasing health promotion through comprehensive studies.
    ARN respectfully requests $160 million in fiscal year 2011 funding 
for NINR to continue its efforts to address issues related to chronic 
and acute illnesses.
Traumatic Brian Injury (TBI)
    Approximately 1.5 million American children and adults are living 
with long-term, severe disability, as a result of TBI. Moreover, this 
figure does not include the 150,000 cases of TBI suffered by soldiers 
returning from wars in Iraq and Afghanistan.
    The annual national cost of providing treatment and services for 
these patients is estimated to be nearly $60 million in direct care and 
lost workplace productivity. Continued fiscal support of the Traumatic 
Brain Injury Act will provide critical funding needed to further 
develop research and improve the lives of individuals who suffer from 
traumatic brain injury.
    Continued funding of the TBI Act will promote sound public health 
policy in brain injury prevention, research, education, treatment, and 
community-based services, while informing the public of needed support 
for individuals living with TBI and their families.
    ARN strongly supports the current work being done by the Centers 
for Disease Control and Prevention (CDC) and HRSA on TBI programs. 
These programs contribute to the overall body of knowledge in 
rehabilitation medicine.
    ARN urges Congress to support the following fiscal year 2011 
funding requests for programs within the TBI Act: $10 million for CDC's 
TBI registries and surveillance, prevention and national public 
education and awareness efforts; $8 million for the HRSA Federal TBI 
State Grant Program; and $4 million for the HRSA Federal TBI Protection 
and Advocacy Systems Grant Program.
Conclusion
    ARN appreciates the opportunity to share our priorities for fiscal 
year 2011 funding levels for nursing and rehabilitation programs. ARN 
maintains a strong commitment to working with Members of Congress, 
other nursing and rehabilitation organizations, and other stakeholders 
to ensure that the rehabilitation nurses of today continue to practice 
tomorrow. By providing the fiscal year 2011 funding levels detailed 
above, we believe the subcommittee will be taking the steps necessary 
to ensure that our Nation has a sufficient nursing workforce to care 
for patients requiring rehabilitation from chronic illness and/or 
physical disability.
                                 ______
                                 
    Prepared Statement of the Association for Research in Vision & 
                             Ophthalmology
    The Association for Research in Vision & Ophthalmology (ARVO) has 
two major requests:
  --For Congress to fund the National Institutes of Health (NIH) in 
        fiscal year 2011 at $35 billion; and
  --For Congress to make vision health a priority in the total funding 
        of NIH by increasing National Eye Institute (NEI) funding more 
        than the President's proposed 2.5 percent increase for NEI.
    The requested increase in the total NIH budget is a $3 billion 
increase more than President Obama's proposed funding level of $32 
billion. We are also concerned that NEI funding has been less than the 
increase for NIH funding for all funding cycles since 2001. NEI has 
lost 20.1 percent loss in purchasing power \1\ over the last 10 years, 
while NIH has lost 17.2 percent loss in purchasing power \1\ over the 
last 10 years.
---------------------------------------------------------------------------
    \1\ Calculations were based solely upon annual biomedical research 
and development price index and annual appropriated amounts.
---------------------------------------------------------------------------
    ARVO commends Congress for actions taken in fiscal year 2009 and 
fiscal year 2010 to fund NIH. This includes the $10.4 billion for NIH 
funding in the American Recovery and Reinvestment Act (ARRA). We also 
applaud the fact that the 2011 NIH budget draft, requesting a 3.2 
percent increase for NIH, keeps pace with inflation for the first time 
in 10 years. However, ARVO still has concerns about long-term, 
sustained and predictable funding for vision research at the NEI, which 
has lost approximately 3 percent more purchasing power \1\ than NIH in 
the past decade, which is not in proportion to the fact that vision 
disorders are the fourth most prevalent disability in the United States 
and the most frequent cause of disability in 
children.\2\<SUP>-</SUP>\5\
---------------------------------------------------------------------------
    \2\ Federal Interagency Forum on Aging-Related Statistics. Older 
Americans 2000: key indicators of well-being. Washington, DC: U.S. 
Government Printing Office; 2000 Aug. 114.
    \3\ http://www.ncbi.nlm.nih.gov/pubmed/15078664
    \4\ http://www.healthypeople.gov/data/2010prog/focus28/2004fa28.htm
    \5\ http://www.preventblindness.org/vpus/
---------------------------------------------------------------------------
    ARVO also commends Congress for passing S. Res. 209 and H. Res. 
366, which acknowledged NEI's 40th anniversary as a free-standing 
institute and designated 2010-2020 as the Decade of Vision, in which 
the majority of 78 million baby boomers will turn age 65 and face great 
risk of developing aging eye diseases. In a 2007 report, age-related 
eye diseases were estimated to cost $51.4 million.\6\ Costs to 
healthcare also add up when more individuals with vision impairment 
live in nursing homes than would be the case if they had normal 
vision.\7\ NEI-funded research results in treatments and therapies that 
save vision, restore sight, reduce healthcare costs, maintain 
productivity, ensure financial independence, and enhance quality of 
life.
---------------------------------------------------------------------------
    \6\ http://www.preventblindness.org/research/
Impact_of_Vision_Problems.pdf
    \7\ Archives of Ophthalmology. Vol. 124, No. 12:1754.
---------------------------------------------------------------------------
    ARVO requests $35 billion in NIH funding for fiscal year 2011, 
especially to ensure that NEI can build upon the impressive record of 
basic and clinical collaborative research that meets NIH's top five 
priorities and has been funded through fiscal year 2009-2010 ARRA and 
regular appropriations.
    NEI research addresses the top five NIH priorities, as identified 
by Dr. Collins: genomics, translational research, comparative 
effectiveness, global health, and empowering the biomedical 
enterprise.\8\ Such research also addresses the pre-emption, 
prediction, personalization (ex. gene therapy), and prevention of eye 
disease through basic, translational, epidemiological, and comparative 
effectiveness research. NEI continues to be a leader within NIH for 
elucidating the genetic basis of eye disease. NEI Director, Paul 
Sieving, MD, Ph.D. has reported that one-quarter of all genes 
identified to date through collaborative efforts with the National 
Human Genome Research Institute (NHGRI) are associated with eye 
disease/visual impairment.
---------------------------------------------------------------------------
    \8\ Science. Vol. 327:36.
---------------------------------------------------------------------------
    NEI received $175 million of the $10.4 billion in NIH ARRA funding. 
As a result, NEI's total funding levels in the fiscal year 2009-2010 
timeframe were $776 million and $794.5 million, respectively. In fiscal 
year 2009, NEI made 333 ARRA-related awards, the majority of which 
reflect investigator-initiated research that funds new science or 
accelerates ongoing research, including ten Challenge Grants. Several 
examples of research, and the reasons why it is important, include:
  --Biomarker for Neovascular Age-related Macular Degeneration (AMD).--
        Researchers are utilizing a recently discovered biomarker to 
        develop an early detection method to minimize vision loss. This 
        marker identifies a risk factor (for abnormal growth of blood 
        vessels into the retina), which causes 90 percent of the vision 
        loss associated with AMD. Importance: 1.75 million people were 
        living with AMD in 2000, and the number is estimated to reach 3 
        million by 2020.\9\ Without accounting for healthcare 
        inflation, the most recent estimated of cost for AMD \10\ 
        treatment times 3 million is ($2.5-4.8 billion) over 5 years.
---------------------------------------------------------------------------
    \9\ Archives of Ophthalmology. Vol. 122, No. 4:564.
    \10\ Ophthalmology. Vol. 115, No. 1:18.
---------------------------------------------------------------------------
  --Cellular Approach to Treating Diabetic Retinopathy (DR).--
        Researchers are developing a clinical treatment for diabetic 
        retinopathy by using specially treated stem cells from the 
        patient's own blood to repair damaged vessels in the eye. 
        Importance: DR is increasing in younger Americans and the aging 
        population. In a 2004 paper, the reported prevalence was 4.1 
        million Americans.\11\
---------------------------------------------------------------------------
    \11\ Archives of Ophthalmology. Vol. 122, No. 4:552.
---------------------------------------------------------------------------
  --Small Heat Shock Proteins as Therapeutic Agents in the Eye.--
        Researchers propose to develop new drugs to prevent or reverse 
        blinding eye diseases, such as cataract (clouding of the lens), 
        that are associated with the aggregation of proteins. Research 
        will focus on the use of small ``heat shock'' proteins that 
        facilitate the slow release and prolonged delivery of targeted 
        macromolecules to degenerating cells of the eye. Importance: 
        Delivering effective, long-lasting therapies through a 
        minimally invasive route into the eye may help to reduce 
        cataracts, the leading cause of low vision among all 
        Americans.\12\
---------------------------------------------------------------------------
    \12\ http://www.nei.nih.gov/news/pressreleases/041204.asp
---------------------------------------------------------------------------
  --Identification of Genes and Proteins that Control Myopia 
        Development.--Researchers propose to identify targets that will 
        facilitate development of interventions to slow or prevent 
        myopia (nearsightedness) development in children. Identifying 
        an appropriate myopia prevention target can reduce the risk of 
        blindness and reduce annual life-long eye care costs. 
        Importance: More than 25 percent of the U.S. population has 
        myopia, costing $14 billion annually, from adolescence to 
        adulthood (data from NEI-supported study on myopia).\14\
---------------------------------------------------------------------------
    \14\ Archives of Ophthalmology. Vol. 101:405-407
---------------------------------------------------------------------------
  --Comparison of Interventions for Retinopathy of Prematurity (ROP).--
        In animal studies, researchers will simulate Retinopathy of 
        Prematurity--a blinding eye disease that affects premature 
        infants--and then study novel treatments that involve 
        modulating the metabolism of the retina's rod photoreceptors. 
        Importance: ROP affects 15,000 children a year, about 400-600 
        of whom progress to blindness, at an estimated lifetime cost 
        for support and unpaid taxes of $1 million 
        each.\15\<SUP>-</SUP>\16\
---------------------------------------------------------------------------
    \15\ http://www.nei.nih.gov/news/pressreleases/041210b.asp
    \16\ http://www.actionfund.org/actionfund/
Blindness_in_America.asp?SnID=2
---------------------------------------------------------------------------
  --The NEI Glaucoma Human genetics collaBORation, NEIGHBOR.--This 
        research network, in which seven U.S. teams will lead genetic 
        studies of the disease, may lead to more effective diagnosis 
        and treatment. Researchers were primarily funded through ARRA 
        supplements. Importance: Glaucoma, a complex neurodegenerative 
        disease that is the second leading cause of preventable 
        blindness in the United States, often has no symptoms until 
        vision is lost.\17\
---------------------------------------------------------------------------
    \17\ http://www.glaucoma.org/learn/glaucoma_awaren.php
---------------------------------------------------------------------------
  --Comparative Effectiveness of Interventions for Primary Open Angle 
        Glaucoma (POAG).--Researchers will evaluate existing data on 
        the effectiveness of various treatment options for primary open 
        angle glaucoma--many emerging from past NEI research. 
        Importance: POAG is the most common form of the disease, which 
        disproportionately affects African Americans and Latinos. It is 
        estimated that 3.36 million individuals will have glaucoma by 
        2020.\18\ This number times the average cost of treatment,\19\ 
        not accounting for inflation, is ($2.1-8.4 billion/year).
---------------------------------------------------------------------------
    \18\ Archives of Ophthalmology. Vol. 122, No. 4:532.
    \19\ Archives of Ophthalmology. Vol. 124, No. 1:12.
---------------------------------------------------------------------------
    In addition to ARRA funding, the ``regular'' appropriations 
increases in fiscal year 2009-2010 enabled the NEI to continue to fund 
key research networks, such as the following:
  --The African Descent and Glaucoma Evaluation Study (ADAGES), which 
        is designed to identify factors accounting for differences in 
        glaucoma onset and rate of progression between individuals of 
        African and European descent. Importance: African Americans are 
        more than three times as likely to develop visual impairment 
        from glaucoma, compared to other ethnic groups.\20\
---------------------------------------------------------------------------
    \20\ http://www.nei.nih.gov/nehep/programs/glaucoma/goals.asp#data
---------------------------------------------------------------------------
  --The Diabetic Research Clinical Research Network's (DRCR) initiation 
        of new trials comparing the safety and efficacy of drug 
        therapies as an alternative to laser treatment for diabetic 
        macular edema and proliferative diabetic retinopathy. 
        Importance: In 2007, an estimated 23.6 million Americans were 
        living with diabetes, and almost 1.6 million new cases were 
        diagnosed per year. One out of 12 individuals with diabetes has 
        diabetic retinopathy.\21\
---------------------------------------------------------------------------
    \21\ http://www.nei.nih.gov/strategicplanning/
disparities_strategic_plan.asp#retinopathy
---------------------------------------------------------------------------
  --The Neuro-Ophthalmology Research Disease Investigator Consortium 
        (NORDIC), which will lead multi-site observational and 
        treatment trials, involving nearly 200 community and academic 
        practitioners, to address the risks, diagnosis, and treatment 
        of visual dysfunction due to increased intracranial pressure 
        and thyroid eye disease.
  --Importance: A broad spectrum of neuro-ophthalmic disorders 
        collectively affects millions of people. Many are associated 
        with other neurological disease processes and have not been 
        adequately investigated because they are rare. NORDIC will 
        address unanswered questions about risks, diagnosis, and 
        treatment that could not be studied without a clinical research 
        organization.\22\
---------------------------------------------------------------------------
    \22\ http://www.nyee.edu/pdf/m_kupersmith.pdf
---------------------------------------------------------------------------
    The unprecedented level of fiscal year 2009-2010 vision research 
funding is moving our Nation that much closer to the prevention of 
blindness and restoration of vision. With an overall NIH funding level 
of $35 billion, which translates to an NEI funding level of $794.5 
million, the vision community can accelerate these efforts, thereby 
reducing healthcare costs, maintaining productivity, ensuring 
independence, and enhancing quality of life.
Summary
    ARVO urges fiscal year 2011 NIH and NEI funding at $35 billion and 
$794.5 million, respectively.
                                 ______
                                 
    Prepared Statement of the American Society of Clinical Oncology
    The American Society of Clinical Oncology (ASCO), the world's 
leading professional organization representing more than 28,000 
physicians and other professionals who treat people with cancer, 
appreciates this opportunity to express our views on funding for the 
National Institutes of Health (NIH) for fiscal year 2011. ASCO's 
members set the standard for cancer patient care worldwide and lead the 
way in carrying out clinical research aimed at improving the screening, 
prevention, diagnosis, and treatment of cancer. ASCO's efforts are also 
directed toward advocating for policies that provide access to high-
quality care for all patients with cancer and supporting the clinical 
and translational research in the area of oncology that is critical to 
improving the lives of our citizens.
    ASCO thanks the subcommittee for its continued investment in cancer 
research through the annual appropriations process, as well as through 
the American Recovery and Reinvestment Act (ARRA). The years of 
investment in cancer research are paying off in the most important 
ways--deaths rates are decreasing, survival rates are increasing, and 
treatments have fewer side-effects. Researchers are discovering that 
not only is cancer made up of hundreds of diseases, but these diseases 
have numerous subtypes that can be treated with targeted therapies. 
This translates to progress in treatments, as well as the need for 
exponentially more research.
    Without sustained and predictable increases in funding for NIH and 
the National Cancer Institute (NCI), the progress that has been made 
will be significantly delayed. On behalf of the cancer community, we 
wish to highlight that we are very grateful for the support of the 
administration and Congress, which resulted in NIH receiving an 
inflationary increase in fiscal year 2010. However, between 2004 and 
2008, NIH actually lost more than 13 percent of the purchasing power it 
had in 2003, the final year of the NIH budget doubling period.
    In addition to providing important economic stimulus to local 
communities throughout the United States provided through funding for 
research, the ARRA funding for research helped restore this significant 
decline in NIH purchasing power. With the ARRA funding, Congress 
temporarily reinstated the impact and spirit of doubling the NIH 
budget. Progress in fighting cancer would be faster, more efficient, 
and more sustainable if funding were equally steady and sustainable.
              appropriations for fiscal year 2011 for nih
    ASCO is joining with the biomedical research community in 
respectfully requesting the subcommittee appropriate $35 billion to NIH 
for fiscal year 2011. This request would maintain the total funding 
levels from fiscal year 2010 (including an annualized portion of the 
ARRA funds for research, which is 50 percent of the total ARRA funds 
for research), and allow us to sustain the pace of research made 
possible with ARRA. By adding an annualized portion of the research 
dollars provided by ARRA to the base budget of NIH, important 
advancements will continue to be made.
    Research is a long-term process and allowing the important work 
begun with ARRA funds will ensure faster progress in cancer research. 
Progress that has meaning and important positive impacts in patients' 
lives will continue to be made--it is a question of how quickly 
progress will be made going forward and whether researchers in the 
United States will continue to play a leadership role in pursuing these 
advancements.
    ASCO is also respectfully requesting that the subcommittee dedicate 
itself to a sustained, multi-year commitment to research funding. 
Meaningful progress cannot be made if NIH funding does not keep pace 
with the annual increase in the cost of conducting biomedical research. 
Unpredictable increases and decreases in NIH funding not only make it 
difficult for NIH to make commitments to multi-year projects, but also 
serve to discourage the best and brightest researchers to pursue 
careers in medical research. Sustained and predictable funding is key 
to a prosperous and vigorous biomedical research enterprise.
                            benefits of arra
    ARRA has given biomedical research a much needed boost in funding, 
but those funds are set to expire on September 30, 2010. ARRA has made 
it possible to enhance important research projects at NIH and the NCI, 
such as accelerating the identification of genomic alterations in tumor 
types in The Cancer Genome Atlas. This project is mapping cancer genes 
and will lead to increased understanding of how to target new 
treatments to halt the development and spread of cancer. Other uses of 
ARRA funds at NCI include the Accelerating Clinical Trials of Novel 
Oncologic PathWays (ACTNOW), the Cancer Human Biobank, and grants to 
Cancer Centers all across the country to promote personalized cancer 
care and drug development. These efforts are the beginning of a long-
term process to translate discoveries into new treatments for cancer 
patients. Preservation of ARRA funds in the base NIH budget is 
necessary to translate these important discoveries into meaningful 
improvements in care for cancer patients.
    Funding cancer research also benefits local communities. According 
to a Families USA report, for every $1 in grants given by NIH, the 
economic benefit to the local community is, on average nationally, 
$2.21 in economic stimulus by way of new business activity, jobs and 
wages.
               clinical trials and translational research
    In the area of oncology, clinical trials play a significant role in 
the day-to-day treatment options that should be available to patients, 
in large part because clinical trials often provide the best hope for 
successful treatment for cancer patients. NIH and NCI are leading the 
way by funding some very important data-driven translational research 
and clinical trials, bringing new, innovative therapies from research 
laboratories into clinics and hospitals to offer our patients targeted, 
personalized care. Clinical trials are absolutely critical to identify 
better, more cost effective care and longer lives for cancer patients. 
Translational research and clinical trials have changed the standard of 
care in many cancers.
    Clinical trials funded by NIH and NCI examine important questions 
that are not being investigated elsewhere, generate practice-changing 
science, and often recruit difficult to reach subpopulations. 
Unfortunately, these trials are at risk, due to concerns about 
inadequate funding, the pace of the trials and accrual rates. Clinical 
trials are increasingly being conducted overseas, due to the costs and 
regulatory complexities of conducting trials in the United States. This 
denies your constituents the opportunity to participate, either as a 
physician conducting research or as a patient enrolling, in a clinical 
trial. Congress must demonstrate a continued commitment to ensure 
biomedical research is federally funded. NIH research advances have 
transformed the way cancer is prevented, detected and treated, and 
cancer has become a much more survivable disease as a result.
    Federal funding has led to advances in screening that significantly 
contributed to the decline in cancer death rates. Federally funded 
clinical trials have also contributed directly to most patients having 
meaningful access to recommended chemotherapy regimens within their 
communities, often with far fewer side effects than in the past. Today, 
as a direct result of the investment in biomedical research (i.e., 
clinical trials and translational research), we are implementing 
changes that are improving cancer care for our patients.
    Because of these advances and the incredible scientific 
opportunities facing us, ASCO urges the NIH and NCI to focus more of 
its resources in the area of clinical trials and translational 
research. Specifically, ASCO would also like to see an increase in the 
NCI per-case reimbursement for physicians who enroll patients on 
federally funded clinical trials. Studies conducted by ASCO and C-
Change indicate that the current payment rate accounts for only half of 
the actual extra costs imposed on healthcare providers to enroll and 
participate within NCI-funded clinical trials. An ASCO survey of 
clinical trial sites in August 2009 revealed that a significant portion 
of sites are considering limits to their participation in federally 
funded research--in large part due to the inadequate funding provided. 
The funding NCI provides to sites that participate in their trials 
should be increased to account for actual research costs and keep pace 
with the growing costs of collecting and maintaining data and hiring 
skilled staff to oversee the research.
    ASCO again thanks the subcommittee for its continued dedication to 
Americans facing cancer through support of the important work 
accomplished under the guidance of NIH and NCI. We look forward to 
working with all members of the subcommittee to advance cancer 
research.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2011 appropriation for the 
National Institutes of Health (NIH). The ASM is the largest single life 
science organization in the world with more than 40,000 members.
    The ASM is grateful for the support of Congress for the NIH, which 
is the single largest source of funding for biomedical research, with 
an annual budget of more than $31 billion. NIH supports extraordinary 
biomedical research successes, which are also critical to national 
security and a catalyst for the Nation's industrial, business, and 
education enterprises. To ensure continued biomedical research progress 
and to keep pace with the cost of conducting research, we recommend 
that Congress provide at least an 8 percent increase for NIH, and a 
higher level of funding, if possible.
NIH Funding: The Need for Increased Funding for Biomedical Research
    In 2009, healthcare costs in the United States reached $2.5 
trillion, nearly 17 percent of the gross national product and more than 
any other nation, yet key health outcomes need improvement. Biomedical 
research offers innovative individual and population based medical 
interventions that will improve health and productivity. In fiscal year 
2011 the NIH will support emerging technology dependent areas like 
computational biology and DNA sequencing, as well as basic research and 
trans-NIH, multidisciplinary programs, including: (1) genomics and 
other high-throughput technologies; (2) translational medicine to 
expedite the path from basic research to clinical treatments and 
preventives; (3) greater focus on global health; (4) use of science in 
support of healthcare reform; and (5) revitalization of medical 
research, including training new scientists.
    In fiscal year 2011, NIH will support research by its own 6,000 
scientists and by nearly 325,000 other researchers at more than 3,100 
institutions, including medical schools, universities, and hospitals. 
About 83 percent of the fiscal year 2011 appropriation will fund 
extramural research, stimulating medical innovations, local economies, 
and the technical workforce needed to sustain the Nation's high-tech 
competitiveness. The Department of Health and Human Services funds 85 
percent of the country's life sciences research, primarily through the 
37,000 research project grants NIH will award in fiscal year 2011.
    Each dollar of NIH funding results in another $2 in business 
activity and other financial benefits. Last year, analysts found that 
20 percent of every NIH stimulus dollar spent under the 2009 American 
Recovery and Reinvestment Act (ARRA) purchased commercial products like 
software, instruments, and reagents, boosting technology-based 
industries and services. ARRA has enabled NIH to invest $10.4 billion 
over 2 years in NIH programs, distributed to researchers across the 
Nation through roughly 14,000 grants to date. ARRA stimulus funds to 
NIH ultimately will create or retain 50,000 jobs. ARRA funding clearly 
has stimulated NIH research, which until recently suffered years of 
stagnant or declining resources.
    With stimulus funds, NIH was able to support about 20 percent of 
grant applicants; but in fiscal year 2011, that figure likely will drop 
by half, to an historically low funding rate that will impinge medical 
innovation in the United States. NIH received more than 20,000 
proposals last year for new Challenge grants, which specifically 
support high-risk, high-return projects, but only 229 could be funded. 
Increased funding for NIH in fiscal year 2011 is essential to ensure 
that scientists can pursue research opportunities that will lessen the 
human burdens of disease and disability.
NIH Funding: Foundation for Advances in Medicine
    Last September, NIH and the U.S. Army concluded their joint 
clinical trial in Thailand of a new AIDS vaccine, the first vaccine 
candidate to elicit a protective effect in humans against HIV 
infection. In 2009, NIH achieved advances in the global offensive 
against H1N1 influenza, most notably rapid development and 
implementation of clinical trials for various H1N1 vaccines. The three 
winners of the 2009 Nobel Prize in physiology or medicine had received 
more than $31 million in NIH research grants, while the three Nobel 
winners in chemistry received more than $17 million. Their respective 
studies on cellular aging and on the structure and function of 
ribosomes have transformed medical science and will continue to do so 
into the future.
    Worldwide, communicable diseases are responsible for 51 percent of 
the calculated ``years of life lost'' each year, according to the World 
Health Organization (WHO). Even in wealthy nations like the United 
States, preventable infectious diseases persist as leading causes of 
morbidity and mortality. The National Institute of Allergy and 
Infectious Diseases (NIAID) sponsors a range of research activity from 
diseases like malaria and HIV/AIDS, to immune system disorders, 
biodefense, and the antibiotic resistance among pathogenic microbes to 
drug treatments. NIAID focuses on nearly 300 pathogens that include 
bacteria, viruses, parasites, fungi and prions. New therapies, 
vaccines, diagnostics, and other products nurtured by NIAID have 
benefited every American and contributed in some way to global health.
    Influenza.--Approximately 86 million Americans have received 97 
million doses of 2009 H1N1 influenza vaccine largely developed and 
tested with the support of NIAID. Although the H1N1 pandemic has 
fortunately proved to be more moderate than originally feared, it still 
has produced an estimated 59 million U.S. cases since April 2009; 
265,000 hospitalizations; and 12,000 deaths. Stopping H1N1 requires 
thorough understanding of the viral pathogen's unique features. Ninety 
percent of seasonal flu deaths occur in those older 65, whereas 87 
percent of reported H1N1 deaths were patients under 65. In the past 
year, NIAID funded numerous H1N1 studies, including microscopic exams 
of respiratory tissue from fatal cases; lab experiments suggesting that 
H1N1 may outcompete seasonal flu virus strains and may be more 
communicable; a series of vaccine trials in different human 
subpopulations; and alternative vaccine production strategies, 
including tissue culture based vaccines and an early clinical trial of 
a candidate DNA vaccine, an experimental class of vaccine where a 
pathogen's genetic material is injected directly into the body.
    HIV/AIDS.--In fiscal year 2011, The NIH will spend nearly $3.2 
billion for research on HIV/AIDS, which remains one of the most 
intractable health challenges faced by the world. An estimated 33 
million people are living with HIV worldwide, and another 2 million 
have died. Each year, there are 56,300 new HIV infections in the United 
States; of the estimated 1.1 million Americans living with HIV, 21 
percent are unaware of their infection. The NIAID's Vaccine Research 
Center investigates multiple approaches to new vaccine development, 
like how neutralizing antibodies develop during natural HIV infection, 
which could point to an effective vaccine. NIAID also supports other 
prevention strategies, such as using antiretroviral drugs to stop 
mother to child HIV transmission (an estimated 430,000 children became 
infected in 2008, mostly through birth or breastfeeding from an HIV 
infected mother). In 2009, NIAID outlined its ``test and treat'' 
prevention agenda, based on a WHO mathematical model predicting that 
universal, voluntary, annual HIV testing and immediate treatment for 
those who test positive could radically reduce HIV incidence within a 
decade, and potentially end the pandemic within 50 years.
    Global Health Infectious.--Diseases can quickly spread through the 
world's populations and across national borders. Global health research 
at NIAID informs science based public health policies worldwide, and 
the institute participates in several global partnerships with entities 
like WHO and UNICEF. It also has interagency agreements with USAID, 
CDC, NASA, and the State Department to combat diseases that migrate 
from country to country. With its scientific expertise in major global 
diseases, NIAID will be a vital contributor to the Administration's new 
Global Health Initiative (GHI) designed to reform and coordinate U.S. 
support for international health. NIAID has established programs tied 
to four of the six GHI focus areas, that is, HIV/AIDS, tuberculosis, 
malaria, and neglected tropical diseases (also, health systems and 
health workforce; maternal, newborn, and child health).
    Malaria.--This disease threatens an estimated 3.3 billion people, 
nearly half of the world's population. Each year, this age-old disease 
causes about 250 million clinical cases and nearly 1 million deaths, 
most of those deaths in and children under 5 years and pregnant women. 
At least four species of the causative Plasmodium protozoa are 
transmitted through bites from dozens of Anopheles mosquito species, 
all of which can develop resistance to known pesticides and 
antimalarial drugs and a fifth human malaria parasite was recently 
discovered in Asia. The complex parasite vector human host cycle ranks 
malaria among medicine's grand challenges. NIAID funds basic and 
applied research to develop tools and strategies for the treatment, 
prevention, and control of this disease.
    One-third of the world's population is infected with the pathogen 
Mycobacterium tuberculosis. There are 9.4 million new tuberculosis 
cases annually and 1.8 million deaths, making TB the leading cause of 
global mortality after HIV/AIDS. Public health efforts against TB are 
often outmoded, the mostly commonly used diagnostics were developed a 
century ago, there have been no new drugs introduced for decades, and 
the last new vaccine was produced 40 years ago. Therapy is difficult at 
best, and the emergence of drug-resistant strains has greatly 
complicated treatment. TB cases classified as ``extensively drug 
resistant'' (XDR) now occur in nearly 60 nations, with mortality rates 
exceeding 95 percent in some areas. NIAID funding supports research to 
discover updated diagnostics, therapeutics, and vaccines.
    The so called ``neglected tropical diseases'' (NTDs) like 
leishmaniasis, sleeping sickness, and Chagas disease cumulatively 
infect more than 1 billion people and kill 534,000 per year. WHO 
categorizes 14 diseases as NTDs important to global health, serious 
illnesses that most often affect impoverished countries. Many are often 
fatal, usually ignored by control and treatment programs, and 
associated with poor surveillance tools and systems. NIAID conducts 
research on selected NTDs.
NIH Funding: Defense Against Emerging Infectious Diseases
    The proposed fiscal year 2011 budget increases funding for NIAID's 
activities emerging infectious diseases. These diseases might migrate 
or evolve naturally, perhaps developing resistance to standard drug 
treatments, or their pathogens might be deliberately dispersed as 
agents of bioterrorism. NIAID funding has created countermeasures 
against anthrax, botulinum toxin, and smallpox.
    In recent years, alarmed public health officials have devoted 
increasing resources toward mitigating the social and economic impacts 
of antimicrobial resistance. NIAID supports multiple projects devoted 
to the biological aspects of this problematic phenomenon. Drug 
resistant pathogens of greatest concern include methicillin resistant 
Staphylococcus aureus (MRSA), vancomycin-resistant enterococci (VRE), 
and the microbial causes of malaria, HIV/AIDS, influenza, tuberculosis, 
streptococcal pneumonia, and various foodborne illnesses. Many 
resistant infections develop in healthcare settings. Each year, about 2 
million people develop infections in U.S. hospitals, with 90,000 
deaths. About 70 percent of those infections are linked to pathogens 
resistant to at least one drug. Data now indicate that the problem 
outside healthcare settings is greater than originally believed. In 
fiscal year 2011, NIAID will fund a new initiative, Development of 
Therapeutic Products for Biodefense, with particular emphasis on broad 
spectrum products or those addressing the growing dilemma of 
antimicrobial resistance.
NIH Funding: Moving Forward in Biomedical Research
    Discoveries through NIAID and NIGMS programs have fostered 
breakthrough tools and methods vital to sectors of the US medical 
enterprise, like biotechnology. Research strategies at NIH must take 
advantage of cutting edge technologies and modern scientific 
disciplines like genomics and bioinformatics. NIAID research 
partnerships will develop next-generation biodefense diagnostics, like 
those using nanotechnology-based microfluidic platforms, in vivo 
imaging methods, or other emerging technologies.
    By supporting high-risk, high-return projects, NIGMS lays the 
foundation for future advances in disease diagnosis, treatment, and 
prevention. It promotes large-scale initiatives to solve complex 
problems through collaborative research. An example is the NIGMS 
pharmacogenetics research program, which integrates laboratory science 
and databases linking genes, medicines, and diseases. In December, 
NIGMS announced five new projects in its pharmacogenomics collaboration 
with Japan's Center of Genomic Medicine; one will examine why 
antiretrovirals used to treat HIV are not effective in some people.
    NIH funding also invests in the future by building the workforce 
needed to sustain innovation. Each year, NIH also provides grants for 
STEM education across the United States, and supports pre- and 
postdoctoral scientists at the NIH campus or with fellowships 
elsewhere. NIGMS alone supports approximately 50 percent of Ph.D. 
training positions at NIH.
    NIH plays a key role in accelerating transformation of basic 
science into clinical tools that save lives. The ASM recommends that 
Congress approve at least an 8 percent increase for the National 
Institutes of Health.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2011 appropriation for the 
Centers for Disease Control and Prevention (CDC). The ASM is the 
largest single life science organization in the world with more than 
40,000 members.
    The ASM is very concerned that the proposed CDC budget of $6.6 
billion for fiscal year 2011 is 2 percent below the fiscal year 2010 
appropriation. The administration's proposed budget is inconsistent 
with the need to adequately fund the agency acknowledged to be the 
principal Federal driver in meeting our Nation's goals for enhanced 
prevention and wellness. Focusing only on the infectious disease 
component of the CDC budget, the ASM notes that the administration has 
proposed a $19.6 million increase in this area. However, such a modest 
increase does not adequately address the growing complexity and 
challenges of emerging infectious diseases. These challenges have been 
abundantly evident over the past year with the H1N1 influenza pandemic. 
Furthermore, the proposed budget substantially decreases two priority 
program areas: the CDC's vector-borne diseases program (by $26.7 
million, which will essentially eliminate the program), and the CDC's 
antimicrobial resistance program (by $6.8 million). In the fiscal year 
2011 budget, both programs are to be supported out of emerging 
infectious disease funds. Therefore, the proposed increase of $19.6 
million for emerging infectious diseases is insufficient to offset the 
$34 million in proposed reductions for vector-borne diseases and 
antimicrobial resistance, resulting in a net decrease of $15 million 
for emerging infectious diseases.
    Eliminating funding for the vector-borne diseases program will 
impair CDC's collaborations with State and local partners consisting of 
vector-borne disease surveillance, outbreak response, the development 
of new diagnostics, diagnostic training and proficiency testing, as 
well as applied research and prevention efforts to address arboviral 
diseases. In the proposed budget, it is unclear what, if any, support 
will be available in fiscal year 2011 for prevention and control of 
vector-borne pathogens. This funding reduction will essentially destroy 
the infrastructure developed in the past decade in response to the 
importation of West Nile virus in 1999 and its subsequent spread across 
the United States, and will leave the country vulnerable to similar 
importation of other vector-borne diseases. In view of the net 
reduction for infectious diseases of approximately $15 million, the ASM 
recommends that Congress increase the budget for emerging infectious 
diseases and for CDC by at least 8 to 10 percent, to restore and 
strengthen funding for infectious disease prevention and control and 
other priority public health programs.
    Vector-borne Diseases.--The administration's proposed elimination 
of funding (-$26.7 million) for vector-borne diseases, including West 
Nile Virus, in its fiscal year 2011 budget will have serious 
repercussions. Many emerging or re-emerging infectious diseases are 
tied to pathogens transmitted from animals to humans, often through 
insect vectors. CDC programs protect public health through ``one 
health'' strategies, based on the understanding that human health is 
intertwined with the health of animals and the environment. The vector-
borne program not only supports the West Nile virus activities, but 
also supports work on agents like plague, tularemia, Lyme disease, 
dengue fever, and Japanese encephalitis. Lyme disease is by far the 
most common tickborne infection in the United States and exacts an 
enormous toll in healthcare costs and lost productivity. The U.S. 
mainland is constantly threatened by the potential for establishment of 
dengue virus, as occurred last year in the Florida Keys. Emerging 
public health risks like chikungunya virus in South Asia and the Indian 
Ocean are an ongoing concern similar to West Nile. To appropriately 
address vector-borne infections requires a vibrant infrastructure for 
detection, diagnosis, response and prevention at the national, State, 
and local level. The proposed budget cuts will substantially dismantle 
the system developed in response to West Nile virus, causing much of 
the $200 million investment over the last decade to disappear. ASM 
urges the Administration to restore the vector borne disease funding.
    Antimicrobial Resistant Infections.--The administration's proposed 
budget reduces the antimicrobial resistance program by $6.8 million. 
The ASM disagrees with the proposed fiscal year 2011 decreases for 
crucial CDC efforts at a time when drug-resistant pathogens continue to 
emerge in both the community and healthcare setting. The decrease will, 
among other negative outcomes, substantially cut funding to States for 
surveillance and control programs. As a partner in the Federal 
Interagency Action Plan to Combat Antimicrobial Resistance, CDC has 
been instrumental in tracking the grim increase in microbial pathogens 
resistant to antimicrobial drugs, like methicillin-resistant 
Staphylococcus aureus (MRSA). Invasive MRSA infections attack about 
94,000 Americans annually, contributing to 19,000 deaths. MRSA is an 
increasing problem in community settings where different control 
strategies are necessary than in the hospital environment. A similar 
trend is being seen with Clostridium difficile, an organism once 
largely confined to hospital and nursing home settings but now 
associated with increasing severity in the community. Microbial drug 
resistance is driven by various factors, from pathogens' natural 
evolution to the growing use of antimicrobials in human and animal 
healthcare. One estimate suggests that between 5 and 10 percent of all 
hospitalized U.S. patients acquire a drug-resistant infection, adding 
$5 billion in annual healthcare costs. CDC either leads or collaborates 
in multiple projects against antimicrobial resistance, like the World 
Health Organization (WHO) effort to reduce the global spread of 
cephalosporin-resistant gonorrhea. Reduced funding would seriously 
impact the ability to mount and sustain programs to confront the 
problem of antimicrobial resistant pathogens.
CDC Funding: The Need for Increased Resources
    While life expectancy has steadily increased, influenza, pneumonia, 
and septicemia caused by microbial pathogens remain among the top 10 
causes of death. The sudden emergence of pandemic H1N1 in the spring of 
2009 in Mexico, California, and Texas highlights the profound impact 
infectious diseases can have on our well being and economy. In addition 
to such emergent threats, other infectious diseases are on the rise. 
Reported cases of sexually transmitted Chlamydia infections have more 
than tripled since 1990, making it the most commonly reported 
infectious disease in the United States. Each year, children are absent 
38 million school days due to influenza. About 43,000 Americans still 
develop acute hepatitis B annually, despite effective vaccines. The 
estimated annual cost to U.S. hospitals of treating healthcare 
associated infections ranges from $28.4 billion to $45 billion. 
Foodborne illnesses continue to produce tens of millions of infections 
annually. And each year, Americans visit physician offices, hospital 
outpatient units or emergency rooms for infectious and parasitic 
diseases an estimated 30 million times.
    The CDC Office of Infectious Diseases (OID) has three programs to 
prevent numerous microbial diseases: the National Center for 
Immunization and Respiratory Diseases, the National Center for Emerging 
and Zoonotic Infectious Diseases and the National Center for HIV/AIDS, 
Viral Hepatitis, STD and TB Prevention. The CDC's Center for Global 
Health and other agency offices add expertise to the fight against 
disease pathogens here and abroad. In the past year, CDC personnel have 
contributed to the fight against H1N1 influenza and identified or 
confirmed the causes of disease outbreaks nationwide. They monitor 
drug-resistant tuberculosis and other communicable diseases at U.S. 
ports of entry, and collaborate with local, State, Federal, and 
international partners to protect and promote good health in countries 
such as Haiti in response to the recent catastrophic earthquake.
Monitoring Disease, Protecting Public Health
    HIV/AIDS.--CDC estimates that about 1.1 million persons in the 
United States are living with HIV or AIDS; an estimated 21 percent do 
not know that they are infected. With life saving antiretroviral 
treatments now available, earlier diagnosis is the goal of recent CDC 
guidances on opt-out testing in correctional institutions and other 
settings and for routine screening in all healthcare settings for those 
aged 13-64 years and pregnant women, and retesting at least annually 
for all at high risk. In November, CDC reported that HIV incidence 
among intravenous drug users had declined by nearly 80 percent since 
the late 1980s, a positive public health outcome, yet late diagnosis of 
new infections persists. The fiscal year 2011 budget increases funds 
for a National HIV/AIDS Strategy under development, to include renewed 
efforts toward HIV risk reduction.
    Hepatitis.--Two percent of the U.S. population or an estimated 5.3 
million are living with chronic hepatitis B (HBV) or hepatitis C (HCV), 
most unaware of their infection unless they later develop liver disease 
or cancer. Last year, a CDC study concluded that in the previous 
decade, failures by healthcare workers to follow basic infection 
control practices had placed more than 60,000 U.S. patients at risk for 
HBV or HCV infection. In January, the Institute of Medicine called for 
a new, improved national strategy to prevent and control these 
infections. Each year an estimated 25,000 persons become infected with 
hepatitis A (HAV), even though rates of acute symptomatic cases have 
declined by 92 percent since a vaccine first became available in 1995. 
CDC now recommends HAV vaccine for all children at age one, since 
children are a major source of infection for adults who can develop 
more serious symptoms. CDC reported last year that vaccination among 
U.S. children increased from about 26 percent in 2006 to more than 47 
percent in 2007, but this means that still over half of our children 
are needlessly at risk of a fully preventable disease like hepatitis A. 
They also serve as a source of infection to vulnerable adults.
    Tuberculosis.--In a new CDC report, preliminary statistics from the 
agency's National TB Surveillance System reveals that 2009 saw the 
largest single year decrease in U.S. cases since data collection began 
in 1953. The 11,540 cases reported last year were roughly 11 percent 
fewer than the previous year, with declines in both U.S.- and foreign-
born persons, although the TB rate among foreign born was still nearly 
11 times higher. Possible explanations for the unprecedented drop, 
which CDC is investigating, include failure to recognize, diagnose, or 
report the disease due to weakening infrastructure or diversion of 
public health resources to the H1N1 response. This would represent a 
serious setback to TB disease control and elimination efforts in the 
United States. The emergence of tuberculosis bacteria resistant to 
available antimicrobial drugs has alarmed health organizations 
worldwide. CDC scientists identified genetic mutations associated with 
drug resistance in tuberculosis bacteria, which are now included in CDC 
laboratory testing available to State public health laboratories.
    Foodborne/Waterborne Illness.--A recent study estimates that the 
total economic impact of foodborne illness in the United States reaches 
$152 billion annually. Last April, CDC reported that progress in 
foodborne illness prevention had reached a plateau, with the incidence 
of the most common foodborne illnesses stagnating over the previous 3 
years after several years of decline in the late 1990s and early 2000s. 
Of particular concern is the incidence of Salmonella infections, which 
persists at 14-16 cases per 100,000 Americans and periodically causes 
disease outbreaks. CDC reports the following foodborne illnesses: (1) 
of the 1,270 outbreaks in 2006, 621 had a confirmed single cause, most 
often norovirus (54 percent), followed by Salmonella (18 percent); and 
(2) foods tied to the largest number of outbreak cases were poultry (21 
percent), leafy vegetables (17 percent) and fruits-nuts (16 percent). 
The ASM commends the appreciable increases in fiscal year 2011 funding 
for food safety activities that will boost CDC capabilities, such as 
expanded outbreak surveillance and standardized investigations at the 
State and local level. The proposed fiscal year 2011 budget 
specifically supports CDC water quality programs, including expansion 
of its Safe Water System and Water Safety Plan to additional countries 
to reduce waterborne diseases like cholera, giardiasis and 
cryptosporidioisis.
Preventing Disease, Protecting Public Health
    Over the past year, considerable CDC resources focused on 
preventing H1N1 influenza. Americans have received 97 million doses of 
H1N1 vaccine via CDC distribution systems. Although the pandemic has 
been less severe than originally feared, it has still resulted in an 
estimated 55 million U.S. cases since April 2009, 246,000 
hospitalizations and 11,000 deaths, many in infants, children, and 
young adults. CDC testing determined that many Americans who died from 
H1N1 had co-infections with the common pneumonia bacterium, 
Streptococcus pneumoniae, which likely contributed to their death. 
Unfortunately, vaccine preventable pneumococcal infections still kill 
an estimated 40,000 Americans each year. CDC officials are currently 
assessing the lessons learned during the 2009-2010 influenza season.
    In February, CDC recommended universal use in children of an 
updated pneumococcal vaccine just approved by the Food and Drug 
Administration, which should greatly reduce S. pneumoniae infections 
and stop a leading cause of bacteremia, meningitis and pneumonia. 
Pneumonia kills nearly 2 million children each year, most in 
impoverished nations.
Improving Preparedness and Response
    Being prepared for the unexpected is one of CDC's primary 
responsibilities in protecting our health and well-being. During an 
emergency, CDC can quickly convene expert teams and deploy both 
personnel and medical supplies anywhere in the world. CDC leads Federal 
efforts to detect and contain biothreats and to ensure availability of 
medical countermeasures. It operates the Strategic National Stockpile, 
a repository of countermeasures for rapid deployment, as well as its 
quarantine stations at the Nation's borders. It distributes grants to 
State and local health departments to build capacity against public 
health emergencies and acts of terrorism. The ASM supports the proposed 
additional fiscal year 2011 funds to improve CDC's overall preparedness 
and response efforts, including the Laboratory Response Network and 
Select Agent Program.
    In light of the significant role played by the CDC as the Nation's 
first line of defense against a host of infectious disease threats and 
its leadership in national efforts to promote wellness and prevention, 
these efforts should not be handicapped by a funding reduction as 
proposed in the 2011 budget. The ASM supports an 8 to 10 percent 
increase in infectious disease activities to assure critical programs 
are not reduced or eliminated and that opportunities to prevent and 
control infectious diseases are not curtailed. ASM appreciates the 
opportunity to comment on the fiscal year 2011 budget for the CDC.
                                 ______
                                 
   Prepared Statement of the American Society of Mechanical Engineers
    The NIH Task Force (``Task Force'') of the Inter Sector Committee 
on Federal Research and Development (ISCFRD) of ASME is pleased to 
provide comments on the bioengineering-related programs contained 
within the National Institutes of Health (NIH) fiscal year 2011 budget 
request. The Task Force is focused on the application of mechanical 
engineering knowledge, skills, and principles for the conception, 
design, development, analysis, and operation of biomechanical systems.
The Importance of Bioengineering
    Bioengineering is an interdisciplinary field that applies physical, 
chemical, and mathematical sciences, and engineering principles to the 
study of biology, medicine, behavior, and health. It advances knowledge 
from the molecular to the organ levels, and develops new and novel 
biologics, materials processes, implants, devices, and informatics 
approaches for the prevention, diagnosis, and treatment of disease, for 
patient rehabilitation, and for improving health. Bioengineers have 
employed mechanical engineering principles in the development of many 
life-saving and life-improving technologies, such as the artificial 
heart, prosthetic joints, diagnostics, and numerous rehabilitation 
technologies.
Background
    The NIH is the world's largest organization dedicated to improving 
health through medical science. During the last 50 years, NIH has 
played a leading role in the major breakthroughs that have increased 
average life expectancy by 15 to 20 years.
    The NIH is comprised of different Institutes and Centers that 
support a wide spectrum of research activities including basic 
research, disease and treatment-related studies, and epidemiological 
analyses. The mission of individual Institutes and Centers varies from 
either study of a particular organ (e.g., heart, kidney, eye), a given 
disease (e.g., cancer, infectious diseases, mental illness), a stage of 
life (e.g., childhood, old age), or finally it may encompass 
crosscutting needs (e.g., sequencing of the human genome and the 
National Institute of Biomedical Imaging and Bioengineering (NIBIB).
    The total fiscal year 2011 NIH budget request is $32.2 billion, or 
3.2 percent above the $31.2 billion fiscal year 2010 appropriated 
amount. The Task Force recognizes that this proposed increase is 
significant given the administration's commitment to reducing the 
Federal deficit. However, the Task Force notes that the 
administration's 3.2 percent increase to the overall NIH budget is less 
than the up to 3.8 percent projected increase in research costs due to 
inflation--as predicted by the Biomedical Research and Development 
Price Index (BRDPI)--and as a consequence actually results in an 
effective decrease in funding for the NIH compared to fiscal year 2010. 
The Task Force therefore recommends out-year budget increases well 
beyond BRDPI inflation rates to compensate for this flat level of 
funding.
    The Task Force further notes that NIH received $10.4 billion as 
part of the American Recovery and Reinvestment Act (ARRA) of 2009 
(Public Law 111-5), an important influx for several key divisions of 
NIH over the fiscal year 2009 and fiscal year 2010 funding cycles, 
particularly the NIBIB, which received $78 million--less than 1 percent 
of the $10.4 billion ARRA budget assigned to the NIH for the fiscal 
year 2009 and fiscal year 2010 funding cycles. NIBIB has already 
exhausted approximately 95 percent of this budget, leaving little ARRA 
funding to leverage through the fiscal year 2010 budget cycle and 
underscore the need for more robust investment in bioengineering at 
NIBIB. While this one-time influx of funding for health research and 
infrastructure was justified, the Task Force notes that the unstable 
nature of such funding inhibits the potential impact on the economy and 
should not be viewed as a viable substitute for steady and consistent 
support from Congress for these critical national research priorities.
    Overall research and development activities are expected to account 
for 97.4 percent of the total fiscal year 2011 NIH budget, or $31.4 
billion. With this, the administration estimates 9,052 research project 
grants (RPGs) will be supported, 199 less than fiscal year 2010, 
essentially flat year-on-year. Of the administration's priority 
programs this year, the Task Force commends the recommended $382 
million in support for the National Nanotechnology Initiative, a 6 
percent or $22 million increase over fiscal year 2010.
NIBIB Research Funding
    The administration's fiscal year 2011 budget requests $325.93 
million for the NIBIB, an increase of $9.47 million or 3 percent from 
the fiscal year 2010 appropriated amount. This increase is less than 
the 3.8 percent projected increase in research costs due to inflation 
(predicted by the BRDPI index) and, as a consequence, actually results 
in an effective decrease in funding for NIBIB compared to fiscal year 
2010. The mission of the NIBIB is to seek to improve human health by 
leading the development and application of emerging and breakthrough 
technologies based on a merging of the biological, physical, and 
engineering sciences.
    The budget for NIBIB Research Grants would increase by $6.1 million 
to $268.8 million, a 2.4 percent increase from fiscal year 2010. 
Funding for intramural research would increase 3.6 percent to $11.5 
million from $11 million in fiscal year 2010. NIBIB's Research 
Management and Support request is $17.7 million, a 5.4 percent increase 
or $0.84 million over fiscal year 2010.
    NIBIB funds the Applied Science and Technology (AST) program, which 
supports the development and application of innovative technologies, 
methods, products, and devices for research and clinical application 
that transform the practice of medicine. The fiscal year 2011 request 
for AST is $176.8 million, a $5.2 million increase or 3 percent from 
fiscal year 2010.
    Additionally, NIBIB funds the Discover Science and Technology (DST) 
program, which is focused on the discovery of innovative biomedical 
engineering and imaging principles for the benefit of public health. 
The fiscal year 2011 request for DST is $95.1 million, a $2.2 million 
or 2.4 percent increase from fiscal year 2010.
    The Technological Competitiveness-Bridging the Sciences program, 
which funds interdisciplinary approaches to research, would receive 
$24.9 million in fiscal year 2011, a $0.9 million increase or 3.6 
percent over the fiscal year 2010 enacted level.
Task Force Recommendations
    The Task Force is concerned that the United States faces rapidly 
growing challenges from our counterparts in the European Union and Asia 
with regards to bioengineering advancements. While total health-related 
U.S. research and development investments have expanded significantly 
over the last decade, investment in bioengineering at NIBIB have 
remained relatively flat over the last several years. In fact, the 
fiscal year 2011 budget actually represents a small reduction in 
funding when the fiscal year 2003 NIBIB appropriation of $280 million 
is adjusted for inflation ($329 million in 2010 dollars).
    The Task Force wishes to emphasize that, in many instances, 
bioengineering-based solutions to healthcare problems can result in 
improved health outcomes and reductions in healthcare costs--a 
fundamental tenet of the President's National Innovation Strategy. For 
example, coronary stent implantation procedures cost approximately 
$20,000, compared to bypass graft surgery at double the cost. Stenting 
involves materials science (metals and polymers), mechanical design, 
computational mechanical modeling, imaging technologies, etc. that 
bioengineers work to develop. Not only is the procedure less costly, 
but the patient can return to normal function within a few days rather 
than months to recover from bypass surgery, greatly reducing other 
costs to the economy. Therefore, we strongly urge Congress to consider 
increased funding for bioengineering within the NIBIB and across NIH, 
and work to strengthen these investments in the long run to reduce U.S. 
healthcare costs and support continued U.S. leadership in 
bioengineering.
    The NIBIB must obtain sustained funding increases, both to 
accelerate medical advancements as our Nation's population ages, and to 
mirror the growth taking place in the bioengineering field. The Task 
Force believes that the administration's budget request for fiscal year 
2010 is not aligned with the challenges posed by this objective; a 3 
percent budget increase will not keep up with current inflationary 
increases for biomedical research, eroding the United States' ability 
to lay the groundwork for the medical advancements of tomorrow.
    While the Task Force supports Federal proposals that seek to double 
Federal research and development in the physical sciences over the next 
decade, we believe that strong Federal support for bioengineering and 
the life sciences is especially essential to the health and 
competitiveness of the United States. The supplemental funding that NIH 
received as part of ARRA and the budget request by the administration 
does not completely erase the past several years of disappointing 
budgets. Congress and the administration should work to develop a 
specific plan, beyond President Obama's call for ``innovations in 
healthcare technology'' in his ``Strategy for American Innovation'', to 
focus on specific and attainable medical and biomedical research 
priorities which will reduce the costs of healthcare and improve 
healthcare outcomes. Further, Congress and the administration should 
include in this strategy new mechanisms for partnerships between NSF 
and the NIH to promote bioengineering research and education. The Task 
Force feels these initiatives are necessary to build capacity in the 
U.S. bioengineering workforce and improve the competitiveness of the 
U.S. bioengineering research community.
                                 ______
                                 
        Prepared Statement of the American Society for Nutrition
    The American Society for Nutrition (ASN) appreciates this 
opportunity to submit testimony regarding fiscal year 2011 
appropriations for the National Institutes of Health (NIH) and the 
National Center for Health Statistics (NCHS). ASN is the professional 
scientific society dedicated to bringing together the world's top 
researchers, clinical nutritionists, and industry to advance our 
knowledge and application of nutrition to promote human and animal 
health. Our focus ranges from the most critical details of research to 
very broad societal applications. ASN respectfully requests $37 billion 
for NIH, and we request $162 million for NCHS in fiscal year 2011.
    Basic and applied research on nutrition, nutrient composition, the 
relationship between nutrition and chronic disease and nutrition 
monitoring are critical to the health of all Americans and the U.S. 
economy. Awareness of the growing epidemic of obesity and the 
contribution of chronic illness to burgeoning healthcare costs has 
highlighted the need for improved information on dietary components, 
dietary intake, strategies for dietary change and nutritional 
therapies. Preventable chronic diseases related to diet and physical 
activity cost the economy more than $117 billion annually, and this 
cost is predicted to rise to $1.7 trillion in the next 10 years. It is 
for this reason that we urge you to consider these recommended funding 
levels for two agencies under the Department of Health and Human 
Services that have profound effects on nutrition research, nutrition 
monitoring, and the health of all Americans--the NIH and the NCHS .
NIH
    NIH is the Nation's premier sponsor of biomedical research and is 
the agency responsible for conducting and supporting 90 percent (more 
than $1.4 billion) of federally funded basic and clinical nutrition 
research. Nutrition research, which makes up about 4 percent of the NIH 
budget, is truly a trans-NIH endeavor, being conducted and funded 
across multiple Institutes and Centers. Some of the most promising 
nutrition-related research discoveries have been made possible by NIH 
support.
    In order to fulfill the extraordinary promise of biomedical 
research, including nutrition research, ASN recommends an fiscal year 
2011 funding level of $37 billion for the agency.
    Over the past 50 years, NIH and its grantees have played a major 
role in the explosion of knowledge that has transformed our 
understanding of human health, and how to prevent and treat human 
disease. Because of the unprecedented number of breakthroughs and 
discoveries made possible by NIH funding, scientists are helping 
Americans to live longer, healthier, and more productive lives. Many of 
these discoveries are nutrition-related and have impacted the way 
clinicians prevent and treat heart disease, cancer, diabetes, and age-
related macular degeneration.
    During the next 25 years, the number of Americans with chronic 
disease is expected to reach 46 million, and the number of Americans 
older than age 65 is expected to be the largest in our Nation's 
history. Sustained support for basic and clinical research is required 
if we are to confront successfully the healthcare challenges associated 
with an older, and potentially sicker, population.
    For several years in a row the NIH budget failed to keep up with 
inflation and subsequently, the percentage of dollars funding 
nutrition-focused projects declined. Thanks to Congress' inclusion of 
nearly $10 billion for NIH in H.R. 1, the American Recovery and 
Reinvestment Act, the scientific enterprise has been revitalized and 
additional biomedical research projects have been supported. ASN was 
pleased to see that more than 2 years. These projects also are, in 
addition to generating new findings to improve human health and 
nutrition, providing jobs and generating commercial activity throughout 
the broader community. It is imperative that we continue our commitment 
to biomedical research and to fulfill the hope of the American people 
by making the NIH a national priority. Otherwise, we risk losing our 
Nation's dominance in biomedical research.
    The research engine needs predictable, sustained investment in 
science to maximize our return on investment. Recent experience has 
demonstrated how cyclical periods of rapid funding growth followed by 
periods of stagnation is disruptive to the discovery process, can lead 
to fewer students choosing careers in research, impedes long-range 
projects and ultimately slows progress. NIH needs sustainable and 
predictable budget growth to achieve the full promise of medical 
research to improve the health and longevity of all Americans.
CDC National Center for Health Statistics
    The National Center for Health Statistics (NCHS), housed within the 
Centers for Disease Control and Prevention (CDC), is the Nation's 
principal health statistics agency. The NCHS provides critical data on 
all aspects of our healthcare system, and it is responsible for 
monitoring the Nation's health and nutrition status. Nutrition and 
health data, largely collected through the National Health and 
Nutrition Examination Survey (NHANES), is essential for tracking the 
health and well being of the American population, and it is especially 
important for observing health trends in our Nation's children. Knowing 
both what Americans eat and how their diets directly affect their 
health provides valuable information to guide policies on food safety, 
food labeling, food assistance, military rations and dietary guidance. 
Not surprisingly, NHANES serves as a gold standard for nutrition and 
health data collection around the world.
    For several years, flat and decreased funding levels threatened the 
collection of this important information, most notably vital statistics 
from the NHANES. Beginning in fiscal year 2009, Congress made a renewed 
commitment to this agency by appropriating an additional $11 million to 
the agency--for nearly $125 million total--in fiscal year 2009 and a 
$14 million boost in fiscal year 2010. Actions in fiscal year 2009 
halted what would have been the beginning of drastic cuts to the 
agency's premier health surveys--NHANES and the National Health 
Information Survey--that were slated to occur should the agency not 
receive additional funds. Last year's continued support enabled the 
agency to rebuild after years of underinvestment. ASN appreciates very 
much the leadership this subcommittee has shown in securing steady and 
sustained funding increases for NCHS over the past 3 fiscal years.
    To continue support for the agency and its important mission, ASN 
supports the President's fiscal year 2011 budget request of $162 
million for the agency.
    The obesity epidemic is a case in point that demonstrates the value 
of the work done by NCHS. It is because of NHANES that our nation 
became aware of this growing public health problem, and as obesity 
rates have increased to 31 percent of American adults (which we know 
because of continued monitoring), so too have rates of heart disease, 
diabetes and certain cancers. It is only through continued support of 
this program that the public health community will be able to stem the 
tide against obesity. Continuous collection of this data will allow us 
to determine not only if we have made progress against this public 
health threat, but also if public health dollars have been targeted 
appropriately. A recent report from the Institute of Medicine 
recognized the importance of NHANES and called for the enhancement of 
current surveillance systems to monitor relevant outcomes and trends 
with respect to childhood obesity.\1\
---------------------------------------------------------------------------
    \1\ Institute of Medicine. Progress in Preventing Childhood Obesity 
Washington, DC: National Academies Press, 2006.
---------------------------------------------------------------------------
    Now that healthcare reform has been signed into law, collecting 
health statistics is of even greater importance. Providing an 
additional $23 million in fiscal year 2011 continues the progress on a 
path that can mitigate previous years of flat-funding and ensure we 
have a 21st century health statistics system in the United States.
    ASN thanks your subcommittee for its support of the NIH and NCHS in 
previous years.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB) we 
would like to thank the subcommittee for its extraordinary support of 
the National Institutes of Health (NIH) and ask that the subcommittee 
members encourage increased funding for plant biology research, which 
has contributed in innumerable ways to improving the lives of people 
throughout the world.
    ASPB is an organization of more than 5,000 professional plant 
biologists, educators, graduate students, and postdoctoral scientists. 
A strong voice for the global plant science community, our mission--
which is achieved through engagement in the research, education, and 
public policy realms--is to promote the growth and development of plant 
biology and plant biologists and to foster and communicate research in 
plant biology. The Society publishes the highly cited and respected 
journals Plant Physiology and The Plant Cell, and it has produced and 
supported a range of materials intended to demonstrate fundamental 
biological principles that can be easily and inexpensively taught in 
school and university classrooms by using plants.
Plant Biology Research and America's Future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are almost always the primary 
producers in the Earth's ecosystems. Plants and plant-based products 
directly or indirectly provide our food, our shelter, and our clothing.
    Plant biology research is making many fundamental contributions in 
vital areas including health and nutrition, energy, and climate change. 
For example, because plants are the ultimate source of both human 
nutrition and nutrition for domestic animals, plant biology has the 
potential to contribute greatly to reducing healthcare costs as well as 
playing an integral role in discovery of new drugs and therapies. 
Although NIH does offer some funding support to plant biology research, 
with increased funding plant biologists can offer much more to advance 
the missions of NIH. In the next section, we highlight the particular 
relevance of plant biology research to human health.
Plant Biology and NIH
    The mission of the NIH is to pursue ``fundamental knowledge about 
the nature and behavior of living systems and the application of that 
knowledge to extend healthy life and reduce the burdens of illness and 
disability.'' Plant biology research is highly relevant to this 
mission.
    Plants are often the ideal model systems to advance our 
``fundamental knowledge about the nature and behavior of living 
systems,'' as they provide the context of multi-cellularity while 
affording ease of genetic manipulation, a lesser regulatory burden, and 
inexpensive maintenance requirements. Many basic biological components 
and mechanisms are shared by both plants and animals. For example, a 
molecule named cryptochrome that senses light was identified first in 
plants and subsequently found to also function in humans, where it 
plays a central role in regulating our biological clock. Jet lag 
provides one familiar example of what happens to us when our biological 
clock is disrupted, but there are also human genetic disorders that 
have been linked to malfunctioning of the clock. As another example, 
some fungal pathogens can infect both humans and plants, and the 
molecular mechanisms employed by both the pathogen and its targeted 
host can be very similar.
Health and Nutrition
    Plant biology research is also central to the application of basic 
knowledge to ``extend healthy life and reduce the burdens of illness 
and disability.'' This connection is most obvious in the inter-related 
areas of nutrition and clinical medicine. Without good nutrition, there 
cannot be good health. Indeed, one World Health Organization study on 
childhood nutrition in developing countries concluded that more than 50 
percent of the deaths of children less than 5 years of age could be 
attributed to malnutrition's effects in exacerbating common illnesses 
such as respiratory infections and diarrhea. Strikingly, most of these 
deaths were not linked to severe malnutrition but only to mild or 
moderate nutritional deficiencies. Plant biology researchers are 
working today to improve the nutritional content of crop plants by, for 
example, increasing the availability of nutrients and vitamins such as 
iron, vitamin E and vitamin A. (Up to 500,000 children in the 
developing world go blind every year as a result of vitamin A 
deficiency).
    By contrast, obesity, cardiac disease, and cancer take a striking 
toll in the developed world. Among many plant biology initiatives 
relevant to these concerns are research to improve the lipid 
composition of plant fats and efforts to optimize concentrations of 
plant compounds that are known to have anti-carcinogenic properties, 
such as the glucosinolates found in broccoli and cabbage, and the 
lycopenes found in tomato. Ongoing development of crop varieties with 
tailored nutraceutical content is an important contribution that plant 
biologists are making toward realizing the goal of personalized 
medicine, especially personalized preventative medicine.
Drug Discovery
    Plants are also fundamentally important as sources of both extant 
drugs and drug discovery leads. In fact, more than 10 percent of the 
drugs considered by the World Health Organization to be ``basic and 
essential'' are still exclusively obtained from flowering plants. Some 
historical examples are quinine, which is derived from the bark of the 
cinchona tree and was the first highly effective anti-malarial drug; 
and the plant alkaloid morphine, which revolutionized the treatment of 
pain.
    These pharmaceuticals are still in use today. A more recent example 
of the importance of plant-based pharmaceuticals is the anti-cancer 
drug taxol. The discovery of taxol came about through collaborative 
work involving scientists at the National Cancer Institute within NIH 
and plant biologists at the U.S. Department of Agriculture. The plant 
biologists collected a wide diversity of plant materials, which were 
then evaluated for anti-carcinogenic properties. It was found that the 
bark of the Pacific yew tree yielded one such compound, which was 
isolated and named taxol after the tree's Latin name, Taxus brevifolia. 
Originally, taxol could only be obtained from the tree bark itself, but 
additional research led to the elucidation of its molecular structure 
and eventually to its chemical synthesis in the laboratory.
    On the basis of a growing understanding of metabolic networks, 
plants will continue to be sources for the development of new medicines 
to help treat cancer and other ailments. Taxol is just one example of a 
plant secondary compound. Since plants produce an estimated 200,000 
such compounds, they will continue to provide a fruitful source of new 
drug leads, particularly if collaborations such as the one described 
above can be fostered and funded. With additional research support, 
plant biologists can lead the way to developing new medicines and 
biomedical applications to enhance the treatment of devastating 
diseases.
Conclusion
    Despite the fact that plant biology research underlies so many 
vital practical considerations for our country, the amount invested in 
understanding the basic function and mechanisms of plants is small when 
compared with the impacts of this information on multibillion dollar 
sectors of the economy such as health, energy, and agriculture.
    Clearly, the NIH does recognize that plants are a vital component 
of its mission. However, because the boundaries of plant biology 
research are permeable and because information about plants integrates 
with many different disciplines that are highly relevant to NIH, ASPB 
hopes that the subcommittee will provide additional resources through 
increased funding to NIH for plant biology in order to help pioneer new 
discoveries and new methods in biomedical research.
                                 ______
                                 
  Prepared Statement of the American Society of Tropical Medicine and 
                                Hygiene
    The American Society of Tropical Medicine and Hygiene (ASTMH)--the 
principal professional membership organization representing, educating, 
and supporting scientists, physicians, clinicians, researchers, 
epidemiologists, and other health professionals dedicated to the 
prevention and control of tropical diseases--appreciates the 
opportunity to submit written testimony to the Senate Labor, Health and 
Human Services, and Education, and Related Agencies Appropriations 
Subcommittee. We respectfully request that the subcommittee provide the 
following allocations in the fiscal year 2011 Labor, Health and Human 
Services, and Education, and Related Agencies appropriations bill to 
support a comprehensive effort to promote malaria, neglected tropical 
disease (NTD), and diarrheal disease control programming globally:
  --$35 billion to the National Institutes of Health (NIH);
  --$5.04 billion to the National Institute of Allergy and Infectious 
        Diseases (NIAID);
  --$78.5 million to the Fogarty International Center (FIC);
  --$18 million to the Centers for Disease Control and Prevention (CDC) 
        for malaria research, control, and program evaluation efforts 
        with a $6 million set-aside for program monitoring and 
        evaluation; and
  --Direct funding to the CDC for ongoing efforts on NTDs and diarrheal 
        disease.
ASTMH Background
    The 3,700 members of ASTMH work in a myriad of public, private, and 
nonprofit environments. The largest proportion of our membership (34 
percent) work in academia at the Nation's leading research 
universities. Fifteen percent of ASTMH members are employed by the U.S. 
military, and 11 percent are employed in public institutions and 
Federal agencies. Nine percent of ASTMH members are in private 
practice, with another 4 percent working in industry (e.g., 
pharmaceutical companies). The balance of the ASTMH membership works in 
numerous other capacities and for various other entities seeking to 
reduce and prevent tropical disease.
Tropical Medicine and Tropical Diseases
    The term ``tropical medicine'' refers to the wide-ranging clinical, 
research, and educational efforts of physicians, scientists, and public 
health officials with a focus on the diagnosis, mitigation, prevention, 
and treatment of vector borne diseases prevalent in the areas of the 
world with a tropical climate. Most tropical diseases are located in 
either sub-Saharan Africa, parts of Asia (including the Indian 
subcontinent), or Central and South America. Many of the world's 
developing nations are located in these areas; thus tropical medicine 
tends to focus on diseases that impact the world's most impoverished 
individuals.
    ASTMH aims to advance policies and programs that prevent and 
control those tropical diseases which particularly impact the global 
poor. The United States has a long history of leading the fight against 
tropical diseases which cause human suffering and pose a great 
financial burden that can negatively impact a country's economic and 
political stability. The benefits of U.S. investment in tropical 
diseases are not only humanitarian, they are diplomatic as well. ASTMH 
members and others work to reduce the impact of tropical diseases and 
to directly and positively impact populations that are otherwise 
generally ignored, but on whom many countries' futures depend. Tropical 
diseases, many of them neglected for decades, impact U.S. citizens 
working or traveling overseas as well as our military personnel. 
Furthermore, some of the agents responsible for these diseases can be 
introduced and become established in the United States (as was the case 
with West Nile virus), or might even be weaponized.
Malaria
    Malaria remains a global emergency affecting mostly poor women and 
children; it is an acute, sometimes fatal disease caused by the single-
celled Plasmodium parasite transmitted to humans by Anopheles 
mosquitoes. Malaria can cause anemia, jaundice, kidney failure, and 
death. Despite being treatable and preventable, malaria is one of the 
leading causes of death and disease worldwide. Approximately every 30 
seconds, a child dies of malaria--a total of about 800,000 under the 
age of 5 every year. (During the time it took to read this message, 10 
children have died.)
    The World Health Organization (WHO) estimates that one-half of the 
world's people are at risk for malaria and that there are 108 malaria-
endemic countries. Malaria-related illness and mortality not only take 
a human toll, they severely impact economic productivity and growth. 
The WHO has estimated that malaria reduces sub-Saharan Africa's 
economic growth by up to 1.3 percent per year.
    Fortunately, malaria can be both prevented and treated using four 
types of relatively low-cost interventions: (1) the indoor residual 
spraying (IRS) of insecticide on the walls of homes; (2) long-lasting 
insecticide-treated nets (LLIN); (3) Artemisinin-based combination 
therapies (ACTs); and (4) intermittent preventive therapy (IPT) for 
pregnant women in areas with high transmission. However, limited 
resources preclude the provision of these interventions and treatments 
to all individuals and communities in need. Thus, ASTMH calls upon 
Congress to fund a comprehensive approach to malaria control, including 
public health infrastructure improvements, mosquito abatement 
initiatives, and increased availability of existing anti-malarial 
drugs, development of new anti-malarial drugs and better diagnostics, 
and research to identify an effective malaria vaccine.
Neglected Tropical Diseases, Diarrheal Disease and Arboviruses
    According to WHO, more than 1 billion people--one-sixth of the 
world's population--suffer from one or more NTDs, including arboviruses 
such as yellow fever and Dengue fever. The pediatric death toll due to 
diarrheal illnesses exceeds that of AIDS, tuberculosis, and malaria 
combined. In poor countries, diarrheal disease is second only to 
pneumonia in causing the deaths of children under 5 years old. Every 
week, 31,000 children in low-income countries die from diarrheal 
diseases. Diarrheal and NTDs, including arboviruses, are a symptom of 
poverty and disadvantage. Most of those affected are the poor 
populations in rural areas, urban slums or conflict zones. 
Traditionally, these diseases have been neglected by the world.
Requested Activities and Funding Levels
    NIAID.--Malaria continues to be among the most daunting global 
public health challenges we face and one-sixth of the world's 
population suffers from one or more NTDs. A long-term investment is 
needed to achieve the drugs, diagnostics and research capacity needed 
to control malaria and neglected tropical disease. NIAID, the lead 
institute for malaria research, plays an important role in developing 
the drugs and vaccines needed to fight malaria.
    Malaria.--NIH estimates spending approximately $152 million overall 
with for malaria research and $36 million for research related 
specifically to creating a malaria vaccine in fiscal year 2011. NIAID, 
the lead Institute for this research, has developed an Implementation 
Plan for Global Research on Malaria, which is focused on five research 
areas: vaccine development, drug development, diagnostics, vector 
control, and infrastructure and research capability strengthening.
    NTDs.--The NIH, through NIAID conducts research to better 
understand NTDs, which includes conducting its own basic and clinical 
studies as well as extramural research. These efforts include:
  --Research at the NIAID Laboratory of Parasitic Diseases to uncover 
        how NTD-causing pathogens interact with humans, animals, and 
        the organisms that spread them from host to host. The lab 
        conducts patient-centered research at the NIH Clinical Center 
        in Bethesda, MD, as well as field studies in India, Latin 
        America, and Africa.
  --Actively supporting the discovery and development of drugs for NTDs 
        including a low-cost treatment for visceral leishmaniasis and 
        identifying new drugs for sleeping sickness and Chagas disease.
  --The Vector Biology Research Program at NIAID supports research on 
        several vectors that transmit agents of NTDs. Many of these 
        projects have field components in disease-endemic areas of the 
        world.
  --NIAID also has research repositories that provide researchers with 
        parasite species, standard study protocols, and training.
    ASTMH encourages NIH to continue and expand its investment in 
malaria, NTD, diarrheal disease, and arbovirus research and to 
coordinate that work with other Government agencies to maximize 
resources and ensure development of basic discoveries into useable 
solutions. NIAID is at the forefront of these efforts and continued 
funding is crucial to developing the next generation of drugs, 
vaccines, and other interventions.
    FIC.--Although biomedical research has provided major advances in 
the treatment and prevention of malaria, neglected tropical diseases 
and other infectious diseases, these benefits are often slow to reach 
the people who need them most. Highly effective anti-malarial drugs 
exist; when patients receive these drugs promptly, their lives can be 
saved. FIC plays a critical role in strengthening science and public 
health research institutions in low-income countries. For example, for 
nearly a decade FIC has funded a program that has produced a 
substantial number of researchers with the expertise to address the 
research and clinical challenges associated with diarrheal diseases in 
Latin America. This strong international collaboration is fostering new 
discoveries on the long-term effects of and treatments for diarrheal 
diseases. By promoting applied health research in developing countries, 
the FIC can speed the implementation of new health interventions for 
malaria and NTDs.
    FIC works to strengthen research capacity in countries where 
populations are particularly vulnerable to threats posed by malaria and 
neglected tropical diseases. FIC efforts that strengthen the research 
workforce in-country--including collaborations with U.S.-supported 
global health programs--help to ensure the continuous improvement of 
programs, adapting them to local conditions. This maximizes the impact 
of U.S. investments and is critical to fighting malaria and other 
tropical diseases.
    FIC addresses global health challenges and supports the NIH mission 
through many activities, including:
  --collaborative research and capacity building projects relevant to 
        low- and middle-income nations;
  --institutional training grants designed to enhance research capacity 
        in the developing world, with an emphasis on institutional 
        partnerships and networking;
  --the Forum for International Health, through which NIH staff share 
        ideas and information on relevant programs and develop input 
        from an international perspective on cross-cutting NIH 
        initiatives;
  --the Multilateral Initiative on Malaria, which fosters international 
        collaboration and co-operation in scientific research against 
        malaria; and
  --the Disease Control Priorities Project, a partnership supported by 
        FIC, the Bill & Melinda Gates Foundation, the WHO, and the 
        World Bank to develop recommendations on effective healthcare 
        interventions for resource-poor settings.
    ASTMH urges the subcommittee to allocate additional resources to 
the FIC in fiscal year 2011 to increase these efforts, particularly as 
they address the control and treatment of malaria, NTDs, and diarrheal 
disease.
    CDC Malaria Efforts.--ASTMH calls upon Congress to fund a 
comprehensive approach to malaria control, including adequately funding 
the important contributions of CDC. CDC originally grew out of the WWII 
``Malaria Control in War Areas'' program. Since its founding, the 
Atlanta-based agency has maintained a strong role in efforts to 
research and mitigate malaria. Although malaria has been eliminated as 
an endemic threat in the United States for more than 50 years, CDC 
remains on the cutting edge of global efforts to reduce the toll of 
this deadly disease.
    The CDC is crucial partner in the President's Malaria Initiative 
(PMI), a $6.2 billion, 9-year effort led by the U.S. Agency for 
International Development (USAID) in conjunction with CDC and other 
Government agencies to lower the incidence of malaria in 15 targeted 
countries in sub-Saharan Africa by 50 percent.
    CDC efforts on malaria fall into three broad areas--prevention, 
treatment, and monitoring/evaluation. The agency performs a wide range 
of basic research within these categories, such as:
  --Providing technical assistance to malaria-endemic, non-PMI 
        countries;
  --Conducting research on LLINs, IRS, malaria in pregnancy, and case 
        management including diagnosis, treatment and antimalarial drug 
        resistance to inform new strategies and prevention approaches;
  --Assessing new monitoring, evaluation and surveillance strategies;
  --Conducting additional research on malaria vaccines, including field 
        evaluations; and
  --Developing novel public health strategies for improving access to 
        antimalarial treatment and delaying the appearance of 
        antimalarial drug resistance.
    CDC NTD Programs.--CDC has had a long history of working on NTDs 
and has provided much of the science that underlies those global 
policies and programs in existence today. ASTMH encourages the 
Subcommittee to provide direct funding to the CDC to continue its work 
on NTDs, diarrheal diseases, and arboviruses, such as Japanese 
encephalitis and Dengue. This work is important to any global health 
initiative as individuals are often infected with multiple NTDs 
simultaneously. It is essential that CDC be encouraged to continue its 
monitoring, evaluation and technical assistance in these areas as an 
underpinning of efforts to control and eliminate these diseases. 
Currently the CDC receives zero dollars directly for NTD work; however 
this should be changed to allow for more comprehensive work to be done 
on NTDs directly at the CDC.
Conclusion
    Thank you for your attention to these important global health 
matters. We know you face many challenges in choosing funding 
priorities, and we hope you will provide the requested fiscal year 2011 
resources to those programs identified above. ASTMH appreciates the 
opportunity to share its views, and we thank you for your consideration 
of our requests.
                                 ______
                                 
          Prepared Statement of the American Thoracic Society

                    SUMMARY: FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
National Institutes of Health..........................         35,000
    National Heart, Lung & Blood Institute.............          3,514
    National Institute of Allergy and Infectious                 5,395
     Disease...........................................
    National Institute of Environmental Health Sciences            779.4
    Fogarty International Center.......................             78.4
    National Institute of Nursing Research.............            163
Centers for Disease Control and Prevention.............          8,800
    National Institute for Occupational Safety and                 364.3
     Health............................................
    Asthma Programs....................................             70
    Division of Tuberculosis Elimination...............            220.5
    Chronic Disease Prevention and Health Promotion:                 3
     COPD..............................................
    Office on Smoking and Health.......................            280
    National Sleep Awareness Roundtable................              1
------------------------------------------------------------------------

    The American Thoracic Society (ATS) is pleased to submit our 
recommendations for programs in the Labor, Health and Human Services, 
and Education, and Related Agencies Appropriations Subcommittee 
purview. Founded in 1905, the ATS is an international education and 
scientific society that focuses on respiratory and critical care 
medicine. The ATS's 18,000 members help prevent and fight respiratory 
disease through research, education, patient care, and advocacy.
                        lung disease in america
    Diseases of breathing constitute the third-leading cause of death 
in the United States, responsible for 1 of every 7 deaths. Diseases 
affecting the respiratory (breathing) system include chronic 
obstructive pulmonary disease (COPD), lung cancer, tuberculosis (TB), 
influenza, sleep-disordered breathing, pediatric lung disorders, 
occupational lung disease, sarcoidosis, asthma, and critical illness. 
The death rate due to COPD has doubled within the last 30 years and is 
still increasing, while the rates for the other three top causes of 
death (heart disease, cancer and stroke) have decreased by more than 50 
percent. The number of people with asthma in the United States has 
surged more than 150 percent since 1980 and the root causes of the 
disease are still not fully known.
    In recognition of the rising global burden of lung disease and the 
need for increased awareness and action to promote lung health, the 
ATS, in conjunction with the Federation of International Respiratory 
Societies, has declared 2010 to be the Year of the Lung. Throughout 
2010, the ATS will be sponsoring a series of congressional briefings 
and other events to raise lung disease awareness.
National Institutes of Health (NIH)
    The ATS deeply appreciates the $10 billion in supplemental funding 
provided for the NIH in the American Recovery and Reinvestment Act. 
This funding has sustained NIH support for groundbreaking research into 
diseases like COPD and asthma that affect millions of Americans. It is 
critical that this reinvestment in biomedical research is reinforced 
through annual budget increases that permit the NIH to respond to 
public health needs. We ask the subcommittee to provide $35 billion in 
funding for the NIH in fiscal year 2011.
    Despite the rising lung disease burden, lung disease research is 
underfunded. In fiscal year 2009, lung disease research represented 
just 20.4 percent of the National Heart Lung and Blood Institute's 
(NHLBI) budget. Although COPD is the fourth-leading cause of death in 
the United States, research funding for the disease is a small fraction 
of the money invested for the other three leading causes of death. In 
order to stem the devastating effects of lung disease, research funding 
must continue to grow.
Centers for Disease Control and Prevention (CDC)
    In order to ensure that health promotion and chronic disease 
prevention are given top priority in Federal funding, the ATS supports 
a funding level for the CDC that enables it to carry out its prevention 
mission, and ensure an adequate translation of new research into 
effective State and local public health programs. We ask that the CDC 
budget be adjusted to reflect increased needs in chronic disease 
prevention, infectious disease control, including TB control to prevent 
the spread of drug-resistant TB, and occupational safety and health 
research and training. The ATS recommends a funding level of $8.8 
billion for the CDC in fiscal year 2011.
COPD
    COPD is the fourth-leading cause of death in the United States and 
the third-leading cause of death worldwide, yet the disease remains 
relatively unknown to most Americans. COPD is the term used to describe 
the limitation in breathing due mainly to emphysema and chronic 
bronchitis. CDC estimates that 12 million patients have COPD; an 
additional 12 million Americans are unaware that they have this life 
threatening disease.
    The ATS feels that resources committed to COPD for research and 
education are not commensurate with the impact the disease has on 
Americans. According to the NHLBI, COPD costs the U.S. economy an 
estimated $37 billion per year. We recommend that the subcommittee 
encourage NHLBI and other NIH Institutes to devote additional resources 
to finding improved treatments and a cure for COPD. The ATS commends 
the NHLBI for its leadership on educating the public about COPD through 
the COPD Education and Prevention Program.
    CDC also has a role to play in this work. To address the increasing 
public health burden of COPD, we encourage the creation of a CDC COPD 
program at the Center for Chronic Disease Prevention and Health 
Promotion, and request an appropriation of $3 million in fiscal year 
2011 for this program. We are hopeful that the program will include 
development of a national COPD response plan, expansion of data 
collection efforts and creation of other public health interventions 
for COPD, and that the CDC be encouraged to add COPD-based questions to 
future CDC health surveys, including the National Health and Nutrition 
Evaluation Survey, the National Health Information Survey, and the 
Behavioral Risk Factor Surveillance Survey.
                            tobacco control
    Cigarette smoking is the leading preventable cause of death in the 
United States, responsible for 1 in 5 deaths annually. The ATS 
congratulates the President and the Congress for enactment of the 
Family Smoking and Tobacco Prevention Act. The CDC's Office of Smoking 
and Health coordinates public health efforts to reduce tobacco use. In 
order to significantly reduce tobacco use within 5 years, as 
recommended by the subcommittee in fiscal year 2010, the ATS recommends 
$280 million in funding for the Office of Smoking and Health in fiscal 
year 2011.
                         pediatric lung disease
    Lung disease affects people of all ages. The ATS is pleased to 
report that infant death rates for various lung diseases have declined 
for the past 10 years. In 2006, about 1 in 5 deaths in children under 1 
year of age was due to a lung disease. It is also widely believed that 
many of the precursors of adult respiratory disease start in childhood. 
The ATS encourages the NHLBI to continue with its research efforts to 
study lung development and pediatric lung diseases.
                                 asthma
    The ATS believes that the NIH and the CDC must play a leadership 
role in assisting individuals with asthma. National statistical 
estimates show that asthma is a growing problem in the United States. 
Approximately 22.2 million Americans currently have asthma, including 7 
million children. African Americans have the highest asthma prevalence 
of any racial/ethnic group. The age-adjusted death rate for asthma in 
the African-American population is three times the rate in whites. The 
ATS recommends an fiscal year 2011 funding level of $70 million for the 
CDC's asthma program.
                                 sleep
    Sleep is an essential element of life, but we are only now 
beginning to understand its impact on human health. Several research 
studies demonstrate that sleep-disordered breathing and sleep-related 
illnesses affect an estimated 50-70 million Americans. The public 
health impact of sleep illnesses and sleep disordered breathing is 
still being determined, but is known to include increased mortality, 
traffic accidents, lost work and school productivity, cardiovascular 
disease, obesity, mental health disorders, and other sleep-related 
comorbidities. Despite the increased need for study in this area, 
research on sleep and sleep-related disorders has been underfunded. The 
ATS recommends a funding level of $1 million in fiscal year 2011 to 
support activities related to sleep and sleep disorders at the CDC, 
including for the National Sleep Awareness Roundtable, surveillance 
activities, and public educational activities. The ATS also recommends 
an increase of funding for research on sleep disorders at the Nation 
Center for Sleep Disordered Research at the NHLBI.
                           tuberculosis (tb)
    TB is the second-leading global infectious disease killer, claiming 
1.8 million lives each year. It is estimated that 9-14 million 
Americans have latent TB. Drug-resistant TB poses a particular 
challenge to domestic TB control owing to the high costs of treatment 
and intensive healthcare resources required. Treatment costs for 
multidrug-resistant TB range from $100,000 to $300,000. The global TB 
pandemic and spread of drug resistant TB present a persistent public 
health threat to the United States.
    Despite declining rates, persistent challenges to TB control in the 
United States remain. Specifically: (1) racial and ethnic minorities 
continue to suffer from TB more than majority populations; (2) foreign-
born persons are adversely impacted; (3) sporadic outbreaks occur, 
outstripping local capacity; (4) continued emergence of drug 
resistance; and (5) there are critical needs for new diagnostics, 
treatment, and prevention tools.
    In 2008, Congress passed the Comprehensive Tuberculosis Elimination 
Act (CTEA, Public Law 110-392). This historic legislation revitalized 
programs at CDC and the NIH with the goal of putting the United States 
back on the path to eliminating TB. The new law also authorizes an 
urgently needed reinvestment into new TB diagnostic, treatment and 
prevention tools. The ATS, recommends a funding level of $220.5 million 
in fiscal year 2011 for CDC's Division of TB Elimination, as authorized 
under the CTEA, and encourages the NIH to expand efforts, as requested 
under the CTEA, to develop new tools to reduce the rising global TB 
burden.
                             critical care
    The burden associated with provision of care to critically ill 
patients is enormous, and is anticipated to increase significantly as 
the population ages. Investigation into diagnosis, treatment, and 
outcomes in critically ill patients should be a high priority, and the 
NIH should be encouraged and funded to coordinate investigation related 
to critical illness in order to meet this growing national imperative.
                      fogarty international center
    The Fogarty International Center (FIC) at NIH provides training 
grants to U.S. universities to teach AIDS treatment and research 
techniques to international physicians and researchers. Because of the 
link between AIDS and TB infection, FIC has created supplemental TB 
training grants for these institutions to train international health 
professionals in TB treatment and research. These training grants 
should be expanded and offered to all institutions. The ATS recommends 
Congress provide $78.4 million for FIC in fiscal year 2011, to allow 
expansion of the TB training grant program from a supplemental grant to 
an open competition grant.
          researching and preventing occupational lung disease
    The National Institute of Occupational Safety and Health (NIOSH) is 
the sole Federal agency responsible for conducting research and making 
recommendations for the prevention of work-related diseases and injury. 
The ATS recommends that Congress provide $364.3 million in fiscal year 
2011 for NIOSH to expand or establish the following activities: the 
National Occupational Research Agenda; tracking systems for identifying 
and responding to hazardous exposures and risks in the workplace; 
emergency preparedness and response activities; and training medical 
professionals in the diagnosis and treatment of occupational illness 
and injury.
                               conclusion
    Lung disease is a growing problem in the United States. The level 
of support this subcommittee approves for lung disease programs should 
reflect the urgency illustrated by these numbers. The ATS appreciates 
the opportunity to submit this statement to the subcommittee.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    As part of the fiscal year 2010 appropriations bill for the 
National Institutes of Health (NIH), both the Senate and the House of 
Representatives included language in their reports directing NIH to 
take steps to end the use of Class B dealers by its grant recipients. 
Grantees affected by this language are small in number. According to 
USDA, for the period November 2007-November 2008, 2,863 dogs and 276 
cats came from Class B dealers. This constitutes just 3 percent of the 
almost 95,000 total dogs and cats used in fiscal year 2007 for all 
research purposes, which include not only NIH-sponsored research, but 
also non-NIH-related research, testing and teaching.
    Both chambers were responding to a report from the National Academy 
of Sciences (NAS) (``Scientific and Humane Issues in the Use of Random 
Source Dogs and Cats in Research''), undertaken at the request of 
Congress, that ``critically examine[d] the general desirability and 
necessity of using random source dogs and cats in NIH-funded research, 
and the specific necessity of using Class B dealers as a source of such 
animals for NIH-funded research.'' (p. 2) While the Committee 
``concluded that under some circumstances, dogs and cats with qualities 
of random source animals may be desirable and necessary for NIH-funded 
research,'' it also ``determined Class B dealers are not necessary as 
providers of random source animals for NIH-related research'' (p. 5) 
and that adequate numbers of such animals are available from other 
sources. Acknowledging this finding, the Senate Appropriations 
Committee said, in part, that it ``expects the NIH to phase out, as 
quickly as possible, the use of any of its funds for the purchase of, 
or research on, dogs or cats obtained from those USDA-licensed Class B 
dealers who acquire dogs or cats from third parties . . . and resell 
them. Specifically, the NIH should not award any new grants or 
contracts that involve such animals and should immediately begin 
supporting alternative sources of random source animals from non-class 
B dealers.''
    NIH has been dragging its feet in addressing the problem of Class B 
dealers for a decade, since Congress first expressed its concern over 
the matter. Based on statements NIH representatives have made with 
respect to the NAS report and the appropriations report language, we 
expect them to continue dragging their feet. We respectfully request 
that the subcommittee follow up the strong, sound position it laid out 
in the report language with statutory language prohibiting NIH from 
awarding or renewing any grants or contracts that involve the use of 
dogs or cats acquired from class B dealers, and that, moreover, NIH 
immediately begin supporting alternative sources of random-source dogs 
and cats from non-Class B dealers.
    It should be clarified that the NAS report addressed extramural 
research funded by NIH, not NIH's internal research endeavors. The 
irony is, NIH ceased using Class B dealers in its own intramural 
research over 20 years ago, recognizing the problems--both ethical and 
scientific--caused by acquiring dogs from sources that treat the 
animals inhumanely; fail to provide proper veterinary care and the 
basic necessities such as clean water, food, and shelter; acquire 
animals through fraud and deception; and are constantly under 
investigation for violations of the Animal Welfare Act (AWA). In fact, 
in a recent article in Science (David Grimm, ``Dog Dealers' Days May Be 
Numbered,'' Vol. 327, 26 February 2010, p. 1076-1077), Dr. Robert 
Whitney, former director of NIH's National Center for Research 
Resources (1972-1992) and Deputy Surgeon General of the U.S. Public 
Health Service (1992), is quoted as saying, ``By using these animals, 
we risk losing our credibility with the public. It's an Achilles' heel 
for research.'' Even so, NIH steadfastly refuses to hold its extramural 
grant recipients to the same high standard it requires of its 
intramural researchers.
    Of the 10 remaining licensed Class B dealers who sell live random 
source dogs and cats for experimentation, one is presently under a 5-
year license suspension, and 6 are under investigation for AWA 
violations. And welfare problems with licensed Class B dealers are 
myriad. Needed veterinary care is lacking for many random source 
animals. Heartworm is a widespread problem, particularly in the South. 
Hookworm and mange are as well. Inspectors have observed animals at 
dealer premises with mange, ``loose stool with some blood,'' ``ring-
worm like lesions,'' infected eyes, bite wounds, lameness, tumors, 
chronic cough, and animals who are severely underweight and others with 
a ``purulent discharge from the nose.'' In most cases, there is no 
record of any veterinary care.
    Research institutions may reject animals delivered by a dealer 
because of the poor condition of the dogs and cats, leaving them to be 
hauled from location to location to see if there will be a taker. If 
not, the animal may be taken back and left to die or simply shot. Some 
at research institutions have let USDA know of their concerns. One such 
email identified a cat ``in very poor condition: cache[c]tic, severely 
matted hair coat and a severe case of ear mites.'' It went on to note 
``many of the cats that we receive are wild or are almost wild. I do 
not understand where these cats come from and how they are examined for 
health certificates. I thought the animals had to come from someone who 
had raised and bred the animals on their property or from a specific 
shelter.''
    The conditions for housing, feeding, and care can be problematic as 
well. An Ohio dealer was cited for ``contaminated straw, wet with urine 
and excessive feces. Excessive flies. Water receptacles contaminated 
with black and green algae--a thick layer.'' A dealer in Indiana had 
dogs unable to avoid contact with excreta. Another dealer's inspection 
report notes, ``Some 70-75 percent dogs have water and bread and little 
bits of dog food floating in water. There were some dogs that had only 
bread and water. Some had dog food floating in water. Most of dogs had 
not eaten the watery food blend . . . About 70 percent of the total 
dogs had non-potable water. Water was mixed with bread and dog food and 
sitting in the direct sun.''
    The NAS report took note of these failures to provide for the 
animals' basic welfare: ``In addition, the Committee determined that 
the husbandry standards and humane treatment of animals was 
unacceptably variable among existing Class B dealers, and not 
commensurate with NIH standards of research animal care and quality.'' 
(p. 86; emphasis added.) The report also observed that ``random source 
dogs and cats used for research probably endure greater degrees of 
stress and distress compared to purpose-bred animals. This conclusion 
has implications not only for the welfare of random source animals but 
also for their overall reliability as research models.'' (p. 59)
    USDA is also pursuing separate investigations regarding apparent 
supply violations identified during tracebacks conducted of dealer 
records necessitated by ongoing questions about the illegality of the 
sources of animals. Unlike any other licensees covered under the AWA, 
this one group--Class B dealers selling dogs and cats for research--has 
a long-standing problem maintaining complete and accurate records. An 
insurmountable hurdle for USDA is that the AWA allows anyone who claims 
to have bred and raised an animal to profit by selling the animal to a 
random source dealer-and how can USDA be expected to disprove it?
    Complicating matters further is the fact that dealers commonly 
network with each other; that is, animals are sold from buncher (an 
unlicensed dealer who literally bunches together animals from various 
sources) to dealer to another dealer, often across multiple State 
lines, before being sold for research. With animals changing hands and 
being shipped across the country, how is USDA supposed to keep up with 
the movement of animals and verify their source?
    Another shell game dealers like to play is passing the business on 
to other members of the family after showing them the ropes. Sometimes 
a former employee of a dealer, who has also learned how to work the 
system, may go off on his own and get licensed as well. Brothers Danny 
and Johnny Schachtele of Missouri ran their licensed Class B dealer 
operation as a team beginning in 1987. Later Johnny left the business 
and Danny's wife, Mildred, replaced him. Over the ensuing years, the 
husband-wife team were cited by USDA for a host of violations of the 
AWA, and they were charged with a laundry list of violations, including 
failure to maintain records that fully and correctly disclose the 
identities and other required information of the persons from whom dogs 
were acquired on 51 separate occasions, including one incident that 
pertained to 43 dogs. Further, they were charged with failing to 
provide complete certifications on seven separate occasions, including 
one that pertained to 195 dogs. The husband died before the case was 
resolved and though the wife was fined $107,250, the judge suspended 
$100,000 of it. But the story doesn't end here.
    The couple's son and daughter-in-law, after helping mom close down 
her business, set up their own Class B dealer operation. Becky and Tony 
Schachtele have been cited repeatedly by USDA for apparent violations 
including inadequate veterinary care, faulty recordkeeping, inadequate 
cleaning and sanitization and problems with housing and primary 
enclosures. Among multiple dogs in need of veterinary care, the USDA 
inspector noted one dog ``standing with its head down and rocking in an 
abnormal manner from front to back and side to side . . . dull eyes . . 
. never lifted its head . . . was very thin with very prominent, easily 
visible bony structures . . . the dogs abdomen was extremely tucked and 
its hair coat was dull.'' At one inspection alone, 48 records had 
incomplete addresses for the persons who sold the animals; 31 animal 
certification forms were incomplete; and 44 forms had inconsistent and 
therefore inaccurate information regarding the animals and when they 
were acquired and sold. Though under investigation, the Schachteles are 
still selling dogs and cats for research.
    During a House Agriculture Subcommittee hearing held back in 1996, 
then-Assistant Secretary of Agriculture Michael Dunn described his 
frustration with random source dealers: ``Every time we develop a new 
way to look for something, they develop a new way to hide it.'' To 
address these numerous and ongoing violations, USDA has to inspect 
random source dealers four times a year instead of once a year as is 
done with all other licensees and registrants under the AWA. It spends 
approximately $300,000 per year trying to regulate this small number of 
dealers, and even with that, the department acknowledged in its NAS 
testimony that it cannot guarantee that stolen pets are not being sold 
into research.
    The effect on the animals of such inhumane treatment, and the costs 
of enforcement, are not included in the calculation when NIH cites the 
cheaper cost of random source dogs and cats acquired from Class B 
dealers. But the NAS report does take this into account: ``. . . 
[O]ftentimes dogs and cats from Class B dealers are not free from 
disease. In addition to being a potential threat to other animals and 
people in the research facility, they may need to undergo prolonged 
quarantine, socialization, treatment, or be removed from the study all 
together [sic]. These hidden costs may substantially increase the 
actual final cost by hundreds of dollars per animals. Additionally, the 
price of USDA/APHIS oversight of Class B dealers . . . represents a 
substantial cost to the U.S. government and ultimately the American 
public that is not incurred by NIH, the research institution, nor the 
research investigator.'' (p.75)
    The AWA was passed in 1966 to address the illegal supply of dogs 
and cats to laboratories, and now, over four decades later, these 
problems are still widespread. What has changed significantly over this 
lengthy period of time is the availability of animals from suppliers 
other than random source dealers. Given the problems inherent in the 
use of licensed Class B dealers, researchers have increasingly and 
successfully shifted to acquiring most of their dogs and cats from 
licensed Class A breeders--and by using these dealers instead, the 
researchers will receive animals who have been raised under controlled 
conditions, with the health and vaccination status and the genetic 
background on each individual animal known. In addition, some dogs and 
cats are being bred for experimentation at registered research 
facilities, and in some cases, inexpensive random type animals are 
purchased directly from animal pounds.
    NIH has told this Subcommittee that it is ``committed to ensuring 
the appropriate care and use of animals in research.'' However, NIH has 
left the decision of whether or not to buy dogs and cats from random 
source dealers ``to the local level on the basis of scientific need.'' 
NIH defends the use of Class B dealers arguing that these dealers are 
needed to obtain ``animals that may not be available from other 
sources, such as genetically diverse, older, or larger animals.'' The 
National Academies report clearly states that ``it is not necessary to 
acquire them [random source dogs and cats] through Class B dealers,'' 
(``Report In Brief''), and that adequate numbers are available through 
alternative sources.
    All animals used in research should be obtained from lawful 
sources. Taxpayer dollars, in the form of NIH extramural grants, must 
not continue to fund research using dogs and cats from dealers whose 
modus operandi involves illegal acquisition of animals, fraudulent or 
incomplete records and other illicit activities, and failure to abide 
by the minimum care requirements of the AWA.
    Thank you very much for your consideration of our request for 
statutory language to address this issue and put an end to wasting 
taxpayer money on propping up this corrupt system.
                                 ______
                                 
 Prepared Statement of the Building and Construction Trades Department 
                                AFL-CIO
    My name is Erich (Pete) Stafford and I am the Director of Safety 
and Health for the Building and Construction Trades Dept (BCTD) AFL-
CIO. The BCTD is composed of 13 international unions representing some 
3 million members employed in the building and construction industry.
    The purpose of this testimony is to request your support for 
increased funding for the National Institute for Occupational Safety 
and Health (NIOSH), and its construction research program.
    Despite improvements in workplace safety and health, nearly 15 
American workers die each day from injuries sustained at work, and 134 
die from work-related diseases. Of those killed every day, nearly 4 
work in the construction industry.
    Indeed, construction has the dubious distinction of being the 
single most hazardous industry in the United States accounting for some 
1,200 construction workers killed on the job each year. (see attached 
chart). Another 150,000 suffer serious injuries requiring time off from 
work. Moreover, due to exposures to an array of toxic and hazardous 
substances, construction workers have unacceptably high levels of 
occupational disease including cancers, silicosis, asbestosis, and 
other heart, lung and neurological diseases.
    While construction workers make up only 8 percent of the U.S. 
workforce, they account for more than 22 percent of all work-related 
deaths. The number of construction workers killed on the job is 10 
times the number of firefighters and law enforcement officers killed in 
the line of duty each year, and 20 times the number of job-related 
deaths to miners.
    In addition to the human tragedy, the economic costs are 
staggering. The total cost of fatal and nonfatal injuries and disease 
in the construction industry has been estimated at nearly $13 billion 
annually. And, that does not count the costs of workers' compensation, 
which, at $30 billion a year, are twice that of manufacturing and three 
times that for all industries.
    NIOSH, is the only Federal agency responsible for conducting 
research and making recommendations for the prevention of work-related 
injury and illness. Yet it is one of the most under funded health 
research agencies in the Federal Government, and is hamstrung by being 
buried in the bowels of the Centers for Disease Control and Prevention 
bureaucracy where it remains an orphan.
    Except for a special $80 million increase for the World Trade 
Center (WTC) health program and some $7 million for nanotechnology 
research, the President's fiscal year 2011 NIOSH budget request remains 
at last year's level. While we support both the WTC and nanotechnology 
programs, we think it's high time for the Congress to review the entire 
NIOSH program with an eye towards dramatically improving both its 
structural place within the Department of HHS and its funding.
    With respect to funding, especially funding for the NIOSH National 
Occupational Research Agenda (NORA) program, we recommend a $25 million 
increase more than the President's static $124.5 million NORA request. 
This would permit a modest expansion of NIOSH/NORA research activities 
beyond nanotechnology.
    We are particularly concerned with NORA funding for the 
``construction initiative'' that seeks to (1) identify safety and 
health problem areas and obstacles to prevention and (2) translate that 
research into practice via partnerships and field studies across a 
variety of construction trades.
    A recent National Academy of Sciences' Institute of Medicine review 
of the NIOSH construction program, recommended:
  --Increased funding for the program.
  --Strengthening NIOSH's internal management of the program.
  --Retaining ``The National Construction Center'' as the main focus 
        for ``research to practice'' (R2P) activities.
    According to the National Academy: ``Total annual funding for the 
Construction Research Program between fiscal year 1997 and fiscal year 
2007 has averaged about $17.8 million, ranging from a high of $20.3 
million in fiscal year 1997 to a low of $13.8 million in fiscal year 
2007. . . . When adjusted for inflation and changes in technologies, 
the funding level for the program has declined in terms of real 
purchasing power . . .''
    Moreover, the study committee concluded ``. . . that in spite of 
budget constraints, the Construction Research Program has made an 
impact on one of the most dangerous and largest of U.S. industries. The 
committee finds the funding level inadequate and recommends that high-
level attention be given to determining how to provide program 
resources that are commensurate with a more robust pursuit of the 
program's goals . . .''
    Given the research agenda outlined and recommended by the NAS 
Review Committee, we believe that the construction program should be 
placed on a sounder financial footing and recommend that it receive 
additional funds from the $25 million NIOSH/NORA budget increase we 
have requested.
    To address the many construction safety and problems in our 
industry, the BCTD research arm--The Center for Construction Research 
and Training (CPWR)--has, for many years, been working with NIOSH 
through the NORA construction research initiative. The CPWR was 
recently awarded another 5-year extension of its NIOSH contract to 
serve as the ``National Construction Center'' to coordinate the 
``Research to Practice'' program. Unfortunately, funding for the 
``National Construction Center'' has remained flat for the past 15 
years at about $5 million annually.
    We strongly believe that the best way to address what has become a 
safety and health crisis in our industry is through targeted and 
applied research to better understand the causes of construction-
related incidents and illness and find ways implement solutions on U.S. 
construction sites. While there is certainly an additional need for 
better standards and enforcement by the Department of Labor, NIOSH 
construction research is the critical first step towards a safer and 
healthier construction workforce.
    In addition to fostering more investigator-initiated extramural 
research into risks from emerging technologies such as nano-particles 
and strengthening NIOSH administration, a modest increase in funding 
would expand the transfer of research-to-practice functions of the 
National Construction Center with special emphasis on:
  --Social marketing outreach to small-to-medium sized (less than 50 
        employees) workplaces
  --Special worker populations including immigrant, minority, young and 
        older workers.
  --Opportunities to combine safety and health with more energy-
        efficient construction practices and investigate emerging 
        hazards in green construction.
    As you consider the fiscal year 2011 Labor, Health and Human 
Services, and Education, and Related Agencies appropriation bill, we 
urge you to take some time to consider the safety and health of our 
building and construction workforce. The current situation is simply 
unacceptable and, in light of demands for increased public spending for 
construction projects to stimulate the economy, the safety and health 
pressures on our workers will only become more intense.
    Thank you.

                                  FACILITIES IN THE U.S. CONSTRUCTION INDUSTRY
----------------------------------------------------------------------------------------------------------------
                                       2003            2004            2005            2006            2007
----------------------------------------------------------------------------------------------------------------
Construction....................           1,171           1,278           1,243           1,297           1,239
Transportation..................            >800           >800+            >800            <900            <900
Manufacturing...................            >400            >400            <400            >400             400
Agriculture.....................            >700            >600            >700            >600             600
Mining..........................           >100+            >100            >100             200            <200
----------------------------------------------------------------------------------------------------------------
Source: Center for Construction Research and Training.

                      safety and health facts \1\
---------------------------------------------------------------------------
    \1\ Source: Center for Construction Research and Training.
---------------------------------------------------------------------------
    The construction industry employs only 8 percent of the workforce 
but it suffers 22 percent of all work-related deaths.
    Low-skilled, low-paid laborers suffer the most fatalities.
    Construction establishments with less than 20 workers account for 
55 percent of all fatalities.
    Lung cancer deaths are 50 percent higher among construction workers 
than the U.S. population, adjusted for smoking.
    Construction workers are twice as likely to have chronic 
obstructive lung diseases.
    Construction workers are five times as likely to have a cancer of 
the lung lining, mesothelioma, and 33 times as likely to have 
asbestosis, an incurable and fatal lung disease.
    30-40 percent of construction workers suffer musculoskeletal 
disorders and chronic pain.
    50 percent of construction workers have noise-induced hearing loss.
    Construction workers account for 17 percent of workers with 
elevated blood lead levels.
    Welding fumes account for 75 percent of boilermakers, 15 percent of 
ironworkers and 7 percent of pipefitters exceed the accepted 8-hour 
level for manganese exposure; a known neurotoxin.
                                 ______
                                 
          Letter From the Brain Injury Association of America
                                                     April 7, 2010.
Hon. Tom Harkin,
Chairman, Senate Appropriations Subcommittee on Labor, Health and Human 
        Services, and Education and Related Agencies, Washington, DC.
Hon. Thad Cochran,
Ranking Member, Senate Appropriations Subcommittee on Labor, Health and 
        Human Services, and Education and Related Agencies, Washington, 
        DC.
    Dear Chairman Harkin and Ranking Member Cochran: Thank you for the 
opportunity to submit this written testimony with regard to the fiscal 
year 2011 Labor, Health and Human Services, and Education, and Related 
Agencies appropriations bill. My testimony is on behalf of the Brain 
Injury Association of America (BIAA), our national network of State 
affiliates, and hundreds of local chapters and support groups from 
across the country.
    A traumatic brain injury (TBI) is a blow or a jolt to the head that 
temporarily or permanently disrupts brain function--i.e., who we are 
and how we think, act, and feel. In the civilian population alone every 
year, more than 1.5 million people sustain brain injuries from falls, 
car crashes, assaults and contact sports. Males are more likely than 
females to sustain brain injuries. Children, teens, and seniors are at 
greatest risk.
    Recently, we are seeing an increasing number of service members 
returning from the conflicts in Iraq and Afghanistan with TBI, which 
has been termed one of the signature injuries of the War. A recent 
study conducted by the RAND Corporation found that 320,000 troops, or 
19 percent of all service members, returning from Operations Enduring 
Freedom and Iraqi Freedom may have experienced a traumatic brain injury 
during deployment. Many of these returning service members are 
undiagnosed or misdiagnosed and subsequently they and their families 
will look to community and local resources for information to better 
understand TBI and to obtain vital support services to facilitate 
successful reintegration into the community.
    For the past 13 years Congress has provided minimal funding through 
the Health Resources and Services Administration (HRSA) Federal TBI 
Program to assist States in developing services and systems to help 
individuals with a range of service and family support needs following 
their loved one's brain injury. Similarly, the grants to State 
Protection and Advocacy Systems to assist individuals with traumatic 
brain injuries in accessing services through education, legal and 
advocacy remedies are woefully underfunded. Rehabilitation, community 
support, and long-term care systems are still developing in many 
States, while stretched to capacity in others. Additional numbers of 
individuals with TBI as the result of war-related injuries only adds 
more stress to these inadequately funded systems.
    BIAA respectfully urges you to provide States with the resources 
they need to address both the civilian and military populations who 
look to them for much needed support in order to live and work in their 
communities.
    With broader regard to all of the programs authorized through the 
TBI Act, BIAA specifically requests:
  --$10 million (+$4 million) for the Centers for Disease Control and 
        Prevention TBI Registries and Surveillance, Brain Injury Acute 
        Care Guidelines, Prevention and National Public Education/
        Awareness
  --$8 million (+$1 million) for the Health Resources and Services 
        Administration (HRSA) Federal TBI State Grant Program
  --$4 million (+$1 million) for the HRSA Federal TBI Protection & 
        Advocacy (P&A) Systems Grant Program
    CDC--National Injury Center.--The Centers for Disease Control and 
Prevention's National Injury Center is responsible for assessing the 
incidence and prevalence of TBI in the United States. The CDC estimates 
that 1.4 million TBIs occur each year and 3.4 million Americans live 
with a life-long disability as a result of TBI. In addition, the TBI 
Act as amended in 2008 requires the CDC to coordinate with the 
Departments of Defense and Veterans Affairs to include the number of 
TBIs occurring in the military. This coordination will likely increase 
CDC's estimate of the number of Americans sustaining TBI and living 
with the consequences.
    CDC also funds States for TBI registries, creates and disseminates 
public and professional educational materials, for families, caregivers 
and medical personnel, and has recently collaborated with the National 
Football League and National Hockey League to improve awareness of the 
incidence of concussion in sports. CDC plays a leading role in helping 
standardize evidence based guidelines for the management of TBI and $3 
million of this request would go to fund CDC's work in this area as 
well as support a pilot project to improve hospital compliance with 
existing guidelines.
    HRSA TBI State Grant Program.--The TBI Act authorizes the HHS, 
Health Resources and Service Administration (HRSA) to award grants to 
(1) States, American Indian Consortia and territories to improve access 
to service delivery and to (2) State Protection and Advocacy (P&A) 
Systems to expand advocacy services to include individuals with 
traumatic brain injury. For the past 13 years the HRSA Federal TBI 
State Grant Program has supported State efforts to address the needs of 
persons with brain injury and their families and to expand and improve 
services to underserved and unserved populations including children and 
youth; veterans and returning troops; and individuals with co-occurring 
conditions.
    In fiscal year 2009, HRSA reduced the number of State grant awards 
to 15, in order to increase each monetary award from $118,000 to 
$250,000. This means that many States that had participated in the 
program in past years have now been forced to close down their 
operations, leaving many unable to access brain injury care.
    Increasing the program to $8 million will provide funding necessary 
to sustain the grants for the 15 States currently receiving funding 
along with the three additional States added this year and to ensure 
funding for four additional States. Steady increases over 5 years for 
this program will provide for each State including the District of 
Columbia and the American Indian Consortium and territories to sustain 
and expand State service delivery; and to expand the use of the grant 
funds to pay for such services as Information & Referral (I&R), service 
coordination and other necessary services and supports identified by 
the State.
    HRSA TBI P&A Program.--Similarly, the HRSA TBI P&A Program 
currently provides funding to all State P&A systems for purposes of 
protecting the legal and human rights of individuals with TBI. State 
P&As provide a wide range of activities including training in self-
advocacy, outreach, information, and referral and legal assistance to 
people residing in nursing homes, to returning military seeking 
veterans benefits, and students who need educational services.
    Effective Protection and Advocacy services for people with 
traumatic brain injury is needed to help reduce government expenditures 
and increase productivity, independence and community integration. 
However, advocates must possess specialized skills, and their work is 
often time-intensive. A $4 million appropriation would ensure that each 
P&A can move towards providing a significant PATBI program with 
appropriate staff time and expertise.
    National Institute on Disability and Rehabilitation Research 
(NIDRR) TBI Model Systems of Care.--Funding for the TBI Model Systems 
in the Department of Education is urgently needed to ensure that the 
Nation's valuable TBI research capacity is not diminished, and to 
maintain and build upon the 16 TBI Model Systems research centers 
around the country.
    The TBI Model Systems of Care program represents an already 
existing vital national network of expertise and research in the field 
of TBI, and weakening this program would have resounding effects on 
both military and civilian populations. The TBI Model Systems are the 
only source of nonproprietary longitudinal data on what happens to 
people with brain injury. They are a key source of evidence-based 
medicine, and serve as a ``proving ground'' for future researchers.
    In order to make this program more comprehensive, Congress should 
provide $11 million (+$1.5 million) in fiscal year 2011 for NIDRR's TBI 
Model Systems of Care program, in order to add one new Collaborative 
Research Project. In addition, given the national importance of this 
research program, the TBI Model Systems of Care should receive ``line-
item'' status within the broader NIDRR budget.
    We ask that you consider favorably these requests for the CDC, the 
HRSA Federal TBI Program, and the NIDRR TBI Model Systems Program to 
further data collection, increase public awareness, improve medical 
care, assist States in coordinating services, protect the rights of 
persons with TBI, and bolster vital research.
            Sincerely,
                                  Susan H. Connors,
                                             President/CEO,
                               Brain Injury Association of America.
                                 ______
                                 
               Prepared Statement of the CAEAR Coalition
    On behalf of the tens of thousands of individuals living with HIV/
AIDS to whom the members of the Communities Advocating Emergency AIDS 
Relief (CAEAR) Coalition provide care, I want to thank Chairman Tom 
Harkin and Ranking Member Thad Cochran for affording CAEAR Coalition 
the opportunity to submit this written testimony for the record 
regarding increased funding for the Ryan White HIV/AIDS Program.
    CAEAR Coalition is a national membership organization which 
advocates for Federal appropriations, legislation, policy and 
regulations to meet the care, treatment, support service, and 
prevention needs of people living with HIV/AIDS and the organizations 
that serve them. CAEAR Coalition's proactive national leadership is 
focused on the Ryan White Program as a central part of the Nation's 
response to HIV/AIDS. CAEAR Coalition's members include Ryan White 
Program part A, part B, and part C consumers, grantees, and providers.
A Wise Investment in a Program That Works
    The Ryan White Program works. Those on the epidemic's frontlines 
know this to be true, and that faith received a ringing endorsement 
from the White House Office of Management and Budget (OMB). In its 2007 
Program Assessment Rating Tool (PART), OMB gave the Ryan White Program 
its highest possible rating of ``effective''--a distinction shared by 
only 18 percent of all programs rated. According to OMB, effective 
programs ``set ambitious goals, achieve results, are well-managed and 
improve efficiency.'' Even more impressively, OMB's assessment of the 
Ryan White Program found it to be in the top 1 percent of all Federal 
programs in the area of ``Program Results and Accountability.'' Out of 
the 1,016 Federal programs rated--98 percent of all Federal programs--
the Ryan White Program was one of seven that received a score of 100 
percent in ``Program Results and Accountability.''
    The reauthorization of the Ryan White Program signed in October 
2009 was a tremendous victory for people living with HIV/AIDS and those 
who care for them. We are grateful for congressional efforts to ensure 
that this vital program continued uninterrupted when it expired in 
September. As you are aware, the Ryan White Program serves as the 
indispensable safety net for thousands of low-income, uninsured, or 
underinsured people living with HIV/AIDS.
  --Part A provides much-needed funding to the 56 major metropolitan 
        areas hardest hit by the HIV/AIDS epidemic with severe needs 
        for additional resources to serve those living in their 
        communities.
  --Part B assists States and territories in improving the quality, 
        availability, and organization of healthcare and support 
        services for individuals and families with HIV disease.
  --The AIDS Drug Assistance Program (ADAP) in part B provides urgently 
        needed medications to people living with HIV/AIDS in all 50 
        States and the territories.
  --Part C provides grants to 357 faith- and community-based primary 
        care health clinics and public health providers in 49 States, 
        Puerto Rico and the District of Columbia. These clinics play a 
        central role in the delivery of HIV-related medical services to 
        underserved communities, people of color, and rural areas.
  --Part F AETC supports training for healthcare providers to identify, 
        counsel, diagnose, treat, and manage individuals with HIV 
        infection and to help prevent high-risk behaviors that lead to 
        infection. It has 130 program sites in all 50 States.
    We thank you in advance for your consideration of our comments and 
our request for:
  --$905 million for part A to support grants to the cities hardest hit 
        by HIV/AIDS so they can provide quality care to people with 
        HIV/AIDS (an increase of $225.9 million);
  --$474.7 million for part B base to provide additional needed 
        resources to the States in their efforts to address the HIV/
        AIDS epidemic (an increase of $55.9 million).
  --$1,205.1 million in funding for the ADAP line item in part B so 
        uninsured and underinsured people with HIV/AIDS can access the 
        prescribed medications they need to survive (an increase of 
        $307.1 million).
  --$337.8 million for part C to support grants to community-based 
        organizations, agencies, and clinics that provide quality care 
        to people living with HIV/AIDS (an increase of $131 million).
  --$50 million to fund the 11 regional centers funded under by part F 
        AETC to offer specialized clinical education and consultation 
        on HIV/AIDS transmission, treatment, and prevention to 
        frontline healthcare providers (an increase of $15.9 million).
    The increases CAEAR Coalition seeks in the current funding for part 
A, part B base and ADAP, part C, and part F AETC reflect the reality 
that the HIV/AIDS epidemic and the healthcare and social service needs 
of people with HIV/AIDS require significantly more Federal resources 
than those provided in recent years. There continues to be an ever-
growing gap between the number of people living with AIDS in the United 
States in need of care and the resources available to serve them. For 
example, between 2001 and 2007 the number of people living with AIDS 
grew 33 percent and yet funding for medical care and support services 
in the Nation's hardest hit communities grew less than 12 percent 
between 2001 and 2010. Similarly, funding for part C-funded, community-
based primary care clinics, which provided medical care for people 
living with HIV/AIDS in rural and urban communities nationwide, grew by 
only 11 percent between 2001 and 2010 as the number of people they care 
for grew by 52 percent.
Growing Needs, Diminishing Resources
    In 2008, CDC yet again revised upward its estimate of persons 
living with HIV/AIDS in the United States to 1,106,400 (as of 2006). 
Approximately one-half of those people have yet to access HIV-related 
medical care and there is a projected influx of newly diagnosed 
individuals into care as a result of CDC initiatives to promote routine 
HIV testing. CDC also estimates that in 2006, more than 56,000 people 
were newly infected with HIV. Ryan White Program part A, part B base 
and ADAP, part C, and part F AETCs must receive adequate increases to 
meet the healthcare and supportive services needs of individuals 
already in care and those newly identified HIV patients entering care-
many of whom will require comprehensive medical treatment and 
supportive services at the time of diagnosis.
    Additional increases are desperately needed to address the growing 
demand for services, offset the rising cost of care, and help the many 
jurisdictions forced year after year to make service reductions and 
eliminations to rebuild their programs.
    State budget cuts have created an immediate ADAP funding crisis. 
Many State ADAPs are on the brink of the worst funding shortfall in 
many years and there is a record number of people in need of ADAP 
services due to the economic downturn. As of March 2010, there are 662 
people on ADAP waiting lists in 10 States. Additionally, ADAP waiting 
lists and other cost-containment measures, including limited 
formularies, reducing eligibility, or removing already enrolled people 
from the program, are clear evidence that the need for HIV-related 
medications continues to outstrip availability. ADAPs are forced to 
make difficult trade-offs between serving a greater number of people 
living with HIV/AIDS with fewer services or serving fewer people with 
more services. Additional resources are needed to reduce and prevent 
further use of cost-containment measures to limit access to ADAPs and 
to allow all State ADAPs to provide a full range of HIV antiretrovirals 
and treatment for opportunistic infections.
    The number of clients entering the 357 part C community health 
centers and outpatient clinics has consistently increased over the last 
5 years. More than 248,000 persons living with HIV and AIDS receive 
medical care in part C-funded community health centers and clinics each 
year. These community- and faith-based HIV/AIDS providers are 
staggering under the burden of treatment and care after years of 
funding cuts prior to the modest increase in recent years. The CDC has 
implemented a number of initiatives designed to promote routine HIV 
testing to identify people living with HIV. Their success continues to 
generate new clients seeking care at part C-funded health centers and 
clinics with no commensurate increase in the funds necessary to provide 
access to comprehensive, compassionate treatment and care.
Increasing Testing Requires Increasing Access to Care
    The fiscal year 2011 appropriation presents a crucial initial 
opportunity to restore the Ryan White Program to the levels of funding 
demanded by the epidemic as the Centers for Disease Control and 
Prevention (CDC) continue their increased efforts to expand HIV testing 
to help people living with HIV learn their status. With the continued 
influx of newly diagnosed individuals into care and the additional 
56,000 estimated new cases of HIV every year, the Ryan White program 
must receive adequate increases to meet the healthcare and supportive 
services needs of individuals already in care and those newly 
identified HIV patients.
    CAEAR Coalition supports efforts to help identify those individuals 
infected with HIV but unaware of their status. However, CAEAR Coalition 
is concerned that without the simultaneous allocation of additional 
resources for treatment, these CDC initiatives have resulted in a 
significant increase in the demand for HIV/AIDS services without the 
capacity in place to provide that care.
    Increased demand for services has placed a severe strain on the 
HIV/AIDS safety net and forced community-based providers to stretch 
already scarce resources even further to address growing needs. This 
additional pressure on an already overburdened system will leave many 
of the 200,000+ HIV-infected individuals who do not know their HIV 
status without access to the care they need. CAEAR Coalition urges 
Congress and the administration to provide a commensurate increase for 
treatment programs to meet the demand that has resulted from the CDC 
testing initiative.
Sufficient Funding for Ryan White Programs Saves Money and Saves Lives
    Increased funding for Ryan White Programs will reap a significant 
health return for minimal investment. Data show that part A and part C 
programs have reduced HIV-related hospital admissions by 30 percent 
nationally and by up to 75 percent in some locations. The programs 
supported by the Ryan White HIV/AIDS Program also have been critical in 
reducing AIDS mortality by 70 percent. Taken together, the Ryan White 
Program works--resulting in both economic and social savings by helping 
keep people healthy and productive.
    CAEAR Coalition is eager to work with Congress to meet the 
challenges posed by the HIV/AIDS epidemic. Congress and the 
Administration must do more to address the grim reality that the 
domestic epidemic is not static; it is continuing to grow at a 
significant rate and more Federal resources are needed to prevent it 
from becoming a public health catastrophe similar to what we are 
witnessing in the developing world. Already, some communities in the 
United States have infection and death rates similar to those in 
Africa. We must make a commensurate domestic investment to care for 
people in our own communities. CAEAR Coalition looks forward to working 
with the subcommittee and the Congress to help meet the needs of 
Americans living with HIV/AIDS as the appropriations process moves 
forward.
    Given the Ryan White Program's stellar history of accomplishments, 
the vast need for more resources to address unmet need, and such strong 
praise from the Federal Government's most stringent and assiduous 
assessors, we hope the subcommittee will act to provide these 
relatively modest funding increases.
                                 ______
                                 
     Prepared Statement of the Council of Academic Family Medicine
    On behalf of the Council of Academic Family Medicine (CAFM), we are 
pleased to submit testimony on behalf of several programs under the 
jurisdiction of the Health Resources and Services Administration (HRSA) 
and the Agency for Healthcare Research and Quality (AHRQ).
    We are very pleased to have supported the Patient Protection and 
Affordable Care Act (PPACA) and to see it enacted into law. We 
appreciate Congress's efforts to extend healthcare coverage to all and 
are pleased that the law contains significant efforts to support and 
sustain programs that will help produce a workforce needed to take care 
of the Nation. As the law acknowledges, there is much that must be done 
to support primary care production and nourish the development of a 
high-quality, highly effective primary care workforce to serve as a 
foundation for our healthcare system.
Health Care Reform Requires a Robust Primary Care Workforce
    The PPACA contains many measures to address the need for more 
primary care physicians. As you know, increased access for patients in 
terms of insurance coverage is critical, but not sufficient to resolve 
the growing shortage of primary care physicians. In fact, increased 
coverage, without increased numbers of primary care physicians, is a 
recipe for disaster. The implementation of the 2006 Massachusetts 
healthcare reform law demonstrated that universal coverage will 
overwhelm a healthcare system with too few primary care physicians, 
especially, family physicians. Addressing the shortage of primary care 
physicians requires a long-term commitment to train an appropriate 
number of these essential healthcare providers. We must increase our 
investment in effective programs that encourage medical students to 
enter primary care specialties.
    Toward that end, there are several programs and agencies whose 
domain is critically important to producing more primary care 
physicians and providing them with the tools to support high quality 
care. It is those programs and agencies that come under this 
subcommittee's jurisdiction and that this testimony addresses.
Primary Care Training and Enhancement
    Section 747 of the Public Health Service Act has a long history of 
providing necessary funding for the training of primary care 
physicians. In each reauthorization Congress has modified the program 
to obtain certain key goals. The current authorization gives direction 
to HRSA to recognize and prioritize training that will support 
development of expertise in new competencies, including those relevant 
to providing care through patient-centered medical homes, development 
of infrastructure within primary care departments for the improvement 
of clinical care and research critical to primary care delivery, as 
well as innovations in team management of chronic disease, integrated 
models of care, and transitioning between healthcare settings. One new 
area of endeavor is the integration of academic administrative units 
within a school of medicine to promote team based care and true primary 
care production. This provision has a separate, additional 
authorization of $750,000.
    The Advisory Committee on Training in Primary Care Medicine and 
Dentistry recommends $235 million for these programs (including 
dentistry which has subsequently been dropped from this cluster). Other 
key advisory bodies such as the Institute of Medicine (IOM) and the 
Congressional Research Service (CRS) call for increased funding. The 
IOM (December 2008) pointed to the drastic decline in title VII funding 
and described these health professions workforce training programs as 
``an undervalued asset.'' The Congressional Research Service found that 
reduced funding to the primary care cluster has had a negative impact 
on the effectiveness of the programs during a time when more primary 
care is needed (February 2008).
    According to the Robert Graham Center, (Title VII's decline: 
Shrinking investment in the primary care training pipeline, October 
2009), ``the number of graduating U.S. allopathic medical students 
choosing primary care declined steadily over the past decade, and the 
proportion of minorities within this workforce remains low.'' 
Unfortunately, this decline coincides with a decline in funding of 
primary care training funding--funding that we know is associated with 
increased primary care physician production and practice in underserved 
areas.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The report goes on to say that ``the nation needs renewed or 
enhanced investment in programs like Title VII that support the 
production of primary care physicians and their placement in 
underserved areas.'' This situation is only exacerbated by the 
wonderful explosion of people who will gain insurance coverage under 
the new healthcare reform law. Given the tremendous need, we urge the 
Committee to provide a fiscal year 2011 appropriation of $170 million 
for the title VII, section 747 Primary Care Training and Enhancement, 
including the Integrative Academic Administrative Units program, as 
authorized by the Patient Protection and Affordable Care Act. We also 
recommend an appropriation of at least $600 million for all of the 
Health Professions Training Programs authorized under title VII of the 
Public Health Services Act.
Rural Physician Training Grants
    We were pleased that the PPACA included a new program as part of 
title VII of the Public Health Service Act, section 749B, entitled the 
``Rural Physician Training Grants'' program. It is intended to increase 
the supply of rural physicians by authorizing grants to medical schools 
which establish or expand rural training. The program would provide 
grants to produce rural physicians of all specialties. It would help 
medical schools recruit students most likely to practice medicine in 
underserved rural communities, provide rural-focused training and 
experience, and increase the number of medical graduates who practice 
in underserved rural communities.
    According to a July 2007 report of the Robert Graham Center 
(Medical school expansion: An immediate opportunity to meet rural 
healthcare needs), data show that although 21 percent of the U.S. 
population lives in rural areas, only 10 percent of physicians practice 
there. The Graham Center study describes the educational pipeline to 
rural medical practice as ``long and complex.'' There are multiple 
tactics needed to reverse this situation, and this grant program 
includes several of them. Strategies to increase the number of 
physicians practicing in rural areas include ``increasing the number of 
rural-background students in medical school, selecting the ``right'' 
students and giving them the ``right'' content and experiences to train 
them for rural practice.'' This is exactly what this grant program is 
designed to do.
    We request the subcommittee provide the fully authorized amount of 
$4 million in fiscal year 2011 for title VII, section 749B Rural 
Physician Training Grants.
Teaching Health Centers Development Grants
    One of the more creative programs to come out of the healthcare 
reform bill as it relates to workforce is the establishment of Teaching 
Health Centers (THCs). These are community health centers or other 
similar venues that sponsor residency programs and provide residents 
with their ambulatory training experiences in the health center. This 
training in the community, rather than solely at the hospital bedside 
is one of the hallmarks of family medicine training. In fact, numerous 
family medicine residency programs currently align with health centers 
to provide residents with their ambulatory continuity training in these 
settings. However, payment issues have always caused a tension and 
struggle between the hospital, which currently receives reimbursement 
for residents it sponsors when they train in the hospital, and programs 
that require training in nonhospital settings. This program is designed 
to provide residency programs and community health centers grant 
funding to plan for a transition in sponsorship, or the establishment 
of new programs.
    It allows the Secretary to award grants to THCs (community based 
ambulatory patient care centers that operate a primary care residency 
program; listed as FQHC, rural health clinic, community mental health 
center, health center operated by Indian Health Service, or a center 
receiving title X grants) to establish new accredited or expanded 
primary care residency programs. We were pleased that the Patient 
Protection and Affordable Care Act authorized a mandatory 
appropriations trust fund of $230 million over 5 years to fund the 
operations of Teaching Health Centers. However, if this program is to 
be effective, there must be funds for the planning grants to establish 
newly accredited or expanded primary care residency programs.
    We recommend the subcommittee appropriate the full authorized 
amount for the new title VII Teaching Health Centers development grants 
of $50 million for fiscal year 2011.
AHRQ
    Research related to the most common acute, chronic, and comorbid 
conditions that primary care clinicians care for on a daily basis is 
currently lacking. Primary care physicians are in the best position to 
design and implement research of the common clinical questions 
confronted in practice. AHRQ supports research to improve healthcare 
quality, reduce costs, advance patient safety, decrease medical errors, 
and broaden access to essential services. While targeted funding 
increases in recent years have moved AHRQ in the right direction, more 
core funding is needed to help AHRQ fulfill its mission.
    The Institute of Medicine's report, Crossing the Quality Chasm: A 
New Health System for the 21st Century (2001) recommended a much larger 
investment in AHRQ. It recommended $1 billion a year for AHRQ to 
``develop strategies, goals, and action plans for achieving substantial 
improvements in quality in the next 5 years . . '' AHRQ is critical to 
retooling the American healthcare system.
    We support the President's budget request for AHRQ in fiscal year 
2011 of $611 million. With the inclusion of new programs authorized 
under the PPACA, we support a total appropriations level of $731 
million for the Agency.
Primary Care Extension Program
    One of the most exciting new programs to be included in the new 
healthcare reform law is one that utilizes the experience of the United 
States Agriculture Extension Service as its model. This new program, 
under title III of the Public Health Service Act, is designed to 
support and assist primary care providers with the adoption and 
incorporation of techniques to improve community health. As the authors 
of an article describing this new concept (JAMA, June 24, 2009) have 
stated, ``To successfully redesign practices requires knowledge 
transfer, performance feedback, facilitation, and HIT support provided 
by individuals with whom practices have established relationships over 
time. The farming community learned these principles a century ago. 
Primary care practices are like small farms of that era, which were 
geographically dispersed, poorly resourced for change, and inefficient 
in adopting new techniques or technology but vital to the Nation's 
well-being.''
    Congress agreed with the authors that ``practicing physicians need 
something similar to the agricultural extension agent who was so 
transformative for farming,'' and authorized this program at $120 
million for fiscal year 2011 and 2012.
    We support the President's budget request for AHRQ in fiscal year 
2011 of $611 million. In addition, since the $611 million does not 
include this newly passed provision, we request the subcommittee 
provide AHRQ with an additional $120 million for the Primary Care 
Extension program authorized by the health reform law, bringing the 
total request to $731 million.
Workforce Commission
    We have recognized the need, and called for a national commission 
on health workforce issues for many years. We are pleased that the 
PPACA established a National Health Care Workforce Commission to 
provide ``analysis of, and recommendations for, eliminating the 
barriers to entering and staying in primary care, including provider 
compensation.'' We also recognize the importance of the National Center 
for Health Care Workforce Analysis as well as State and Regional 
Centers for such analysis. PPACA authorizes such sums as necessary to 
establish the Commission as well as $8 million in planning grants and 
$150 million for implementation grants. The National Center was 
authorized at $7.5 million annually and the State and Regional Centers 
were authorized at $4.5 million annually.
    We recommend the Committee fully fund the National Health Care 
Workforce Commission, the National and State and Regional Centers for 
Health Care Workforce Analysis in fiscal year 2011.
    We appreciate the work of the Committee in making difficult choices 
when funding many critical programs. We caution the committee not to 
ruin the positive impact of healthcare reform by not supporting the 
complementary programs that are so necessary to its success.
                                 ______
                                 
   Prepared Statement of the Coalition for the Advancement of Health 
             Through Behavioral and Social Science Research
    Mr. Chairman and members of the subcommittee, the Coalition for the 
Advancement of Health Through Behavioral and Social Science Research 
(CAHT-BSSR) appreciates and welcomes the opportunity to comment on the 
fiscal year 2011 appropriations for the National Institutes of Health 
(NIH). CAHT-BSSR includes 13 professional organizations, scientific 
societies, coalitions, and research institutions concerned with the 
promotion of and funding for research in the social and behavioral 
sciences. Collectively, we represent more than 120 professional 
associations, scientific societies, universities, and research 
institutions.
    CAHT-BSSR would like to thank the subcommittee and the Congress for 
its continued support of the NIH. Strong sustained funding is essential 
to national priorities of better health and economic revitalization. 
Providing adequate resources in fiscal year 2011 that allows the NIH to 
keep up with the rising costs of biomedical, behavioral, and social 
sciences research will help NIH begin to prepare for the era beyond 
recovery. It is essential that funding in fiscal year 2011 and beyond 
allow the agency to resume steady, sustainable growth and allow for 
fulfilling the President's vision of doubling our investment in basic 
research. Accordingly, CAHT-BSSR joins the Ad Hoc Group for Medical 
Research in its request for $35 billion in funding for NIH in fiscal 
year 2011. This level of funding will sustain America's enhanced 
medical research capacity. It also represents the new functional 
capacity funded by annual appropriations and the historic American 
Recovery and Reinvestment Act (ARRA).
    NIH Behavioral and Social Sciences Research.--NIH supports 
behavioral and social science research throughout most of its 27 
institutes and centers. The behavioral and social sciences regularly 
make important contributions to the well-being of this Nation. Due in 
large part to the behavioral and social science research sponsored by 
the NIH, we are now aware of the enormous contribution behavior makes 
to our health. At a time when genetic control over diseases is 
tantalizingly close but not yet possible, knowledge of the behavioral 
influences on health is a crucial component in the Nation's battles 
against the leading causes of morbidity and mortality: obesity, heart 
disease, cancer, AIDS, diabetes, age-related illnesses, accidents, 
substance use and abuse, and mental illness.
    As a result of the strong congressional commitment to the NIH in 
years past, our knowledge of the social and behavioral factors 
surrounding chronic disease health outcomes is steadily increasing. The 
NIH's behavioral and social science portfolio has emphasized the 
development of effective and sustainable interventions and prevention 
programs targeting those very illnesses that are the greatest threats 
to our health, but the work is just beginning.
    The grandest challenge we face is understanding the brain, 
behavior, and society--from global warming to responding to short term 
pleasures; from self destructive behavior, such as addiction, to life 
style factors that determine the quality of life, infant mortality rate 
and longevity. Nearly 125 million Americans are living with one or more 
chronic conditions, like heart disease, cancer, diabetes, kidney 
disease, arthritis, asthma, mental illness and Alzheimer's disease. 
Significant factors driving the increase in healthcare spending in the 
United States are the aging of the U.S. population, and the rapid rise 
in chronic diseases, many caused or exacerbated by behavioral factors: 
for example, obesity, caused by sedentary behavior and poor diet; 
addictions and resulting health problems caused by tobacco and other 
drug use. Behavioral and social sciences research supported by NIH is 
increasing our knowledge about the factors that underlie positive and 
harmful behaviors, and the context in which those behaviors occur.
    CAHT-BSSR applauds the NIH's recognition that the ``scientific 
challenges in developing an integrated science of behavior change are 
daunting.'' We especially commend the new basic behavioral and social 
science research trans-NIH initiative, Opportunity Network for Basic 
Behavioral and Social Sciences Research (OppNet), being undertaken by 
the NIH to examine the important scientific opportunities that cut 
across the structure of NIH and designed to look for strategic 
opportunities to build areas of research where there are gaps and that 
have the potential to affect the missions of multiple institutes and 
centers. Research results could lead to new approaches for reducing 
risky behaviors and improving health.
    Likewise, we commend the designation of the ``Science of Behavior 
Change'' Roadmap Initiative included in the third cohort of research 
areas for the Common Fund. We agree with the goals of this Roadmap 
Pilot to ``establish the groundwork for a unified science of behavior 
change that capitalizes on both the emerging basic science and the 
progress already made in the design of behavioral interventions in 
specific disease areas. By focusing basic research on the initiation, 
personalization, and maintenance of behavior change, and by integrating 
work across disciplines, this Roadmap effort and subsequent trans-NIH 
activity could lead to an improved understanding of the underlying 
principles of behavior change. This should drive a transformative 
increase in the efficacy, effectiveness, and (cost) efficiency of many 
behavioral interventions.''
    With the recent passage of healthcare reform legislation, there has 
been the accompanying and appropriate attention to the issue of 
personalized healthcare. CAHT-BSSR believes that personalization needs 
to reflect genes, behaviors, and environments. And as the agency has 
acknowledged with its recent support of the Science of Behavior Change 
initiative, assessing behavior is critical to helping individuals see 
how they can improve their health. It is also critical to helping 
healthcare systems see where it needs to put resources for behavior 
change. Fortunately, the NIH acknowledges the need to focus less on 
finding the ``magic answer'' and, at the same time, recognizes that 
healthcare is different from region to region across the country. Full 
personalization needs to consider the environmental, community, and 
neighborhood circumstances that govern how individuals' genes and 
behavior will influence their health. For personalized healthcare to be 
realized, we need a sophisticated understanding of the interplay 
between genetics and the environment, broadly defined.
    CAHT-BSSR applauds the NIH's recognition of a unique and compelling 
need to promote diversity in health-related research. The agency 
expects these efforts to lead to: the recruitment of the most talented 
researchers from all groups; an improvement in the quality of the 
educational and training environment; a balanced perspective in the 
determination of research priorities; an improved ability to recruit 
subjects from diverse backgrounds into clinical research; and an 
improved capacity to address and eliminate health disparities. Numerous 
studies provide evidence that the biomedical and educational enterprise 
will directly benefit from broader inclusion.
    NIH recognizes that developing a more diverse and academically 
prepared workforce of individuals in S.T.E.M. disciplines will benefit 
all aspects of scientific and medical research and care. CAHT-BSSR 
applauds the agency its recognition that to remain competitive in the 
21st century global economy, the Nation must foster new opportunities, 
approaches, and technologies in math and science education. This 
recognition extends to the need for a coordinated effort to bolster 
science, technology, engineering, and math (S.T.E.M.) education 
nationwide, starting at the earliest stages in education. We applaud 
the agency for its use of ARRA funds to support research designed to 
strengthen and enhance efforts to attract young people to biomedical 
and behavioral science careers and to improve science literacy in 
adults and children.
    CAHT-BSSR also commends the NIH for commissioning the Institute of 
Medicine (IOM) study of LGBT (lesbian, gay, bisexual, and transgender) 
health issues, research gaps and opportunities. LGBT populations are 
among those for whom little or no national-level health data exist 
resulting in significant gaps in knowledge and research on LGBT health. 
At the same time, multidisciplinary research has begun to identify 
important sexual orientation and gender identity-related health 
concerns and disparities. The IOM study is a step in the right 
direction to begin to address many of the research challenges this 
issue presents, including methodological limitations. The study could 
examine the best methodological practices for investigating health 
concerns in LGBT communities. It also provides the opportunity for the 
development of a strategic plan for the NIH to investigate and address 
the health concerns of LGBT people. At the very least, the IOM study 
could examine the current state of knowledge on LGBT health, including 
general health concerns and health disparities.
         nih office of behavioral and social sciences research
    The NIH Office of Behavioral and Social Sciences Research (OBSSR), 
authorized by Congress in the NIH Revitalization Act of 1993 and 
established in 1995, serves as a convening and coordinating role among 
the institutes and centers at NIH. In this capacity, OBSSR develops, 
coordinates, and facilitates social and behavioral science research 
agenda at NIH; advises the NIH director and directors of the 27 
Institutes and Centers; informs NIH and the scientific and lay publics 
of social and behavioral science research findings and methods; and 
trains scientists in the social and behavioral sciences. For fiscal 
year 2011, CAHT-BSSR supports a budget of $41.32 million for OBSSR 
commensurate with the administration's request of $38.2 million for the 
Office and the scientific community's request for the NIH as a whole.
    To achieve its vision of bringing together the biomedical, 
behavioral, and social sciences research communities to work towards 
solving the most pressing health challenges faced by society, OBSSR is 
expanding its efforts to promote and support social and behavioral 
science research in four areas: (1) problem-based research; (2) basic 
science; (3) systems-thinking approaches to population health; and (4) 
interdisciplinary team science. Given the NIH's focus on gene and 
environment interaction, new leading edge research examining how social 
and behavioral factors change or alter the actions of genes to 
influence health and disease is needed.
    OBSSR focuses on cross-cutting behavioral and social research 
issues (e.g., ``Long-term Maintenance of Behavior Change'') using its 
modest budget to seed cross-institute research initiatives. OBSSR has 
spurred cutting edge research in areas such as measures of community 
health, including new community-based participatory programs supporting 
intervention research methods to disease prevention and health 
promotion in medically underserved areas; socioeconomic status; health 
literacy; and new methodology development.
    In fiscal year 2011, OBSSR, in addition to continuing to support 
cross-cutting behavioral and social science research issues intends to 
address the issue of health literacy. Low health literacy is a wide 
spread problem, affecting more than 90 million adults in the United 
States, where 43 percent of adults demonstrate only the most basic or 
below-basic levels of prose literacy. Low health literacy results in 
patients' inadequate engagement in decisions regarding their healthcare 
and can hinder their ability to realize the benefits of healthcare 
advances. Research has linked low or limited health literacy with such 
adverse outcomes as poorer self-management of chronic diseases, fewer 
healthy behaviors, higher rates of hospitalizations, and overall poorer 
health outcomes. These situations hamper the effectiveness of health 
professionals' efforts to prevent, diagnose and treat medical 
conditions, and limit many healthcare consumers' abilities to make 
important healthcare decisions.
    CAHT-BSSR would be pleased to provide any additional information on 
these issues. Below is a list of coalition member societies. Again, we 
thank the subcommittee for its generous support of the National 
Institutes of Health and for the opportunity to present our views.
    CAHT-BSSR
    American Educational Research Association
    American Psychological Association
    American Sociological Association
    Association of Population Centers
    Center for the Advancement of Health
    Consortium of Social Science Associations
    Council on Social Work Education
    Federation of Associations in Behavioral & Brain Sciences
    National Association of Social Workers
    Population Association of America
    Society for Behavioral Medicine
    Society for Research in Child Development
    The Alan Guttmacher Institute (AGI)
                                 ______
                                 
   Prepared Statement of the Center for American Progress Action Fund
    The Center for American Progress Action Fund commends the Senate 
Appropriations Committee and the House Labor, Health and Human 
Services, Education Appropriations Subcommittee for reporting out 
strong fiscal year 2011 Labor, Health and Human Services, Education 
Appropriations bills. Both pieces of legislation make investments in 
the innovative education reform programs needed to make our schools 
better.
    These education reform programs, proposed by the Obama 
administration and funded through the two Labor-HHS bills, constitute 
the right mix of formula-based funding and innovation promotion 
necessary to improve our schools. Some may question the soundness of 
investing in innovative reforms at a period when our country is still 
working to recover from the recession. The reality, however, is that 
the need for innovation has never been greater. School achievement has 
remained essentially flat for more than 30 years, and without 
significant changes in the way we fund and operate schools we will 
almost certainly not see any significant gains in the future.
    We wanted to share our recommendations for the educational 
priorities outlined below as the House and Senate prepare to reconcile 
the two bills before final passage in either a standalone bill or 
within an omnibus spending bill.
Race to the Top
    Race to the Top, a competitive grant program, has been a part of 
the Federal education agenda for only a short period. But it has 
already yielded some of the most significant reforms ever seen in 
education by tying Federal dollars to systemic education reform. 
Twenty-eight States changed their policies in 2009 and 2010 to improve 
their chances of winning a piece of the pie. We urge you to include the 
House funding level of $800 million, which will allow us to continue 
building on these early successes.
    Race to the Top was originally enacted through the American 
Recovery and Reinvestment Act, or ARRA, and has not been authorized. 
CAP Action urges the committee to use its authority to fund this 
promising program.
Investing in Innovation Fund
    The House bill includes $400 million for the Investing in 
Innovation, or i3 fund, which is nearly the full amount of the 
President's request. This program was also enacted through ARRA and has 
not been authorized. But we again urge you to use your authority to 
include this funding level in the final bill. The i3 fund awards grants 
to districts as well as nonprofit organizations partnering with schools 
and districts to scale up evidence-based practices and programs.
    There already has been promising growth in nonprofit educational 
entrepreneurs such as the New Teacher Project and College Summit, but 
these have been established in the absence of significant Federal 
investment. They rely instead on philanthropy, the private sector, and 
local school district contracts. While their achievements have been 
dramatic, limited funding and other policy barriers challenge efforts 
to take their practices to scale.
Teacher Incentive Fund
    The Teacher Incentive Fund is a 4-year-old appropriations line item 
that supports competitive grants to States and school districts to 
implement pay-for-performance programs in high-needs schools. TIF funds 
may also support pay for teaching in subject shortage areas such as 
mathematics and science as well as career ladders for teachers that 
offer them additional pay for increased responsibilities.
    Critics argue that ``merit pay'' is a failed policy that has been 
around since the early 1900s. But the truth is that past merit pay 
programs were destined to fail. They were based on subjective measures 
of teacher performance and weren't part of a comprehensive plan to 
improve teachers' instructional practice. The kinds of programs TIF now 
supports are generally comprehensive programs that include professional 
development, high-quality evaluation, and performance-based 
compensation. And the Department of Education's new guidance for TIF 
has an even greater focus on comprehensive approaches.
Title I School Improvement Grants
    Our education system desperately needs resources to turn around the 
Nation's lowest-performing schools. School improvement grants support 
targeted reforms at the lowest-achieving 5 percent of Title I schools 
in each State. The SIG program also funds efforts to decrease the 
number of ``drop-out'' factories, or high schools that continually 
graduate 60 percent or less of students.
    Through the use of SIG funds we are finally seeing the type of 
dramatic interventions needed to end the cycle of underperformance at 
these schools. We are also encouraged by the recommendation made by the 
Senate Appropriations Committee Report (111-243) that SIG funds be used 
to support strategies meeting more rigorous evidentiary standards (see 
discussion below).
    Unfortunately, too few dollars reach the schools with the greatest 
need, particularly high schools. While the funding level in the House 
bill remains embargoed, CAP Action urges the committee to move forward 
with the Senate funding level of $625 million in school improvement 
grants and help ensure that a more significant proportion of these 
dollars reach middle and high schools.
21st Century Learning Centers Program
    The Senate Labor-HHS bill includes $1.266 billion--a $100 million 
increase--in funding for the 21st Century Community Learning Centers 
program, or CCLC, which has traditionally funded afterschool programs, 
to support expanded learning time and community schools. CAP Action 
urges you to include this level of funding in the final legislation as 
well as the report language that provides new flexibility to use funds 
to expand school time.
    Expanded learning time schools formally incorporate traditional 
out-of-school activities-including enrichment activities such as the 
arts and service opportunities-into the official school calendar so 
that all students have access, including those living in high poverty. 
Expanded learning time can close not only academic achievement gaps but 
enrichment gaps as well.
    Community schools are fully equipped to tackle ``out-of-school'' 
barriers by opening up social and health resources to students and 
their families. Community schools that seamlessly integrate academic 
and nonacademic services help educators navigate the effects of 
poverty, ill health, and language barriers so students are ready to 
learn every day.
    CCLC dollars are currently limited to activities during nonschool 
hours, which prohibits the expansion of expanded learning time and 
community schools. CAP Action thus calls on the committee to lift this 
prohibition and provide States, districts, and schools with the 
flexibility to choose to dedicate these dollars to the models that best 
suit their students' needs.
Charter Schools Program
    The Charter Schools Program provides grants to States to support 
the planning and development of new charter schools. This funding is 
critical because charter schools usually receive less public funding 
than traditional public schools. In fact, a recent study finds that 
charter schools receive 19.2 percent less funding per pupil on average.
    The existence of charter schools has spurred the development of 
some of the most promising school models for educating disadvantaged 
students. School models like KIPP, Yes Prep, and Achievement First have 
achieved unprecedented outcomes for students in poverty and have even 
outperformed schools with higher-income students. A recent Mathematica 
study of KIPP middle schools found that the schools had a positive 
impact on students' math and reading achievement 4 years after students 
entered the schools.
    High-achieving charter schools like these would not exist without 
adequate financial support. We understand that the House bill includes 
$266 million in funding for the Charter School Program, and we urge you 
to include this in the final legislation.
Promise Neighborhoods
    Promise Neighborhoods are focused on improving educational outcomes 
for children living in our most distressed communities and represent an 
unprecedented shift in how localities address child poverty and 
academic opportunity. Each Promise Neighborhood will provide ``cradle-
to-career'' services to support students who attend schools in a 
designated geographic area. Schools, city governments, colleges and 
universities, nonprofits, health providers, and other organizations in 
each Promise Neighborhood will collaborate to finally break down the 
silos that may have prevented past efforts to help low-income students 
achieve.
    The Department of Education recently awarded 21 planning grants to 
communities across the country to create Promise Neighborhoods. The 
important work funded by these planning grants will be wasted without 
sufficient funding in the fiscal year 2011 budget to scale up these 
initiatives. We hope you will provide at least $60 million for Promise 
Neighborhoods--as was included in the House bill--and encourage you to 
provide more if possible to bring the funding level closer to the 
Administration's original request of $210 million.
Evidence-based intervention
    The Senate Appropriations Committee Report (111-243) calls for a 
refinement of the criteria relating to interventions appropriate for 
persistently failing schools. We strongly support this language, which 
encourages the Department of Education to urge States and districts to 
use their Title I School Improvement Grants only for interventions that 
meet two standards of evidence specified by the Investing in Innovation 
(i3) grant program. Specifically, Congress should stipulate that the 
Department of Education foster the use of intervention strategies 
meeting the evidence standards required of ``validation'' grants or 
``scale-up'' grants under i3.
    This approach honors the idea that educators should strive 
generally to expose children to research-based practices. And it 
creates a logical connection between the department's support for 
research and development on the one hand and its support for sound 
practice on the other.
    A challenging economy requires responsible Federal spending. CAP 
Action believes the fiscal year 2011 education appropriations budget 
should target investment to support the necessary innovative reforms to 
strengthen our schools for the 21st century. The House LHHS 
subcommittee and the Senate Appropriations Committee both produced 
strong bills. Together they will help to provide all of America's young 
people with a high-quality education that prepares them for college and 
a career. Thank you for your consideration.
                                 ______
                                 
          Prepared Statement of the Center for Civic Education
    I appreciate the opportunity to present this testimony requesting 
continued support of $35 million (the same amount as fiscal year 2010) 
for the civic education program (Elementary and Secondary Education 
Act, Sections 2341-2346) that the U.S. Department of Education (ED) cut 
from its fiscal year 2011 budget request to Congress. I am Charles N. 
Quigley, executive director of the Center for Civic Education (Center), 
the principal organization supported under the Education for Democracy 
Act.
    Other worthy organizations supported under the Act include the 
Center on Congress at Indiana University (COC), the National Conference 
of State Legislatures (NCSL), the Council for Economic Education, and a 
domestic network of public- and private-sector organizations in every 
State and Congressional District in the Nation. Together with the 
Center, these organizations provide effective programs in civic and 
economic education to millions of students annually at precollegiate 
levels in the United States and in more than 80 emerging and advanced 
democracies throughout the world.
    The justification for the elimination of funding for the civic 
education program, namely, that such activities would be continued 
through a consolidated competitive program of relatively small grants, 
is not supported by the facts. Furthermore, it overlooks the valuable 
national infrastructure of programming--supported by Congress through 
many years of directed funding--that would be lost without this 
sustained investment. The national program funded under the Education 
for Democracy Act is implemented with the assistance of an extensive 
network of State and congressional district coordinators that provides 
equal support to schools in every congressional district in the form of 
free curricular materials, assistance in professional development, and 
other technical assistance. This equal support for schools in each 
congressional district would not be available under the proposed 
consolidation plan.
                    the education for democracy act
    The Education for Democracy Act (EDA) supports highly successful 
national and international projects authorized and approved by the U.S. 
Congress and funded by the U.S. Department of Education. Since 1987, 
directed funding from the EDA has ensured that more than 30 million 
students across the Nation have been taught the principles of American 
constitutional democracy through the We the People: The Citizen and the 
Constitution program and related programs. In addition, millions of 
students in emerging democracies throughout the world have benefited 
from the civic and economic education exchange programs supported by 
the EDA. The proposed elimination of this directed funding in favor of 
competitive grants to numerous smaller initiatives would ensure the 
destruction of this proven, exemplary domestic civic education program 
representing 22 years of federally funded investment.
    Congress has long recognized that directed funding is essential for 
certain large-scale projects of national significance. The improvement 
of civic education in the United States and the establishment of 
effective civic and economic education programs in emerging democracies 
require a large-scale, long-term program involving the establishment of 
extensive national implementation networks supported by highly skilled, 
experienced, and dedicated staff. It would be grossly inefficient and 
extremely difficult to achieve the goals of such programs through a 
number of relatively small and uncoordinated grants with 2- to 5-year 
timelines.
    The civic education programs (We the People and related programs), 
authorized by the EDA, are: cost effective; validated by independent 
research; effective in raising student academic achievement in schools 
throughout the country; implemented nationwide in every congressional 
district; administered locally by dedicated volunteers; supported by 
professional development for teachers; providers of free, high-quality 
curricular materials for students and teachers; and supported by 
Congress and numerous national, State, and local public- and private-
sector groups.
    Furthermore, the Cooperative Education Exchange Program's 
international civics programs promote U.S. foreign policy objectives in 
more than 80 countries, encourage respect for human rights, and promote 
commitment to democratic values and principles in emerging democracies.
                   benefits of the domestic programs
    Cost-effective civic education in every congressional district. 
Over 22 years, the EDA has ensured the civic education of more than 30 
million students nationwide. On average, in each congressional district 
the existing program annually supports a total of 5,700 students; in 
190 classes at the elementary, middle, and high school levels; and at a 
cost of $7.20 per student--far less than the retail cost of one history 
or civics textbook.
    Note: The program currently reaches approximately 2.5 million 
students each year. It is highly unlikely that a competitive, 
relatively small grant program would reach as many students in every 
congressional district of the Nation as cost effectively as the We the 
People Programs.
    Proven Impact on Student Outcomes.--The We the People Programs are 
independently proven to be effective. Evaluations by the Educational 
Testing Service, Stanford University, RMC Research Corporation, and 
others have shown that the We the People Programs have had a 
statistically significant positive effect on student knowledge, skills, 
dispositions, and behaviors (see www.civiced.org/research).
    Note: To place the funding for these programs in a competitive 
grant program would be to discard proven programs developed and 
implemented with Federal dollars in favor of numerous smaller programs 
that lack any independent evidence of proven effectiveness.
    National Network.--The We the People Programs have grassroots 
community support in every congressional district. They are implemented 
by a national civic education network of 120 public- and private-sector 
organizations in all 50 States and the District of Columbia and 123 
representatives of local education agencies or civic-minded community 
groups at the congressional district level.
    Note: In every State, the We the People Programs are supported by 
an extensive network of civic educators and community volunteers who 
administer the programs and raise funds to support local program 
activities. This network would cease to exist if its funding were to be 
placed in a competitive grant program.
    Effective Use of Federal Dollars.--Approximately 70 percent of the 
funding for the program is distributed equitably to every congressional 
district. The funds provide free curricular materials for elementary, 
middle, and high schools; professional-development programs for 
teachers; and funding at the State and congressional district levels 
for the implementation of curricular programs in civic education.
    Note: A competitive program of relatively small grants would not 
result in such an effective and equitable distribution of resources. 
Instead, many congressional districts would receive little or no 
assistance in implementing civic education programs.
    In addition, funding relatively large nationwide programs--such as 
the We the People Programs--compared to funding numerous smaller 
programs is more likely to be cost effective in controlling 
administrative costs and providing more funding for programmatic costs. 
As noted above, approximately 70 percent of the funds the Center 
received for its USED-supported programs were spent for programmatic 
costs throughout the United States. The remaining 30 percent consists 
of staff and benefits (approximately 20 percent) and general 
administrative costs (approximately 10 percent). Of the staff costs, 
some are for general administration, but a considerable amount is for 
technical assistance to State and local programs for such purposes as 
professional development and evaluation.
    Curriculum Backed by Professional Development of Teachers.--The 
Center sponsors professional development activities throughout the 
Nation with the assistance of a national network of directors, mentor 
teachers, and scholars. These activities range in length from less than 
1 day to 7 days. Participants explore content, teaching methods, and 
assessment strategies. Free materials are provided for participants.
    Innovative Content and Methods.--The We the People program is the 
first curriculum based entirely on constitutional principles and 
history. Students take part in a competition on constitutional topics 
that takes the form of simulated congressional hearings. This is an 
educational innovation that works. There is no other civic education 
competition in the world comparable to the We the People program.
    Note: Elimination of directed EDA funding for We the People would 
mean the elimination of district, State, and national simulated 
congressional hearings, during which students compete in a test of 
knowledge and understanding of contemporary and historical issues 
surrounding the Constitution. These hearings have inspired students to 
choose lives of active citizenship, public service, and civic 
engagement.
    Adherence to Authorizing Language.--Congress recognized the 
national need for programs that develop a reasoned commitment to 
American constitutional democracy and the ability of young people to 
participate competently and responsibly in the political life of the 
Nation. The programs supported under the EDA have demonstrated their 
efficacy in promoting such goals.
    Note: To eliminate support for these proven, effective programs and 
place their funding into a competitive grant program would be to 
withdraw the long-term investment of the Federal Government in programs 
proven to yield high returns. Federal funding would instead be spent on 
unproven programs with unpredictable outcomes.
                 benefits of the international programs
    Promoting U.S. Foreign Policy Objectives Abroad.--The Cooperative 
Education Exchange Program's civics and economics programs help to 
institutionalize democratic ideals in more than 80 emerging and 
established democracies worldwide. These highly successful programs, 
helping to meet the U.S. foreign policy objectives of promoting 
democracy, human rights, and an understanding of the principles of 
market economies and their relationship to democracy are not mentioned 
in the ED alternative, thereby ignoring the intent of Congress to 
support these critical programs.
    International Network for Democracy Promotion.--The Civitas 
International Exchange Program created a network of international 
public- and private-sector organizations and colleagues and their 
American counterparts in 30 States. The members of this network work in 
unison to translate and adapt civics textbooks to help educational 
systems in emerging democracies teach democratic principles and values. 
Without the support of the EDA, the network would be eliminated and 
highly effective programs in these emerging democracies would be 
deprived of the support needed for their institutionalization. It is 
estimated that these programs reach 1.5 million students each year at a 
cost of $3 per student.
                               conclusion
    The Education for Democracy Act programs have been highly 
scrutinized by Congress since their inception in 1987 and have 
undergone multiple authorizations in the law and annual approval in the 
appropriations process. They have survived multiple sessions of 
Congress and several administrations, including initiatives to downsize 
and reinvent Government. Recent ``Dear Colleague'' letters in support 
of the EDA routinely received the support of more than 100 members of 
the House and nearly half of the Senate. There are compelling reasons 
for this support that ultimately reflect a simple truth--the programs 
have a proven track record of success in furthering support for 
democracy; fostering competent and responsible participation by 
students in the political life of their communities, States, and 
nations; raising student academic achievement; improving teacher 
quality; and providing schools with free, exemplary curricular programs 
and technical assistance.
        support for a competitive civic education grant program
    The Center supports the establishment in ED of a competitive grant 
program in civics and government in addition to continued support for 
the current programs. There are many other public- and private-sector 
agencies working in the field of civic education worthy of support. A 
large percentage of these groups are colleagues and participants in the 
Center's domestic networks. A new, competitive grant program could 
result in the development and promulgation of new ideas and programs to 
enhance the field. Such support from both the public and private 
sectors, in fact, gave the Center its start in 1965. The Center is 
working with representatives of other organizations in the field to 
support the inclusion of a competitive grant program in the 
reauthorization of the Elementary and Secondary Education Act.
                                 ______
                                 
  Prepared Statement of the Crohn's and Colitis Foundation of America
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to submit testimony on behalf of the 1.4 million Americans 
living with Crohn's disease and ulcerative colitis. My name is Gary 
Sinderbrand and I have the privilege of serving as the Chairman of the 
National Board of Trustees for the Crohn's and Colitis Foundation of 
America. CCFA is the Nation's oldest and largest voluntary organization 
dedicated to finding a cure for Crohn's disease and ulcerative 
colitis--collectively known as inflammatory bowel diseases.
    Let me express at the outset how appreciative we are for the 
leadership this subcommittee has provided in advancing funding for the 
National Institutes of Health. Hope for a better future for our 
patients lies in biomedical research and we are grateful for the recent 
investments that you have made in this critical area.
    Mr. Chairman, Crohn's disease and ulcerative colitis are 
devastating inflammatory disorders of the digestive tract that cause 
severe abdominal pain, fever and intestinal bleeding. Complications 
include arthritis, osteoporosis, anemia, liver disease and colorectal 
cancer. We do not know their cause, and there is no medical cure. They 
represent the major cause of morbidity from digestive diseases and 
forever alter the lives of the people they afflict--particularly 
children. I know, because I am the father of a child living with 
Crohn's disease.
    Seven years ago, during my daughter, Alexandra's sophomore year in 
college, she was taken to the ER for what was initially thought to be 
acute appendicitis. After a series of tests, my wife and I received a 
call from the attending GI who stated coldly: Your daughter has Crohn's 
disease, there is no cure and she will be on medication the rest of her 
life. The news froze us in our tracks. How could our vibrant, beautiful 
little girl be stricken with a disease that was incurable and has 
ruined the lives of countless thousands of people?
    Over the next several months, Alexandra fluctuated between good 
days and bad. Bad days would bring on debilitating flares which would 
rack her body with pain and fever as her system sought equilibrium. Our 
hearts were filled with sorrow as we realized how we were so incapable 
of protecting our child.
    Her doctor was trying increasingly aggressive therapies to bring 
the flares under control.
    Asacol, Steroids, Mercaptipurine, Methotrexate and finally 
Remicade. Each treatment came with its own set of side effects and 
risks. Every time A would call from school, my heart would jump before 
I picked up the call in fear of hearing that my child was in pain as 
the flares had returned. Ironically, the worst call came from one of 
her friends to report that A was back in the ER and being evaluated by 
a GI surgeon to determine if an emergency procedure was needed to clear 
an intestinal blockage that was caused by the disease. Several hours 
later, a brilliant surgeon at the University of Chicago, removed over a 
foot of diseased tissue from her intestine. The surgery saved her life, 
but did not cure her. We continue to live every day knowing that the 
disease could flare at any time with devastating consequences.
    Mr. Chairman, I will focus the remainder of my testimony on our 
appropriations recommendations for fiscal year 2011.
                  recommendations for fiscal year 2011
Centers for Disease Control and Prevention
            Inflammatory Bowel Disease Epidemiology Program
    As I mentioned earlier, CCFA estimates that 1.4 million people in 
the United States suffer from IBD, but there could be many more. We do 
not have an exact number due to these diseases' complexity and the 
difficulty in identifying them. Mr. Chairman, we are extremely grateful 
for your leadership in providing funding over the past 5 years for an 
epidemiology program focused on IBD at the Centers for Disease Control 
and Prevention. This program is the only one of its kind in our long 
fight against IBD and its accomplishments have been applauded by the 
CDC. Unfortunately, the President's fiscal year 2011 budget proposal 
recommends that this highly successful program be eliminated. CCFA 
strongly disagrees with the administration's position and urges the 
subcommittee to provide full funding for this important research in 
fiscal year 2011.
    CCFA has been a proud partner with CDC in conducting the research 
funded under the epidemiology program. For the first 2 years of the 
project the Foundation worked collaboratively with Kaiser Permanente in 
California to better understand the incidence and prevalence of IBD, 
the natural history of the disease, and why patients respond 
differently to the same therapy. This research has resulted in 11 
publications to date and another 11 papers to be submitted to high-
quality peer-reviewed journals. Topics include but are not limited to 
the following:
  --Incidence and Prevalence of IBD;
  --Patterns of Care and Outcomes in IBD;
  --Qualitative study of provider opinions;
  --Utilization of biologics (Infliximab);
  --Disparities in Mortality;
  --Myelosuppression during Thiopurine Therapy for Inflammatory Bowel 
        Disease: Implications for Monitoring Recommendations;
  --Severity and Flare Algorithms;
  --Disparities in Surveillance for Colorectal Cancer;
  --Pediatric Epidemiology.
    In 2007, our focus shifted to the establishment of the ``Ocean 
State Crohn's & Colitis Area Registry'' or OSCCAR. Under the leadership 
of Dr. Bruce Sands, this study is being conducted jointly by 
investigators at the Massachusetts General Hospital and Rhode Island 
Hospital/Brown University. The State of Rhode Island is an excellent 
location to conduct a population-based IBD study because (1) it is a 
small state geographically; (2) it has a diverse ethnic and 
socioeconomic population that does not tend to migrate out of State: 
and (3) a small number of gastroenterologists treat essentially all IBD 
patients within the State. Since 2007, Dr. Sands has been able to 
recruit virtually all GI physicians in Rhode Island to refer patients 
into the study. To date, almost 200 patients have been recruited. All 
of this progress will be lost if the program is eliminated in 2011.
    The goals of the OSCCAR study moving forward are to: (1) describe 
the age and sex adjusted incidence rate of Crohn's disease and 
ulcerative colitis; (2) describe variations in presenting symptoms 
among children, men and women with newly diagnosed disease; (3) 
identify factors that predict resistance to steroids, including 
clinical characteristics and blood test markers that could be useful to 
treating physicians; (4) identify predictors of the need for surgery; 
and (5) describe factors that predict either impaired quality of life 
or a benign course of disease.
    Mr. Chairman, to ensure that this important epidemiological work 
moves forward in fiscal year 2011, CCFA recommends an appropriation of 
$686,000 (level funded from fiscal year 2010).
         pediatric inflammatory bowel disease patient registry
    Mr. Chairman, the unique challenges faced by children and 
adolescents battling IBD are of particular concern to CCFA. In recent 
years we have seen an increased prevalence of IBD among children, 
particularly those diagnosed at a very early age. To combat this 
alarming trend CCFA, in partnership with the North American Society for 
Pediatric Gastroenterology, Hepatology and Nutrition, has instituted an 
aggressive pediatric research campaign focused on the following areas:
  --Growth/Bone Development.--How does inflammation cause growth 
        failure and bone disease in children with IBD?
  --Genetics.--How can we identify early onset Crohn's disease and 
        ulcerative colitis?
  --Quality Improvement.--Given the wide variation in care provided to 
        children with IBD, how can we standardize treatment and improve 
        patients' growth and well-being?
  --Immune Response.--What alterations in the childhood immune system 
        put young people at risk for IBD, how does the immune system 
        change with treatment for IBD?
  --Psychosocial Functioning.--How does diagnosis and treatment for IBD 
        impact depression and anxiety among young people? What 
        approaches work best to improve mood, coping, family function, 
        and quality of life.
    The establishment of a national registry of pediatric IBD patients 
is central to our ability to answer these important research questions. 
Empowering investigators with HIPPA compliant information on young 
patients from across the Nation will jump-start our effort to expand 
epidemiologic, basic and clinical research on our pediatric population. 
We encourage the subcommittee to support our efforts to establish a 
Pediatric IBD Patient Registry with the CDC in fiscal year 2011.
                     national institutes of health
    Throughout its 40-year history, CCFA has forged remarkably 
successful research partnerships with the NIH, particularly the 
National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK), which sponsors the majority of IBD research, and the National 
Institute of Allergy and Infectious Diseases (NIAID). CCFA provides 
crucial ``seed-funding'' to researchers, helping investigators gather 
preliminary findings, which in turn enables them to pursue advanced IBD 
research projects through the NIH. This approach led to the 
identification of the first gene associated with Crohn's--a landmark 
breakthrough in understanding this disease.
    Mr. Chairman, NIDDK-sponsored research on IBD has been a remarkable 
success story. In 2008, a consortium of researchers from the United 
States, Canada, and Europe identified 21 new genes for Crohn's disease. 
This discovery, funded in part by the NIDDK, brings the total number of 
known genes associated with Crohn's disease to more than 30 and 
provides new avenues for the development of promising treatments. We 
are grateful for the leadership of Dr. Stephen James, Director of 
NIDDK's Division of Digestive Diseases and Nutrition, for aggressively 
pursuing this and other promising areas of research.
    CCFA's scientific leaders, with significant involvement from NIDDK, 
have developed an ambitious research agenda entitled ``Challenges in 
Inflammatory Bowel Diseases.'' In addition, CCFA-affiliated 
investigators played a leading role in developing the recommendations 
on IBD in the new NIH National Commission on Digestive Diseases 
strategic plan. We look forward to working with the NIDDK to advance 
the cutting-edge science called for in these two roadmaps.
    Mr. Chairman, I also wanted to thank you and your colleagues for 
the unprecedented support you provided to the NIH as part of the 
American Recovery and Reinvestment Act. IBD research has benefited 
substantially from that investment with more than 15 IBD-specific 
projects receiving ARRA funding. This portfolio includes grants focused 
on; pediatric IBD, clinical diagnostics, basic research on the 
mechanisms of chronic inflammation and the role of the intestinal 
barrier in IBD, genetics, and new therapeutic approaches. This research 
has the potential to dramatically improve the quality of life for our 
patients and we thank you for making this possible.
    For fiscal year 2011, CCFA joins with other voluntary patient and 
medical organizations in recommending an appropriation of $35 billion 
for the NIH. Once again Mr. Chairman, thank you very much for the 
opportunity to submit our views for your consideration.
                                 ______
                                 
 Prepared Statement of the Charles R. Drew University of Medicine and 
                                Science
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present you with testimony. The Charles Drew University 
is distinctive in being the only dually designated Historically Black 
Graduate Institution and Hispanic Serving Institution in the Nation. We 
would like to thank you, Mr. Chairman, for the support that this 
subcommittee has given to our University to produce minority health 
professionals to eliminate health disparities as well as do 
groundbreaking research to save lives.
    The Charles Drew University is located in the Watts-Willowbrook 
area of South Los Angeles. Its mission is to prepare predominantly 
minority doctors and other health professionals to care for underserved 
communities with compassion and excellence through education, clinical 
care, outreach, pipeline programs, and advanced research that makes a 
rapid difference in clinical practice. The Charles Drew University has 
established a national reputation for translational research that 
addresses the health disparities and social issues that strike hardest 
and deepest among urban and minority populations.
Health Resources and Services Administration (HRSA)
    Title VII Health Professions Training Programs.--The health 
professions training programs administered by the HRSA are the only 
Federal initiatives designed to address the longstanding under 
representation of minorities in health careers. HRSA's own report, 
``The Rationale for Diversity in the Health Professions: A Review of 
the Evidence,'' found that minority health professionals 
disproportionately serve minority and other medically underserved 
populations, minority populations tend to receive better care from 
practitioners of their own race or ethnicity, and non-English speaking 
patients experience better care, greater comprehension, and greater 
likelihood of keeping follow-up appointments when they see a 
practitioner who speaks their language. Studies have also demonstrated 
that when minorities are trained in minority health professions 
institutions, they are significantly more likely to: (1) serve in 
medically underserved areas; (2) provide care for minorities; and (3) 
treat low-income patients.
    Minority Centers of Excellence (COE).--The purpose of the COE 
program is to assist schools, like Charles Drew University, that train 
minority health professionals, by supporting programs of excellence. 
The COE program focuses on improving student recruitment and 
performance; improving curricula and cultural competence of graduates; 
facilitating faculty and student research on minority health issues; 
and training students to provide health services to minority 
individuals by providing clinical teaching at community-based health 
facilities. For fiscal year 2011, the funding level for COE should be 
$33.6 million.
    Health Careers Opportunity Program (HCOP).--Grants made to health 
professions schools and educational entities under HCOP enhance the 
ability of individuals from disadvantaged backgrounds to improve their 
competitiveness to enter and graduate from health professions schools. 
HCOP funds activities that are designed to develop a more competitive 
applicant pool through partnerships with institutions of higher 
education, school districts, and other community based entities. HCOP 
also provides for mentoring, counseling, primary care exposure 
activities, and information regarding careers in a primary care 
discipline. Sources of financial aid are provided to students as well 
as assistance in entering into health professions schools. For fiscal 
year 2011, the HCOP funding level of $35.6 million is suggested.
National Institutes of Health's (NIH) Contribution to Fighting Health 
        Disparities
    National Institute on Minority Health and Health Disparities 
(NIMHD) .--The NIMHD is charged with addressing the longstanding health 
status gap between under-represented minority and nonminority 
populations. The NIMHD helps health professional institutions to narrow 
the health status gap by improving research capabilities through the 
continued development of faculty, labs, telemedicine technology and 
other learning resources. The NIMHD also supports biomedical research 
focused on eliminating health disparities and developed a comprehensive 
plan for research on minority health at NIH. Furthermore, the NIMHD 
provides financial support to health professions institutions that have 
a history and mission of serving minority and medically underserved 
communities through the COE program and HCOP. For fiscal year 2011, 
$500 million is recommended for NIMHD to support these critical 
activities.
            Research Centers At Minority Institutions (RCMI)
    RCMI at the National Center for Research Resources (NCRR) has a 
long and distinguished record of helping institutions like The Charles 
Drew University develop the research infrastructure necessary to be 
leaders in the area of translational research focused on reducing 
health disparities research. Although NIH has received some budget 
increases over the last 5 years, funding for the RCMI program has not 
increased by the same rate. Therefore, the funding for this important 
program grow at the same rate as NIH overall in fiscal year 2011.
            Extramural Facilities Construction
    Mr. Chairman, one issue that sets The Charles Drew University and 
many minority-dedicated institutions apart from the major universities 
of this country is the facilities where research takes place. The need 
for research infrastructure at our Nation's minority serving 
institutions must also remain strong to maximize efforts to reduce 
health disparities. The current authorization level for the Extramural 
Facility Construction program at the NCRR is $250 million. The law also 
includes a 25 percent set-aside for ``Institutions of Emerging 
Excellence'' (many of which are minority institutions) for funding up 
to $50 million. In fiscal year 2011, we respectfully request.
Department of Health and Human Services' Office of Minority Health 
        (OMH)
    Specific programs at OMH include assisting medically underserved 
communities, supporting conferences for high school and undergraduate 
students to interest them in health careers, and supporting cooperative 
agreements with minority institutions for the purpose of strengthening 
their capacity to train more minorities in the health professions. For 
fiscal year 2011, I recommend a funding level of $75 million for OMH to 
support these critical activities.
Strengthening Historically Black Graduate Institutions--Department of 
        Education
    The Department of Education's Strengthening Historically Black 
Graduate Institutions program (title III, part B, section 326) is 
extremely important to MMC and other minority serving health 
professions institutions. The funding from this program is used to 
enhance educational capabilities, establish and strengthen program 
development offices, initiate endowment campaigns, and support numerous 
other institutional development activities. In fiscal year 2011, an 
appropriation of $75 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.
Conclusion
    Despite all the knowledge that exists about racial/ethnic, socio-
cultural and gender-based disparities in health outcomes, the gap 
continues to widen. Not only are minority and underserved communities 
burdened by higher disease rates, they are less likely to have access 
to quality care upon diagnosis. As you are aware, in many minority and 
underserved communities preventative care and research are inaccessible 
either due to distance or lack of facilities and expertise. As noted 
earlier, in just one underserved area, South Los Angeles, the number 
and distribution of beds, doctors, nurses and other health 
professionals are as parlous as they were at the time of the Watts 
Rebellion, after which the McCone Commission attributed the so-named 
``Los Angeles Riots'' to poor services--particularly access to 
affordable, quality healthcare. The Charles Drew University has proven 
that it can produce excellent health professionals who ``get'' the 
mission--years after graduation they remain committed to serving people 
in the most need. But, the university needs investment and committed 
increased support from Federal, State, and local governments and is 
actively seeking foundation, philanthropic, and corporate support.
    Even though institutions like The Charles Drew University are 
ideally situated (by location, population, community linkages, and 
mission) to study conditions in which health disparities have been well 
documented, research is limited by the paucity of appropriate research 
facilities. With your help, the Life Sciences Research Facility will 
translate insight gained through research into greater understanding of 
disparities and improved clinical outcomes. Additionally, programs like 
Title VII Health Professions Training programs will help strengthen and 
staff facilities like our Life Sciences Research Facility.
    We look forward to working with you to lessen the huge negative 
impact of health disparities on our Nation's increasingly diverse 
populations, the economy and the whole American community.
    Mr. Chairman, thank you again for the opportunity to present 
testimony on behalf of The Charles Drew University. It is indeed an 
honor.
                                 ______
                                 
   Prepared Statement of the Children's Environmental Health Network
    The Children's Environmental Health Network (CEHN) appreciates the 
opportunity to support fiscal year 2011 appropriations for activities 
that protect children from environmental hazards. CEHN appreciates the 
wide range of needs that you must consider for funding. We urge you to 
give priority to those programs that protect and promote children's 
environmental health. In so doing, you will improve not only our 
children's health, but also their educational outcomes and their 
future.
    CEHN was created to promote a healthy environment and to protect 
the fetus and the child from environmental health hazards. Every day, 
children are exposed to a mix of chemicals, most of them untested for 
their effects on developing systems. In general, children have unique 
vulnerabilities and susceptibilities to toxic chemicals. In some cases, 
an exposure which may cause little or no harm to an adult may lead to 
irreparable damage to a child. Thus it is vital that the Federal 
programs and activities that protect children from environmental 
hazards receive adequate resources.
    Global Climate Change and Public Health.--We strongly urge the 
subcommittee to designate $50 million for the Department of Health and 
Human Services (HHS) to help the public prepare for and adapt to the 
potential health effects of global climate change in fiscal year 2011. 
Global climate change presents major challenges to public health. 
Children will be the first and worst hit by climate change. Young 
children are almost 85 percent of the estimated 150,000+ climate 
change-related deaths/year that are already occurring in low-income 
nations, according to the World Health Organization. Children in 
communities that are already disadvantaged will be the most harmed. 
Recent studies have detailed the multiple ways in which climate change 
may harm children. It is imperative that the Federal Government 
undertake efforts to mitigate and adapt to climate change.
    Centers for Disease Control and Prevention (CDC) and the National 
Center for Environmental Health (NCEH).--As the Nation's leader in 
health promotion and disease prevention the CDC should receive top 
priority in Federal funding. CEHN is grateful for your support in the 
past and urges you to support a funding level of $8.8 billion for CDC's 
core programs in fiscal year 2011.
    CEHN is supportive of all NCEH programs and especially its efforts 
to continue and expand its biomonitoring program and to continue its 
national report card on exposure information. A vital CDC 
responsibility in pediatric environmental health is to assist in 
filling the major information gaps that exist about children's 
exposures. CEHN believes it is especially critical for the NCEH to 
gather and publish expanded information in the report card on 
children's exposures.
    CEHN strongly supports increased funding for CDC's Environmental 
Health Laboratory, which allows us to measure with great precision the 
actual levels of more than 450 chemicals and nutritional indicators in 
people's bodies. This information helps public health officials to 
determine which population groups are at high risk for exposure and 
adverse health effects, assess public health interventions, and monitor 
exposure trends over time.
    Among its many recent accomplishments, CDC has funded three States 
for State biomonitoring activities. We enthusiastically support these 
State biomonitoring efforts, but were disappointed that another 21 
quality State proposals were turned down due to lack of funding.
    Unfortunately, the President's fiscal year 2011 budget would cut 
this program by $1.3 million. CEHN supports a $19.6 million increase 
for the Environmental Health Laboratory in fiscal year 2011: $10 
million to fund 7-10 grantees to conduct biomonitoring; $7.6 million 
for intramural activities such as increasing the number of chemicals 
CDC measures and improving quality assurance at the State laboratories 
awarded biomonitoring funds; and $2 million for the National Report on 
Biochemical Indicators of Diet and Nutrition in the U.S. Population.
    National Environmental Public Health Tracking Program.--The CDC's 
public health tracking program helps to track environmental hazards and 
the diseases they may cause, coordinating and integrating local, State, 
and Federal health agencies' collection of critical health and 
environmental data. The Web-based National Environmental Public Health 
Tracking Network launched this past summer. CEHN strongly supports this 
program.
    Data on children's ``real world'' exposure and disease are 
critically needed. Since children spend hours every day in school and 
child care, we urge you to direct the Tracking Program to include 
grants for pilot methods for tracking children's health in schools and 
child care settings.
    To date, 24 grantees have received funds from the CDC for health 
tracking networks. Health officials in all States need integrated 
health and environmental data. We urge the subcommittee to provide $50 
million for the Health Tracking Program in fiscal year 2011.
    National Institute of Environmental Health Sciences (NIEHS).--The 
NIEHS is the leading Institute conducting research to understand how 
the environment influences the development and progression of human 
disease. Thus it is a vital institution in our efforts to understand 
how to protect children, whether it is identifying and understanding 
the impact of substances that are endocrine disruptors or understanding 
childhood exposures that may not affect health until decades later.
    NIEHS's National Toxicology Program is the leading Federal program 
studying the toxicity of environmental agents in our environment; a 
major focus of this program is endocrine disrupting chemicals. NIEHS is 
studying the health effects of global climate change. The Institute has 
taken the lead among Federal agencies to develop a comprehensive 
research plan to respond to the significant consequences that climate 
change is expected to have on human health. CEHN asks you to provide 
$779.4 million for NIEHS in fiscal year 2011.
    Children's Environmental Health Research Centers of Excellence.--
The Children's Environmental Health Research Centers, jointly funded by 
the Environmental Protection Agency (EPA) and NIEHS, play a key role in 
providing the scientific basis for protecting children from 
environmental hazards. With their modest budgets (unchanged over more 
than 10 years), these centers generate valuable research. A unique 
aspect of these centers is the requirement that each center actively 
involves its local community in a collaborative partnership, leading 
both to community-based participatory research projects and to the 
translation of research findings into child-protective programs and 
policies.
    The scientific output of these centers has been outstanding. The 
Congress recognized this last year, when it supported increased 
funding, resulting in the upcoming addition of a child care component 
and additional research. These goals call for a continued effort, yet 
the administration's fiscal year 2011 budget proposal did not continue 
this funding. We strongly urge that the subcommittee reinstate these 
funds and direct NIEHS to sustain this effort.
    Unfortunately, almost all of the existing 12 centers are currently 
operating on no-cost extensions and only 5 of the existing centers are 
to be renewed. If centers are shuttered, we will lose access to 
valuable populations such as children with asthma or children growing 
up with pesticide exposure in farm communities. We will lose the 
ability to learn about issues like early puberty concerns, exposures in 
school settings, and pre-adolescent and adolescent outcomes.
    National Children's Study (NCS).--NCS is examining the effects of 
environmental influences on the health and development of more than 
100,000 children across the United States, following them from before 
birth until age 21. This landmark study--involving a consortium of 
agencies--will form the basis of child health guidance, interventions, 
and policy for generations to come. This study may be the only means 
that we will have to understand the links between exposures and the 
health and development of children and to identify the antecedents for 
a healthy adulthood.
    We urge the subcommittee to assure stable support for this study, 
recognizing that the necessary components of the study are resource 
intensive. It is vital, however, that this study proceed and also 
guarantee that scientists, clinicians, and policy makers will have a 
complete archive of the study's exposure measurements.
    A study of this scope calls for the participation of multiple 
agencies. We urge the subcommittee to assure that the NCS remains a 
collaborative study that retains on its original environmental focus, 
responsive to its mission and to the lead agencies, in and out of the 
National Institutes of Health.
    CEHN also asks the subcommittee to direct that protocols are in 
place for measuring exposures in child care and school settings. It is 
critically important to understand how school and child care exposures 
differ from home exposures very early in the NCS.
    Pediatric Environmental Health Specialty Units (PEHSUs).--Funded by 
the ATSDR and the EPA, the PEHSUs form a valuable resource network, 
with a center in each of the U.S. Federal regions. PEHSU professionals 
provide medical consultation to healthcare professionals on a wide 
range of environmental health issues. PEHSUs also provide information 
and resources to school, child care, health and medical, and community 
groups. PEHSUs assist policymakers by providing data and background on 
local or regional environmental health issues and implications for 
specific populations or areas. These centers, all based in 
universities, have done tremendous work on very limited budgets. We 
urge the subcommittee to fully fund ATSDR's portion of this program's 
fiscal year 2011 budget of $1.8 million.
    Environmental Health in Schools.--Each school day, about 20 percent 
of the total U.S. population spend a full week inside schools. 
Unfortunately, many of our school facilities are shoddy or ``sick'' 
buildings whose environmental conditions harm children's health and 
undermine attendance, achievement, and productivity.
    No agency is authorized to intervene to protect children from 
environmental hazards in schools. Thus, every day we require our 
children to spend hours in an environment where they and their parents 
have no options, alternatives or recourse if the environment is not 
healthy. Thus, CEHN urges the subcommittee to provide full funding for 
the aspects of the Clean, Green and Healthy Schools Initiative in its 
jurisdiction. Agencies need adequate resources to assure their 
participation in the vital cross-agency work of this initiative.
    A formal partnership between HHS, the Department of Education, and 
EPA to coordinate their pediatric environmental health efforts would 
leverage resources and be beneficial for children's health and 
research. Providing resources for the newly re-vitalized Interagency 
Task Force on Children's Environmental Health would support such a 
partnership.
    Environmental Health in Child Care Settings.--60 percent of 
preschoolers--13 million children--are in child care. This youngest and 
most vulnerable population can enter care as early as 6 weeks of age 
and be in care for more than 40 hours per week. Yet little is known 
about the environmental health status of these centers. CEHN is working 
to correct these gaps.
    We urge the subcommittee to bring the child care environment into 
the Clean, Green and Healthy Schools Initiative by providing additional 
resources and direction focused on this important environment.
    We ask the subcommittee to direct the HHS Assistant Secretary for 
Children and Families to report on the Administration for Children and 
Families activities that protect children from environmental hazards in 
child care settings, especially in the Office of Head Start.
    In conclusion, investments in programs that protect and promote 
children's health will be repaid by healthier children with brighter 
futures, an outcome we can all support. That is why CEHN asks you to 
give priority to these programs. Thank you for the opportunity to 
testify on these critical issues.
                                 ______
                                 
          Prepared Statement of the Cystic Fibrosis Foundation
    On behalf of the Cystic Fibrosis Foundation and the 30,000 people 
with cystic fibrosis (CF), we are pleased to submit the following 
testimony regarding fiscal year 2010 appropriations for cystic 
fibrosis-related research at the National Institutes of Health (NIH) 
and other agencies.
                                about cf
    CF is a life-threatening genetic disease for which there is no 
cure. The bodies of people with CF produce abnormally thick, sticky 
mucus that clogs the lungs, results in fatal lung infections and 
obstructs the pancreas, making it difficult for patients to absorb 
nutrients from food. Since its founding, the Cystic Fibrosis Foundation 
has maintained its focus on promoting research and improving treatments 
for CF. More than thirty drugs are now in development to treat CF; some 
treat the basic defect of the disease, while others target its 
symptoms. Through the research leadership of the Cystic Fibrosis 
Foundation, the life expectancy of individuals with CF has been boosted 
from less than 6 years in 1955 to 37 years today. Although life 
expectancy has improved dramatically, we continue to lose young lives 
to this disease. In the past 5 years, the Cystic Fibrosis Foundation 
has invested more than $660 million in its medical programs of drug 
discovery, drug development, research, and care focused on life-
sustaining treatments and a cure for CF. A greater investment is 
necessary, however, to accelerate the pace of discovery and development 
of CF therapies. This testimony focuses on the investment required to 
rapidly and efficiently discover and develop new CF treatments aimed at 
controlling and curing CF.
        sustaining the federal investment in biomedical research
    This subcommittee and Congress are to be commended for their 
steadfast support for biomedical research and their commitment to NIH, 
particularly the effort to double the NIH budget between fiscal year 
1999 and fiscal year 2003 as well as the significant investment 
provided by the American Recovery and Reinvestment Act (ARRA) in 2009. 
These increases in funding brought a new era in drug discovery that has 
benefited all Americans. Congress must adequately fund the NIH so that 
it can capitalize on scientific advances in order to maintain the 
momentum generated by the doubling of funds and the infusion from ARRA.
    The flat-funding of the NIH since 2003 has decreased purchasing 
power, limiting the pursuit of critical research. The Cystic Fibrosis 
Foundation joins the Coalition for Health Funding to recommend all 
health discretionary spending be increased $67.1 billion in fiscal year 
2011, or $9.3 billion more than the fiscal year 2010 levels. This 
increased investment will help maintain the NIH's ability to fund 
essential biomedical research today that will provide the care and 
cures of tomorrow. If the subcommittee is not able to recommend funding 
at this level, Congress should advise the NIH to focus on contributing 
funds to research partnerships that will accelerate therapeutic 
development to improve people's lives.
          strengthening clinical research and drug development
    The Cystic Fibrosis Foundation has been recognized for its unique 
research approach which encompasses everything from basic research 
through phase III clinical trials, and has created the infrastructure 
required to accelerate the development of new CF therapies. As a 
result, we now have a pipeline of more than thirty potential therapies 
which are being examined to treat people with CF. As a prime example, 
in February 2010, Caystonr a new much-needed antibiotic that combats 
recurrent lung infections, arrived in the hands of people with CF. This 
new treatment is a direct result of the Foundation's innovative 
research agenda, advancing from bench to bedside through the 
Foundation's research program which speeds the creation of new CF 
therapies. Our successes, and specifically our Therapeutics Development 
Network discussed below, can serve as a map for the development of new 
treatments for other diseases.
    The Foundation is a leader in creating a clinical trials network to 
achieve greater efficiency in clinical investigation. Because the CF 
population is small, a higher proportion of people with the disease 
must partake in clinical trials than in most other diseases. This 
unique challenge prompted the Foundation to streamline our clinical 
trials processes. As a result, research conducted by the Foundation is 
more efficient than ever before and we are a model for other disease 
groups. We applaud the efforts by the Nation's health agencies to 
encourage greater efficiency in clinical research and we are hopeful 
that the subcommittee will direct the national health agencies to pay 
special attention to advances in treatment methods and mechanisms for 
translating basic research across Institutes into therapies that can 
benefit patients.
Development of Rare Disease Research Networks
    The subcommittee should direct the NIH and other agencies to 
allocate additional funds for innovative therapeutics development 
models including the Therapeutics for Rare and Neglected Diseases 
(TRND) and Cures Acceleration Network (CAN) programs as well as for 
clinical research to meet the demand for testing promising new 
therapies for CF and other diseases. Support should also be directed 
toward the continuation of other rare disease research networks, such 
as the NIH's pediatric liver disease consortium.
    The CF Foundation's established clinical research program, the 
Therapeutics Development Network (TDN), plays a pivotal role in 
accelerating the development of new treatments to improve the length 
and quality of life for CF patients. Lessons learned from the TDN's 
centralization of data management and analysis and data safety 
monitoring in the TDN will be useful in designing clinical trial 
networks for other diseases. Dr. Francis Collins, Director of the NIH, 
has specifically cited the TDN as an exemplar for TRND. Coupled with 
the newly established CAN, the time between discovery and development 
of drugs and therapies can be accelerated if these programs are fully 
funded.
Providing for the U.S. Food and Drug Administration (FDA)
    We urge the subcommittee to increase funding for the FDA to ensure 
that the Agency has the necessary resources and funding to effectively 
evaluate new and emerging treatments. In order to be effective, the FDA 
needs not only an adequate number of reviewers of new treatments, but 
also those with the appropriate skills and expertise, particularly for 
rare diseases like CF. Additional support for the FDA through increased 
funding not only assures that the Nation has a safe and effective 
supply of drugs and devices, but also that the agency can give the 
necessary attention to reviewing treatments that treat small 
populations but serve specific unmet medical needs, such as Caystonr.
    The CF Foundation applauds the appointment of Dr. Anne Pariser as 
the new Associate Director for Rare Diseases in the FDA's Center for 
Drug Evaluation and Research's Office of New Drugs. We are pleased to 
see this new position held by such a capable and competent 
administrator. Similarly, we applaud the regulatory science initiative 
formed by the NIH and the FDA with the goal of accelerating the 
development and use of new approaches to evaluate drug safety, 
efficacy, and quality and urge the subcommittee to strongly support 
this type of collaboration. Support for coordination between new 
programs like TRND and CAN throughout the national health agencies 
leverages the Federal investment in new research, facilitating swifter 
development and delivery of new medical treatments.
Supporting Translational Research and Investigators
    A significant discrepancy persists between the first award funding 
granted to clinical laboratory investigators and that granted to basic 
laboratory investigators. The difference is even greater for second 
awards and prolonged funding of clinical investigators. The NIH must 
maintain support for translational research and the investigators 
piloting those projects. Without this support, the NIH stands to lose 
an entire generation of clinically trained individuals committed to 
clinical research. The ``generation gap'' that would be created by the 
loss of these clinical researchers would affect the ability of the NIH 
to conduct world-class clinical investigation and jeopardize the 
standing of the United States as the world's premiere source for 
biomedical research.
The Clinical and Translational Science Awards (CTSA)
    We urge the NIH to enhance the Clinical and Translational Science 
Awards (CTSA), a program designed to transform the way in which 
clinical and translational research is conducted. Such an increased 
emphasis on clinical translation can enable researchers to provide new 
treatments more efficiently to patients. For example, at Seattle 
Children's Hospital, a CTSA program has been instrumental in 
identifying best practices for efficient clinical trial participation 
and improving clinical outcomes in care for CF. Tremendous effort has 
brought institutions together to rally around this program and similar 
programs at other institutions, yet current funding levels make it 
difficult for the full complement of programs to be funded. 
Additionally, key to the success of the CTSAs is the development of 
cost-sharing mechanisms like the General Clinical Research Centers 
(GCRC), which allowed institutes to reduce their research budgets by 
having investigators use the GCRC when clinical care was made available 
at no additional cost. In order to maximize the potential of the CTSA, 
multiple institutes within the NIH must be able to provide financial 
resources for critical programs such as this.
Alterative Models for Institutional Review Boards (IRB)
    We are pleased that the Department of Health and Human Services has 
encouraged the exploration of alternative models of IRBs, including 
central IRBs, by the CTSA. We encourage Congress to urge the Department 
to demonstrate more aggressive leadership in persuading all academic 
institutions to accept review by a central IRB--without insisting on 
parallel and often duplicative review by their own IRB--at least in the 
case of multi-institutional trials in rare diseases. Such oversight 
could help provide greater expertise to improve trial design and enable 
critical research to move forward in a timelier manner without 
undermining patient safety.
Research Compensation for Supplemental Security Income
    An additional impediment in our effort to accelerate the 
development of new therapies is the Social Security Administration's 
current Supplemental Security Income (SSI) rules, which count research 
compensation for participation in a clinical drug study as income for 
determining SSI. This policy creates an unnecessary barrier to clinical 
trial participation for a significant number of people with CF, and 
thus severely limits efforts to develop new therapies. S. 1674, the 
Improving Access to Clinical Trials Act of 2009, would allow the Social 
Security Administration to disregard any income received from 
compensation for clinical trials when determining eligibility for 
programs like SSI. Support from the subcommittee on resolving this 
disincentive toward clinical research is appreciated.
Partnership with the National Center for Research Resources (NCRR)
    The CTSA program, administered by the NCRR, encourages novel 
approaches to clinical and translational research, enhances the 
utilization of informatics, and strengthens the training of young 
investigators. Recently, however, the NCRR decided to reject funding 
for disease-specific networks in favor of those without a disease 
focus. As a result of this policy, some of the best clinical research 
consortia are prohibited from competing for NCRR grants, including but 
not limited to the CF TDN. We urge the NCRR to reverse this decision.
                       supporting drug discovery
    The Cystic Fibrosis Foundation's clinical research is fueled by a 
vigorous drug discovery effort--early stage translational research of 
promising strategies to find successful treatments for this disease. 
Several research projects at the NIH will expand our knowledge about 
the disease, and could eventually be the key for controlling or curing 
CF.
Opportunities in Animal Models
    The Cystic Fibrosis Foundation is encouraged by the NIH's 
investment in a research program at the University of Iowa to study the 
effects of CF in a pig model. The program, funded through research 
awards from both NHLBI and the Cystic Fibrosis Foundation, bears great 
promise to help make significant developments in the search for a cure. 
While a company has been established to produce the animals, the 
infrastructure and extensive animal husbandry required to keep the 
animals alive and conduct research on them is available at few academic 
institutions. We urge additional funding to create a facility that 
would enable researchers from multiple institutions to conduct research 
with these models.
Facilitating Scientific Data Connections
    An explosion of data is emerging from ``big science'' projects such 
as the Human Genome Project and the International HapMap Project. We 
encourage investments by NIH into the development of systems that 
permit the linkage of gene expression, protein expression, and protein 
interaction data from independent laboratories. While construction of 
such an interface would be difficult, it would undoubtedly facilitate 
generations of new ideas and open new areas of medically important 
biology.
Increasing Investment in Inflammatory Response Research
    CF, like diseases such as inflammatory bowel disease, chronic 
bronchitis, and rheumatoid arthritis, causes an intense inflammatory 
response. The Cystic Fibrosis Foundation enthusiastically supports 
investments by the NIH to gain a greater understanding of neutrophil-
driven inflammatory responses, which would lead to improved methods of 
safely interfering with the inflammatory process and contributing to 
the health and well being of the U.S. population.
Supporting High Throughput Screening
    The subcommittee should urge the NIH to continue to fund high 
throughput screening initiatives in keeping with Common Fund 
priorities. Support for the follow-up and optimalization of compounds 
identified through this type of screening can help to bridge the 
development gap and bring about more drugs that can make it to 
patients' bedsides.
Funding Systems Biology Platforms
    In order to rapidly accelerate the identification of potential 
biomarkers and understand the mechanisms of action of CFTR function, 
data generated from multiple laboratories and scientific centers must 
be integrated. To address this, the Cystic Fibrosis Foundation has 
partnered with a systems biology company called GeneGo to generate a 
CF-focused systems biology platform to illustrate the various effects 
of CFTR dysfunction in multiple cell systems. The CF Foundation urges 
NIH to provide additional funding to support research efforts aimed at 
leveraging systems biology platforms to integrate multiple disciplines 
within the CF research community in order to accelerate drug 
development and biomarker validation for CF.
Small Business Innovation Research Program at NIH
    Small Business Innovation Research (SBIR) program grants allocated 
by the NIH have helped many small biotechnology and pharmaceutical 
companies to develop vital treatments for a variety of diseases. The 
SBIR program could provide further support by directing that a portion 
of all grants awarded be used for rare disease research. With such a 
small portion of the population likely to purchase the drugs, research 
to produce drugs to treat rare diseases is often considered too large a 
financial risk to take on. By directing even small dollar grants to 
develop drugs for these diseases, Congress can eliminate some of the 
risk that keeps biotechnology and pharmaceutical companies from 
developing drugs for rare diseases.
    The NIH has wisely focused on translational research as a 
touchstone for ensuring the relevance of the agency to the American 
public. The CF Foundation is the perfect example of this notion, having 
devoted our own resources to developing treatments through drug 
discovery, clinical development, and clinical care. Several of the 
drugs in our pipeline show remarkable promise in clinical trials and we 
are increasingly hopeful that these discoveries will bring us even 
closer to a cure. Encouraged by our successes, we believe the 
experience of the CF Foundation in clinical research can serve as a 
model of drug discovery and development for research on other orphan 
diseases and we stand ready to work with NIH and congressional leaders. 
On behalf of the Cystic Fibrosis Foundation, we thank the subcommittee 
for its consideration.
                                 ______
                                 
   Prepared Statement of Children and Adults with Attention-Deficit/
                         Hyperactivity Disorder
Background
    At the Centers for Disease Control and Prevention (CDC) 1999 
conference titled ``Attention Deficit Hyperactivity Disorder: A Public 
Health Perspective,'' more than 150 experts gathered to discuss the 
public health concerns related to AD/HD and to explore areas for future 
research. The conference developed a public health research agenda 
which included recommendations on the establishment of: a resource for 
both professionals and the public regarding what is known about the 
epidemiology of AD/HD; an avenue of dissemination of educational 
materials related to the diagnosis of and intervention opportunities 
for AD/HD to primary care physicians, nurse practitioners, physicians 
assistants, mental health providers, and educators; collaborations with 
other organizations to educate and promote what is known about AD/HD 
interventions, appropriate standards of practice, their effectiveness, 
and their safety; and a resource to the public for accurate and valid 
information about AD/HD and evidence-based interventions.
    Congress responded to this research agenda in fiscal year 2002 by 
providing resources for the CDC to begin a partnership with CHADD \1\ 
to develop the National Resource Center on AD/HD (NRC)--a significant 
development in recognizing the unique challenges faced by individuals 
with AD/HD across the lifespan.
---------------------------------------------------------------------------
    \1\ Children and Adults with Attention-Deficit/Hyperactivity 
Disorder (CHADD) was founded by parents in 1987 in response to the 
frustration and sense of isolation experienced by parents and their 
children. CHADD is the leading national nonprofit organization for 
children and adults with AD/HD, providing the public and providers with 
education, advocacy, and support.
---------------------------------------------------------------------------
    The NRC's goals include improving the health and quality of life of 
individuals with AD/HD and their families; raising awareness and 
facilitating access to scientifically valid information and support 
services; and improving the understanding of the impact of AD/HD among 
healthcare specialists, educators, employers, and individuals with AD/
HD. The NRC fulfills these goals by disseminating evidence-based 
research on AD/HD through a variety of mechanisms, including:
  --a Web site (www.help4adhd.org) receiving on average 130,000 visits 
        each month;
  --a national call center, staffed by five professional health 
        information specialists, including one bilingual health 
        information specialist. The health information specialists 
        responded to 9,364 individual inquiries during the last year on 
        17,115 different topical issues from parents, adults with AD/
        HD, mental health professionals, and educators;
  --partnerships with minority health organizations to reach 
        underserved populations;
  --a series of more than 25 ``What We Know'' fact sheets on AD/HD, in 
        both English and Spanish; and
  --a comprehensive library and online bibliographic database of more 
        than 4,100 evidence-based journal articles and reports on AD/
        HD.
    The overwhelming demand for information and support on AD/HD by the 
public and the professional community has created an unprecedented need 
for additional resources to keep pace with the requests for information 
received by the NRC and to provide outreach and resources to unserved 
and underserved populations.
What is AD/HD?
    A 2005 report by the CDC found that parents reported approximately 
7.8 percent of school-age children (4 to 17 years) had a diagnosis of 
Attention-Deficit/Hyperactivity Disorder (AD/HD).\2\ Other evidence-
based studies have documented that more than 70 percent of children 
with AD/HD will continue to experience symptoms of AD/HD into 
adolescence, and almost 65 percent will exhibit AD/HD characteristics 
as adults.\3\ In addition, up to two-thirds of children with AD/HD will 
have at least one co-occurring disability with 50 percent of these 
children having a co-occurring learning disability.
---------------------------------------------------------------------------
    \2\ Centers for Disease Control and Prevention. (2005). Mental 
Health in the United States: Prevalence of Diagnosis and Medication 
Treatment for Attention-Deficit/Hyperactivity Disorder. Retrieved March 
25, 2005, from http://www.cdc.gov/mmwr/preview/mmwrhtml/mm5434a2.htm.
    \3\ Dulcan, M., and the Work Group on Quality Issues. (1997, 
October). AACAP official action: Practice parameters for the assessment 
and treatment of children, adolescents, and adults with Attention-
Deficit/Hyperactivity Disorder. Journal of the American Academy of 
Child and Adolescent Psychiatry, Supplement, 36(10), 85S-121S.
---------------------------------------------------------------------------
    Only half of all children with AD/HD receive the necessary 
treatment, with lower diagnostic and treatment rates among girls, 
minorities and children in foster care. If untreated or inadequately 
treated, AD/HD can have serious consequences, increasing an 
individual's risk for school failure, unemployment, interpersonal 
difficulties, other mental health disorders, substance and alcohol 
abuse, injury, antisocial and illegal behavior, contact with law 
enforcement, and shortened life expectancy.\4\ The availability of 
appropriate services and access to treatment can help individuals with 
AD/HD avoid negative outcomes and lead successful lives.
---------------------------------------------------------------------------
    \4\ Barkley, R. A. (1997). ADHD and the nature of self-control. New 
York: The Guilford Press.
---------------------------------------------------------------------------
Fiscal Year 2011 Appropriations Request
    The NRC has met and continues to meet the goals of improving the 
health and quality of life for individuals with AD/HD and their 
families; raising awareness and facilitating access to evidence-based 
information and support services; and improving the understanding of 
the impact of AD/HD among healthcare specialists, educators, employers, 
and individuals with AD/HD.
    Both the National Institutes of Health Consensus Conference on AD/
HD (Nov. 1998) and the Centers for Disease Control and Prevention 
Conference on Public Health and AD/HD (Sept. 1999) concluded that AD/HD 
is a serious public health concern that needs to be addressed because 
of the potential economic burden associated with AD/HD. Numerous peer 
reviewed journal articles have documented the significant healthcare 
cost of individuals with AD/HD.\5\
---------------------------------------------------------------------------
    \5\ Cuffe, S.P., Moore, C.G., & McKeown, R. (2009). ADHD and health 
services utilization in the National Health Survey. Journal of 
Attention Disorders, 12(4), 330-340; Chan, E., Zhan, C., & Homer, C.J. 
(2002). Health care use and costs for children with Attention-Deficit/
Hyperactivity Disorder, Archives of Pediatrics & Adolescent Medicine, 
156, 504-511; Rowland, A.S., Umbach, D.M., Stallone, L., Naftel, J., 
Bohlig, E.M., & Sandler, D. P. (2002). Prevalence of medication 
treatment for Attention Deficit-Hyperactivity Disorder among elementary 
school children in Johnston County, North Carolina, American Journal of 
Public Health, 92(2), 231-234; Ray, T.G., Levine, P., Croen, L.A., 
Bokhari, F.A.S., Hu., T., & Habel, L.A. (2006). Attention-Deficit/
Hyperactivity Disorder in children, Archives of Pediatrics & Adolescent 
Medicine, 160, 1063-1069.
---------------------------------------------------------------------------
    In ``AD/HD in Adults: What the Science Says,'' Barkley, Murphy & 
Fisher discuss the results of the few empirical studies that have been 
conducted regarding occupational functioning of clinic-referred adults 
with AD/HD.\6\ ``Although opinions abound on the topic in trade books 
on ADHD in adults, there is very little research on the occupational 
functioning of clinic-referred adults with ADHD'' (p. 276). One study 
conducted at UMASS found that adults with a diagnosis of AD/HD are more 
likely to self-report and have employers report difficulties with 
occupational functioning than their clinic-referred or community 
counterparts. In addition, the Milwaukee study (2006) found that 
individuals diagnosed as having AD/HD as children that persists until 
age 27 tend to be more severely affected in occupational functioning 
than clinic-referred adults or community counterparts. In addition, 
another study conducted by Biederman & Faraone (2006) concluded that 
individuals with AD/HD are less likely to be employed full time (34 
percent of individuals with AD/HD compared to 59 percent of individuals 
without AD/HD).\7\ In addition, the study found that the household 
incomes of adults over the age of 25 were significantly lower among 
individuals with AD/HD when compared to individuals without AD/HD 
regardless of academic achievement or personal characteristics. The 
results of these three studies indicate the need for further research 
into the impact of AD/HD on the occupational functioning of adults and 
how best to reasonably accommodate their disability in the workplace 
because more than 30 percent of requested accommodations are at no cost 
to the employer but yet according to Biederman & Faraone the total cost 
of work loss among men and women with AD/HD is $2.6 billion, or 53 
percent of the total $13 billion cost of adult ADHD in the United 
States.
---------------------------------------------------------------------------
    \6\ Barkley, R.A., Murphy, K.R., & Fischer, M. (2008). ADHD in 
Adults: What the Science Says. New York: The Guilford Press.
    \7\ Biederman, J.,& Faraone, S.V. (2006). The effects of attention-
deficit/hyperactivity disorder on employment and household income. 
MedGenMed, 8(3),12, Retrieved March 25, 2005, from http://
www.medscape.com/viewarticle/536264.
---------------------------------------------------------------------------
    Last year, the AD/HD line item was funded at $1.751 million. We are 
requesting a $400,000 increase in the AD/HD line item, which will 
result in a $200,000 increase in the NRC. Historically, half of the 
increase to the AD/HD line item has been used to fund research on AD/
HD. The $200,000 increase to the NRC will allow the NRC to further 
develop its outreach to the African-American and Hispanic-Latino 
communities, and most importantly during this current economic climate 
to initiate an employment information specialist service.
Requested Report Language for Fiscal Year 2011
    The subcommittee continues to support the activities of the CDC's 
NCBDDD and the National Resource Center (NRC) on AD/HD and has provided 
$2,151,000 to continue this support, including $1,075,500 to maintain 
and expand the activities at the NRC as it responds to the overwhelming 
demand for information and support services, reaches special 
populations in need, and most importantly during this current economic 
climate, provides support for a health information specialist focused 
on employment to assist individuals with AD/HD to lead successful, 
economically self-sufficient, and independent lives integrated into 
their communities with the necessary accommodations and supports.
                                 ______
                                 
    Prepared Statement of the Coalition for Health Services Research
    The Coalition for Health Services Research (CHSR) is pleased to 
offer this testimony regarding the role of health services research in 
improving our Nation's health. The Coalition's mission is to support 
research that leads to accessible, affordable, high-quality healthcare. 
As the advocacy arm of AcademyHealth, the Coalition represents the 
interests of 3,800 researchers, scientists, and policy experts and 150 
organizations that produce and use health services research.
    Healthcare in the United States has the potential to dramatically 
improve people's health, but often falls short and costs too much. 
Health services research is used to understand how better to finance 
the costs of care, measure and improve the quality of care, and improve 
coverage and access to affordable services. It provides patients, 
providers, payers, and policymakers with the tools needed to make 
healthcare:
  --Affordable by decreasing cost growth to sustainable levels.
  --Efficient by decreasing waste and overpayment and monitoring the 
        cost-effectiveness of care.
  --Safe by decreasing preventable medical errors, monitoring public 
        health, and improving preparedness.
  --Effective by evaluating programs and outcomes and promoting 
        evidence-based innovations.
  --Equitable by eliminating disparities in health and healthcare.
  --Accessible, by connecting people with the healthcare they need when 
        they need it.
  --Patient-centered by increasing patient engagement in and 
        satisfaction with the care received.
    Indeed, health services research has been changing the face of U.S. 
healthcare, uncovering critical challenges confronting our nation's 
healthcare system. For example, the 2000 Institute of Medicine (IOM) 
report To Err Is Human found that up to 98,000 Americans die each year 
from medical errors in the hospital. Health services research also 
found that disparities and lack of access to care in rural and inner 
cities result in poorer health outcomes. And it demonstrated that 
obesity accounts for more than $92 billion in medical expenditures each 
year and has worse effects on chronic conditions than smoking or 
problem drinking.
    But health services research does not just lift the veil on the 
problems plaguing U.S. healthcare; it also seeks ways to address them. 
Health services research offers guidance on implementing and making the 
best use of health information technology and getting the best care at 
the best value. Health services research framed the debate over 
healthcare reform in Massachusetts--forming the basis for that State's 
2006 health reform legislation--and was instrumental in shaping 
comprehensive national health reform through The Patient Protection and 
Affordable Care Act. As health reform is implemented over the next few 
years, health services research will be needed more than ever to 
monitor and evaluate the new law's impact on the healthcare system and 
the health status of Americans. Do Americans have better access to 
healthcare? Are the measures projected to bend the healthcare cost 
curve downward having the desired effect? Are patients more engaged in 
healthcare decisionmaking? Is care better coordinated across providers? 
Health services research will provide the answers to these and other 
important questions.
    For the last 7 years, the Coalition has collected data to track the 
Federal Government's expenditures for health services research and 
health data. Information provided to us by the principal funders of 
health services research and data--including the Agency for Healthcare 
Research and Quality (AHRQ), the National Institutes of Health (NIH), 
the Centers for Disease Control and Prevention (CDC), and the Centers 
for Medicare and Medicaid Services (CMS)--indicates that the field of 
health services research and data has operated with diminished 
purchasing power for years. Up until 2008, overall spending on 
healthcare continued to rise faster than the rate of inflation--from 
$1.4 trillion in 2000 to nearly $2.3 trillion in 2008. Despite the 
recent increase in Federal funding for health services research and 
data--$1.8 billion in fiscal year 2009--the total Federal investment 
still accounted for only 0.078 percent of the $2.3 trillion we spend on 
healthcare annually.
    The CHSR greatly appreciates the subcommittee's recent efforts to 
increase the Federal investment in health services research and 
comparative effectiveness research through the fiscal year 2010 Omnibus 
Appropriations Act and the American Recovery and Reinvestment Act of 
2009. This funding provides a new high watermark for the field and 
represents the largest-ever single funding increase in health services 
research. With comprehensive health reform now a reality, we ask the 
subcommittee to continue strengthening the capacity of the health 
services research field to address the pressing challenges America 
faces in providing access to high-quality, cost-effective care for all 
its citizens.
AHRQ
    AHRQ is the lead Federal agency charged with supporting unbiased, 
scientific research to improve healthcare quality, reduce costs, 
advance patient safety, decrease medical errors, and broaden access to 
essential services. Recent years' steady, incremental increases for 
AHRQ's Effective Health Care Program, as well as the $300 million 
provided to AHRQ in the American Recovery and Reinvestment Act, have 
helped AHRQ generate more comparative effectiveness research and expand 
the infrastructure needed to increase capacity to produce this 
evidence. However, funding for AHRQ's broader health services research 
portfolio has languished as funding for AHRQ's base has remained 
relatively flat. To balance the recent investments in AHRQ's 
comparative effectiveness research, we recommend that:
  --AHRQ's broader health services research portfolio should not be 
        sacrificed for the sole benefit of comparative effectiveness 
        research. The entirety of the President's requested budget 
        increase will support ``patient-centered health research'' 
        (i.e., comparative effectiveness research) while funding for 
        programs in AHRQ's broader research portfolio are cut or flat-
        funded to support a more robust comparative effectiveness 
        research portfolio. The full spectrum of health services 
        research on healthcare cost, quality, and access is essential 
        to ensure that research on ``what works'' is implemented in 
        ways that support broader health reform efforts.
  --Congress should continue to place priority on investigator-
        initiated research and should target funding for innovative, 
        competitive grants in fiscal year 2011. The President's 
        proposed budget does not fund new investigator-initiated 
        research grants at AHRQ in fiscal year 2011. The Coalition is 
        grateful to the subcommittee for its leadership in recognizing 
        the value of investigator-initiated research at AHRQ. The 
        Coalition requests that you continue this investment in fiscal 
        year 2011 and sustain the momentum for competition and 
        innovation you have cultivated over several years.
  --Congress should target more funding for pre- and postdoctoral 
        training grants to increase capacity to respond to growing 
        public and private sector demand for health services research. 
        At the direction of Congress, AHRQ doubled its investment in 
        training grants for the next generation of researchers in the 
        last year. Still, training grants for new researchers fall far 
        short of what is needed across all disciplines to meet growing 
        public and private sector demand for health services research. 
        As the lead agency for health services research, AHRQ requires 
        more funding to develop the next generation of health services 
        researchers--both physician and nonphysician researchers.
    While targeted funding increases in recent years have moved AHRQ in 
the right direction, more core funding is needed to help AHRQ fulfill 
all aspects of its mission. We join the Friends of AHRQ--a coalition of 
more than 250 health professional, research, consumer, and employer 
organizations that support the agency--in supporting the President's 
requested funding level of $611 million.
Centers for Disease Control and Prevention (CDC)
    Housed within the CDC, the National Center for Health Statistics 
(NCHS) is the Nation's principal health statistics agency, providing 
critical data on all aspects of our healthcare system. With the 
subcommittee's leadership in securing steady and sustained funding 
increases for NCHS over the last 3 fiscal years, NCHS is rebuilding 
after years of underinvestment that forced the elimination of data 
collection and quality control efforts, threatened the collection of 
vital statistics, stymied the adoption of electronic systems, and 
limited the agency's ability to modernize surveys to reflect changes in 
demography, geography, and health delivery. We join the Friends of 
NCHS--a coalition of more than 250 health professional, research, 
consumer, industry, and employer organizations that support the 
agency--in endorsing the President's fiscal year 2011 request of $162 
million, a funding level that will build on your previous investments 
and put the agency on track to become a fully functioning, 21st 
century, national statistical agency.
    The Patient Protection and Affordable Care Act recognizes the need 
for linking the medical care and public health delivery systems by 
authorizing a new CDC research program to study the delivery of public 
health services. If funded in fiscal year 2011, this program will 
support the examination of evidence-based practices relating to 
prevention; analyze the translation of interventions from academic to 
real-world settings; and identify effective strategies for organizing, 
financing, or delivering public health services in real-world community 
settings by, for example, comparing State and local health department 
structures and systems in terms of effectiveness and costs. The 
Coalition urges you to appropriate $50 million for this important 
program in fiscal year 2011, enabling us to study ways to improve the 
efficiency and effectiveness of public health service delivery.
    In addition, the Coalition urges you to provide the CDC's important 
Public Health Research portfolio and Prevention Research Centers--a 
network of academic health centers that conduct public health 
research--with at least $35 million for Public Health Research and at 
least $35 million for Prevention Research Centers in fiscal year 2011. 
These programs--which seek ways to develop, translate, and disseminate 
research to address obesity, diabetes, and heart disease; healthy aging 
and youth development; cancer risk; and health disparities--have been 
virtually flat-funded since fiscal year 2006. At a time when chronic 
diseases persist as the primary drivers of escalating healthcare costs, 
greater investment in public health research is needed to identify 
evidence-based solutions to curbing the prevalence of these diseases.
Centers for Medicare and Medicaid Services (CMS)
    Steady funding decreases for the Office of Research, Development 
and Information, together with an increasingly earmarked budget, have 
hindered CMS's ability to meet its statutory requirements and conduct 
new research to strengthen public insurance programs--including 
Medicare, Medicaid, and the Children's Health Insurance Program--which 
together cover nearly 100 million Americans and comprise 45 percent of 
America's total health expenditures. As these Federal entitlement 
programs continue to pose significant budget challenges for both 
Federal and State governments, it is critical that we adequately fund 
research to evaluate the programs' efficiency and effectiveness and 
seek ways to manage their projected spending growth.
    The Coalition supports an increase in CMS's discretionary research 
and development budget from $36 in fiscal year 2010 to a base fiscal 
year 2011 funding level of $47 million, consistent with the President's 
request. This funding is a critical down payment to help CMS recover 
lost resources and restore research to evaluate its programs, analyze 
pay for performance and other tools for updating payment methodologies, 
and further refine service delivery methods.
    In addition, the Coalition supports the President's fiscal year 
2011 request of $110 million for a new data improvement initiative at 
CMS. This investment would enhance the quality and timeliness of data, 
support health reform initiatives such as value-based purchasing and 
comparative effectiveness research, improve payment accuracy, and 
enhance systems security. The Coalition supports the President's 
efforts to improve data quality, timeliness, and access and encourages 
Congress to appropriate funding so that the research community will be 
able to access CMS's valuable data to enhance these Federal programs 
and ultimately reduce mandatory spending.
NIH
    NIH reported that it spent $1.1 billion on health services research 
in fiscal year 2009--roughly 3.6 percent of its entire budget--making 
it the largest Federal sponsor of health services research. For fiscal 
year 2011, the Coalition recommends a health services research base 
funding level of at least $1.27 billion--3.6 percent of the $35 billion 
sought by the broader health community for NIH. The Coalition believes 
that NIH should increase the proportion of its overall funding that 
goes to health services research from 3.6 to 5 percent to ensure that 
discoveries from clinical trials are effectively translated into health 
services. We also encourage NIH to foster greater coordination of its 
health services research investment across its Institutes.
    In conclusion, the accomplishments of health services research 
would not be possible without the leadership and support of this 
subcommittee. As you know, the best healthcare decisions are based on 
relevant data and scientific evidence. With important health reforms 
now undergoing implementation, health services research will continue 
to yield valuable scientific evidence in support of improved quality, 
accessibility, and affordability of healthcare. We urge the 
subcommittee to accept our fiscal year 2011 funding recommendations for 
the Federal agencies funding health services research and health data.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors
    The Coalition of Northeastern Governors (CONEG) is pleased to 
submit this testimony for the record to the Senate Subcommittee on 
Labor, Health and Human Services, and Education, and Related Agencies 
regarding fiscal year 2011 appropriations for the Low-Income Home 
Energy Assistance Program (LIHEAP).
    The Governors appreciate the subcommittee's continued support for 
LIHEAP, and we thank you for providing $5.1 billion in fiscal year 2010 
funding for the program. The Governors recognize the considerable 
fiscal challenges facing the subcommittee this year. However, as the 
number of households seeking heating and cooling assistance continues 
to increase nationwide, we urge you to provide fiscal year 2011 funding 
for the core LIHEAP block grant program at least at the most recent 
authorized level of $5.1 billion, as well as provide sufficient 
contingency funds to address unforeseen energy emergencies. Providing 
this funding level through the block grant program provides the 
certainty that States need to implement an effective program.
    LIHEAP is a vital safety net for millions of vulnerable low-income 
households--the elderly and disabled living on fixed incomes, the 
working poor and newly unemployed, and families with young children. 
Under this targeted program, the majority of households receiving 
assistance have incomes of less than $8,000 a year. These households 
have the highest energy burden, spending more than 16 percent of their 
income on home energy compared to 3 percent for non-low-income 
households.
    This disproportionate energy burden experienced by vulnerable low-
income families continues. In recent years, the increase in the cost of 
home energy has far outpaced both the rate of inflation and the 
increase in household income.\1\ The share of income that elderly 
households spend on housing costs and out-of-pocket healthcare 
expenditures has increased substantially in the last two decades.\2\ 
LIHEAP is an effective tool for helping these households better manage 
the financial pressures of unaffordable home energy costs, through 
assistance in paying bills as well as making their homes and heating 
systems safer and more efficient.
---------------------------------------------------------------------------
    \1\ Short and Long-Term Perspectives: The Impact on Low-Income 
Consumers of Forecasted Energy Price Increases in 2008 and a Cap-and-
Trade Carbon Policy in 2030, Oak Ridge National Laboratory, December 
2007.
    \2\ Recipiency Targeting Analysis for Elderly and Young Child 
Households, prepared for the Office of Community Services' Division of 
Energy Assistance by APPRISE Incorporated, December 2008.
---------------------------------------------------------------------------
    While some national economic reports are hopeful, the current 
situation remains challenging for these low-income households as the 
costs of essential household expenses including home energy and food 
remain high. This is particularly true in the Northeast where a greater 
percentage of households use delivered heating fuels, such as home 
heating oil, propane and kerosene, than in any other region of the 
country. These households are more vulnerable to price volatility, 
making it more difficult for families to manage their household 
budgets. Households using deliverable fuels tend to have an extremely 
high energy burden, with historically higher energy bills than those 
using other heating sources. The average annual heating bill for all 
LIHEAP recipients was $717 in 2007. However, the average annual heating 
bill for households using home heating oil was $1,686, and the average 
heating bill for propane users was $1,052.\3\ This pattern continues. 
Even as the price of some home energy prices stabilize, the Energy 
Information Administration finds that home heating oil prices have 
increased 20 percent more than last year.\4\ In addition, households 
that rely upon delivered fuels do not have the benefit of a program 
comparable to a utility service shut-off moratorium. If a household 
cannot afford to purchase the home heating fuel, the delivery truck 
simply does not come.
---------------------------------------------------------------------------
    \3\ LIHEAP Home Energy Notebook for Fiscal Year 2007, U.S. 
Department of Health and Human Services, Administration for Children 
and Families, Office of Community Services, Division of Energy 
Assistance, June 2009.
    \4\ Short-Term Energy Outlook, Energy Information Administration, 
March 2010.
---------------------------------------------------------------------------
    The number of households receiving LIHEAP assistance continues to 
reach record levels. According to the National Energy Assistance 
Directors' Association (NEADA), 8.3 million households received heating 
assistance in 2009, compared to 6.1 million in 2008. States expect that 
number to grow to more than 9.5 million in 2010. Many of these 
applicants have never requested help before, but are facing 
extraordinary economic hardship due to increased unemployment and 
layoffs. Yet, this is only a small portion of the eligible households.
    As spring approaches and utility shut-off moratoria end, too many 
families are in danger of having their utility service terminated for 
nonpayment. According to NEADA, approximately 4.3 million households 
were shut off from power in fiscal year 2009 up from 4.1 million in 
2008. In fiscal year 2009 approximately 12.5 million households were at 
least 30 days behind in their utility bills. The effects on these 
vulnerable households can be deadly. Numerous studies have found that 
the elderly and very young children are at risk for serious health 
consequences from prolonged exposure to home temperatures that are 
either too cold in the winter or too hot in the summer.
    States in the Northeast already incorporate various administrative 
strategies that allow them to deliver maximum program dollars to 
households in need. These include using uniform application forms to 
determine program eligibility, establishing a one-stop shopping 
approach for the delivery of LIHEAP and related programs, sharing 
administrative costs with other programs, and using mail 
recertification. Opportunities to further reduce LIHEAP administrative 
costs are limited, since they are already among the lowest of the human 
service programs.
    In spite of these State efforts to stretch Federal and State LIHEAP 
dollars, the need for the program is far too great. Increased, 
predictable and timely Federal funding is vital for LIHEAP to assist 
the Nation's vulnerable, low-income households faced with exorbitant 
home energy bills. The CONEG Governors urge the subcommittee to provide 
at least $5.1 billion in regular block grant funding for LIHEAP in 
fiscal year 2011 as well as sufficient contingency funds to address 
unforeseen energy emergencies. This sustained level of funding will 
help States to provide meaningful assistance to households in need as 
millions of low-income citizen's struggle with unaffordable home energy 
bills. LIHEAP can continue to provide a vital safety net protecting 
these vulnerable households from the potentially deadly heat and cold.
                                 ______
                                 
     Prepared Statement of the Corporation for Public Broadcasting
    Chairman Harkin, Ranking Member Cochran, and members of the 
subcommittee, thank you for allowing me to submit testimony on behalf 
of our Nation's public media system.
    As you know, the Corporation for Public Broadcasting (CPB), a 
private, nonprofit corporation created by the Public Broadcasting Act 
of 1967, is the steward of the Federal Government's investment in 
public broadcasting. We support the operations of more than 1,100 
locally owned and operated public television and radio stations 
nationwide. Throughout the United States, public broadcasting, or what 
should more accurately be called ``public media,'' engages citizens on-
air, on-line, and on the ground with information they can use to 
improve their lives and strengthen their local communities. As 
commercial media becomes increasingly consolidated, a key strength of 
public media remains its design: a decentralized set of stations, each 
with deep local roots and maintaining individual service strategies 
tailored to the unique needs of its local community.
    Public broadcasting was born in an earlier moment of profound 
change and transition. In the 1950s and 1960s a new media technology 
was diffusing quickly: the television. Around it grew a movement to use 
the new medium, as well as existing radio technology, for educational 
purposes, and public broadcasting was born. Today, nearly a half-
century after the signing of the Public Broadcasting Act, we are making 
a similar transition from public broadcasting to the ``Public Media 
2.0'' the President called for during his campaign. As we leverage our 
legacy to become a leader in the new and ever-changing media landscape, 
public media has focused its efforts through a strategic framework 
comprising the ``Three Ds'': Digital, Diversity, and Dialogue.
Innovation on Digital Platforms
    As an outgrowth of its dedication to universal service, public 
media is embracing a range of digital delivery methods to reach all 
Americans, wherever and whenever they seek information. Because of its 
reach, its availability for free, and its unmatched efficiency in 
point-to-multipoint communications, over-the-air service remains an 
essential part of the public media portfolio. At the same time, public 
broadcasters are evolving into true multi-platform media entities by 
creating content and services, some related to and some entirely 
independent from broadcast content, that capitalize on the power of 
broadband and other digital technologies. For example:
  --KQED's (San Francisco) QUEST is a new multimedia series about the 
        people behind Bay Area science and environmental issues which 
        utilizes all of KQED's media platforms, educational resources 
        and extraordinary partnerships, and includes a half-hour weekly 
        HD television program, weekly radio segments, an innovative Web 
        site and education guides.
  --Public Broadcasting Atlanta is developing Lens on Atlanta, an on-
        line portal that invites citizens to create and participate in 
        blogs, wikis, forums, petitions, and surveys, and engages 
        institutions and Government entities around Atlanta to listen 
        and participate.
  --Many public radio stations have expanded the reach of their 
        cultural programming by investing in and creating substantial 
        Internet music services with significant audiences. Examples 
        include WAMU's Bluegrass Country, WKSU's Folk Alley, WXPN's 
        Xponential, and KCRW's Eclectic24.
    In addition to these local station efforts, public broadcasting's 
national organizations have been moving for some time to leverage the 
power of digital media. For example:
  --CPB is funding the creation of Local Journalism Centers, combining 
        our and participating stations' resources for a ground-breaking 
        approach to news gathering and distribution. The seven centers 
        will form teams of multimedia journalists, who will focus on 
        issues of particular relevance to each region, and their in-
        depth reports will be presented regionally and nationally via 
        digital platforms, community engagement programs and 
        broadcasts.
  --In October 2009, NPR initiated Argo, a new multi-media journalism 
        project, funded by CPB and the Knight Foundation. The 2-year 
        project is designed to strengthen public media's local 
        journalism, build a significant online audience, and develop a 
        common publishing platform that will better support public 
        media's online needs. NPR is working with a dozen selected 
        public television and radio stations to launch Web sites for 
        each station that go in-depth on selected topics or 
        ``verticals.''
  --In September 2008, PBS launched its PBS KIDS GO! video player, 
        featuring hundreds of video clips and dozens of full-length 
        episodes. Since launch, the site is averaging 1.3 million 
        streams per week, and 9 million unique visitors a month. In 
        December 2009 alone, children watched more than 87.5 million 
        streams across the PBS KIDS family of Web sites, its highest 
        total ever, putting it on track to be one of the most popular 
        video sites in the world.
  --CPB is funding the development of the American Archive, which 
        ultimately will restore, digitize, and preserve public 
        broadcasting's deteriorating collections of local television 
        and radio content. We expect to have 40,000 hours of local and 
        national television and radio content available to the American 
        public with in 18 months.
Content That Reflects the Nation's Diversity
    Equally central to public media's universal service mission is 
providing individuals of every ethnicity and economic and social 
background, particularly those that are underserved by commercial 
media, relevant and engaging content. The ability to transmit multiple 
streams of digital programming over the air, combined with the nearly 
boundless capabilities of broadband, enable local and national public 
media entities to deliver content that truly reflects America's 
diversity. CPB is constantly expanding its relationships with diversity 
partners to both broaden its reach and to allow greater opportunities, 
on a variety of platforms, for underrepresented groups. Among these 
efforts:
  --CPB provides ongoing support to, among others: the National 
        Minority Consortia, which provides seed money to producers of 
        multicultural content; the Independent Television Service, 
        which champions independently produced programming targeting 
        underserved audiences; Koahnic Broadcast Corporation, the 
        leader in bringing Native voices to Alaska and the nation 
        through the only urban Native public radio station and its 
        national production and distribution center (Native Voice One) 
        in Albuquerque; and Radio Bilingue, the only national 
        distributor of Spanish-language public radio programming, which 
        is now developing a transmedia service in Los Angeles targeting 
        a young, English-speaking, and highly diverse audience. We also 
        funded the creation of Native Public Media in 2004 to build and 
        advance Native access to, ownership of, and participation in 
        media, especially radio.
  --In fiscal year 2010, we are creating within our multi-year PBS 
        National Program Service agreement (which supports primetime 
        and children's programming) a Diversity and Innovation Fund, 
        which will support major content development projects that 
        examine topics of interest to diverse audiences or that employ 
        new, lower-cost production models.
  --CPB funds the National Black Programming Consortium's annual New 
        Media Institute, a unique professional development program 
        designed to introduce producers to the latest in digital media 
        production, marketing, and distribution. The program includes a 
        collaboration website where journalists can showcase their 
        work, find and share public domain stock, share best practices, 
        and brainstorm together on innovative future citizen media 
        projects.
  --Through projects such as the Public Radio Talent Quest, CPB has 
        identified a new generation of public broadcasting talent--
        Public Media 2.0 producers--who appeal to new audiences and 
        produce multimedia content for a variety of platforms. For 
        example, Glynn Washington, a winner of the Talent Quest, 
        produces a new multimedia series, Snap Judgment, that combines 
        his unique brand of storytelling with innovative technology to 
        explore the decisions people make in moments of crisis.
Services That Foster Dialogue Between Public Media and the American 
        People
    Public media's localism remains more relevant than ever as 
commercial media are increasingly owned and operated by entities 
outside of their local communities--but the nature of our service to 
local communities is shifting in the digital age. Critical to public 
media's future will be its ability to collaborate and serve as an 
active resource and trusted partner to more diverse communities, in new 
ways. Public media entities are quickly adapting to the new paradigm. 
For example, as part of a comprehensive local/national response to the 
Nation's economic woes, CPB is supporting a number of in-depth 
community engagement projects, including:
  --Facing the Mortgage Crisis.--Fifty-seven stations are participating 
        in this multi-million dollar national project designed to help 
        the country's hardest-hit regions cope with an avalanche of 
        mortgage foreclosures. Based on an extremely successful model 
        developed by KETC-TV in St. Louis, stations are working with 
        key community partners, such as United Way's 2-1-1 call 
        centers, to create content on-air and online that helps 
        families to avoid or mitigate home foreclosures.
  --Engaging Communities on the Economy.--CPB is supporting the work of 
        37 stations working with partners to address other pressing 
        economic issues, such as joblessness, hunger, loss of health 
        insurance and family stress. These projects serve diverse 
        audiences, from seniors to recent immigrants to teenagers.
CPB's Requests for Appropriations
    Public media stations continue to evolve, both operationally and 
more importantly in the myriad ways they serve their communities. 
Stations are committed to reaching viewers and listeners on whatever 
platform they use--from smart phones to iPads to radios to TV sets. But 
new opportunities come with a cost. While stations can and will 
continue to adapt and thrive in the digital age, without sufficient 
support they cannot live up to the potential of the new technologies. 
As the Federal Communications Commission's recently-issued National 
Broadband Plan noted, ``Today, public media is at a crossroads . . . 
[it] must continue expanding beyond its original broadcast-based 
mission to form the core of a broader new public media network that 
better serves the new multi-platform information needs of America. To 
achieve these important expansions, public media will require 
additional funding.''
    CPB Base Appropriation (Fiscal Year 2013).--CPB requests a $604 
million advance appropriation for fiscal year 2013. Stations have been 
faced with flat CPB funding for the better part of the past decade, and 
the impact of this lack of an even inflationary increase (until fiscal 
year 2010) has been magnified by the economic conditions of the last 
few years. As public media seeks to make the transition to a truly 
digital enterprise, the Federal share of station funding has never been 
more critical. CPB distributes its advance appropriation in accordance 
with a statutory formula, under which almost 72 percent of funds go 
directly to local public television and radio stations, as well as 
discretionary support for the creation of programming for radio, 
television and new media and on projects that benefit the entire public 
broadcasting community. Added together, these efforts account for 95 
percent of the funds appropriated to CPB; we are limited by law to an 
administrative budget of 5 percent. The Federal appropriation accounts 
for under 15 percent of the entire cost of public broadcasting, but it 
is a vital core that leverages support from State and local 
governments, universities, businesses, foundations, and especially 
viewers and listeners of local public television and radio stations.
    CPB Digital (Fiscal Year 2011).--CPB requests $59.5 million in 
digital funding for fiscal year 2011. With this funding, CPB will 
continue its mission to fund stations' efforts to adapt to audience 
demands for educational, cultural and news and information content, 
regardless of platform. As the Administration noted in its fiscal year 
2011 budget request, while CPB Digital will continue to fund station 
``equipment'' such as digital transmitters and translators, ``the 
majority of this funding will be utilized to fund projects to enhance 
multi-platform content creation, delivery and storage, such as the 
American Archive, which by converting content to digital format, will 
ensure that the vast archives of public broadcasting content will not 
be lost due to physical media deterioration.'' Though needs remain, as 
local stations' conversion to digital broadcasting ramps down, CPB 
Digital funding for broadcast equipment will continue to diminish, and 
the Department of Commerce's Public Telecommunications Facilities 
Program (PTFP) can resume its role as the primary Federal source for 
local station equipment funding.
    Ready To Learn (Fiscal Year 2011).--CPB is requesting $32 million 
in fiscal year 2011 for Ready To Learn (RTL), a Department of Education 
program with a nearly 20-year proven record of using the power and 
reach of public television's children's programming to raise the 
reading levels of children ages 2-8 who live in high-poverty 
environments. Today, Ready To Learn is a partnership between CPB, PBS, 
WGBH (Boston), WTTW (Chicago), Sesame Workshop, leading researchers and 
public television stations nationwide. We strongly disagree with the 
administration's proposed consolidation of RTL into an umbrella 
literacy program and instead believe that the difference this program 
has made on children's lives makes continued dedicated Federal support 
imperative. An appropriation of $32 million in fiscal year 2011 will 
enable RTL content and accompanying materials to be created and tested 
on a faster timeline, and will enable more communities to become 
involved in existing station-based outreach activities.
    Mr. Chairman and Ranking Member, thank you again for allowing CPB 
to submit this testimony. For nearly a half-century, public 
broadcasting has provided a safe place for millions of children to 
learn and unparalleled access to news and information; given voice to 
diverse points of view; and convened community dialogues. As the times 
have changed, so too have the technologies available to provide service 
to communities across our country. The challenge before us is how best 
to incorporate new capabilities into the public interest and service 
for all of our diverse citizenry, especially during these challenging 
economic times. With your continued support, we are ready to meet this 
challenge.
                                 ______
                                 
      Prepared Statement of the Corporation for Supportive Housing
    The Corporation for Supportive Housing (CSH) is a nonpartisan, 
nonprofit organization that helps communities build permanent 
supportive housing (PSH). We have offices in 12 States (California, 
Arizona, Texas, Illinois, Indiana, Ohio, Minnesota, Michigan, New 
Jersey, New York, Connecticut, and Rhode Island) and the District of 
Columbia and have a presence in several others. We work with 
communities and States to reorient systems and align resources to 
create permanent supportive housing and end and prevent chronic 
homelessness. Although many people experiencing homelessness may only 
need rental or income supports to become and stay housed, a significant 
and intractable subset of people experiencing homelessness need (in 
addition to rental assistance or affordable housing) intensive (wrap-
around) supportive services such as substance use treatment, mental 
health services, healthcare to manage chronic diseases, and case 
management services.
    Most PSH providers receive at least a portion of the funds 
necessary to build or secure housing from the Department of Housing and 
Urban Development (HUD). Unfortunately, the Department of Health and 
Human Services has not made an equivalent commitment to funding the 
services component of PSH. As a result, PSH providers have few places 
to turn to for the funding needed to provide the wrap-around supportive 
services needed to keep chronically homeless individuals housed. 
Organizations and local government agencies patch together a 
combination of State, local, foundation and privately raised funds to 
pay for the vital social services chronically homeless populations must 
have to stay housed. These funds are often limited in amount and short-
term in nature. In order to build the PSH units needed to end chronic 
homelessness, the Department of Health and Human Services must increase 
its investment in local permanent supportive housing projects. To this 
end, CSH recommends the following:
  --Allocate $120 million for services for people experiencing 
        homelessness within the Programs of Regional and National 
        Significance (PRNS) accounts of both SAMHSA's Center for Mental 
        Health Services and Center for Substance Abuse Treatment. This 
        includes the President's proposal for $15.8 million to fund a 
        joint HHS/HUD homeless program.
  --Increase funding for the Projects for Assistance in Transition from 
        Homelessness (PATH) program to $75 million.
  --Provide $3.28 billion for the Community Health Center program, this 
        would result in $278 million for the Health Care for the 
        Homeless program.
  --Fund the Mental Health Services Block Grant (change name) at $521 
        million, a $121 million increase.
  --Fund the Substance Abuse Prevention and Treatment Block Grant at 
        $2.008 billion a $289 million increase over fiscal year 2009.
Background
    While HUD has made significant housing investments, there is a need 
for HHS to increase its role in providing services resources for 
organizations to create permanent supportive housing. A majority of 
chronically homeless individuals live with and face continuing barriers 
to permanent housing due to serious mental illness, substance use 
disorders or chronic health conditions and to retain housing must have 
access services that require HHS expertise.
    We know permanent supportive housing works. Over 80 percent of 
permanent supportive housing residents remain housed after the first 
year. Other studies have shown decreased mortality rates, reduced use 
of alcohol and other drugs, lower HIV viral loads, and improved health 
among chronically homeless people due to placement into supportive 
housing. In addition, work CSH has done targeting frequent users of 
health, jails or prisons illustrates the cost effectiveness of PSH. In 
California, we implemented the Frequent Users of Health Services 
Initiative (FUHSI). Through this study, we found that by placing 
clients into PSH we reduced their emergency room costs by 59 percent, 
reduced their inpatient days by an average of 62 percent and reduced 
average inpatient charges by 69 percent.
    Our project targeting frequent users of jails and prisons has shown 
similar results. The Frequent Users of Services Enhancement (FUSE) 
Initiative is a joint project between the New York City Departments of 
Corrections and Homeless Services with assistance from the Department 
of Health and Mental Hygiene and the New York City Housing Authority. 
By assisting ex-offenders and providing permanent supportive housing to 
those who need it, NYC was able to help clients reduce jail stays by 53 
percent and reduce shelter stays by 92 percent. For the 100 people 
served, the FUSE initiative was able to offset nearly $3,000 in both 
jail and shelter costs per client, not to mention reducing costly 
emergency health services utilization.
    In addition, there are several other subpopulations of those 
experiencing homelessness that would benefit from increased social 
services oriented funding. On a small scale, SAMHSA programs have 
targeted youth, veterans and families to ensure that all people 
experiencing homelessness who could benefit from mental health and 
substance use treatment can receive specialized support. However, 
without increased funding, communities will not be able to fully 
implement the permanent supportive housing model and continue to end 
homelessness in America.
Detailed Program Descriptions
            SAMHSA Support Services for Permanent Supportive Housing 
                    Projects
    CSH recommends allocating $120 million for services in permanent 
supportive housing within SAMHSA's Center for Mental Health Services 
and Center for Substance Abuse Treatment.
    Years of reliable data and research demonstrate that the most 
successful intervention to solve chronic homelessness is linking 
housing to appropriate support services. Current SAMHSA investments in 
homeless programs are highly effective and cost-efficient. The 
Administration obviously recognizes this and included a new initiative 
the Homeless and Services for Homeless Persons Demonstration. This 
joint HUD/HHS partnership is an important first step to integrating 
housing and services resources to ease organizations' ability to access 
Federal funding. It also shows an understanding that housing and 
services is what is needed to end homelessness. This program is 
estimated to cost $15.8 million. CSH asks that this initiative be fully 
funded in the appropriations process and that Congress include 
additional funds to ensure that current grantees can continue their 
work and new grants can be awarded. We look forward to working with 
Congress and the Administration to implement this initiative and ensure 
that it is properly evaluated.
            Projects for Assistance in Transition from Homelessness 
                    (PATH)
    CSH recommends that Congress increase PATH funding to $75 million 
and adjust the funding formula to increase allocations for small states 
and territories.
    PATH provides outreach to eligible consumers and ensures that those 
consumers are connected with mainstream services, such as Supplemental 
Security Income (SSI), Medicaid, and welfare programs.
    PATH supported programs served over 135,007 people through outreach 
in fiscal year 2008. Of those for whom a diagnosis was reported, 
approximately 35 percent had schizophrenia and other psychotic 
disorders, and 47 percent had affective disorders such as depression. 
Also, 60 percent had co-occurring substance use disorders.
    One issue that needs consideration, under the PATH formula grant, 
approximately 30 States share in the program's annual appropriations 
increases. The remaining States and territories receive the minimum 
grant of $300,000 for States and $50,000 for territories. These amounts 
have not been raised since the program was authorized in 1991. To 
account for inflation, the minimum allocation should be raised to 
$600,000 for States and $100,000 for territories. Amending the minimum 
allocation requires a legislative change. If the authorizing committees 
do not address this issue, we hope that appropriators will explore ways 
to make the change through appropriations bill language.
            Community Health Centers and Health Care for the Homeless 
                    (HCH) Programs
    CSH recommends $3.28 billion in the Community Health Center program 
within Health Resource Services Administration. This would result in 
$278 million for the HCH program.
    Persons living on the street suffer from health problems resulting 
from or exacerbated by being homeless, such as hypothermia, frostbite, 
and heatstroke. In addition, they often have infections of the 
respiratory and gastrointestinal systems, tuberculosis, vascular 
diseases such as leg ulcers, and hypertension.\1\ Healthcare for the 
homeless programs are vital to prevent these conditions from becoming 
fatal. Congress allocates 8.7 percent of the Consolidated Health 
Centers account for HCH projects.
---------------------------------------------------------------------------
    \1\ Harris, Shirley N, Carol T. Mowbray and Andrea Solarz. Physical 
Health, Mental Health and Substance Abuse Problems of Shelter Users. 
Health and Social Work, Vol. 19, 1994.
---------------------------------------------------------------------------
            Mental Health Services Block Grant
    CSH recommends that Congress appropriate $486.9 million for the 
Community Mental Health Performance Partnership Block Grant.
    The Mental Health Block Grant provides flexible funding to States 
to provide mental health services. Ending homelessness requires 
Federal, State and local partnerships. Additional mental health funds 
will give States the resources to improve their mental health system 
and serve all people with mental health disorders better, including 
homeless populations. For example, block grant funds can be used to pay 
for services linked to housing for homeless people, thereby meeting the 
match requirements for projects funded through Shelter Plus Care or the 
Supportive Housing Program.
            Substance Abuse Prevention and Treatment (SAPT) Block Grant
    CSH joins our partners in recommending that Congress appropriate 
$1.929 billion for the SAPT Block Grant.
    The SAPT Block Grant is the primary source of Federal funding for 
substance abuse treatment and prevention for many low-income 
individuals, including those experiencing homelessness. Studies have 
shown that half of all people experiencing homelessness have a 
diagnosable substance use disorder. States need more resources to 
implement proven treatment strategies and work with housing providers 
to keep homeless populations, especially chronically homeless 
populations, stably housed.
Conclusion
    Homelessness is not inevitable. As communities implement plans to 
end homelessness, they are struggling to find funding for the services 
that homeless and formerly homeless clients need to maintain housing. 
The Federal investments in mental health services, substance abuse 
treatment, employment training, youth housing, veterans' services, and 
case management discussed above will help communities create stable 
housing programs and change social systems which will end homelessness 
for millions of Americans.
                                 ______
                                 
             Prepared Statement of the Close Up Foundation
    Mr. Chairman, my name is Timothy S. Davis, President and CEO of the 
Close Up Foundation and I submit this testimony in support of our $5 
million appropriations request for the Close Up Fellowship Program that 
is funded through a grant from the Department of Education, Office of 
Innovation and Improvement.
    Close Up Foundation is a nonprofit, nonpartisan civic education 
organization dedicated to the idea that, within a democracy, informed, 
active citizens are essential to a responsive government. Close Up's 
mission is to inform, inspire, and empower students and their teachers 
to exercise their rights and accept the responsibilities of citizens in 
a democracy. Close Up's experiential methodology emphasizes that 
democracy is not a spectator sport, and provides young people with the 
knowledge and skills to participate in the democratic process.
    Close Up fulfills its mission with exciting, hands-on programs for 
students and their teachers in Washington. Close Up uses the city as a 
living classroom, giving students unique access to the people, 
processes and places that make up our Nation's capital. Our students 
are a diverse group--coming from every State and beyond and from all 
walks of life. More than 650,000 have graduated from our experiential 
programs.
    Three core principles of Close Up are: (1) family income should not 
be a barrier to a students participation; (2) commitment to diversity--
outreach should reach a broad cross section of young people; and (3) 
enrollment should be open to all students, not just student leaders or 
high academic achievers.
    The Close Up Fellowship Program provides for financial assistance 
to economically disadvantaged students and their teachers to 
participate on week-long Close Up Washington civic education programs. 
The Fellowship Program, authorized in Federal law since 1972 and 
currently under Section 1504 of the No Child Left Behind Act, has been 
annually funded through a U.S. Department of Education grant for more 
than 35 years. The program provides financial assistance to 
economically disadvantaged high school and middle schools students and 
their teachers. Close Up makes every effort to ensure the participation 
of students from rural, small town and urban areas and gives special 
consideration to students with special educational needs, including 
students with disabilities, ethnic minority students, and students with 
migrant parents. Student fellowship recipients are selected by their 
schools and must qualify according to the income eligibility guidelines 
established by Close Up.
    Close Up Fellowship Program recipients participate in Close Up 
Washington civic education programs with all other Close Up 
participants. Student fellowship recipients participate in the 
Washington High School Program, the Washington Middle School, and the 
Program for New Americans. There is no special programming for 
Fellowship recipients nor are they identified or singled out in any 
manner. Fellowship recipients add diversity to the student body on 
Close Up programs. The fellowship program thus benefits not only the 
recipient but all Close Up student program participants.
    Close Up provides a Federal fellowship to a select group of 
teachers who work with economically disadvantaged students on a Close 
Up program. Close Up teachers participate in the Close Up Program for 
Educators, a program which ``trains the trainers''. Teachers take ideas 
and methodologies for teaching and engaging young people in civic 
activities and put them to use in their schools and communities.
    The teacher is the essential link to reaching students of diverse 
backgrounds. Close Up believes that any effort to improve and promote 
civic involvement among young people must begin with inspired and well-
prepared teachers. It is from this inspired corps of teachers that a 
multiplier effect in civic learning and engagement is produced. 
Teachers who participate in the teacher program leave inspired and 
informed and convey a similar attitude to their students. In a survey 
of teachers who participated on the Close Up Program for Educators in 
spring 2009, 95 percent of the teachers who responded indicated that 
they returned to their schools feeling ``inspired and reinvigorated'' 
after completing the Close Up program.
    Close Up is grateful to the United States Congress for its long-
standing support of the Close Up Fellowship Program through the 
appropriations process. Tens of thousands of young people have been 
able to participate on Close Up Washington civic education programs as 
a result of the Federal funding.
    Close Up's fiscal year 2011 request is based its desire to 
significantly increase the number of economically disadvantaged young 
people who participate on Close Up Washington civic education programs. 
The funds, which assist the disadvantaged and provide seed money for 
at-risk schools and communities to participate on these life 
transforming programs, are more important now than ever. Given the 
economic climate it has become even more challenging for communities to 
raise the necessary funds for participation on Close Up programs. The 
Federal funding bridges that gap and Close Up feels that with 
aggressive outreach into economically distressed communities we can 
continue to provide these experiences to our young people.
    Close Up civic education programs also helps to fill a gaping hole 
in the civic education of our Nation's youth. In a recent survey of 
high school teachers, 83 percent reported that emphasis on standardized 
tests has made it difficult to teach practical citizenship skills in 
the classrooms. As the teaching of social studies and civics has given 
way to STEM subjects, programs like Close Up become an even more 
important as a supplement to classroom teaching.
    Close Up's appropriations request reflects the increasing cost of 
providing these important Washington programs. The cost of airfare, 
accommodations, food and local transportation skyrocketed during the 
decade the Close Up Fellowship funding remained flat at under $1.5 
million. The increase in the appropriations amount to $1.942 million in 
fiscal year 2008 has helped combat a small portion of those increased 
costs but still results in a sharp decrease in the number of 
economically disadvantaged students that Close Up has been able to 
serve. We believe that during hard economic times it is even more 
imperative for the Federal Government to invest in the civic education 
of young people. And, by investing in a Close Up education, the 
Government also greatly supports economic sectors such as 
transportation and hospitality which are suffering in the downturn.
    Senators have the opportunity to meet with Close Up groups from 
their States during Close Up ``Capitol Hill Day''. You see the 
excitement and pride as our students gain confidence to express their 
views on the public policy issues that most directly affect their 
lives. Through their workshops, seminars, and experience of being in 
Washington, Close Up instills these students with the knowledge and 
skills to become active citizens in our democracy.
    Many of your constituents would not be able to participate in this 
life altering program without the benefit of the Close Up Fellowship 
Program. There is no better investment that we can make in our Nation's 
future than in building educated and responsible citizens, one person 
at a time.
    Close Up respectfully requests that the Senate Appropriations 
Subcommittee on Labor, Health and Human Services, and Education and 
Related Services appropriate $5 million for the Close Up Fellowship 
Program.
                                 ______
                                 
     Prepared Statement of the Dystonia Medical Research Foundation
    Dystonia is a neurological movement disorder characterized by 
involuntary muscle spasms that cause the body to twist, repetitively 
jerk, and sustain postural deformities. Dystonia can affect movement in 
several different ways; focal dystonias affect specific parts of the 
body, while generalized dystonia affects multiple parts of the body at 
the same time. Some forms of dystonia are genetic, but can also be 
caused by injury or illness. Although dystonia is a chronic and 
progressive disease, it does not impact cognition, intelligence, or 
shorten a person's life span. Conservative estimates indicate that 
between 300,000 and 500,000 individuals suffer from some form of 
dystonia in North America alone. Dystonia does not discriminate, 
affecting all demographic groups. There is no known cure for dystonia 
and treatment options remain limited.
    Although little is known regarding the causes and onset of 
dystonia, two therapies have been developed and proved particularly 
useful to control patients' symptoms. Botulinum toxin (Botox/Myobloc) 
injections and deep brain stimulation have shown varying degrees of 
success alleviating dystonia symptoms. More research is needed to fully 
understand the onset and progression of the disease, in order to better 
treat patients. Until a cure is discovered, the development of 
management therapies remains vital.
Deep Brain Stimulation (DBS)
    Deep brain stimulation (DBS) is a surgical procedure originally 
developed to treat Parkinson's disease, but is now being applied to 
severe cases of dystonia. A neurostimulator, or ``brain pacemaker'', is 
surgically implanted to deliver electrical stimulation to the areas 
that control movement. While the exact reasons for effectiveness are 
unknown, the electrical stimulation blocks abnormal nerve signals that 
cause debilitating muscle spasms and contractions.
    DBS was approved for use by dystonia patients in 2003 and has since 
drastically improved the lives of many individuals. Results have ranged 
from quickly regaining the ability to walk and speak, to regaining 
complete control over one's body and returning to an independent life 
as an able-bodied person. DBS is currently used to treat severe cases 
of generalized dystonia, but with increased research may also be a 
promising treatment for those suffering from focal dystonias. Surgical 
interventions are a crucial and active area of dystonia research, and 
must be pursued in the development of new treatment options.
Botulinum Toxin Injections (Botox/Myobloc)
    The introduction of botulinum toxin as a therapeutic tool in the 
late 1980s revolutionized the treatment of dystonia by offering a new, 
localized method to significantly relieve symptoms for many people. 
Botulinum toxin, a biologic, is injected into specific muscles where it 
acts to relax the muscles and reduce excessive muscle contractions.
    Botulinum toxin is derived from the bacterium Clostridium 
botulinum. It is a nerve ``blocker'' that binds to the nerves that lead 
to the muscle and prevents the release of acetylcholine, a 
neurotransmitter that activates muscle contractions. If the message is 
blocked, muscle spasms are significantly reduced or eliminated, 
providing considerable relief from the patient's symptoms.
    Injections of botulinum toxin should only be performed by a 
physician who is trained to administer this treatment. The physician 
administering treatment may palpate the muscles carefully, trying to 
ascertain which muscles are over-contracting and which muscles may be 
compensating. In some instances, such as in the treatment of laryngeal 
dystonia, a team approach including other specialists may be required.
    For selected areas of the body, and particularly when injecting 
muscles that are difficult or impossible to palpate, guidance using an 
electromyograph (EMG) may be necessary. For instance, when injecting 
the deep muscles of the jaw, neck, or vocal cords, an EMG-guided 
injection may improve precision since these muscles cannot be readily 
palpated. An EMG measures and records muscle activity and may help the 
physician locate overactive muscles.
    Injections into the overactive muscle are done with a small needle, 
with one to three injections per muscle. Discomfort at the site of 
injections is usually temporary, and a local anesthetic is sometimes 
used to minimize any discomfort associated with the injection. Many 
dystonia patients frequently rely on botulinum toxins injections to 
maintain their improved standard of living due to the fact that the 
benefits of the treatment peak in approximately 4 weeks and lasts just 
3 or 4 months. Currently, FDA approved forms of botulinum toxin include 
Botox and Myobloc.
    DMRF supports the recent ``follow-on'' biologics or biosimilars 
provisions included in the Patient Protection and Affordable Care Act. 
This creates a regulatory pathway for biosimilars at the Food and Drug 
Administration (FDA). This will help remove significant cost barriers 
to treatment for dystonia patients and maintain strong patient 
protections, while providing incentive for the development of new 
biologic treatments.
Dystonia and the National Institutes of Health (NIH)
    Currently, dystonia research at NIH is conducted through the 
National Institutes on Neurological Disorders and Stroke (NINDS), the 
National Institute on Deafness and Other Communication Disorders 
(NIDCD), the National Eye Institute (NEI), and the Office of the 
Director.
National Institute on Neurological Disorders and Stroke (NINDS)
    The majority of dystonia research at NIH is conducted through 
NINDS. NINDS has utilized a number of funding mechanisms in recent 
years to study the causes and mechanisms of dystonia. These grants 
cover a wide range of research included gene discovery, the genetics 
and genomics of dystonia, the development of animal models of primary 
and secondary dystonia, molecular and cellular studies inherited forms 
of dystonia, epidemiology studies, and brain imaging. DMRF works to 
support NINDS in conducting critical research and advancing 
understating of dystonia.
National Institute on Deafness and Other Communication Disorders 
        (NIDCD)
    NIDCD has funded many studies on brainstem systems and their role 
in spasmodic dysphonia. Spasmodic dysphonia is a form of focal 
dystonia, and involves involuntary spasms of the vocal cords causing 
interruptions of speech and affecting voice quality. Our understanding 
of spasmodic dysphonia has been greatly enhanced by research 
initiatives at NIDCD, like the brainstem systems studies. DMRF 
encourages partnerships between NINDS and NIDCD to further dystonia 
research.
National Eye Institute (NEI)
    NEI focuses some of its resources on the study of blepharospasm. 
Blepharospasm is an abnormal, involuntary blinking of the eyelids from 
an unknown cause that is associated with abnormal function of the basal 
ganglion. The condition can progress to the point where facial spasms 
develop. While myectomy surgery, botulinum toxin injections, and oral 
medication can help manage some of the symptoms of blepharospasm, 
further study by NEI is needed to develop more predictable treatment 
options.
            Rare Diseases Clinical Research Network (RDCRN)
    The second phase of the RDCRN at NIH provided funding for an 
additional 19 grants aimed at studying the natural history, 
epidemiology, diagnosis, and treatment of rare diseases. This includes 
the Dystonia Coalition, which will facilitate collaboration between 
researchers, patients, and patient advocacy groups to advance the pace 
of clinical research on cervical dystonia, blepharospasm, spasmodic 
dysphonia, craniofacial dystonia, and limb dystonia. Working primarily 
through NINDS and the Office of Rare Disease Research in the Office of 
the Director, the RDCRN holds great hope for advancing understanding 
and treatment of primary focal dystonias.
    After years of near-level funding for NIH, the $10.4 billion 
provided in the American Recovery and Reinvestment Act (ARRA) helped 
reinvigorate biomedical research efforts. However, as those funds come 
to an end, DMRF joins the greater biomedical research community in its 
concern that research funding will ``fall off the cliff.'' In order to 
prevent the loss of research spearheaded under ARRA, continued support 
for initiatives like the Cures Acceleration Network (CAN) included in 
the recent healthcare reform legislation are vital as we push for rapid 
translation of basic science into clinical treatments.
    For fiscal year 2011, DMRF recommends a funding increase of at 
least 12 percent for NIH and its Institutes and Centers.
    For fiscal year 2011, DMRF recommends that the NIH expand dystonia 
research through the National Institute on Neurological Disorders and 
Stroke, the National Institute on Deafness and Other Communication 
Disorders, the National Eye Institute, and the National Institute on 
Child Health and Human Development.
    For fiscal year 2011, DMRF recommends continued partnerships on 
dystonia research between the Office of Rare Disease Research, the Rare 
Diseases Clinical Research Network, and the dystonia patient community.
    For fiscal year 2011, DMRF recommends appropriating $500 million 
for the Cures Acceleration Network, as authorized in the Patient 
Protection and Affordable Care Act.
The Dystonia Medical Research Foundation (DMRF)
    The Dystonia Medical Research Foundation was founded over 30 years 
ago and has been a membership-driven organization since 1993. Since our 
inception, the goals of DMRF have remained: to advance research for 
more effective treatments of dystonia and ultimately find a cure; to 
promote awareness and education; and support the needs and well being 
of affected individuals and their families.
    Thank you for the opportunity to present the views of the dystonia 
community, we look forward to providing any additional information.
                                 ______
                                 
           Prepared Statement of The Elder Justice Coalition
    As your subcommittee considers the fiscal year 2011 Labor, Health 
and Human Services, and Education, and Related Agencies appropriations 
bills, the nonpartisan, 622-member Elder Justice Coalition, urges you 
to provide first year funding for the Elder Justice Act that was 
included in the final healthcare reform bill signed by President Obama. 
By doing so, the nation will have substantially improved our ability to 
better combat elder abuse, neglect and exploitation as well as to 
protect the health of older adults.
    The Elder Justice Act has authorized funding of approximately $777 
million over 4 years. We strongly recommend that an appropriation of 
$195 million for fiscal year 2011 be included in the Labor, Health and 
Human Services, and Education, and Related Agencies appropriations 
bill.
    Its most direct and immediate impact would provide urgently needed 
support for State and local governments for adult protective services 
(APS), the front line of fighting elder abuse. Of the APS agencies in 
30 States responding to a recent national survey of APS programs, 60 
percent reported their budgets had been cut an average of 14 percent, 
while two-thirds reported an average increase of 24 percent in reports 
of abuse. In the Elder Justice Act, $100 million is authorized for APS 
programs for fiscal year 2011.
    Funding for the Elder Justice Act would also provide much needed 
support for long-term care ombudsmen at the State and local levels who 
respond to complaints of abuse and neglect in the Nation's long-term 
care facilities. The number of very complex cases being referred to 
long-term care ombudsman has been steadily increasing. As well, there 
continues to be a very disturbing increase in the frequency and 
severity of regulatory agency citations for egregious violations by 
long-term care providers. Ombudsmen are needed now more than ever in 
nursing homes, board and care facilities, and in assisted living 
communities.
    Elder abuse is a very serious health issue. According to research 
funded by the National Institute of Justice, almost 11 percent of 
people ages 60 and older, or 5.7 million, suffered from some form of 
abuse within the past year alone. Other studies have shown that elder 
victims of abuse, neglect and exploitation have three times the risk of 
dying prematurely.
    The Elder Justice Act promotes the safety and well-being of older 
adults and their families. We urge you to fully fund the Elder Justice 
Act for fiscal year 2011.
                                 ______
                                 
         Prepared Statement of the Eldercare Workforce Alliance
    Mr. Chairman and members of the subcommittee: We are writing on 
behalf of the Eldercare Workforce Alliance (EWA),\1\ which is comprised 
of 28 national organizations united to address the immediate and future 
workforce crisis in caring for an aging America. As the Subcommittee 
begins consideration of funding for programs in fiscal year 2011, the 
Alliance asks that you consider $68,723,162 in funding for the 
geriatrics health professions and direct-care worker training programs 
that are authorized under titles VII and VIII of the Public Health 
Service Act as follows:
---------------------------------------------------------------------------
    \1\ The positions of the Eldercare Workforce reflect a consensus of 
75 percent of its members. This testimony reflects the consensus of the 
Alliance and does not necessarily represent the position of individual 
Alliance member organizations.
---------------------------------------------------------------------------
  --$49,697,421 million for Title VII Geriatrics Health Professions 
        Programs;
  --$3,333,333 million for direct care workforce training; and
  --$15,692,408 million for Title VIII Comprehensive Geriatric 
        Education Programs.
    These programs are integral to ensuring that America's healthcare 
workforce is prepared to care for our rapidly expanding population of 
older adults.
    The first of the baby boomers will begin to turn 65 in 2011. Within 
20 years, 1 in 5 Americans will be older than 65 and 20 percent of 
those Americans will have one or more chronic conditions. Yet there is 
a growing shortage of clinicians with special training in geriatrics 
and an even greater shortage of the geriatrics faculty needed to train 
the entire workforce.
    In 2008, the Institute of Medicine issued a ground-breaking report, 
Retooling for an Aging America: Building the Health Care Workforce that 
spotlighted these shortages and their impact on care. The report called 
for an expansion of geriatrics faculty development awards to include 
other disciplines of the interdisciplinary team, increased training for 
the direct-care workforce, and other efforts to create a healthcare 
workforce that is competent to care for older adults. The Eldercare 
Workforce Alliance was established to ensure that the IOM 
recommendations are heard.
    The enactment of the Patient Protection and Affordable Care Act 
(PPACA) was a historic moment for healthcare in this country. The Act 
makes important strides toward addressing the severe and growing 
shortages of healthcare providers with the skills and training to meet 
the unique healthcare needs of our Nation's growing aging population.
    The Act includes provisions championed by Senator Kohl (D-WI) and 
Representative Schakowsky (D-IL) from their legislation, the Retooling 
for an Aging America Act (S. 245 and H.R. 468). These provisions 
implement key recommendations of the IOM report to enhance existing and 
establish new geriatrics programs in an effort to build the capacity of 
the healthcare workforce needed to care for older adults.
    While we very much appreciate the funding for the Title VII 
Geriatrics Health Professions programs that President Obama included in 
his fiscal year 2011 budget, the current request does not reflect the 
full amount of funding needed to advance the geriatrics workforce 
priorities established under the PPACA.
    We urge you to fund the geriatrics training programs adequately in 
fiscal year 2011 so that we can immediately begin to realize the 
healthcare workforce goals set forth in health reform. Specifically, we 
request $68,723,162 in funding for the following programs under titles 
VII and VIII of the Public Health Service Act:
Title VII Geriatrics Health Professions--Appropriations Request: 
        $49,697,421
    The Title VII Geriatrics Health Professions Programs, administered 
by the Health Resources and Services Administration (HRSA), are a 
highly effective investment in ensuring that older adults receive high 
quality healthcare now and in the future. These programs--the Geriatric 
Academic Career Awards (GACAs), the Geriatric Education Center (GEC) 
program, and geriatric faculty fellowships--are the only Federal 
programs that: (1) seek to increase the number of faculty with 
geriatrics expertise in a variety of disciplines; and (2) offer 
critically important training to the entire healthcare workforce 
focused on improving the quality of care we offer to America's elders. 
Together, they improve the diversity of the healthcare workforce and 
recruit and retain healthcare professionals in medically underserved 
areas. Furthermore, title VII funding for geriatrics training address 
the crisis created by the severe and growing shortage of geriatrics 
health professionals in the United States.
  --Geriatric Academic Career Awards (GACA).--Under health reform, 
        eligibility for these awards has been expanded to include a 
        number of new disciplines in addition to physicians. 
        Disciplines now eligible for the Award include faculty from 
        dentistry, nursing, pharmacy, psychology, social work, and 
        other allied disciplines as determined by the Secretary. HRSA 
        is moving immediately to implement the expansion of the 
        program, which will undoubtedly increase the demand for these 
        awards. EWA advocated for this expansion and we now want to 
        ensure that there is adequate funding to meet the increased 
        demand given the greater number of disciplines that will be 
        participating. This program currently funds 77 GAC Awardees and 
        we are requesting fiscal year 2011 funding for 250 awards.
  --Geriatric Education Centers (GEC).--Under health reform, Congress 
        has approved a supplemental grant award program that will train 
        additional faculty through a mini-fellowship program and 
        requires that those faculty provide training to family 
        caregivers and direct care workers. Our funding request 
        includes support for the core work of 48 GECs and for the 24 
        GECs that would be funded to undertake this work though the 
        supplemental grants program.
  --Geriatric Training Program for Physicians, Dentists, and Behavioral 
        and Mental Health Professions.--This program supports training 
        additional faculty in medicine, dentistry, and behavioral and 
        mental health so that they have the expertise, skills and 
        knowledge to teach geriatrics and gerontology to the next 
        generation of health professionals in their disciplines. Our 
        funding request includes support for 10 institutions to 
        continue this important faculty development program.
  --Geriatric Career Incentive Awards Program.--Under health reform, 
        Congress has authorized grants to foster greater interest among 
        a variety of health professionals in entering the field of 
        geriatrics, long-term care, and chronic care management. Our 
        funding request includes support for implementation of this new 
        program.
Title VII Direct-Care Worker Training Program--Appropriations Request: 
        $3,333,333
    Direct-care workers help older people carry out the basic 
activities of daily living and are critical to ensuring an adequate 
geriatrics workforce. Experts estimate that the United States will need 
to fill one million new direct care positions within this decade.
  --Training Opportunities for Direct Care Workers.--Under health 
        reform, Congress has approved a program, administered by HHS, 
        that will offer advanced training opportunities for direct care 
        workers. These opportunities are critical to the overall 
        success of healthcare reform. Our funding request includes 
        support for the Department of Labor to establish this unique 
        grants-program and support community colleges as they look to 
        increase the geriatrics knowledge and expertise of this 
        workforce.
Title VIII Geriatrics Nursing Workforce Development Programs--
        Appropriations Request: $15,692,408
    These programs, administered by the Health Resources and Service 
Administration are the primary source of Federal funding for advanced 
education nursing, workforce diversity, nursing faculty loan programs, 
nurse education, practice and retention, comprehensive geriatric 
education, loan repayment, and scholarship. In 2008, more than 51,657 
nurses and nursing students were supported through these programs.
  --Comprehensive Geriatric Education Program.--This program supports 
        additional training for nurses who care for the elderly; 
        development and dissemination of curricula relating to 
        geriatric care; and training of faculty in geriatrics. It also 
        provides continuing education for nurses practicing in 
        geriatrics. Our funding request includes ongoing support for 
        this critical program.
  --Traineeships for Advanced Practice Nurses.--Under health reform, 
        the Comprehensive Geriatric Education Program is being expanded 
        to include advanced practice nurses who are pursuing long-term 
        care, geropsychiatric nursing or other nursing areas that 
        specialize in care of elderly. Our funding request includes 
        funds that would offer 200 traineeships to nurses under this 
        newly implemented program.
    Without additional funds in these programs, we will fail to ensure 
that America's healthcare workforce will be prepared to care for older 
Americans. We understand that the Committee faces difficult budget 
decisions. However, we strongly believe that by investing in these 
programs, which create geriatrics faculty and offer the training that 
is needed to ensure a competent workforce, we will be delivering better 
care to America's seniors. Healthcare dollars will be saved from better 
healthcare coordination and health outcomes, and the workforce will 
grow as more people are trained, recruited, and retained in the field 
of geriatrics.
    On behalf of all the members of the Eldercare Workforce Alliance, 
we commend you on your past support for geriatric workforce programs 
and ask that you join us in expanding the geriatrics workforce at this 
critical time--for all older Americans deserve quality of care, now and 
in the future.
    Thank you for your consideration.
                                 ______
                                 
Prepared Statement of the Federation of Associations in Behavioral and 
                             Brain Sciences
    Thank you for the opportunity to provide testimony in support of 
NIH-funded research. The Federation of Associations in Behavioral and 
Brain Sciences (FABBS) represents 22 scientific societies with an 
interest in promoting human potential and well-being by advancing the 
sciences of mind, brain, and behavior. Research covering the spectrum 
from genes and molecules, to the brain and mind, and to behavior, 
social relationships, culture and the environment are necessary to 
provide a full understanding of health and disease.
    NIH is supporting research that will lead to ground-breaking 
discoveries that will improve health and save lives. An essential part 
of the overall research portfolio is research on the mind, brain, and 
behavior. Basic and applied research that examines how the mind 
functions, its relation to behavior and society, and its underlying 
biology are critically important in understanding, preventing, and 
treating disease.
    Important transformations are occurring in science. Scientists 
often work at different levels of analysis by examining, for example, 
the impact of genes on health or alternatively, the influence of 
culture on health. Both are necessary to address central questions 
about health and illness. Increasingly, however, scientists are also 
exploring the margins and bringing to bear multiple disciplines, tools, 
technologies, and approaches to inform their work. All are necessary if 
we are to truly understand the human condition and, in turn, enhance 
human health, potential, and productivity.
The Role of Emotions, Cognitions, and Environment in Health and Illness
    NIH is supporting the best research both within and across 
disciplines to better understand the contributors to illness and 
disease. In one program of research, investigators are attempting to 
understand the mechanisms--neural, hormonal, cellular, genetic--by 
which loneliness gets under the skin to affect health, and importantly, 
how the mind can modulate these health outcomes. Humans are social 
beings and spend about 80 percent of their time, on average, with other 
people. Much research has shown that people who are socially isolated, 
or perceive that they are socially isolated, have poorer health 
outcomes. Specifically, loneliness has been associated with increased 
duration and extent of illnesses ranging from the common cold to 
depression to heart disease. The affected factors contributing to these 
effects include diminished immune system responses, elevated blood 
pressure, and even changes in gene expression. This new field of social 
neuroscience is illuminating how the social environment affects 
cognition, emotion, personality processes, brain, biology, and health.
    Research in this area suggests that the risks associated with 
developing heart disease that are posed by social isolation may be as 
high as those posed by high cholesterol, high blood pressure, and even 
smoking. Research has also shown that perceptions of being alone may be 
more harmful to health than actually being alone. By understanding the 
mechanisms by which social networks, mental processes, and biology are 
linked, efforts can be made to translate this work more readily into 
clinical contexts.
    NIH is also supporting highly innovative research to better 
understand emotions, since emotional states are central to mental and 
physical health. With funding from the NIH Director's Pioneer Award, 
one investigator is examining the complex mental and physical processes 
in emotions. What is the physiological state giving rise to an emotion, 
and how does the mind make meaning of the physical state? How does the 
mind control emotions, and what role does context play in emotions? 
Simply put, emotions may not be simple reflexes that turn on parts of 
the brain, but are likely much more complex. Emotional disturbances 
exact a huge toll on patients, and this research has the potential to 
transform our understanding of a broad area of science.
    Complex medical problems require approaches that draw upon a range 
of scientific areas to address health challenges. These research 
programs illustrate some of the exciting new work in the mind, brain, 
and behavioral sciences funded by NIH.
The Importance of Fundamental Research at NIH
    NIH investments in basic research are a critical part of the 
overall research portfolio at NIH. A basic understanding of how cells 
and genes function is a necessary building block. The same is true for 
fundamental research in the mind, brain, behavior sciences. As Dr. 
Collins has noted, NIH's mission is ``science in pursuit of fundamental 
knowledge about the nature and behavior of living systems and the 
application of that knowledge to extend healthy life and to reduce the 
burdens of illness and disability.''
    We commend NIH for its leadership in developing research 
initiatives that will build a base of knowledge to inform many public 
health challenges facing this country--from cancer, heart disease, and 
HIV to diabetes and childhood obesity. One such initiative, called 
OPPNET for Opportunity Network, was launched in November 2009 by NIH 
Director Francis Collins M.D., Ph.D. The new trans-NIH initiative will 
provide funding for emerging areas in the behavioral and social 
sciences, similar to the research described above. OPPNET will build 
upon existing NIH investments to create a body of knowledge about the 
nature of behavior, the underlying mental and physical processes, and 
how social factors influence it. As with basic research on genes and 
molecules, this research is a necessary building block upon which many 
other advances in science will be possible.
    Initiating health-promoting behaviors and maintaining positive 
changes remain a central question in health research. Behavior has a 
pervasive impact on health, and despite advances in the science, 
significant and sustained behavior change remains elusive. Given its 
importance, NIH is investing in a new cross-NIH and cross-disciplinary 
research agenda on the basic science of behavior change. The goal is to 
``radically move this science forward.'' Key themes identified by 
scientists for a new research agenda include integrating the science at 
multiple levels (i.e., brain, person, and environment) such that 
behavior changes can be seen at a population level. Also, there is a 
need to better understand the basic mechanisms of behavior change, 
examine key opportunities for changing behavior at various points in 
the lifespan, and to target multiple behaviors at once since unhealthy 
behaviors can have common underlying processes. The Science of Behavior 
Change is one of seven new NIH Common Fund initiatives, one in which 
NIH is pushing science to cross traditional disciplinary and topical 
boundaries. These basic science initiatives are supported by multiple 
Institutes across NIH.
    Using its modest budget, the Office of Behavioral and Social 
Sciences Research (OBSSR), created by Congress in 1993, continues to 
play a key role in coordinating and facilitating initiatives across the 
Institutes. In addition, OBSSR identifies new and promising 
opportunities for the behavioral and social sciences to help advance 
NIH's mission. Projects underway or in the pipeline include improving 
our knowledge of the interplay among behavior, environmental factors 
(particularly social environment), and genomic/epigenetic factors in 
health illness; applying complex systems modeling to understanding and 
ameliorating health disparities; promoting initiatives in health 
literacy and community-based participatory research in medically 
underserved populations; and identifying prevention strategies for 
healthcare that are both grounded in science and cost-effective.
Translating Basic Behavioral and Social Science Discoveries
    NIH's investments in basic research will lead to discoveries that 
can be translated for use in clinical settings. Indeed, NIH is 
increasingly turning its attention to this process. As NIH Director, 
Dr. Collins has made this 1 of his 5 priorities. Likewise, behavioral 
and social scientists at NIH are examining the opportunities and 
challenges for translating promising findings from these sciences for 
use in community and clinical care settings. For example, efforts to 
translate basic behavioral and social science research findings into 
behavioral interventions to reduce obesity will inform a critical 
public health challenge facing this country. Translational research 
will improve our ability to convert basic science discoveries into 
meaningful community and clinical interventions.
Building Research Capacity in All Sciences
    The sciences of mind, brain, and behavior are critical to the 
health and well-being of our Nation's citizens and, in turn, the 
Nation's prosperity. The development and progression of many illnesses 
and health problems such as heart disease, diabetes, and obesity depend 
on behavior. In addition, advancing knowledge in the behavioral and 
social sciences is increasingly requiring technical expertise. For 
example, to understand the workings of the mind, scientists must be 
able to utilize fMRI, MEG, and EEG tools. Investing in research and 
training in the behavioral and social sciences, as well as research and 
training that involve behavioral and social scientists and cross 
disciplinary boundaries, will address current needs and help prepare 
the next generation of researchers. The Nation must build capacity in 
all sciences and at all educational levels to address health needs and 
remain competitive.
Fiscal Year 2011 Funding Request for NIH
    This is an incredible time for science. Investments by Congress in 
2009 and a commitment by the administration to science are allowing 
mid-career and senior scientists to remain at work on complex health 
problems facing our society, while also attracting a new generation of 
scientists to become engaged and excited about careers in science. In 
addition, new discoveries within scientific disciplines and across 
disciplinary boundaries, are keeping the U.S. competitive. These 
investments are making a difference back home, both in dollars that 
support research positions at local universities and in the innovations 
that improve health throughout our communities.
    Investments in science will continue to spur economic growth now 
and well into the future. We urge this subcommittee to support $35 
billion for the National Institutes of Health in the fiscal year 2011 
appropriation.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    On behalf of the Federation of American Societies for Experimental 
Biology (FASEB), I respectfully request an appropriation of $37 billion 
for the National Institutes of Health (NIH) in fiscal year 2011. 
Sustained and predictable public support for biomedical research is 
needed to accelerate the pace of discovery, improve the health of our 
Nation's citizens, and contribute to the economic revitalization of our 
country.
    As a Federation of 23 scientific societies, FASEB represents more 
than 90,000 life scientists and engineers, making us the largest 
coalition of biomedical research associations in the United States. 
FASEB's mission is to advance health and welfare by promoting progress 
and education in biological and biomedical sciences, including the 
research funded by NIH, through service to its member societies and 
collaborative advocacy. FASEB enhances the ability of scientists and 
engineers to improve--through their research--the health, well-being, 
and productivity of all people.
    Due to the prior Federal investment in NIH, researchers have made 
critical advances that have saved and improved the lives of millions of 
Americans and provided doctors with cutting-edge tools to prevent and 
treat costly and devastating diseases including:
  --Type 2 Diabetes.--In the United States, about 11 percent of 
        adults--24 million people--have diabetes, and up to 95 percent 
        of them have type 2 diabetes. An additional 57 million 
        overweight adults have glucose levels that are higher than 
        normal but not yet in the diabetic range, a condition that 
        substantially raises the risk of a heart attack or stroke and 
        of developing type 2 diabetes in the next 10 years. Researchers 
        have recently demonstrated, based on a decade of data 
        collection, that intensive lifestyle changes aimed at modest 
        weight loss reduced the rate of developing type 2 diabetes by 
        34 percent in people at high risk for the disease. Intensive 
        lifestyle changes consisted of lowering fat and calories in the 
        diet and increasing regular physical activity to 150 minutes 
        per week. Participants received training in diet, exercise 
        (most chose walking), and behavior modification skills.
  --Melanoma.--Drawing on the power of DNA sequencing, NIH researchers 
        identified a new group of genetic mutations involved in the 
        deadliest form of skin cancer, melanoma. This discovery is 
        particularly encouraging because some of the mutations, which 
        were found in nearly one-fifth of melanoma cases, reside in a 
        gene already targeted by a drug approved for certain types of 
        breast cancer. In the United States and many other nations, 
        melanoma is becoming increasingly more common. A major cause of 
        melanoma is thought to be sun exposure; the ultraviolet 
        radiation in sunlight can damage DNA and lead to cancer-causing 
        genetic changes within skin cells.
  --Seasonal and Pandemic Flu.--Scientists have identified a small 
        family of lab-made proteins that neutralize a broad range of 
        influenza A viruses, including the H1N1 flu viruses, the 1918 
        pandemic influenza virus, and H5N1 avian virus. These human 
        monoclonal antibodies, identical to infection-fighting proteins 
        derived from the same cell lineage, also were found to protect 
        mice from illness caused by H5N1 and other influenza A viruses. 
        Because large quantities of monoclonal antibodies can be made 
        relatively quickly, these influenza-specific monoclonal 
        antibodies potentially could be used in combination with 
        antiviral drugs to prevent or treat the flu during an influenza 
        outbreak or pandemic.
  --Stroke.--Scientists have identified a previously unknown connection 
        between two genetic variants and an increased risk of stroke, 
        providing strong evidence for the existence of specific genes 
        that help explain the genetic component of stroke.
  --Heart Disease.--There has been a 63 percent reduction in deaths 
        from heart disease, and more than 1 million lives are saved 
        each year by therapies developed to prevent heart attack and 
        stroke.
  --Cancer.--Since 2002, the number of deaths from cancer has decreased 
        steadily. In the past 30 years, survival rates for childhood 
        cancers have increased from less than 50 percent to more than 
        80 percent.
  --HIV/AIDS.--This disease has been transformed from an acute, fatal 
        illness to a chronic condition; the prophylactic use of anti-
        virals prevented almost 350,000 deaths worldwide in 2005. In 
        the United States, deaths from AIDS dropped nearly 70 percent 
        between 1995 and 2000. Life expectancy for those infected with 
        HIV has increased by 10 years.
    The completion of the Human Genome Project and the resulting 
reductions in genome sequencing costs are another example of how the 
prior investment in research has both dramatically increased the pace 
of discovery and harnessed the power of technology. Genome sequencing 
brings us to the threshold of personalized medicine, where knowledge of 
our own individual genetic makeup can be used to target cures and 
identify the most effective therapies for individuals. Researchers are 
at the beginning of a whole new era of pharmacogenomics that will 
identify methods to tailor treatments and scientifically match 
therapies to individual circumstances in ways that were inconceivable a 
few years ago.
    Knowledge of an individual's genetic make-up has already been 
effective in determining which drugs work best with certain cases of 
AIDS, breast cancer, acute lymphoblastic leukemia, and colon cancer. 
The number of new research proposals is expected to expand dramatically 
as researchers exploit this exciting line of inquiry, yet continued 
progress toward that goal depends on sustained and predictable funding 
support for the NIH.
Sustainable Budget Growth Will Maximize the Return on Investment
    Additional funding is needed to fully develop the knowledge we have 
gathered to date and to apply that knowledge in clinical settings. The 
research engine needs a predictable, sustained investment in science to 
maximize our return on investment. The discovery process--while 
producing tremendous value--often takes a lengthy and unpredictable 
path. Recent experience has demonstrated how cyclical periods of rapid 
funding growth followed by periods of stagnation are disruptive to 
training, careers, long-range projects, and ultimately to scientific 
progress. In 2011 and beyond, we need to make sure that the total 
funding available to NIH does not decline and that we can resume a 
steady, continuous growth that will enable us to complete President 
Obama's vision of doubling our investment in basic research.
    The most painful consequence of failing to continue the robust 
investment in research will be the delay in relief to those suffering 
from the burdens of disease. Long-term plans for Federal investment in 
science facilitate coordination and planning, encourage investments by 
the private sector, attract new talent, reduce the startup costs of 
projects, and eliminate the possibility of waste that could result from 
abrupt termination of valuable scientific investigations.
Prosperity and Quality of Life Are Shaped By Investments in Science
    As a Nation, we currently find ourselves confronting a number of 
unprecedented social and economic challenges, and once again our 
leaders have turned to research in the quest for solutions to these 
vexing problems. Funds from the American Recovery and Reinvestment Act 
(ARRA) have inspired the creative energies of research teams across the 
Nation. These new resources, coming after many years during which our 
capacity for research was eroded by flat budgets, are a lifeline for 
new ideas, research personnel, and progress.
    ARRA funding was only appropriated for a 2-year period, and we face 
a major shortfall when these funds have been spent. Returning to pre-
ARRA funding levels presents a frightening prospect for those whose 
hopes for a brighter future rest with medical research. It will also be 
a setback for the scientists who have contributed so much of their time 
and talent to this quest. It is critical that we invest now to sustain 
the excitement in research, maximize the return on our prior 
investments, and continue the innovative pipeline of medical and 
technological advancements that Federal science agencies have always 
fostered.
    Despite the fragile economy, now is not the time to pull back from 
our historic commitment to investigation and discovery. Our leadership 
in science and engineering has made us the envy of the world. However, 
we must nurture our research investment to benefit from the knowledge 
that we have gained and ensure that continued progress is not 
curtailed. President Obama has recognized the importance of continuing 
support for the NIH in his proposed budget for fiscal year 2011.
    A half-century of public investment in NIH has dramatically 
advanced the health and improved the lives of Americans and of people 
around the globe. Unfortunately, millions of Americans and their 
families still suffer from the ravages of disease and cannot wait for 
new treatments, therapies, and prevention strategies. Sustained and 
predictable public support for biomedical research is needed now more 
than ever. We recognize that this subcommittee has the especially 
difficult task of providing funding for a wide range of critical human 
service programs and thank you for your prior support of the research 
enterprise. Nonetheless, additional resources are needed to pursue the 
unprecedented level of scientific opportunities available today and 
uphold the Nation's role as a leader in medical research. Therefore, 
FASEB recommends an appropriation of $37 billion for NIH fiscal year 
2011.
                                 ______
                                 
               Prepared Statement of the Friends of NIAAA
    Mr. Chairman and members of the subcommittee: The Friends of the 
National Institute on Alcohol Abuse and Alcoholism, a coalition of 
scientific and professional societies, patient groups, and other 
organizations committed to preventing and treating alcohol use 
disorders as well as understanding the causes and public health 
consequences of alcoholism and alcohol use disorders, is pleased to 
provide testimony in support of the NIAAA's extraordinary work. The 
coalition does not receive any Federal funds.
    The National Institute on Alcohol Abuse and Alcoholism (NIAAA) is 
the lead agency for U.S. research on alcohol abuse, alcoholism, and 
other health and developmental effects of alcohol use. Its mission is 
to support research, and then translate and disseminate research 
findings to reduce alcohol-related problems. NIAAA funds 90 percent of 
all alcohol research in the United States. From fetal alcohol syndrome 
to alcohol dependence, and from liver cirrhosis to alcohol poisoning, 
the consequences of alcohol misuse are widespread and costly, and 
affect individuals of every age, ethnic background, and socioeconomic 
status. Drinking too early, too fast, too much, and/or too often can 
lead to acute and chronic consequences for the drinker as well as 
outcomes affecting the health and well-being of others and society-at-
large.
    Approximately 18 million Americans meet the criteria for a 
diagnosis of alcohol dependence (alcoholism) or alcohol use disorders 
(AUD), and 40 percent of Americans have direct family experience with 
alcohol use disorders or dependence. Annually, 80,000 deaths are 
attributable to alcohol, as are approximately one-third of all fatal 
car crashes, one-half of all homicides, one-third of all suicides, and 
one-third of all hospital admissions. In fact, excessive alcohol 
consumption is the third leading preventable cause of death in the 
United States. AUDs cost the Nation $235 billion annually, nearly 80 
percent more than the costs related to all other addictive drugs.
    Because of the critical importance of alcohol research for the 
health and economy of our Nation, we write to you today to request your 
support for a modest 2.7 percent increase for NIAAA in the fiscal 2011 
Labor, Health and Human Services, and Education, and Related Agencies 
appropriations bill. That would bring total funding for NIAAA in fiscal 
year 2011 to $474,649,000. This work deserves continuing, strong 
support from Congress. The following is a list of key new NIAAA 
initiatives that could be pursued with additional investment, and a 
short summary of significant NIAAA accomplishments and successes.
    NIAAA initiatives for fiscal year 2011:
  --NIAAA will continue to support research on the mechanisms by which 
        alcohol causes damage to, as well as pharmacologic agents that 
        lessen alcohol's adverse effects on, the developing embryo and 
        fetus. Resources will also be directed towards the development 
        of biomarkers, which could be used to detect alcohol exposure 
        in pregnant women.
  --New initiatives in fiscal year 2011 will support several broad 
        National Institutes of Health themes, including applying 
        genomics and other high throughput technologies to understand 
        fundamental biology, and to uncover the causes of specific 
        diseases, translating science into new and better treatments 
        and putting science to work for the benefit of healthcare 
        reform.
  --NIAAA will support the continuing development of a screening guide 
        for use with children and adolescents to assess for risk of 
        alcohol use and alcohol use disorders. In addition, NIAAA is 
        planning a new research initiative on pharmacotherapy for 
        adolescents and young adults with severe alcohol use disorders 
        and major co morbidities, as well as behavioral interventions 
        that target young individuals along the continuum of alcohol-
        related behaviors.
  --In fiscal year 2011, NIAAA will continue to promote and disseminate 
        its Web-based booklet Rethinking Drinking. NIAAA is planning a 
        new initiative exploring the effects of community interventions 
        on alcohol related outcomes in young adults. Research has 
        demonstrated that comprehensive community interventions that 
        typically involve multiple levels of city government, 
        environmental policy change and community involvement, among 
        other factors, may reduce alcohol-related problems among 
        adolescents and young adults, including college students.
  --NIAAA is planning a new initiative on developing effective 
        pharmacological and behavioral treatments for individuals who 
        have alcohol use disorders and co-existing other drug, 
        psychiatric, and/or physical disorders. NIAAA will also support 
        studies aimed at risk reduction, early identification and 
        diagnosis of harmful alcohol use and personalized treatment. 
        Additional funds will be committed for research on the 
        underlying mechanisms of alcohol-induced liver injury and the 
        identification of biomarkers of alcohol-induced tissue injury. 
        These studies are expected to reveal new therapeutic targets, 
        inform strategies for preventing tissue injury, facilitate 
        early diagnosis, and improve the prognosis for alcohol-related 
        liver disease.
A Partial List of Important NIAAA Innovations
            Advancing the Understanding of the Mechanisms and 
                    Consequences of Prenatal Alcohol Exposure
    The Friends of NIAAA commends the Institute for its research to 
enhance our ability for early identification of and interventions with 
prenatal alcohol affected children; exploring nutritional and 
pharmacological agents that could lessen alcohol's adverse effects on 
the developing embryo/fetus; and research on how alcohol disrupts 
normal embryonic and fetal development. Research has shown that the 
severity of alcohol-related effects on the developing fetus is affected 
by the timing and level of maternal alcohol consumption, maternal 
nutritional status, and maternal hormones. One of the key challenges 
facing clinicians is the ability to recognize women who are drinking in 
pregnancy and the infant who has been exposed prenatally to alcohol 
during pregnancy. Recently there have been advances in methodologies 
for the measurement of nonoxidative metabolites of alcohol providing 
new opportunities for monitoring alcohol exposure.
Understanding the Effects of Alcohol use on the Developing Body and 
        Brain, and the Interplay of Development, Genes and Environment 
        on Adolescent Alcohol use
    As adolescence (ages 0-17) is the time of life during which 
drinking, binge drinking (drinking five or more drinks on one 
occasion), and heavy drinking (binge drinking five or more times in the 
past 30 days) all ramp up dramatically, the Friends of NIAAA is pleased 
that the Institute is vigorously focused on these concerns. Given that 
alcohol use is pervasive among adolescents and the association between 
early initiation and future alcohol problems, NIAAA is developing 
empirically based guidelines and recommendations for screening children 
and adolescents to identify risk for alcohol use especially for younger 
children; alcohol use, and alcohol use disorders. NIAAA is also 
supporting studies to integrate intervention for underage alcohol use 
into primary healthcare. Research has shown that during adolescence, 
the brain undergoes significant growth and remodeling. This finding, 
coupled with the results of multiple studies showing a strong 
association between early initiation of alcohol use and future alcohol 
dependence, raises concerns about alcohol's effects on the developing 
adolescent brain.
    Specifically, the issues are whether persistent changes in neural 
and behavioral function result from adolescent alcohol use, and whether 
processes that confer adaptability of the adolescent brain to its 
environment also make it more vulnerable to alcohol-induced changes in 
structure and/or function, especially in terms of setting it up for 
future dependence. Complementing NIAAA's ongoing pilot studies with 
humans to determine if alcohol can disrupt, co-opt and/or alter normal 
developmental processes in the brain, NIAAA is also planning an 
initiative to study persistent alcohol-induced changes in the brain in 
animal models.
Pioneering Risk Assessment, Universal and Selective Prevention, and 
        Early Intervention and Treatment for Young Adults
    Given the pervasiveness of high-risk drinking and early alcohol 
dependence occurring among young adults, efforts to alter drinking 
trajectories at this stage have life-changing potential and can 
significantly reduce the burden of illness resulting from alcohol-
related problems. Recent research has demonstrated that college-aged 
individuals respond well to Web-based screening and self-change 
programs, resulting in reductions in adverse alcohol-related 
consequences. Making alcohol screening and brief intervention a routine 
procedure in primary care and other settings is a high-priority of 
NIAAA.
Exploring Pharmacologic Interventions for Alcohol-use Disorders
    In addition to its role in alcohol dependence, excessive alcohol 
consumption can have toxic effects on virtually every organ system in 
the body resulting in liver and heart disease, pancreatitis, fetal 
abnormalities, brain damage, and an increased risk for esophageal and 
liver cancer. Liver disease in particular claims 37,000 lives annually, 
about 40 percent of which are due to excessive alcohol use. Currently 
the only treatment for liver cirrhosis--the end stage of alcoholic 
liver disease--is liver transplantation which is impacted by limited 
availability of matching organs, high medical costs, and increased risk 
for future health complications. Intervening early in the disease 
process continues to be an important priority of NIAAA, and research is 
moving us closer to developing medications that can slow or even 
reverse disease progression and/or mitigate health consequences. For 
example, preliminary research has shown that administration of the 
dietary supplement S-adenosylmethionine (SAMe) may reverse disease 
symptoms in individuals with early stage liver disease and pre-empt 
cirrhosis. A phase 2 clinical trial testing the effects of this 
compound is currently underway. NIAAA and NIDDK are co-funding a 
project focused on developing small molecules to reverse alcoholic 
liver fibrosis, as well as liver damage resulting from obesity and 
metabolic syndromes. Animal studies evaluating prenatal and early 
postnatal supplementation with the nutrient choline, a molecule 
important to the structure and function of cell membranes, have shown 
reduced severity of certain behavioral and physical effects of prenatal 
alcohol exposure. For alcohol dependence, NIAAA is moving medications 
that promote abstinence and/or reduction in heavy drinking through the 
medications development pipeline via its early phase 2 clinical trials 
program. These include trials for quetiapine, a mood stabilizing drug, 
completed in late fiscal year 2009 and for levetiracetam, an 
antiepileptic medication, initiated in late fiscal year 2009.
Improving the Identification of Mechanisms by Which Alcohol and its 
        Metabolites Cause Tissue and Organ Pathologies, and the 
        Development of Treatment Strategies for Alcohol Dependence 
        Tailored to Specific Populations and for Individuals With Co-
        Existing Psychiatric and Medical Disorders
    Over the past four decades, numerous scientific advances have been 
made in identifying the pathologic effects of alcohol and its metabolic 
products on the brain, liver, heart, pancreas, and immune and endocrine 
systems. Recently, NIAAA has taken a systems biology approach, 
investigating how perturbation of one organ system by alcohol 
influences other organ systems, leading to a cascade of effects 
throughout the body. Alcohol consumption sets in motion a number of 
signaling processes which operate directly and indirectly on multiple 
systems in the body. For example, one mechanism by which alcohol 
negatively impacts the liver and brain is through signaling molecules 
released from the gut. The gut normally contains bacteria whose outer 
membranes consist primarily of large amounts of molecules known as 
lipopolyscaccharides (LPS). Alcohol increases gut ``leakiness'' 
allowing LPS to travel throughout the body, resulting in inflammation 
in both the brain and liver. Liver inflammation then triggers the 
release of cytokines, signaling molecules that promote further 
inflammation in the brain. Gut ``leakiness'' may also be the mechanism 
by which alcohol disrupts immune function. Another target of alcohol 
may be the hypothalamic pituitary adrenal axis (HPA axis), a major part 
of the neuroendocrine system that regulates reactions to stress and 
many body processes, including digestion, the immune system, mood and 
emotions, sexuality, and energy storage and expenditure. Considering 
the human body as a complex network in which perturbations of one organ 
system alters interactions with other organ systems thereby affecting 
the functions of each, will enable the development of treatments that 
address the source(s) of alcohol-induced tissue and organ damage.
    The Friends of NIAAA commends the National Institute on Alcohol 
Abuse and Alcoholism for making significant progress in these and many 
other vital areas of research that are essential to the health and 
well-being our Nation.
    Thank you, Mr. Chairman, and the subcommittee, for your support for 
the National Institute on Alcohol Abuse and Alcoholism.
                                 ______
                                 
               Prepared Statement of the Friends of NICHD
    The Friends of the National Institute of Child Health and Human 
Development (NICHD) is a coalition of more than 100 organizations, 
representing scientists, physicians, healthcare providers, patients, 
and parents, concerned with the health and welfare of women, children, 
families, and people with disabilities. We are pleased to submit 
testimony to support the extraordinary work of the Eunice Kennedy 
Shriver National Institute of Child Health and Human Development.
    We would like to thank Chairman Harkin, Ranking Member Cochran, and 
the Congress for its continued support of the National Institutes of 
Health (NIH) and interest in building on the investments made in 
predictable and sustained, long-term growth in NIH funding in the 
fiscal year 2011 budget and beyond. To ensure that progress in basic, 
translational and clinical research is sustained, the Coalition joins 
the Ad Hoc Group for Medical Research in supporting a fiscal year 2011 
appropriation of at least $35 billion, an increase of $2.6 billion for 
NIH.
    The Coalition has a particular interest in the important research 
conducted and supported by the NICHD. Since its establishment in 1963, 
the NICHD has made great strides in meeting the objectives of its broad 
biomedical and behavioral research mission. The NICHD mission and 
portfolio includes a focus on women's health and human development, 
including research on child development, before and after birth; 
maternal, child, and family health; learning and language development; 
reproductive biology and population issues; and medical rehabilitation.
    Although the NICHD has made significant contributions to the well-
being of children, women, and families, much remains to be done. With 
sufficient resources, the NICHD could build upon the promising 
initiatives described in this testimony and produce new insights into 
human development and solutions to health and developmental problems 
for the world and for the Nation--including the families living in your 
districts. For fiscal year 2011, the Friends of NICHD support an 
appropriation of at least $1.495 billion for NICHD.
New Discoveries
    Adding to its strong record of progress over the past 45 years, 
recent advances by the NICHD have contributed to the health and well-
being of our Nation and world. Several highlights are:
    Tracking Brain and Behavioral Development.--The NICHD is one of the 
leading Institutes in the NIH Magnetic Resonance Imaging (MRI) Study of 
Normal Brain Development. The study tracks brain and behavioral 
development in 500 healthy children from diverse backgrounds birth to 
age 18. The latest findings show that children appear to have reached 
adult levels of performance on basic cognitive and motor skills by age 
11 or 12. Long-term, the goal is to link these behavioral data to MRI 
scans of the children's brains. Together, the two data sets will allow 
researchers to view how the brain grows and reorganizes itself, and to 
explore the structural changes. The database will also serve as a 
reference to better understand what goes wrong in children with genetic 
disorders, language and learning difficulties, prenatal exposure to 
alcohol or drugs or other brain injury.
    Preterm Birth Risk Factors.--Researchers funded by the NICHD 
identified DNA variants in mothers and fetuses that appear to increase 
the risk for preterm labor and delivery. The current findings add to 
the evidence that individual genetic variation may account for why 
preterm labor occurs in some pregnancies and not in others. The 
findings may one day lead to new strategies to identify those at risk 
for preterm birth, and to ways to reduce the occurrence of preterm 
birth among those at risk.
    Treating Mild Gestational Diabetes Reduces Birth Complications.--
NICHD funded researchers found the first conclusive evidence that 
treating pregnant women who have even the mildest form of gestational 
diabetes can reduce the risk of common birth complications among 
infants, as well as blood pressure disorders among mothers. 
Specifically, women treated for mild gestational diabetes had smaller, 
leaner babies less likely to be overweight and less likely to 
experience shoulder dystocia, an emergency condition in which the 
baby's shoulder becomes lodged inside the mother's body during birth. 
Treated mothers were also less likely to undergo cesarean delivery, to 
develop high blood pressure during pregnancy, or to develop pre-
eclampsia, a life-threatening complication of pregnancy that can lead 
to maternal seizures and death.
Future Research Opportunities
    Although the studies mentioned above have unquestionably made 
significant contributions to the well-being of our children and 
families, there is still much to discover about ways to improve health, 
learning, and quality of life. Progress in the following research areas 
can only be achieved with adequate Federal investments.
    Severe, Early Adverse Pregnancy Outcomes.--Women with severe, early 
adverse pregnancy outcome, such as multiple losses, demises, and severe 
preeclampsia, are at increased risk for long-term chronic health 
problems, including hypertension, stroke, diabetes, and obesity. 
Studies have shown that women who have had preeclampsia are more likely 
to develop chronic hypertension, to die from cardiovascular disease and 
to require cardiac surgery later in life. In addition, approximately 50 
percent of women with gestational diabetes will develop diabetes later 
in life. Pregnancy can be considered as a window to future health and 
the immediate postpregnancy period provides a unique opportunity for 
prevention of chronic diseases later in life. Studies to identify women 
at risk for long-term morbidity, and to develop strategies to prevent 
long-term adverse outcomes in these women are urgently needed.
    Preterm Birth.--Preterm birth is a serious and growing public 
health problem that affects more than 500,000 babies each year. It is 
the leading cause of neonatal death and about half of all premature 
births have no known cause. A key strategy recommended by the Institute 
of Medicine and experts convened for the Surgeon General's Conference 
on the Prevention of Preterm Birth is to create integrated 
transdisciplinary research centers to build the knowledge base needed 
for development of effective interventions to prevent prematurity. 
These new centers would serve as a national resource for investigators 
to design new research approaches and strategies to address the serious 
and growing problem of preterm birth.
    National Children's Study.--The National Children's Study is the 
largest and most comprehensive study of children's health and 
development ever planned in the United States. Currently, the 
``vanguard centers'' are recruiting pregnant women and more than 150 
children have been born into the study. When fully implemented, this 
study will follow a representative sample of 100,000 children from 
across the United States from before birth until age 21. The data 
generated will inform the work of scientists in universities and 
research organizations, helping them identify precursors to disease and 
to develop new strategies for prevention and treatment. Identifying the 
root causes of many childhood diseases and conditions, including 
preterm birth, asthma, obesity, heart disease, injury and diabetes, 
will reduce healthcare costs and improve the health of children. The 
Friends of NICHD thank the subcommittee for funding the NCS through the 
NIH Office of the Director in fiscal year 2010, and urge the 
subcommittee to provide $194.4 million for the study in fiscal year 
2011.
    Newborn Screening Translational Research Network.--The network is 
designed to improve newborn screening, the care of patients with 
disorders identified through screening, and deepen understanding of 
conditions for which screening should be made available. By 
contributing to our understanding of patients with genetic diseases, 
this network will accelerate research in diseases related to newborn 
screening and greatly improve the process by which public health 
decisions are made about the expansion of newborn screening.
    Unraveling Genetic Basis of Autism.--NICHD is capitalizing on 
advances in genetics research by participating in the Autism Genome 
Project (AGP), a public-private collaboration involving more than 120 
scientists and 50 institutions in 19 countries. The first study to 
emerge from AGP implicated components of the brain's glutamate chemical 
messenger system and a previously overlooked site on chromosome 11. 
Based on 1,168 families with at least 2 affected members, the genome 
scan also adds to evidence that tiny, rare variations in genes may 
heighten risk for autism spectrum disorders. The spectrum of disorders 
collectively known as autism affects as many as one in 150 Americans 
resulting in impaired thinking processes, emotional and social 
abilities, and motor control. So far, the only known cause of autism 
for which there is a verifiable blood test is Fragile X; further 
research on this disorder would provide understanding of the function 
of this gene (FMR1) as well as others that cause autism. With NIH 
support, the AGP is pursuing studies to identify specific genes and 
gene variants that contribute to vulnerability to autism. These include 
explorations of interactions of genes with other genes and with 
environmental factors, and laboratory research aimed at understanding 
how candidate susceptibility genes might work in the brain to produce 
the disorders.
    Education and School Readiness Research.--NICHD continues to build 
its portfolio of research on how children acquire the emotional, social 
and academic skills necessary to succeed in school and beyond; however 
more work is needed in four particular areas: (1) Neurological 
processing disorders--how they impact learning and literacy, 
particularly in reading comprehension for grades 4-8, so that early 
intervention may improve learning and academic outcomes for young 
adults; (2) learning delays and language development--how to 
distinguish if they are caused by language barriers versus possible 
learning disabilities in school-age children; (3) math disabilities--
where they reside in the brain, how they impact learning over time and 
what we can do to remediate and intervene with those who have them; and 
(4) school readiness--how to develop better measures of the social and 
emotional bases which will inform our early education programs. The 
combination of study in these four areas will help inform the Nation's 
education and innovation agenda to support and grow a competitive 
workforce.
    Family Research.--As the family is the primary context for child 
development, the NICHD has played a significant role in examining the 
dramatic changes in family structure in the United States over the last 
40 years. Scientists are currently focused on developing new study 
designs to better understand the family processes that transcend the 
traditional home environment, including the role of absent fathers, the 
contributions of grandparents and others outside the immediate family. 
Recognizing that so many parents are also in the workforce, NICHD is 
moving forward on its Work, Family, Health and Well-Being Initiative. 
The long-range goals of the initiative are to identify workplace 
interventions that can improve health by improving the ability of the 
worker to successfully meet both work and family demands.
    Intellectual and Developmental Disabilities.--Ongoing support of 
the research in mental retardation and developmental disabilities being 
undertaken at the Eunice Kennedy Shriver Intellectual and Developmental 
Disabilities Research Centers (IDDRC) is essential. Many disorders are 
being studied by the IDDRC such as Down syndrome, Fragile X syndrome, 
Rett syndrome, and autism. Genetic and biomedical advances over the 
past few years hold the promise for understanding the threats to 
healthy and full development and ultimately to the prevention and 
amelioration of the impact of many disabilities.
    Obesity.--NICHD is integrally involved in research into the origins 
of obesity in childhood. Next to tobacco use, diet and exercise 
represent the areas in which prevention efforts will have the greatest 
impact in reducing the socioeconomic and societal burdens of the 
obesity epidemic. More developmental research needs to be focused on 
understanding the interplay among behavioral, social and physical 
environment, and biological factors that lead to obesity so that 
effective and appropriate interventions can be developed earlier in the 
life cycle.
    Rehabilitation Research.--The NICHD houses the National Center for 
Medical Rehabilitation Research (NCMRR). This Center fosters the 
development of scientific knowledge needed to enhance the health, 
productivity, independence, and quality-of-life of people with 
disabilities. A primary goal of Center-supported research is to bring 
the health related problems of people with disabilities to the 
attention of the best scientists in order to capitalize upon the myriad 
advances occurring in the biological, behavioral, and engineering 
sciences.
    SIDS.--Though the NICHD has made remarkable progress in reducing 
the rate of SIDS, SIDS remains the leading cause of death in infants 
from 1 month of age to 1 year. More research and public education is 
needed to address the large number of babies dying of asphyxiation and 
suffocation in unsafe adult bed-sharing situations. Additional support 
is also needed to expand the work of NICHD's Stillbirth Collaborative 
Research Network, where for the first time we are finding answers that 
may ultimately lead to prevention of many of these 26,000 devastating 
losses, many of which are late term and yet unexplained.
Conclusion
    The potential contributions of the Institute to the lives of 
countless individuals are limited only by the resources available for 
carrying out its vital mission. This is why the Friends of NICHD ask 
you to provide an appropriation of $1.495 billion to the Institute. Our 
Nation and the world will continue to benefit from your promise to 
improving health and scientific advancement long after the doubling 
effort is over.
    We thank you, Mr. Chairman, and the subcommittee, for your support 
of the Eunice Kennedy Shriver National Institute of Child Health and 
Human Development, and thank you for the opportunity to share these 
comments.
                                 ______
                                 
  Prepared Statement of The Friends of the National Institute on Aging
    Chairman Harkin and members of the subcommittee, thank you for the 
opportunity to provide testimony regarding the crucial role of the 
National Institute on Aging (NIA) within the National Institutes of 
Health (NIH) and the need for increased appropriations in the fiscal 
year 2011 budget to ensure sustained, long-term growth in aging 
research.
    The Friends of the NIA is a coalition of 50 academic, patient-
centered and not-for-profit organizations that conduct, fund, or 
advocate for scientific endeavors to improve the health and quality of 
life for Americans as we age. As a coalition, we support the 
continuation and expansion of NIA research activities and seek to raise 
awareness about important scientific progress in the area of aging 
research currently guided by NIA.
    My testimony today demonstrates the relevance of the work of the 
NIA to each and every American, as well as opportunities for future 
progress that are dependent on congressional action to build upon the 
unprecedented $10.4 billion in the American Recovery and Reinvestment 
Act (ARRA) for NIH research and training activities in fiscal year 
2011.
The Relevance of the Work of the NIA
    NIH is the primary funder of biomedical research in this country 
and as such, NIA leads the Federal effort to advance biomedical and 
behavioral research in aging. NIA leads the national scientific effort 
to understand the nature of aging in order to promote the health and 
well-being of older adults. NIA's mission is three-fold: (1) Support 
and conduct genetic, biological, clinical, behavioral, social, and 
economic research related to the aging process, diseases and conditions 
associated with aging, and other special problems and needs of older 
Americans; (2) Foster the development of research- and clinician-
scientists for research on aging; and (3) Communicate information about 
aging and advances in research on aging with the scientific community, 
healthcare providers, and the public. The NIA carries out this mission 
by supporting both extramural research at universities and medical 
centers across the United States and vibrant intramural research at the 
NIA's laboratories in Baltimore and Bethesda, Maryland. The work of the 
NIA focuses not only on diseases and conditions of aging but also on 
the processes underlying the aging process itself and as such, the 
research conducted by NIA-funded scientists has relevance for each and 
every person in America, regardless of age.
Forward Momentum: ARRA Funding and the NIA
    The bolus of funding provided by ARRA has made it possible for NIA-
funded researchers to make progress towards key research questions 
related to health and aging. As a result of ARRA funding, NIA-funded 
scientists have been able to intensify their research efforts in areas 
of critical importance to aging and health, including but not limited 
to the following:

------------------------------------------------------------------------

------------------------------------------------------------------------
Understanding how Alzheimer's Disease       Investigating the ways in
 develops and progresses.                    which Alzheimer's Disease
                                             (AD) and vascular disease
                                             may adversely affect one
                                             other in the hopes of
                                             identifying strategies for
                                             preventing dementia.\1\
                                            Examining the ways that
                                             energy metabolism
                                             influences brain aging by
                                             looking for correlations
                                             among brain imaging
                                             patterns, dementia, and
                                             metabolic measures in aging
                                             and in people with AD.\2\
Identifying genetic and other risk factors  Using genome-wide
 for Alzheimer's Disease.                    association studies to
                                             compare the genomes of
                                             individuals with and
                                             without AD to identify
                                             potential genetic risk.\3\
Seeking new ways of screening for and       Identifying best practices
 detecting Alzheimer's Disease.              for cerebrospinal fluid
                                             sample collection and
                                             attempting to identify AD
                                             biomarkers in cerebrospinal
                                             fluid before the onset of
                                             symptoms.\4\
                                            Comparing the effectiveness
                                             of brain imaging and blood
                                             biomarkers to diagnose
                                             AD.\5\
Discovering possible prevention and         Elucidating the long-term
 treatment strategies for Alzheimer's        effect of naproxen and
 Disease.                                    other NSAIDS on cognitive
                                             health by following
                                             participants in the
                                             Alzheimer's Disease Anti-
                                             inflammatory Prevention
                                             Trial (ADAPT) to.\6\
                                            Determining whether
                                             compounds that manipulate
                                             the histone code may have
                                             therapeutic value for AD
                                             and other neurological
                                             disorders.\7\
Enhancing neuroimaging methods and tools..  Developing software to
                                             simplify the analysis of
                                             complex brain-image data
                                             relating to the structure
                                             and function of the human
                                             brain.\8\
                                            Developing a ``network
                                             diagram'' that links
                                             genetic information with
                                             underlying brain circuitry
                                             in the neural systems
                                             controlling behavior and
                                             emotion to improve our
                                             understanding of the
                                             connectivity of circuits
                                             that are disturbed in
                                             neurologic conditions,
                                             including mental illness,
                                             autism, Parkinson's
                                             disease, Alzheimer's
                                             disease, and addiction.\9\
Preventing neuroinflammation..............  Developing a safe and
                                             effective vaccine for the
                                             treatment of AD that will
                                             not cause an inflammatory
                                             response in the brain.\10\
Understanding the impact of economic        Examining trends in
 concerns on older adults.                   demography, economics,
                                             health, and health care of
                                             the elderly by evaluating
                                             the effects of medical
                                             technology on costs and
                                             examining changes in
                                             survival, health, and well-
                                             being among older people
                                             over time.\11\
                                            Examining the financial
                                             circumstances of older
                                             Americans, including work
                                             and retirement behavior,
                                             health and functional
                                             ability, and policies that
                                             influence individual well-
                                             being.\12\
Improving the quality of patient care.....  Evaluating the effectiveness
                                             of feeding tubes in the
                                             hospital setting to reduce
                                             weight loss among older
                                             adults with dementia.\13\
                                            Describing risk factors and
                                             long-term consequences of
                                             adverse medical events or
                                             medical injuries among
                                             older adults.\14\
Preparing the next generation of            Recruiting and training
 researchers.                                doctoral-level students in
                                             health services research to
                                             prepare them for careers as
                                             independent scientists.\15\
                                            Recruiting new faculty
                                             members to enhance the
                                             capacity for
                                             transdisciplinary research
                                             on aging that examines how
                                             social context and the
                                             healthcare system interact
                                             to impact health outcomes
                                             for older adults.\15\
------------------------------------------------------------------------
\1\ 1 F32 AG031620-01A2--Nozomi Nishimura (NY).
\2\ 3 K23 NS058252-04S1--Jeffrey Burns (KS).
\3\ 2 R01 AG016208-10A2--Alison Goate (MO); 1 RC2AG036528-01--Gerard
  Schellenberger (PA); 1 RC2 AG036650-01--Denis A. Evans, Jill R.
  Murrell, and Philip De Jager (IL).
\4\ 1 RC2 NS069502-01--Howard Schulman (NC); 1 RC1 AG035654-01--David
  Holtzman (MO).
\5\ 1 RC1 AG036208-01--Orly Lazarov (IL).
\6\ 2 U01 AG015477-06A2--John Breitner (WA).
\7\ 1 RC1 AG035711-01--Li-Huei Tsai (MA).
\8\ 2 R01 AG013743-13A1--Edward Herskovits. (PA).
\9\ 1 RC1 NS069152-01--Julie R. Korenberg (contact), Tolga Tasdizen
  (UT).
\10\ 3 R01 AG20159-08S1--Cynthia Lemere (MA).
\11\ 3 P30 AG017253-10S1--Alan Garber (CA).
\12\ 3 P30 AG012810-16S1 and 16S2--David A. Wise (MA).
\13\ 1 RC1 AG036418-01--Joan Teno (RI).
\14\ 1 R21 AG031983-01A1--Mary Carter (WV).
\15\ 2 T32 AG023482-06--Vincent Mor (RI).
\16\ 1 P30 AG036459-01--David Meltzer (IL).

    With a sustained investment in the NIH funding base, these and 
other NIA-funded projects will yield breakthroughs in the screening, 
prevention and treatment of a host of age-associated diseases and 
conditions. With the fiscal year 2011 budget, Congress has the 
opportunity to increase the forward momentum of NIA-funded scientists 
towards achieving these much-needed breakthroughs.
The Challenges and Opportunities Ahead
    A key challenge is maintaining the positive momentum set into 
motion by Congress through ARRA. Between fiscal year 2003 and fiscal 
year 2009, scientists saw a series of nominal increases and cuts that 
amounted to flat funding for NIH and a 12.9 percent reduction in 
constant dollars for the NIA. Six years of flat funding for the NIH 
took a toll on scientific progress in America--projects were sidelined, 
promising grants went unfunded, and countless life-saving discoveries 
went undiscovered. With the infusion of funding from ARRA NIH 
researchers are regaining some of the ground lost during that time 
period. NIA is poised to accelerate the scientific discoveries that we 
as a nation are counting on America's leading researchers to achieve. 
With millions of Americans facing the loss of their functional 
abilities, their independence, and their lives to diseases like 
Alzheimer's Disease, Parkinson's Disease, Amyotrophic Lateral 
Sclerosis, and Frontotemporal Dementia, there is a pressing need for a 
robust and sustained investment in the work of NIH and by extension, 
NIA. In every community in America, healthcare providers depend upon 
NIA-funded discoveries to help their patients and caregivers lead 
healthier and more independent lives. In those same communities across 
America, parents are hoping NIA-funded discoveries will help their 
children have a brighter future, free from the diseases and conditions 
of aging that plague our Nation today.
    We do not yet have the knowledge needed to predict, pre-empt, and 
prevent the broad spectrum of diseases and conditions associated with 
aging. We do not yet have the knowledge needed about disease processes 
to understand how best to prevent, diagnose, and treat diseases and 
conditions of aging, nor do we have the knowledge needed about the 
complex relationships between biology, genetics, and behavioral and 
social factors related to aging. We do not yet have a sufficient pool 
of new investigators entering the field of aging research. Bold, 
visionary, and sustainable investments in the NIA will make it possible 
to achieve measurable gains in these areas sooner rather than later.
    The member groups of the Friends of the National Institute of Aging 
respectfully urge this subcommittee to provide sustained support for 
biomedical and behavioral research by increasing NIA funding by a 
minimum of 7 percent in fiscal year 2011 to correspond with the overall 
funding increase to NIH. NIA and the health-enhancing and life-saving 
biomedical, behavioral and social research it supports require bold, 
visionary, and sustainable funding to succeed in transforming the 
health of our Nation. Americans depend upon the NIA to facilitate the 
acceleration of discoveries to prevent, treat, and potentially cure a 
wide range of debilitating age-related diseases and conditions. NIA-
supported scientists are poised to make breakthroughs in the prevention 
and treatment of a host of age-associated diseases and conditions, but 
in order to achieve these powerful results, meaningful investments in 
aging research must be made now.
    While the Friends of the NIA recognizes that there is enormous 
competition for congressional appropriations, we believe that an 
increase in funding for the NIH will yield unprecedented returns in 
terms of accelerating the rate of basic discovery and stimulating the 
rapid development of interventions with the potential to offer 
significant public health benefits for our aging population.
    Mr. Chairman, the Friends of the NIA thanks you for this 
opportunity to outline the challenges and opportunities that lie ahead 
as you consider the fiscal year 2011 appropriations for the NIH. We 
would be happy to furnish additional information upon request.
                                 ______
                                 
              Prepared Statement of the FSH Society, Inc.
    Mr. Chairman, it is a great pleasure to submit this testimony to 
you today.
    My name is Daniel Paul Perez, of Bedford, Massachusetts, and I am 
testifying today as President & CEO of the FSH Society, Inc. 
(facioscapulohumeral muscular dystrophy) and as an individual who has 
this common and most prevalent form of muscular dystrophy. My testimony 
is about the profound and devastating effects of a disease known as 
facioscapulohumeral muscular dystrophy which is also known as 
facioscapulohumeral muscular disease, FSH muscular dystrophy (FSHD) and 
the urgent need for increased National institutes of Health (NIH) 
funding for research on this disorder. For men, women, and children the 
major consequence of inheriting the most prevalent form of muscular 
dystrophy, FSHD, is a lifelong progressive and severe loss of all 
skeletal muscles. FSHD is a terrible, crippling, and life-shortening 
disease. No one is immune, it is genetically and spontaneously (by 
mutation) transmitted to children and it affects entire family 
constellations.
FSHD is The Most Prevalent Form of Muscular Dystrophy
    It is a fact that FSHD is published in the scientific literature as 
the most prevalent muscular dystrophy in the world. The incidence of 
FSHD is conservatively estimated to be 1 in 14,000. The prevalence of 
the disease, those living with the disease, ranges to 2 or 3 times as 
many as that number based on our increasing experiences with the 
disease and more available and accurate genetic diagnostic tests.
    The French Government research agency, INSERM (Insitut National de 
la Sante et de la Recherche Medicale) is comparable to the U.S. 
National Institutes of Health (NIH), and it recently published 
prevalence data for hundreds of diseases in Europe. Notable is the 
``Orphanet Series'' reports covering topics relevant to all rare 
diseases. The ``Prevalence or reported number of published cases listed 
in alphabetical order of disease'' November 2008--Issue 10 report can 
be found at Internet Web site (http://www.orpha.net/orphacom/cahiers/
docs/GB/Prevalence_of_rare_diseases_by_alphabetical_list.pdf). This 
publication contains new epidemiological data and modifications to 
existing data for which new information has been made available. This 
new information ranks facioscapulohumeral muscular dystrophy (FSHD) as 
the most prevalent muscular dystrophy followed by Duchenne (DMD) and 
Becker Muscular dystrophy (BMD) and then in turn myotonic dystrophy 
(DM). FSHD is historically presented as the third most prevalent 
muscular dystrophy in the Muscular Dystrophy Community Assistance, 
Research and Education Amendments of 2001 and 2008 (the MD-CARE Act). 
This new data ranks FSHD as the first and most prevalent form of 
muscular dystrophy.

------------------------------------------------------------------------
                                                              (Cases/
                  Estimated prevalence                       100,000)
------------------------------------------------------------------------
Facioscapulohumeral muscular dystrophy (FSHD)...........       7/100,000
Duchenne (DMD) and Becker Muscular dystrophy (BMD)......       5/100,000
Steinert myotonic dystrophy (DM)........................     4.5/100,000
------------------------------------------------------------------------

NIH Muscular Dystrophy Funding Has Quadrupled Since Inception of the MD 
        CARE Act
    Figures from the online RCDC RePORT and the NIH Appropriations 
History for Muscular Dystrophy report historically provided by NIH/OD 
Budget Office & NIH OCPL show that from the inception of the MD CARE 
Act 2001, funding has nearly quadrupled from $21 million to $83 million 
in fiscal year 2009 for muscular dystrophy.
NIH Funding of FSHD has Remained Level Since the Inception of the MD 
        CARE Act
    In fiscal year 2009, FSHD was 6.02 percent of the total muscular 
dystrophy funding ($5 million/$83 million). The previous year FSHD was 
5.3 percent of the total muscular dystrophy funding ($3 million/$56 
million). FSHD funding has simply kept its ratio in the NIH funding 
portfolio and has not grown in the last 8 years.

                  NIH FSHD FUNDING ANMD APPROPRIATIONS
                          [Dollars in millions]
------------------------------------------------------------------------
                                                               FSHD
                Fiscal year                FSHD research   percentage of
                                                                MD
------------------------------------------------------------------------
2002....................................            $1.3               5
2003....................................             1.5               4
2004....................................             2.2               6
2005....................................               2               5
2006....................................             1.7               4
2007....................................               3               5
2008....................................               3               5
2009....................................               5               6
------------------------------------------------------------------------
Sources: NIH/OD Budget Office, NIH OCPL, and NIH RCDC RePORT.

    We highly commend the Director of the NIH on the ease of use and 
the accuracy of the Research Portfolio Online Reporting Tool (RePORT) 
report ``Estimates of Funding for Various Research, Condition, and 
Disease Categories (RCDC)'' with respect to reporting projects on 
facioscapulohumeral muscular dystrophy.
FSHD: The Most Prevalent Form of Muscular Dystrophy is Drastically 
        Underfunded at NIH
    Now, FSHD is published as the most prevalent muscular dystrophy, 
and given the extraordinary interest of the scientific and clinical 
communities in its unique disease mechanism, it defies credibility that 
it still remains the most prevalent and one of the most underfunded 
dystrophies at the NIH and in the Federal research agency system (CDC, 
DOD, and FDA).
    In 2009, the most prevalent muscular dystrophy, FSHD, received $5 
million from NIH. In 2009, the second most prevalent dystrophy, 
Duchenne (DMD) and Becker Muscular dystrophy (BMD) type, received $33 
million from NIH. In 2009, the third most prevalent dystrophy myotonic 
dystrophy (DM), received $13 million from NIH.
    The MD CARE Act 2008, mandates the NIH Director to intensify 
efforts and research in the muscular dystrophies, including FSHD, 
across the entire NIH. It should be very concerning that in the last 8 
years muscular dystrophy has quadrupled to $83 million and that FSHD 
has remained on average at 5 percent of the NIH muscular dystrophy 
portfolio. FSHD is certainly still far behind when we look at the 
breadth of research coverage NIH-wide.
    It is now time to examine why FSHD receives such a disproportional 
and inverse level of funding despite its equal burden of disease and 
highest prevalence. It is crystal clear, if not completely black and 
white, that we are not achieving the goals of parity in funding as 
expected by the mandates set forth in the MD CARE Acts 2001/2008 and by 
the NIH Action Plan for the Muscular Dystrophies as submitted to the 
Congress by the NIH.
    We would like to commend the program staff at the NIH for the 
excellent progress made in FSHD and the extraordinary progress made in 
increasing muscular dystrophy funding. We are very pleased with the 
efforts of NIH staff and Muscular Dystrophy Coordinating Committee 
(MDCC) on behalf of the community of patients and their families with 
muscle disease and the research community pursuing solutions for all of 
us. We recognize in particular the efforts and hard work of the 
following NIH staff: Story Landis, Ph.D., Executive Secretary, MDCC and 
Director, National Institute of Neurological Disorders and Stroke 
(NINDS); John D. Porter, Ph.D., Executive Secretary, MDCC and Program 
Director, Neuromuscular Disease, Neurogenetics Cluster and the 
Technology Development Program, NINDS; Stephen I. Katz, M.D., Ph.D., 
Director, National Institute of Arthritis and Musculoskeletal and Skin 
Disease (NIAMS); Glen H. Nuckolls, Ph.D., Extramural Programs, 
Musculoskeletal Diseases Branch, NIAMS; James W. Hanson, M.D., Director 
of the Center for Developmental Biology and Perinatal Medicine, Eunice 
Kennedy Shriver National Institute of Child Health and Human 
Development (NICHD); and, Ljubisa Vitkovic, M.D., Ph.D., Mental 
Retardation and Developmental Disabilities Branch, DHHS NIH NICHD.
    Efforts of excellent program staff and leadership at NIH, excellent 
reviewers and study sections, excellent and outstanding researchers 
both working on FSHD and submitting applications to the NIH, and 
extraordinary efforts of the volunteer health agencies working in this 
area have not yet enabled FSHD funding to increase at the NIH. It is 
time for requests, contracts ands calls for researcher proposals on 
FSHD to bootstrap existing FSHD research worldwide.
    I am here once again to remind you that FSHD is taking its toll on 
your citizens. FSHD illustrates the disparity in funding across the 
muscular dystrophies and recalcitrance in growth in more than 20 years 
despite consistent pressure from appropriations language and 
Appropriations Committee questions, and an authorization from Congress 
mandating research on FSHD.
    The pace of discovery and numbers of leading experts in the field 
of biological science and clinical medicine working on FSHD are very 
rapidly expanding. Many leading experts are now turning to work on FSHD 
not only because it is one of the most complicated and challenging 
problems seen in science, but because it represents the potential for 
great discoveries, insights into stem cells and transcriptional 
processes and new ways of treating human disease.
Areas of Scientific Opportunity in FSHD That Need NIH Funding
    The majority of the international FSHD clinical and research 
community recently came together at the DHHS NIH NICHD Boston 
Biomedical Research Institute Senator Paul D. Wellstone MD CRC for 
FSHD. Almost 90 scientists working on FSHD globally met at the 2009 FSH 
Society FSHD International Research Consortium, held on Monday, 
November 9, 2009, and Tuesday, November 10, 2009. The summary and 
recommendations of the group state the following:
    During the past two decades, the FSHD research has made steady 
progress to unravel the molecular basis of this common muscle disease. 
The main line of research has focused on the extremely complex 
(epi)genetic enigma. This complexity has fascinated experts involved in 
related research. At the present moment the FSHD research field is 
covering a variety of multidisciplinary and complementary approaches. 
Although the exact details of the molecular genetic basis of FSHD are 
still not in place, the general picture is coming into focus. Within 1-
2 years, evidence-based intervention strategies are on the drawing-
board and trials are planned. To be prepared for this new FSHD era, we 
need to accelerate the efforts in the following areas--
            Patients and Clinical Trials Readiness
    There is a need for well-characterized registries with uniform data 
collection. NIH U54 Wellstone MD CRC, NIH registries, and patient 
organizations are key to this process. These groups and registry and 
patient organizations are instrumental for:
  --Work on natural history--identification of phenotype modifiers 
        (genetic and environmental)
  --Identification of the FSHD2 gene (contraction-independent FSHD)
  --Bio-banking (cell lines etc.)
  --Development of tools and assays to measure clinical trials 
        endpoints
            Epigenetics/Genetics
    This line of work will be instrumental to pinpoint the real 
identity of FSHD1A (chromosome-4-linked cases) and FSHD1B 
(nonchromosome-4-linked cases). This information will form the basis 
for evidence-based intervention.
  --Modifying genes for FSHD1 (large inter-individual variation in 
        symptoms)
  --Identify the FSHD2 gene (common molecular pathway with FSHD1)
  --Further work on the chromatin structure/function relationship
            Biomarkers for Clinical Therapy
    There is obvious need for monitoring intervention.
  --Systems biology approaches
    --transcriptomics, proteomics, metabolomics, etc.
  --In situ (RNA, protein) to detect cellular heterogeneity
  --Non-invasive monitoring (MRI etc.)
            Model Systems
    Urgent need for more specific model systems for mechanistic, 
intervention work and advancement to clinical trials.
  --Cellular models
    --Biopsies--for well characterized FSHD cell lines
    --Mosaics--isogenic and clonal lines
    --Induced pleuropotent stem cells (iPS)
  --Animal
    --Mouse--inducible/humanized mouse etc.
    --Other species
            Molecular, Cellular, and Genomic
    Myogenesis in normal and FSHD muscle (myoblasts/myotubes)
    Cell cycling
    Dynamics of muscle satellite cells
    RNA iso-forms and alternative splicing (FRG1, DUX4, others)
    --Genome wide (normal versus FSHD)
    Chromatin structure at 4q35
    Downstream gene targets
           our request to the nih appropriations subcommittee
    We request this year in fiscal year 2011, immediate help for those 
of us coping with and dying from FSHD. We ask NIH to fund research on 
facioscapulohumeral muscular dystrophy (FSHD) at a level of $25 million 
in fiscal year 2011.
    We implore the Appropriations Committee to request that the 
Director of NIH, the Chair, and Executive Secretary of the Federal 
advisory committee Muscular Dystrophy Coordinating Committee mandated 
by the MD CARE Act 2008, to increase the amount of FSHD research and 
projects in its portfolios using all available passive and pro-active 
mechanisms and interagency committees.
    We ask that Congress ask NIH to consider increasing the scope and 
scale of the existing DHHS U.S. NIH Senator Paul D. Wellstone Muscular 
Dystrophy Cooperative Research Centers (U54) to double or triple their 
size--they are financially under-powered as compared to their 
potential. These centers have provided an excellent catalyst for 
progress in funding and a greater seriousness in the endeavor of 
treating muscular dystrophy. We ask Congress to request of NIH the 
development of mechanisms to help expand work from the center of the 
NIH Wellstone Centers outward to address needs and priorities of the 
scientific communities.
    Given the knowledge base and current opportunity for breakthroughs 
in treating FSHD it is inequitable that only 4 of the 12 NIH institutes 
covering muscular dystrophy have a handful of research grants for FSHD. 
We request that the Director of the NIH be more proactive in 
facilitating grant applications (unsolicited and solicited) from new 
and existing investigators and through new and existing mechanisms, 
special initiatives, training grants and workshops--to bring knowledge 
of FSHD to the next level.
    Thanks to your efforts and the efforts of your subcommittee, Mr. 
Chairman, the Congress, the NIH and the FSH Society are all working to 
promote progress in facioscapulohumeral muscular dystrophy. Our 
successes are continuing and your support must continue and increase.
    Mr. Chairman, thank you for this opportunity to testify before your 
subcommittee.
                                 ______
                                 
               Prepared Statement of Family Voices, Inc.
    I am grateful for this opportunity to submit written testimony on 
behalf of Family Voices, Inc., an organization of families whose 
children have special healthcare needs and/or disabilities. Family 
Voices aims to achieve family-centered care for all children and youth 
with special healthcare needs and/or disabilities. Through our national 
network, we provide families tools to make informed decisions, advocate 
for improved public and private policies, build partnerships among 
professionals and families, and serve as a trusted resource on 
healthcare.
    Family Voices respectfully asks the subcommittee to provide $10 
million in funding for Family-to-Family Information Centers (F2F HICs) 
for Federal fiscal year 2011. In addition, we request that funding for 
the title V Maternal and Child Health Services Block Grant be increased 
to $730 million for Federal fiscal year 2011.
              family-to-family health information centers
    F2F HICs are statewide, family-led information and referral centers 
that provide families with information about how to obtain and finance 
healthcare for their children/youth with special healthcare needs 
(CYSHCN), including disabilities and chronic medical conditions like 
cerebral palsy, epilepsy, or asthma. The Deficit Reduction Act of 2005 
mandated that Federal grants be provided ($3 million in fiscal year 
2007, $4 million in fiscal year 2008, and $5 million in fiscal year 
2009) to create a F2F HIC in every State and the District of Columbia 
by fiscal year 2009. The Patient Protection and Affordable Care Act 
provided $5 million in each of fiscal years 2010-2012 to maintain these 
F2F HICs at their current levels of funding.
    The needs of CYSHCN are chronic and complex and, thus, securing and 
paying for their care is often a struggle. F2F HICs provide life-
altering information to families in crisis; simply enrolling in 
Medicaid for a newborn in need of expensive critical care can be an 
arduous task. Most of the staff at F2F HICs are members of families 
whose children have special healthcare needs. This unique perspective 
allows them to provide advice, offer a multitude of resources, and tap 
into a network of other families and professionals for support and 
information. In addition, they help healthcare providers to understand 
the various public programs available for their patients, and assist in 
dealing with private insurers. In fact, about one-third of requests to 
F2F HICs are from healthcare professionals. The centers also aim to 
ensure that each child has a ``medical home,'' and that partnerships 
are built between healthcare professionals and the families of CYSHCN, 
thereby improving the quality of care.
    At the present level of funding--$5 million total--each site 
receives only $95,700 per year. Although hundreds of thousands of 
families are being served by F2F HICs, the level of funding is not 
sufficient to serve all of the families and providers who need 
assistance in each State. As discussed in more detail below, an 
increase to $10 million is needed to assist more families of CYSHCN and 
healthcare providers who need these services; to expand training and 
technical assistance to grantees; and to make these valuable services 
available to additional regions and populations. Moreover, the 
healthcare system navigation function provided by F2F HICs will be of 
increased importance now that healthcare reform has been enacted.
    There is a great need for Family-to-Family Health Information 
Centers (F2F HICs).
    An estimated 22 percent of U.S. household with children have at 
least one child with special healthcare needs--that is more than 10 
million children--and that number appears to be growing. Among these 
families, 38 percent do not have adequate insurance to pay for services 
their children need; 20 percent of these families pay $1,000 or more 
per year in out-of-pocket expenses. These problems are exacerbated 
among families of ethnic, racial, and cultural minorities because their 
access to coverage and care is significantly more limited.
    It is very difficult for families to figure out how to finance 
their children's care, given the great expense and complexity of 
potential funding sources--private insurance, Medicaid, SCHIP, State 
Maternal and Child Health programs, the school system--each with 
different eligibility and coverage criteria. It can also be difficult 
to find sources of care, given the shortage and maldistribution of 
pediatric subspecialists.
    Additional funding is needed to sustain the current scope of work, 
and to expand F2F HICs to territories and tribal organizations.
    Currently, F2F HICs are being funded at $5 million. This money 
funds 51 existing centers, one in each State and one in the District of 
Columbia, at approximately $95,700 a year--barely enough to cover one 
staff member or two part-time employees, and not enough to serve all 
the families who need assistance. All States could use more funding to 
reach more families. States with large populations in particular need 
larger grants in order to serve the families within their States.
    In addition, the number of centers should be expanded to serve 
territories and Native American populations, which have their own 
unique healthcare systems. It is anticipated that over the next several 
years, 10 new grantees could be established in order to meet the needs 
of these distinct populations. These new grantees would require 
operating funds, and would necessitate additional costs for oversight 
and technical assistance.
    Additional funding is needed to provide technical assistance to 
grantees.
    There are currently no designated dollars to provide structured 
technical assistance to funded F2Fs. A very small amount of the funds 
remaining after State distributions ($21,000 in the past year) has been 
used to assist in planning and coordinating a technical assistance 
meeting. Substantial technical assistance for developing, assisting and 
coordinating F2F programs, provided through a national, experienced, 
family-run organization, in coordination with regional family-run 
organizations, is needed to grow the capacity and ensure the quality of 
the F2Fs to best meet the needs of families of CYSHCN navigating 
complex healthcare systems.
    Healthcare reform will further necessitate the services of F2F 
HICs.
    Healthcare reform will require the services of the F2F HICs more 
than ever, as families whose children have special healthcare needs 
attempt to maneuver a new and complex system of insurance and care. The 
F2Fs HICs are expert in the unique needs of this sizeable population. 
Family-to-Family Health Information Centers within each State will be 
the best-positioned organizations to serve as navigators for families 
of CYSHCN--a role that has been identified in healthcare reform bills 
as necessary to ensure that the goals of the reform are met and 
maximized.
    F2F HICs receive less funding than a comparable educational 
assistance program--Parent Training and Information Centers.
    Over 25 years ago, the Federal Government recognized the 
complexities faced by families whose children need or might need 
special education services, and created a nationwide system of support 
and technical assistance for these families--Parent Training and 
Information Centers (PTIs).
    Families with children who have special healthcare needs face equal 
and additional challenges when faced with maneuvering the healthcare 
system--a system much more complex than the special education system, 
which is governed by one law (IDEA), whereas the healthcare system 
consists of a myriad of private and public insurance programs, 
benefits, waivers, limitations, networks, and cost-sharing.
    In fiscal year 2009, the PTIs were funded at $27 million, versus 
the $5 million in funding for the F2F HICs, despite the fact that they 
serve a very similar population.
    The F2F HIC program has demonstrated its effectiveness and value.
    Although they operate on shoe-string budgets, F2F HICs are able to 
help many families: from July 2008 to May 2009, the 41 F2F HICs then in 
existence trained and assisted more than 665,000 families of CYSHCN by 
helping them to navigate community services, partner with health 
professionals, find financing for care, and access a medical home. In 
addition, F2F HICs trained and assisted over 320,000 healthcare 
professionals in helping families with CYSHCN. On average, each F2F HIC 
collaborated with 14 State-level programs and 10 community-based 
organizations.
    The value and potential of F2F HICs has been established by outside 
evaluators:

    ``Family-to-Family Centers nationwide provide important information 
and assistance to families of CYSHN as well as the professionals who 
care for them, often with very limited staff and resources.''--Thomson 
Medstat, June 2006
    ``By helping families to provide a consumer perspective on program 
and policy issues, F2F HICs are helping States to develop more 
effective ways to assist families with CYSHCN. Ultimately, the F2F HICs 
goal is to improve health and functional outcomes for families with 
CYSHCN. To the extent families understand what is available for their 
children and use services effectively, outcomes for their children will 
improve. These benefits go well beyond the children and families. 
Children whose outpatient needs are met and whose parents are able to 
meet their daily care needs are less likely to require hospital or 
emergency room care. Children who obtain home and community long-term 
care services are less likely to need costly institutional care. 
Congress has recognized the value of F2F HICs by authorizing funds to 
establish one in every State. These highly effective organizations 
require a stable source of funding to sustain outreach and referral 
services, information development and dissemination, and education and 
training initiatives.''--Research Triangle Institute, April 2006.

    Perhaps more compelling are the stories of families who have been 
assisted by F2F HICs. An example is provided from Louisiana, where the 
F2F HIC assisted a family who had two children with severe 
disabilities. Both children had private health insurance and Medicaid 
for secondary coverage. The private health insurance company began 
requiring their enrollees to use an out-of-State mail-order pharmacy 
for their regularly renewed medications. This meant that the family was 
no longer able to use Louisiana Medicaid as a secondary insurer because 
the out-of-State pharmacy was not a Louisiana Medicaid provider. The 
family was faced with over $500 per month in additional costs because 
they could not access their Medicaid coverage. The Louisiana F2F HIC 
worked with the State Medicaid Director so that this family could 
submit the balance of the costs and receive their sorely needed 
benefits.
    For the above reasons, we respectfully request that a $10 million 
appropriation be provided for F2F HICs for fiscal year 2011.
             title v maternal and child health block grant
    As you know, one of the missions of the title V Maternal and Child 
Health Block Grant is to serve children with special healthcare needs. 
State MCH programs for CYSHCN help to build an infrastructure to ensure 
the provision of family-centered, community-based coordinated care for 
children with chronic conditions and disabilities. They have strong 
connections to pediatric specialists and the best available data on the 
needs of these children and their families. Due to years of reduced 
investment, however, the MCH Block Grant is at its lowest funding level 
since 1993, $662 million. The program--and the populations it serves--
deserves increased funding to fulfill its valuable missions. Therefore, 
Family Voices respectfully requests that the Congress provide $730 
million for the Title V Maternal and Child Health Block Grant program 
for fiscal year 2011.
                                 ______
                                 
        Prepared Statement of Goodwill Industries International
    Mr. Chairman, Ranking Member, and members of the subcommittee, on 
behalf of Goodwill Industries International (GII), I appreciate this 
opportunity to submit written testimony on Goodwill's priorities for 
funding programs administered by the U.S. Departments of Labor, Health 
and Human Services, and Education.
    GII represents 159 local and autonomous Goodwill Industries 
agencies in the United States that help people with barriers to 
employment to participate in the workforce. One of Goodwill Industries' 
greatest strengths continues to be its entrepreneurial approach to 
sustaining its mission. In 2008, the Goodwill Industries network raised 
nearly $3.7 billion through its retail, contracts, and mission services 
operations. Nearly 83 percent of the funds Goodwill Industries raised 
in 2009 was used to supplement government investments, resulting in 
nearly than 2 million different people served by local Goodwill 
agencies, including more than 155,000 job placements. In addition to 
our efforts to help people find jobs and advance in careers, Goodwill 
understands that many people need additional supportive services--child 
care, reliable transportation, stable housing, counseling, and 
assistance in adjusting to the workplace, assistive technology--to 
ensure their success.
    Especially during such trying economic times, Goodwill Industries 
understands the difficult challenge that appropriators face as they 
struggle to stretch limited resources to support an ever-increasing 
list of national priorities. As the Nation struggles to recover from 
the worst recession since the Great Depression and unemployment 
stubbornly hovers near 10 percent, Goodwill Industries' remains 
committed to partnering with stakeholders at the Federal, State, and 
local levels by contributing the resources and expertise of local 
Goodwill agencies in support of public efforts and investments.
    While our agencies care about a range of Federal funding streams, 
GII believes that Federal investment in the Workforce Investment Act, 
Vocational Rehabilitation, the Senior Community Service Employment 
Program (SCSEP), Green Jobs, and TANF will help the Goodwill network to 
do more for the people in communities across the country who are 
struggling to overcome employment barriers. Furthermore, Goodwill 
supports the administration's proposal to increase funding to 
strengthen enforcement of wage and hour standards. Goodwill urges 
Congress to provide adequate funding in fiscal year 2011 for these 
critical programs.
Workforce Investment Act
    Funding for the Workforce Investment Act's adult, dislocated 
worker, and youth formulas is one of Goodwill's top funding priorities 
for fiscal year 2011. Goodwill agencies and their community partners 
are on the front lines of this recovery effort assisting people with 
employment barriers, including individuals with disabilities, older 
workers, and welfare recipients who are struggling to find and keep 
jobs at a time when unemployment is at its highest rate experienced in 
a generation.
    Of the nearly 2 million people served by local Goodwill agencies in 
the United States in 2009, nearly 160,000 people were referred to local 
Goodwill agencies for employment services through the Workforce 
Investment Act (WIA) and State Vocational Rehabilitation agencies. Many 
local Goodwill agencies are one-stop lead operators, or operators in 
association with other service providers, and are active on State and 
local workforce boards.
    As members of this Subcommittee know, the administration's fiscal 
year 2011 budget proposes to launch a Workforce Innovation Fund to 
``support and test promising approaches to training, and breaking down 
program silos, building evidence about effective practices, and 
investing in what works.'' Goodwill believes that this idea is 
promising, is very interested in the details, and is encouraged by the 
Administration's efforts to increase interagency collaborations and 
leverage resources provided by community-based organizations.
    Goodwill strongly believes, however, that the proposed Workforce 
Innovation Funds should be paid for with funds in addition to, rather 
than at the expense of, existing WIA formula funds--in fiscal year 2011 
and beyond. We understand that this subcommittee's funding allocation 
will be extremely tight as a result of the President's call for a 
discretionary budget freeze. However, it should be noted that the 
President's budget request for WIA programs is 7 percent less in actual 
dollars than in fiscal year 2002, a time when the unemployment rate was 
less than half of what jobseekers are experiencing today.
    Goodwill believes that the workforce system is vastly underfunded 
and that the preservation of WIA's formula funding streams should be a 
high priority. Therefore, Goodwill urges Congress to sustain WIA's 
adult, dislocated worker, and youth funding streams at current funding 
levels at a minimum before dedicating funding to the administration's 
proposed WIA Innovation Fund.
VR Funding
    Goodwill Industries has a long history of helping people with 
disabilities to participate in the workforce despite the challenges 
their disabilities present. Years of inadequate funding for Vocational 
Rehabilitation have left the system stretched much too thin to serve 
all who are eligible for assistance. As a result, more than half of the 
80 State VR agencies have Orders of Selection, a provision within the 
Rehabilitation Act that requires State VR agencies, when faced with a 
shortage of funds to meet the demand for services, to prioritize the 
provision of services to eligible people based on the severity of 
people's disabilities. In addition, reduced funding for WIA has placed 
an additional strain on mandatory partner programs, including VR, which 
are being asked to contribute more funding to pay for infrastructure 
and other costs associated with the operation of one-stop centers.
    Goodwill Industries supports the President's intent to increase 
multi-system collaboration and support for youth with disabilities who 
are transitioning from education to the workforce. However, Goodwill is 
concerned that the President's fiscal year 2011 budget proposal would 
consolidate VR programs in order to achieve these goals. First, the 
President proposes to eliminate VR's supported employment State grant 
program to create a supported employment program for youth who are 
transitioning from education to the workforce. For more than two 
decades, Goodwill has offered supported employment as a part of its 
service array. According to GII's Annual Statistical Report, 
participation in local Goodwill agencies' supported employment programs 
has grown dramatically in recent years from providing 270,000 coaching 
sessions in 2007 to 630,000 sessions in 2009.
    Furthermore, the administration's budget proposes to eliminate 
funding for VR's Projects With Industry and the migrant and seasonal 
farmworker program. The administration asserts that services provided 
by these programs will continue under the VR State grants funds and 
would eliminate duplication. The resulting savings would be used to 
help pay for increased collaboration between the Department of 
Education, the Department of Labor and other agency heads. As noted 
earlier, Goodwill is intrigued by the administration's proposal to 
stimulate system collaboration by creating a Workforce Innovation Fund; 
however, Goodwill opposes paying for the Workforce Innovation Fund by 
eliminating or reducing funding for critical programs for people with 
barriers to employment. Therefore, Goodwill urges you to preserve 
funding for VR.
Senior Community Service Employment Program (SCSEP)
    According to the Bureau of Labor Statistics, the unemployment rate 
for older workers older 65 years old is at the highest levels since the 
Department started keeping records in 1948. The Senior Community 
Service Employment Program (SCESP) helps provide low-income older 
workers with community services employment and private sector job 
placements. Goodwill is one of the newest SCSEP grantees. In 2009, 
SCSEP participants contributed nearly 1.2 million community service 
hours and our private sector placements averaged a starting wage of 
$8.67 per hour. In addition, as a result of the Recovery Act, which 
allowed Goodwill to start enrolling more participants in April 2009, 
SCSEP participants provided and additional 140,000 community service 
hours and our private sector placements started at $8.31 per hour.
    Goodwill recognizes and very much appreciates the monumental 
investment that the Congress has placed on helping older workers to 
survive the economic crisis. Congress has demonstrated its commitment 
to older workers by providing an additional $120 million for SCSEP in 
the Recovery Act, and a $250 million increase in fiscal year 2010. 
These funds have allowed local Goodwill agencies to better address our 
waiting list of participants and help many more older workers with 
part-time employment.
    Goodwill is concerned that the President's budget seeks to cut this 
program by 27 percent, as these older workers have multiple barriers to 
employment and will be among the last rehired as the economy improves. 
Goodwill urges the subcommittee to reject the administration's proposed 
cuts to SCSEP. At a minimum Congress should sustain funding for SCSEP 
at its fiscal year 2010 level, $825 million, so that the program can 
continue to better meet the needs of the increasing number of low-
income older workers.
Green Jobs
    Goodwill believes that the green jobs sector has great potential 
for increasing employment opportunities in high-growth fields for 
people with employment barriers and many Goodwill agencies are helping 
workers learn skills that will help them secure jobs in energy 
efficiency and alternative energy industries. We greatly appreciated 
the subcommittee's inclusion of $500 million for sectoral initiatives 
focused on green-related industries in the Recovery Act, and are 
thrilled that Goodwill Industries International and four local Goodwill 
agencies have been selected by DOL to provide training and placement in 
the renewable energy and energy efficiency sectors. Goodwill urges you 
to appropriate $85 million for green jobs as requested by the 
administration.
Enforcement of Wage and Hour Standards
    Goodwill favors increased enforcement of the Fair Labor Standards 
Act, specifically section 14(c) which allows for the use of a special 
minimum wage certificate to employee individuals with disabilities that 
directly impair their productivity. As such, Goodwill supports the 
President's budget proposal of $244.2 million and 1,672 full-time 
employees for the Wage and Hour Division to support targeted 
investigations focusing on industries where misclassification is 
common.
    Goodwill thanks you for considering these requests, and looks 
forward to working with you to help government meet the serious 
challenges our Nation faces.
                                 ______
                                 
     Prepared Statement of the Hepatitis Appropriation Partnership
    The Hepatitis Appropriations Partnership (HAP) is a coalition that 
represents hepatitis community-based organizations, public health 
officials, health providers, national hepatitis and HIV organizations, 
and diagnostic, pharmaceutical and biotechnology companies. We work 
with policy makers and public health officials to increase Federal 
leadership and support for viral hepatitis prevention, testing, 
education, research, medical management, and treatment.
    As you craft the fiscal year 2011 Labor, Health and Human Services, 
and Education, and Related Agencies Appropriations legislation, we urge 
you to consider the following critical funding needs of viral hepatitis 
programs:
    Specific funding needs:
  --We are requesting an increase of $30.7 million for a total of $50 
        million for the Centers for Disease Control and Prevention 
        (CDC) Division of Viral Hepatitis (DVH);
  --At least $20 million for an adult hepatitis B vaccination 
        initiative through the CDC section 317 Vaccine Program;
  --$10 million for the Substance Abuse and Mental Health Services 
        Administration (SAMHSA) to fund a project within the Programs 
        of Regional and National Significance (PRNS) to reach persons 
        who use drugs with viral hepatitis prevention services;
    General funding needs:
  --Increase funding for Community Health Centers to increase their 
        capacity to serve people with chronic viral hepatitis;
  --Increase funding for the Ryan White Program to adequately cover 
        persons co-infected with viral hepatitis through additional 
        case management, provider education, and coverage of viral 
        hepatitis drug therapies;
  --Increase funding for the National Institutes of Health to support 
        their Action Plan for Liver Disease Research
                         specific funding needs
Division of Viral Hepatitis
  --Fiscal year 2011 request: $30.7 million
    The recently released Institute of Medicine (IOM) report, Hepatitis 
and Liver Cancer: A National Strategy for Prevention and Control of 
Hepatitis B and C found that the public health response needs to be 
significantly ramped up. The IOM report attributes low public and 
provider awareness to the lack of public resources. Seventeen of the 22 
recommendations in the report are specific to CDC DVH and State health 
departments. In order to implement these recommendations to improve the 
Federal response, resources must be increased to health departments 
which are the backbone of the Nation's public health system and 
coordinate the response to these epidemics.
    President Obama's budget proposal includes a $1.8 million increase 
for the DVH at CDC, which is woefully insufficient to address 
infectious diseases of this magnitude. While operating on the smallest 
Division budget for the prevention of infectious diseases within CDC, 
DVH will never be able to sufficiently prevent and manage these 
epidemics under its current fiscal constraints. States and cities 
receive an average funding award from DVH of $90,000. This is only 
enough for a single staff position and is not sufficient for the 
provision of core prevention services. These services are essential to 
preventing new infections, increasing the number of people who know 
they are infected, and following up to help those identified to remain 
healthy and productive. We believe this increase is an important first 
step to making hepatitis prevention services more widely available. The 
expanded services should include hepatitis B and C education, 
counseling, testing, and referral in addition to delivering hepatitis A 
and B vaccine, and establishing a surveillance system of chronic 
hepatitis B and C.
Section 317 Vaccine Program
  --Fiscal year 2011 request: $20 million
    CDC identified funds through program cost savings in the section 
317 Vaccine Program, allocating $20 million in fiscal year 2008 and $16 
million in fiscal year 2009 for purchase of the hepatitis B vaccine for 
high-risk adults. We commend CDC for prioritizing high-risk adults with 
this initiative, but relying on the availability of these cost savings 
is not enough. Additionally, this initiative does not support any 
infrastructure or personnel and health departments need additional 
funding to support the delivery of this vaccine. We request a 
continuation of $20 million in fiscal year 2011 for an adult hepatitis 
B vaccination initiative through the CDC's section 317 Vaccine Program.
Substance Abuse and Mental Health Services Administration
  --Fiscal year 2011 Request: $10 million
    Persons who use drugs are disproportionately impacted by hepatitis 
B and C. The Substance Abuse and Mental Health Services Administration 
(SAMHSA) Center for Substance Abuse Prevention (CSAP) and Center for 
Substance Abuse Treatment are uniquely positioned to reach populations 
at risk for hepatitis B and C. The existing infrastructure of substance 
abuse prevention and treatment programs in the United States provides 
an important opportunity to reach Americans at risk or living with 
viral hepatitis. We urge you to provide $10 million to SAMHSA to fund a 
project within the Programs of Regional and National Significance 
(PRNS) to reach persons who use drugs with viral hepatitis prevention 
services.
                         general funding needs
Medical Management and Treatment
    Access to available treatments and support services are critical to 
combat viral hepatitis mortality. While we are supportive of the 
President's efforts to modernize and expand access to healthcare, we 
also support increased funding for existing safety net programs. Low-
income patients who are uninsured or underinsured can and do seek 
services at Community Health Centers (CHCs). With the growing 
importance of CHCs as a safety net in providing frontline support for 
these individuals, we support increasing resources for CHCs to increase 
their capacity to serve people with chronic viral hepatitis.
    Many low-income individuals co-infected with viral hepatitis and 
HIV can obtain services through the Ryan White Program, however only 
half of the State AIDS Drug Assistance Programs (ADAPs) are able to 
provide viral hepatitis treatments to co-infected clients. We urge you 
to increase Ryan White funding so States can provide adequate coverage 
for co-infected clients. Increased resources are also needed to improve 
provider education on viral hepatitis medical management and treatment, 
to cover additional case management for patients undergoing treatment 
and to allow more States to add viral hepatitis therapies and viral 
load tests to their ADAP formularies. While Ryan White providers offer 
lifesaving care to co-infected clients, they also have the expertise 
and infrastructure to provide limited services to viral hepatitis mono-
infected clients.
Research
    Finally, research is needed to increase understanding of the 
pathogenesis of hepatitis B and C. Further research to improve 
hepatitis B and C treatments that are currently difficult to tolerate 
and have low ``cure'' rates are also needed. The development of 
clinical strategies to slow the progression of liver disease among 
persons living with chronic infection, especially to those who may not 
respond to current treatment must be addressed. With effective vaccines 
against hepatitis A and B, it is important to continue to work towards 
the development of a vaccine against hepatitis C infection. The Liver 
Disease Branch, located within the National Institute of Diabetes and 
Digestive and Kidney Diseases (NIDDK) at the National Institutes of 
Health (NIH), has developed an Action Plan for Liver Disease Research. 
We request full funding for NIH to support the recommendations and 
action steps outlined in this Action Plan for Liver Disease Research.
    It is absolutely essential and urgent that we act aggressively to 
address the threat of viral hepatitis in the United States. In 2007 
alone, the CDC estimated that 43,000 Americans were newly infected with 
hepatitis B and 17,000 with hepatitis C. Unfortunately, it is believed 
that these estimates of hepatitis B and C infections are just the tip 
of the iceberg. Most people living with hepatitis B and over three-
fourths of people living with hepatitis C do not know that they are 
infected. It is estimated that the baby boomer population currently 
accounts for 2 out of every 3 cases of chronic hepatitis C. It is also 
estimated that this epidemic will increase costs by billions of dollars 
to our private insurers and public systems of health such as Medicare 
and Medicaid, and account for billions lost due to decreased 
productivity from the millions of American workers suffering from 
chronic hepatitis B and C.
    As you continue to draft the fiscal year 2011 Labor, Health and 
Human Services, and Education, and Related Agencies Appropriations 
bill, we ask that you consider a generous increase for viral hepatitis 
prevention to counter several years of flat or inadequate growth in 
funding. A strong public health response is needed to meet the 
challenges of these costly infectious diseases. The viral hepatitis 
community welcomes the opportunity to work with you and your staff on 
this important issue.
                                 ______
                                 
            Prepared Statement of the Hepatitis B Foundation
    Mr. Chairman, my name is Dr. Timothy Block, and I am the President 
and Co-Founder of the Hepatitis B Foundation (HBF) and its research 
institute, the Institute for Hepatitis and Virus Research. I also serve 
as the president of the Pennsylvania Biotechnology Center and am a 
professor at Drexel University College of Medicine. My wife Joan, and 
I, and another couple, Paul and Janine Witte, from Pennsylvania started 
HBF almost 20 years ago to find a cure for this serious chronic liver 
disease and provide information and support to those affected.
    Thank you for giving HBF the opportunity to provide testimony to 
the subcommittee as you begin to consider funding priorities for fiscal 
year 2011. We are grateful to the members of this subcommittee for 
their interest and strong leadership for efforts to control and find 
cures for hepatitis B.
    Today, the HBF is the only national nonprofit organization solely 
dedicated to finding a cure and improving the lives of those affected 
by hepatitis B worldwide through research, education, and patient 
advocacy. Our scientists focus on drug discovery for hepatitis B and 
liver cancer, and early detection markers for liver cancer. HBF staff 
manages a comprehensive Web site which receives almost 1 million 
visitors each year, a national patient conference and outreach 
services. HBF public health professionals conduct research initiatives 
to advance our mission.
    The hepatitis B virus (HBV) is the world's major cause of liver 
cancer--and while other cancers are declining, liver cancer is the 
fastest growing in incidence in the United States. Without 
intervention, as many as 100 million worldwide will die from a HBV-
related liver disease, most notably liver cancer. In the United States, 
up to 2 million Americans have been chronically infected and more than 
5,000 people die each year from complications due to HBV.
    HBV is 100 times more infectious than the HIV/AIDS virus. Yet, 
hepatitis B can be prevented with a safe and effective vaccine. 
Unfortunately, for those who are chronically infected with HBV, the 
vaccine is too late. There are, however, promising new treatments for 
HBV. We are getting close to solutions but lack of sustained support 
for public health measures and scientific research is threatening 
progress. The growing incidence of liver cancer, while most other 
cancer rates are on the decline, represents examples of serious 
shortcomings in our system. In the United States, 20,000 babies are 
born to mothers infected with HBV each year, and as many as 1,200 
newborns will be chronically infected with HBV. More needs to be done 
to prevent new infections.
                   institute of medicine (iom) report
    In January of this year, the Institute of Medicine (IOM) issued a 
report titled Hepatitis and Liver Cancer: A National Strategy for 
Prevention and Control of Hepatitis B and C. This report outlined a 
national strategy for prevention and control of hepatitis B and C. The 
report concludes that the current approach to the prevention and 
control of viral hepatitis is not working and unless further action is 
taken thousands more Americans will die each year from liver cancer, or 
liver disease associated with these preventable diseases. In response 
to this monumental report, the Department of Health and Human Services 
Office of the Secretary has convened an inter-departmental task-force 
to address the public health challenge of viral hepatitis. HBF is very 
supportive of the Task Force and is hopeful that their recommendations 
will result in actions to address the chronic underfunding of viral 
hepatitis prevention programs within the Department.
    Mr. Chairman, as you know the two Federal agencies that are 
critical to the effort to help people concerned with hepatitis B are: 
the Centers for Disease Control and Prevention (CDC), and the National 
Institutes of Health CDC (NIH).
                                  cdc
    CDC's Division of Viral Hepatitis (DVH), the centerpiece of the 
Federal response to controlling, reducing, and preventing the suffering 
and deaths resulting from viral hepatitis, is chronically underfunded. 
DVH is included in the National Center for HIV/AIDS, Viral Hepatitis, 
STD, and TB Prevention at the CDC, and is responsible for the 
prevention and control of viral hepatitis. DVH is currently funded at 
$19.3 million, $6 million less than its funding level in fiscal year 
2003, which does not allow for the provision of core prevention 
services. The HBF joins the hepatitis community and urges a fiscal year 
2011 funding level for DVH of $50 million.
    The responsibility for addressing the problem of hepatitis should 
not lie solely with the DVH . In view of the preventable nature of 
these diseases, HBF feels that the National Center for Chronic Disease 
Prevention should also include a targeted effort focused on the 
prevention of chronic viral hepatitis which adversely impacts 5 million 
Americans. We urge that the subcommittee include $2 million in the 
National Center for Chronic Disease Prevention to initiate a focused 
program on chronic viral hepatitis.
    Furthermore, there are 400 million people chronically infected with 
hepatitis B worldwide, with more than 120 million of these individuals 
in China. While hepatitis B transmission requires direct exposure to 
infected blood, worldwide misinformation about the disease has fueled 
inappropriate discrimination against individuals with this vaccine-
preventable bloodborne and treatable disease. HBF urges the 
subcommittee to instruct the CDC to initiate global programs to 
increase the rate of vaccination, reduce mother-child transmission, and 
promote educational programs to prevent the disease and to reduce 
discrimination targeted against individuals with the disease.
                                  nih
    We depend upon the NIH to fund research that will lead to new and 
more effective interventions to treat people with hepatitis B and liver 
cancer. HBF joins with the Ad Hoc Group for Biomedical Research and 
requests a funding level of $35 billion for NIH in fiscal year 2011.
    We thank the subcommittee for their continued investment in NIH in 
fiscal year 2010. Sustaining progress in medical research is essential 
to the twin national priorities of smarter healthcare and economic 
revitalization. With additional investment, the Nation can seize the 
unique opportunity to build on the tremendous momentum emerging from 
the strategic investment in NIH made through the 2009 American Recovery 
and Reinvestment Act (ARRA). NIH invested those funds in a range of 
potentially revolutionary new avenues of research that will lead to new 
early screenings and new treatments for disease.
    In fiscal year 2009, NIH spent approximately $57 million on 
hepatitis B funding overall (ARRA and non-ARRA funds), and estimates 
that in fiscal year 2010 $54 million will be spent. An additional $40 
million per year could make transformational advances in research 
leading to better treatments for HBV. The HBF recommends that an 
additional $40 million be allocated for HBV research in fiscal year 
2010 and that overall NIH funding total $35 billion.
    The current leadership of the NIH has performed admirably with the 
limited resources they are provided; however, more is needed. While a 
number of cancers have achieved 5-year survival rates of over 80 
percent and the average 5-year survival rate for all cancers has 
increased from 50 percent in 1971 to 66 percent, significant challenges 
still remain for other types of cancers, particularly the most deadly 
forms of cancer. In fact, nearly half of the 562,340 cancer deaths in 
2009 were caused by eight forms of cancer with 5-year relative survival 
rates of less than 50 percent: ovary (45.5 percent), brain (35.0 
percent), myeloma (34.9 percent), stomach (24.7 percent), esophagus 
(15.8 percent), lung (15.2 percent), liver (11.7 percent), and pancreas 
(5.1 percent). It is no coincidence that cancers with significantly 
better 5-year survival rates, such as breast, prostate, colon, 
testicular, and chronic myelogenous leukemia, also have early detection 
tools, and in many cases, several effective treatment options thanks to 
research programs championed and supported by Congress. By contrast, 
research into the cancers with the lowest 5-year survival rates has 
been relatively underfunded, and as a result, these cancers have no 
early detection or treatment tools.
    HBF requests that the establishment of a targeted cancers program 
at the National Cancer Institute (NCI) for the high-mortality cancers. 
It should include a strategic plan for progress, an annual report from 
NCI to Congress, and a new grant program specifically focused on the 
deadly cancers. Additionally, HBF urges a stronger focus on liver 
cancer and urges the funding of a series of Specialized Programs of 
Research Excellence (SPOREs) focused on liver cancer. While SPOREs 
currently exist for every other major cancer, none currently exist that 
are focused on liver cancer.
                         summary and conclusion
    While the HBF recognizes the demands on our Nation's resources, we 
believe the ever-increasing health threats and expanding scientific 
opportunities continue to justify higher funding levels for the CDC's 
DVH and NIH.
    Significant progress has been made in developing better treatments 
and cures for the diseases that affect humankind due to your leadership 
and the leadership of your colleagues on this subcommittee. Significant 
progress has also similarly been made in the fight against hepatitis B.
    In conclusion, we specifically request the following for fiscal 
year 2011:
  --Fund the CDC's DVH at $50 million;
  --$2 million in the National Center for Chronic Disease Prevention to 
        initiate a focused program on chronic viral hepatitis;
  --Initiate global programs at the CDC to increase the rate of 
        vaccination, reduce mother-child transmission and promote 
        educational programs to prevent the disease and to reduce 
        discrimination targeted against individuals with the disease;
  --Provide $35 billion for NIH, including a $40 million increase per 
        year for hepatitis B research;
  --Establish a targeted cancers program at the NCI; and
  --Fund a series of Specialized Programs of Research Excellence 
        (SPOREs) focused on liver cancer at the NCI.
    HBF appreciates the opportunity to provide testimony to you on 
behalf of our constituents and yours.
    Thank you.
                                 ______
                                 
 Letter From the HIV Health and Human Services Planning Council of New 
                                  York
                                                    April 16, 2010.
Hon. Tom Harkin,
Subcommittee on Labor, Health and Human Services, and Education, and 
        Related Agencies, Washington, DC.
    Dear Senator Harkin: On behalf of the HIV Health and Human Services 
Planning Council of New York City, I write to urge you to increase 
funding for Ryan White Programs by $810.5 million more than the fiscal 
year 2010 appropriated levels in the fiscal year 2011 Labor, Health and 
Human Services, and Education, and Related Agencies; Transportation and 
Housing and Urban Development, and Related Agencies; and Financial 
Services and General Government appropriations bills.
    The HIV Health and Human Services Planning Council of New York is 
comprised of people living with HIV/AIDS, advocates, physicians, and 
service providers and prioritizes the allocation of Ryan White funds 
for treatment and care services for PLWHAs. Council Members are well 
versed in the challenges confronting people living with this illness 
and know that Ryan White HIV/AIDS Programs provide life-extending 
medical care, mental health and drug treatment, and support services to 
approximately 577,000 low-income, uninsured and underinsured 
individuals and families affected by HIV/AIDS each year. Your proposed 
fiscal year 2011 budget requests $2.33 billion for the Ryan White 
Program, but Planning Council members believe that more funding is 
needed in order to maintain a comprehensive system of care. 
Specifically, Planning Council members recommend the following 
increases:
  --Part A.--An increase of $225.9 million for grants to eligible 
        metropolitan areas and transitional grant areas;
  --Part B.--An increase of $55.9 million for care grants to State, 
        territories, and emerging communities;
  --Part B AIDS Drug Assistance Program.--An increase of $370.1 million 
        to provide life-saving medications to more than 166,000 
        individuals already enrolled in the program and the hundreds 
        that are currently on waiting lists in 11 States;
  --Part C.--An increase of $131 million for early intervention 
        services and capacity development grants;
  --Part D.--An increase of $7 million for women, infants, youth, and 
        their families;
  --Part F/Dental.--An increase of $5.4 million for Dental School 
        Reimbursement Programs and the Community-Based Dental 
        Partnership Program; and
  --Part F/AETC.--An increase of $15.2 million for AIDS Education and 
        Training Centers.
    My fellow Planning Council members join me in thanking you for your 
support and commitment to improving the lives of people living with 
HIV/AIDS and strongly encourage you to increase the amount of money to 
support treatment and care services.
            Sincerely yours,
                                   Charles W. Shorter, MSW,
                                                Community Co-Chair.
                                 ______
                                 
           Prepared Statement of the HIV Medicine Association
    The HIV Medicine Association (HIVMA) of the Infectious Diseases 
Society of America represents more than 3,700 physicians, scientists 
and other healthcare professionals who practice on the frontline of the 
HIV/AIDS pandemic. Our members provide medical care and treatment to 
people with HIV/AIDS throughout the United States, lead HIV prevention 
programs and conduct research to develop effective HIV prevention and 
treatment options. We work in communities across the country and around 
the globe as medical providers and researchers dedicated to the field 
of HIV medicine. We appreciate the fiscal challenges that Congress 
currently faces, but the state of the economy makes it imperative that 
our Nation have a strong healthcare safety net, effective programs for 
preventing infectious diseases like HIV and a vibrant scientific 
research agenda.
    The U.S. investment in HIV/AIDS programs has revolutionized HIV 
care globally making HIV treatment one of the most effective medical 
interventions available. A robust research agenda and rapid public 
health implementation of scientific findings have transformed the HIV 
epidemic, reducing morbidity and mortality due to HIV disease by nearly 
80 percent in the United States. The Ryan White program has played a 
critical role in ensuring that many low-income people with HIV have 
access to lifesaving HIV treatment. However, the impact of our 
diminished investment in public health and research programs over the 
last several years has taken its toll in communities across the 
country. HIV clinics are cutting hours and services while the number of 
their new HIV patients continues to increase dramatically in some 
areas.
    Implementation of healthcare reform and the administration's plans 
for a National HIV/AIDS Strategy offer promise for making significant 
progress in reducing the impact of the domestic HIV epidemic. However, 
their success will depend on adequate investments in shoring up the 
frayed healthcare safety net, prevention and public health and research 
programs. The funding requests in our testimony largely reflect the 
consensus of the Federal AIDS Policy Partnership, a coalition of HIV 
organizations from across the country, and are estimated to be the 
amounts necessary to sustain and strengthen our investment in combating 
HIV disease.
Center for Disease Control and Prevention's (CDC) National Center for 
        HIV/AIDS, Viral Hepatitis, STD, and TB Prevention (NCHHSTP)
    HIVMA strongly supports an increase of $1.13 billion in funding for 
the CDC's NCHHSTP with an increase of $878 million for HIV prevention 
and surveillance, an increase of $30.7 million for viral hepatitis and 
$76.3 million for tuberculosis prevention.
    Every 9\1/2\ minutes a new HIV infection happens in the United 
States with more than 60 percent of new cases occurring among African 
Americans and Hispanic/Latinos. Despite the known benefit of effective 
treatment, 21 percent of people living with HIV in the United States 
are still not aware of their status and as many as 36 percent of people 
newly diagnosed with HIV progress to AIDS within 1 year of diagnosis. 
An infusion of HIV prevention funding is critical to restore and 
enhance HIV prevention programs by increasing support for cooperative 
agreements with State and local health departments; optimizing core 
surveillance cooperative agreements with health departments and 
expanding HIV testing in key healthcare and nonhealthcare venues by 
funding testing infrastructure and the purchase of approved testing 
devices, including rapid HIV tests and confirmatory testing and 
supporting linkage to care. A failure to invest now in HIV prevention 
will be costly. The CDC estimates that the 56,300 new HIV infections 
each year in the United States may result in $56 billion in medical 
care and lost productivity.
    While we appreciate that the President proposed a $31 million 
increase for HIV prevention at the CDC, a much more robust investment 
is needed to significantly reduce the number of new HIV occurring 
annually in the United States. We strongly support the CDC initiative 
to integrate HIV screening into medical care as an important component 
of the prevention portfolio. Increased HIV screening with linkage to 
care and treatments will help lower HIV incidence and prevalence in the 
United States. Effective treatment reduces the virus to very low levels 
in the body, and there is a growing body of evidence suggesting that 
treatment can reduce risk of HIV transmission. Furthermore through 
education, counseling and treatment, individuals who are aware that 
they have HIV are more likely to adopt behaviors to prevent 
transmission of the virus. The transmission rates among people who know 
their status is 1.7 percent to 2.4 percent compared to transmission 
rates of 8.8 percent to 10.8 percent for those who are unaware they are 
infected with HIV. A significant investment of Federal resources is 
necessary to support State health departments, medical institutions, 
community health centers and other community based organizations with 
implementing these programs and for their full potential to be 
realized--particularly in light of steep State budget cuts.
    Identifying people with HIV earlier through routine HIV testing and 
linking them to HIV care saves lives and also is more cost effective 
for the healthcare system. One study found that people living with HIV 
disease receiving care at the later stages of the disease expended 2.6 
times more in healthcare dollars than those receiving treatment 
according to the standard of care recommended in the Federal HIV 
treatment guidelines.
    Finally, we also must increase support for science-based, 
comprehensive sex education programs. We are pleased that Congress took 
important steps in the fiscal year 2010 appropriations process to 
discontinue funding for unproven abstinence-only sex education programs 
and shift those funds to support comprehensive, age-appropriate sex 
education programs. We also support shifting administration of those 
funds to the Department of Health and Human Services' Office of 
Adolescent Health. However, we are concerned that by focusing the 
funding on teenage pregnancy prevention alone, and not including the 
equally important health issues of STIs and HIV, both the 
administration and Congress missed an opportunity to provide true, 
comprehensive sex education that promotes healthy behaviors and 
relationships for all young people, including lesbian, gay, bisexual, 
and transgender youth. We urge the subcommittee to adopt report 
language that broadens the scope of the new teen pregnancy prevention 
program to include an explicit focus on prevention of STDs including 
HIV.
CDC--Tuberculosis
    Tuberculosis is the major cause of AIDS-related mortality 
worldwide. Two years ago, Congress passed landmark legislation in the 
Comprehensive Tuberculosis Elimination Act of 2008. This bill 
authorizes a number of actions that will shore up State TB control 
programs, enhance U.S. capacity to deal with the serious threat of 
drug-resistant tuberculosis, and escalate our efforts to develop 
urgently needed ``tools,'' such as drugs, diagnostics and vaccines. 
Realizing these goals will require additional resources. Unfortunately, 
the Administration has proposed a cut of $1.2 million for domestic TB 
control. At a minimum, it is critical that the authorized funding level 
of $220.5 million be appropriated for the CDC Division of TB 
Elimination. The bill also separately authorized $100 million for 
development of TB diagnostics, treatments and prevention tools, which 
HIVMA also supports for inclusion in fiscal year 2011 appropriations.
    Two years ago, Congress passed landmark legislation--the 
Comprehensive Tuberculosis Elimination Act of 2008--Public Law 110-873 
that authorizes a number of actions that will shore up State TB control 
programs, enhance U.S. capacity to deal with the serious threat of 
drug-resistant tuberculosis and escalate our efforts to develop 
urgently needed new ``tools'' in the form of drugs, diagnostics and 
vaccines. It is critical that the $220.5 million in funding authorized 
for fiscal year 2011 in this important law is appropriated for the CDC 
Division of TB Elimination. This represents an increase of $76.3 
million more than current funding levels. Funding to support the 
prevention, control and elimination of tuberculosis must increase 
substantially if we are going to make headway against this deadly 
disease and to address the emerging threat of highly drug resistant 
tuberculosis.
CDC--Viral Hepatitis
    Funds are urgently needed to provide core public health services 
and to track chronic cases of hepatitis. Hepatitis is a serious co-
infection for nearly one-third of our HIV patients. We strongly urge 
you to boost funding for viral hepatitis at the CDC by $31 million for 
a total funding of $50 million.
HIV/AIDS Bureau of the Health Resources and Services Administration
    We strongly urge you to increase funding for the Ryan White program 
by $811 million in fiscal year 2011 with at least an increase of $131 
million for part C for a total Ryan White appropriation of $3.1 
billion. Ryan White Part C funds comprehensive HIV care and treatment--
the medical services that are directly responsible for the dramatic 
decreases in AIDS-related mortality and morbidity over the last decade. 
While the patient caseload in part C programs has been rising, funding 
for part C has effectively decreased due to flat funding and funding 
cuts at the clinic level. Part C programs expect a continued increase 
in patients due to higher diagnosis rates and economic-related declines 
in insurance coverage. During this economic downturn people with HIV 
across the country are relying on part C comprehensive services more 
than ever. The HIV medical clinics funded through part C have been in 
dire need of increased funding for years, but new pressures are 
creating a crisis in communities across the country. An increase in 
funding is critical to prevent additional staffing and service cuts and 
ensure the public health of our communities.
    Minimal annual increases in Ryan White Part C allocations have 
lagged behind rapid cost increases in all aspects of healthcare 
delivery programs, leaving part C programs operating at a deficit while 
struggling to meet growing patient need. Part C programs provide 
comprehensive primary care to more than 240,000 HIV patients--which 
represents an increase of more than 30 percent in less than 10 years. 
Part C clinics are laying off staff, curtailing critical services such 
as laboratory monitoring, creating waitlists, and operating on a 4-day 
work week just to get by. For fiscal year 2011, HIVMA joins the Ryan 
White Medical Provider Coalition, The CAEAR Coalition, and the American 
Academy of HIV Medicine to request a $131 million funding increase for 
Part C programs. These funds are urgently needed to provide HIV care 
and treatment to Part C patients nationwide. HIVMA strongly supports 
the effort led by the Ryan White Medical Providers Coalition to double 
funding for Ryan White Part C programs by fiscal year 2012. These funds 
are critical to meet the needs of HIV patients served by Part C 
programs around the country.
Agency for Health Care Quality and Research (AHRQ)
    HIVMA strongly urges full funding of $1.95 million for the HIV 
Research Network (HIVRN), which represents the only significant HIV 
work being done at AHRQ. The HIVRN is a consortium of 18 HIV primary 
care sites co-funded by AHRQ and HRSA to evaluate healthcare 
utilization and clinical outcomes in HIV infected children, adolescents 
and adults in the United States. The Network analyzes and disseminates 
information on the delivery and outcomes of healthcare services to 
people with HIV infection. These data help to improve delivery and 
outcomes of HIV care in the United States and to identify and address 
disparities in HIV care that exist by race, gender, and HIV risk 
factor. The HIVRN is a unique source of information on the cost and 
cost-effectiveness of HIV care in the United States at a time when data 
on comparative cost and effectiveness of healthcare is particularly 
needed to inform health systems reform and the development and 
implementation of a National HIV/AIDS Strategy. The HHS budget retained 
the HRSA share of HIVRN funding ($.4 million), but inexplicably zeroed 
out the AHRQ funding for the program, without any policy rationale for 
eliminating it.
National Institutes of Health (NIH)--Office of AIDS Research
    HIVMA strongly supports an increase of at least $4 billion for all 
research programs at the NIH, including at least a $500 million 
increase for the NIH Office of AIDS. This level of funding is vital to 
sustain the pace of research that will improve the health and quality 
of life for millions of Americans. HIVMA strongly supported the 
infusion of NIH research dollars included in the economic recovery 
bill. The desperately needed funding came at a critical time to sustain 
our Nation's scientific research capacity while stimulating the economy 
in communities across the country. Prior to the boost in NIH funding, 
the declining U.S. investment in biomedical research had taken its toll 
in deep cuts to clinical trials networks and significant reductions in 
the numbers of high-quality, investigator-initiated grants that were 
approved. With only 1 in 4 research applications receiving funding, the 
pipeline for critical discoveries and HIV scientists has been dwindling 
and our role as a leader in biomedical research is at serious risk.
    Our past investment in a comprehensive portfolio was responsible 
for the dramatic gains that we made in our HIV knowledge base, gains 
that resulted in reductions in mortality from AIDS of nearly 80 percent 
in the United States and in other countries where treatment is 
available. Gains that also helped us to reduce the mother to child HIV 
transmission rate from 25 percent to nearly 1 percent in the United 
States and to very low levels in other countries where treatment is 
available.
    A continued robust AIDS research portfolio is essential to sustain 
and to accelerate our progress in offering more effective prevention 
technologies; developing new and less toxic treatments; and supporting 
the basic research necessary to continue our work developing a vaccine 
that may end the deadliest pandemic in human history. The sheer 
magnitude of the number of people affected by HIV--more than 1 million 
people in the United States; more than 33 million people globally--
demands a continued investment in AIDS research if we are going to 
truly eradicate this devastating disease. We believe a high priority 
should be research to discover novel prevention strategies, to improve 
available treatment strategies, to aid prevention and to maximize the 
benefits of antiretroviral therapy, especially in the populations 
disproportionately affected by HIV in the United States and in 
resource-limited settings.
    Historically, our Nation has made significant strides in responding 
to the HIV pandemic here at home and around the world, but we have lost 
ground in recent years, particularly domestically, as funding 
priorities have shifted away from public health and research programs. 
We appreciate the many difficult decisions that Congress faces this 
year, but urge you to recognize the importance of investing in HIV 
prevention, treatment and research now to avoid the much higher cost 
that individuals, communities and broader society will incur if we fail 
to support these programs. We must seize the opportunity to limit the 
toll of this deadly infectious disease on our planet and to save the 
lives of millions who are infected or at risk of infection here in the 
United States and around the globe.
                                 ______
                                 
Prepared Statement of the Hepatitis Outbreaks National Organization for 
                          Reform (HONOReform)
    Mr. Chairman and members of the subcommittee: As President and Co-
Founder of Hepatitis Outbreaks National Organization for Reform 
(HONOReform), I want to take this opportunity to thank you for the 
leadership role this subcommittee has played on healthcare acquired 
infections (HAIs). HONOReform is a nonprofit foundation that advances 
the lessons learned in hepatitis outbreaks and seeks to prevent future 
healthcare-associated hepatitis epidemics through education and policy 
reform.
    The Centers for Disease Control and Prevention (CDC) estimates 
there are 1.7 million infections resulting in approximately 99,000 
deaths annually in the United States, making HAIs the fourth-leading 
cause of death. Beyond the human toll, there is an enormous financial 
burden to our healthcare system.
    We are deeply concerned with the rise in the number of disease 
outbreaks related to the reuse of syringes and misuse of multidose 
vials in the outpatient setting. In the January 2009 edition of the 
Annals of Internal Medicine, an article by the CDC, revealed the 
occurrence of 33 outbreaks of viral hepatitis in healthcare settings 
over the last decade. All of these documented outbreaks occurred in 
nonhospital settings and involved failure on the part of healthcare 
providers to adhere to basic infection control practices, most notably 
by reusing syringes and other equipment intended for single use.
    I am a victim of what was the largest single source outbreak of 
hepatitis C in U.S. history, until 2008 when an outbreak that 
potentially exposed more than 63,000 patients to hepatitis C occurred 
in Las Vegas, Nevada. In 2001, I contracted hepatitis C through an 
oncology clinic (nonhospital setting), in Fremont, Nebraska as I was 
fighting to survive breast cancer for the second time. Ninety-eight 
other patients from the oncology clinic became infected with hepatitis 
C. The nurse would reuse the syringe for port flushes, which would then 
contaminated a 500cc saline bag. The saline bag was used for other 
patients, which in turn became the source of infection for multiple 
cancer patients. This improper practice was repeated on a regular basis 
over a 2-year period.
    I utilized my malpractice settlement to establish HONOReform in 
2007 to put an end to these completely preventable outbreaks. More than 
100,000 patients seeking healthcare and treatment have received letters 
notifying them of potential exposure to hepatitis and HIV due to 
improper injection practices in the last 10 years. In April 2009, two 
outbreaks in New Jersey, a cancer clinic and hospital, and an outbreak 
at a South Dakota outpatient urology clinic, conducted large patient 
notifications which further illustrates that this problem requires 
immediate action to protect the citizens that are accessing our 
healthcare system each day.
    Moreover, these hepatitis outbreaks are entirely preventable when 
healthcare providers adhere to proper infection control procedures. A 
2002 study by the American Association of Nurse Anesthetists (AANA) 
found that 1 percent of practitioners felt it was acceptable to reuse a 
syringe for multiple patients and more than 30 percent of healthcare 
providers believed it was acceptable to reuse a syringe on the same 
patient if the needle is changed.
    Mr. Chairman, beyond the significant risk posed to the physical 
health of patients, even the receipt of a notification of potential 
exposure can cause significant mental anguish and lead to an even 
greater danger--a loss of faith in the medical system by the public. 
Victims feel that they have been personally violated and betrayed by 
those to whom they entrusted their health. We, as a Nation, cannot 
afford to ignore the issue and hope it goes away.
    Through its foundation, HONOReform has joined forces with the 
Accreditation Association for Ambulatory Health Care, AANA, Association 
for Professionals in Infection Control and Epidemiology, Ambulatory 
Surgery Foundation, Becton, Dickinson and Company, CDC, CDC Foundation, 
Nebraska Medical Association, and the Nevada State Medical Association, 
to establish the One & One Campaign. The One & Only Campaign, which is 
currently being piloted in New York and Nevada, is an effort aimed at 
re-educating healthcare providers that syringes and other medical 
equipment must not be reused and empowering patients to ask the right 
questions when seeking healthcare. If patients are knowledgeable about 
injection safety, they will be empowered to speak up in their 
provider's office to ask if they are getting ``One Needle, One Syringe, 
and Only One Time.''
    Each of these requests will have a profound impact on all patients 
and consumers. They are aimed at reducing the knowledge gap for 
providers, empowering patients, tracking HAIs to limit the spread of 
disease, and improving the quality and standards of care in our 
Nation's ambulatory care facilities. By focusing on prevention, this 
subcommittee can realize savings for healthcare systems and promote 
increased patient safety for all Americans.
    Mr. Chairman, we respectfully request that the subcommittee 
continue supporting prevention efforts at CDC, and HHS to help prevent 
future hepatitis and HIV outbreaks through the following two fiscal 
year 2011 appropriations requests:
Supporting CDC's Division of Healthcare Quality and Promotion
    HONOReform requests $26 million for CDC Division of Healthcare 
Quality and Promotion to address outbreaks and promote innovative ways 
to adhere to injection safety and infection control guidelines.
    The CDC provides national leadership in surveillance, outbreak 
investigations, laboratory research, and prevention of healthcare-
associated infections. The transition of healthcare delivery from 
primarily acute care hospitals to other healthcare settings (e.g., home 
care, ambulatory care, free-standing specialty care sites, long-term 
care) requires that common principles of infection control practice be 
applied to the spectrum of healthcare delivery settings. In light of 
the recent healthcare-associated transmissions of HCV in Denver, 
Colorado, Las Vegas, Nebraska, North Carolina, New York City, Long 
Island, and Grand Rapids, Michigan, the CDC needs additional resources 
to use the knowledge gained through these activities to detect 
infections and develop new strategies to prevent healthcare-associated 
transmission of blood borne pathogens.
Provider Education and Awareness ($5 million)
    Funds to develop safe practice tools for additional inpatient and 
outpatient healthcare settings in conjunction with key partners and 
stakeholders. This will include training tools to be used by 
professional organizations and accreditation and licensing groups to 
increase adherence to recommendations. Funds will assist in 
dissemination and use of tools to aid in implementing State HAI Action 
Plans. Funds to expand the One & Only injection safety education and 
awareness campaign, provide educational materials to all 50 States 
through State health departments' HAI coordinators implement a national 
media launch to promote awareness of the One & Only Campaign in 
collaboration with the Safe Injection Practices Coalition and State 
health departments; and evaluate the impact of the Campaign. Funds to 
expand implementation of CMS surveys of injection safety practices in 
ambulatory surgical centers to all outpatient settings.
Engineering and Innovation ($7 Million)
    Funds to support the CDC in promoting private-sector and academic 
healthcare solutions to injection safety and infection control 
problems. This funding will enable the CDC to engage with industry and 
academia through extramural grant mechanisms to:
  --Examine current technologies and practices that eliminate the risk 
        of human error through unsafe injection practices;
  --Identify and develop fast tracked safety engineered-solutions for 
        next generation products; and
  --Demonstrate effectiveness of new technology to support inclusion in 
        Federal guidelines.
Detection, Tracking, and Response ($14 million)
    Funds to expand augmentation of CMS survey capacity in outpatient 
settings to strengthen State capacity to detect infections that 
indicate errors in injection practices. These funds will enable the 
CDC, in collaboration with CMS, to expand surveillance in States by 
providing training tools for surveyors, health department staff and 
epidemiologists to improve methods of monitoring adherence to correct 
practices and to provide tools for investigation, response and 
intervention strategies. Funds to assist State and local health 
departments implement State HAI Action Plans, including detection and 
tracking in order to investigate outbreaks of healthcare-associated 
infections and other adverse events related to injection safety.
    Funds to enable the CDC to provide assistance and respond to 
outbreaks resulting from the re-use of syringes as requested by health 
departments and health systems. Funds to the CDC to develop CDC 
Toolkits of best practices for patient notifications and 
postnotification support and best practices for investigations and 
detecting clusters of outbreaks, to be used by State and local health 
departments and healthcare systems.
Encouraging HHS To Focus on HAIs in the Outpatient Setting
    HONOReform requests $1 million for the Department of Health and 
Human Services (HHS) to expand its current focus for reducing HAIs from 
hospitals to outpatient settings with the development of an action plan 
to reduce HAIs in outpatient settings with a specific focus on 
injection safety. HONOReform is concerned with the number of HAIs 
occurring in office-based settings, such as ambulatory care centers, 
infusion centers, and endoscopy clinics, due to a lack of adherence to 
basic infection control procedures. In 2 years, more than 150,000 
patients in the United States have received ominous letters from public 
health officials warning of possible exposure to deadly diseases like 
hepatitis and HIV because their providers failed to follow fundamental 
safety measures.
    The increased frequency of such outbreaks was highlighted in the 
February 2010 article, ``U.S. Outbreak Investigations Highlight the 
Need for Safe Injection Practices and Basic Infection Control'', 
published in Clinics in Liver Disease. The article attributed these 
outbreaks to lapses in basic infection control (i.e., syringe reuse and 
misuse of single dose and multidose vials).
HAIs in the Outpatient Setting ($1 million)
    Funds to expand HHS' current focus for reducing healthcare-
associated infections (HAIs) from hospitals to outpatient settings with 
the development and implementation of an action plan to reduce HAIs in 
unlicensed outpatient settings and Health Resources and Services 
Administration Community Care Centers including a specific focus on 
injection safety. Funds to increase education, certifications, and 
continuing education of medical, nursing, and allied health 
professionals, including State-based certification, related to 
injection safety.
                                 ______
                                 
  Prepared Statement of the Health Professions and Nursing Education 
                               Coalition
    The members of the Health Professions and Nursing Education 
Coalition (HPNEC) are pleased to submit this statement for the record 
in support of $600 million in fiscal year 2011 for the health 
professions education programs authorized under titles VII and VIII of 
the Public Health Service Act and administered through the Health 
Resources and Services Administration (HRSA). HPNEC is an informal 
alliance of more than 60 national organizations representing schools, 
programs, health professionals, and students dedicated to ensuring the 
healthcare workforce is trained to meet the needs of our diverse 
population.
    As you know, the title VII and VIII health professions and nursing 
programs are essential components of the Nation's healthcare safety 
net, bringing healthcare services to our underserved communities. These 
programs support the training and education of healthcare providers to 
enhance the supply, diversity, and distribution of the healthcare 
workforce, filling the gaps in the supply of health professionals not 
met by traditional market forces. Through loans, loan guarantees, and 
scholarships to students, and grants and contracts to academic 
institutions and nonprofit organizations, the title VII and VIII 
programs are the only Federal programs designed to train providers in 
interdisciplinary settings to meet the needs of special and underserved 
populations, as well as increase minority representation in the 
healthcare workforce.
    We are thankful to the subcommittee for the increases provided for 
many title VII and title VIII programs in the fiscal year 2010 Omnibus 
Appropriations bill (Public Law 111-117). These investments are crucial 
to addressing the existing and looming shortages of healthcare 
professionals in this country and are key to ensuring the Nation's 
healthcare professionals are able to care for the medically 
underserved. The Patient Protection and Affordable Care Act (Public Law 
111-148) updated and restructured the existing title VII and title VIII 
programs to improve their efficiency, effectiveness, and 
accountability, and reauthorized them at funding levels reflective of 
the health workforce needs of the Nation. In addition to reauthorizing 
the existing health professions programs, the legislation authorizes 
several new programs and initiatives under titles VII and VIII designed 
to mitigate health workforce challenges and expand the scope of the 
programs to additional fields. HPNEC encourages an investment in these 
new programs that supplements the support for the core title VII and 
title VIII programs. These investments will be critical to ensuring 
that the healthcare workforce can accomplish the goals of healthcare 
reform.
    We are grateful to President Obama for highlighting the need to 
strengthen the health professions workforce as a national priority; 
however, significant strides must still be made to ensure that all 
Americans have access to the health professionals they need. According 
to HRSA, an additional 31,000 health practitioners are needed to 
alleviate existing professional shortages. Combined with faculty 
shortages across health professions disciplines, racial/ethnic 
disparities in healthcare, and a growing, aging population, these needs 
strain an already fragile healthcare system. Because of the time 
required to train health professionals, we must make appropriate 
investments today to ensure that the title VII and title VIII programs 
are able to continue strengthening the country's safety net for the 
healthcare needs of the medically underserved.
    The existing title VII and title VIII programs can be considered in 
seven general categories:
  --The purpose of the Minority and Disadvantaged Health Professionals 
        Training programs is to improve healthcare access in 
        underserved areas and the representation of minority and 
        disadvantaged healthcare providers in the health professions. 
        Minority Centers of Excellence support programs that seek to 
        increase the number of minority health professionals through 
        increased research on minority health issues, establishment of 
        an educational pipeline, and the provision of clinical 
        opportunities in community-based health facilities. The Health 
        Careers Opportunity Program seeks to improve the development of 
        a competitive applicant pool through partnerships with local 
        educational and community organizations. The Faculty Loan 
        Repayment and Faculty Fellowship programs provide incentives 
        for schools to recruit underrepresented minority faculty. The 
        Scholarships for Disadvantaged Students make funds available to 
        eligible students from disadvantaged backgrounds who are 
        enrolled as full-time health professions students.
  --The Primary Care Medicine and Dentistry programs, including General 
        Pediatrics, General Internal Medicine, Family Medicine, General 
        Dentistry, Pediatric Dentistry, and Physician Assistants, 
        provide for the education and training of primary care 
        physicians, dentists, and physician assistants to improve 
        access and quality of healthcare in underserved areas. Two-
        thirds of all Americans interact with a primary care provider 
        every year. Approximately one-half of primary care providers 
        trained through these programs go on to work in underserved 
        areas, compared to 10 percent of those not trained through 
        these programs. The General Pediatrics, General Internal 
        Medicine, and Family Medicine programs provide critical funding 
        for primary care training in community-based settings and have 
        been successful in directing more primary care physicians to 
        work in underserved areas. They support a range of initiatives, 
        including medical student training, residency training, faculty 
        development and the development of academic administrative 
        units. The General Dentistry and Pediatric Dentistry programs 
        provide grants to dental schools and hospitals to create or 
        expand primary care dental residency training programs, while 
        the Dental Public Health Residency programs are vital to the 
        Nation's dental public health infrastructure. Recognizing that 
        all primary care is not only provided by physicians, the 
        primary care cluster also provides grants for Physician 
        Assistant programs to encourage and prepare students for 
        primary care practice in rural and urban Health Professional 
        Shortage Areas. And finally, the primary care cluster enhances 
        the efforts of osteopathic medical schools to continue to 
        emphasize primary care medicine, health promotion, and disease 
        prevention, and the practice of ambulatory medicine in 
        community-based settings.
  --Because much of the Nation's healthcare is delivered in areas far 
        removed from health professions schools, the Interdisciplinary, 
        Community-Based Linkages cluster provides support for 
        community-based training of various health professionals. These 
        programs are designed to provide greater flexibility in 
        training and to encourage collaboration between two or more 
        disciplines. These training programs also serve to encourage 
        health professionals to return to such settings after 
        completing their training. The Area Health Education Centers 
        (AHECs) provide clinical training opportunities to health 
        professions and nursing students in rural and other underserved 
        communities by extending the resources of academic health 
        centers to these areas. AHECs, which have substantial State and 
        local matching funds, form networks of health-related 
        institutions to provide education services to students, faculty 
        and practitioners. Geriatric Health Professions programs 
        support geriatric faculty fellowships, the Geriatric Academic 
        Career Award, and Geriatric Education Centers, which are all 
        designed to bolster the number and quality of healthcare 
        providers caring for our older generations. Given America's 
        burgeoning aging population, there is a need for specialized 
        training in the diagnosis, treatment, and prevention of disease 
        and other health concerns of older adults. The Allied Health 
        Project Grants program represents the only Federal effort aimed 
        at supporting new and innovative education programs designed to 
        reduce shortages of allied health professionals and create 
        opportunities in medically underserved and minority areas. 
        Health professions schools use this funding to help establish 
        or expand allied health training programs. The need to address 
        the critical shortage of certain allied health professionals 
        has been acknowledged repeatedly. For example, this shortage 
        has received special attention given past bioterrorism events 
        and efforts to prepare for possible future attacks. The 
        Graduate Psychology Education Program provides grants to 
        doctoral, internship and postdoctoral programs in support of 
        interdisciplinary training of psychology students with other 
        health professionals for the provision of mental and behavioral 
        health services to underserved populations (i.e., older adults, 
        children, chronically ill, and victims of abuse and trauma, 
        including returning military personnel and their families), 
        especially in rural and urban communities.
  --The Health Professions Workforce Information and Analysis program 
        provides grants to institutions to collect and analyze data on 
        the health professions workforce to advise future 
        decisionmaking on the direction of health professions and 
        nursing programs. The Health Professions Research and Health 
        Professions Data programs have developed a number of valuable, 
        policy-relevant studies on the distribution and training of 
        health professionals, including the National Sample Survey of 
        Registered Nurses, the Nation's most extensive and 
        comprehensive source of statistics on registered nurses.
  --The Public Health Workforce Development programs are designed to 
        increase the number of individuals trained in public health, to 
        identify the causes of health problems, and respond to such 
        issues as managed care, new disease strains, food supply, and 
        bioterrorism. The Public Health Traineeships and Public Health 
        Training Centers seek to alleviate the critical shortage of 
        public health professionals by providing up-to-date training 
        for current and future public health workers, particularly in 
        underserved areas. Preventive Medicine Residencies, which 
        receive minimal funding through Medicare GME, provide training 
        in the only medical specialty that teaches both clinical and 
        population medicine to improve community health. Dental Public 
        Health Residency programs are vital to the Nation's dental 
        public health infrastructure.
  --The Nursing Workforce Development programs under title VIII provide 
        training for entry-level and advanced degree nurses to improve 
        the access to, and quality of, healthcare in underserved areas. 
        These programs provide the largest source of Federal funding 
        for nursing education, providing loans, scholarships, 
        traineeships, and programmatic support to 77,395 nursing 
        students and nurses in fiscal year 2008. Healthcare entities 
        across the Nation are experiencing a crisis in nurse staffing, 
        caused in part by an aging workforce and capacity limitations 
        within the educational system. Each year, nursing schools turn 
        away tens of thousands of qualified applications at all degree 
        levels due to an insufficient number of faculty, clinical 
        sites, classroom space, clinical preceptors, and budget 
        constraints. At the same time, the need for nursing services 
        and licensed, registered nurses is expected to increase 
        significantly over the next 20 years. The Advanced Education 
        Nursing program awards grants to train a variety of advanced 
        practice nurses, including nurse practitioners, certified 
        nurse-midwives, nurse anesthetists, public health nurses, nurse 
        educators, and nurse administrators. For example, this funding 
        has been instrumental in doubling nurse anesthesia graduates in 
        the last 8 years. However, even though the number of graduates 
        doubled, the vacancy rate for nurse anesthetists has remained 
        the same at 12 percent, due to a retiring nursing profession 
        and an aging population requiring more care. Workforce 
        Diversity grants support opportunities for nursing education 
        for students from disadvantaged backgrounds through 
        scholarships, stipends, and retention activities. Nurse 
        Education, Practice, and Retention grants are awarded to help 
        schools of nursing, academic health centers, nurse-managed 
        health centers, State and local governments, and other 
        healthcare facilities to develop programs that provide nursing 
        education, promote best practices, and enhance nurse retention. 
        The Loan Repayment and Scholarship Program repays up to 85 
        percent of nursing student loans and offers full-time and part-
        time nursing students the opportunity to apply for scholarship 
        funds. In return these students are required to work for at 
        least 2 years of practice in a designated nursing shortage 
        area. The Comprehensive Geriatric Education grants are used to 
        train RNs who will provide direct care to older Americans, 
        develop and disseminate geriatric curriculum, train faculty 
        members, and provide continuing education. The Nurse Faculty 
        Loan program provides a student loan fund administered by 
        schools of nursing to increase the number of qualified nurse 
        faculty.
  --The loan programs under Student Financial Assistance support 
        financially needy and disadvantaged medical and nursing school 
        students in covering the costs of their education. The Nursing 
        Student Loan (NSL) program provides loans to undergraduate and 
        graduate nursing students with a preference for those with the 
        greatest financial need. The Primary Care Loan (PCL) program 
        provides loans covering the cost of attendance in return for 
        dedicated service in primary care. The Health Professional 
        Student Loan (HPSL) program provides loans covering the cost of 
        attendance for financially needy health professions students 
        based on institutional determination. The NSL, PCL and HPSL 
        programs are funded out of each institution's revolving fund 
        and do not receive Federal appropriations. The Loans for 
        Disadvantaged Students program provides grants to health 
        professions institutions to make loans to health professions 
        students from disadvantaged backgrounds.
    These programs work collectively to fulfill their unique, three-
pronged mission of improving the supply, diversity, and distribution of 
the health professions workforce. While HPNEC members are keenly aware 
of the fiscal pressures facing the subcommittee, we respectfully urge 
support for funding of at least $600 million for the title VII and VIII 
programs, an investment essential not only to the development and 
training of tomorrow's healthcare professionals but also to our 
Nation's efforts to provide needed healthcare services to underserved 
and minority communities. We also encourage an investment in the new 
programs and responsibilities authorized in the Patient Protection and 
Affordable Care Act to supplement the investment in the existing core 
programs. We greatly appreciate the support of the subcommittee and 
look forward to working with Members of Congress to reinvest in the 
health professions programs in fiscal year 2011 and into the future.
                                 ______
                                 
             Prepared Statement of the Home Safety Council
                              introduction
    Chairman Harkin, Vice Chairman Cochran, and members of the 
subcommittee, thank you for the opportunity to submit testimony on the 
fiscal year 2011 appropriations for the Centers for Disease Control and 
Prevention's (CDC) National Center for Injury Prevention and Control 
(NCIPC).
    I am Patricia Adkins, chief operating officer and director of 
public policy for the Home Safety Council (HSC) which is located in 
Washington, DC.
                     about the home safety council
    The mission of the HSC is to help prevent and reduce the nearly 
20,000 deaths and 21 million medical visits each year from such hazards 
as falls, poisoning, fires and burns, choking and suffocation, and 
drowning. Through national programs, partnerships, and the support of 
volunteers, HSC educates people of all ages to help keep them safer in 
and around their homes.
    Our vision for our Nation is safer homes that provide the 
opportunity for all individuals to lead healthy, active, and fulfilling 
lives.
                   increased funding for cdc's ncipc
    CDC's NCIPC has the mission of preventing injuries and violence, 
and reducing their consequences. It strives to help every American live 
his or her life to its fullest potential. Funds are utilized by NCIPC 
for intramural and extramural research and in assisting State and local 
health agencies in implementing injury prevention programs.
    HSC and a coalition of 30 like-minded nonprofit organizations are 
requesting an increase of $20 million to the ``Unintentional Injury 
Prevention'' account to begin to comprehensively address the large-
scale growth of older adult falls.
    Ultimately, success in reducing the number and severity of older 
adult falls will be reached through partnerships with Federal, State, 
and local agencies along with the cooperation of many nongovernmental 
organizations.
   why injury prevention is a critical element of health care reform
    In 1998, the National Academy of Sciences stated--``Injury is 
probably the most under-recognized public health threat facing the 
nation today.''
    Each year, injuries resulting from a wide variety of physical and 
emotional causes--motor vehicle crashes, sports trauma, violence, 
poisoning, fires and falls--keep millions of children and adults from 
achieving their goals and making the most of their talents and 
abilities.
    This is what we know:
  --Nationally and in every State in the United States, injuries are 
        the leading cause of death in the first 44 years of a person's 
        life.
  --Nearly 30 million people are treated for injuries in U.S. emergency 
        departments each year. This is an average of 55 people each 
        minute.
  --In a single year, injury and violence will cost the United States 
        $406 billion. This total lifetime cost includes $80 billion in 
        medical care costs and $326 billion in productivity losses, 
        including lost wages and benefits and the inability to perform 
        normal household functions.
    These three statistics clearly show the consequences of injuries 
and its major burden on the healthcare system.
    Fortunately, injury research has proven that there are steps that 
can be taken to prevent injuries and increase the likelihood for full 
recovery when they do occur. By incorporating these strategies into our 
communities and everyday activities, we can help to ensure that 
Americans remain healthy and live their lives to the fullest potential.
                  protecting older adults from injury
    We all want a society where people, including our older citizens, 
can live healthy and productive lives. A key component of achieving 
this is helping older adults avoid injuries. There are actions we can 
take to prevent injuries and premature death to our parents, 
grandparents, and friends. Some of the most important include 
preventing older adults from falling and being injured in fires or 
motor vehicle crashes.
    One of the injuries affecting the quality of life for older adults 
is falls. Falls are the leading cause of fatal and nonfatal injuries 
for those 65 and older. Each year, 1.8 million older adults are treated 
in emergency departments. Every day, 5,000 adults 65 and older are 
hospitalized due to fall-related injuries, and every 35 minutes, an 
older adult dies from a fall-related injury.
    We know one of the greatest financial challenges facing the U.S. 
Government, its citizens, and their employers is the rising cost of 
healthcare services needed by older Americans. CDC reports that $80.2 
billion is spent annually for medical treatment of injuries, of which 
fully $19.2 billion ($12 billion for hospitalization, $4 billion for 
emergency department visits, and $3 billion for outpatient care) is for 
treating older adults injured by falls. That's almost one-quarter of 
all healthcare expenses for injuries each year spent on older adult 
falls and the majority of these expenses are paid by CMS through 
Medicare. If we cannot stem this rate of increase, it is projected that 
the direct treatment costs will reach $54.9 billion annually in 2020, 
at which time the cost to Medicare would be $32.4 billion.
    While falls are a threat to the health and independence of older 
adults and can significantly limit their ability to remain self-
sufficient, the opportunity to reduce falls among older adults has 
never been better. Today there are proven interventions and strategies 
that can reduce falls and in turn help older adults live better and 
longer. Studies show that prescription medications have an effect on 
balance. A medication review and adjustment is a simple, cost-effective 
way to help prevent a fall. Additionally, older adults who actively 
participate in physical exercise and receive vision exams are at a 
lower risk for falling. These evidence-based interventions can help 
save healthcare costs and greatly improve the lives of older adults. 
The costs are small compared to the potential for savings. For every $1 
invested in a comprehensive falls prevention program for an older 
adult, it returns close to a $9 benefit to society.
                         how congress can help
    Congress took a major step forward in preventing older adult falls 
with passage of the Safety of Seniors Act of 2007 (S. 845 and Public 
Law 110-202) which authorized increased research, education, and 
demonstration projects. Further evidence of support included the 
passage of two Senate Resolutions in 2008 and 2009 recognizing National 
Falls Prevention Awareness Day each September. For the good intentions 
of Congress to bear fruit, an appropriation of $20 million is needed 
for fiscal year 2011 for CDC's NCIPC.
    NCIPC's funding in this area is severely inadequate to address the 
scale of human suffering and the impact of falls on our healthcare 
system. Additional funding would enable NCIPC to expand research, 
evaluation of demonstrations, public education, professional education, 
and policy analysis. At present, CDC can only allocate $2 million per 
year to address a problem costing $19.2 billion a year. The benefits of 
increased funding would be enormous, vastly improving the quality of 
life for those 65 and older and greatly reducing healthcare costs for 
falls and related disabilities.
    Increased funding for older adult falls prevention efforts is 
supported by a broad-based coalition of nonprofit organizations and a 
growing number of State falls prevention coalitions that are dedicated 
to improving the safety and health of older Americans.
          cdc activity in falls prevention among older adults
    If the CDC NCIPC's falls prevention budget is increased by $20 
million, the next steps would be to:
  --Develop additional program demonstrations to test and replicate the 
        most cost effective interventions to reduce the risk of falls;
  --Undertake additional extramural research into the causes of falls; 
        and
  --Develop more public education programs to raise awareness about 
        falls and what individuals, family members, professionals, 
        nonprofit organizations, and the private sector can do to 
        reduce them.
    On behalf of HSC, thank you for the opportunity to share our fiscal 
year 2011 appropriations request for the CDC NCIPC on the very costly, 
but often preventable problem of falls among older adults.
                                 ______
                                 
     Prepared Statement of The Humane Society of the United States
    On behalf of The Humane Society of the United States (HSUS) and the 
Humane Society Legislative Fund, and our joint membership of more than 
11 million supporters nationwide, we appreciate the opportunity to 
provide testimony on our top funding priority for the Labor, Health and 
Human Services, and Education, and Related Agencies Appropriations 
Subcommittee in fiscal year 2011.
                  breeding of chimpanzees for research
    The HSUS requests that no Federal funding be appropriated for the 
breeding of chimpanzees for research. The basis of our request can be 
found below.
  --The National Center for Research Resources (NCRR) of the National 
        Institutes of Health (NIH), responsible for the oversight and 
        maintenance of federally owned chimpanzees, placed a moratorium 
        on funding the breeding of federally owned and supported 
        chimpanzees in 1995, primarily due to the excessive costs of 
        lifetime care of chimpanzees in laboratory settings. NCRR made 
        this moratorium permanent in 2007. As a result, no federally 
        owned chimpanzees should have given birth or sired infants 
        since 1995 and no federally owned chimpanzees should have a 
        date of birth later than 1995. We have discovered, however, 
        that the Government has provided millions of dollars in recent 
        years for chimpanzee breeding. Therefore, we seek to ensure 
        that neither the NIH nor any other Federal agency provides 
        funding for breeding of Government-owned chimpanzees due to the 
        future financial implications to the Government and taxpayers 
        of continuing to do so, particularly during this difficult 
        economic time.
  --According to records obtained from the New Iberia Research Center 
        (NIRC), 42 federally owned females and 9 federally owned males 
        have been used for breeding since the 1995 moratorium was put 
        into place. Furthermore, at least 29 infants were born to a 
        federally owned mother and/or federally owned father since 1995 
        and 27 federally owned chimpanzees have a date of birth after 
        1995.
  --There is evidence that chimpanzees being bred by the NIRC--through 
        their contract with the National Institute of Allergy and 
        Infectious Diseases (NIAID)--are owned or supported by NCRR, 
        and as a result, in violation of NCRR's breeding moratorium.
  --The cost of maintaining chimpanzees in laboratories is exorbitant, 
        totaling up to $28 million each year for the current population 
        of approximately 800 federally owned or supported chimpanzees 
        (up to $67 per day per chimpanzee; more than $1,000,000 per 
        chimpanzee's 60-year lifetime). Breeding of additional 
        chimpanzees into laboratories will only perpetuate a number of 
        burdens on the Government.
  --The United States currently has a surplus of chimpanzees available 
        for use in research due to overzealous breeding for HIV 
        research and subsequent findings that they are a poor HIV 
        model.\1\
---------------------------------------------------------------------------
    \1\ NRC (National Research Council) (1997) Chimpanzees in research: 
strategies for their ethical care, management and use. National 
Academies Press: Washington, D.C.
---------------------------------------------------------------------------
  --Expansion of the chimpanzee population in laboratories only creates 
        more concerns than presently exist about their quality of care.
  --Use of chimpanzees in research raises strong public concerns.
Background and History
    Beginning in 1995, the National Research Council (NRC) confirmed a 
chimpanzee surplus and recommended a moratorium on breeding of 
federally owned or supported chimpanzees \1\, who now number 
approximately 800 of the more than 1,000 total chimpanzees available 
for research in the United States. On May 22, 2007 the NCRR of NIH 
announced a permanent end to the funding of chimpanzee breeding, which 
applies to all federally owned and supported chimpanzees. Further, it 
has also been noted that ``a huge number'' of chimpanzees are not being 
used in active research protocols and are therefore ``just sitting 
there.'' \2\ If no breeding is allowed, it is projected that the 
Government will have almost no financial responsibility for the 
chimpanzees it owns within 30 years due to the age of the population--
any breeding today will extend this financial burden to 60 years.
---------------------------------------------------------------------------
    \2\ Cohen, J. (2007) Biomedical Research: The Endangered Lab Chimp. 
Science. 315:450-452.
---------------------------------------------------------------------------
    There is no justification for breeding of additional chimpanzees 
for research; therefore lack of Federal funding for breeding will 
ensure that no breeding of federally owned or supported chimpanzees for 
research will occur in fiscal year 2011.
Concerns Regarding Chimpanzee Care in Laboratories
    A 9-month undercover investigation by The HSUS at University of 
Louisiana at Lafayette New Iberia Research Center (NIRC)--the largest 
chimpanzee laboratory in the world--revealed some chimpanzees living in 
barren, isolated, conditions and documented more than 100 alleged 
violations of the Animal Welfare Act at the facility in regards to 
chimpanzees. The U.S. Department of Agriculture (USDA) and NIH's Office 
of Laboratory Animal Welfare have since launched formal investigations 
into the facility and NIRC was cited for several violations of the 
Animal Welfare Act during an initial site visit.
    Aside from the HSUS investigation, inspections conducted by the 
USDA demonstrate that basic chimpanzee standards are often not being 
met. Inspection reports for other federally funded chimpanzee 
facilities have reported violations of the Animal Welfare Act in recent 
years, including the death of a chimpanzee during improper transport, 
housing of chimpanzees in less than minimal space requirements, 
inadequate environmental enhancement, and/or general disrepair of 
facilities. These problems add further argument against the breeding of 
even more chimpanzees.
Chimpanzees Have Often Been a Poor Model for Human Health Research
    The scientific community recognizes that chimpanzees are poor 
models for HIV because chimpanzees do not develop AIDS. Similarly, 
chimpanzees do not model the course of the human hepatitis C virus yet 
they continue to be used for this research, adding to the millions of 
dollars already spent without a sign of a promising vaccine. According 
to the chimpanzee genome, some of the greatest differences between 
chimpanzees and humans relate to the immune system\3\, calling into 
question the validity of infectious disease research using chimpanzees.
---------------------------------------------------------------------------
    \3\ The Chimpanzee Sequencing and Analysis Consortium/Mikkelsen, 
TS, et al.,(1 September 2005) Initial sequence of the chimpanzee genome 
and comparison with the human genome, Nature 437, 69-87.
---------------------------------------------------------------------------
Ethical and Public Concerns About Chimpanzee Research
    Chimpanzee research raises serious ethical issues, particularly 
because of their extremely close similarities to humans in terms of 
intelligence and emotions. Americans are clearly concerned about these 
issues: 90 percent believe it is unacceptable to confine chimpanzees 
individually in Government-approved cages (as we documented during our 
investigation at NIRC); 71 percent believe that chimpanzees who have 
been in the laboratory for more than 10 years should be sent to 
sanctuary for retirement \4\; and 54 percent believe that it is 
unacceptable for chimpanzees to ``undergo research which causes them to 
suffer for human benefit.'' \5\
---------------------------------------------------------------------------
    \4\ 2006 poll conducted by the Humane Research Council for Project 
Release & Restitution for Chimpanzees in laboratories.
    \5\ 2001 poll conducted by Zogby International for the Chimpanzee 
Collaboratory.
---------------------------------------------------------------------------
    We respectfully request the following bill or committee report 
language:

    ``The Committee directs that no funds provided in this Act be used 
to support the breeding of chimpanzees for research.''

    We appreciate the opportunity to share our views for the Labor, 
Health and Human Services, and Education, and Related Agencies 
Appropriations Act for fiscal year 2011. We hope the subcommittee will 
be able to accommodate this modest request that will save the 
Government a substantial sum of money, benefit chimpanzees, and allay 
some concerns of the public at large. Thank you for your consideration.
 high throughput screening, toxicity pathway profiling, and biological 
                       interpretation of findings
NIH--Office of the Director
    In 2007, the National Research Council published its report titled 
``Toxicity Testing in the 21st Century: A Vision and a Strategy.'' This 
report catalyzed collaborative efforts across the research community to 
focus on developing new, advanced molecular screening methods for use 
in assessing potential adverse health effects of environmental agents. 
It is widely recognized that the rapid emergence of omics technologies 
and other advanced technologies offers great promise to transform 
toxicology from a discipline largely based on observational outcomes 
from animal tests as the basis for safety determinations to a 
discipline that uses knowledge of biological pathways and molecular 
modes of action to predict hazards and potential risks.
    In 2008, NIH, NIEHS, and EPA signed a memorandum of understanding 
\6\ to collaborate with each other to identify and/or develop high 
throughput screening assays that investigate ``toxicity pathways'' that 
contribute to a variety of adverse health outcomes (e.g., from acute 
oral toxicity to long-term effects like cancer). In addition, the MOU 
recognized the necessity for these Federal research organizations to 
work with ``acknowledged experts in different disciplines in the 
international scientific community.'' Much progress has been made, but 
there is still a significant amount of research, development and 
translational science needed to bring this vision forward to where it 
can be used with confidence for safety determinations by regulatory 
programs in the Government and product stewardship programs in the 
private sector. In particular, there is a growing need to support 
research to develop the key science-based interpretation tools which 
will accelerate using 21st century approaches for predictive risk 
analysis. We believe the Office of the Director at NIH can play a 
leadership role for the entire U.S. Government by funding both 
extramural and intramural research.
---------------------------------------------------------------------------
    \6\ http://www.genome.gov/pages/newsroom/currentnewsreleases/
ntpncgcepamou121307finalv2.pdf.
---------------------------------------------------------------------------
    We respectfully request the following committee report language:

    ``The Committee supports the implementation of the National 
Research Council's report `Toxicity Testing in the 21st Century: A 
Vision and a Strategy' to create a new paradigm for risk assessment 
based on use of advanced molecular biological methods in lieu of animal 
toxicity tests and urges the National Institutes of Health to play a 
leading role by funding relevant intramural and extramural research 
projects. Current activities at the NIH Chemical Genomics Center, 
National Institute of Environmental Health Sciences and the 
Environmental Protection Agency show considerable potential and the NIH 
Director should explore opportunities to augment this effort by 
identifying possible additional resources that could be directed to key 
extramural research projects.''
                                 ______
                                 
  Prepared Statement of the Harlem United Community AIDS Center, Inc.
Harlem United Overview
    Harlem United Community AIDS Center, Inc. (Harlem United) is a 
community-based, nonprofit organization providing comprehensive, 
integrated care to individuals and families living with HIV/AIDS in 
Upper Manhattan area of New York City and its nearby boroughs.
    Harlem United provides a full range of medical, social, and 
supportive services to people living with HIV/AIDS whose diagnoses are 
often complicated by addiction, mental illness, and homelessness. 
Harlem United utilizes a comprehensive model of care that includes HIV 
testing; treatment and education; primary medical care; substance use 
counseling; mental health services; and an array of expressive 
therapies. Each year we touch the lives of more than 6,000 people 
through our services and myriad locations, including two AIDS Adult Day 
Health Care centers. At these centers, patients receive medication 
management, healthcare monitoring, case management, substance abuse 
services, nutritional services, and health education. We are proud that 
we deliver evidence-based, outcome-driven, comprehensive, medically 
endorsed care in a cost-effective and supportive setting.
    Harlem United is very concerned about increasing HIV incidence 
among men who have sex with men (MSM) of all races and ethnicities. 
Harlem United's Black Men's Initiative endeavors to reduce rates of HIV 
infection and transmission of sexually transmitted infections (STIs) 
among young Black and Latino MSM in New York City. Our Education and 
Training Department works with populations and individuals at increased 
risk for HIV infection, such as MSM, to increase knowledge and skills 
to prevent HIV transmission and improve HIV-related health outcomes. 
Our programs include evidence-based HIV prevention interventions, 
comprehensive risk-reduction counseling, confidential HIV rapid testing 
and STI screenings, primary care, mental health, and supportive housing 
services many of which specialize in mobilizing effective responses for 
Black and Latino MSM.
HIV/AIDS and MSM
    MSM account for nearly half of the more than 1 million people 
living with HIV in the United States and half of all new HIV infections 
in the United States each year. While the Centers for Disease Control 
and Prevention (CDC) estimates that MSM account for just 4 percent of 
the U.S. male population aged 13 and older, the rate of new HIV 
diagnoses among MSM in the United States is more than 44 times that of 
other men and more than 40 times HIV diagnoses among women. MSM is the 
only risk group in the United States in which new HIV infections are 
increasing.\1\
---------------------------------------------------------------------------
    \1\ ``CDC Fact Sheet: HIV and AIDS among Gay and Bisexual Men,'' 
Centers for Disease Control and Prevention (March 2010). Available at 
http://www.cdc.gov/nchhstp/newsroom/docs/FastFacts-MSM-
FINAL508COMP.pdf.
---------------------------------------------------------------------------
    As the CDC's fiscal year 2011 Congressional Justification noted, 
MSM of all races/ethnicities are at increased risk, but substantial 
racial/ethnic disparities do exist among MSM, with Black and Hispanic 
MSM bearing the greatest burden of the disease. The most alarming HIV 
infection increases are occurring among MSM ages 13-29 and 45 and 
older.\2\ Despite having lower infection rates than older MSM, younger 
MSM are more likely to have an undiagnosed HIV infection. HIV infection 
among MSM is facilitated by a number of factors including STIs, 
substance use, and community fatigue with HIV prevention messages. CDC 
should work with community leaders to inform methodology for 
communicating about HIV burden in MSM communities that encourages, 
rather than discourages, greater adoption of effective HIV prevention 
strategies.
---------------------------------------------------------------------------
    \2\ ``Fiscal Year 2011 Centers for Disease Control and Prevention 
Justification of Estimates for Appropriations Committees,'' Department 
of Health and Human Services, 74. Available at http://cdc.gov/fmo/
topic/Budget%20Information/appropriations_budget_form_pdf/
FY2011_CDC_CJ_Final.pdf.
---------------------------------------------------------------------------
    According to the CDC, recent increases in syphilis have largely 
been seen among MSM and syphilis is associated with a two-to-five fold 
increased risk of HIV. Higher rates of gonorrhea, which also 
facilitates HIV acquisition and transmission, have been documented 
among MSM who are HIV-infected. Thus, more needs to be done to address 
STIs and HIV for MSM given their elevated risk for infection. CDC data 
published in 2005 suggest that as few as 1 in 5 MSM received individual 
or group-level HIV prevention interventions in the prior year.\3\
---------------------------------------------------------------------------
    \3\ ``Fiscal Year 2011 Centers for Disease Control and Prevention 
Justification of Estimates for Appropriations Committees,'' 74.
---------------------------------------------------------------------------
CDC Program for MSM
    In the fiscal year 2011 budget, the President has requested $27 
million for CDC to undertake targeted HIV and STI prevention efforts 
for MSM. We understand this initiative will build on an effort begun in 
2008, when the CDC provided $4 million in supplemental funding to 51 
health departments to re-assess and strengthen their plans to address 
HIV among MSM in their jurisdictions. Harlem United is pleased that the 
CDC will expand this focused initiative to prevent HIV through holistic 
and integrated approaches to protect the health of gay, bisexual, and 
other MSM. We applaud this multiyear effort to prevent new HIV 
infections, reduce the acquisition of STIs, and address substance 
abuse. Harlem United hopes that additional resources will be directed 
to this effort as they are identified.
    Studies show that the majority of individuals who are aware of 
their HIV-positive diagnosis proactively make changes to their behavior 
to prevent further spread of HIV. Increased access to routine HIV 
testing, irrespective of risk, is a key policy priority for Harlem 
United; as such, we hope that the expanded MSM effort will complement 
the 2010 HIV Expanded Testing Initiative focused on MSM.
    We anticipate that the additional resources requested for fiscal 
year 2011 by the President will expand HIV testing and prevention 
services to more MSM who need them, improve monitoring for co-
infections among MSM and HIV-infected persons, and support the 
development and refinement of intervention services specifically for 
MSM. Based upon the racial and ethnic burden of HIV/AIDS among Hispanic 
and Black MSM and Harlem United's strong commitment to serve this 
population, we are pleased that the CDC efforts will be focused on 
these populations.
    Social determinants are an essential component to determining HIV 
vulnerability among MSM. Effective HIV prevention strategies must be 
mobilized simultaneously on an individual and community-level to 
successfully reduce HIV vulnerability and infections. We encourage CDC 
to utilize these new resources to promulgate a full continuum of HIV 
prevention interventions which provide MSM with an array of strategies 
that will best enable them to protect their sexual in the various ways 
they might experience HIV-risk in their lives. Harlem United maintains 
that HIV prevention among MSM should include the following initiatives:
  --Increase capacity among existing community-based organizations 
        whose primary focus is HIV prevention among MSM, particularly 
        MSM of color, or have programs which focus primarily on HIV 
        prevention among MSM;
  --Targeted social and sexual network based HIV testing approaches, 
        inclusive of Internet-based outreach;
  --Peer-driven linkage to care initiatives that strive to connect 
        newly diagnosed and lost-to-care HIV-positive MSM to high-
        quality and affordable healthcare; and
  --Culturally competent social marketing campaigns which reach beyond 
        HIV testing and condom use to educate MSM communities about 
        strategies to protect themselves from HIV reflective of 
        existing community risk behaviors.
    Finally, given the alarming disparity of HIV and syphilis incidence 
among MSM, we also urge the CDC to assemble an MSM advisory group that 
would provide guidance to decisionmaking officials in the Division of 
HIV/AIDS Prevention on barriers to implementation and best practices to 
be replicated. Further, this advisory group would work with CDC to 
integrate HIV and STI prevention and screening programs in clinical and 
community-based settings.
    We urge Congress to fulfill the President's request of $27 million 
for the CDC's MSM HIV and STI program and ensure that available 
resources reach communities and populations who need them most.
Conclusion
    We very much appreciate the opportunity to provide written 
testimony in support of our Nation's efforts to prevent HIV/AIDS among 
gay, bisexual, and other MSM at the CDC. While President Obama's budget 
certainly reflects his commitment to the domestic fight against HIV/
AIDS, any increase in funding Congress provides to the CDC program 
aimed at preventing HIV/AIDS and STIs among MSM would be greatly 
appreciated and would help us further our efforts to reverse the ever 
growing HIV epidemic in Harlem, other New York neighborhoods, and 
across the Nation.
    Harlem United is a member of the Federal AIDS Policy Partnership 
and joins in the coalition's funding requests with respect to domestic 
HIV/AIDS prevention funding and its call for increased funding for the 
Ryan White Care Act programs.
    Harlem United stands ready to be a resource for the subcommittee 
and its staff with respect to HIV/AIDS prevention, the care and 
treatment of individuals living with HIV/AIDS, and the provision of 
supportive services for individuals living with HIV/AIDS and the 
homeless.
                                 ______
                                 
   Prepared Statement of the International Foundation for Functional 
                       Gastrointestinal Disorders
    Thank you for the opportunity to present the views of the 
International Foundation for Functional Gastrointestinal Disorders 
(IFFGD) regarding the importance of functional gastrointestinal (GI) 
and motility disorders research.
    Established in 1991, the IFFGD is a patient-driven nonprofit 
organization dedicated to assisting individuals affected by functional 
GI disorders, and providing education and support for patients, 
healthcare providers, and the public at large. The IFFGD also works to 
advance critical research on functional GI and motility disorders, in 
order to provide patients with better treatment options, and to 
eventually find a cure. The IFFGD has worked closely with NIH on a 
number of priorities, including the NIH State-of-the-Science Conference 
on the Prevention of Fecal and Urinary Incontinence in Adults through 
NIDDK, the National Institute of Child Health and Human Development 
(NICHD), and the Office of Medical Applications of Research (OMAR). I 
have served on the National Commission on Digestive Diseases (NCDD), 
which released a long-range road map for digestive disease research in 
2009, entitled Opportunities and Challenges in Digestive Diseases 
Research: Recommendations of the National Commission on Digestive 
Diseases.
    The need for increased research, more effective and efficient 
treatments, and the hope for discovering a cure for functional GI and 
motility disorders are close to my heart. My own personal experiences 
as someone suffering from functional GI and motility disorders 
motivated me to establish the IFFGD 19 years ago. I was shocked to 
discover that despite the high prevalence of these conditions among all 
demographic groups worldwide, such an appalling lack of dedicated 
research existed. This lack of research translates into a dearth of 
diagnostic tools, treatments, and patient supports. Even more shocking 
is the lack of awareness among both the medical community and the 
general public, leading to significant delays in diagnosis, frequent 
misdiagnosis, and inappropriate treatments including unnecessary 
medication and surgery. It is unacceptable for patients to suffer 
unnecessarily from the severe, painful, life-altering symptoms of 
functional GI and motility disorders due to a lack of awareness and 
education.
    The majority of functional GI disorders have no cure and treatment 
options are limited. Although progress has been made, the medical 
community still does not completely understand the mechanisms of the 
underlying conditions. Without a known cause or cure, patients 
suffering from functional GI disorders face a lifetime of chronic 
disease management, learning to adapt to intolerable, disruptive 
symptoms. The medical and indirect costs associated with these diseases 
are enormous; estimates range from $25--$30 billion annually. Economic 
costs spill over into the workplace, and are reflected in work 
absenteeism and lost productivity. Furthermore, the emotional toll of 
these conditions affects not only the individual but also the family. 
Functional GI disorders do not discriminate, effecting all ages, races 
and ethnicities, and genders. These diseases account for significant 
lost opportunities for the individual as well as for society.
Irritable Bowel Syndrome (IBS)
    IBS, one of the most common functional GI disorder, strikes all 
demographic groups. It affects 30 to 45 million Americans, 
conservatively at least one out of every 10 people. Between 9 to 23 
percent of the worldwide population suffers from IBS, resulting in 
significant human suffering and disability. IBS is a chronic disease is 
characterized by a group of symptoms that may vary from person to 
person, but typically include abdominal pain and discomfort associated 
with a change in bowel pattern, such as diarrhea and/or constipation. 
As a ``functional disorder'', IBS affects the way the muscles and 
nerves work, but the bowel does not appear to be damaged on medical 
tests. Without a definitive diagnostic test, many cases of IBS go 
undiagnosed or misdiagnosed for years. It is not uncommon for IBS 
suffers to have unnecessary surgery, medication, and medical devices 
before receiving a proper diagnosis. Even after IBS is identified, 
treatment options are sorely lacking, and vary widely from patient to 
patient. What is known is that IBS requires a multidisciplinary 
approach to research and treatment.
    IBS can be emotionally and physically debilitating. Due to 
persistent pain and bowel unpredictability, individuals who suffer from 
this disorder may distance themselves from social events, work, and 
even may fear leaving their home. Stigma surrounding bowel habits may 
act as barrier to treatment, as patients are not comfortable discussing 
their symptoms with doctors. Because IBS symptoms are relatively common 
and not life-threatening, many people dismiss their symptoms or attempt 
to self-medicate using over-the-counter medications. In order to 
overcome these barriers to treatment, ensure more timely and accurate 
diagnosis, and reduce costly unnecessary procedures, educational 
outreach to physicians and the general public remain key.
Fecal Incontinence
    At least 12 million Americans suffer from fecal incontinence. 
Incontinence is neither part of the aging process nor is it something 
that affects only the elderly. Incontinence crosses all age groups from 
children to older adults, but is more common among women and in the 
elderly of both sexes. Often it is a symptom associated with various 
neurological diseases and many cancer treatments. Yet, as a society, we 
rarely hear or talk about the bowel disorders associated with spinal 
cord injuries, multiple sclerosis, diabetes, prostate cancer, colon 
cancer, uterine cancer, and a host of other diseases.
    Damage to the anal sphincter muscles; damage to the nerves of the 
anal sphincter muscles or the rectum; loss of storage capacity in the 
rectum; diarrhea; or pelvic floor dysfunction can cause fecal 
incontinence. People who have fecal incontinence may feel ashamed, 
embarrassed, or humiliated. Some don't want to leave the house out of 
fear they might have an accident in public. Most attempt to hide the 
problem for as long as possible. They withdraw from friends and family, 
and often limit work or education efforts. Incontinence in the elderly 
burdens families and is the primary reason for nursing home admissions, 
an already huge social and economic burden in our increasingly aged 
population.
    In November of 2002, IFFGD sponsored a consensus conference 
entitled, Advancing the Treatment of Fecal and Urinary Incontinence 
Through Research: Trial Design, Outcome Measures, and Research 
Priorities. Among other outcomes, the conference resulted in six key 
research recommendations including more comprehensive identification of 
quality of life issues; improved diagnostic tests for affecting 
management strategies and treatment outcomes; development of new drug 
treatment compounds; development of strategies for primary prevention 
of fecal incontinence associated with childbirth; and attention to the 
process of stigmatization as it applies to the experience of 
individuals with fecal incontinence.
    In December of 2007, IFFGD collaborated with NIDDK, NICHD, and OMAR 
on the NIH State-of-the-Science Conference on the Prevention of Fecal 
and Urinary Incontinence in Adults. The goal of this conference was to 
assess the state of the science and outline future priorities for 
research on both fecal and urinary incontinence; including, the 
prevalence and incidence of fecal and urinary incontinence, risk 
factors and potential prevention, pathophysiology, economic and quality 
of life impact, current tools available to measure symptom severity and 
burden, and the effectiveness of both short and long term treatment. 
For fiscal year 2010, IFFGD urges Congress to review the Conference's 
Report and provide NIH with the resources necessary to effectively 
implement the report's recommendations.
Gastroesophageal Reflux Disease (GERD)
    Gastroesophageal reflux disease, or GERD, is a common disorder 
affecting both adults and children, which results from the back-flow of 
acidic stomach contents into the esophagus. GERD is often accompanied 
by persistent symptoms, such as chronic heartburn and regurgitation of 
acid. Sometimes there are no apparent symptoms, and the presence of 
GERD is revealed when complications become evident. One uncommon but 
serious complication is Barrett's esophagus, a potentially pre-
cancerous condition associated with esophageal cancer. Symptoms of GERD 
vary from person to person. The majority of people with GERD have mild 
symptoms, with no visible evidence of tissue damage and little risk of 
developing complications. There are several treatment options available 
for individuals suffering from GERD. Nonetheless, treatment response 
varies from person to person, is not always effective, and long-term 
medication use and surgery expose individuals to risks of side-effects 
or complications.
    Gastroesophageal reflux (GER) affects as many as one-third of all 
full term infants born in America each year. GER results from an 
immature upper gastrointestinal motor development. The prevalence of 
GER is increased in premature infants. Many infants require medical 
therapy in order for their symptoms to be controlled. Up to 25 percent 
of older children and adolescents will have GER or GERD due to lower 
esophageal sphincter dysfunction. In this population, the natural 
history of GER is similar to that of adult patients, in whom GER tends 
to be persistent and may require long-term treatment.
Gastroparesis
    Gastroparesis, or delayed gastric emptying, refers to a stomach 
that empties slowly. Gastroparesis is characterized by symptoms from 
the delayed emptying of food, namely: bloating, nausea, vomiting or 
feeling full after eating only a small amount of food. Gastroparesis 
can occur as a result of several conditions, including being present in 
30 percent to 50 percent of patients with diabetes mellitus. A person 
with diabetic gastroparesis may have episodes of high and low blood 
sugar levels due to the unpredictable emptying of food from the 
stomach, leading to diabetic complications. Other causes of 
gastroparesis include Parkinson's disease and some medications, 
especially narcotic pain medications. In many patients the cause of the 
gastroparesis cannot be found and the disorder is termed idiopathic 
gastroparesis. Over the last several years, as more is being found out 
about gastroparesis, it has become clear this condition affects many 
people and the condition can cause a wide range of symptom severity.
Cyclic Vomiting Syndrome
    Cyclic vomiting syndrome (CVS) is a disorder with recurrent 
episodes of severe nausea and vomiting interspersed with symptom free 
periods. The periods of intense, persistent nausea, vomiting, and other 
symptoms (abdominal pain, prostration, and lethargy) lasts hours to 
days. Previously thought to occur primarily in pediatric populations, 
it is increasingly understood that this crippling syndrome can occur in 
a variety of age groups including adults. Patients with these symptoms 
often go for years without correct diagnosis. The condition leads to 
significant time lost from school and from work, as well as substantial 
medical morbidity. The cause of CVS is not known. Better understanding, 
through research, of mechanisms that underlie upper gastrointestinal 
function and motility involved in sensations of nausea, vomiting and 
abdominal pain is needed to help identify at risk individuals and 
develop more effective treatment strategies.
Support for Critical Research
    IFFGD urges Congress to fund the NIH at level of $35 billion for 
fiscal year 2011, an increase of 12 percent over fiscal year 2010. This 
funding level will help preserve the initial investment in healthcare 
innovation established by the American Recovery and Reinvestment Act of 
2009. Strengthening and preserving our Nation's biomedical research 
enterprise fosters economic growth, and supports innovations that 
enhance the health and well-being of the American people.
    Concurrent with overall NIH funding, the IFFGD supports growth of 
research activities on functional GI and motility disorders, 
particularly through NIDDK and the Office of Research on Women's Health 
(ORWH). Increased support for NIDDK and ORWH will facilitate necessary 
expansion of the research portfolio on functional GI and motility 
disorders necessary to grow the medical knowledge base and improve 
treatment. Such support would also expedite the implementation of 
recommendations from the National Commission on Digestive Diseases.
    Following years of near level-funding at NIH, research 
opportunities have been negatively impacted across all NIH Institutes 
and Centers, including NIDDK. With the expiration of funding from the 
American Recovery and Reinvestment Act of 2009, medical researchers run 
the risk of ``falling off a cliff'', stalling, if not losing promising 
research from that 2 year period. For this reason, the IFFGD encouraged 
support for initiatives such as the Cures Acceleration Network (CAN), 
authorized in the Patient Protection and Affordable Coverage Act. The 
IFFGD urges the Subcommittee to show strong leadership in pursuing a 
substantial funding increase for CAN through the fiscal year 2011 
appropriations process.
    Thank you for the opportunity to present the views of the 
functional GI disorders community.
                                 ______
                                 
     Letter From the Industrial Minerals Association--North America
                                                    April 12, 2010.
Hon. Tom Harkin,
Chairman, Subcommittee on Labor, Health and Human Services, and 
        Education, and Related Agencies, Washington, DC.
Hon. Thad Cochran,
Ranking Member, Subcommittee on Labor, Health and Human Services, and 
        Education, and Related Agencies, Washington, DC.
    Dear Chairman Harkin and Ranking Member Cochran: I write to request 
additional appropriations for the Department of Labor's Mine Safety and 
Health Administration (MSHA). Specifically the Industrial Minerals 
Association--North America (IMA-NA) requests a one-time appropriation 
of $3.6 million to improve MSHA's communication capabilities, 
specifically videoconferencing capabilities, and $1.7 million annually 
thereafter to maintain and operate these enhanced communications 
capabilities. This funding level is adequate to establish enhanced 
communications capabilities at 20 sites nationally and capable of 
reaching directly fully 80 percent of MSHA's approximately 2,500 
employees.
    It generally is recognized that mine inspectors need to stay 
abreast of the latest developments in mine safety, be informed of 
changes in regulatory standards and interpretations, be able to learn 
from mine incidents from various parts of the country, and feel a sense 
of connectedness with their headquarters in Arlington, Virginia. In 
light of recent tragic events in West Virginia, these constituent 
components of MSHA's mission take on added poignancy. To accomplish 
these important tasks, MSHA needs a state-of-the-art communications 
system. MSHA should be able to instantly and effectively communicate 
with, train, and retrain its inspectors over distance.
    You may be aware that the Department of Labor's Office of Inspector 
General recently released an audit report regarding ``Journeyman Mine 
Inspectors Do Not Receive Mandated Periodic Retraining.'' Report Number 
05-10-001-06-001 (http://www.oig.dol.gov/public/reports/oa/2010/05-10-
001-06-001.pdf). The additional appropriations requested for enhanced 
communications capabilities could go a long way toward addressing 
issues raised in this report.
    The communications systems relied upon by MSHA are antiquated and 
ineffective. MSHA is relying on dated communications and IT 
infrastructure that is decades behind the capabilities of those they 
regulate. They also are substandard when compared to those of the 
National Institute for Occupational Safety and Health, the mine safety 
and health research agency that supports MSHA's mission. This is not 
acceptable.
    Similarly, MSHA's ability to perform meaningful stakeholder 
education and outreach demands state-of-the-art communications systems. 
Adequately trained inspectors and consistency of enforcement are 
necessary components of MSHA's mission and the lack of appropriate 
information technology infrastructure frustrates their full 
implementation. Less than full implementation frustrates stakeholders. 
For instance, the enhanced communications capability requested could 
allow a mine operator at a locally convenient site to consult with MSHA 
officials at a distant site. Similarly, the enhanced communications 
capabilities could be used broadly, permitting MSHA to educate 
stakeholders and perform industry outreach by district, regionally and 
nationally, benefiting mine operators and miners alike.
    IMA-NA respectfully requests your support for additional funding to 
improve MSHA's communication capabilities, specifically 
videoconferencing capabilities.
    The IMA-NA is a trade association organized to advance the 
interests of North American companies that mine or process industrial 
minerals. These minerals are used as feedstocks for the manufacturing 
and agricultural industries and are used to produce essential products. 
Industrial minerals are critical to the manufacture of glass, ceramics, 
paper, plastics, rubber, insulation, pharmaceuticals, and cosmetics. 
They also are used to make foundry cores and molds used for metal 
castings, and in paints, filtration, metallurgical applications, 
refractory products and specialty fillers. The IMA-NA membership 
includes producers of ball clay, barite, bentonite, borates, calcium 
carbonate, diatomite, feldspar, industrial sand, magnesia, mica, soda 
ash (trona), talc, wollastonite and other minerals. IMA-NA's membership 
also includes many of the suppliers to the industrial minerals 
industry, including equipment manufacturers, railroads and trucking 
companies, and consultants. Finally, the following hyperlink will 
direct you to our Web site, which provides additional information on 
this important mining sector (http://www.ima-na.org).
    Thank you for your timely consideration of this request.
            Sincerely,
                                             Mark G. Ellis,
                                                         President.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission
    We are writing in support of the fiscal year 2011 budget request 
for the Mine Safety and Health Administration (MSHA), which is part of 
the U.S. Department of Labor. In particular, we urge the subcommittee 
to support a full appropriation for grants to States for safety and 
health training of our Nation's miners pursuant to section 503(a) of 
the Mine Safety and Health Act of 1977. MSHA's budget request for state 
grants is $8.941 million. This is the same amount that has been 
appropriated for State training grants by Congress over the past 2 
fiscal years and, as such, does not fully consider inflationary and 
programmatic increases being experienced by the States. We therefore 
urge the subcommittee to restore funding to the statutorily authorized 
level of $10 million for State grants so that States are able to meet 
the training needs of miners and to fully and effectively carry out 
State responsibilities under section 503(a) of the act.
    The Interstate Mining Compact Commission (IMCC) is a multi-state 
governmental organization that represents the natural resource, 
environmental protection, and mine safety and health interests of its 
24 member States. The States are represented by their Governors who 
serve as commissioners.
    IMCC's member States are concerned that without full funding of the 
State grants program, the federally required training for miners 
employed throughout the United States will suffer. States are 
struggling to maintain efficient and effective miner training and 
certification programs in spite of increased numbers of trainees and 
the incremental costs associated therewith. State grants have flattened 
out over the past several years and are not keeping place with 
inflationary impacts or increased demands for training. The situation 
is of particular concern given the enhanced, additional training 
requirements growing out of the recently enacted MINER Act and MSHA's 
implementing regulations.
    As you consider our request to increase MSHA's budget for State 
training grants, please keep in mind that the States play a 
particularly critical role in providing special assistance to small 
mine operators (those coal mine operators who employ 50 or fewer miners 
or 20 or fewer miners in the metal/nonmetal area) in meeting their 
required training needs.
    We appreciate the opportunity to submit our views on the MSHA 
budget request as part of the overall Department of Labor budget. 
Please feel free to contact us for additional information or to answer 
any questions you may have.
                                 ______
                                 
       Prepared Statement of the International Myeloma Foundation
    The International Myeloma Foundation (IMF) appreciates the 
opportunity to submit written comments for the record regarding fiscal 
year 2011 funding for myeloma cancer programs. The IMF is the oldest 
and largest myeloma foundation dedicated to improving the quality of 
life of myeloma patients while working toward prevention and a cure
    To ensure that myeloma patients have access to the comprehensive, 
quality care they need and deserve, the IMF advocates on-going and 
significant Federal funding for myeloma research and its application. 
The IMF stands ready to work with policymakers to advance policies and 
programs that work toward prevention and a cure for myeloma and for all 
other forms of cancer.
Myeloma Background
    Myeloma is a cancer in the bone marrow affecting production of red 
cells, white cells, and stem cells. It is also called ``multiple 
myeloma'' because multiple areas of bone marrow may be involved. 
Myeloma is the second most common blood cancer after lymphomas and its 
prevalence appears to be is increasing significantly. At any one time 
there are over 100,000 myeloma patients undergoing treatment for their 
disease in the United States. In 2009, 20,580 Americans were diagnosed 
with myeloma and 10,580 lost their battle with this disease.
    Although the incidence of many cancers is decreasing, myeloma cases 
are increasing in incidence. Once almost exclusively a disease of the 
elderly, myeloma is now being found in increasing numbers in people 
under the age of 65, and it is not uncommon for patients to be 
diagnosed in their 30s. IMF-funded research suggests that much of this 
increase is being caused by environmental toxins. To give just one 
example supporting this hypothesis, relatively recent published reports 
in the peer-reviewed literature have identified a disproportionate 
incidence of myeloma among clean-up and rescue workers at the 9/11 
World Trade Center site.
    In recent years significant gains have been made, extending myeloma 
patients' lives and improving their quality of life. Furthermore, 
progress begun in myeloma is already helping patients with other blood 
cancers and even solid tumors. Now it's important to maintain that 
momentum.
  --There is no cure for myeloma
  --Remissions are not permanent
  --Additional treatment options are essential
    At the same time, even while they live with the disease, myeloma 
patients can suffer debilitating fractures and other bone disorders, 
severe side effects of certain treatments, and other problems that 
profoundly affect their quality of life, and significantly impact the 
cost of their healthcare.
Sustain and Seize Cancer Research Opportunities
    Myeloma research is producing extraordinary breakthroughs--leading 
to new therapies that translate into longer survival and improved 
quality of life for myeloma patients and potentially those with other 
forms of cancer as well. Myeloma was once considered a death sentence 
with limited options for treatment, but today myeloma is an example of 
the progress that can be made and the work that still lies ahead in the 
war on cancer. Many myeloma patients are living proof of what 
innovative drug development and clinical research can achieve--
sequential remissions, long-term survival, and good quality of life. 
Our Nation has benefited immensely from past Federal investment in 
biomedical research at the National Institutes of Health (NIH) and the 
IMF advocates $33.349 billion for NIH in fiscal year 2011.
    A study in the Journal of Clinical Oncology projects that the 
number of new cancer cases diagnosed each year will jump 45 percent in 
the next 20 years. In multiple myeloma an even greater increase (57 
percent) is projected, and we are already seeing increasing diagnoses 
in patients under age 65 including patients in their 30s, in what was 
once a rare disease of the elderly.
    While a number of cancers have achieved 5-year survival rates of 
over 80 percent since passage of the National Cancer Act of 1971, 
significant challenges still remain for other cancers. In fact, more 
than half of the 562,340 cancer deaths in 2009 were caused by just 
eight forms of cancer with 5-year survival rates of 45 percent or 
less--of which myeloma is one. Yet, myeloma and these other cancers 
have historically also received the least amount of Federal funding. As 
we have seen mortality rates of diseases such as breast cancer, 
prostate cancer, AIDS, and childhood leukemia greatly reduced through 
targeted, comprehensive, and well-funded programs that have led to 
earlier detection and superior forms of treatment, so too must we shine 
a brighter light on myeloma and the other seven deadly cancers to 
achieve this same goal for them. The IMF urges Congress to allocate 
$5.957 billion to the National Cancer Institute (NCI) in fiscal year 
2011 to continue our battle against myeloma.
Boost Our Nation's Investment in Myeloma Prevention, Early Detection, 
        and Awareness
    As the Nation's leading prevention agency, the Centers for Disease 
Control and Prevention (CDC) plays an important role in translating and 
delivering at the community level what is learned from research. 
Therefore, the IMF advocates $6 million for the Geraldine Ferraro Blood 
Cancer Program. Authorized under the Hematological Cancer Research 
Investment and Education Act of 2002, this program was created to 
provide public and patient education about blood cancers, including 
myeloma.
    With grants from the Geraldine Ferraro Blood Cancer Program, the 
IMF has successfully promoted awareness of myeloma, particularly in the 
African-American community and other underserved communities. IMF 
accomplishments include the production and distribution of more than 
4,500 copies of an informative video which addresses the importance of 
myeloma awareness and education in the African-American community to 
churches, community centers, inner-city hospitals, and Urban League 
offices around the country, increased African-American attendance at 
IMF Patient and Family Seminars (these seminars provide invaluable 
treatment information to newly diagnosed myeloma patients), increased 
calls by African-American myeloma patients, family members, and 
caregivers to the IMF myeloma hotline, and the establishment of 
additional support groups in inner city locations in the United States 
to assist underserved areas with myeloma education and awareness 
campaigns. Furthermore, the more than 90 IMF-affiliated patient support 
groups in the United States also made this effort their main goal 
during Myeloma Awareness Week in October 2005.
    An allocation of $6 million in fiscal year 2011 will allow this 
important program to continue to provide patients--including those 
populations at highest risk of developing myeloma--with educational, 
disease management and survivorship resources to enhance treatment and 
prognosis.
Conclusion
    The IMF stands ready to work with policymakers to advance policies 
and support programs that work toward prevention and a cure for 
myeloma. Thank you for this opportunity to discuss the fiscal year 2011 
funding levels necessary to ensure that our Nation continues to make 
gains in the fight against myeloma.
                                 ______
                                 
          Prepared Statement of the Jeffrey Modell Foundation
    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to present this testimony to the subcommittee. My husband 
Fred and I created the Jeffrey Modell Foundation in 1987 in memory of 
our son, Jeffrey, who died at the age of 15 as a result of a life long 
battle against one of the estimated 160 primary immunodeficiency (PI) 
diseases.
    The Jeffrey Modell Foundation is an international organization with 
its headquarters in New York City. In the 24 years since we established 
it, the Foundation has grown into the premier advocacy and service 
organization on behalf of people afflicted with PI diseases. As a 
demonstration of the extent to which the JMF leads in the field, please 
consider the following:
  --The Foundation has created Jeffrey Modell Research and Diagnostic 
        Centers at 72 academic and teaching hospitals from coast to 
        coast in the United States and throughout the world. They are 
        located on every continent. In addition, we are affiliated with 
        more than 415 referring physicians at 171 academic medical 
        centers in 59 countries and 169 cities, again located on every 
        continent throughout the world.
  --The Foundation conducts a National Physician Education and Public 
        Awareness Campaign, currently funded with approximately $3.1 
        million appropriated by this subcommittee to the Centers for 
        Disease Control and Prevention (CDC) and awarded by competitive 
        contract to the Foundation. To date, the Foundation has 
        leveraged the Federal money to generate in excess of $125 
        million in donated media with hundreds of thousands of 
        placements on television, radio, print, and other public media, 
        as well as a 30-minute program produced for PBS. The Campaign 
        has also included physician symposia, conducted for CME credits 
        in locations throughout the country. It has also included 
        mailings to physicians in a variety of specialist and primary 
        care fields, including pediatrics and several pediatric 
        specialties, family practice, and internal medicine, as well as 
        school nurses, clinical and registered nurses and daycare 
        centers.
  --In addition, the Jeffrey Modell Foundation has been the leader in 
        advancing newborn screening for some of the most severe forms 
        of PI. Working with the CDC, National Institutes of Health 
        (NIH), UCSF and private industry, we helped fund the 
        development of a newborn screening test that was pilot tested 
        in Wisconsin. The results were so successful that Wisconsin and 
        Massachusetts have now implemented population-based screening 
        of every baby born in their States. Then, in January of this 
        year, we were successful in having the Secretary's Advisory 
        Committee for Children with Heritable Disorders add this test 
        to the core panel of 29 newborn screening tests recommended for 
        the States to utilize. It is the first test to be added since 
        the core panel was created in 2005. The test is already saving 
        lives and we know that as more states adopt it, many more will 
        be saved.
    First and foremost, Mr. Chairman, we want to thank you and all the 
members of this subcommittee on both a personal and a professional 
level. Personal because whenever we come to Washington, whether it is 
to testify here before the subcommittee or to meet with the members of 
the subcommittee individually in their offices, every Member of 
Congress and every member of your staffs are unfailingly polite, 
courteous, interested, and caring. The warm and understanding response 
that we receive makes this a labor of love for us.
    And, professional because over the 12 years that we have been 
coming to Washington, we have been given the opportunity to build a 
partnership with the Congress, CDC, NIH, as well as with our own 
supporters in the private sector, including industry and other 
concerned donors. We believe that we have maximized the benefits for 
patients from the support that this subcommittee has afforded us. I 
would like to take a few minutes to discuss where we are, where we are 
going with your continued support, and some changes that are need in 
the President's budget request to help us help patients.
PI Education and Awareness Program
    This subcommittee is currently providing CDC with $3.1 million for 
physician education and public awareness of immunodeficiencies for 
fiscal year 2010. This is part of an overall budget of $12.3 million 
for the Office of Public Health Genomics, which uses the remaining $9.2 
million for its operations.
    Since the Campaign's inception, it has generated more than $125 
million in donated media, including television and radio spots, 
magazine ads, billboards, airport signs, and other print media. It has 
also enabled us to generate additional funding from the private 
sector--both individuals and the pharmaceutical industry. To this 
point, every $1 of Federal funds provided by the subcommittee to this 
program has been leveraged into more than $10 for this education and 
awareness program.
    Most importantly, Mr. Chairman, I am delighted to report to you 
that the program that this subcommittee has funded is having exactly 
the impact that all of us hoped it would when it was created. Allow me 
to give you some specifics.
    Surveying the physicians at the Jeffrey Modell Centers Referral 
Network we have learned that the number of patients referred, diagnosed 
and treated has doubled every year since the program's inception. The 
negative health outcomes of undiagnosed cases--infections, hospital and 
physician visits, and similar costs--decrease an average of 70 percent 
for diagnosed patients.
    But, it is fair of this subcommittee to ask ``so what?'' What 
difference does it make to the health of these patients if they are now 
in treatment? What is the real impact in a real world sense on the 
patients that are found?
    The economic impact of PI diagnosis has been carefully assessed 
comparing the costs of treatment before diagnosis and after. In round 
numbers what we learned was that the average annual cost of healthcare 
for an undiagnosed patient is $103,000 per year. The same costs for the 
same patients in the year after diagnosis are $23,000. The gross annual 
savings to the healthcare system is $80,000 per patient.
    Mr. Chairman, this program is working and we are delighted. But 
this is where the problem comes along. The President's budget for 
fiscal year 2011 reduces funding for the Office of Public Health 
Genomics from $12.3 million to $11.7 million. Further it eliminates the 
line item created by this subcommittee to fund the education and 
awareness program. While CDC has indicated its support for continuing 
the program, the only guarantee that will happen is if you act.
    For this reason, we are asking that you take three modest steps as 
you are assembling the Chairman's mark for the bill:
  --First, restore the total line item for the Office of Public Health 
        Genomics to its fiscal year 2010 level of $12,308,000.
  --Second, break that money out into two separate lines, as its now--
        $9,201,000 for the Office and $3,107,000 for PI Education and 
        Awareness.
  --Third, so that there is no misunderstanding, include a paragraph of 
        Committee Report language that says:

    ``The subcommittee believes that the education and awareness 
program for primary immunodeficiencies has been a model of public-
private cooperation and therefore has restored the current structure 
for the Office of Public Health Genomics budget. The program's success 
in leveraging public money for private investment has resulted in a 
huge return on the Federal dollar, led to reduced health disparities, 
and will save lives as the program directs greater attention to newborn 
screening.''
Newborn Screening Program
    As described above, early diagnosis is critical to the health of 
patients and to saving the healthcare system money. And, there are few 
better examples of early diagnosis than newborn screening. The JMF has 
worked long and hard to support the development of a newborn screening 
program for some of the most severe and deadly forms of PI.
    Early detection of these diseases through newborn screening is 
critical because bone marrow transplants cure more than 98 percent of 
infants who have the procedure before developing any serious 
infections. The treatment costs less than $10,000. However, if an 
infant receives a transplant after developing severe infections, the 
success rate is only between 60 and 70 percent; the costs associated 
with the treatment of these infants can be as high as $1 million during 
their lifetime.
    As described above, the Secretary's Advisory Committee on Children 
with Heritable Disorders has recommended to the Secretary that this 
test be added to the core panel that forms the basis of newborn 
screening in States throughout the Nation. It is the first time the 
list has ever been amended since it was created 5 years ago. The 
Jeffrey Modell Foundation is proud to have played a role in this 
advancement for babies and we are urging the Secretary to accept the 
recommendation promptly.
    Once she has done so, newborn screening officials in numerous 
States have advised us that they will move forward with including this 
test in their States. At that time, the Foundation is committed to 
moving forward with the production of educational materials for State 
labs and families that will provide the information they need to 
consider the results of the test their baby is having. The funds for 
the education and awareness program are critical for making the most of 
this important improvement in public health.
Conclusion
    With the support the Jeffrey Modell Foundation has received from 
this subcommittee over the years, we have been able to increase the 
public's awareness of PI and most importantly improve and save lives. 
We are grateful for your past and continued support. While we 
understand that the subcommittee must make difficult decisions in this 
fiscal environment, please remember that the Foundation has 
successfully leveraged Federal dollars to expand the reach of all of 
our activities. Frankly, the collaboration between the Federal 
government and the Jeffrey Modell Foundation has been a model for 
successful public-private collaborations. The impact of every Federal 
dollar spent on the education and awareness campaign and on newborn 
screening has been exponentially increased by our commitment to bring 
the Foundation's resources to bear.
    We ask again that you restore the funding to fiscal year 2010 
levels; break out PI Education and Awareness into a separate line item; 
and include the report language provided to assure that this program 
maximizes its impact.
    Mr. Chairman, again, we are delighted to have the opportunity to 
present to the subcommittee and stand ready to work with you.
                                 ______
                                 
                Prepared Statement of Knowledge Alliance
    On behalf of Knowledge Alliance, we are pleased to submit this 
testimony to the subcommittee regarding our recommendations for the 
fiscal year 2011 Labor, Health and Human Services, and Education, and 
Related Agencies appropriations bill as they relate to the U.S. 
Department of Education.
    Knowledge Alliance is a nonprofit, nonpartisan trade association 
dedicated to expanding the use of research-based knowledge in policy 
and practice in K-12 education. We are a strong and dynamic community 
of highly successful education organizations and agencies, all of which 
are constantly looking for new and better ways to support high-quality 
education research, development, dissemination, technical assistance, 
and evaluation at the Federal, regional, State, tribal, and local 
levels.
    Much of our collective work is focused on advancing the effective 
use of research-based knowledge as catalyst for innovation and 
transformation in K-12 education and as a central organizing concept 
for education reform moving forward. We firmly believe that the 
effective creation, translation, and application of research-based 
knowledge can significantly accelerate and bring to scale nationwide 
efforts to improve academic performance and close achievement gaps for 
all students. Effective knowledge use also helps advance the national 
initiatives to transform education into an evidence-based field and 
enhance the implementation of the American Recovery and Reinvestment 
Act (ARRA), the Elementary and Secondary Education Act (ESEA) and the 
Education Sciences Reform Act.
                          critical challenges
    We believe that now is the time to intensify the focus on creating, 
translating, and applying research-based knowledge into useful tools 
that will improve classroom policies and practices in all schools for 
the following critical reasons:
    Seriously Deficient Investments in Education R&D.--ESEA requires 
educators to use instructional practices and innovations supported by 
research, but the Department of Education spends less than 1 percent of 
its budget on research, development and statistics, the smallest of any 
Cabinet-level agency.

                        [in billions of dollars]
------------------------------------------------------------------------
                                                            Fiscal year
                                                           2009 research
                Federal department/agency                       and
                                                            development
                                                              request
------------------------------------------------------------------------
Defense.................................................           $80.7
Health and Human Services...............................            29.9
NASA....................................................            10.7
Energy..................................................            10.6
National Science Foundation.............................             5.2
Agriculture.............................................               2
Commerce................................................             1.2
Homeland Security.......................................             1.1
Transportation..........................................             901
Veterans Affairs........................................             884
Interior................................................             617
Environmental Protection Agency.........................             550
Education...............................................            324
------------------------------------------------------------------------
Source: American Association for the Advancement of Science.

    This low level of investment means that education is ill equipped 
to rapidly develop, deliver, and scale innovations as is done in other 
sectors through R&D. The bottom line is that schools and students will 
suffer without an increased investment in developing and testing 
research-based practices.
    Rapidly Expanding Capacity Crisis.--According to a recent Center on 
Education Policy report, about one-third of U.S. public schools did not 
make AYP in school year 2008-2009. In nine States and the District of 
Columbia, at least half the public schools did not make AYP in 2008-
2009. In a majority of the States (35 including D.C.), at least one-
fourth of the schools did not make AYP. States and districts currently 
lack the sufficient funds, staff, and expertise to address the growing 
demand to support low-performing schools. This capacity crisis only 
exacerbates the complex challenges of transforming low-performing 
schools and preparing all schools for the next generation of learning.
    Urgent Need for Solutions.--Federal education policy has evolved in 
phases over the past 15 years. The focus on standards and assessments 
in the late 1980s and early 1990s spawned major attention on the 
alignment of standards, curriculum, and assessments in the 1990s, which 
played a role in the current emphasis on accountability. The next 
logical step in this standards-based continuum is a more comprehensive 
and vigorous focus on solutions to bring about real school improvement 
by providing significant new resources and expertise targeted to 
turning around low-performing schools and to building a knowledge-based 
capacity and infrastructure for sustained improvement.
                            recommendations
    Our appropriations proposal for fiscal year 2011 calls for greater 
Federal investments in research-based programs to help States and 
districts respond to the rapidly increasing needs We urge a stronger 
and more comprehensive Federal effort to respond both to the greater 
demand for knowledge-based solutions and to the underfunded supply of 
well-tested practices and programs. Specifically, we propose the 
following:
     top priority: a knowledge, innovation, and improvement package
    We urge you to consider six essential and interrelated programs as 
a knowledge-innovation-improvement package:
Comprehensive Centers
    Recommendation: $67.3 million ($10 million increase more than 
President's request for fiscal year 2011).
    Our proposed recommendation includes an increase of $500,000, or 20 
percent, of additional funding for each Comprehensive Center which 
would enable the 16 regional centers to expand their capacity building 
work with SEAs in such areas as resource allocation, data use, teacher 
effectiveness and school improvement. In addition, the proposed 
increase would support the five content centers school improvement 
efforts in providing in-depth, specialized support in five key areas 
focusing on assessment and accountability, instruction, teacher 
quality, innovation and improvement and high schools. The increase 
would also enable the Centers to help States sustain their one-time 
ARRA school improvement efforts.
Regional Educational Laboratories
    Recommendation: $80.6 million ($10 million increase more than 
President's request for fiscal year 2011).
    The Regional Educational Laboratory Program is composed of a 
network of 10 laboratories that serve the education reform and school 
improvement needs of designated regions through rigorous research 
studies and rapid response reports. Our proposed increase would expand 
a special triage ``urgent response'' system to address the most 
pressing, immediate educational reform issues in each region. This 
request, if fulfilled, would enable the labs to further support the 
crucial initiatives that are being implemented via the ARRA.
Research, Development, and Dissemination
    Recommendation: $261 million (same as the President's request for 
fiscal year 2011).
    Our recommendation would allow IES to continue to fund more high-
quality applications under existing programs of research, development, 
and dissemination in areas where the knowledge of learning and 
instruction is inadequate. This recommendation would also enable IES to 
invest in new grants to support evaluations at the State and district 
level to evaluate whether reforms undertaken with funds awarded under 
ARRA are producing the desired improvements on student achievement and 
other critical outcomes. Finally, the recommended boost of $175 million 
would create a sustainable venture fund for investing in what works in 
education reform, as conceived in ARRA.
School Turnaround Grants
    Recommendation: $900 million (same as the President's request for 
fiscal year 2011).
    The $354.4 million increase requested for the School Turnaround 
Grants (currently School Improvement Grants) program would help build 
State and local capacity to identify and implement effective 
interventions to turn around their lowest-performing schools. The 
proposed increase would create a sustainable base for long-term school 
improvement efforts.
Investing in Innovation Fund
    Recommendation: $500 million (same as the President's request for 
fiscal year 2011).
    The request would support a newly authorized ESEA program, modeled 
after the i3 program authorized by the ARRA. The proposed request would 
also provide a substantial Federal investment for scaling and 
sustaining evidence based innovations. The request is a bold step in 
the right direction in building from and on a knowledge base for 
reform.
Race to the Top
    Recommendation: $1.35 billion (same as the President's request for 
fiscal year 2011).
    The request would support a newly authorized ESEA program, modeled 
after the Race to the Top program authorized by the ARRA. The program 
would create incentives for State and local reforms and innovations 
designed to support comprehensive reforms that lead to significant 
improvements in student achievement and close the achievement gaps. The 
program would also encourage the broad identification, dissemination, 
adoption, and the use of effective policies and practices.
 important support: programs contributing to innovation and improvement
    We recommend continued support for the following programs which 
will play an increasingly significant role in State and local efforts 
to respond to the escalating demand for school improvement and 
solutions.
  --21st Century Community Learning Centers Recommendation: $1.16 
        billion (same as the President's request)
  --Education for Homeless Children and Youth Recommendation: $65.4 
        million (same as the President's request)
  --English Language Acquisition Recommendation: $800 million (same as 
        the President's request)
  --Even Start Recommendation: $66.4 million (same as fiscal year 2010)
  --High School Graduation Initiative Recommendation: $100 million ($50 
        million increase more than fiscal year 2010)
  --Improving Teacher Quality State Grants Recommendation: $2.94 
        billion (same as fiscal year 2010)
  --Math Science Partnerships (ED) Recommendation: $180.5 million ($1.5 
        million increase more than fiscal year 2010)
  --National Center for Education Statistics Recommendation: $117 
        million (same as the President's request)
  --Parental Information and Resource Centers Recommendation: $39.4 
        million (same as fiscal year 2010)
  --Smaller Learning Communities Recommendation: $88 million (same as 
        fiscal year 2010)
  --Special Education Research and Evaluation programs Recommendation: 
        $82 million (same as the President's request)
  --Statewide Data Systems Recommendation: $100 million (same as the 
        President's request)
  --Striving Readers Recommendation: $370 million ($120 million 
        increase more than fiscal year 2010)
  --Technology State Grants Recommendation: $100 million (same as 
        fiscal year 2010)
    In total, we believe it has never been more important to expand the 
Federal supported knowledge-innovation-improvement infrastructure and 
to deliver research-based solutions to schools with the greatest needs 
to improve. Congress is uniquely positioned to turn the page on past 
efforts and to lead us into a new era of innovation and transformation 
of our public school system.
    Indeed now is the time to unleash America's ingenuity to solve our 
most pressing education problems, deliver break-the-mold solutions to 
our schools, and guide a new knowledge and innovation revolution in 
teaching and learning.
    Thank you for your consideration.
                                 ______
                                 
     Prepared Statement of the Lions Clubs International Foundation
    I would like to begin by thanking Chairman Tom Harkin, Ranking 
Member Thad Cochran and members for the opportunity to provide this 
testimony on spending priorities before the Labor, Health and Human 
Services, and Education, and Related Agencies Subcommittee. I would 
also like to congratulate you, Mr. Chairman, and your colleagues, for 
examining the way service organizations can collaborate with the 
Federal Government in meeting pressing community needs for improved 
health and education services.
    Lions Clubs International represents the largest and most effective 
NGO service organization presence in the world. Awarded and recognized 
as the #1 NGO organization for partnership globally by The Financial 
Times 2007, Lions Clubs International also holds the highest four star 
(highest) rating from the CharityNavigator.com (an independent review 
organization). Lions and its official charity arm, Lions Clubs 
International Foundation (LCIF), have been world leaders in serving the 
vision, hearing, youth development, and disability needs of millions of 
people in America and around the world, and we work closely with other 
NGOs such as Special Olympics International to accomplish our common 
service goals. Since LCIF was founded in 1968, it has awarded more than 
9,000 grants, totaling more than $640 million for service projects 
ranging from affordable hearing aids to diabetes-prevention.
    Our current 1.3 million-member global membership, representing over 
200 countries, serves communities through the following ways: protect 
and preserve sight; provide disaster relief; combat disability; promote 
health; and serve youth. The 14,000 individual Lions Clubs representing 
400,000 individual citizens in North America are constantly expanding 
to add new programs its volunteers are working to bring health services 
to as many communities as possible.
    Some of our major collaborative partners include: Habitat for 
Humanity, Special Olympics, the U.S. National Eye Institute, CADCA 
(Community Anti-Drug Coalition of America), Service Nation and many 
others.
    Today, we face many complex challenges in the health and education 
sector, from preventable diseases that cause blindness in children to 
bullying, violence, and drug use among school-aged children. I will 
offer a brief summary of my remarks through an overview of where Lions 
Clubs International is involved in programs under the general 
jurisdiction of the Labor, Health and Human Services, and Education, 
and Related Agencies Subcommittee, and where we recommend areas where 
Federal partnerships should be maintained and strengthened.
                       health and human services
    Domestic Sight Services.--Through our network of foundations and 
programs across America, Lions remains the single largest provider of 
charitable vision care, eyeglasses and hearing care services to needy 
and indigent people. Some of our major sight initiatives include:
  --The Sight for Kids Program in collaboration with Johnson and 
        Johnson. The program has provided 6 million vision screenings 
        and eye-health education programs for children.
  --Core 4 Preschool Vision Screening program enables Lions to conduct 
        screenings for children in preschools. The program strives to 
        deliver early detection and treatment for the most common 
        vision disorders that can lead to amblyopia or ``lazy eye.'' 
        LCIF has also provided grants and services to those affected by 
        eye conditions that cannot be improved medically.
  --Last August Lions Clubs sponsored ``United We Serve Health Week'' 
        Signature Events around the country. These Health Week efforts, 
        in conjunction with the White House, were effective in bringing 
        awareness to vision health issues.
Vision Health Recommendations
    Last year, the U.S. House overwhelmingly passed H.R. 577, the 
Vision Care for Kids Act, a bill that provides for comprehensive eye 
examinations to eligible children who have been screened, and to 
provide treatment or services to these children. We strongly support 
efforts to pass the Senate companion bill, Senator Kit Bond's S. 259.
    Our network of clubs, foundations and institutions continue to 
supplement public health efforts in this area through free vision 
screenings, fittings for eyeglasses, free prescription eyeglasses, and 
health education programs. The Lions eye-screening program for our 
youngest and most vulnerable citizens has potential to expand output 
with the securing of significant support from policymakers in States 
and districts with strong Lions Club participation. This is 
particularly relevant in providing mobile eye screening programs for 
glaucoma and amblyopia treatment and follow up services in areas that 
are economically disadvantaged and include high-risk urban and rural 
populations.
    There is recent congressional support for the continuation and 
expansion of collaborative efforts between the Office of Head Start and 
stakeholders to ensure that all Head Start enrollees receive vision 
screening services and other resources available to them in their 
community. This is an effective means of ensuring that congressionally 
directed funding serve the communities where mobile screening units and 
preschool testing is most needed in a cost-effective manner. Again, for 
many localities in need of screening services, there is ample 
opportunity to expand comprehensive vision screening services so that 
no children are ``left to fall through the cracks.''
Special Olympics ``Healthy Athletes'' Program
    Lions Clubs International is a central part of a global team of 
healthcare volunteers who participate in the Special Olympics Healthy 
Athletes program. The Opening Eyes program is a vision and eye health 
screening program that has provided some 100,000 visions screenings for 
Special Olympic Athletes. More than 40,000 Special Olympic athletes 
have received free prescription eyeglasses to date.
    Lions supports further congressional funding for ``Healthy 
Athletes'' and its crucial mission to: improve access and healthcare 
for Special Olympics athletes; make referrals to local health 
practitioners when appropriate; train healthcare professionals and 
students about the needs and care of people with intellectual 
disabilities; collect, analyze and disseminate data on the health 
status and needs of people with intellectual disabilities; and advocate 
for improved health policies and programs for people with intellectual 
disabilities.
Lions Affordable Hearing Aid Project (AHAP)
    Lions Clubs International is committed to fighting hearing loss as 
well as blindness. By listening to community health organizations 
across the country, Lions Clubs International and their volunteer 
members became aware of the lack of quality and affordable hearing 
care, especially for people with incomes below or at 200 percent of the 
poverty level. Many people have been unable to access other personal 
and family resources to purchase hearing aids, and have been denied 
State and Federal assistance. Lions Clubs 14 centers have been working 
to expand output in this area as demand continues to rise with a 
network of mobile health units and community based programs that screen 
more than 2 million people each year and provide hearing aids to 14,000 
low income patients.
    The statistics are unacceptable: 31 million persons in the United 
States experience some form of hearing loss, yet only 7.3 million opt 
to use hearing aids. According to audiology researchers, the market 
penetration for hearing aids is about 23.6 percent. For every four 
patients that enter a practice needing hearing aids, only one will 
purchase them. The median price tag is $1,900 (2005) for a digital 
hearing aid and prices go as high as $4,000. State Foundations, public 
health departments, and aging departments are in need of assistance in 
this area.
    With the recent 25-30 percent increase in people seeking assistance 
for hearing aids, there is an immediate public imperative to address 
the problem. Federal dollars are stretched, but Federal support in this 
area would have significant public health dividends in difficult 
economic times.
                   ``lions quest''/education programs
    Lions Clubs International's youth development initiatives, known 
collectively as ``Lions Quest,'' have been a prominent part of school-
based K-12 programs since 1984. Fulfilling its mission to teach 
responsible decisionmaking, effective communications and drug 
prevention, Lions Quest has been involved in training more than 350,000 
educators and other adults to provide services for more than 11 million 
youth in programs covering 43 States. LCIF currently invests more than 
$2 million annually in supporting life skills training and service 
learning, and that funding is matched by local Lions, schools, and 
other partners.
    Lions Quest curricula incorporate parent and community involvement 
in the development of health and responsible young people in the areas 
of: life skills development (social and emotional learning), character 
education, drug prevention, service learning, and bullying prevention. 
There is even a physical fitness component to this program that can 
assist Federal goals of reducing obesity in school-aged children.
    These Lions Quest programs provide strong evidence of decreased 
drug use, improved responsibility for students own behavior, as well as 
stronger decisionmaking skills and test scores in math and reading. In 
August 2002, Lions Quest received the highest ``Select'' ranking from 
the University of Illinois at Chicago-based Collaborative for Academic, 
Social and Emotional Learning (CASEL) for meeting standards in life 
skills education, evidence of effectiveness and exemplary professional 
development.
    Lions Quest has extensive experience with Federal programs. Lions 
Quest Skills for Adolescence received a ``Promising Program'' rating 
from the U.S. Department of Education Safe and Drug Free Schools and a 
``Model'' rating from the U.S. Department of Health and Human Services 
Substance Abuse and Mental Health Services Administration (SAMHSA).
    Lions Quest also has extensive experience of partnering with State 
service commissions to reach more schools and engage more young people 
in service learning. Successful partnerships have been active in 
Michigan, New York, Oklahoma, Tennessee, and West Virginia with 
progress being made in Texas and Ohio.
Service Learning Initiatives
    Lions Quest has also pursued Learn and Serve Grant funding to 
support implementation of Lions Quest programming in several States. We 
strongly support Congressional efforts to fund the Edward M. Kennedy 
Serve America Act that was signed into law 1 year ago. The Serve 
America Act authorizes the Corporation for National and Community 
Service to expand existing programs and add several new programs and 
initiatives to provide service learning school-based programs for 
students as well as Innovative and Community-Based Service-Learning 
Programs and Research. Another program of value that was authorized by 
the Edward M. Kennedy Act is the Social Innovation Fund that provides 
growth capital and other support so that the most effective programs 
can be identified.
Social and Emotional Learning (SEL) Programs
    In addition, Lions Clubs recommends Congressional support for 
social and emotional learning (SEL) programs that stimulate growth 
among schools nationwide through distribution of materials and teacher 
training, and to create opportunities for youth to participate in 
activities that increase their social and emotional skills. Not only do 
SEL curricula contribute to the social and emotional development of 
youth, but they also provide invaluable support to students' school 
success, health, well-being, peer and family relationships, and 
citizenship. While still conducting scientific research and reviewing 
the best available science evidence, over time Lions Clubs and its SEL 
partners have increasingly worked to provide SEL practitioners, 
trainers and school administrators with the guidelines, tools, 
informational resources, policies, training, and support they need to 
improve and expand SEL programming.
    Overall, SEL training programs and curricula have outstanding 
benefits for school-aged children:
  --SEL prevents a variety of problems such as alcohol and drug use, 
        violence, truancy, and bullying. SEL programs for urban youth 
        emphasize the importance of cooperation and teamwork.
  --Positive outcomes increase in students who are involved in social 
        and emotional learning programming by an average of 11 
        percentile points over other students.
  --With greater social and emotional desire to learn and commit to 
        schoolwork, participants benefit from improved attendance, 
        graduation rates, grades, and test scores. Students become 
        caring, concerned members of their communities.
                               conclusion
    Lions Clubs remains committed to domestic activities such as major 
sight initiatives and positive youth development and youth service 
programs. Today we face great health and educational challenges, and 
Lions Clubs International understands the importance not only of 
community service but of instilling those values among members of our 
next generation. The success of nonprofit entities such as Lions Clubs 
show what the service sector can do for economic and social development 
of communities that are especially hard hit by the recession, and we 
are committed to forming more effective alliances and partnerships to 
increase our domestic impact. We look forward to working with you and 
your colleagues on taking up these important challenges.
                                 ______
                                 
     Prepared Statement of the Montgomery County Stroke Association
    I am Flora Ingenhousz, a psychotherapist in private practice in 
Silver Spring, Maryland. I have always been in excellent health and 
live an active, healthy lifestyle. Doctors always commented on my low 
blood pressure and my excellent cholesterol numbers. But, I suffered a 
stroke. It was a shock to me and my family, friends, and clients.
    One morning 4 years ago, when doing a load of laundry, I had no 
idea how to set the dials, despite the fact that I had used these dials 
weekly for the last 10 years. I stood there for what seemed an eternity 
before I figured out how to set them.
    Next I went to do yoga. In one of the poses, I noticed my right arm 
was hanging limp. When my husband asked me a question, my answer was 
just the opposite of what I wanted to say. I caught my error and tried 
again, but it soon became clear that something was wrong. My symptoms 
kept getting worse.
    When we walked into the emergency room (ER), my right leg was weak, 
and I could not sign my name at the desk. Twelve hours later, I could 
not move my right side, and my speech was reduced to yes and no. Not a 
good thing for a psychotherapist, where language is a primary tool.
    In the ER, a CT scan showed a hemorrhagic or bleeding stroke where 
an artery burst, destroying millions of brain cells within minutes, 
affecting my speech and my ability to perform activities like dressing 
in the correct order. Also, my right arm and leg were extremely weak. 
However, I could understand everything, and I was never completely 
paralyzed. But, I was scared.
    I was in intensive care for 4 days of observation and lots of 
testing, but the tests provided no answers. Two days after my stroke, 
while still in intensive care, I started occupational, physical, and 
speech therapy. It was extremely challenging to feed myself with my 
right hand, requiring all my concentration. After a meal or brushing my 
teeth, I was exhausted. Speaking was the hardest of all. My brain 
seemed devoid of words.
    After being stabilized, I was transferred to the National 
Rehabilitation Hospital. For a week, I endured speech, physical, 
occupational, and recreational therapies.
    Speech therapy was the hardest, but also the most important given 
my profession. Several times, the speech therapist challenged me to the 
brink of tears.
    After a week at the Rehabilitation Hospital, I went home and to 
outpatient therapies. Speech therapy lasted the longest. After being 
discharged from speech therapy, I still had deficits in my 
organizational skills and abstract thinking.
    As I struggled with starting to see my clients again, I slid into a 
deep depression. I was not confident that I could continue to practice. 
For months, I saw no point in living. Recovery from my post-stroke 
depression was harder than the recovery of my arms and legs and even 
speech.
    Being a psycho-therapist, I know how to treat depression, so I went 
to a psychiatrist who prescribed anti-depressant medication and, I also 
found a psychotherapist.
    After months on anti-depressants and excellent psychotherapy, my 
depression began to lift. I continue on the drugs and to see my 
psychotherapist. Emotionally, the aftermath of my stroke cut deep.
    I am fortunate that 4 years post-stroke, I am back to full-time 
practice. I lead support groups for stroke survivors and caregivers 
through the Montgomery County Stroke Association and serve on its 
Board. I also lecture on stroke, stroke prevention, and stroke 
recovery. I founded ``Hope after Stroke''--individual and family 
counseling for stroke survivors and caregivers. In addition, I have 
participated in NIH studies about stroke recovery.
    Once again, I am in excellent health and have resumed my active 
life style. I thank my brain for having the capacity to work around the 
dead cells. But most of all, I thank my therapists for my recovery. 
Their ability to zero in so effectively would not have been possible 
without NIH research.
    Because stroke is a leading cause of death and disability and major 
cost to society, I urge you to provide stroke research with a 
significant funding increase. I am concerned that NIH continues to 
invest only 1 percent of its budget in stroke research.
    Thank you.
                                 ______
                                 
      Prepared Statement of MENTOR/National Mentoring Partnership
    Chairman Harkin and Ranking Member Cochran, I thank you for the 
opportunity on behalf of MENTOR/National Mentoring Partnership to 
submit written testimony in support of resources for youth being 
mentored or in need of a caring, screened, and trained mentor. 
Specifically, we ask your continued support for the:
  --Mentoring Children of Prisoners program, and
  --Serve America Act programs that support youth mentoring.
    First, we thank you for previous support of the U.S. Department of 
Health and Human Services' (HHS) Mentoring Children of Prisoners 
program and request that you include level funding for the program in 
fiscal year 2011. MENTOR has appreciated the support of the 
subcommittee in previous years, in funding this competitive grant 
program at roughly $50 million since fiscal year 2004. We applaud 
President Obama for including level funding in his fiscal year 2011 
budget for this program at $49.3 million.
    This authorized program provides competitive grants to local 
mentoring organizations to help them match children of incarcerated 
parents with caring adult mentors. As noted by the Administration for 
Children and Families, Faith-Based and Community Initiative,\1\ more 
than 2 million children and youth in the United States have at least 
one parent in a Federal or State correctional facility. Furthermore, 
the Initiative writes:
---------------------------------------------------------------------------
    \1\ http://www.acf.hhs.gov/programs/fbci/progs/fbci_mcp.html

    ``In addition to experiencing disruption in the relationship with 
their parent, these young people often struggle with the economic, 
social, and emotional burdens of the incarceration. Data indicate that 
mentoring programs can help young people, including those with 
incarcerated parents, by reducing their first-time drug and alcohol 
use, improving their relationships and academic performance, and 
reducing the likelihood that they will initiate violence. In addition, 
mentoring programs can provide these children with opportunities to 
develop a trusting relationship with a supportive adult and a stable 
---------------------------------------------------------------------------
environment that can promote healthy values and strong families.''

    In addition, since 2007, MENTOR/National Mentoring Partnership has 
served as the administrator of the Mentoring Children of Prisoners: 
Caregiver's Choice voucher demonstration project (Federal Grant 
#90CV0457). Caregiver's Choice allows caregivers and parents the 
opportunity to directly connect their children with quality mentoring 
programs. Programs that meet quality standards created by experts--in 
mentoring and working with families of the incarcerated--have been 
selected to take part. This 3-year demonstration project has 
consistently met its goals.
    We ask for your continued support to ensure that HHS honors all 
mentoring relationships established between eligible children and 
enrolled programs under the Mentoring Children of Prisoners program.
    Second, the mentoring field as a stream of service was provided a 
boost through the passage and enactment of the Edward M. Kennedy Serve 
America Act. We support President Obama's fiscal year 2011 budget 
request for Serve America Act Programs under the Corporation for 
National and Community Service. This includes $914.3 million for 
AmeriCorps, $60 million for the Social Innovation Fund, $10 million for 
the Volunteer Generation Fund, $40.2 million for Learn and Serve 
America, and $221 million for Senior Corps.
    As enacted, the Serve America Act provides many more opportunities 
to support quality mentoring. For example, mentoring is an eligible 
activity for those engaged in the newly expanded AmeriCorps, Volunteers 
In Service To America (VISTA), and Retired and Senior Volunteer 
Programs (RSVP), as well as the newly created Education Corps and 
Veterans' Corps. In addition, Mentoring Partnerships, which support the 
expansion of quality mentoring in many States throughout the country, 
are now eligible for funding through the National Service Trust Program 
and Volunteer Generation Fund.
    Now that it is authorized, it is doubly important that the act's 
provisions be funded properly in fiscal year 2011 and beyond. Mentoring 
programs and our national network of Mentoring Partnerships already 
rely on the tremendous contributions that AmeriCorps and VISTA 
volunteers make, as mentors to youth in need and staff support at those 
organizations. Indeed, in its fiscal year 2011 budget justification,\2\ 
the Corporation notes mentoring several times in its fiscal year 2009 
performance outcomes, such as in an increase to 65,696 children of 
prisoners mentored through VISTA--well above its target of 50,000 for 
fiscal year 2009. The boost in service represented by the Serve America 
Act would allow programs and Partnerships to make an even more 
meaningful impact in our communities and help us close the gap of 15 
million young people who want and need high-quality mentoring 
relationships.
---------------------------------------------------------------------------
    \2\ http://www.nationalservice.gov/pdf/
2011_budget_justification.pdf
---------------------------------------------------------------------------
    Background on MENTOR and Youth Mentoring.--MENTOR is the Nation's 
leading advocate and resource for mentoring, delivering the research, 
policy recommendations, advocacy, and practical performance tools that 
facilitate the expansion of mentoring initiatives. We believe that, 
with the help and guidance of an adult mentor, each child can unlock 
his or her potential.
    For nearly two decades, MENTOR has worked to expand the world of 
quality mentoring. In cooperation with a national network of Mentoring 
Partnerships and with more than 4,700 mentoring programs nationwide, 
MENTOR helps connect young Americans who want and need caring adults in 
their lives with the power of mentoring.
    We build the infrastructure that enables mentoring programs to 
flourish, and we leverage resources and provide tools that local 
mentoring programs need to operate high-quality mentoring. We also 
assist mentoring programs nationwide in building greater awareness of 
the need for mentors, and raising the profile of mentoring among 
corporate leaders, foundation executives, policymakers, and 
researchers.
    Three million young people are currently benefiting from the 
guidance of caring adult mentors under our system. And through the 
combined efforts of the mentoring field, we seek to close the mentoring 
gap so that the 15 million children who currently need mentors also can 
benefit from caring mentors.
    It is on behalf of these 4,700 mentoring programs, the national 
network of Mentoring Partnerships, and 15 million children who need 
mentors all across our country that we submit this testimony today.
    Benefits of Mentoring.--Youth mentoring is a simple, yet powerful 
concept: an adult provides guidance, support, and encouragement to help 
a young person achieve success in life. Mentors serve as role models, 
advocates, friends, and advisors.
    Mentoring today offers many options--the traditional one-to-one 
format, team and group mentoring, peer mentoring, and even online 
mentoring. And mentoring programs are run by nonprofit community-based 
organizations, schools, faith-based organizations, local government 
agencies, workplaces, and more.
    Numerous program evaluations have demonstrated that high-quality 
mentoring relationships can lead to a range of positive outcomes. A 
meta-analysis of 55 mentoring program evaluations (DuBois et al., 2002) 
found benefits of participation in the areas of emotional/psychological 
well-being, involvement in problem/high-risk behavior, and academic 
outcomes. Looking at a broader range of outcomes, Eby, Allen, Evans, Ng 
and DuBois (2008) conducted a meta-analysis of 40 youth mentoring 
evaluations, and found that youth in mentoring relationships fared 
significantly better than nonmentored youth. Likewise, a recent large 
randomized evaluation of BBBSA's newer, school-based mentoring 
(Herrera, Grossman, Kauh, Feldman, and McMaken, 2007) revealed 
improvements in mentored youth's academic performance, perceived 
scholastic efficacy, school misconduct, and attendance relative to a 
control group of nonmentored youth. In short, mentoring is an effective 
strategy that addresses both the academic and nonacademic needs of 
struggling young people. It can help ensure that students come to 
school and are ready and able to learn.
    Mentoring's Impact on the Drop Out Rate.--Mentoring addresses a 
particular challenge facing our Nation today: the high rate at which 
young people drop out of high school. Nearly one-third of all high 
school students drop out before receiving their diploma, a rate which 
approaches 50 percent for minority students. Research on the dropout 
rate shows that young people can fail to graduate for a wide variety of 
reasons, including: lack of connection to the school environment, lack 
of motivation or inspiration, chronic absenteeism, lack of parental 
involvement, personal reasons such as teen pregnancy, and failing in 
school.\3\ \4\
---------------------------------------------------------------------------
    \3\ Bridgeland, John M. et al. (2006). The Silent Epidemic: 
Perspectives of High School Dropouts. Civic Enterprises in Association 
with Peter D. Hart Research Associates for the Bill & Melinda Gates 
Foundation.
    \4\ Harmacek, Marilyn, ed. (2002). Youth Out of School: Linking 
Absences to Delinquency. 2nd Edition. Colorado: The Colorado Foundation 
for Families and Children.
---------------------------------------------------------------------------
    We know that young people who drop out will face a future of 
unemployment, Government assistance, and even criminal involvement. We 
need to help these young people before they reach the point of dropping 
out of high school. Fortunately, youth mentoring can play in important 
role in addressing the issues young people face within the learning 
environment. Research demonstrates that many of the impacts of 
mentoring can directly address the underlying causes of our Nation's 
dropout crisis. Specific impacts of mentoring include:
  --Mentored youth feel greater competence in completing their 
        schoolwork,\5\ which is linked to higher levels of classroom 
        engagement and higher grades.\6\
---------------------------------------------------------------------------
    \5\ Linnehan, F. (2005) ``The relation of a work-based mentoring 
program to the academic performance and behavior of African American 
students,'' Journal of Vocational Behavior, 59(3).
    \6\ Utman, C. H. (1997). Performance effects of motivational state: 
A meta-analysis. Personality and Social Psychology Review, 1, 170-182.
---------------------------------------------------------------------------
  --School-based mentoring enhances connectedness to schools, peers and 
        society,\7\ and mentored youth have more positive attitudes 
        toward school and teachers.\8\
---------------------------------------------------------------------------
    \7\ Karcher, M.J. (2005). ``The effects of school-based mentoring 
and high school mentors' attendance on their younger mentees' self-
esteem, social skills and connectedness.'' Psychology in the Schools.
    \8\ Jekielek, Susan M. et al. (2002). Mentoring: A Promising 
Strategy for Youth Development. ChildTrends Research Brief, Washington, 
DC.
---------------------------------------------------------------------------
  --Evaluations of mentoring programs indicated that both one-to-one 
        mentoring and group mentoring result in better school 
        attendance for mentored youth.\9\
---------------------------------------------------------------------------
    \9\ Sipe, Cynthia L. (1999). Mentoring Adolescents: What have we 
learned? Contemporary Issues in Mentoring, Grossman, Jean Baldwin (ed), 
Public/Private Ventures.
---------------------------------------------------------------------------
  --Mentored youth experience improvements in parental relationships 
        and their own sense of self-worth.\10\
---------------------------------------------------------------------------
    \10\ Jekielek, Susan M., et al. (2002). Mentoring Programs and 
Youth Development: A Synthesis. ChildTrends, Washington, DC.
---------------------------------------------------------------------------
  --Mentored youth are significantly less likely to participate in 
        high-risk behaviors, including substance abuse, carrying a 
        weapon, unsafe sex, and violent behaviors.\11\
---------------------------------------------------------------------------
    \11\ Beier, Rosenfeld, Spitalny, Zansky, and Bontemmpo. (2000). 
``The potential role of an adult mentor in influencing high-risk 
behaviors in adolescents.'' Archives of Pediatric Medicine 15.
---------------------------------------------------------------------------
    Mentoring is an important tool to help address dropout risk factors 
and help ensure that young people are supported in their effort to 
graduate from high school and make a successful transition to 
adulthood.
    High-quality Mentoring Generates the Strongest Impact.--Like any 
youth-development strategy, mentoring works best when measures are 
taken to ensure quality and effectiveness. Money, personnel, and 
resources are required to initiate and support quality mentoring 
relationships. The average per-child expenditure for a mentoring match 
that adheres to The Elements of Effective Mentoring 
Practice<SUP>TM</SUP>--the mentoring industry standard--is between 
$1,000 and $1,500 per year, depending on the program model.
    Successful mentoring programs must have well-trained staff familiar 
with the needs of the community. One-third of mentoring programs 
indicate that hiring and retaining quality staff can be a challenge due 
to low salaries. A recruitment campaign must be conducted to attract 
volunteers, as many programs have young people on their waiting lists 
for mentors.
    Program staff must interview each potential volunteer, check 
references and perform criminal background checks. Thorough background 
checks alone can cost as much as $50-$90 per volunteer. Once the 
screening process is complete, each mentor must receive first-rate 
training before being matched with a mentee. The work of the mentoring 
program does not end with the first meeting of the mentor and young 
person--both require ongoing support, monitoring, and guidance.
    All of these elements are critical because research clearly links 
program quality with positive outcomes. According to Dr. Jean Rhodes, 
professor of psychology at University of Massachusetts at Boston, 
careful screening, training, and ongoing support are essential to the 
longevity of mentoring relationships and to the ultimate success of 
mentoring relationships.
    Rhodes also found that the longer a mentoring relationship lasts, 
the greater the positive, long-lasting effect it has on a young person. 
Other researchers in the field have substantiated her findings.\12\ In 
essence, when properly prepared and supported, a mentor is more likely 
to connect with the young person and to stick with the relationship 
when times get hard.
---------------------------------------------------------------------------
    \12\ Dubois, D.L. (2000) ``Effectiveness of Mentoring Programs for 
Youth: A Meta-analytic Review,'' American Journal of Community 
Psychology, 30(2). and Public/Private Ventures (2000). Mentoring 
School-Age Children: Relationship Development in Community-Based and 
School-Based Programs.
---------------------------------------------------------------------------
    Need for Federal Dollars.--The mentoring field needs continued 
access to Federal funds if we are to be able to serve more children, 
and serve them well. Once again, America has a wide mentoring gap of 
nearly 15 million young people. The demand for mentoring far exceeds 
the current capacity of local mentoring programs and the number of 
adults who volunteer as mentors, and thousands of children sit on 
waiting lists for mentors. As noted above, it takes financial resources 
to be able to adhere to mentoring best practices and provide quality 
mentoring experiences to young people.
    On behalf of the thousands of mentoring programs and millions of 
mentored children across the country, we commend you for your past 
support of mentoring and national and community service funding. We 
strongly encourage you to continue this wise investment in our young 
people and in our country. Thank you for your consideration.
                                 ______
                                 
           Prepared Statement of Mended Hearts, Incorporated
    I am Robert A. Scott, National Advocacy Chairman for Mended Hearts, 
Inc., a national heart disease support group with more than 275 
chapters across the United States and Canada. In 2009, accredited 
Mended Hearts volunteers visited 187,183 patients and families and are 
serving 430 hospitals throughout the United States.
    As I am a walking testimony of the benefits of National Institutes 
of Health (NIH) supported heart research, I would like to share my 
story with you. In 1998, at age 48, I suffered my first heart attack 
while playing volleyball. While at Woonsocket, Rhode Island's Landmark 
Medical Center, doctors diagnosed me as suffering a so-called silent 
heart attack. I learned that as many as 4 million Americans may 
experience this type of episode--a heart attack with no warning just 
like I had.
    After being stabilized, I was transferred to Roger Williams 
Hospital, in Providence, Rhode Island for a heart catheterization--the 
gold standard for diagnosis of heart problems. The procedure showed 
that I had a blockage in my artery that required a stent to open it. 
Also, it showed that the lower chamber of my heart was damaged, 
resulting in congestive heart failure that could be controlled with 
medicine. A stent was inserted in my artery in Rhode Island Hospital.
    In 1999, I received another heart catheterization in Miriam 
Hospital in Providence, Rhode Island because of the damage to my heart 
from the silent heart attack. However, this time, I was told that my 
artery could not be repaired with a stent and that I needed heart 
bypass surgery the next morning. Calling me a high-risk patient because 
of my age and my weakened heart, my surgeon encouraged me to find a 
doctor in Boston because my heart might not start again. However, he 
assured me that if this happens they had a device that could keep me 
alive for only 7 hours. Thank goodness, he told me that in Boston they 
had another device that could keep me alive for 7 months while they 
located a replacement heart. In less then 10 hours I went from the 
possibility of needing another stent, heart bypass surgery, and a heart 
transplant. My journey with heart disease continued.
    My next stop was to visit my local cardiologist in Woonsocket who 
estimated my survival rate at 20 percent, but he thought I would make 
it. Thankfully, he was right and I survived heart bypass surgery.
    But my journey didn't end there. My congestive heart failure was 
causing my heart to beat irregularly, so I received an implantable 
defibrillator to control the problem in 2002. However, this device had 
to replaced in Rhode Island nearly 4 years later.
    My story continues in 2007 where I started experiencing daily chest 
pain and shortness of breath. Yet another heart catheterization, showed 
that, I needed an additional stent, but this time in Miriam. After the 
procedure, the doctor told me the original heart bypass surgery was no 
longer effective. Although I was scared, my doctors comforted me by 
explaining that a new medical innovation could save my life--a drug 
eluting stent. My doctor explained that it could open up the original 
blockage from my silent heart attack. He added that if these state-of-
the art stents had been available in 1998, I would not have had to have 
the heart bypass surgery.
    Despite previous treatments, I once again was faced with 
cardiovascular disease in February 2009. This time it was a stroke 
warning sign. While driving, I suddenly felt dizzy, so pulled my car 
over to stop. The next thing I knew, I had passed out for a very short 
time and felt numb on the right side of my face. This scared me enough 
that I drove myself to the hospital which just happened to be on the 
same street where I stopped my car. Upon arrival, I was a little 
confused and was later admitted into the hospital. The next day, my 
cardiologist told me I had a transient ischemic attack (TIA). My doctor 
said there was no need for a stress test and because of my heart 
condition I should have another cardiac catheterization. The 
catheterization showed that one of my arteries had minor blockage, so 
the doctor placed another stent in my artery. To date, I have not 
experienced another TIA.
    Today, heart attack, stroke, and other cardiovascular disease 
remain our Nation's most costly and number 1 killer and a major cause 
of disability. Thanks to medical research supported by the NIH, I am 
alive today. I am concerned that NIH continues to invest only 4 percent 
of its budget on heart research and a mere 1 percent on stroke research 
when there are so many people in our country just like me. Enhanced NIH 
funding dedicated to heart and stroke research will bring us closer to 
a cure for these often deadly and disabling diseases.
                                 ______
                                 
         Prepared Statement of the Medical Library Association
            summary of recommendations for fiscal year 2011
    Continue the commitment to the National Institutes of Health (NIH) 
and the National Library of Medicine (NLM) by increasing funding levels 
12 percent to $35 billion for NIH and $402 million for NLM.
    Continue to support the NIH public access policy, which requires 
that all final, peer-reviewed manuscripts are made available through 
NLM's PubMed central database within 12 months of publication and 
support the establishment of similar policies in other Federal 
agencies.
    Continue to support the medical library community's important role 
in NLM's outreach, telemedicine, disaster preparedness, and health 
information technology (health IT) initiatives and the implementation 
of healthcare reform.
    MLA is a nonprofit, educational organization with more than 4,000 
health sciences information professional members worldwide. Founded in 
1898, MLA provides lifelong educational opportunities, supports a 
knowledge base of health information research, and works with a global 
network of partners to promote the importance of quality information 
for improved health to the healthcare community and the public.
    AAHSL is comprised of the directors of the libraries of 142 
accredited American and Canadian medical schools belonging to the 
Association of American Medical Colleges (AAMC). AAHSL's goals are to 
promote excellence in academic health sciences libraries and to ensure 
that the next generation of health professionals is trained in 
information-seeking skills that enhance the quality of healthcare 
delivery.
    Together, MLA and AAHSL address health information issues and 
legislative matters of importance through a joint legislative task 
force and a Government Relations Committee.
              the importance of funding increases for nlm
    We are pleased that the fiscal year 2010 appropriations package 
contained funding increases for NIH and NLM and bolstered their 
baseline budgets. We encourage the subcommittee to continue to provide 
meaningful annual increases for NIH and NLM in the coming years, and 
recommend a 12 percent increase for fiscal year 2011.
    Recovery funding and the fiscal year 2010 budget increases 
stimulated the economy and biomedical research. In the case of NLM, 
Recovery Act funding allowed timely and much-needed increases in 
support for leading edge research and training in biomedical 
informatics--the kinds of programs that will influence future 
developments in health information technology. In fiscal year 2011 and 
beyond, it will be critical to augment NLM's baseline budget to 
accommodate expansion of its information resources, services, and 
programs, which must collect, organize, and make accessible rapidly 
expanding volumes of biomedical knowledge, including the influx of data 
from high-throughput genome sequencing systems and genome-wide 
association studies. Increased funding will also position NLM to 
strengthen its contributions to successful implementation of recent 
congressional priorities related to healthcare reform, health 
information technology, drug safety through its efforts to: enhance 
access to the results of comparative effectiveness research, maintain 
and disseminate health information technology standards, and to expand 
its clinical trial registry and results database in response to 
legislative requirements.
                growing demand for nlm's basic services
    As the world's foremost digital library and knowledge repository in 
the health sciences, NLM provides the critical infrastructure in the 
form of data repositories and online integrated services, such as 
GenBank and PubMed that are helping to revolutionize medicine and 
advance science to the next important era which includes individualized 
medicine based on an individual's unique genetic differences. PubMed, 
with more than 20 million citations to the biomedical literature, is 
the world's most heavily used source of information about published 
results of biomedical research, and GenBank, with its international 
partners, has become the definitive source of gene sequence 
information.
    These collections stand at more than 11.4 million items--books, 
journals, technical reports, manuscripts, microfilms, photographs, and 
images. Without NLM our Nation's medical libraries would be unable to 
provide the quality information services that our Nation's health 
professionals, educators, researchers, and patients have come to 
expect.
                    support and extend public access
    The Appropriations Committee has shown unprecedented foresight and 
leadership by using the annual spending bills as the vehicle to 
establish a mandatory public access policy at the NIH. This highly 
beneficial policy, which requires all NIH-funded researchers to deposit 
their final, peer-reviewed manuscripts in NLM's PubMed Central database 
within 12 months of publication, is improving access to timely and 
relevant scientific information, stimulating discovery, informing 
clinical care, and improving public health literacy. We ask the 
Committee to remain a strong voice in support of the NIH policy, and to 
support the extension of public access policies to other Federal 
science and education agencies. MLA and AAHSL strongly support the 
expansion of public access policies to other agencies, because it would 
bring the benefits of public access to other fields of research and 
because research in other fields is increasingly relevant to 
biomedicine.
    support and encourage nlm partnerships with the medical library 
                               community
Outreach and Education
    NLM's outreach programs are of particular interest to both MLA and 
AAHSL. These activities are designed to educate medical librarians, 
health professionals and the general public about NLM's services and to 
train them in the most effective use of these services. Furthermore, 
NLM's emphasis on outreach to underserved populations assists the 
effort to reduce health disparities among large sections of the 
American public. One example of NLM's leadership is the ``Partners in 
Information Access'' program, which is designed to improve the access 
of local public health officials to information needed to prevent, 
identify and respond to public health threats. With nearly 6,000 
members in communities across the country, the National Network of 
Libraries of Medicine (NNLM) is well positioned to ensure that every 
public health worker has electronic health information services that 
can protect the public's health.
    MLA and AAHSL applaud the success of NLM's outreach initiatives, 
particularly those initiatives that reach out to medical libraries and 
health consumers. We ask the subcommittee to encourage NLM to continue 
to coordinate its outreach activities with the medical library 
community in fiscal year 2011.
                  emergency preparedness and response
    MLA and AAHSL are pleased that NLM has established a Disaster 
Information Management Research Center to expand NLM's capacity to 
support disaster response and management initiatives, as recommended in 
the NLM Board of Regents Long Range Plan for 2006-2016. Presently, 
libraries are a significant, but underutilized resource for community 
disaster planning and management efforts, which NLM can help to deploy.
    NLM has the ability to work with health sciences libraries across 
the country to provide health professionals and the public with access 
to needed health and environmental information by: (1) quickly 
compiling web pages on toxic chemicals and environmental concerns; (2) 
rapidly providing funds, computers and communication services to assist 
librarians in the field who were restoring health information services 
to displaced clinicians and patients; and (3) rerouting interlibrary 
loan requests from the afflicted regions through the NLM.
                      health it and bioinformatics
    NLM has played a pivotal role in creating and nurturing the field 
of medical informatics, which is the intersection of information 
science, computer science, and healthcare. Health informatics tools 
include computers, clinical guidelines, formal medical terminologies, 
and information and communication systems. For nearly 35 years, NLM has 
supported informatics research. The importance of NLM's work in health 
IT continues to grow as the Nation moves toward more interoperable 
health IT systems. A leader in supporting, licensing, developing and 
disseminating standard clinical terminologies for free U.S.-wide use 
(e.g., SNOMED), NLM works closely with the Office of the National 
Coordinator for Health Information Technology (ONCHIT) to promote the 
adoption of interoperable electronic records.
    MLA and AAHSL encourage the subcommittee to continue their strong 
support of NLM's medical informatics and genomic science initiatives, 
at a point when the linking of clinical and genetic data holds 
increasing promise for enhancing the diagnosis and treatment of 
disease. MLA and AAHSL also supporting health information technology 
initiatives in ONCHIT and the Agency for Healthcare Research and 
Quality that build upon initiatives housed at NLM.
                      building and facility needs
    The tremendous growth in NLM's basic functions related to the 
acquisition, organization and preservation of an ever-expanding 
collection of biomedical literature, combined with its growing 
contributions to healthcare reform, health information technology, drug 
safety, and exploitation of genomic information is straining the 
Library's physical resources. NLM now houses 1,100 staff in a facility 
built to accommodate only 650. This increase in the volume of 
biomedical information and in the number of personnel has led to a 
serious space shortage. The NLM Board of Regents has assigned the 
highest priority to supporting the acquisition of a new facility. 
Further, Senate Report 108-345 that accompanied the fiscal year 2005 
appropriations bill acknowledged that the design for the new research 
facility at NLM had been completed, and the subcommittee urged NIH to 
assign a high priority to this construction project so that the 
information-handling capabilities and biomedical research are not 
jeopardized.
    MLA and AAHSL encourage the subcommittee to continue its strong 
support of NLM's goals in order to strengthen the Library's ability to 
provide support for implementation of healthcare reform. At a time when 
medical and health science libraries across the nation face growing 
financial and space constraints, ensuring that NLM continues to serve 
as the archive of last resort for biomedical collections is critical to 
the medical library community and the public we serve.
    Thank you for the opportunity to present the views of the medical 
library community.
                                 ______
                                 
             Prepared Statement of Meharry Medical College
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. Wayne J. 
Riley, President and CEO of Meharry Medical College in Nashville, 
Tennessee. I have previously served as vice-president and vice dean for 
health affairs and governmental relations and associate professor of 
medicine at Baylor College of Medicine in Houston, Texas and as 
assistant chief of medicine and a practicing general internist at 
Houston's Ben Taub General Hospital. In all of these roles, I have seen 
firsthand the importance of minority health professions institutions 
and the title VII Health Professions Training programs.
    Mr. Chairman, time and time again, you have encouraged your 
colleagues and the rest of us to take a look at our Nation and evaluate 
our needs over the next 10 years. I took you seriously and came here 
prepared to offer my best judgments. First, I want to say that it is 
clear that health disparities among various populations and across 
economic status are rampant and overwhelming. Over the next 10 years, 
we will need to be able to deliver more culturally relevant and 
culturally competent healthcare services. Bringing healthcare delivery 
up to this higher standard can serve as our Nation's own preventive 
healthcare agenda keeping us well positioned for the future.
    Minority health professional institutions and the title VII Health 
Professions Training programs address this critical national need. 
Persistent and severe staffing shortages exist in a number of the 
health professions, and chronic shortages exist for all of the health 
professions in our Nation's most medically underserved communities. Our 
Nation's health professions workforce does not accurately reflect the 
racial composition of our population. For example, African Americans 
represent approximately 15 percent of the U.S. population while only 2-
3 percent of the Nation's healthcare workforce is African American.
    There is a well-established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than nonminority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas; (2) provide care 
for minorities; and (3) treat low-income patients.
    As you are aware, title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    Institutions that cultivate minority health professionals have been 
particularly hard-hit as a result of the cuts to the title VII Health 
Profession Training programs in fiscal year 2006 and fiscal year 2007 
Funding Resolution passed earlier this Congress. Given their historic 
mission to provide academic opportunities for minority and financially 
disadvantaged students, and healthcare to minority and financially 
disadvantaged patients, minority health professions institutions 
operate on narrow margins. The cuts to the title VII Health Professions 
Training programs amount to a loss of core funding at these 
institutions and have been financially devastating.
    Mr. Chairman, I feel like I can speak authoritatively on this issue 
because I received my medical degree from Morehouse School of Medicine, 
a historically black medical school in Atlanta. I give credit to my 
career in academia, and my being here today, to title VII Health 
Profession Training programs' Faculty Loan Repayment Program. Without 
that program, I would not be the president of my father's alma mater, 
Meharry Medical College, another historically black medical school 
dedicated to eliminating healthcare disparities through education, 
research and culturally relevant patient care.
    Minority Centers of Excellence (COE).--COEs focus on improving 
student recruitment and performance, improving curricula in cultural 
competence, facilitating research on minority health issues and 
training students to provide health services to minority individuals. 
COEs were first established in recognition of the contribution made by 
four historically black health professions institutions (the Medical 
and Dental Institutions at Meharry Medical College; The College of 
Pharmacy at Xavier University; and the School of Veterinary Medicine at 
Tuskegee University) to the training of minorities in the health 
professions. Congress later went on to authorize the establishment of 
``Hispanic'', ``Native American'' and ``Other'' Historically black 
COEs. For fiscal year 2011, I recommend a funding level of $33.6 
million for COEs.
    Health Careers Opportunity Program (HCOP).--HCOPs provide grants 
for minority and nonminority health profession institutions to support 
pipeline, preparatory, and recruiting activities that encourage 
minority and economically disadvantaged students to pursue careers in 
the health professions. Many HCOPs partner with colleges, high schools, 
and even elementary schools in order to identify and nurture promising 
students who demonstrate that they have the talent and potential to 
become a health professional. Over the last three decades, HCOPs have 
trained approximately 30,000 health professionals including 20,000 
doctors, 5,000 dentists and 3,000 public health workers. For fiscal 
year 2011, I recommend a funding level of $35.6 million for HCOPs.
    National Institutes of Health (NIH): Extramural Facilities 
Construction.--Mr. Chairman, if we are to take full advantage of the 
recent funding increases for biomedical research that Congress has 
provided to NIH over the past decade, it is critical that our Nation's 
research infrastructure remain strong. The current authorization level 
for the Extramural Facility Construction program at the National Center 
for Research Resources is $250 million. The law also includes a 25 
percent set-aside for ``Institutions of Emerging Excellence'' (many of 
which are minority institutions) for funding up to $50 million. 
Finally, the law allows the NCRR Director to waive the matching 
requirement for institutions participating in the program. We strongly 
support all of these provisions of the authorizing legislation because 
they are necessary for our minority health professions training 
schools. In fiscal year 2011, please fund this program at least at $50 
million.
    Research Centers in Minority Institutions (RCMI).--The RCMI program 
at the National Center for Research Resources has a long and 
distinguished record of helping our institutions develop the research 
infrastructure necessary to be leaders in the area of health 
disparities research. Although NIH has received unprecedented budget 
increases in recent years, funding for the RCMI program has not 
increased by the same rate. Therefore, the funding for this important 
program grow at the same rate as NIH overall in fiscal year 2011.
    Strengthening Historically Black Graduate Institutions--Department 
of Education.--The Department of Education's Strengthening Historically 
Black Graduate Institutions program (title III, part B, section 326) is 
extremely important to MMC and other minority serving health 
professions institutions. The funding from this program is used to 
enhance educational capabilities, establish and strengthen program 
development offices, initiate endowment campaigns, and support numerous 
other institutional development activities. In fiscal year 2011, an 
appropriation of $75 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.
    National Institute on Minority Health and Health Disparities 
(NIMHD).--NIMHD is charged with addressing the longstanding health 
status gap between minority and nonminority populations. The NIMHD 
helps health professional institutions to narrow the health status gap 
by improving research capabilities through the continued development of 
faculty, labs, and other learning resources. The NIMHD also supports 
biomedical research focused on eliminating health disparities and 
develops a comprehensive plan for research on minority health at the 
NIH. Furthermore, the NIMHD provides financial support to health 
professions institutions that have a history and mission of serving 
minority and medically underserved communities. For fiscal year 2011, I 
recommend a funding level of $500 million for the NIMHD.
    Department of Health and Human Services' Office of Minority Health 
(OMH ).--Specific programs at OMH include:
  --Assisting medically underserved communities with the greatest need 
        in solving health disparities and attracting and retaining 
        health professionals;
  --Assisting minority institutions in acquiring real property to 
        expand their campuses and increase their capacity to train 
        minorities for medical careers;
  --Supporting conferences for high school and undergraduate students 
        to interest them in health careers; and
  --Supporting cooperative agreements with minority institutions for 
        the purpose of strengthening their capacity to train more 
        minorities in the health professions.
    The OMH has the potential to play a critical role in addressing 
health disparities. For fiscal year 2011, I recommend a funding level 
of $75 million for the OMH.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
Meharry Medical College along with other minority health professions 
institutions and the title VII Health Professions Training programs can 
help this country to overcome health and healthcare disparities. 
Congress must be careful not to eliminate, paralyze or stifle the 
institutions and programs that have been proven to work. Meharry and 
other minority health professions schools seek to close the ever 
widening health disparity gap. If this subcommittee will give us the 
tools, we will continue to work towards the goal of eliminating that 
disparity as we have done for 1876.
    Thank you, Mr. Chairman, for this opportunity.
                                 ______
                                 
          Prepared Statement of the March of Dimes Foundation
    The 3 million volunteers and 1,400 staff members of the March of 
Dimes Foundation appreciate the opportunity to submit the Foundation's 
Federal funding recommendations for fiscal year 2011. The March of 
Dimes is a national voluntary health agency founded in 1938 by 
President Franklin D. Roosevelt to support research and services 
related to polio. Today, the Foundation works to improve the health of 
women, infants and children by preventing birth defects, premature 
birth and infant mortality through research, community services, 
education, and advocacy. The March of Dimes is a unique partnership of 
scientists, clinicians, parents, members of the business community, and 
other volunteers affiliated with 51 chapters and 213 divisions in every 
State, the District of Columbia and Puerto Rico. Additionally, in 1998, 
March of Dimes established its Global Programs to extend its mission 
overseas through partnerships with countries to deliver interventions 
directed at reducing birth defects and preterm birth. The March of 
Dimes recommends the following funding levels for programs and 
initiatives that are essential investments in the future of health of 
the Nation's children.
                             preterm birth
    According to a 2009 report from the National Center for Health 
Statistics (NCHS), the primary reason for the higher infant mortality 
rate in the United States compared to European nations is the greater 
percentage of preterm births--12.4 percent in the United States 
compared to 6.3 percent in Sweden. This suggests that preterm birth 
prevention is central to lowering the U.S. infant mortality rate. 
Moreover, the Institute of Medicine estimated that preterm birth cost 
the United States more than $26 billion in 2005, with costs continuing 
to climb each year.
    In June 2008, the U.S. Surgeon General sponsored a conference to 
develop a research agenda to address the costly and serious problem of 
preterm birth. More than 200 of the country's foremost researchers, 
representing a diversity of backgrounds and expertise, met for 2 days 
and created an action plan of needed steps. Within these steps, there 
are several cross-cutting themes including recommendations to enhance 
biomedical and epidemiological research and to strengthen our Nation's 
vital statistics program. The March of Dimes funding requests 
enumerated below are based on the recommendations of the Surgeon 
General's Conference.
National Institutes of Health--Office of the Director
    The March of Dimes commends members of the Committee for supporting 
the National Children's Study (NCS) by including $193.8 million in the 
fiscal year 2010 Consolidated Appropriations Act. For fiscal year 2011, 
the Foundation supports the President's funding recommendation and 
urges the subcommittee to maintain its commitment to this vital study 
by providing $194.4 million. Currently in the pilot phase, the NCS is 
tracking the more than 150 children born to study participants. The 
data from this important effort will inform the work of scientists in 
universities and research organizations across the Nation and around 
the world, helping them identify precursors to disease and to develop 
new strategies for prevention and treatment. The first data generated 
by the NCS will provide information concerning disorders of birth and 
infancy including preterm birth and its health consequences. The 
Foundation remains committed to supporting a well-designed NCS that 
promotes research of the very highest quality.
Eunice Kennedy Shriver National Institute of Child Health and Human 
        Development (NICHD)
    The March of Dimes recommends a funding increase of at least 12.5 
percent for NICHD in fiscal year 2011. This increase in funding will 
enable NICHD to maintain the momentum and investments made with support 
provided through the Recovery Act. It will also enable the Institute to 
expand its support for preterm birth-related research and to initiate 
establishment of a network of integrated transdisciplinary research 
centers as recommended by the Institute of Medicine and the experts who 
participated in the Surgeon General's Conference. The causes of preterm 
birth are multi-factorial and necessitate a collaborative approach 
integrating many disciplines. These new centers would serve as a 
national resource for investigators to design and to share new research 
approaches and strategies to comprehensively address the problems of 
preterm birth.
Centers for Disease Control and Prevention (CDC)--Preterm Birth
    The National Center for Chronic Disease Prevention and Health 
Promotion, Division of Reproductive Health works to promote optimal 
reproductive and infant health. In 2009, CDC created a robust research 
agenda to prevent preterm birth by improving National and State data to 
track preterm births; developing, implementing, and evaluating methods 
for prevention; understanding the problem of late preterm birth; and 
conducting etiologic and epidemiologic studies of early preterm birth. 
For fiscal year 2011, the March of Dimes recommends a $6 million 
increase in the preterm birth line to strengthen national data systems 
and to expand research on very early as well as late preterm births as 
authorized by the PREEMIE Act (Public Law 109-450).
Centers for Disease Control and Prevention--National Center for Health 
        Statistics
    The National Center for Health Statistics (NCHS) national vital 
statistics program collects birth data that is used to monitor the 
Nation's health status, set priorities and evaluate health programs. It 
is imperative that data collected by NCHS is comprehensive and timely. 
Currently, only 75 percent of States and territories use the 2003 birth 
certificate format and only 65 percent have adopted the 2003 death 
certificate. Consistent with the President's budget request, the 
Foundation recommends allocating $11 million specifically to the 
National Vital Statistics System to help support modernization of the 
State and territorial vital statistics infrastructure without 
undermining the scope and quality of data collected nationally.
Health Resources and Services Administration--Healthy Start
    The Healthy Start Initiative is a collection of community-based 
projects focused on reducing infant mortality, low birthweight and 
racial disparities in perinatal outcomes. Communities with Healthy 
Start programs have seen significant improvements in health outcomes; 
therefore the March of Dimes recommends a funding level for these 
projects of $120 million in fiscal year 2011.
                             birth defects
    An estimated 120,000 infants in the United States are born with 
birth defects each year. Genetic or environmental factors, or a 
combination, can cause a birth defect; however, the causes of 70 
percent of birth defects remain unknown. Investing additional Federal 
resources in research to unveil the causes and prevent, or reduce, the 
incidence of birth defects is sorely needed.
CDC National Center on Birth Defects and Developmental Disabilities 
        (NCBDDD)
    The NCBDDD conducts programs to protect and improve the health of 
children by preventing birth defects and developmental disabilities and 
by promoting optimal development and wellness among children with 
disabilities. For fiscal year 2011, the March of Dimes requests an 
overall funding level of $163 million, a $20 million increase over 
fiscal year 2010, for NCBDDD. Within that increase, we encourage the 
committee to allocate $5 million for support of birth defects research 
and surveillance and an additional $2 million for folic acid education. 
This is a sound public health investment that will promote wellness and 
prevention, reduce health disparities, support the creation of new 
educational materials for consumers and their families and will enable 
CDC to better facilitate transition to adulthood for children with 
disabilities.
    Sustaining the investment in the National Birth Defects Prevention 
Study--the largest case-controlled study of birth defects ever 
conducted--is needed to support genetic analysis of the samples already 
obtained. In 2009, CDC educated healthcare providers through the 
dissemination of more than 10 reports which resulted from this Study. 
Among the topics were the risk factors for birth defects such as 
maternal smoking, obesity and antidepressant use during pregnancy.
    NCBDDD also supports State-based birth defects tracking systems and 
programs to prevent and treat affected children. Surveillance forms the 
backbone of a vital, functional and responsive public health network. 
Due to current the current fiscal crises being faced by many States, 
funding for some of these systems is in jeopardy. Increased investment 
from the Federal Government is necessary to ensure continued investment 
in birth defects surveillance programs.
    Finally, NCBDDD is conducting a national education campaign aimed 
at increasing the number of women consuming appropriate amounts of 
folic acid. CDC estimates that up to 70 percent of neural tube defects 
could be prevented if all women of childbearing age consume 400 
micrograms of folic acid daily. To achieve the full prevention 
potential of folic acid, CDC's national public and health professions 
education campaign must be expanded.
                           newborn screening
    Newborn screening is a vital public health activity used to 
identify and treat genetic, metabolic, hormonal and functional 
disorders in newborns. Screening detects conditions in newborns that, 
if left untreated, can cause disability, mental retardation, serious 
illness or even death. Across the Nation, State and local governments 
are experiencing significant budget shortfalls; due to this fiscal 
pressure, newborn screening programs are threatened by funding cuts. 
While the ramifications--such as discontinuing screening for certain 
conditions or postponing the purchase of necessary technology--can vary 
by State, any funding cut in this essential program puts infants at 
risk for permanent disability or even death. An additional $5 million 
for HRSA's heritable disorders program, as authorized by the Newborn 
Screening Saves Lives Act (Public Law 110-204), is necessary to 
increase support for State efforts to upgrade existing programs, to 
acquire state-of-the-art technology and to increase capacity to reach 
and educate health professionals and parents on newborn screening 
programs and follow-up services.
                                closing
    Thank you for the opportunity to testify on the federally supported 
programs of highest priority to the March of Dimes. The Foundation's 
volunteers and staff in every State, the District of Columbia and 
Puerto Rico look forward to working with Members of the Subcommittee to 
secure the resources needed to improve the health of the Nation's 
mothers, infants and children.

       MARCH OF DIMES FISCAL YEAR 2011 FEDERAL FUNDING PRIORITIES
                        [In millions if dollars]
------------------------------------------------------------------------
                                            Fiscal year   March of Dimes
                 Program                   2010 funding         rec
------------------------------------------------------------------------
National Institutes of Health (Total)...      31,089          35,000
National Children's Study...............         193.8           194.4
Common Fund.............................         544             612
    National Institute of Child Health         1,329           1,495
     and Human Development..............
    National Human Genome Research               516             581
     Institute..........................
    National Center on Minority Health           212             239
     and Disparities....................
Centers for Disease Control and                6,475           8,800
 Prevention (Total).....................
Birth Defects Research & Surveillance...          21.342          26.342
Folic Acid Campaign.....................           3.1             5.1
    Immunization........................         562             865.6
    Polio Eradication...................         102             102
    Preterm Birth.......................           2               8
National Center for Health Statistics...         139             162
Health Resources and Services                  7,483           9,150
 Administration (Total).................
    Maternal and Child Health Block              662             730
     Grant..............................
        Newborn Screening...............          10              15
    Newborn Hearing Screening...........          19              19
    Consolidated (Community) Health            2,146           2,560
     Centers............................
    Healthy Start.......................         105             120
Agency for Healthcare Research and               397             611
 Quality................................
------------------------------------------------------------------------

                                 ______
                                 
         Prepared Statement of the Morehouse School of Medicine
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. John E. 
Maupin, president of Morehouse School of Medicine (MSM) in Atlanta, 
Georgia. I have previously served as president of Meharry Medical 
College, executive vice-president at MSM, as director of a community 
health center in Atlanta, and deputy director of health in Baltimore, 
Maryland. In all of these roles, I have seen firsthand the importance 
of minority health professions institutions and the Title VII Health 
Professions Training programs.
    I want to say that minority health professional institutions and 
the Title VII Health Professionals Training programs address a critical 
national need. Persistent and sever staffing shortages exist in a 
number of the health professions, and chronic shortages exist for all 
of the health professions in our Nation's most medically underserved 
communities. Furthermore, our Nation's health professions workforce 
does not accurately reflect the racial composition of our population. 
For example while blacks represent approximately 15 percent of the U.S. 
population, only 2-3 percent of the Nation's health professions 
workforce is black. Morehouse is a private school with a very public 
mission of educating students from traditionally underserved 
communities so that they will care for the underserved. Mr. Chairman, I 
would like to share with you how your subcommittee can help us continue 
our efforts to help provide quality health professionals and close our 
Nation's health disparity gap.
    There is a well-established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need.
    An October 2006 study by the Health Resources and Services 
Administration, entitled ``The Rationale for Diversity in the Health 
Professions: A Review of the Evidence'' found that minority health 
professionals serve minority and other medically underserved 
populations at higher rates than nonminority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas; (2) provide care 
for minorities; and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution, and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    Given the historic mission, of institutions like MSM, to provide 
academic opportunities for minority and financially disadvantaged 
students, and healthcare to minority and financially disadvantaged 
patients, minority health professions institutions operate on narrow 
margins. The slow reinvestment in the Title VII Health Professions 
Training programs amounts to a loss of core funding at these 
institutions and have been financially devastating.
    Mr. Chairman, I feel like I can speak authoritatively on this issue 
because I received my dental degree from Meharry Medical College, a 
historically black medical and dental school in Nashville, Tennessee. I 
have seen first hand what title VII funds have done to minority serving 
institutions like Morehouse and Meharry. I compare my days as a student 
to my days as president, without that title VII, our institutions would 
not be here today. However, Mr. Chairman, since those funds have been 
slowly replenished, we are standing at a cross roads. This subcommittee 
has the power to decide if our institutions will go forward and thrive, 
or if we will continue to try to just survive. We want to work with you 
to eliminate health disparities and produce world class professionals, 
but we need your assistance.
    Minority Centers of Excellence (COE).--COEs focus on improving 
student recruitment and performance, improving curricula in cultural 
competence, facilitating research on minority health issues, and 
training students to provide health services to minority individuals. 
COEs were first established in recognition of the contribution made by 
four historically black health professions institutions (the Medical 
and Dental Institutions at Meharry Medical College; The College of 
Pharmacy at Xavier University; and the School of Veterinary Medicine at 
Tuskegee University) to the training of minorities in the health 
professions. Congress later went on to authorize the establishment of 
``Hispanic'', ``Native American'' and ``Other'' Historically black 
COEs. For fiscal year 2011, I recommend a funding level of $33.6 
million for COEs.
    Health Careers Opportunity Program (HCOP).--HCOPs provide grants 
for minority and nonminority health profession institutions to support 
pipeline, preparatory, and recruiting activities that encourage 
minority and economically disadvantaged students to pursue careers in 
the health professions. Many HCOPs partner with colleges, high schools, 
and even elementary schools in order to identify and nurture promising 
students who demonstrate that they have the talent and potential to 
become a health professional. Over the last three decades, HCOPs have 
trained approximately 30,000 health professionals including 20,000 
doctors, 5,000 dentists and 3,000 public health workers. For fiscal 
year 2009, I recommend a funding level of $35.6 million for HCOPs.
National Institutes of Health (NIH): Extramural Facilities Construction
    Mr. Chairman, if we are to take full advantage of the recent 
funding increases for biomedical research that Congress has provided to 
NIH over the past decade, it is critical that our Nation's research 
infrastructure remain strong. The current authorization level for the 
Extramural Facility Construction program at the National Center for 
Research Resources is $250 million. The law also includes a 25 percent 
set-aside for ``Institutions of Emerging Excellence'' (many of which 
are minority institutions) for funding up to $50 million. Finally, the 
law allows the NCRR Director to waive the matching requirement for 
institutions participating in the program. We strongly support all of 
these provisions of the authorizing legislation because they are 
necessary for our minority health professions training schools.
    There was 2-year funding in the stimulus bill for extramural 
facilities, but we need a sustained effort to help with our research 
and infrastructure enterprises. I ask that the fiscal year 2011 L-HHS 
bill include at least $50 million for this program.
    Research Centers in Minority Institutions (RCMI).--The RCMI program 
at the National Center for Research Resources has a long and 
distinguished record of helping our institutions develop the research 
infrastructure necessary to be leaders in the area of health 
disparities research. Although NIH has received unprecedented budget 
increases in recent years, funding for the RCMI program has not 
increased by the same rate. Therefore, the funding for this important 
program grow at the same rate as NIH overall in fiscal year 2011.
    Strengthening Historically Black Graduate Institutions--Department 
of Education.--The Department of Education's Strengthening Historically 
Black Graduate Institutions program (title III, part B, section 326) is 
extremely important to MMC and other minority serving health 
professions institutions. The funding from this program is used to 
enhance educational capabilities, establish and strengthen program 
development offices, initiate endowment campaigns, and support numerous 
other institutional development activities. In fiscal year 2011, an 
appropriation of $75 million is suggested to continue the vital support 
that this program provides to historically black graduate institutions.
    National Institute on Minority Health and Health Disparities 
(NIMHD).--The NIMHD is charged with addressing the longstanding health 
status gap between minority and nonminority populations. The NIMHD 
helps health professional institutions to narrow the health status gap 
by improving research capabilities through the continued development of 
faculty, labs, and other learning resources. The NIMHD also supports 
biomedical research focused on eliminating health disparities and 
develops a comprehensive plan for research on minority health at the 
NIH. Furthermore, the NIMHD provides financial support to health 
professions institutions that have a history and mission of serving 
minority and medically underserved communities through the Minority 
Centers of Excellence program. For fiscal year 2011, I recommend a 
funding level of $500 million for the NCMHD.
    Department of Health and Human Services' Office of Minority Health 
(OMH).--Specific programs at OMH include: (1) Assisting medically 
underserved communities with the greatest need in solving health 
disparities and attracting and retaining health professionals; (2) 
Assisting minority institutions in acquiring real property to expand 
their campuses and increase their capacity to train minorities for 
medical careers; (3) Supporting conferences for high school and 
undergraduate students to interest them in health careers; and (4) 
Supporting cooperative agreements with minority institutions for the 
purpose of strengthening their capacity to train more minorities in the 
health professions.
    The OMH has the potential to play a critical role in addressing 
health disparities, and with the proper funding this role can be 
enhanced. For fiscal year 2011, I recommend a funding level of $75 
million for the OMH.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
MSM along with other minority health professions institutions and the 
Title VII Health Professions Training programs can help this country to 
overcome health and healthcare disparities. Congress must be careful 
not to eliminate, paralyze, or stifle the institutions and programs 
that have been proven to work. MSM and other minority health 
professions schools seek to close the ever widening health disparity 
gap. If this subcommittee will give us the tools, we will continue to 
work towards the goal of eliminating that disparity as we have since 
our founding day.
    Thank you, Mr. Chairman, and I welcome every opportunity to answer 
questions for your records.
                                 ______
                                 
     Prepared Statement of the North American Brain Tumor Coalition
National Institutes of Health (NIH)
    It is my pleasure as Chair of the North American Brain Tumor 
Coalition to submit this statement in favor of a strong Federal 
investment in biomedical research, an investment that is critically 
important to improving the treatments for brain tumors. For individuals 
with brain tumors, the possibility of surviving their diagnosis with a 
good quality of life depends on research and development of new 
treatments. Our recommendations to the subcommittee are intended to 
advance that research.
The North American Brain Tumor Coalition and Its Members
    The North American Brain Tumor Coalition is a network of nine brain 
tumor organizations. Our members are the Brain Tumor Awareness 
Organization; Brain Tumour Foundation of Canada; Children's Brain Tumor 
Foundation; Florida Brain Tumor Association; Michael Quinlan Brain 
Tumor Foundation; National Brain Tumor Society; Preuss Foundation; 
Southeastern Brain Tumor Foundation; and Voices Against Brain Cancer.
    Many of the members of the Coalition raise private funds to support 
brain tumor research, while also undertaking patient and family support 
initiatives. Almost all of our members disseminate educational 
materials about brain tumors, and many also have forums for 
collaboration and cooperation among brain tumor researchers. The 
diversity of our organizations reflects the serious and far-reaching 
impact of brain tumors on patients and their families. We are pleased 
to have a Canadian organization in the Coalition, an important sign of 
international collaboration among brain tumor organizations. The fact 
that the Coalition includes organizations outside the United States is 
also a recognition of the fact that brain tumors respect no borders.
    The North American Brain Tumor Coalition brings these diverse 
organizations together to focus on advocacy on behalf of those with 
brain tumors. We are dedicated to improving the prognosis and quality 
of life for brain tumor patients. In order to achieve these goals, 
there must be an increased investment in research to understand the 
causes of brain tumors, improve brain tumor treatments, and strengthen 
neuro-rehabilitation services for those treated for brain tumors.
Brain Tumors and Their Impact
    Brain tumors are not a single disease; there are approximately 126 
types of primary brain tumors. The diversity of brain tumors 
contributes to the complexity of research in this field. Many of the 
126 tumors classified as ``brain tumors'' are not in the brain but 
instead arise from structures that are associated with the brain. These 
include tumors of the membranes covering the brain (referred to as 
meningiomas) or adjacent cranial and paraspinal nerves (schwannomas). 
Brain tumors may be benign (most meningiomas are benign) to highly 
aggressive (glioblastomas). Both children and adults are diagnosed with 
brain tumors.
    It is estimated that there will be more than 62,000 cases of 
primary malignant and nonmalignant brain and central nervous system 
tumors in the United States in 2010.\1\ There will be approximately 
10,000 primary brain tumors in Canada in 2010. In 2010, it is estimated 
that 4,030 new primary brain tumors (malignant and nonmalignant) will 
be diagnosed in children in the United States in 2010. Of the 4,030 new 
cases, an estimated 2,880 will be in children under the age of 15.\1\
---------------------------------------------------------------------------
    \1\ Central Brain Tumor Registry, 2004-2006.
---------------------------------------------------------------------------
    Approximately 612,000 Americans are living with a primary brain 
tumor.\2\
---------------------------------------------------------------------------
    \2\ Porter KR, McCarthy BJ, Freels S, et al., Prevalence estimates 
for primary brain tumors in the US by age, gender, behavior, and 
histology. Neuro-Oncology, In press.
---------------------------------------------------------------------------
    The American Cancer Society estimates that almost 12,920 deaths in 
2009 will be attributed to primary malignant brain tumors.\3\ This 
total does not include those who will die from primary nonmalignant 
brain tumors.
---------------------------------------------------------------------------
    \3\ American Cancer Society, Cancer Facts & Figures 2009, Atlanta, 
2009.
---------------------------------------------------------------------------
    Many tens of thousands--140,000 or more--are diagnosed with 
metastatic brain tumors each year. Many tumor types can spread to the 
brain, but the most common are lung cancer, breast cancer, melanoma, 
kidney cancer, bladder cancer, and testicular cancer. It is estimated 
that metastatic brain tumors occur in 10 to 30 percent of adult 
cancers, and in one-fourth of all cancers that metastasize.\4\
---------------------------------------------------------------------------
    \4\ Medline Plus, National Library of Medicine, accessed on April 
7, 2010.
---------------------------------------------------------------------------
    These statistics about incidence, prevalence, and mortality are 
important, but they do not fully convey the burden of brain tumors. For 
many brain tumor patients, treatments are inadequate. Those who receive 
treatments that do extend their lives may nonetheless experience 
serious side-effects from their brain tumors and treatment, side-
effects that require intervention. In addition, a diagnosis with a 
brain tumor does not only affect the patient; it also has a profound 
effect on the patient's family and friends.
    A study published in the Annals of Internal Medicine on April 6, 
2010, describes the impact of a cancer diagnosis on children. The study 
notes that there have been significant improvements in treatments for 
some pediatric cancers. However, cancer treatments often cause serious 
health problems, including but not limited to second cancers and heart 
conditions. The researchers used computer models to estimate what 
happens to childhood cancer survivors and determined that survivors of 
brain cancer died about 18 years earlier than the general population. 
This study underscores the problems confronted by brain tumor patients 
who ``survive'' their diagnosis.
The Challenges of Brain Tumor Treatment and Research
    In a report dated 2000, the Brain Tumor Progress Review Group, 
convened by the National Cancer Institute (NCI) and National Institute 
of Neurological Disorders and Stroke (NINDS), stated that the 
difficulty in treating brain tumors relates to the unique biology of 
the brain, including the fact the brain is enclosed in a bony canal 
that allows little room for tumor growth, brain tumors invade normal 
tissue and make surgical removal impossible, brain tumors are protected 
by the blood-brain barrier, the brain is rich in expressed genes and 
therefore is a fertile field for growth of brain tumors, and brain 
tumors appear to be less susceptible to attack by the immune system 
than tumors in other organs.
    The complexity and diversity of brain tumors make the work of brain 
tumor researchers very difficult. For this reason, an aggressive and 
balanced approach to brain tumor research is necessary. The research 
effort must be strongly supported by NIH, as described below.
NABTC Recommendations for NIH Funding
    The North American Brain Tumor Coalition supports the 
recommendations of many other biomedical research and patient advocacy 
organizations that NIH funding be increased to $35 billion in fiscal 
year 2011. This amount is necessary to sustain the commitment of the 
American Recovery and Reinvestment Act and prevent disruptions in the 
work of outstanding scientists committed to a wide range of research 
topics. The Coalition understands that this is a very aggressive 
recommendation in the current economic and budget climate, but this 
ambitious level of funding is necessary if additional advances in basic 
and applied science are to be achieved.
    A recent accomplishment in brain tumor research underscores the 
need for additional resources and a sustained Federal commitment in 
order to realize improvements in the quality of treatments for many 
diseases and quality of life for those who are diagnosed with those 
diseases. The Cancer Genome Atlas (TCGA) at NCI announced in January 
2010 that researchers in TCGA Research Network had determined that 
glioblastoma multiforme (GBM) is not a single disease but four distinct 
molecular subtypes. In announcing the research findings, TCGA said that 
the research might lead to a more personalized approach to GBM, one of 
the deadliest of all brain tumors.
    The North American Brain Tumor Coalition applauds the important 
research finding of TCGA but also notes that the finding points to the 
need for additional research, including:
  --Work to understand the molecular classification of other brain 
        tumors, in addition to GBM;
  --Research to translate basic research findings into treatment 
        approaches;
  --Identification of agents that might be evaluated in brain tumors, 
        including those that are newly subject to a molecular 
        classification scheme; and
  --Clinical testing of possible new agents for brain tumor treatment.
    In short, the findings of TCGA point the way to a new approach to 
brain tumor treatment, but we have only taken the first step in a long 
journey to effective, personalized brain tumor treatments.
    This translates to the need for a balanced research program that 
includes the following elements:
  --Support for investigator-initiated research so that new and 
        promising ideas from the Nation's leading brain tumor 
        researchers can be tested;
  --Funding for The Cancer Genome Atlas and other efforts that are 
        advancing the molecular classification of disease;
  --Resources for translational programs to translate basic findings 
        into new treatments; for brain tumor research, this means the 
        continuation of the Specialized Programs of Research Excellence 
        (SPOREs) and the adult and pediatric brain tumor consortia;
  --Support for clinical trials through the brain tumor consortia, 
        cooperative groups, and cancer centers; and
  --Aggressive and creative support for research on the late and long-
        term effects of brain tumor treatment, including research on 
        interventions for these side effects.
    We recommend that medulloblastoma be added to the list of cancers 
identified for further study through The Cancer Genome Atlas. We also 
encourage innovative strategies for data sharing in the SPORE program, 
including across SPORE sites. Research foundations and patient advocacy 
organizations are pioneering creative means for sharing clinical and 
research data, and we encourage NCI to consider some of these models 
for their applicability to SPORE sites and other research settings.
NABTC Recommends Strategies for Encouraging Collaboration
    Brain tumor treatment is complex and multi-disciplinary, and 
research on these tumors must also have these characteristics. NCI and 
NINDS have established and supported a collaborative venture, the 
Neuro-Oncology Program, which takes a collaborative and cooperative 
approach to brain tumor research.
    This cooperative research approach is absolutely critical for brain 
tumors, but it will yield benefits for many other diseases as well. The 
Coalition applauds the leadership of the NIH Director in encouraging 
collaborative ventures that yield communication and collaboration among 
Institutes. We also recommend that more funding mechanisms be created 
to facilitate this sort of cooperation among academic research 
institutions seeking NIH funding.
Urgency in the Brain Tumor Research Program
    It is necessary to keep a long view in biomedical research, 
sustaining funding levels and preventing disruptions in research. 
However, it is also important to have a sense of urgency about the pace 
of research. The 5-year relative survival rate for primary malignant 
brain tumors is 33.6 percent for males and 37 percent for females. For 
these individuals, time is precious and the research effort--literally 
their lifeline--must be accelerated as much as possible.
                                 ______
                                 
   Prepared Statement of the National Association of County and City 
                            Health Officials
                                summary
    The National Association of County and City Health Officials 
(NACCHO) represents the Nation's 2,800 local health departments (LHDs). 
These governmental agencies work every day in their communities to 
prevent disease, promote wellness, and protect the health of the entire 
community. LHDs have a unique and distinctive role and set of 
responsibilities in the larger health system and within every 
community. The Nation depends upon the capacity of LHDs to play this 
role well.
    The Nation's current recession further diminishes the ability of 
LHDs to measure population-wide illness, organize efforts to prevent 
disease and prolong quality of life and to serve the public through 
programs not offered elsewhere. Repeated rounds of budget cuts and 
layoffs in LHDs continue to erode capacity. A series of NACCHO surveys 
found that in 2008-2009, 23,000 jobs have been lost in LHDs, which 
represents a 15 percent cut in the local public health workforce.
    LHDs continue to respond to increased challenges; including H1N1 
influenza, an increasing incidence of chronic disease and outbreaks of 
foodborne illness during a time of growing budget challenges. To help 
maintain the stability of LHDs, the Federal government should increase 
its investment in the following programs in fiscal year 2011 
appropriations: Public Health Emergency Preparedness, Advanced Practice 
Centers, Preventive Health and Health Services Block Grant, Healthy 
Communities and the Health Prevention Corps. Programs authorized by the 
health reform law should also be funded to the extent possible in 
fiscal year 2011 appropriations.
Public Health Emergency Preparedness
    NACCHO Request.--$1.152 billion (including pandemic influenza 
preparedness).
    President's Budget Fiscal Year 2011.--$758 million (Public Health 
Emergency Preparedness).
    Emergency Supplemental Funds for H1N1 Influenza.--$1.3 billion.
    Fiscal Year 2010 Funding.--$761 million (Public Health Emergency 
Preparedness).
    The safety and well-being of America's communities is dependent on 
the capacity of their health departments to respond in any emergency 
that threatens human health, whether it is an act of bioterrorism, an 
influenza pandemic such as occurred in 2009-2010, or a natural 
disaster. The Centers for Disease Control and Prevention (CDC) has 
explicitly adopted an ``all-hazards'' approach to preparedness, 
recognizing that the capabilities necessary to respond to differing 
public health threats have many common elements.
    NACCHO requests $1.152 billion in funding for fiscal year 2011, 
which reflects continued funding for local and State preparedness 
activities under the Pandemic and All-Hazards Preparedness Act along 
with additional support necessary to sustain the capabilities that were 
put into place in 2009 to respond to the H1N1 flu epidemic, made 
possible through $1.3 billion in Federal emergency supplemental 
funding.
    With recent progress in nationwide preparedness and ongoing 
challenges, including the next flu season, now is not the time to 
reduce Federal funding that helps health departments continue their 
progress and address new, emerging threats. Especially when LHDs are 
under great stress from the loss of 15 percent of their workforce over 
the last 2 years, the Nation cannot afford to lose the gains made by 
recent Federal investment in public health. A loss of readiness is 
inevitable if the level of Federal investment is reduced.
    The enhanced capabilities enabled by pandemic influenza 
supplemental funding in 2009 will improve the response to other 
potential epidemics of infectious disease. At the same time, continuous 
training and exercising of all health department staff so that they are 
all ready for the next emergency must continue. Incorporating pandemic 
influenza preparedness into the context of all-hazards preparedness is 
the most efficient use of limited resources and will fully enable 
maintenance of the current level of preparedness and flexibility to 
alter priorities as needed when other public health threats emerge.
Advanced Practice Centers
    NACCHO Request.--$5.4 million.
    President's Budget.--$5.3 million.
    Fiscal Year 2010 Funding.--$5.3 million.
    The mission of the Advanced Practice Center (APC) program is to 
promote innovative and practical solutions that enhance the 
capabilities of all LHDs to prepare for, respond to, and recover from 
public health emergencies. With locations in eight different geographic 
areas of the United States, the APC program supports and strengthens 
LHDs by developing and disseminating resources focused on helping them 
address gaps in local-level preparedness and improve responsiveness to 
address myriad health hazards. An increase in funding to $5.4 million 
would allow the tools produced through this program to reach more LHDs.
Preventive Health and Health Services Block Grant
    NACCHO Request.--$131 million.
    President's Budget Fiscal Year 2011.--$102 million.
    Fiscal Year 2010 Funding.--$102 million.
    LHDs are leaders in efforts to stop preventable health threats from 
occurring. Obesity, heart attack, and accidental injury are all 
examples of preventable health problems LHDs work on every day. The 
Preventive Health and Health Services (PHHS) block grant program is a 
longstanding source of funding for these efforts.
    The increasing prevalence of costly and preventable chronic health 
conditions represents a threat to America's health and economy. 
According to the CDC, the medical care costs of people with chronic 
diseases account for more than 75 percent of the Nation's healthcare 
costs. The emerging epidemic of overweight and obesity is associated 
with $117 billion in annual direct medical expenses and indirect costs, 
including lost productivity, which impairs our economic competitiveness 
during a period of severe economic decline. Increased funding of $131 
million in fiscal year 2011 for the Preventive Health and Health 
Services Block Grant would allow local and State health departments to 
increase their efforts to focus on community priorities aimed at 
reversing the increase in preventable disease rates.
Healthy Communities
    NACCHO Request.--$30 million.
    President's Budget Fiscal Year 2011.--$22.4 million.
    Fiscal Year 2010 Funding.--$22.8 million.
    The Healthy Communities program is dedicated to supporting local 
communities in implementing evidence-based interventions and policy, 
systems, and environmental changes necessary to help communities 
prevent chronic diseases and their risk factors.
    To reverse unfavorable trends in the prevalence and health 
consequences of chronic diseases, communities work in collaboration 
with LHD leadership to address such issues as affordable and accessible 
healthy food options, safe places for physical activity, and the need 
for targeted strategies that address and reduce health disparities. 
Changes in the local environment facilitate healthy choices and go hand 
in hand with education about how to be healthier.
    The Healthy Communities program mobilizes community leadership and 
resources to transform the local environments where people live, work 
and play to stem the growth of chronic disease. CDC anticipates the 
cumulative impact of the Healthy Communities program to reach more than 
300 communities by fiscal year 2011. With increased funding of $30 
million in fiscal year 2011, more communities can be reached with this 
innovative program.
Health Prevention Corps
    NACCHO Request: $10 million.
    President's Budget.--$10 million.
    According to the President's budget, the Health Prevention Corps 
program will ``recruit new talent into service for State and LHDs and 
provide the building blocks for creating a stronger, interdisciplinary 
workforce.'' These funds are meant to create a foundation for the 
program by establishing a management plan for staffing and program 
administration, convening stakeholders to establish the program 
framework, and developing a curriculum for Corps members. A shortage of 
public health professionals is a constant challenge for LHDs and this 
program will help to build a supply of new personnel offering their 
talents and skills to local communities.
                 programs associated with health reform
    The Patient Protection and Affordable Care Act authorized a number 
of new programs that will be beneficial to public health and LHDs. The 
health reform law provides an opportunity to focus on maintaining and 
creating health through support of community prevention programs. The 
law also includes programs that will help to strengthen the public 
health workforce which was challenged by shortages even prior to 
layoffs and attrition caused by recent budget cuts. Programs such as 
Public Health Loan Repayment and Mid-Career Training grants, 
Epidemiological and Laboratory Capacity Grants, Community 
Transformation Grants, Healthy Living, Aging Well and the Diabetes 
Prevention Program would fill tremendous needs at the local level and 
should be funded to the extent possible in the fiscal year 2011 
appropriations process.
                                 ______
                                 
 Prepared Statement of the National Association of Children's Hospitals
    On behalf of the National Association of Children's Hospitals 
(N.A.C.H.) and the Nation's free-standing children's hospitals, I 
respectfully request that the Labor, Health and Human Services, and 
Education, and Related Agencies Appropriations Subcommittee provide the 
fully authorized funding level of $330 million for the Children's 
Hospitals Graduate Medical Education (CHGME) program in fiscal year 
2011.
    With the subcommittee's leadership, Congress has worked to provide 
equitable funding for the Nation's independent children's teaching 
hospitals through the CHGME program. An appropriation of $330 million 
would meet the program's authorization level and ensure that children's 
hospitals will receive equitable funding compared to the Federal 
support that other teaching hospitals receive through Medicare.
    In 2006, Congress reauthorized the CHGME program with nearly 
unanimous bipartisan support. Since then the Labor, Health and Human 
Services, and Education, and Related Agencies Appropriations 
Subcommittee has provided strong, consistent funding for CHGME. In 
fiscal year 2010, Congress appropriated the highest amount the program 
has ever received at $317.5 million. President Obama recognized the 
importance of CHGME in his fiscal year 2011 budget request and 
maintained funding at $317.5--$7.5 million above his request for fiscal 
year 2010.
    CHGME is a targeted, fiscally responsible, slow-growth program that 
is integral to ensuring a stable future for children's hospitals and 
the pediatric workforce. Congress created CHGME in 1999 because it 
recognized the importance of a well-trained pediatric workforce and 
understood the disparity in Federal graduate medical education (GME) 
support that existed between adult teaching hospitals and independent 
children's teaching hospitals. At that time, independent children's 
teaching hospitals were effectively left out of Federal GME support 
provided through Medicare because they treat children and not the 
elderly. In fact, children's hospitals were at a serious financial 
disadvantage, receiving less than 0.5 percent of the Federal GME 
support of other teaching hospitals. Medicaid GME payments, which are 
left to the discretion of States to provide and are well below the 
costs related to training, did not fill the gap.
    Congress also understood when it created CHGME that the disparity 
in GME support under Medicare jeopardized an already precarious 
pipeline of pediatric specialists. As a result of congressional 
foresight and commitment to this program, CHGME has played a critical 
role in addressing the Nation's serious shortage of pediatric 
specialists.
    Independent children's teaching hospitals, which represent less 
than 1 percent of all hospitals, train 35 of all general pediatric 
residents, half of all pediatric specialty fellows, the great majority 
of pediatric researchers, and many other physicians who require 
pediatric training. In addition, they provide half of all hospital care 
to seriously ill children and serve as the Nation's premier pediatric 
research centers.
    CHGME funding now provides children's hospitals with about 80 
percent of the GME support that Medicare provides to adult teaching 
hospitals. The funding has enabled children's hospitals to expand 
pediatric training programs, improve the quality and depth of their 
training, and prevent a net decline in the number of pediatric 
residents. Since the program's inception, children's hospitals have 
more than doubled the number of total pediatric specialty residents in 
response to local, regional, and national needs and children's 
hospitals have increased the number of new training programs by 
approximately 50 percent. These gains were achieved despite the cap on 
CHGME funds and caps on the number of full-time equivalent residents 
that could be counted for purposes of CHGME payment in accordance with 
Medicare rules.
    Unfortunately, shortages in the pediatric workforce still remain, 
particularly in pediatric specialty care. The National Association of 
Children's Hospitals and Related Institutions' (NACHRI) 2009 Pediatric 
Subspecialty Survey found a strong connection between pediatric 
specialty shortages, long-term vacancies and children's access to 
timely and appropriate healthcare. According to the survey, national 
shortages contribute to vacancies in children's hospitals that commonly 
last 12 months or longer for a number of pediatric specialties, 
including pediatric neurology, developmental-behavioral pediatrics, 
pediatric endocrinology, pediatric pulmonology, and pediatric 
gastroenterology.
    Sick children bear the brunt of the shortages of pediatric 
specialists. Wait times for scheduling appointments with pediatric 
specialists often exceeds the prevailing national benchmark of 2 weeks. 
In fact, at least half of children's hospital survey respondents 
reported wait times far longer than 2 weeks. For example:
  --68 percent of children's hospitals experience difficulty scheduling 
        endocrinology visits; the average wait time is more than 10 
        weeks;
  --61 percent report difficulty scheduling neurology visits; the 
        average wait time is 9 weeks; and
  --50 percent report difficulty scheduling developmental pediatrics 
        visits; the average wait time is more than 13 weeks. This 
        exceptionally long wait time is of particular concern given the 
        rise in autism-related disorders among the Nation's children.
    A January 2010 Wall Street Journal article, ``For Severely Ill 
Children, a Dearth of Doctors,'' put a human face on the NACHRI survey 
findings and described the impact of these shortages on a young patient 
and his family. ``Three-year old Kenneth Jones, for example, was born 
in Alaska with a rare gastrointestinal disorder that made him unable to 
absorb protein. He had to travel 3 hours to see one pediatric GI 
specialist in the state-a doctor who left a year later. The family 
moved to Oregon for work-related reasons and found a clinic that could 
provide complete care for the disorder--in Ohio, at a Cincinnati 
Children's Hospital clinic where they had to wait 7 months for 
Kenneth's first appointment. `There are so few pediatric GIs out there 
and so many children that need to be seen that you just have to wait in 
line,' says Kenneth's mother, Lauren Jones. `That's the hardest thing 
to endure for a parent with a sick child who needs help right away.' ''
    CHGME has allowed children's hospitals to begin to address the 
large gap that exists between families' need for pediatric specialty 
care and the supply. In fact, free-standing children's hospitals that 
receive CHGME funding have accounted for 65 percent of the growth in 
pediatric specialty programs.
    By strengthening children's hospitals' training programs and the 
Nation's pediatric workforce, CHGME benefits all children, not just 
those treated at independent children's teaching hospitals. CHGME funds 
indirectly strengthen children's hospitals' roles as pediatric centers 
for excellence, the safety net for low-income children, and the leading 
centers of pediatric research. Children's hospitals are at the center 
of scientific discovery as a result of their strong academic programs 
supported by CHGME and advanced life-saving clinical research. 
Children's teaching hospitals' scientific discoveries have helped 
children survive diseases that were once fatal, such as polio and 
cancer. Furthermore, as a result of scientific research breakthroughs 
at children's teaching hospitals, children now can grow and thrive with 
disabilities and chronic health conditions, such as congenital heart 
disease, cystic fibrosis, cerebral palsy, juvenile diabetes, and spina 
bifida, and become economically self-supporting adults and valuable 
members of their communities.
    CHGME is a sound investment. With full funding, CHGME will help to 
ensure a stable future for the Nation's children's hospitals and the 
pediatric workforce. With that support, children's hospitals will 
continue to be centers for excellence and be able to provide the 
highest-quality healthcare to all children.
    Once again, thank you for your past support for this critical 
program. On behalf of N.A.C.H., its member hospitals, and the children 
and families they serve, I respectfully ask you to provide $330 million 
for CHGME in fiscal year 2011 to support the continued progress that 
has been made in CHGME. As the Nation embarks on the implementation of 
the landmark health reform legislation, it is imperative that we have a 
strong pediatric workforce with a sufficient pool of specialists to 
meet the unique healthcare needs of all children.
                                 ______
                                 
  Prepared Statement of the National Association of Community Health 
                                Centers
                              introduction
    Chairman Harkin, Ranking Member Cochran, and members of the 
subcommittee: My name is Dan Hawkins, and I am the Senior Vice 
President of the National Association of Community Health Centers 
(CHC). On behalf of CHCs and the more than 20 million patients served 
nationwide, as well as the volunteer board members, staff, and 
countless members of the health center movement, I want to thank you 
for this subcommittee's unyielding support for health centers and your 
dedication to the health center mission of providing affordable, 
accessible primary healthcare to all Americans.
    As you know, Congress recently passed the Patient Protection and 
Affordable Care Act (Affordable Care Act)--a law that is historic by 
any measure. The law endeavors to ensure that for the first time, all 
Americans will have access to quality healthcare. From the community 
health center perspective, we are incredibly humbled at the charge the 
new law gives to health centers: to become the healthcare home for 
millions of newly insured patients, even as we maintain our high 
standards of openness to all and a focus on achieving quality that is 
second to none.
    Health centers were started 45 years ago because their founders 
knew that an urgent intervention was needed to deal with the crisis of 
access in America. Today, health centers have been called upon again, 
this time to expand our proven system of care rapidly to ensure that as 
our nation extends coverage to millions of Americans, the promise of 
coverage truly equals care. With your continued support, health centers 
stand ready to deliver and to reach the goals that Congress has set 
out: providing care to 40 million Americans by 2015.
About CHCs
    Today, health centers serve more than 20 million patients in nearly 
8,000 communities. Health centers serve as the family doctor and 
healthcare home for 1 in 8 uninsured individuals, and 1 in every 5 low-
income children.
    Federal law requires that every health center be governed by a 
patient-majority board, which means care is truly patient-centered and 
patient-driven. Health centers must be located in a designated 
Medically Underserved Area, and must provide comprehensive primary care 
services to anyone who comes in the door, regardless of ability to pay.
    As health leaders as well as providers in their communities, health 
centers believe that they have an obligation to work to prevent disease 
and improve the lives and health of their patients and their 
communities. For this reason, health centers have been pioneers in 
improving healthcare quality, particularly in the area of chronic 
disease management. Through the Health Resources and Services 
Administration's Health Disparities Collaboratives, the majority of 
health centers have worked to improve their delivery systems and to 
more effectively educate patients on the self-management of their 
conditions such as cancer, diabetes, asthma, and cardiovascular 
disease. Health centers participating in the Collaboratives almost 
unanimously report that health outcomes for their patients have 
dramatically improved. Published studies have documented these 
outcomes, including one study on the Diabetes Collaboratives where 
evidence showed that over a lifetime, the incidence of blindness, 
kidney failure, and coronary artery disease was reduced.\1\
---------------------------------------------------------------------------
    \1\ Huang, E, Zhang, Q, Brown, S. E.S., Drum, M, Meltzer, D, Chin, 
M. (2007). The Cost-Effectiveness of Improving Diabetes Care in U.S. 
federal Qualified Community Health Centers. Health Services Research, 
42, (6p1), 2174-2193.
---------------------------------------------------------------------------
    Health centers not only improve health and save lives, they also 
cost significantly less, saving the health system overall. In South 
Carolina, a study showed that diabetic patients enrolled in the State 
employees' health plan treated in non-CHC settings were four times more 
costly than those in the same plan who were treated in a community 
health center. The health center patients also had lower rates of 
emergency room use and hospitalization.\2\ In fact, literally dozens of 
studies done over the past 25 years, have concluded that health center 
patients are significantly less likely to use hospital emergency rooms 
or to be hospitalized for ambulatory care-sensitive conditions, and are 
therefore less expensive to treat than patients treated elsewhere.\3\ A 
recent national study done in collaboration with the Robert Graham 
Center found that people who use health centers as their usual source 
of care have 41 percent lower total healthcare expenditures than people 
who get most of their care elsewhere.\4\ As a result, health centers 
saved the healthcare system $18 billion last year alone.
---------------------------------------------------------------------------
    \2\ Proser M. ``Deserving the Spotlight: Health Centers Provide 
High-Quality and Cost-Effective Care.'' October-December 2005 Journal 
of Ambulatory Care Management 28(4):321-330.
    \3\ Rust G., et al. ``Presence of a Community Health Center and 
Uninsured Emergency Department Visit Rates in Rural Counties.'' Journal 
of Rural Health, Winter 2009 25(1):8-16; Dobson D, et al. ``The 
Economic and Clinical Impact of Community Health Centers in Washington 
State: Analyses of the Contributions to Public Health and Economic 
Implications and Benefits for the State and Counties.'' Dec 2008 
Community Health Network of Washington and Washington Association of 
Community and Migrant Health Centers; McRae T. and Stampfly R. ``An 
Evaluation of the Cost Effectiveness of Federal Qualified Health 
Centers (FQHCs) Operating in Michigan.'' October 2006 Institute for 
Health Care Studies at Michigan State University. www.mpca.net. Falik 
M, Needleman J, Herbert R, et al. ``Comparative Effectiveness of Health 
Centers as Regular Source of Care.'' January-March 2006 Journal of 
Ambulatory Care Management 29(1):24-35; Proser M. ``Deserving the 
Spotlight: Health Centers Provide High-Quality and Cost-Effective 
Care.'' October-December 2005 Journal of Ambulatory Care Management 
28(4):321-330; Politzer RM, et al. ``The Future Role of Health Centers 
in Improving National Health.'' 2003 Journal of Public Health Policy 
24(3/4):296-306; see also, e.g., Politzer RM, et al. ``Inequality in 
America: The Contribution of Health Centers in Reducing and Eliminating 
Disparities in Access to Care.'' 2001 Medical Care Research and Review 
58(2):234-248; Falik M, et al. ``Ambulatory Care Sensitive 
Hospitalizations and Emergency Visits: Experiences of Medicaid Patients 
Using Federal Qualified Health Centers.'' 2001 Medical Care 39(6):551-
56; Starfield, Barbara, et al, ``Costs vs. Quality in Different Types 
of Primary Care Settings,'' Journal of the American Medical Association 
272,24 (December 28, 1994): 1903-1908; Stuart, Mary E., et al, 
``Improving Medicaid Pediatric Care,'' Journal of Public Health 
Management Practice 1(2) (Spring, 1995): 31-38; Utilization and Costs 
to Medicaid of AFDC Recipients in New York Served and Not Served by 
Community Health Centers, Center for Health Policy Studies (1994); 
Stuart, Mary E., and Steinwachs, Donald M., (Johns Hopkins Univ. School 
of Public Health and Hygiene), ``Patient-Mix Differences Among 
Ambulatory Providers and Their Effects on Utilization and Payments for 
Maryland Medicaid Users,'' Medical Care 34,12 (December 1993): 1119-
1137; Health Services Utilization and Costs to Medicaid of AFDC 
Recipients in California Served and Not Served by Community Health 
Centers, Center for Health Policy Studies/SysteMetrics (1993).
    \4\ NACHC and the Robert Graham Center. Access Granted: The Primary 
Care Payoff. August 2007. www.nachc.com/access-reports.cfm.
---------------------------------------------------------------------------
Funding Background
    Over the last decade, this subcommittee has been at the forefront 
of expanding access to primary care in America and changing the way 
primary care is delivered through its expansion of the Health Centers 
Program. This expansion effort brought access to care to millions who 
were previously medically disenfranchised. Since 2001, this 
subcommittee has nearly doubled the investment in the Health Centers 
program. In that time, more than 3,500 new health center sites have 
been created, and more than 10 million new patients have gained access 
to care in a health center. It is your commitment that has proven what 
we in the health centers movement knew to be true: that our patient-
centered, community-based health center model of care is the best way 
for Americans to receive primary care.
Impact of Health Reform
    The passage of comprehensive health reform builds on this 
subcommittee's efforts by envisioning yet another expansion of the 
Health Centers Program over the next 5 years. The law creates a 
Community Health Center Fund containing $11 billion in new funding for 
health centers over the next 5 years. We believe this funding will 
allow health centers to grow to serve 40 million Americans by the end 
of fiscal year 2015. This investment will ensure that as more Americans 
become insured, they will actually have a healthcare home in their 
community in which to access care.
Fiscal Year 2011 Request
    The CHC Fund has the potential to fundamentally and positively 
change the way primary care is delivered in this country. However, in 
order for the CHC Fund to have its intended impact, it is critical that 
the discretionary funding level of the Health Centers Program at least 
meet the fiscal year 2010 level of $2.19 billion. Keeping the 
discretionary funding base at least at the fiscal year 2010 level will 
allow the CHC Fund to be fully utilized for new health centers, 
expanded medical, oral, behavioral, and pharmacy services at existing 
health centers, and allow the continuation of desperately needed ARRA 
Increased Demand for Services funding to health centers who have 
already expanded care to almost 2 million new patients over the last 
year.
Conclusion
    At this historic moment for the health centers movement, I am 
deeply proud to be speaking for CHCs nationwide. I have personally seen 
the power of health centers to lift the health and the lives of 
individuals and families in our most underserved communities. Thanks to 
your longstanding support, health centers have revolutionized primary 
care community by community and we are ready to do even more. In light 
of the passage of health reform, health centers stand ready to live up 
to the incredible trust that has been placed in us. With your support, 
we look forward to ensuring that the Government's investment in reform 
translates into improved health and wellness for the Nation for years 
to come.
                                 ______
                                 
Prepared Statement of the National Alliance for Eye and Vision Research
                           executive summary
    National Alliance for Eye and Vision Research (NAEVR) requests 
fiscal year 2011 National Institutes of Health (NIH) funding at $35 
billion, which reflects a $3 billion increase more than President 
Obama's proposed funding level of $32 billion. Funding at $35 billion, 
which reflects NIH's net funding levels in both fiscal year 2009 and 
fiscal year 2010, ensures it can maintain the number of multi-year 
investigator-initiated research grants, the cornerstone of our Nation's 
biomedical research enterprise.
    The vision community commends Congress for $10.4 billion in NIH 
funding in the American Recovery and Reinvestment Act (ARRA), as well 
as fiscal year 2009 and fiscal year 2010 funding increases that enabled 
NIH to keep pace with biomedical inflation after 6 previous years of 
flat funding that resulted in a 14 percent loss of purchasing power. 
Fiscal year 2011 NIH funding at $35 billion enables it to meet the 
expanded capacity for research--as demonstrated by the significant 
number of high-quality grant applications submitted in response to ARRA 
opportunities--and to adequately address unmet need, especially for 
programs of special promise that could reap substantial downstream 
benefits, as identified by NIH Director Francis Collins, M.D., Ph.D. in 
his top five priorities. As President Obama has stated repeatedly, 
including at a visit to the NIH in September 2009, biomedical research 
has the potential to reduce healthcare costs, increase productivity, 
and ensure the global competitiveness of the United States.
    NAEVR requests that Congress improve upon the President's proposed 
2.5 percent National Eye Instutute (NEI) increase--the second smallest 
increase of all Institutes and Centers--especially if it does not 
increase overall NIH funding above the President's request.
    In 2009, Congress spoke volumes in passing S. Res. 209 and H. Res. 
366, which acknowledged NEI's 40th anniversary and designated 2010-2020 
as The Decade of Vision, in which the majority of 78 million Baby 
Boomers will turn 65 years of age and face greatest risk of aging eye 
disease. This is not the time for a less-than-inflationary increase 
that nets a loss in the NEI's purchasing power, which eroded by 18 
percent in the fiscal year 2003-2008 timeframe. NEI-funded research is 
resulting in treatments and therapies that save vision and restore 
sight, which can reduce healthcare costs, maintain productivity, ensure 
independence, and enhance quality of life.
 fiscal year 2011 nih funding at $35 billion enables the nei to build 
upon the impressive record of basic and clinical collaborative research 
that meets nih's top five priorities and was funded through fiscal year 
        2009-2010 arra and increased ``regular'' appropriations
    NEI's research addresses the pre-emption, prediction, and 
prevention of eye disease through basic, translational, 
epidemiological, and comparative effectiveness research which also 
address the top five NIH priorities, as identified by Dr. Collins: 
genomics, translational research; comparative effectiveness; global 
health, and empowering the biomedical enterprise. NEI continues to be a 
leader within the NIH in elucidating the genetic basis of ocular 
disease--NEI Director Paul Sieving, M.D., Ph.D., has reported that one-
quarter of all genes identified to date through collaborative efforts 
with the National Human Genome Research Institute (NHGRI) are 
associated with eye disease/visual impairment.
    NEI received $175 million of the $10.4 billion in NIH ARRA funding. 
As a result, NEI's total funding levels in the fiscal year 2009-2010 
timeframe were $776 million and $794.5 million, respectively. In fiscal 
year 2009, NEI made 333 ARRA-related awards, the majority of which 
reflect investigator-initiated research that funds new science or 
accelerates ongoing research, including ten Challenge Grants. Several 
examples of research, and the reasons why it is important, include:
  --Biomarker for Neovascular Age-related Macular Degeneration (AMD).--
        Researchers will use a recently discovered biomarker for 
        choroidal neovascularization--the growth of abnormal blood 
        vessels into the retina and responsible for 90 percent of 
        vision loss associated with AMD--to develop an early detection 
        method to minimize vision loss. Why important? AMD is the 
        leading cause of vision loss in the United States, especially 
        in the elderly.
  --Cellular Approach to Treating Diabetic Retinopathy (DR).--
        Researchers propose to develop a clinical treatment for 
        diabetic retinopathy--in which diabetes damages small blood 
        vessels in the retina, causing them to leak--that uses stem 
        cells from the patient's own blood that have been activated 
        outside of the body and then returned to repair damaged vessels 
        in the eye. Why important? DR is the leading cause of vision 
        loss in younger Americans, and its incidence is 
        disproportionately higher in African Americans, Latinos, and 
        Native Americans.
  --Small Heat Shock Proteins as Therapeutic Agents in the Eye.--
        Researchers propose to develop new drugs to prevent or reverse 
        blinding eye diseases, such as cataract (clouding of the lens), 
        that are associated with the aggregation of proteins. Research 
        will focus on the use of small ``heat shock'' proteins that 
        facilitate the slow release and prolonged delivery of targeted 
        macromolecules to degenerating cells of the eye. Why important? 
        Delivering effective, long-lasting therapies through a 
        minimally invasive route into the eye is a major challenge.
  --Identification of Genes and Proteins That Control Myopia 
        Development.--Researchers propose to identify targets that will 
        facilitate development of interventions to slow or prevent 
        myopia (nearsightedness) development in children. Identifying 
        an appropriate myopia prevention target can reduce the risk of 
        blindness and reduce annual life-long eye care costs. Why 
        important? More than 25 percent of the U.S. population has 
        myopia, costing $14 billion annually, from adolescence to 
        adulthood.
  --Comparison of Interventions for Retinopathy of Prematurity (ROP).--
        In animal studies, researchers will simulate Retinopathy of 
        Prematurity--a blinding eye disease that affects premature 
        infants--and then study novel treatments that involve 
        modulating the metabolism of the retina's rod photoreceptors. 
        Why important? ROP affects 15,000 children a year, about 400-
        600 of whom progress to blindness, at an estimated lifetime 
        cost for support and unpaid taxes of $1 million each.
  --The NEI Glaucoma Human genetics collaBORation, NEIGHBOR.--This 
        research network, in which seven U.S. teams will lead genetic 
        studies of the disease, may lead to more effective diagnosis 
        and treatment. Researchers were primarily funded through ARRA 
        supplements. Why important: Glaucoma, a complex 
        neurodegenerative disease that is the second leading cause of 
        preventable blindness in the United States, often has no 
        symptoms until vision is lost.
  --Comparative Effectiveness of Interventions for Primary Open Angle 
        Glaucoma (POAG).--Researchers will evaluate existing data on 
        the effectiveness of various treatment options for primary open 
        angle glaucoma--many emerging from past NEI research. Why 
        important? POAG is the most common form of the disease, which 
        disproportionately affects African Americans and Latinos.
    In addition to ARRA funding, the ``regular'' appropriations 
increases in fiscal year 2009-2010 enabled the NEI to continue to fund 
key research networks, such as the following:
  --The African Descent and Glaucoma Evaluation Study (ADAGES), which 
        is designed to identify factors accounting for differences in 
        glaucoma onset and rate of progression between individuals of 
        African and European descent.
  --The Diabetic Research Clinical Research Network's initiation of new 
        trials comparing the safety and efficacy of drug therapies as 
        an alternative to laser treatment for diabetic macular edema 
        and proliferative diabetic retinopathy.
  --The Neuro-Ophthalmology Research Disease Investigator Consortium 
        (NORDIC), which will lead multi-site observational and 
        treatment trials, involving nearly 200 community and academic 
        practitioners, to address the risks, diagnosis, and treatment 
        of visual dysfunction due to increased intracranial pressure 
        and thyroid eye disease.
    The unprecedented level of fiscal year 2009-2010 vision research 
funding is moving our Nation that much closer to the prevention of 
blindness and restoration of vision. With an overall NIH funding level 
of $35 billion, which translates to an NEI funding level of $794.5 
million, the vision community can accelerate these efforts, thereby 
reducing healthcare costs, maintaining productivity, ensuring 
independence, and enhancing quality of life.
 if congress does not increase fiscal year 2011 nih funding above the 
president's request, it is even more vital to improve upon the proposed 
                      2.5 percent increase for nei
    The NIH budget proposed by the administration and developed by 
Congress during the very first year of the Congressionally-designated 
Decade of Vision should not contain a less-than-inflationary increase 
for the NEI due to the enormous challenges it faces in terms of the 
aging population, the disproportionate incidence of eye disease in 
fast-growing minority populations, and the visual impact of chronic 
disease (e.g., diabetes). If Congress is unable to fund NIH at $35 
billion in fiscal year 2011 (NEI level of $794.5 million) and adopts 
the President's proposal, the 2.5 percent increase in funding must be 
increased to at least an inflationary level of 3.2 percent to prevent 
any further erosion in NEI's purchasing power. NEI funding is an 
especially vital investment in the overall health, as well as the 
vision health, of our Nation. It can ultimately delay, save, and 
prevent health expenditures, especially those associated with the 
Medicare and Medicaid programs, and is, therefore, a cost-effective 
investment.
  vision loss is a major public health problem: increasing healthcare 
         costs, reducing productivity, diminishing life quality
    The NEI estimates that more than 38 million Americans age 40 and 
older experience blindness, low vision, or an age-related eye disease 
such as AMD, glaucoma, diabetic retinopathy, or cataracts. This is 
expected to grow to more than 50 million Americans by year 2020. The 
economic and societal impact of eye disease is increasing not only due 
to the aging population, but to its disproportionate incidence in 
minority populations and as a co-morbid condition of chronic disease, 
such as diabetes.
    Although the NEI estimates that the current annual cost of vision 
impairment and eye disease to the United States is $68 billion, this 
number does not fully quantify the impact of direct healthcare costs, 
lost productivity, reduced independence, diminished quality of life, 
increased depression, and accelerated mortality. The continuum of 
vision loss presents a major public health problem and financial 
challenge to the public and private sectors.
                              about naevr
    The National Alliance for Eye and Vision Research (NAEVR) is a 
501(c)4 nonprofit advocacy coalition comprised of 55 professional, 
consumer, and industry organizations involved in eye and vision 
research. Visit NAEVR's Web site at www.eyeresearch.org.
                                 ______
                                 
   Prepared Statement of the National Association of Local Boards of 
                                 Health
    We strongly urge you to consider funding in the area of Public 
Health Systems and Services Research (PHSSR). This is an emerging field 
that is experiencing rapid growth. Research in this area is in its 
infancy with tremendous potential to grow as a field of study, while at 
the same time is of great benefit to the public. The National 
Association of Local Boards of Health (NALBOH) has both contributed to 
and benefited from research in PHSSR along with forming collaborative 
partnerships with organizations having similar interests, thereby 
complimenting and building on the work of others such as the National 
Association of County and City Health Officials (NACCHO) and the 
Association of State and Territorial Health Officials (ASTHO).
    Specifically, one of these collaborative efforts has been the data 
harmonization project. Through this project, a large, collective 
database is being formed that researchers, boards of health, health 
departments and the public can use when developing educational 
materials and resources, fostering partnerships, and making more 
streamlined efforts to advance public health at the local level. 
Members of local boards of health are leaders on which their 
communities, cities, and counties rely; therefore it is critical to 
ensure that board members have adequate training and resources 
available to them so they can fulfill the duties of their positions, 
making evidence-based decisions.
    One way that we can assess the needs of boards is through the 
NALBOH profile survey. A web-based survey will be conducted in 2010 
extending a mail survey that was conducted in 2008. This survey 
provides a voice for the more than 3,200 local boards of health 
encompassing more than 20,000 members nationwide. The information 
gathered through this survey and similar projects conducted by NALBOH 
and its collaborators demonstrates areas in which local boards of 
health need training, provides a description of the duties and 
responsibilities of these boards, and supplies a description of the 
member demographic composition of these boards.
    Additionally, NALBOH has on-going Public Health Systems and 
Services Research projects. One project is conducting a survey of state 
boards of health to provide a description of these boards and their 
duties. This survey will help to fill a void of such data. Other 
projects include assessing the processes by which board of health 
members are appointed. A more thorough understanding of this process 
will allow NALBOH and its partners to assist in ensuring that the best 
interests of the public are served as board of health members are 
appointed. Governance legal authority of local boards of health is 
being explored to determine whether local board of health members 
understand their statutory authority, how they perceive this authority, 
and how this is related to their board's effectiveness.
    We urge you to provide financial support for these valuable 
programs.
                                 ______
                                 
     Prepared Statement of the National Alliance on Mental Illness
    Chairman Harkin and members of the subcommittee, I am Mike 
Fitzpatrick, Executive Director of the National Alliance on Mental 
Illness (NAMI). I am pleased today to offer NAMI's views on the 
subcommittee's upcoming fiscal year 2011 bill. NAMI is the Nation's 
largest grassroots advocacy organization representing persons living 
with serious mental illnesses and their families. Through our 1,100 
affiliates in all 50 States, we support education, outreach, advocacy 
and research on behalf of persons with serious mental illnesses such as 
schizophrenia, manic depressive illness, major depression, severe 
anxiety disorders, and major mental illnesses affecting children.
    The cost of mental illness to our Nation is enormous. It is 
estimated that the direct and indirect cost of untreated mental illness 
to our Nation exceeds $80 billion annually. However, these direct and 
indirect costs do not measure the substantial and growing burden that 
is imposed on ``default'' systems that are too often responsible for 
serving children and adults with mental illness who lack access to 
treatment. These costs fall most heavily on the criminal justice and 
corrections systems, emergency rooms, schools, families, and homeless 
shelters. Moreover, these costs are not only financial, but also human 
in terms of lost productivity, lives lost to suicide and broken 
families. Investment in mental illness research and services are--in 
NAMI's view--the highest priority for our Nation and this subcommittee.
National Institute of Mental Health (NIMH) Research Funding
    NIMH is the principal Federal agency charged with funding 
biomedical research on serious mental illnesses. To inspire and support 
research that will continue to make a difference for people living with 
mental illnesses, and ultimately, promote recovery, NIMH developed a 
strategic plan in 2009 to guide future research efforts. The 
overarching objectives of the strategic plan are to: (1) promote 
discovery in the brain and behavioral sciences to fuel research on the 
causes of mental disorders; (2) chart mental illness trajectories to 
determine when, where and how to intervene; (3) develop new and better 
interventions that incorporate the diverse needs and circumstances of 
people with mental illnesses; and (4) strengthen the public health 
impact of NIMH-supported research.
Translating Research Advances into New Treatments
    It is critical for us to move beyond the current universe of 
palliative treatments for serious mental illness. Even with optimal 
care, some children and adults living with serious mental illness will 
not be able to achieve recovery (as defined as permanent remission). As 
NIMH Director Dr. Tom Insel has noted, consumers and families need 
rapid, effective treatments that target the core pathophysiology of 
serious mental illnesses and the tools for early detection. Mental 
illness research can develop new diagnostic markers and treatments, but 
this will require defining the pathophysiology of these illnesses. NIMH 
now has the research tools necessary. Now is the time to set an 
ambitious goal of finding cures to these extremely disabling illnesses. 
However, NIMH must have the resources it needs to support this critical 
research agenda.
American Recovery and Reinvestment Act (ARRA) Investments
    NAMI would like to draw the subcommittee's attention to two 
specific critical investments NIMH is making as part of the ARRA and 
collaborations with the Department of Defense. The first is the 
Recovery After an Initial Schizophrenia Episode (RAISE) study which is 
being financed (in part) with $368 million in ARRA funds. RAISE is the 
first ever large-scale trial exploring early and aggressive treatment 
integrating a variety of different therapies to reduce the symptoms and 
prevent the gradual deterioration of functioning that is characteristic 
in schizophrenia. The second is Study to Assess Risk and Resilience in 
Service Members (STARRS)--a joint Army-NIMH study of suicide and mental 
health among military personnel. Army STARRS will identify--as rapidly 
as possible--modifiable risk and protective factors related to mental 
health and suicide. It also will support the Army's ongoing efforts to 
prevent suicide and improve soldiers' overall well being.
Continuing the Federal Investment in Mental Illness Research
    The President is proposing $1.541 billion for basic scientific and 
clinical research at the NIMH. This is a $51 million increase above the 
current fiscal year 2010 level of $1.489 billion. While this is below 
the expected increase in biomedical research inflation, it is a 
tremendous accomplishment and endorsement of the importance of 
investment in medical research in a budget that proposes an overall 
freeze in domestic discretionary spending.
    For fiscal year 2011, NAMI supports the recommendations of the Ad 
Hoc Group on Medical Research for an overall NIH funding level of $36 
billion (a 12 percent increase more than fiscal year 2010). For NIMH, 
NAMI recommends a similar 12 percent increase, up to $1.683 billion--
$143 million above the President's request and $193.6 million above the 
fiscal year 2010 appropriation.
Funding for Programs at SAMHSA's Center for Mental Health Services 
        (CMHS)
    Mr. Chairman, as our Nation continues to struggle through this 
current economic downturn and States struggle with diminished revenues, 
we are experiencing unprecedented strain in mental health service 
budgets. Since 2009, we have seen a combined total of nearly $1.8 
billion cut from State mental health authority (SMHA) budgets. In a 
number of States the spending reduction for mental health exceeds 20 
percent of the entire SMHA budget. A few examples of the scale of these 
cuts to State mental health budgets include:
  --Ohio.--Combined State mental health authority cuts from 2009 
        through 2011 of 36.2 percent across the board or a $191.3 
        million reduction.
  --Rhode Island.--A total percentage cut of 34 percent from 2007 to 
        2009 (from a statewide budget of $82.1 million to $54.5 
        million)--as a result the State is experiencing a 65 percent 
        increase in the number of children with Serious Emotional 
        Disturbance boarding in public emergency rooms.
  --Illinois.--Since 2009, 10,000 low-income children and adults have 
        lost access to community-based mental healthcare.
  --Kansas.--New admissions to the State's public psychiatric hospitals 
        have been frozen for the remainder of 2010 and nine of the 
        State's 27 Community Mental Health Centers are in operating 
        deficits and in jeopardy of being closed (most of these 
        agencies serve rural health professional shortage areas).
  --Mississippi.--The Governor has proposed an $18 million cut this 
        year that would result in the closing of six crisis centers and 
        four Department of Mental Health facilities including two 
        inpatient psychiatric hospitals.
    When investments in treatment, support and recovery are slashed to 
this extreme degree, the costs to society and to Government do not go 
away. Instead, the costs just get passed along far more expensively in 
terms of public spending and far less successfully in terms public 
health:
  --Half of all lifetime mental illnesses begin by age 14 and without 
        access to early diagnosis and treatment, we end up paying much 
        more for special education, private placements, substance abuse 
        and juvenile detention.
  --Without access to community-based treatment and support, we end up 
        paying much more for secondary medical symptoms, homelessness, 
        addiction, broken families, extended hospital emergency 
        admissions, nursing home beds, jails, and prisons.
  --Without access to mental healthcare, our national and State 
        economies lose billions of dollars every year in unemployment, 
        under-employment and lost productivity.
  --Without access to treatment and recovery, people with serious 
        mental illnesses are destined to die 25 years sooner than the 
        general population.
    At NAMI we refer to this as ``spending money in all the wrong 
places'' as the burden of untreated mental illness is shifted and 
hidden but no less at taxpayers expense.
    It is imperative that programs at the Center for Mental Health 
Services (CMHS) at SAMHSA help States respond to the individual crises 
they are facing in trying to manage such deep reductions to community 
mental health budgets in a time of rising demand--both respect to the 
needs of the existing population of people living with serious mental 
illness and new populations at risk of anxiety, depression and 
psychosis.
    In particular, this subcommittee must expand investment in the 
Mental Health Block Grant (MHBG) for fiscal year 2011. Funding for the 
MHBG has been frozen at its current level of $420 million since fiscal 
year 2000. NAMI urges the subcommittee to respond to this crisis at the 
State level by increasing funding for the Mental Health Block Grant by 
$100 million to $520 million in fiscal year 2011.
    NAMI would also recommend the following priorities for CMHS for 
fiscal year 2011:
  --Support the President's proposal to increase the PATH Homeless 
        Formula Grant program to $70 million (a proposed $5 million 
        increase above fiscal year 2010),
  --Support the President's proposal for a $5 million increase for the 
        Children's Mental Health program, boosting funding up to $126 
        million, and
  --Support the President's proposal for a $6 million increase for 
        suicide prevention activities at CMHS (up to $54.2 million), 
        including funding for the Garrett Lee Smith Memorial Act.
Addressing Chronic Homelessness and Mental Illness
    SAMHSA's homeless programs fill a gap created by a preference for 
funding housing capital needs over the critically important services 
that are necessary for programs to be effective. In the recent 
competition conducted by SAMHSA the agency received more than 500 
qualified applications, of which the agency was only able to fund 68. 
The interest and capacity of providers to put these Federal dollars to 
work and end homelessness for thousands of homeless individuals should 
demonstrate to Congress a clear mandate to significantly increase 
funding for SAMHSA's homeless programs.
    The current fiscal year 2010 funding level of SAMHSA homeless 
programs is $75 million. This is divided between two accounts: $32.25 
million within the Center for Mental Health Services (CMHS) and $42.75 
within the Center for Substance Abuse Treatment (CSAT). The President's 
budget proposes an increase of $12.1 million, $7.446 million for CMHS 
and $4.610 million for CSAT.
    The President's 2011 budget proposal includes a new Homeless 
Initiative Program. This is a HUD/HHS partnership creating two 
demonstration programs, including one that couples Housing Choice 
Vouchers with services funding by Medicaid and SAMHSA. The Medicaid 
funds are mandatory spending and do not require an appropriations 
amount. However, the SAMHSA contribution must be appropriated and the 
President proposes $15.8 million. This funding includes the $12.1 
million proposed SAMHSA homeless services increase and an additional 
$3.7 million from existing CSAT resources.
    NAMI applauds the administration's recognition that the Federal 
Government can do a better job helping communities couple housing and 
services funding. This is a good first step. However, we are concerned 
that the chronically homeless demonstration would take $3.7 million 
from existing resources and only States with existing 1115 Medicaid 
waivers can apply. NAMI urges this subcommittee to ensure that an 
optimal number of States and public housing authorities, who administer 
Housing Choice Vouchers, can use the Medicaid and SAMHSA funding 
available for this program to more effectively target chronically 
homeless individuals living with mental illness.
    Overall, NAMI urges this subcommittee to provide $120 million in 
SAMHSA homeless programs for essential mental health and substance use 
treatment services linked to permanent supportive housing for 
chronically homeless individuals and families. This request would 
increase funding by $45 million more than the fiscal year 2010 funding 
level. NAMI also supports the President's recommendation for $15.8 
million for SAMHSA's portion of the administration's Homeless 
Initiative Program for fiscal year 2011.
Continue Progress on Addressing the Social Security Disability Claims 
        and Appeals Backlog
    Mr. Chairman, people with mental illness and other severe 
disabilities have been bearing the brunt of the backlog crisis for 
disability claims and appeals at Social Security. Behind the numbers 
are individuals with disabilities whose lives have unraveled while 
waiting for decisions--families are torn apart; homes are lost; medical 
conditions deteriorate; once stable financial security crumbles; and 
many individuals die. NAMI congratulates this subcommittee on the 
progress made since 2008 with the appropriation for SSA's Limitation on 
Administrative Expenses (LAE), boosting it to $11.447 billion for 
fiscal year 2010. This investment, along with ARRA funds to improve 
information technology has allowed SSA to hire new staff, reduce 
processing times and make progress on the reducing the disability 
claims backlog. NAMI urges the subcommittee to continue this progress 
and support the President's recommendation for an LAE of $12.521 
billion for fiscal year 2011.
Conclusion
    Chairman Harkin, thank you for the opportunity to share NAMI's 
views on the Labor, Health and Human Services, and Education, and 
Related Agencies Subcommittee's fiscal year 2011 bill. NAMI's consumer 
and family membership thanks you for your leadership on these important 
national priorities.
                                 ______
                                 
          Prepared Statement of the National AHEC Organization
    The National AHEC Organization (NAO) is the professional 
organization representing Area Health Education Centers (AHECs). Our 
message is simple:
  --The Area Health Education Center program is effective and provides 
        vital services and national infrastructure.
  --Area Health Education Centers are the workforce development, 
        training and education machine for the nation's healthcare 
        safety-net programs.
    AHEC is one of the Title VII Health Professions Training programs, 
originally authorized at the same time as the National Health Service 
Corps (NHSC) to create a complete mechanism to provide primary care 
providers for Community Health Centers (CHCs) and other direct 
providers of healthcare services for underserved areas and populations. 
The plan envisioned by creators of the legislation was that the CHCs 
would provide direct service. The NHSC would be the mechanism to fund 
the education of providers and supply providers for underserved areas 
through scholarship and loan repayment commitments. The AHEC program 
would be the mechanism to recruit providers into primary health 
careers, diversify the workforce, and develop a passion for service to 
the underserved in these future providers, i.e., Area Health Education 
Centers are the workforce development, training and education machine 
for the Nation's healthcare safety-net programs. The AHEC program is 
focused on improving the quality, geographic distribution and diversity 
of the primary care healthcare workforce and eliminating the 
disparities in our Nation's healthcare system.
    AHECs develop and support the community based training of health 
professions students, particularly in rural and underserved areas. They 
recruit a diverse and broad range of students into health careers, and 
provide continuing education, library and other learning resources that 
improve the quality of community-based healthcare for underserved 
populations and areas.
    The Area Health Education Center program is effective and provides 
vital services and national infrastructure. Nationwide, in 2006, AHECs 
introduced more than 308,000 students to health career opportunities, 
and more than 41,000 mostly minority and disadvantaged high school 
students received more than 20 hours each of health career programs and 
academic enhancement. AHECs support health professional training in 
more than 19,000 community based practice settings, and more than 
111,000 health professional students received training at these sites. 
Further, over 368,000 health professionals received continuing 
education through AHECs. AHECs perform these education and training 
services through collaborative partnerships with Community Health 
Centers (CHCs) and the National Health Service Corps (NHSC), in 
addition to Rural Health Clinics (RHCs), Critical Access Hospitals, 
(CAHs), Tribal clinics and Public Health Departments.
    While our partner programs, the National Health Service Corps and 
the Community Health Centers program have received much recognition of 
late and are identified as Presidential Initiatives, the AHEC program 
has been overlooked. AHEC is designed to meet the needs of the 
communities it serves, and to bridge the resources of universities, 
state and Federal programs, bringing those resources to the community. 
As a program with a national network, AHEC has a significant 
infrastructure. This infrastructure can provide the mechanism for 
information dissemination for Clinical and Translational Services to 
reduce the time it takes for bench science findings to become part of 
medical practice. AHECs can deliver minority health programs and 
already focus on recruiting minorities into health careers.
    In the past decade many new programs have been developed by Federal 
initiatives which compete with the mission of AHEC and utilize Federal 
resources to duplicate the AHEC infrastructure. Public resources would 
be better spent by utilizing the national network that AHEC represents, 
rather than reproducing the infrastructure through the creation of 
other programs.
    AHEC was recently reauthorized in the Patient Protection and 
Affordable Care Act of 2010. We were pleased to that this program was 
reauthorized for the first time since 1998, and reauthorized at $125 
million.
Community Health Centers and the National Health Service Corps
    CHCs are dedicated to providing preventive and ambulatory 
healthcare to uninsured and underinsured populations. A March 2006 
study published in the Journal of the American Medical Association 
(JAMA) found that CHCs report high percentages of provider vacancies, 
including an insufficient supply of dentists, pharmacists, 
pediatricians, family physicians and registered nurses. These shortages 
are particularly pronounced in CHCs that serve rural areas. The study 
serves as an important reminder that the success of CHCs is highly 
dependent upon a well-trained clinical staff to provide care. Because 
title VII programs, including AHECs, have a successful record of 
training providers to work in underserved areas, the study recommends 
increased support for the Title VII Health Professions Training 
programs as the primary means of alleviating the health professions 
shortage in rural CHCs. In 2006, 46 percent of AHEC training sites were 
CHCs, and an additional 25 percent of placements were in Rural Health 
Clinics.
    The scope of collaborative activities between AHECs and CHCs is 
substantial and the populations served through these activities are 
culturally and geographically diverse.
    The interrelationships between AHECs and CHCs are numerous, and the 
added-value to the community from the unique contributions of each is 
undeniable in terms of access to quality healthcare.
    AHECs collaborate with CHCs by:
  --Assisting CHCs with the development of community boards of 
        directors and often serving as board members;
  --Recruiting health professionals/staff;
  --Facilitating clinical training opportunities for health professions 
        students/trainees within CHC clinic sites;
  --Conducting continuing education programs and other library and 
        learning resources for health and human services professionals 
        employed at CHC clinic sites.
    AHECs also undertake a variety of programs related to the placement 
and support of National Health Service Corps scholars and loan 
repayment recipients. NHSC scholars and loan repayment recipients 
commit to practicing in an underserved area, and are focused on 
improving health by providing comprehensive team-based healthcare that 
bridges geographic, financial and cultural barriers. As contractors of 
the NHSC Student/Resident Experiences and Rotations in Community Health 
(SEARCH) program, AHECs help to expand the NHSC by placing students and 
residents in rotations in rural areas. These students and residents are 
then more likely to return to rural and underserved areas as a NHSC 
scholar or loan repayment recipient since health professionals who 
spend part of their training providing care for rural and underserved 
populations are 3 to 10 times more likely to practice in rural and 
underserved areas after graduation or program completion.
    AHECs frequently place health professions students in sites that 
are approved for NHSC personnel. NHSC scholars and loan repayers serve 
as preceptors or these students. These sites give the students a view 
of working in communities with great need, seeing the potential for a 
fulfilling career, thus strengthening the connection between these 
students and service to the underserved through the NHSC.
Justification for Recommendations
    By improving the quality, geographic diversity, and diversity of 
the healthcare workforce, the United States can eliminate healthcare 
disparities. An October 2006 study by the Health Resources and Services 
Administration (HRSA) entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' shows the importance of 
the programs like AHEC. This study found that minority health 
professionals disproportionately serve minority and other medically 
underserved populations, minority populations tend to receive better 
care from practitioners of their own race or ethnicity, and non-English 
speaking patients experience better care, greater comprehension, and 
greater likelihood of keeping follow-up appointments when they see a 
practitioner who speaks their own language.
    In order to continue the progress that the Title VII Health 
Professions Training programs, especially AHECs, have already made 
towards their goal, an additional Federal investment is required. NAO 
recommends that the AHEC program is funded at $125 million, consistent 
with its recent reauthorization amount.
                                 ______
                                 
   Prepared Statement of the National Association for Public Health 
                   Statistics and Information Systems
    The National Association for Public Health Statistics and 
Information Systems (NAPHSIS) welcomes the opportunity to provide this 
written statement for the public record as the Labor, Health and Human 
Services, and Education, and Related Agencies Appropriations 
Subcommittee prepares its fiscal year 2011 appropriations legislation. 
NAPHSIS represents the 57 vital records jurisdictions that collect, 
process, and issue birth and death records in the United States and its 
territories, including the 50 States, New York City, the District of 
Columbia and the 5 territories. NAPHSIS coordinates the activities of 
the vital records jurisdictions among the jurisdictions and with 
Federal agencies by developing standards, promoting consistent 
policies, working with Federal partners, and providing technical 
assistance to the jurisdictions.
    NAPHSIS respectfully requests that the subcommittee provide the 
National Center for Health Statistics' (NCHS) National Vital Statistics 
System $11 million in fiscal year 2011--consistent with the President's 
request--to support the States and territories as they implement the 
2003 birth and death certificates and electronic data collection 
systems.
    Collection of birth and death data through vital records is a State 
function and thus governed under State laws. NCHS purchases birth and 
death data from the States to compile national data on vital events--
births, deaths, marriages, divorces, and fetal deaths. These data are 
used to monitor disease prevalence and our nation's overall health 
status, develop programs to improve public health, and to evaluate the 
effectiveness of those interventions. For example, birth data have been 
used to:
  --Establish the relationship of smoking and adverse pregnancy 
        outcomes;
  --Link the incidence of major birth defects to environmental factors;
  --Establish trends in teenage births;
  --Determine the risks of low birth weight; and
  --Measure racial disparities in pregnancy outcomes.
    Just as fundamentally, death data are used to:
  --Monitor the infant mortality rate as a leading international 
        indicator of the Nation's health status;
  --Track progress and regress in reducing mortality from the leading 
        causes of death, such as heart disease, cancer, stroke, and 
        diabetes;
  --Document racial disparities; and
  --Otherwise provide sound information for programmatic interventions.
    Most recently, vital statistics have grabbed headlines with Amnesty 
International's report of increases in pregnancy related deaths.
    Years of chronic underfunding at NCHS have threatened the 
collection of these important data on the national level, to the extent 
that in fiscal year 2007, NCHS would have been unable to collect a full 
12 months of vital statistics data from States. Had the subcommittee 
not intervened with a small but critical budget increase to continue 
vital statistics collection, the United States would have been the 
first Nation in the industrialized world to be without a complete 
year's worth of vital data. Countless national programs and businesses 
that depend on vital events information would have been immeasurably 
affected.
    Since that time, the subcommittee has continually supported NCHS's 
vital statistics cooperative with the States. NAPHSIS and the broader 
public health community deeply appreciate these efforts. This year, we 
are pleased the President is following the subcommittee's lead in 
seeking to build a 21st century national statistical agency, requesting 
a $23 million increase for NCHS in fiscal year 2011, including $11 
million targeted for the modernization of the National Vital Statistics 
System. This increase will support states as they upgrade their 
outdated and vulnerable paper-based vital statistics systems, 
addressing critical needs for activities that have been on hold or 
curtailed because of budget constraints.
    As we make significant strides in implementing and meaningfully 
using health information technology, it is imperative that we similarly 
invest in building a modern vital statistics system that monitors our 
citizens' health, from birth until death. The requested $11 million in 
funding will move us toward a timelier and more comprehensive vital 
statistics infrastructure where all states collect the same data and 
all States collect these data electronically. Two forms of birth and 
death certificates are in use by States--the older 1989 standard 
certificate and the newer 2003 standard certificate This more recent 
birth certificate revision includes data on insurance and access to 
prenatal care, education level of parents, labor and delivery 
complications, delivery methods, congenital anomalies of the newborn, 
maternal morbidity, mother's weight and height, breast feeding status, 
maternal infections, and smoking during pregnancy, among other factors. 
The 2003 death certificate includes data on smoking-related, pregnancy-
related, and job-related deaths.
    Currently, only 75 percent of the States and territories use the 
2003 standard birth certificate and 65 percent have adopted the 2003 
standard death certificate. Many States continue to rely on paper-based 
records, a practice which compromises the timeliness and 
interoperability of these data. Jurisdictions that had planned and 
budgeted to upgrade their certificates and systems have seen funding 
for these projects erode as States face severe budget shortfalls. These 
jurisdictions need the Federal Government's help to complete building a 
21st century vital statistics system. The President's requested down 
payment will help in this regard, allowing all jurisdictions to 
implement the 2003 birth certificate and electronic birth record 
systems. Approximately $30 million is needed to modernize the death 
statistics system; but the President's request of $3 million is 
nonetheless an important first step. However, we request that the 
subcommittee not require a State match for funds to modernize death 
certificates, as proposed by the President. NAPHSIS's members most in 
need of Federal support have indicated that a State-match requirement 
would inadvertently prevent jurisdictions from applying for these 
funds. Indeed, if States had available funds to invest in system 
improvements they would do so.
    As the historic Patient Protection and Affordable Care Act is 
implemented, the vital statistics purchased by NCHS from States are 
needed more than ever to track Americans' health and evaluate our 
progress in improving it. The President's request of $11 million for 
the National Vital Statistics System will lead to vast improvements in 
data collection and further enable us to better compare critical 
information on a local, State, regional, and national basis. Without 
additional funding, a potential erosion of State data infrastructure 
and lack of standardized data will undeniably create enormous gaps in 
critical public health information and may have severe and lasting 
consequences on our ability to appropriately assess and address 
critical health needs.
    NAPHSIS appreciates the opportunity to submit this statement for 
the record and looks forward to working with the subcommittee.
                                 ______
                                 
Prepared Statement of the National Association of People With AIDS and 
                              VillageCare
    The National Association of People with AIDS (NAPWA) and 
VillageCare are submitting joint written comments on the appropriations 
for domestic HIV programs for Federal fiscal year 2011. Overall, NAPWA 
and VillageCare believe that the President's request for fiscal year 
2011 spending on domestic HIV programs, while including some increases 
in funding, is insufficient to meet the needs of persons living with 
HIV/AIDS in this country. We urge you to increase funding for domestic 
HIV/AIDS programs in the fiscal Labor, Health and Human Services, and 
Education, and Related Agencies; Transportation and Housing and Urban 
Development, and Related Agencies; and Financial Services and General 
Government bills for the upcoming fiscal year.
    Founded in 1983, NAPWA is the first coalition of people living with 
HIV/AIDS in the world, as well as the oldest AIDS organization in the 
United States. NAPWA is a trusted, independent voice representing the 
more than 1 million people living with HIV/AIDS in America.
    VillageCare is a community-based organization serving seniors, 
persons living with HIV and AIDS, and others who face chronic and 
disabling conditions. Founded in New York's Greenwich Village nearly 35 
years ago, the not-for-profit organization developed some of the first 
care and program responses to the AIDS epidemic in the 1980s, and has 
created a number of innovative programs and services, including the 
first AIDS day treatment program in the country and the largest AIDS 
skilled nursing facility.
    With more than 56,000 new HIV infections annually and the United 
States already having more than 1.1 million people living with HIV, 
coupled with the rising cost of medical care and other services, we 
urgently need to allocate sufficient resources to address unmet care 
and treatment needs of persons living with HIV. It is estimated that 29 
percent of persons living with HIV/AIDS in the United States are 
uninsured. The HIV epidemic also continues to have a disproportionate 
impact on communities of color and on low-income individuals.
    For nearly a decade, the HIV epidemic in the United States has 
faced serious underfunding, as the previous administration chose not to 
focus priorities on the Nation's own HIV challenges. Increases in 
funding are desperately needed to make up for these years of neglect.
    While passage of healthcare reform promises to contribute 
significantly to filling the gap in health coverage, the most critical 
provisions in the new law do not kick in until 2014. This means that 
over the next 4 years, there will be persons living with HIV who will 
have to wait for access to treatment that could save their lives.
    During this gap in time, it is vital for Congress to act to fill 
the void in resources that would connect people to care.
    We offer the following recommendations where Congress can move to 
address vital HIV care and treatment needs.
Increase Funding in the Ryan White Program by $810.8 Million, for Total 
        Funding of $3,101.5 Billion
    This includes a breakdown of funding as follows:
  --Part A.--Increase of $225.9 million for total of $905 million.
  --Part B: Care.--Increase of $55.9 million for a total of $474.7 
        million.
  --Part B: AIDS Drug Assistance Program.--Increase of $370.1 million 
        for a total of $1,205.1 million.
  --Part D.--Increase of $131 million for a total of $337.9 million.
  --Part F: AIDS Education Training Centers.--Increase of $15.2 million 
        for a total of $50 million.
  --Part F: Dental.--Increase of $5.4 million for a total of $19 
        million.
  --Part F: Special Projects of National Significance.--Support funding 
        of $25 million (level funding).
    In many regions of the country, financing through Ryan White is 
often the only means to pay for healthcare and supportive services for 
many persons living with HIV/AIDS. Unfortunately, the President's 
proposed funding for the Ryan White HIV/AIDS program was increased by 
only $40 million, with many parts of the Ryan White program remaining 
flat-funded. Advocates in the HIV community have called upon the 
administration to provide at least $810 million in new resources to 
meet growing demand. The Nation needs continued aggressive action if we 
are to close the gap in access to treatment and care that exists for 
many persons living with HIV. Ryan White programs serve approximately 
577,000 low-income, uninsured, and underinsured individuals each year. 
For many people living with HIV, Ryan White-funded programs are the 
sole lifeline to HIV care, treatment and services.
Support Emergency Supplemental Funding in Fiscal Year 2010 for the AIDS 
        Drug Assistance Program (ADAP) in the Amount of $126 Million
    Eleven States have waiting lists with more than 850 people waiting 
to get access to life saving HIV medications. In addition, many States 
have greatly restricted the drugs covered by the ADAP and restricted 
eligibility so that fewer people quality for ADAP benefits. Urgent, 
immediate emergency supplemental ADAP funding that would flow to these 
programs during the current fiscal year will help address this crisis.
Expand Access to Housing by Increasing Housing Opportunities for People 
        With AIDS (HOPWA) Funding by $75 Million, for a Total of $410 
        Million
    Access to safe and affordable housing is essential to improving 
individual health outcomes and promoting public health. Improved 
housing status is strongly associated with increased access and 
adherence to care and with lowered rates of HIV risk behaviors. Demand 
for AIDS housing far exceeds availability and increased HOPWA funding 
is needed to support efforts to address this critical component of the 
HIV care continuum. In the light of flat funding across many Federal 
programs, the President's proposed HOPWA increase of $5 million is far 
too small to make any meaningful impact on the rising numbers of 
persons who are without access to stable housing.
Increase Efforts To Respond to the Disproportionate Impact of HIV Among 
        Communities of Color by Increasing Funding for the Minority 
        AIDS Initiative (MAI) by $207.1 Million, for Total Funding of 
        $610 Million
    Targeted funding is urgently needed to address the huge disparities 
in HIV infection among communities of color. MAI funding improves 
access to culturally and linguistically appropriate outreach, 
education, prevention, care and treatment programs and services.
Support new Investments in HIV Prevention Education by Increasing 
        Funding at the Centers for Disease Control and Prevention (CDC) 
        by $878 Million, for Total Funding of $1,606 Million
    A significant increase in funding of HIV prevention initiatives is 
needed to reduce the number of new HIV infections, which have remained 
unchanged at about 56,000 per year since 2001. State and local health 
departments and community-based organizations need adequate resources 
to strengthen and expand HIV testing, outreach and prevention education 
programs.
Increase Funding for AIDS Research at the National Institutes of Health 
        (NIH) by $410 Million, for Total Funding of $3.5 Billion
    A lack of sufficient funding for the NIH has slowed important 
research efforts aimed at ending the HIV/AIDS epidemic in the United 
States. To reverse this trend, funding increases are needed for the 
Office of AIDS Research at NIH.
Support the $1.4 Million in Appropriations for National HIV/AIDS 
        Strategy Implementation, Coordination, Evaluation, and 
        Monitoring
    The National Strategy will be unveiled this year and this 
appropriation will be needed to achieve its goals. As National HIV/AIDS 
Strategy implementation begins, Congress must renew this $1.4 million 
appropriation, which is contained in the Financial Services and General 
Government appropriations bill. In each of fiscal year 2009 and fiscal 
year 2010, Congress appropriated $1.4 million for the White House 
Office of National AIDS Policy to help fund the cost of developing a 
comprehensive national HIV/AIDS strategy.
    VillageCare and NAPWA look forward to working with Congress and the 
administration to find more resources to address the significant unmet 
need for HIV primary medical care and supportive services that exists 
across the United States. We and others in the HIV community were 
extremely pleased with the steps taken by the Obama administration in 
the first year. The President has expressed and demonstrated leadership 
on behalf of the HIV community with such actions as the 4-year 
extension of the Ryan White Care Act and ending the HIV travel ban.
    At the same time, the Federal budget for fiscal year 2011 will need 
significant modification and additions if we are to fulfill the vision 
of the President and others to end the AIDS epidemic in the United 
States.
    Thank you.
                                 ______
                                 
Prepared Statement of the National Assembly on School-Based Health Care
    I am grateful for this opportunity to submit written testimony on 
behalf of the National Assembly on School-Based Health Care, an 
organization representing the interests of school-based health centers 
(SBHCs). SBHCs ensure that 1.7 million children and adolescents across 
the country gain access to comprehensive medical care, mental health 
services, preventive care, social services, and youth development. 
These services are provided without concern for students' ability to 
pay in a location that meets children and adolescents where they are: 
at school.
    The Patient Protection and Affordable Care Act (Public Law111-148) 
includes a Federal authorization for SBHCs in section 4101(b)--a huge 
victory for vulnerable children and adolescents and for SBHCs. 
Secretary Sebelius agrees: ``We are thrilled that part of the [health 
reform] legislation calls for an expanded foot print of school-based 
health clinics . . . I can't think of a better way to deliver primary 
care and preventive care to not only students but their families than 
through school-based clinics.'' \1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Health and Human Services Secretary Kathleen 
Sebelius, during her opening plenary remarks at the Coalition for 
Community School's national forum in Philadelphia; April 7, 2010.
---------------------------------------------------------------------------
    However, the School-Based Health Clinic authorization needs to be 
appropriated if SBHCs are to continue to serve our Nation's youth. 
Until funds are appropriated, only limited Federal support exists for 
SBHC operations, leaving little hope for the expansion that is called 
for by Secretary Sebelius.
    SBHCs are designed to meet the healthcare needs of students, and 
are considered one of the most effective strategies for delivering high 
quality, comprehensive, and culturally competent primary and preventive 
care to children and adolescents. At SBHCs, developmentally appropriate 
health services are provided by qualified health professionals, 
incorporating the principles and practices of pediatric and adolescent 
healthcare recommended by the American Medical Association, the 
American Academy of Pediatrics, and the American Association of Family 
Physicians. A recent study showed that SBHCs have positive impacts on 
student achievement--particularly increasing grade point averages and 
attendance.\2\
---------------------------------------------------------------------------
    \2\ ``Impact of School-Based Health Center Use on Academic 
Outcomes,'' Journal of Adolescent Health 46 (2010) 251-257.
---------------------------------------------------------------------------
    We respectfully request a $50 million appropriation to fund the 
SBHC authorization for Federal fiscal year 2011. These funds could 
provide the full operations budget of up to 200 school-based health 
centers for a year, but will likely be used to support many more. In 
the current economic climate, many State programs are struggling to 
maintain support for the SBHCs they currently fund, much less expand 
operations. We hear with increasing frequency from SBHCs about the need 
for expanded primary care hours, oral health, and expanded mental 
health services. Regrettably, some SBHCs have already had to close 
their doors, due to lack of funding for healthcare services.
    We would also like to share our concern that without support for 
the operational costs needed to support a clinic, the effectiveness of 
the capital money already allocated to SBHCs in the Affordable Care Act 
under section 4101(a) will be greatly limited. The funds allocated in 
section 4101(a), although important, are limited to capital 
improvements and equipment purchases. Expenditures for healthcare 
services and personnel are specifically excluded. The present risk and 
largest difficulty for SBHCs is the cost of care. The capital funds 
could allow some SBHCs to be built or expanded, but clinics need a 
sustainable source of operations funding in order to provide services 
for the children and adolescents who depend on them for care.
    Only a fraction (28 percent) of SBHCs can be supported in any way 
by the funds allocated in the healthcare reform legislation for 
community health centers. The majority of SBHCs are sponsored by 
entities ineligible for community health center funding, such as 
hospitals.
    The original House-passed bill identified a $50 million 
appropriation for the newly authorized school-based health center 
program. These funds will give critical resources to communities that 
desire to open health clinics at their schools and keep their existing 
clinics open.
    For the above reasons, we respectfully request that a $50 million 
appropriation be provided for the SBHC Authorization for fiscal year 
2011. Thank you for this opportunity.
                                 ______
                                 
Prepared Statement of the National Alliance of State & Territorial AIDS 
                               Directors
    The National Alliance of State and Territorial AIDS Directors 
(NASTAD) represents the Nation's chief State health agency staff who 
have programmatic responsibility for administering HIV/AIDS and viral 
hepatitis healthcare, prevention, education, and supportive service 
programs funded by State and Federal Governments.
    On behalf of NASTAD, we urge your support for increased funding for 
Federal HIV/AIDS and viral hepatitis programs in the fiscal year 2011 
Labor, Health and Human Services, and Education, and Related Agencies 
Subcommittee bill. We ask the subcommittee on Labor, Health and Human 
Services, and Education to demonstrate its commitment to addressing the 
domestic HIV epidemic and ramp up support for a much larger blood-borne 
epidemic, that of chronic viral hepatitis. We thank you once again for 
the increases provided to HIV/AIDS and hepatitis programs in fiscal 
year 2010 and ask for consideration of the following critical funding 
needs for HIV/AIDS, viral hepatitis and STD programs in fiscal year 
2011.
HIV/AIDS Care and Treatment Programs
    The Health Resources and Services Administration (HRSA) administers 
the $2.2 billion Ryan White Program that providing health and support 
services to more than 500,000 HIV-positive individuals. NASTAD requests 
a minimum increase of $426 million in fiscal year 2011 for State Ryan 
White part B grants, including an increase of $56 million for the part 
B Base and $370 million for AIDS Drug Assistance Programs (ADAPs). With 
these funds States and territories provide care, treatment, and support 
services to persons living with HIV/AIDS. People living with HIV need 
access to trained HIV clinicians, life-saving and life-extending 
therapies, and a full range of support services to live as healthy a 
life as possible and to ensure adherence to complicated treatment 
regimens. All States are reporting to NASTAD that they are seeing a 
significant increase in the number of individuals seeking part B Base 
and ADAP services. In 2008, it is estimated that ADAPs nationwide 
served nearly 165,000 HIV-infected individuals, nearly one-quarter of 
people with HIV/AIDS estimated to be receiving care. This is due to a 
number of factors including, increased testing efforts and 
unemployment.
    State ADAPs provide medications to low-income individuals with HIV 
disease who have limited or no coverage from private insurance or 
Medicaid. With the rise in unemployment and individuals losing their 
insurance, ADAPs are increasingly in crisis. As of April 2010, 10 
States report that 859 individuals are on a waiting list to receive 
their life-sustaining medications through ADAP:
  --Idaho.--25 individuals
  --Iowa.--62 individuals
  --Kentucky.--191 individuals
  --Montana.--17 individuals
  --North Carolina.--356 individuals
  --South Carolina.--33 individuals
  --South Dakota.--32 individuals
  --Tennessee.--55 individuals
  --Utah.--74 individuals
  --Wyoming.--14 individuals
    Sixteen States have additional cost containment measures in place 
or are anticipating implementing measures.
ADAPs with Other Cost-containment Strategies (instituted since April 1, 
        2009)
  --Arizona.--Reduced formulary
  --Arkansas.--Reduced formulary, lowered financial eligibility to 200 
        percent of FPL
  --Colorado.--Reduced formulary
  --Hawaii.--Individuals with CD4>350 not currently on ARV therapy are 
        not being enrolled
  --Iowa.--Reduced formulary
  --Kentucky.--Reduced formulary
  --Missouri.--Reduced formulary
  --North Carolina.--Reduced formulary
  --North Dakota.--Cap on Fuzeon
  --Utah.--Reduced formulary, lowered financial eligibility to 250 
        percent of FPL
  --Washington.--Client cost sharing, reduced formulary (for uninsured 
        clients only)
ADAPs Considering New/Additional Cost-containment Measures (before 
        March 31, 2011)
    Arizona.--Waiting list
    Hawaii.--Waiting list
    Illinois.--Waiting list, reduced formulary, lowered financial 
eligibility, capped enrollment, monthly expenditure cap
    Kentucky.--Reduced formulary
    Louisiana.--Capped enrollment
    North Carolina.--Lowered financial eligibility
    North Dakota.--Waiting list, reduced formulary, capped enrollment, 
annual expenditure cap
    Oregon.--Waiting list, reduced formulary
    South Dakota.--Reduced formulary
    Wyoming.--Lowered financial eligibility, annual expenditure cap
    In fiscal year 2009, 48 percent of ADAPs experienced cuts in State 
contributions to their programs and at least 35 percent of programs are 
anticipating cuts to their ADAPs in fiscal year 2010. Program 
restrictions can lead to dangerous treatment interruptions, which 
encourage drug resistance and discourage patient retention in care, 
both of which have profound effects on public health. As discretionary 
programs, ADAPs are dependent on annual Federal and State 
appropriations to serve all those in need of treatment.
    Ryan White part B Base programs include ambulatory medical 
services, case management, laboratory services, and primary care 
networks that improve the overall HIV care systems in States. Primary 
care and the provision of drug treatments are inextricably linked. 
People living with HIV need access to trained HIV clinicians and a full 
range of support services to live as healthy a life as possible to 
ensure adherence to complicated treatment regimens. Unfortunately, 
limited funding has resulted in waits of up to 6 months for a primary 
care visit.
HIV/AIDS Prevention and Surveillance Programs
    NASTAD requests an increase of $181 million for State and local 
health department cooperative agreements in order to provide 
comprehensive prevention programs. To be successful, health departments 
must expand outreach, HIV testing, and linkage into care targeting 
high-risk populations including gay men of all races, black women, 
persons who inject drugs, and youth. Additional resources must be 
directed to build capacity and provide technical assistance to enable 
community-based organizations and healthcare providers to implement 
evidence-based behavior change interventions and HIV testing 
recommendations. In order to maximize prevention efforts, partners of 
persons being tested need to be identified, notified, and counseled. In 
addition, health departments need resources to educate the mass public 
by reinforcing accurate, evidence-based information and beginning to 
reduce the stigma associated with the disease.
    An estimated 56,300 new infections occur every year while State and 
local HIV prevention cooperative agreements have been cut by $23 
million over the last decade. NASTAD surveyed States and found that in 
fiscal year 2009, State HIV/AIDS programs were cut by $170 million. 
Seventy-four percent of States responding to NASTAD's survey reported 
cuts to HIV prevention programs. States also reported that almost 200 
HIV/AIDS staff positions have been cut or gone unfilled. These cuts 
make the Federal resources for prevention all the more critical to 
mounting an effective response to the epidemic.
    The Nation's prevention efforts must match our commitment to the 
care and treatment of infected individuals. State and local public 
health departments know what to do to prevent new infections, they just 
need the resources. First and foremost we must address the devastating 
impact on racial and ethnic minority communities. To be successful, we 
must expand outreach and HIV testing efforts targeting high-risk 
populations including gay and bisexual men of all races, racial and 
ethnic minority communities, substance users, women and youth. But, 
testing alone can never end the epidemic. All tools in the prevention 
arsenal must be supported. Additional resources must be directed to 
build capacity and provide technical assistance to enable community-
based organizations and healthcare providers to implement evidence-
based behavior change interventions and HIV testing recommendations. In 
order to maximize prevention efforts, partners of persons being tested 
need to be identified, notified, and counseled. With 21 percent of HIV-
infected persons unaware that they have HIV, increased funding for 
testing and partner services will avert millions in unnecessary 
healthcare costs. In addition, health departments need resources to 
educate the mass public by reinforcing accurate, evidence-based 
information and beginning to reduce the stigma associated with the 
disease.
    NASTAD also supports the President's request of $26.9 million for a 
new initiative targeting gay men and other men who have sex with men 
(MSM). We believe this funding should come out of HIV funding and not 
STD and viral hepatitis increases as proposed.
    NASTAD requests that $48 million be allocated to health departments 
to maintain the Expanded Testing Initiative (ETI). In fiscal year 2009, 
CDC awarded $40.2 million to 20 States and 5 cities to support routine 
testing in clinical settings targeting highly impacted populations, 
particularly African Americans. In fiscal year 2010, the ETI will be 
expanded to 24 States and 6 cities funded at $47.5 million targeting 
African Americans, Latinos, gay and bisexual men of all races, and 
persons who inject drugs. NASTAD supports maintaining $48 million for 
health departments of the $65 million for the entire initiative so that 
more individuals can learn of their HIV status and be linked into care. 
NASTAD also support the President's request of $10 million for Program 
Collaboration and Service Integration (PCSI) to all health departments 
to integrate prevention services for HIV, STD, viral hepatitis, and TB 
at the client level.
Viral Hepatitis Prevention Programs
    NASTAD requests an increase of $30.7 million for a total of $50 
million in fiscal year 2011 for the CDC's Division of Viral Hepatitis 
(DVH) to enable State and local health departments to provide basic 
core public health services for viral hepatitis. Funds are needed for 
hepatitis B and C counseling, testing, and medical referral. States 
receive on average $90,000 for adult hepatitis prevention. DVH provides 
$5 million to fund the position of an Adult Viral Hepatitis Prevention 
Coordinator in 49 States, 5 cities, and the District of Columbia. This 
is only enough for the position and not for the provision of prevention 
services. Therefore, NASTAD requests a doubling of funding to the state 
adult viral hepatitis prevention coordinators from $5 to $10 million.
    Due to lack of funding, CDC must treat hepatitis outbreaks as 
sentinel events rather than systematically addressing hepatitis B and C 
epidemics with more than 6 million Americans infected. Addressing one 
outbreak at a time is not cost-effective nor is it preventive. The 
first step to controlling infectious diseases such as hepatitis B and C 
is establishing a surveillance system to monitor disease incidence, 
prevalence, and trends. While there is no vaccine for hepatitis C, 
investing in hepatitis A and B vaccines is essential to providing 
prevention for high-risk adults and the elimination of both diseases. 
Hepatitis disproportionately impacts minorities and must be addressed 
in the context of health disparities. Approximately half of persons 
with chronic HBV are Asian Americans. Furthermore, HBV is most 
prevalent among immigrants from HBV-endemic countries (Asia and sub-
Saharan Africa) who were infected at birth or childhood. Of the 24,000 
HBV-infected women who give birth every year, half are Asian Americans. 
HCV infection is 2 to 3 times as prevalent in African Americans as it 
is in whites.
    The recently released IOM report, Hepatitis and Liver Cancer: A 
National Strategy for Prevention and Control of Hepatitis B and C found 
that the public health response needs to be significantly ramped up. 
IOM's report attributes low public and provider awareness to the lack 
of public resources. The report makes 17 out of 22 recommendations 
specific to State health departments. In order to implement these 
recommendations to improve the Federal response, resources must be 
increased to health departments who provide the frontline response to 
these epidemics. For example, hepatitis C is the most common blood-
borne, chronic viral disease in the United States with up to 4 million 
Americans suffering from chronic HCV infection-nearly four times the 
amount of those with HIV. Although transmission of hepatitis C has 
significantly decreased in the United States over the past 20 years, 
the incidence of liver disease and liver cancer is rising, as persons 
infected with hepatitis C decades ago begin to develop complications of 
their infection. Without increased resources for counseling, testing 
and medical referral services, the CDC predicts that deaths due to HCV 
will double by 2020.
STD Prevention Programs
    NASTAD supports an increase of $213.5 million for a total of $367.4 
million in fiscal year 2011 for STD prevention, treatment and 
surveillance activities undertaken by state and local health 
departments. CDC's Division of STD Prevention has prioritized four 
disease prevention goals-Prevention of STD-related infertility, STD-
related adverse pregnancy outcomes, STD-related cancers and STD-related 
HIV transmission. STD prevention programs at CDC have been cut by $6 
million since fiscal year 2004 while the number of persons infected 
continues to climb. CDC estimates that 19 million new infections occur 
each year, almost half of them among young people ages 15 to 24. In one 
year, the United States spends more than $8 billion to treat the 
symptoms and consequences of STDs. Untreated STDs contribute to infant 
mortality, infertility, and cervical cancer. Additional Federal 
resources are needed to reverse these alarming trends and reduce the 
Nation's health spending.
Minority AIDS Initiative
    NASTAD also supports total funding of $610 million for the Minority 
AIDS Initiative (MAI) in fiscal year 2011. The MAI provides targeted 
resources to address the HIV/AIDS epidemic in hard-hit communities of 
color. MAI resources supplement the funding to states to address the 
epidemic in these communities. The data from CDC on the 
disproportionate impact on African American continues to be staggering. 
Support for the MAI along with the traditional funding streams that 
serve these populations is essential.
Comprehensive Sex Education
    NASTAD supports the teen pregnancy prevention initiative and asks 
that it be expanded to include prevention of HIV and STDs and funded at 
the President's request of $134 million. Programs targeted to youth in 
and out of school require an inter-departmental approach through the 
collaboration of HHS agencies, including the Agency for Children and 
Families, CDC's Division of Adolescent and School Health, and the 
Office of Population Affairs. We also support an increase of $20 
million, for a total of $60.2 million, for the Division of Adolescent 
and School Health's HIV Prevention Education Program to increase access 
to evidence-based and comprehensive approach to sex education. Programs 
targeted to youth in and out of school require an inter-departmental 
approach through the collaboration of HHS agencies, including the 
Office of Adolescent Health, the Office of Population Affairs, the 
Agency of Children and Families, and CDC's Division of Adolescent and 
School Health.
    As you craft the fiscal year 2011 Labor, Health and Human Services, 
and Education appropriations bill, we ask that you consider all of 
these critical funding needs. National Alliance of State and 
Territorial AIDS Directors thanks the Chairman, Ranking Member, and 
members of the subcommittee, for their thoughtful consideration of our 
recommendations. Our response to the HIV, viral hepatitis and STD 
epidemics in the United States defines us as a society, as public 
health agencies, and as individuals living in this country. There is no 
time to waste in our Nation's fight against these infectious and often 
chronic diseases.
                                 ______
                                 
   Prepared Statement of the National Association of Workforce Boards
    Thank you for the opportunity to comment on the administration's 
proposed 2011 budget for the Department of Labor. The National 
Association of Workforce Boards (NAWB) is a member association, which 
represents a majority of the 575 local employer-led Workforce 
Investment Boards and their nearly 13,000 employer member volunteers.
    We write in support of the administration's fiscal year 2011 
overall appropriations request for the Training and Employment Services 
account under the Department of Labor. Adequate funding for the public 
workforce system has never been more critical. We are in the midst of 
the worst economic downturn in our lifetimes and the public workforce 
system has been stretched to its capacity, but continues to respond 
during this time of crisis.
    Our employment crisis is not expected to ease in the foreseeable 
future. The annual Economic Report of the President released in 
February indicated that unemployment would remain above 8 percent 
through 2012. Federal Reserve Chairman Ben Bernanke was also 
pessimistic in his testimony before the Joint Economic Committee on 
April 14 regarding any large scale employment growth in the near term:

    ``As you know, the labor market was particularly hard hit by the 
recession. Recently, we have seen some encouraging signs that layoffs 
are slowing and that employment has turned up. Manufacturing employment 
increased for a third month in March, and the number of temporary 
jobs--often a precursor of more permanent employment--has been rising 
since last October. New claims for unemployment insurance continue on a 
generally downward trend. However, if the pace of recovery is moderate, 
as I expect, a significant amount of time will be required to restore 
the 8\1/2\ million jobs that were lost during the past 2 years. I am 
particularly concerned about the fact that, in March, 44 percent of the 
unemployed had been without a job for 6 months or more. Long periods 
without work erode individuals' skills and hurt future employment 
prospects. Younger workers may be particularly adversely affected if a 
weak labor market prevents them from finding a first job or from 
gaining important work experience''.

    Workforce Investment Act programs have been on the front lines of 
assisting job seekers impacted by the recession. Over the past year, 
the Workforce Investment Act (WIA) system has seen over 7.6 million 
American workers turn to it for help in navigating the labor market in 
search of jobs and/or the training individuals need to be competitive 
in their labor market. This is a 60.2 percent increase in the number of 
people served through Employment and Training Administration programs 
over the previous year. In comparison, 4.1 million workers were 
assisted during the same period the previous year.
    Despite six job seekers nationally for every available job, those 
who received WIA services were likely to find jobs, with the likelihood 
increasing the higher the service level:
    Performance Results:
  --Workforce Investment Act Adult Program:
    --Entered Employment Rate--68.1 percent
    --Employment retention rate--83.3 percent
  --Average 6 months' earnings--$14,695
  --Workforce Investment Act Dislocated Worker Program:
    --Entered employment rate--70 percent
    --Employment retention rate--85.9 percent
    --Average 6 months' earnings--$16,304
  --Workforce Investment Act Youth Program:
    --Placement in employment or education rate--66.7 percent
    --Attainment of degree or certificate rate--58.2 percent
    The ability of the pubic workforce system to maintain this level of 
success on behalf of job seekers and employers seeking skilled workers 
is incumbent upon the continuation of adequate funding. We encourage 
the subcommittee to fund WIA formula programs at a minimum at the 
administration's request levels, as we expect to continue to face the 
challenges brought about by high unemployment for the foreseeable 
future.
Workforce Innovation Fund
    We applaud the administration's proposal for a $322 million 
Workforce Innovation Fund. We believe that the State and local 
workforce boards have developed a host of promising practices since WIA 
was enacted in 1998, particularly in helping address the large numbers 
of persons dislocated during this recession or shut-out of the labor 
market due to a lack of appropriate skills. The Workforce Innovation 
Fund will allow local areas to engage with community partners and 
quickly scale effective practices on behalf of jobseekers in need.
    However, we strongly urge the subcommittee to fully fund the 
administration's request for WIA formula programs before allocating 
funding for the Workforce Innovation Fund, as these formula funds are 
essential to our ability to provide services to job seekers at the 
local level around the Nation.
    The protection of the WIA formula programs is particularly 
important this year with the diminution of the remaining workforce 
funding in the American Recovery and Reinvestment Act, which have been 
heavily invested in providing training for job seekers. The bulk of 
these funds have been fully obligated at the local level, leaving 
little funding to commit for new trainees who seek services in the 
coming year. This funding ``cliff'' will provoke a large measure of 
frustration for individuals who are seeking services and are eligible, 
but for whom there are no funds available.
    We suspect this is a well hidden policy issue since our current 
system of financial tracking counts expenditures but lacks the capacity 
to account for monies that are obligated by contract but not invoiced 
by the provider and paid by the fiscal agent.
Summer Youth employment
    While our testimony is focused on fiscal year 2011 funding, we 
would be remiss if we did not express our appreciation for the 
Chairman's inclusion of ARRA funding for WIA Youth programs which 
allowed 313,000 young people to have summer jobs last year who 
otherwise would not have been employed. Most of these ARRA funding for 
WIA Youth have been expended at this point, but local workforce 
programs are in the process of preparing for another expanded summer 
youth program with the limited funds they currently have available.
    We hope that any emergency spending bill enacted this work period 
will include additional funding for WIA Youth programs to allow us to 
better address the looming crisis we are facing in youth employment 
this summer.
Policy Riders
    NAWB would strongly encourage the subcommittee to continue the 
policy riders that prohibit the redesignation of local areas or changes 
to the definition of administrative costs until WIA is reauthorized. 
There have been instances where there has been arbitrary action to 
reconfigure local areas and NAWB believes these riders will prevent any 
State v. local conflict until reauthorization.
    We urge the subcommittee to continue to provide the support 
necessary for the workforce system to help our jobseekers retool for 
employment in high demand sectors and maintain our global 
competitiveness.
    Thank you for the opportunity to testify.
                                 ______
                                 
              Prepared Statement of the Nursing Community
    The Nursing Community is a forum for professional nursing and 
related organizations to collaborate on a wide spectrum of healthcare 
and nursing issues including practice, education, and research. These 
53 organizations are committed to promoting America's health through 
nursing care. Collectively, the Nursing Community represents more than 
850,000 Registered Nurses (RNs), Advanced Practice Registered Nurses 
(APRNs), nurse executives, nursing students, nursing faculty, and nurse 
researchers. Together, our organizations work collaboratively to 
increase funding for the Nursing Workforce Development programs, 
authorized under title VIII of the Public Health Service Act (42 U.S.C. 
296 et seq.) so that American nurses have the support needed to provide 
high-quality care to their patients.
The National Nursing Shortage Continues to Impact Quality Care
    Since 1998, the United States has experienced a significant 
shortage of RNs, which has dramatically impacted the quality of care 
provided by our Nation's healthcare delivery system. In March 2007, a 
comprehensive report initiated by the Federal Agency for Healthcare 
Research and Quality was released on Nursing Staffing and Quality of 
Patient Care. The authors found that the shortage of RNs, in 
combination with an increased workload, poses a potential threat to the 
quality of nursing care. In settings with inadequate nurse staffing, 
patient safety was compromised. However, increases in RN staffing were 
associated with reductions in hospital-related mortality and failure to 
rescue, as well as reduced lengths of stay. A robust supply of well-
educated nurses is essential to ensure that all Americans receive 
quality healthcare and that our Nation has the nurses necessary to meet 
the current and future demands.
    The demand for nurses will continue to grow as the baby-boomer 
population ages, nurses retire, and the need for healthcare 
intensifies. According to the U.S. Bureau of Labor Statistics (BLS), 
nursing is the Nation's top profession in terms of projected job growth 
with more than 581,000 new nursing positions being created through 2018 
(a 22 percent increase in the workforce). Further, BLS analysts project 
that more than 1 million new and replacement nurses will be needed by 
2016.
    Currently, RNs comprise the largest group of health professionals 
with approximately 3.1 million providers offering essential care to 
patients in a variety of settings, including hospitals, long-term care 
facilities, community or public health areas, schools, workplaces, and 
home care. In addition, many nurses receive graduate degrees that allow 
them to practice autonomously as APRNs; become nurse faculty, nurse 
researchers, nurse administrators, and public health nurses; and work 
in the policy area to help shape healthcare delivery. With the new 
health reform law focused on creating a system that will increase 
access to quality care, emphasize prevention, and decrease cost, it is 
critical that a substantial investment be made in our healthcare 
workforce, particularly an investment in nurses. RNs and APRNs are 
vital to ensuring direct availability to high-quality, cost-effective 
healthcare in a reformed system. Nurses are involved in every aspect of 
healthcare, and if the nursing workforce is not strengthened, the 
healthcare system will continue to suffer.
Reversing the Nursing Shortage: A Federal Solution
    Throughout previous nursing shortages, particularly in the 1960s 
and 1970s, the Federal Government has offered relief to nursing schools 
and students to reverse the negative trend. In particular, the Nursing 
Workforce Development programs offered viable solutions to nursing 
shortages, expanded nursing school programs, increased the number of 
nurse faculty, and helped ensure nurses were practicing in areas with a 
critical shortage. As Congress searches for programs to address the 
nursing shortage now and in the future, the title VIII programs have 
been and continue to be a proven solution.
Nursing Workforce Development Programs
    The Nursing Workforce Development programs have supported the 
supply and distribution of qualified nurses to meet our Nation's 
healthcare needs since 1964. Over the last 46 years, these programs 
have addressed all aspects of nursing shortages--education, practice, 
retention, and recruitment. The title VIII programs bolster nursing 
education at all levels, from entry-level preparation through graduate 
study, and provide support for institutions that educate nurses for 
practice in rural and medically underserved communities. Between fiscal 
year 2006 and 2008, the title VIII programs supported 214,575 nurses 
and nursing students as well as numerous academic nursing institutions, 
and healthcare facilities. Today, the title VIII programs are essential 
to solving the current national nursing shortage.
Title VIII Effectiveness
    Results from the American Association of Colleges of Nursing's 
(AACN) 2009-2010 Title VIII Student Recipient Survey included responses 
from 1,420 students who noted that these programs played a critical 
role in funding their nursing education. The survey showed that three-
quarters of the students receiving title VIII funding are attending 
school full-time. By supporting full-time students, the title VIII 
programs are helping to ensure that students enter the workforce 
without delay. The programs also address the current demand for primary 
care providers. A high percentage of the students surveyed (49.1 
percent) reported that their career goal is to become a nurse 
practitioner. Approximately 80 percent of nurse practitioners provide 
primary care services throughout the United States. Additionally, the 
nurse faculty shortage continues to inhibit the ability of nursing 
schools to increase student capacity and address the shortage. Of the 
students who responded to the survey, 40.5 percent stated their 
ultimate career goal was to become nurse faculty.
Nursing Students Supported by Title VIII Funding
    Of the title VIII student recipients surveyed, 39 percent reported 
that they received between $1,001-$3,000 in funding over 1 year. Sixty-
seven percent reported that this funding supported a portion of their 
tuition, and 35.8 percent reported that the funding was dedicated to 
books and educational materials. Fifty-two percent of the students 
responded that the title VIII funding paid for 25 percent or less of 
their total student loans. Of those students, 26 percent stated that 
the funding paid for less than 5 percent of their total nursing student 
loans. When asked how the title VIII programs could be improved, the 
overwhelming response from students was to increase the funding in 
order to provide higher levels of support for their education.
    Nursing students rely upon support through title VIII to complete 
their degree and offset their considerable educational expenses. 
Continued and increased support for the title VIII programs can help 
address the demand for nursing services.
    The Nursing Community respectfully request $267.3 million (a 10 
percent increase) for the Nursing Workforce Development programs 
authorized under title VIII of the Public Health Service Act in fiscal 
year 2011. Last year, your subcommittee provided a significant funding 
boost for title VIII that helped support the Loan Repayment program and 
Scholarship and Nurse Faculty Loan program. These increases will 
bolster the pipeline of nurses and nurse faculty, which is so critical 
to reversing the nursing shortage. We feel it is extremely important to 
maintain last year's funding level for these critical programs in 
fiscal year 2011 and direct the 10 percent requested increase for the 
four title VIII program that have not kept pace with inflation since 
fiscal year 2005. The Advanced Education Nursing, Nursing Workforce 
Diversity, Nurse Education, Practice, and Retention, and Comprehensive 
Geriatric Education programs expand nursing school capacity and 
increase patient access to care. These programs would greatly benefit 
from the 10 percent increase awarded in proportion to their fiscal year 
2010 funding level. Below is a description of these four critical 
programs.
    Advanced Education Nursing (AEN) Grants (section 811) support the 
preparation of RNs in master's and doctoral nursing programs. The AEN 
grants help to prepare our Nation's nurse practitioners, clinical nurse 
specialists, nurse midwives, nurse anesthetists, nurse educators, nurse 
administrators, public health nurses, and other nurse specialists 
requiring advanced education. In fiscal year 2008 (most current data 
available), these grants supported the education of 5,649 students.
  --AEN Traineeships assist graduate nursing students by providing full 
        or partial reimbursement for the costs of tuition, books, 
        program fees, and reasonable living expenses. In fiscal year 
        2008, this funding helped support 6,675 graduate nurses and 
        APRNs.
  --Nurse Anesthetist Traineeships (NAT) support the education of 
        students in nurse anesthetist programs. In some States, 
        Certified Registered Nurse Anesthetists (CRNAs) are the sole 
        anesthesia providers in almost 100 percent of rural hospitals. 
        Much like the AEN Traineeships, the NAT provides full or 
        partial support for the costs of tuition, books, program fees, 
        and reasonable living expenses. In fiscal year 2008, the 
        program supported 2,145 future CRNAs.
    Workforce Diversity Grants (section 821) prepare disadvantaged 
students to become nurses. This program awards grants and contract 
opportunities to schools of nursing, nurse managed health centers, 
academic health centers, State or local governments, and nonprofit 
entities looking to increase access to nursing education for 
disadvantaged students, including racial and ethnic minorities under-
represented among RNs. In fiscal year 2008, the program supported 
11,638 students.
    Nurse Education, Practice, and Retention Grants (section 831) help 
schools of nursing, academic health centers, nurse-managed health 
centers, State and local governments, and healthcare facilities 
strengthen programs that provide nursing education. In fiscal year 
2008, the priority areas under this program supported 42,761 with an 
additional 455 students supported by the Integrated Nurse Education 
Technology program.
    Comprehensive Geriatric Education Grants (section 855) are awarded 
to schools of nursing or healthcare facilities to better provide 
nursing services for the elderly. These grants are used to educate RNs 
who will provide direct care to older Americans, develop and 
disseminate geriatric curriculum, prepare faculty members, and provide 
continuing education. In fiscal year 2008, this program supported 6,514 
nurses and nursing students.
    Without an adequate supply of nurses to care for our Nation, 
including our growing aging population, the healthcare system is not 
sustainable. The Nursing Community's request of $267.3 million in 
fiscal year 2011 for the HRSA Nursing Workforce Development programs 
will help ensure access to quality care provided by America's nursing 
workforce.
Members of the Nursing Community Submitting this Testimony
Academy of Medical-Surgical Nurses
American Academy of Ambulatory Care Nursing
American Academy of Nurse Practitioners
American Academy of Nursing
American Association of Colleges of Nursing
American Association of Nurse Anesthetists
American College of Nurse Practitioners
American College of Nurse-Midwives
American Nurses Association
American Organization of Nurse Executives
American Psychiatric Nurses Association
American Society for Pain Management Nursing
Association of Community Health Nursing Educators
Association of Nurses in AIDS Care
Association of periOperative Registered Nurses
Association of Rehabilitation Nurses
Association of Women's Health, Obstetric and Neonatal Nurses
Commissioned Officers Association of the U.S. Public Health Service
Dermatology Nurses' Association
Gerontological Advanced Practice Nurses Association
Hospice and Palliative Nurses Association
Infusion Nurses Society
National Association of Clinical Nurse Specialists
National Association of Hispanic Nurses
National Association of Nurse Practitioners in Women's Health
National Association of Pediatric Nurse Practitioners
National Black Nurses Association
National Nursing Centers Consortium
National Organization of Nurse Practitioner Faculties
National Student Nurses' Association, Inc.
Nurses Organization of Veterans Affairs
Oncology Nursing Society
Preventive Cardiovascular Nurses Association
Public Health Nursing Section, American
Public Health Association
Society of Urologic Nurses and Associates
Wound, Ostomy and Continence Nurses Society
                                 ______
                                 
Prepared Statement of the National Council for Diversity in the Health 
                              Professions
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present my views before you today. I am Dr. Wanda 
Lipscomb, President of the National Council for Diversity in the Health 
Professions (NCDHP) and the Director of the Center of Excellence for 
Culture Diversity in Medical Education at Michigan State University. 
NCDHP, established in 2006, is a consortium of our Nation's majority 
and minority institutions that once house the Health Resources and 
Services (HRSA) Minority Centers of Excellence (COE) and Health Careers 
Opportunities Programs (HCOP) when there was more funding. These 
institutions are committed to diversity in the health professions. In 
my professional life, I have seen firsthand the importance of health 
professions institutions promoting diversity and the Title VII Health 
Professions Training programs.
    Mr. Chairman, time and time again, you have encouraged your 
colleagues and the rest of us to take a look at our Nation and evaluate 
our needs over the next 10 years. I want to say that minority health 
professional institutions and the Title VII Health Professionals 
Training programs address a critical national need. Persistent and 
severe staffing shortages exist in a number of the health professions, 
and chronic shortages exist for all of the health professions in our 
Nation's most medically underserved communities. Furthermore, our 
Nation's health professions workforce does not accurately reflect the 
racial composition of our population. For example while blacks 
represent approximately 15 percent of the U.S. population, only 2-3 
percent of the Nation's health professions workforce is black. Mr. 
Chairman, I would like to share with you how your committee can help 
NCDHP continue our efforts to help provide quality health professionals 
and close our Nation's health disparity gap.
    There is a well-established link between health disparities and a 
lack of access to competent healthcare in medically underserved areas. 
As a result, it is imperative that the Federal Government continue its 
commitment to minority health profession institutions and minority 
health professional training programs to continue to produce healthcare 
professionals committed to addressing this unmet need.
    An October 2006 study by the Health Resources and Services 
Administration (HRSA), entitled ``The Rationale for Diversity in the 
Health Professions: A Review of the Evidence'' found that minority 
health professionals serve minority and other medically underserved 
populations at higher rates than nonminority professionals. The report 
also showed that; minority populations tend to receive better care from 
practitioners who represent their own race or ethnicity, and non-
English speaking patients experience better care, greater 
comprehension, and greater likelihood of keeping follow-up appointments 
when they see a practitioner who speaks their language. Studies have 
also demonstrated that when minorities are trained in minority health 
profession institutions, they are significantly more likely to: (1) 
serve in rural and urban medically underserved areas; (2) provide care 
for minorities; and (3) treat low-income patients.
    As you are aware, Title VII Health Professions Training programs 
are focused on improving the quality, geographic distribution and 
diversity of the healthcare workforce in order to continue eliminating 
disparities in our Nation's healthcare system. These programs provide 
training for students to practice in underserved areas, cultivate 
interactions with faculty role models who serve in underserved areas, 
and provide placement and recruitment services to encourage students to 
work in these areas. Health professionals who spend part of their 
training providing care for the underserved are up to 10 times more 
likely to practice in underserved areas after graduation or program 
completion.
    Institutions that cultivate minority health professionals, like the 
NCDHP members, have been particularly hard-hit as a result of the cuts 
to the Title VII Health Profession Training programs in fiscal year 
2006, fiscal year 2007, and fiscal year 2008. Given their historic 
mission to provide academic opportunities for minority and financially 
disadvantaged students, and healthcare to minority and financially 
disadvantaged patients, minority health professions institutions 
operate on narrow margins. The cuts to the Title VII Health Professions 
Training programs amount to a loss of core funding at these 
institutions and have been financially devastating. We have been 
pleased to see efforts to revitalize both COE and HCOP in recent fiscal 
years, but it is important to fully fund the programs at least at the 
fiscal year 2004 level so that more diversity is achieved in our health 
professions.
    Earlier this year with the passage of health reform, the Congress 
showed the importance of the many of the title VII programs, including 
the COE and HCOP, by reauthorizing the programs.
    COE.--COEs focus on improving student recruitment and performance, 
improving curricula in cultural competence, facilitating research on 
minority health issues and training students to provide health services 
to minority individuals. COEs were first established in recognition of 
the contribution made by four historically black health professions 
institutions (the Medical and Dental Institutions at Meharry Medical 
College; The College of Pharmacy at Xavier University; and the School 
of Veterinary Medicine at Tuskegee University) to the training of 
minorities in the health professions. Congress later went on to 
authorize the establishment of ``Hispanic'', ``Native American'' and 
``Other'' Historically black COEs. For fiscal year 2011, I recommend a 
funding level of $33.6 million for COEs.
    HCOP.--HCOPs provide grants for minority and nonminority health 
profession institutions to support pipeline, preparatory and recruiting 
activities that encourage minority and economically disadvantaged 
students to pursue careers in the health professions. Many HCOPs 
partner with colleges, high schools, and even elementary schools in 
order to identify and nurture promising students who demonstrate that 
they have the talent and potential to become a health professional.
    Collectively, the absence of HCOPs will substantially erode the 
number of minority students who enter the health professions. Over the 
last three decades, HCOPs have trained approximately 30,000 health 
professionals including 20,000 doctors, 5,000 dentists and 3,000 public 
health workers. For fiscal year 2011, I recommend a funding level of 
$35.6 million for HCOPs.
    Mr. Chairman, please allow me to express my appreciation to you and 
the members of this subcommittee. With your continued help and support, 
NCDHP member institutions and the Title VII Health Professions Training 
programs can help this country to overcome health and healthcare 
disparities. Congress must be careful not to eliminate, paralyze or 
stifle the institutions and programs that have been proven to work. 
NCDHP seeks to close the ever widening health disparity gap. If this 
subcommittee will give us the tools, we will continue to work towards 
the goal of eliminating that disparity everyday.
    Thank you, Mr. Chairman, and I welcome every opportunity to answer 
questions for your records.
                                 ______
                                 
Prepared Statement of the National Federation of Community Broadcasters
    Thank you for the opportunity to submit testimony to this 
subcommittee regarding the appropriation for the Corporation for Public 
Broadcasting (CPB). As the President and CEO of the National Federation 
of Community Broadcasters (NFCB), I speak on behalf of 250 community 
radio stations and related individuals and organizations across the 
country. Nearly half our members are rural stations and half are 
controlled by people of color. In addition, our members include many 
Low Power FM stations that are putting new local voices on the 
airwaves. NFCB is the sole national organization representing this 
group of stations which provide independent, local service in the 
smallest communities of this country as well as the largest 
metropolitan areas. In summary, in this testimony, NFCB:
  --Thanks the subcommittee for its role in providing $25 million 
        station fiscal stabilization in light of the difficult economy 
        in last year's appropriation;
  --Requests $604 million in funding for CPB for fiscal year 2013 and 
        requests that advance funding for CPB is maintained to preserve 
        journalistic integrity and facilitate planning and local 
        fundraising by public broadcasters;
  --Supports CPB activities in facilitating programming and services to 
        the radio ``minority consortia'' dedicated to Native American, 
        Latino and African-American radio stations;
  --Requests $59.5 million in fiscal year 2011 for conversion of public 
        radio and television to digital technology;
  --Supports CPB's funding for rural stations and assistance with new 
        technologies and requests report language regarding rural and 
        minority stations in this regard
  --Supports CPB programs focused on ensuring public radio is able to 
        fulfill its important mission of public safety during 
        emergencies; and
  --Supports CPB's role as a convener that can address questions and 
        important future trends across all public media.
    Community radio fully supports the forward funding appropriation of 
$604 million in Federal funding for the Corporation for Public 
Broadcasting in fiscal year 2013. Money allocated to the Corporation 
for Public Broadcasting assists NFCB member stations throughout the 
country through community service grants. Community service grants are 
the core way that CPB uses to support radio stations--particularly 
targeted to stations offering the first public radio service to a 
community in a rural area, or to stations serving particular 
demographic constituencies. CPB's focus on these areas is critical to 
ensuring that public radio does not focus solely on higher-income 
audiences, but serves every American no matter their background or 
their location. These targeted stations provide critical, life-saving 
information to their listeners and are often in communities with very 
small populations and limited economic bases, thus the community is 
unable to financially support the station without Federal funds. For 
example, these stations offer programming in languages other than 
English or Spanish, they can offer emergency information targeted for a 
particular geographic area, and can offer in-depth programming on 
public health issues.
    In larger towns and cities, sustaining grants from CPB enable 
Community Radio stations to provide a reliable source of noncommercial 
programming about the communities themselves. Local programming is an 
increasingly rare commodity in a nation that is dominated by national 
program services and concentrated ownership of the media. CPB funding 
allows an alternative to exist in these larger markets. And with large 
newspaper shedding journalists, local community radio may be one of the 
only outlets able to pick up the slack in coverage of local political 
matters.
    For more than 30 years, CPB appropriations have been enacted 2 
years in advance. This insulation has allowed pubic broadcasting to 
grow into a respected, independent, national resource that leverages 
its Federal support with significant local funds. Knowing what funding 
will be available in advance has allowed local stations to plan for 
programming and community service and to explore additional 
nongovernmental support to augment the Federal funds. Most importantly, 
the insulation that advance funding provides is of critical importance 
in eliminating both the risk of and the appearance of undue 
interference with and control of public broadcasting.
    Community radio supports CPB activities in facilitating programming 
to Native American, Latino, and African-American radio stations. CPB 
has played a critical role in providing support and assistance to radio 
stations serving communities of color, particularly communities that 
could be better served by noncommercial radio. While CPB has long 
supported television programming focused on underserved communities, 
its programs for radio are newer and are very welcome. Given the 
importance and accessibility of radio in many underserved communities, 
NFCB urges the subcommittee to endorse the long-term viability of these 
radio minority consortia.
    Specifically, with important support from CPB, Native Public Media 
(NPM) has burst on to the scene to ensure that Native Americans have 
access to noncommercial broadcast and new technologies alike. NPM has 
worked in the last few years to facilitate applications for 
noncommercial radio stations by almost 40 applicants from tribal and 
native entities, bringing many of these service areas within the reach 
of a public radio signal for the first time. NPM has undertaken 
research to identify the spectrum allocations currently serving Indian 
Country in order to target better service in the future, releasing a 
report called The New Media, Technology and Internet Use in Indian 
Country: Quantitative and Qualitative Analyses, which included a usage 
survey and case study that contains the first valid and credible data 
on Internet use among Native Americans. In addition, NPM was able to 
play a critical role in ensuring that tribal entities have the ability 
to obtain new radio stations in the future by successfully 
demonstrating to the FCC the need and legal justification for a tribal 
priority in radio.
    In addition, in the last year the newest minority consortium has 
been started--the Latino Public Radio Consortium. The Latino Public 
Radio Consortium is an organization that represents and supports 33 
public radio stations. It recognizes that Latinos are underrepresented 
in the Nation's public broadcasting institutions, decisionmaking 
structures, that there is little programming in English or in Spanish 
produced by Latinos or with a Latino focus and, as a consequence, 
Hispanics are vastly underrepresented among public radio's news and 
public affairs audiences.\1\ To illustrate, a study by Station Resource 
Group's Grow the Audience project showed that, for public radio to 
acquire a representative share of the college-educated market for 
Latinos, it would need to triple its audience.\2\
---------------------------------------------------------------------------
    \1\ Latino Public Radio Consortium, Brown Paper, p. 1 available at 
http://www.latinopublicradioconsortium.org/index.php?s=41.
    \2\ Station Resource Group, Grow the Audience, Listening by Black 
and Hispanic College Graduates (2008) at p. 17, available at http://
www.srg.org/GTA/GTA%20Black%20Hispanic%20Report.pdf.
---------------------------------------------------------------------------
    During this funding year the Consortium has established the 
communications and governance structure to enable the Hispanic stations 
to support each other and to develop additional resources. An important 
new project that is indicative of future work is the development of 
Historias, a partnership with Story Corps, a national oral history 
project of the Library of Congress and public radio. Through this 
collaboration, Story Corps Historias will gather and record 900 
individual interviews with Latinos around the country.
    This year CPB is funding new services for African American public 
radio stations designed to improve and increase public media's service 
to the American public. NFCB believes that this project, like the other 
consortia, is vital to ensure that all Americans benefit from public 
funds and the breadth and depth of public radio. In addition to the 
minority consortia, CPB supports Satelite Radio Bilinge which provides 
24 hours of programming to stations across the United States and Puerto 
Rico addressing issues of particular interest to the Latino population 
in Spanish and English. CPB also supports Native Voice One (NV1), which 
is distributing politically and culturally relevant programming to 
Native American stations.
    Community radio supports $59.5 million in fiscal year 2011 for the 
conversion to digital technology. While public television's digital 
conversion needs were mandated by the FCC, public radio is converting 
to digital to provide more public service and to keep up with 
commercial radio. The Federal Communications Commission has approved a 
standard for digital radio transmission that will allow multicasting. 
This development of second and third audio channels will potentially 
double or triple the service that public radio can provide listeners, 
particularly in unserved and underserved communities. In addition, 
public radio is in great need of CPB's leadership and resources to 
transition to new media platforms, in particular through such projects 
as the American Archive, which will make existing programming 
accessible to all and on all platforms.
    Community radio supports CPB's funding for rural stations and 
assistance with new technologies. For the past few years, CPB has 
increased support to rural stations and committed resources to help 
public radio take advantage of new technologies such as the Internet, 
satellite radio and digital broadcasting. We support these new 
technologies so that we can better serve the American people, but want 
to ensure that smaller stations with more limited resources are not 
left behind in this technological transition. We ask that the 
Subcommittee include language in the appropriation that will ensure 
that funds are available to help the entire public radio system, 
particularly rural and minority stations, utilize new technology.
    A good example of CPB's role is the Public Media Innovation grant 
CPB gave KAXE, one of NFCB's rural members, a chance to experiment with 
the concept of becoming ``a web operation that owned a radio station.'' 
PMI described this project as one of the most visionary proposals they 
funded. As part of the grant, KAXE began the development of Northern 
Community Internet, which would provide hyper-local news content to 
more than a dozen communities in northern Minnesota. Through this 
project, KAXE learned many important things about how to create content 
that is relevant and accessible across a web site, radio station, and 
social media. The journalists involved continue to be very interested 
in the project, even though the current pilot is over.
    Community radio supports CPB programs focused on ensuring public 
radio is able to fulfill its important mission of public safety during 
emergencies. CPB funding has supported an important new project led by 
NFCB called Station Action for Emergency Readiness (SAFER). NFCB, in 
partnership with NPR and with support from CPB, has developed a step-
by-step manual that stations can use to develop and/or supplement their 
own emergency readiness plans; a set of digital tools that stations can 
embed in their own websites to keep community members informed; and 
links to national and local resources that can supplement station's 
coverage. This project was inspired by the experience of NFCB member 
WWOZ in New Orleans as a result of Katrina and was furthered by the 
work of NFCB member KWMR in Point Reyes Station, California. KWMR is 
small and local community and provided absolutely critical life-saving 
information to its community during terrible floods of 2004-2005.
    Community radio supports CPB's role as a convener that can address 
questions and important future trends across all public media. CPB 
plays an extremely important role in the public and Community Radio 
system: it convenes discussions on critical issues facing us as a 
system. They support research so that we have a better understanding of 
how we are serving listeners. And, they provide funding for 
programming, new ventures, expansion to new audiences, and projects 
that improve the efficiency of the system. This is particularly 
important at a time when there are so many changes in the radio and 
media environment with media consolidation and new distribution 
technologies.
    Thank you for your consideration of our testimony. If the 
subcommittee has any questions or wishes to follow up on any of the 
points expressed above, please contact:
                                 ______
                                 
       Prepared Statement of the National Coalition for Literacy
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to submit the views of the National Coalition for Literacy 
on appropriations for adult education and family literacy, under the 
Workforce Investment Act, title II.
    The National Coalition for Literacy represents 24 national 
organizations concerned about adult education and family literacy. We 
request a significant increase in funding and investment for adult 
education and family literacy to at least $750 million in order to 
address critical, immediate needs, such as:
  --Clear Waiting Lists.--It would cost at least $160 million to clear 
        existing waiting lists for instruction.
  --Increase Access to Adult English Language Learning Programs.--We 
        need to create opportunities for more than 11 million 
        immigrants to learn English.
  --Increase Access to Professional Development.--Adult education 
        practitioners need increased access to professional development 
        in order to ensure quality services.
  --Improve Professional Quality of the Adult Education Workforce.--
        Eighty percent of teachers are part time; thousands are 
        volunteers. We must create the conditions needed to attract and 
        retain a full-time workforce.
  --Create a National Center for Adult Education, Literacy, and 
        Workforce Skills.\1\ A Center would address the continued need 
        for research and innovation in our field.
---------------------------------------------------------------------------
    \1\ NCL Proposal for a National Center for Adult Education, 
Literacy, and Workforce Skills http://www.ncladvocacy.org/
NationalCenterPolicyPrinciples_FINAL.pdf.
---------------------------------------------------------------------------
    These critical, urgent needs require scaled investments that will 
provide adults important opportunities to acquire the skills they need 
to find family sustaining work.
Need and Demand for Adult Education
    The 2003 National Assessment of Adult Literacy found that there are 
approximately 93 million adults in the United States who do not have 
the literacy skills to reach their full potential. Thirty million 
adults have such low levels of literacy that it impedes their ability 
to fully function at home, at work, and in society. One in seven adults 
in our Nation can barely read a newspaper, a job application, a 
prescription label, or an election ballot.\2\ Many live in poverty, 
experience complex health problems, and have extreme difficulty 
supporting their children's education. Eleven million adults cannot 
communicate in English.
---------------------------------------------------------------------------
    \2\ ProLiteracy www.proliteracy.org.
---------------------------------------------------------------------------
    Taking into consideration all Federal, State, and local and 
philanthropic funding, the adult education system serves only 2.5 
million of 93 million adults each year who would benefit from literacy 
and English language instruction. Despite this, adult education has 
been nearly flat funded for a decade. An increase in fiscal year 2009-
10 was a one-time adjustment to correct for a funding calculation error 
that occurred from 2003-2008.
    According to this year's congressional justification, the 
administration built its budget request on 2006 waiting list data.\3\ 
However, the National Council of State Directors of Adult Education has 
since published a March 2010 report, demonstrating that waiting lists 
and wait time have doubled in the last 2 years, during this economic 
crisis. Seventy-two percent of the programs reporting, from 50 of the 
51 States and territories, confirmed waiting lists. Approximately 
160,000 adults want to access services but cannot.\4\ Additionally, 
community-based and volunteer literacy programs around the country 
report increased demand for services while traditional sources of 
funding are becoming more scarce.
---------------------------------------------------------------------------
    \3\ Congressional Justification for Career, Technical, and Adult 
Education 2010 http://www2.ed.gov/about/overview/budget/budget11/
justifications/n-careered.pdf.
    \4\ 2009-2010 Adult Student Waiting List Survey http://
www.ncladvocacy.org/2010AdultEducationWaitingListReport.pdf.
---------------------------------------------------------------------------
    The congressional justification also cited 2000 census data 
demonstrating an 11 percent dropout rate nationwide. Adult education 
programs serve as a key pipeline for these dropouts, keeping them on 
course to a high school equivalent and postsecondary education or job 
training. Adult education provides a last resort for helping these 
youths get back on track.
Investing in Adult Education is a Workforce Investment
    We commend the administration for proposing to invest more through 
the Workforce Innovation Fund. Adult education and job training can 
underpin economic recovery and open opportunities for low-skilled 
workers by helping today's workforce develop the skills they need for 
both work and community life. As literacy and educational attainment 
rise, so do adults' income and chances of stable employment.
    According to the Bureau of Labor Statistics, unemployment decreases 
as education levels increase: \5\
---------------------------------------------------------------------------
    \5\ Education Pays, Bureau of Labor Statistics http://www.bls.gov/
emp/ep_chart_001.htm.

------------------------------------------------------------------------
                                                           Median weekly
     Unemployment rate in 2008       Education attained     earnings in
           (percentage)                                   2008 (dollars)
------------------------------------------------------------------------
2.................................  Doctoral degree.....          $1,561
1.7...............................  Professional degree.           1,531
2.4...............................  Master's degree.....           1,233
2.8...............................  Bachelor's degree...           1,012
3.7...............................  Associate degree....             757
5.1...............................  Some college, no                 699
                                     degree.
5.7...............................  High-school graduate             618
9.................................  Less than a high                 453
                                     school diploma.
------------------------------------------------------------------------
Note: Data are 2008 annual averages for persons age 25 and over.
  Earnings are for full-time wage and salary workers.
 
Source: Bureau of Labor Statistics, Current Population Survey.

    The Bureau of Labor Statistics estimates that by 2013, 90 percent 
of the fastest-growing jobs, 60 percent of all new jobs, and 40 percent 
of manufacturing jobs will require some form of postsecondary 
education. However, only 2 percent of this need can be met by high 
school graduates.\6\ 94 percent of today's workforce will still be in 
the workforce in 2013; we must increase the skills of the current adult 
workforce for these high-demand jobs. Adult education is an important 
re-entry point for unemployed and underemployed adults who wish to 
raise their basic education skills or improve their English. However, 
the adults who want to become job and career-ready for these high-
skilled, high-demand jobs are unable to get into instruction.\7\
---------------------------------------------------------------------------
    \6\ U.S. Census, www.census.gov.
    \7\ Investing in the Adult Workforce http://www.ncladvocacy.org/
StateAlignmentInitiativesVolumeII/InvestingInTheAdultWorkforce.doc.
---------------------------------------------------------------------------
Meeting the President's College Graduation Goal
    The President has articulated a goal of the United States having 
the highest proportion of college graduates in the world by 2020. Even 
if every State reached the same levels of high school graduation and 
college enrollment for high school graduates as the highest-performing 
States, we would not reach this goal without a substantial effort to 
bring adult education students into the pipeline.
English Language Acquisition
    We must create opportunities for immigrants to learn English and 
civics by building and enhancing the capacity of current adult 
education programs. Between 1970 and 2005, the U.S. foreign-born 
population tripled to an estimated 35.8 million individuals, accounting 
for 12.4 percent of the country's population. At least 67 percent of 
the growth in the U.S. workforce in the past 3 years is comprised of 
new immigrants. It is estimated that between 2010-2030 first and second 
generation immigrants together will account for all the growth in the 
U.S. workforce.\8\ According to U.S. Census Bureau estimates, nearly 1 
in 5 adults in the United States speaks a language other than English 
at home, and more than 17 million speak English less than ``very 
well.'' \9\
---------------------------------------------------------------------------
    \8\ Kirsch, I., Braun, H., Yamamoto, K. (2007) America's Perfect 
Storm: Three Forces Changing Our Nation's Future. Princeton, NJ: 
Education Testing Service.
    \9\ U.S. Census Bureau (2003). Language Use and English-Speaking 
Ability: 2000. Washington, DC: Author.
---------------------------------------------------------------------------
Investing in Quality
    Increasing funds to clear waiting lists is a start. But if the 
adult education system is to help prepare adults for 21st century jobs, 
transition adults to college, and meet or exceed performance goals, we 
must invest in quality of the profession as well as the numbers of 
learners served. The 21st century adult educator needs to:
  --Prepare adults to be digital age learners using existing and new 
        technologies.
  --Prepare adults with the basic adult literacy and critical thinking 
        skills they need to be competitive in the 21st century 
        workforce.
  --Teach adults with learning and other disabilities to close the life 
        outcomes gap.
  --Prepare adults to transition into postsecondary and vocational 
        credit-bearing classes.
  --Instruct a linguistically diverse classroom to improve their 
        language proficiency.
  --Increase political literacy and civic participation among our 
        nation's adults.
  --Strengthen programs to be scalable and flexible to meet new demands 
        in communities.
    Only 1 in 5 adult education teachers are full time; thousands are 
volunteers; most are funded on year-to-year grant programs. Stable job 
status that facilitates a dedicated, professional workforce is critical 
to raising student achievement outcomes. Career ladders are virtually 
nonexistent in adult education; a national credential in adult 
education does not exist. Many practitioners are not paid to attend 
professional development opportunities in order to meet these demands 
upon them. Developing the professional quality of the workforce is 
vital if we are to help adult learners achieve. We must increase access 
to professional development, provide credentialing and career 
advancement opportunities, improve working conditions, and conduct 
research in professional development. Increasing appropriations will 
allow the field to do that.
Return on Investment
    Adult education is a good investment. On January 21, 2010, the 
United States Department of Labor's Bureau of Labor Statistics reported 
that there was a $9,828 wage differential for full-time workers with a 
high school diploma (or GED) over those who did not graduate.\10\ The 
following is the potential return on investment for adults in 2008-2009 
who received a GED in adult education programs. Over a 5-year period, 
the original $39,164,868 spent on the 165,637 GED students shows a 
potential return on investment of $1,220,910,325 (3,017 percent).
---------------------------------------------------------------------------
    \10\ Bureau of Labor Statistics (January 2010). Retrieved February 
16, 2010 from http://www.bls.gov/news.release/wkyeng.nr0.htm.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Number of GEDs achieved in 2008-2009.................       \1\ $165,637
Average dollars invested in student..................            $236.45
                                                      ------------------
      Total..........................................        $39,164,868
 
Number of GEDs achieved in 2008-2009.................            165,637
Income differential..................................             $9,828
                                                      ------------------
      Total increase in taxable income per year......     $1,627,880,436
 
Federal tax rate (percent)...........................                 15
                                                      ------------------
      Potential return on investment per year........       $244,182,065
One-year return on investment (percent)..............                523
                                                      ------------------
      Potential 5-year return on investment..........     $1,220,910,325
------------------------------------------------------------------------
\1\ Office of Vocational and Adult Education reporting Web site.
  Retrieved February 16, 2010.

  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  

    The current levels of funding have not and will not allow the field 
to grow to serve more adults, to improve and innovate practice, and 
meet existing and increasing demands. For these reasons, we strongly 
urge the Senate Appropriations Subcommittee on Labor, Health and Human 
Services, and Education, and Related Agencies to support a significant 
increase for programs provided by the Adult Education and Family 
Literacy Act, to at least $750 million or more.
                                 ______
                                 
         Prepared Statement of the National Consumer Law Center
    The Federal Low Income Home Energy Assistance Program (LIHEAP) \1\ 
is the cornerstone of Government efforts to help needy seniors and 
families avoid hypothermia in the winter and heat stress (even death) 
in the summer. LIHEAP is an important safety net program for low-
income, unemployed, and underemployed families struggling in this 
economy. The demand for LIHEAP assistance remains at record high 
levels. In fiscal year 2010, the program is expected to help a record 9 
million low-income households afford their energy bills, a 15 percent 
increase from the prior fiscal year. In light of the crucial safety net 
function of this program in protecting the health and well-being of 
low-income seniors, the disabled, and families with very young 
children, we respectfully request that LIHEAP be fully funded at its 
authorized level of $5.1 billion for fiscal year 2011 and that advance 
funding of $5.1 billion be provided for the program in fiscal year 
2012.
---------------------------------------------------------------------------
    \1\ 42 U.S.C. Sec. Sec. 8621 et seq.
---------------------------------------------------------------------------
Home Energy Bills Remain High at a Time When Unemployment and 
        Underemployment is at Record High Levels
    Residential heating expenditures remain at high levels. U.S. 
average residential heating expenditures this winter are expected to be 
around the same for natural gas, about 24 percent higher for heating 
oil, 21 percent higher for propane, and 23 percent higher for 
electricity when compared to the 5-year average for 2003-2008.\2\ The 
years of steady, high-energy bills are hitting low-income households 
struggling in this serious economic downturn. Low-income residential 
consumers, on average, pay a substantial amount of their income on 
residential energy, especially when compared to non-low-income 
households, 13.5 percent versus 3.6 percent, respectively.\3\ Because 
LIHEAP is targeted to the most vulnerable low-income households, LIHEAP 
recipient households have an average energy burden of 16 percent.\4\
---------------------------------------------------------------------------
    \2\ Derived from data in the Energy Information Agency, Short-Term 
Energy Outlook (March 2010), Table WF01.
    \3\ US HHS, ACF, OCS, LIHEAP Home Energy Notebook For Fiscal Year 
2007, June 2009 at Table A-3b. Residential energy: Average annual 
expenditure, by amount (dollars) and mean individual burden (percent of 
income), for all, non-low-income, low income, and LIHEAP recipient 
households, by Census region and main heating fuel, fiscal year 2007.
    \4\ Id.
---------------------------------------------------------------------------
    The number of households that are struggling to make ends meet 
remains very high. According a Pew Economic Policy Group report, in 
March 2010 more than 44 percent of the 15 million unemployed Americans 
had been unemployed for 6 months or longer.\5\ This is the highest rate 
of long-term unemployment since World War II. The ``underemployment'' 
rate in March 2010 is 16.9 percent.\6\ CBO's budget and economic 
outlook report projects that unemployment will average 9.5 percent in 
fiscal year 2011.\7\ The hardship low-income households face is also 
apparent in the data below on the number of households falling behind.
---------------------------------------------------------------------------
    \5\ Pew Economic Policy Group Fiscal Analysis Initiative, A Year or 
More: The High Cost of Long-Term Unemployment, April 2010, Executive 
Summary.
    \6\ Id. Underemployment captures workers who became discouraged and 
stopped looking for work, older workers who opted to retire early 
instead of seeking work, young people delaying entering the work force 
and those workers who want full-time work, but have been forced to 
accept part-time work instead.
    \7\ CBO, The Budget and Economic Outlook: Fiscal Years 2010 to 
2020, January 2010 at Summary Table 2.
---------------------------------------------------------------------------
States' Data On Electric and Natural Gas Disconnections and Arrearages 
        Show That More Households Are Falling Behind
    States are Predicting Record LIHEAP Participation.--With the 
downturn in the economy, the States continue to experience record 
demand for LIHEAP assistance. NEADA reports that for fiscal year 2010, 
17 States have projected increases in participation of at least 20 
percent, with Mississippi estimating a 68 increase, followed by 
Washington (42 percent), Michigan (38 percent), Nevada (34 percent), 
New Jersey (31 percent), West Virginia (28 percent), Colorado (26 
percent), Kansas (25 percent), New Hampshire (25 percent), Wisconsin 
(25 percent), Montana (21 percent), California (20 percent), Oregon (20 
percent), South Carolina (20 percent), South Dakota (20 percent), Texas 
(20 percent) and Rhode Island (20 percent).\8\ As jobs lag behind 
economic recovery, we fully expect the need for fully funded LIHEAP 
program in the States in fiscal year 2011.
---------------------------------------------------------------------------
    \8\ NEADA press release, Record Numbers of Households Seek 
Assistance: States Call for the Release of Emergency Funds and 
Supplemental Assistance, February 22, 2010. (Hereinafter, ``NEADA Feb. 
22, 2010 Press Release.'')
---------------------------------------------------------------------------
    The steady and dramatic rise in residential energy costs has 
resulted in increases in electric and natural gas arrearages and 
disconnections. The National Energy Assistance Directors' Association 
reports that households experiencing natural gas shut offs increased 
from 4.1 million in 2008 to 4.3 million in 2009.\9\
---------------------------------------------------------------------------
    \9\ NEADA press release, Record Number of Households Receive Energy 
Assistance: Shut-Offs Exceed 4.3 million Households in 2009, December 
18, 2009. See also Sandra Sloane, Mitchell Miller, Beverly Barker, Lisa 
Colosimo, ``2008 Individual State Report by NARUC Consumer Affairs 
Subcommittee on Collections Data Gathering'' (approved on Nov. 17, 2008 
by the NARUC Consumers Affairs Committee). This national survey found 
that almost 40 million electricity and natural gas residential 
consumers held nearly $8.7 billion in past due accounts at the end of 
the 2007-2008 Winter heating season. The survey also concluded that in 
calendar year 2007, 8.7 million residential consumers had their 
electricity or natural gas service terminated for failing to pay their 
bills, with 3.6 million who remained disconnected as of May 2008.
---------------------------------------------------------------------------
    Although there are winter utility shut-off moratoria in place in 
many States, not every home is protected against energy shut-offs in 
the middle of winter. As we approach the lifting of winter shut-off 
moratoria, we expect to see a wave of disconnections as households are 
unable to afford the cost of the energy bills. Low-income families are 
falling further behind as we endure year after year of rising home 
energy prices. We expect the disconnection peaks to grow and the gap 
between disconnections and reconnections to also grow, especially in 
light of the economic challenges faced by the unemployed and 
underemployed workers.
    California.--California has experienced a dramatic increase in 
LIHEAP participation from fiscal year 2008 to fiscal year 2010, with 
166,000 households served in fiscal year 2008; 434,000 in fiscal year 
2009 and projects serving 521,000 in fiscal year 2010.\10\ The rise in 
the State's unemployment and foreclosure rates led the State Division 
of Ratepayer Advocates (DRA) to take a look at whether households are 
able to maintain access to natural gas and electric service. DRA found 
that low-income residential customers were experiencing a 19 percent 
increase in disconnections over the past year and that the disparity 
between low-income disconnections and non-low-income disconnections is 
the worst in 3 years.\11\ In February 2010, the California Public 
Utilities Commission opened a docket to address electric and natural 
gas disconnections.\12\
---------------------------------------------------------------------------
    \10\ NEADA Feb. 22, 2010 Press Release.
    \11\ California Division of Ratepayer Advocates, Status of Energy 
Utility Service Disconnections in California, November 2009, Executive 
Summary and pages 5 and 10.
    \12\ CPUC, Order Instituting Rulemaking To Establish Ways to 
Improve Customer Notification and Education to Decrease the Number of 
Gas and Electric Utility Service Disconnections, R.10-02-005, Issued 
February 5, 2010.
---------------------------------------------------------------------------
    Iowa.--Iowa has experienced a steady increase in enrollment for the 
regular LIHEAP program from fiscal year 2008 to fiscal year 2010 with 
85,000 households served in fiscal year 2008; 95,000 in fiscal year 
2009 and 100,000 projected in fiscal year 2010.\13\ The average monthly 
number of LIHEAP households in arrears in fiscal year 2009 was 12 
percent higher than the monthly average over the 5-year period from 
fiscal year 2004 through fiscal year 2008. However, as a testament to 
the importance of LIHEAP, the average monthly number of all households 
in arrears in fiscal year 2009 was 14 percent higher than the monthly 
average for all households in arrears over the previous 5-year 
period.\14\
---------------------------------------------------------------------------
    \13\ NEADA Feb. 22, 2010 Press Release and Iowa Bureau of Energy 
Assistance.
    \14\ Based on data provided by the Iowa Bureau of Energy 
Assistance.
---------------------------------------------------------------------------
    Ohio.--Ohio has experienced a steady and dramatic demand for low-
income energy assistance. The number of households entering into the 
State's low-income energy affordability program, the Percentage of 
Income Payment Program (PIPP), increased 6 percent from January 2009 to 
January 2010.\15\ The increase is an even more dramatic 98 percent 
between January 2003 and January 2010. The total dollar amount owed 
(arrearage) by low-income PIPP customers increased 5 percent from 
January 2009 to January 2010 and 118 percent when comparing PIPP 
customer arrears from January 2003 to January 2010. Ohio has 
experienced a steady increase in enrollment for the regular LIHEAP 
program from fiscal year 2008 to fiscal year 2010 with 387,000 
households served in fiscal year 2008; 394,000 in fiscal year 2009 and 
projects 418,000 in fiscal year 2010.\16\
---------------------------------------------------------------------------
    \15\ Public Utilities Commission of Ohio.
    \16\ NEADA Feb. 22, 2010 Press Release.
---------------------------------------------------------------------------
    Pennsylvania.--Pennsylvania has also experienced a steady increase 
in enrollment for the regular LIHEAP program from fiscal year 2008 to 
fiscal year 2010, with 371,000 households served in 2008; 547,000 in 
fiscal year 2009, and a projected 602,000 in fiscal year 2010.\17\ 
Utilities in Pennsylvania that are regulated by the Pennsylvania Public 
Utility Commission (PA PUC) have established universal service programs 
that assist utility customers in paying bills and reducing energy 
usage. Even with these programs, electric and natural gas utility 
customers find it difficult to keep pace with their energy burdens. The 
PA PUC estimates that more than 21,029 households entered the current 
heating season without heat-related utility service. This number 
includes about 3,992 households who are heating with potentially unsafe 
heating sources such as kerosene or electric space heaters and kitchen 
ovens. In mid-December 2009, an additional 14,332 residences where 
electric service was previously terminated were vacant and more than 
7,438 residences where natural gas service was terminated were vacant. 
In 2009, the number of terminations increased 65 percent compared with 
terminations in 2004. As of December 2009, 18.2 percent of residential 
electric customers and 15.8 percent of natural gas customers were 
overdue on their energy bills.\18\
---------------------------------------------------------------------------
    \17\ Id.
    \18\ Pennsylvania Public Utilities Commission.
---------------------------------------------------------------------------
LIHEAP Is a Critical Safety Net Program for the Elderly, the Disabled 
        and Households With Young Children
    Dire Choices and Dire Consequences.--Recent national studies have 
documented the dire choices low-income households face when energy 
bills are unaffordable. Because adequate heating and cooling are tied 
to the habitability of the home, low-income families will go to great 
lengths to pay their energy bills. Low-income households faced with 
unaffordable energy bills cut back on necessities such as food, 
medicine and medical care.\19\ The U.S. Department of Agriculture has 
released a study that shows the connection between low-income 
households, especially those with elderly persons, experiencing very 
low food security and heating and cooling seasons when energy bills are 
high.\20\ A pediatric study in Boston documented an increase in the 
number of extremely low weight children, age 6 to 24 months, in the 3 
months following the coldest months, when compared to the rest of the 
year.\21\ Clearly, families are going without food during the winter to 
pay their heating bills, and their children fail to thrive and grow. A 
2007 Colorado study found that the second leading cause of homelessness 
for families with children is the inability to pay for home energy.\22\
---------------------------------------------------------------------------
    \19\ See e.g., National Energy Assistance Directors' Association, 
2008 National Energy Assistance Survey, Tables in section IV, G and H 
(April 2009) (to pay their energy bills, 32 percent of LIHEAP 
recipients went without food, 42 percent went without medical or dental 
care, 38 percent did not fill or took less than the full dose of a 
prescribed medicine, 15 percent got a payday loan). Available at http:/
/www.neada.org/communications/press/2009-04-28.htm.
    \20\ Mark Nord and Linda S. Kantor, Seasonal Variation in Food 
Insecurity Is Associated with Heating and Cooling Costs Among Low-
Income Elderly Americans, The Journal of Nutrition, 136 (Nov. 2006) 
2939-2944.
    \21\ Deborah A. Frank, MD et al., Heat or Eat: The Low Income Home 
Energy Assistance Program and Nutritional and Health Risks Among 
Children Less Than 3 years of Age, AAP Pediatrics v.118, no.5 (Nov. 
2006) e1293-e1302. See also, Child Health Impact Working Group, 
Unhealthy Consequences: Energy Costs and Child Health: A Child Health 
Impact Assessment Of Energy Costs And The Low Income Home Energy 
Assistance Program (Boston: Nov. 2006) and the Testimony of Dr. Frank 
Before the Senate Committee on Health, Education, Labor and Pensions 
Subcommittee on Children and Families (March 5, 2008).
    \22\ Colorado Interagency Council on Homelessness, Colorado 
Statewide Homeless Count Summer, 2006, research conducted by University 
of Colorado at Denver and Health Sciences Center (Feb. 2007).
---------------------------------------------------------------------------
    When people are unable to afford paying their home energy bills, 
dangerous and even fatal results occur. In the winter, families resort 
to using unsafe heating sources, such as space heaters, ovens and 
burners, all of which are fire hazards. Space heaters pose 3 to 4 times 
more risk for fire and 18 to 25 times more risk for death than central 
heating. In 2007, space heaters accounted for 17 percent of home fires 
and 20 percent of home fire deaths.\23\ In the summer, the inability to 
keep the home cool can be lethal, especially to seniors. According to 
the CDC, older adults, young children and persons with chronic medical 
conditions are particularly susceptible to heat-related illness and are 
at a high risk of heat-related death. The CDC reports that 3,442 deaths 
resulted from exposure to extreme heat during 1999-2003.\24\ The CDC 
also notes that air-conditioning is the number one protective factor 
against heat-related illness and death.\25\ LIHEAP assistance helps 
these vulnerable seniors, young children and medically vulnerable 
persons keep their homes at safe temperatures during the winter and 
summer and also funds low-income weatherization work to make homes more 
energy efficient.
---------------------------------------------------------------------------
    \23\ John R. Hall, Jr., Home Fires Involving Heating Equipment 
(Jan. 2010) at ix and 33. Also, 40 percent of home space heater fires 
involve devices coded as stoves.
    \24\ CDC, ``Heat-Related Deaths--United States, 1999-2003'' MMWR 
Weekly, July 28, 2006.
    \25\ CDC, ``Extreme Heat: A Prevention Guide to Promote Your 
Personal Health and Safety'' available at http://emergency.cdc.gov/
disasters/extremeheat/heat_guide.asp.
---------------------------------------------------------------------------
    LIHEAP is an administratively efficient and effective targeted 
health and safety program that works to bring fuel costs within a 
manageable range for vulnerable low-income seniors, the disabled and 
families with young children. LIHEAP must be fully funded at its 
authorized level of $5.1 billion in fiscal year 2011 in light of high 
home energy costs and the increased need for assistance to protect the 
health and safety of low-income families by making their energy bills 
more affordable during this economic downturn. In addition, fiscal year 
2012 advance funding would facilitate the efficient administration of 
the State LIHEAP programs. Advance funding provides certainty of 
funding levels to States to set income guidelines and benefit levels 
before the start of the heating season. States can also plan the 
components of their program year (e.g., amounts set aside for heating, 
cooling and emergency assistance, weatherization, self-sufficiency, and 
leveraging activities).
                                 ______
                                 
   Prepared Statement of the National Coalition for Osteoporosis and 
                         Related Bone Diseases
    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to submit testimony to this subcommittee. The National 
Coalition for Osteoporosis and Related Bone Diseases (``Bone 
Coalition'') was organized in the early 1990s and is dedicated to 
increasing Federal research funding for bone diseases through advocacy 
and education. The Bone Coalition members are five leading national 
bone disease groups, consisting of two professional societies and three 
national voluntary health organizations: American Academy of 
Orthopaedic Surgeons; American Society for Bone and Mineral Research; 
National Osteoporosis Foundation; Osteogenesis Imperfecta Foundation; 
and The Paget Foundation.
    Bone diseases do not discriminate. Osteoporosis and related bone 
diseases affect people of all ages, ethnicities, and gender. Related 
bone diseases include Paget's disease of bone, osteogenesis imperfecta, 
and a number of rare bone diseases. Osteoporosis is a condition in 
which the bones become weak and can break from a minor fall, or in 
serious cases, from a simple action such as a sneeze. About 10 million 
Americans already have the disease, and another 34 million people have 
low bone density, which puts them at risk for osteoporosis and bone 
fractures. Approximately 80 percent of those affected by osteoporosis 
are women.
    Bone diseases drastically affect the way people function. 
Individuals who suffer broken bones as a result of osteoporosis can 
suffer severe pain, loss of height, and stooped posture that can affect 
breathing and digestion. One in five patients who walked before their 
hip fracture needs long-term care afterward. It is interesting to note 
that although the rate of hip fractures is 2 to 3 times higher in 
women, after 1 year, the death rate in men is nearly twice as high. 
Studies conclude that musculoskeletal disorders and diseases are the 
leading cause of disability in the United States. Studies further 
indicate that more than 1 in 4 Americans have a musculoskeletal 
condition requiring medical attention. The annual direct and indirect 
costs for bone and joint health are $849 billion--which is 7.7 percent 
of the U.S. gross domestic product. Bone health is critical to the 
overall health and quality of life for Americans, and greater efforts 
are needed from Congress, States, providers, and patients to address 
the burdens associated with osteoporosis and related bone diseases. 
Information regarding the impact of bone diseases is included at the 
end of this statement.
National Institutes of Health (NIH) Funding
    The Bone Coalition is grateful for the additional funding the 
President has included in his budget for the NIH. His agenda recognizes 
the role that medical research plays in building better healthcare and 
economic revitalization. We join the hundreds of organizations 
dedicated to health and medical research to now urge Congress to 
provide additional funds--$35 billion--for the NIH. This increase will 
create substantial opportunities for scientific and health advances as 
well as provide a key economic role in communities across the Nation. 
In addition, even with NIH's budget increase proposed by the President, 
not all NIH Institutes and programs will receive proportional 
increases. The Bone Coalition encourages the subcommittee to provide a 
proportional increase in funding to the National Institute of Arthritis 
and Musculoskeletal and Skin Diseases. The Coalition would like to draw 
attention to areas of bone disease research which merit funding.
    An internal analysis of fiscal year 2009 NIH funded grants revealed 
only 1 percent of the NIH budget was allotted toward bone research. 
This statistic is startling when one considers the number of 
individuals afflicted with bone diseases. Bones provide mobility, 
support, and protection for the body. The previous statistics mentioned 
in this testimony describe a compelling reason to support bone disease 
research. Furthermore, without additional bone disease research, the 
costs associated with treating bone diseases will continue to burden 
our healthcare system.
    The Coalition has identified several areas where supplemental 
research is needed and urges the NIH Institutes and other agencies to 
give priority consideration to the below research topics.
    Office of the Director.--The Coalition urges NIH to make support 
research that leads to targeted therapies to improve the density, 
quality, and strength of bone for all Americans. We also encourage 
investments in mechanisms that foster increased interdisciplinary 
research between bone and muscle, fat, and the central nervous system, 
as well as research that improves the identification of populations who 
might require earlier treatment because they are at risk of rapid bone 
loss due to obesity, diabetes, chronic renal failure and low glomerular 
filtration rates, cancer, HIV, conditions that affect absorption of 
nutrients or medications, and addiction to tobacco, alcohol or other 
opiates.
    Furthermore, the Coalition urges NIH to support research on the 
effects of bone therapies on the skeleton, including factors 
predisposing individuals to osteonecrosis of the jaw and atypical 
subtrochanteric fractures of the femur. Regarding cancer and bone, 
studies need to be expanded on prevention and repair of bone defects 
caused by cancer cells and the biology of tumor dormancy and 
therapeutic resistance. Further studies are needed to determine optimal 
levels of calcium and Vitamin D to achieve optimal bone health as well 
as the relationship between Vitamin D and morbidity and mortality in 
chronic kidney disease. Other research needs include: knowledge to 
advance the ability to diagnose and treat bone diseases and disorders 
through bone imaging; advancing tissue engineering strategies to 
replace and regenerate bone and soft tissue; developing assessments for 
determining fracture risk; and better defining the causes of age-
related bone loss and fractures, reduced physical performance and 
frailty.
    Finally, the Coalition encourages NIH to expand genetics and other 
research on rare bone diseases, including: osteogenesis imperfecta, 
Paget's disease of bone, fibrous dysplasia, osteopetrosis, fibrous 
ossificans progressiva, melhoreostosis, X-linked hypophosphatemic 
rickets, multiple hereditary exostoses, multiple osteochondroma, 
Gorham's disease, and lymphangiomatosis.
    National Institute of Arthritis and Musculoskeletal and Skin 
(NIAMS).--The Coalition suggests additional research is needed into the 
pathophysiology of bone loss in diverse populations in order to develop 
targeted therapies to reduce fractures and improve bone density, bone 
quality, and bone strength. This includes resolving what are 
appropriate levels of calcium and vitamin D for bone health at 
different life stages. Research is also needed in the assessment of 
bone microarchitecture and remodeling rates for determining fracture 
risk, anabolic approaches to increase bone mass, novel molecular and 
cell-based therapies for bone and cartilage regeneration, and 
discerning the clinical utility of new, noninvasive bone imaging 
techniques to measure bone architecture and fragility. Support for 
studies on the molecular basis of bone diseases such as Paget's 
disease, osteogenesis imperfecta and other rare bone diseases should 
also be a priority.
    National Cancer Institute (NCI).--The Coalition requests continued 
research on how to repair bone defects caused by cancer cells, 
mechanisms by which cancer cells affect the bone's endogenous cells, 
and the biology of tumor dormancy and the role of tumor stroma in 
conferring therapeutic resistance. Additionally, research is needed to 
discern the impact of metastasis on the biomechanical properties of 
bone, how inadequate levels of vitamin D affect bone as a result of 
hard and soft tissue sarcoma, and the mechanisms by which bone marrow 
derived cells and tumor associated macrophages can influence metastatic 
growth, survival and therapeutic resistance.
    National Institute on Aging (NIA).--The Coalition encourages 
research to better define the causes of age-related bone loss and 
fractures, reduced physical performance and frailty, including 
identifying epigenetic changes, with the aim of translating basic and 
animal studies into novel therapeutic approaches. Critical research is 
also needed on changes in bone structure and strength with aging, 
periosteal biology, identifying cell autonomous changes versus 
alterations in the bone microenvironment and the relationship of age-
related changes in other organ systems and their affects/interactions 
with bone. The prevention and treatment of other metabolic bone 
diseases, including osteogenesis imperfecta, glucocorticoid-induced 
osteoporosis, and bone loss due to kidney disease should also be 
priority research areas.
    National Institute of Child Health and Human Development (NICHD).--
The Coalition urges research in the new, emerging field of metabolic 
disease and bone in children and adolescents, especially childhood 
obesity, anorexia nervosa and other eating disorders. Research is also 
needed on what the optimal Vitamin D levels should be in children to 
achieve maximal bone health, and the implications of chronic or 
seasonal Vitamin D deficiency to the growing skeleton. Development and 
testing of therapies and bone building drugs for pediatric patients are 
also a pressing clinical need.
    National Institute of Dental and Craniofacial Research (NIDCR).--
The Coalition urges continued research support on the effects of 
systemic bone active therapeutics on the craniofacial skeleton, 
including factors predisposing individuals to osteonecrosis of the jaw, 
as well as novel approaches to facilitate bone regeneration.
    National Institute of Diabetes and Digestive and Kidney Diseases 
(NIDDK).--The Coalition supports research on the relationship between 
Vitamin D and morbidity and mortality in chronic kidney disease. 
Research is also needed on the value of anti-resorptive therapies, the 
link between renal insufficiency and diabetic bone disease, the 
differences in calcification of blood vessels, the mechanisms of 
metastasis of renal cell carcinoma, and diseases that occurs in 
patients with end stage chronic renal disease on hemodialysis.
    National Institute of Neurological Disorders and Stroke (NINDS).--
The Coalition encourages research support into the pathophysiology of 
spinal cord, brachial plexus, and peripheral nerve injuries in order to 
develop targeted therapies to improve neural regeneration and 
functional recovery.
    National Institute of Biomedical Imaging and Bioengineering 
(NIBIB).--The Coalition encourages critical research to advance our 
ability to treat bone diseases and disorders through bone imaging, as 
well as managing the loss of bone and soft tissue associated trauma by 
advancing tissue engineering strategies to replace and regenerate bone 
and soft tissue.
    Mr. Chairman and members of the subcommittee, the Bone Coalition 
appreciates the subcommittee's work over the years, especially your 
recognition of the need to fund research addressing disease prevention 
and treatment. With your assistance, NIH could provide the Federal 
support to ensure that bone research and bone health are priorities.
    Thank you for the opportunity to submit testimony to the 
subcommittee.
                                 ______
                                 
     Prepared Statement of the National Coalition of STD Directors
    The National Coalition of STD Directors is a nonprofit, nonpartisan 
association of public health sexually transmitted (STD) program 
directors in the 65 CDC directly funded project areas, which includes 
all 50 States, 7 cities, and 8 U.S. territories. As the only national 
organization with a constituency that provides frontline STD services, 
NCSD is the leading national voice for strengthening STD prevention, 
research and treatment. These efforts include advocating for effective 
policies, strategies, and sufficient resources, as well as increasing 
awareness of the medical and social impact of STDs.
    We appreciate this opportunity to provide the subcommittee with 
information about the health crisis caused by the persistent and 
staggeringly high rates of STDs in the United States and about the 
programs of the Centers for Disease Control and Prevention (CDC) that 
combat these diseases.
    The United States has the highest STD rates in the industrialized 
world, with more than 19 million people contracting an STD annually. In 
1 year, our Nation spends more than $8.4 billion to treat the symptoms 
and consequences of STDs. The indirect costs are higher, including lost 
wages and productivity, as well as human costs such as anxiety, shame, 
anger, depression, and the challenges of living with infertility or 
cancer. The health consequences of STDs include: chronic pain, 
infertility, pregnancy complications, pelvic inflammatory disease, 
cervical cancer, birth defects and increased vulnerability to HIV, the 
virus that causes AIDS. Persons with a pre-existing STD have a 3 to 5 
fold increased risk of acquiring HIV through sexual contact. In 
addition, studies have shown that HIV-infected persons who are also 
infected with other STDs are more likely to transmit HIV. Comprehensive 
STD treatment can reduce the likelihood of HIV transmission.
    STDs have a disproportionate impact on young people, women, men who 
have sex with men (MSM) and racial and ethnic minorities. Of the 
approximately 19 million new STD infections each year, nearly half are 
among young people ages 15 to 24. Chlamydia, which leads to 
infertility, is the most frequently reported disease in the United 
States. Nearly 1 million women will have a severe case of pelvic 
inflammatory disease due to STDs. The transmission of STDs to babies--
prenatally, during birth or after--can cause serious life-long 
complications including physical disabilities, developmental 
disabilities and death. Men who have sex with men (MSM) have 
historically experienced high rates of all STDs, including HIV/AIDS. In 
2008, 63 percent of all primary and secondary syphilis cases were among 
MSM. The syphilis rate among males is now five times the rate among 
females, a dramatic disparity that did not exist a decade ago, when 
rates were nearly equivalent between the sexes. This trend suggests 
that the increase in cases among men have been primarily among men who 
have sex with men. Persons of color, particularly African-Americans, 
American Indians/Alaskan Natives, and Hispanics are also at higher risk 
of contracting STDs. In 2008, the rate of Chlamydia among African 
Americans was 9 times that of whites, for American Indian/Alaskan 
Natives it was 5 times higher than whites, and for Hispanics it was 3 
times higher than whites. African American women experience syphilis 
rates 15 times higher than white women. Socioeconomic, cultural, and 
linguistic barriers to quality healthcare and STD prevention and 
treatment services have likely contributed to a higher prevalence and 
incidence of STDs among racial and ethnic minorities.
    While rates of STDs in this country have continued to skyrocket, 
Federal funding for CDC's Division of STD Prevention has declined more 
than 22 percent since fiscal year 2003, when adjusted for inflation to 
2009 U.S. dollars. For every $1 spent on STD prevention, $43 is spent 
each year on STD-related costs. In addition, for every $1 spent on 
research, $92 is spent each year on STD-related costs.
    The National Coalition of STD Directors requests an fiscal year 
2011 funding level of $367.4 million, an increase of $213.5 million, 
for the STD prevention, treatment, and surveillance programs of the 
CDC. These funds will significantly enhance the CDC's ability to reduce 
STD rates across the country.
Public Health Infrastructure (+$33 million)
    Federal funding for CDC's Division of STD Prevention has been 
relatively flat for the past 15 years. The combined effect of this, 
along with steadily increasing rates of STDs and more recently, 
dramatic State, and local budget cuts due to the economic crisis, STD 
programs are in crisis mode and stretched thinner than ever. STD 
programs have had to cut staff, dramatically cut clinical services or 
close clinic doors altogether, and eliminate critical services such as 
free condom distribution programs. The public health infrastructure 
must be rebuilt and modernized. Investments in training, information 
and surveillance systems, public health laboratories, and better 
diagnostic technologies would increase efficiency, ensure program 
effectiveness and protect the health of future generations.
Public Health Workforce (+$25 million)
    A critical piece of rebuilding the public health infrastructure is 
scaling up the public health workforce. One quarter of the current 
public health workforce will be eligible to retire by 2012. We must 
invest now in training and retraining the next generation of public 
health professionals. This is particularly critical for STD programs. 
The underpinning of all STD programs is the Disease Intervention 
Specialist (DIS), who provide partner services to individuals infected 
with STDs, their partners, and to other persons who are at increased 
risk for STD infection. DIS are specially trained public health workers 
who are responsible for locating, counseling and coordinating the 
testing of individuals exposed to an STD. DIS complete an intensive CDC 
training course, which provides a strong foundation in field 
investigation techniques, both on the ground and on the Internet. In 
some States, DIS also assist in the HIV Partner Services (PS) program, 
by assisting newly HIV-infected individuals with informing their 
partners of their status and encouraging those partners to seek HIV 
counseling, testing and related prevention services. DIS also provide 
surge capacity during an emergency response, such as the H1N1 outbreak. 
The versatile expertise of DIS make them indispensable during a public 
health crisis, but also highlight the need for increased resources to 
support the training and hiring of new DIS. The current economic crisis 
has forced many States to freeze the hiring of new DIS and even lay off 
DIS, in spite of increasing STD cases. Between 1999 and 2009, STD 
programs across the nation have experienced a 20 percent reduction in 
DIS staff.
Expand Chlamydia Screening and Infertility Prevention (+$61.5 million)
    Chlamydia is the most commonly reported disease in the United 
States, as well as the primary cause of infertility. The Infertility 
Prevention Project (IPP), a collaborative effort between CDC and Office 
of Population Affairs within HHS, has been working to reduce STD 
related infertility for 15 years. IPP provides funding to screen low-
income women for chlamydia and gonorrhea in STD and family planning 
clinics. This project is a major success story in STD prevention, 
having been highly successful in reducing new cases of chlamydia and 
gonorrhea in areas where it has been implemented. However, additional 
resources are needed to bring this project to scale and reach a greater 
number of at-risk women. Chlamydia screening has also been shown to be 
extremely cost effective. Among 21 evidence-based clinical services 
recommended by the U.S. Preventive Service Task Force (USPSTF), 
chlamydia screening for young women ranked among the top 5 as having 
the most health benefits and best value for the dollar.
    Additional Federal resources would help support increased chlamydia 
screening in the public sector, expand school-based and correctional-
based screening, as well as initiate a series of demonstration projects 
in the private sector aimed at increasing private sector screening 
rates.
Gonorrhea Control and Health Disparities Reduction (+$40 million)
    Gonorrhea is the second most commonly reported infectious disease 
in the United States. African Americans are the most heavily impacted 
by this disease, with overall rates 20 times greater than that of 
whites in 2008. African American men aged 15 to 19 years old experience 
gonorrhea rates 40 times higher than white men in the same age group. 
An increasing issue of concern in the treatment of gonorrhea is 
antimicrobial drug resistance. In 2007, 14.6 percent of all gonorrhea 
cases demonstrated resistance, while 39 percent of the cases 
specifically among MSM demonstrated resistance. In 2007, CDC revised 
its gonorrhea treatment guidelines to include a single class of 
antibiotics.
    Additional Federal resources would be used to monitor antimicrobial 
resistant gonorrhea and test alternate or new drug regimens, initiate 
culturally competent social marketing campaigns, increase screening and 
partner services in hyperendemic areas, and develop demonstration 
research projects to determine the effectiveness and cost-effectiveness 
of gonorrhea prevention and control interventions.
Syphilis Elimination (+$44 million)
    The rates of primary and secondary syphilis, the most infectious 
stages of the disease, decreased throughout the 1990s, and in 2000 
reached an all-time low. However, since 2000 as STD funding has 
declined, the syphilis rate in the United States has increased by 114 
percent. Since 1999, the Syphilis Elimination Effort (SEE), a 
collaboration between CDC and State, local, and nongovernmental 
partners, has worked to eliminate syphilis from all areas of the 
country and reduce long-standing health disparities. These strategies 
include: expanded surveillance and outbreak response activities, rapid 
screening and treatment in and out of medical settings, expanded 
laboratory services, strengthened community involvement and agency 
partnerships, and enhanced health promotion. These efforts have shown 
to be successful, but must be funded adequately. A 2008 study suggested 
that SEE funding in a given year was associated with subsequent 
declines (over the following 2 years) in syphilis rates in a given 
State. The greater a State's per capita syphilis elimination funding in 
a given year, the greater the decline in syphilis rates in subsequent 
years. While the activities of SEE have proven themselves to be 
effective, they must be adequately and consistently funded to 
ultimately eliminate this disease in the United States.
    Additional Federal resources for SEE would be prioritized for 
increased screening, particularly among HIV positive persons and 
pregnant women, the development and evaluation of rapid diagnostic 
tests, implementation of social marketing campaigns targeted towards 
men who have sex with men (MSM) and minority populations, and expanded 
screening in correctional facilities.
Build a Response to Viral STDs (Herpes, HPV, Hepatitis B) (+$10 
        million)
    More than 45 million Americans, almost 26 percent of the U.S. 
population, are infected with herpes simplex virus (HSV), a treatable 
but incurable viral STD. Improved treatment of HSV is fundamental to 
reducing the rates of transmission. Individuals with herpes are more 
susceptible to acquiring HIV. An estimated 20 million Americans are 
infected with human papillomavirus (HPV), the cause of about 90 percent 
of all cervical cancer cases. CDC would utilize additional funds to 
monitor the HPV vaccine introduction and behavioral impact of HPV 
vaccine through demonstration projects and an expansion of an existing, 
multi-level, multi-year behavioral research project. The most common 
source of hepatitis B virus (HBV) infection among adults is sexual 
contact. Funding is needed to expand prevention efforts on HPV and HBV 
and to deliver education on the availability of preventive vaccines.
    The National Coalition of STD Directors also supports the 
President's fiscal year 2011 funding request of $133.7 million for the 
Teen Pregnancy Prevention Initiative, within the Office of Adolescent 
Health (OAH).
    We need to invest in programs that provide all of our young people 
with complete, accurate, and age-appropriate sex education that helps 
them reduce their risk of HIV, other STDs, and unintended pregnancy. In 
these tight budget times, we are pleased that the President's fiscal 
year 2011 budget increased funding for the new teen pregnancy 
prevention initiative. However, by focusing the funding on teen 
pregnancy prevention, and not including the equally important health 
issues of STDs and HIV, we think the administration has missed an 
opportunity to provide true, comprehensive sex education that promotes 
healthy behaviors and relationships for all young people, including 
LGBT youth. So many negative health outcomes are inter-related and we 
need to strategically and systemically provide youth with the 
information and services they need to make responsible decisions about 
their sexual health. We request that the teen pregnancy prevention 
initiative be broadened to address HIV and other STDs, in addition to 
the prevention of unintended teen pregnancy. We are pleased that the 
President's budget has once again included zero funding for failed 
abstinence-only-until-marriage programs and we encourage the 
subcommittee not to include funding for these ineffective programs.
    We urge the subcommittee to substantially increase resources to 
protect our Nation from the devastating consequences of STDs. The CDC 
has developed programs that have significantly reduced STD rates and 
the associated costs to society. We know how to prevent, control, and 
treat sexually transmitted diseases; however, without additional funds, 
the CDC cannot establish these programs to scale in all 50 States, U.S. 
territories, and directly funded cities.
                                 ______
                                 
Prepared Statement of the National Council of State Directors of Adult 
                               Education
    Mr. Chairman, thank you for the opportunity to submit testimony 
regarding the need for additional appropriations for adult education 
programs.
    Adult education programs serve a large number of our Nation's at-
risk citizens, from those who are unemployed to immigrants who lack the 
literacy skills needed to succeed in their new home country.
    At the present time our country is heavily investing in efforts to 
put Americans back to work. For many of our Nation's unemployed, their 
jobs have disappeared, only to be replaced by new jobs with 
requirements they cannot meet because they have low literacy skills and 
lack a high school diploma.
    To meet the needs of these individuals, adult education programs 
across the Nation are partnering with programs under title I of the 
Workforce Investment Act to develop career pathways that integrate 
adult education and occupational training programs. In addition, there 
are programs focused on transitioning participants from adult education 
programs to postsecondary education.
    But current funding levels, coupled with funding from the State and 
local level, prevent us from serving more than 2.3 million individuals 
a year. A 2010 survey demonstrates that there are waiting lists in 
every State. According to the National Assessment of Adult Literacy, 
there are approximately 93 million individuals who lack the literacy 
skills to reach their full potential. Thirty million individuals are at 
the lowest level of literacy and cannot perform basic tasks such as 
reading a bus schedule.
    With the wide gap between the number of Americans who are in need 
of improved literacy/education skills and the number that can be served 
by the current system, we strongly encourage you to increase funding 
for adult education programs to $750 million which would enable us to 
at least erase the waiting list.
    Mr. Chairman, adult education programs help put Americans back to 
work, provide new immigrants with English language skills, assist in 
transitioning individuals to higher education, and provide parents with 
the skills they need to help their children succeed in school.
    Adult education programs provide a wide range of services to many 
individuals but are currently limited in the number of individuals we 
can serve because of limited funding. While we understand the budget is 
tight, we believe increased funding for adult education will provide a 
strong return on your investment in our programs while we serve 
undereducated adults.
    Thank you again for the opportunity to submit testimony regarding 
funding for adult education programs.
                                 ______
                                 
        Prepared Statement of the National Down Syndrome Society
    Mr. Chairman and members of the subcommittee: As Vice President of 
the National Down Syndrome Society, I want to take this opportunity to 
thank you for the leadership role this Subcommittee has played over the 
years in supporting and creating awareness on Down syndrome. I am 
pleased to offer the following written testimony regarding 
appropriation requests for Down syndrome in fiscal year 2011.
    There are more than 400,000 people living with Down syndrome in the 
United Statement, and about 5,000 babies, or 1 in 800, that are born 
each year. Down syndrome occurs in people of all races and economic 
levels, and it is the most frequently occurring chromosomal condition. 
The incidence of births of children with Down syndrome increases with 
the age of the mother. But due to higher fertility rates in younger 
women, 80 percent of children with Down syndrome are born to women 
under 35 years of age.
    Advancements in the treatment of health problems have allowed 
people with Down syndrome to enjoy fuller and more active lives, and 
become more integrated into the economic and social structures of our 
communities. Unfortunately, while progress has also been made in public 
policies that enhance the lives of individuals with Down syndrome, 
barriers still exist, making it difficult for people to access adequate 
healthcare, housing, employment and education.
    We have been working with Congress for decades to address these 
challenges and advance public policies that promote the acceptance and 
inclusion of individuals with Down syndrome and other genetic 
disorders, and help them to achieve their full potential in all aspects 
of their lives.
    Mr. Chairman, we understand the challenges the subcommittee faces 
in prioritizing requests, we believe that funding the requirements of 
the Prenatally and Postnatally Diagnosed Conditions Awareness Act of 
2007 (Public Law 110-374) is imperative given the significant impact 
Down syndrome has on families and communities across the country and 
the great potential for improvements in quality of life for them and 
others with chromosomal disorders. On behalf of the National Down 
Syndrome Society, we recommend that you appropriate $5 million in the 
fiscal year 2011 to the Centers for Disease Control & Prevention (CDC) 
to implement the requirements of the Prenatally and Postnatally 
Diagnosed Conditions Awareness Act of 2007.
    As you know, Congress passed the Prenatally and Postnatally 
Diagnosed Conditions Awareness Act of 2007 in October of 2008. This new 
law seeks to ensure that pregnant women receiving a positive prenatal 
diagnosis of Down syndrome and parents receiving a postnatal diagnosis 
will receive up-to-date, scientific information about life expectancy, 
clinical course, intellectual and functional development, and prenatal 
and postnatal treatment options. It offers referrals to support 
services such as hotlines, websites, informational clearinghouses, 
adoption registries, parent support networks and Down syndrome and 
other prenatally diagnosed conditions programs. The goal is to create a 
sensitive and coherent process for delivering information about the 
diagnosis across the variety of medical professions and technicians, to 
avoid any conflicting, inaccurate or incomplete information. Also, the 
legislation would promote the rapid establishments of links to 
community supports and services for parents who choose to take their 
baby with Down syndrome home or for those who choose to have their 
child adopted.
    It is estimated that more than 1,000 prenatal tests are available 
or in development. Included among them are tests for conditions that 
are not life-threatening, could be helped by surgery or medical care, 
or don't appear until adulthood. The prognoses for people with some 
prenatally diagnosable disabilities have been improving markedly in 
recent years, leaving medical professionals scrambling to keep up with 
changing data and the need to communicate complex information to the 
more than 4 million women who are now offered prenatal screening and 
testing and must weigh this information in order to give informed 
consent for these new procedures.
    As recently reported in an article entitled ``Changing Practice of 
Obstetricians'', published in the American Journal of Obstetrics and 
Gynecology in April 2009, only 36 percent of obstetricians feel ``well 
qualified to counsel patients who screen positive'' for Down syndrome. 
About half (51 percent) thought the training they received during 
residency regarding screening and diagnosis for Down syndrome was 
adequate, whereas 40 percent thought it was less than adequate and 9 
percent thought it was comprehensive. Only ``29 percent of physicians 
provide the pregnant woman with printed educational materials'' if the 
fetus is diagnosed with Down syndrome.
    In another study also published in the American Journal of 
Obstetrics and Gynecology, the largest and most comprehensive study on 
prenatally diagnosed Down syndrome to date, recommendations made by 
mothers included: screening results should be clearly explained as a 
risk assessment, not as a ``positive'' or ``negative'' result; 
physicians should discuss all reasons for prenatal diagnosis including 
reassurance, advance awareness before delivery of the diagnosis of Down 
syndrome, adoption, as well as pregnancy termination; up-to-date 
information on Down syndrome should be available; results from 
amniocentesis or CVS, chorionic villi sampling, should, whenever 
possible, be delivered in person, with both parents present; sensitive 
language should be used when delivering a diagnosis of Down syndrome; 
if obstetricians rely on genetic counselors or other specialists to 
explain Down syndrome, sensitive, accurate, and consistent messages 
must be conveyed; contact with local Down syndrome support groups 
should be offered, if desired. A 29-member Down Syndrome Diagnosis 
Study Group published an article in the American Journal of Medical 
Genetics in 2009 which added to the previously mentioned 
recommendations. This study recommended that the conversation where in 
the diagnosis was delivered should provide answers to the questions: 
What is Down Syndrome? What causes the condition? What healthcare 
conditions go along with the condition? What are realistic expectations 
for a child with Down syndrome living today? Also the study recommends 
that healthcare professionals should use non-directive language and the 
healthcare professionals should arrange for a follow-up appointment 
with the parents, including any desired meetings with subspecialists.
    By including $5 million in the fiscal year 2011 Labor, Health & 
Human Services, Education, and Related Agencies Appropriations Bill, 
the Department of Health and Human Services (HHS) will be able to fund 
its responsibilities to:
  --Collect and distribute information relating to Down syndrome and 
        other prenatally or postnatally diagnosed conditions;
  --Coordinate the provision of supportive services for patients 
        receiving a positive diagnosis of a prenatally or postnatally 
        diagnosed condition; and
  --Oversee the new requirements for healthcare providers established 
        by the law. The funding is also needed to carry out the 
        requirement that the CDC assist State and local health 
        departments to integrate testing results into surveillance 
        systems.
    Mr. Chairman, thank you for your time and attention. Given the 
considerable impact this condition has on families and communities 
across the country, the promise of further assistance and improving 
research outcomes for individuals with Down syndrome is crucial. We are 
thrilled beyond measure that Congress enacted this legislation and hope 
that funding this request will help to shift the way the Nation regards 
individuals with disabilities. Through providing accurate, updated 
information about diagnosable conditions like Down syndrome to pregnant 
women, the expectation is that individuals and families will make 
better, more informed decisions. But the bigger impact will be better 
understanding on the part of the American people about the nature of 
disability and the value of these citizens to their families, their 
communities and to our country. Should you have any questions or 
require additional information, please feel free to call on me.
                                 ______
                                 
         Prepared Statement of the National Eczema Association
    Dear Chairman Harkin: Chairman Harkin and Members of the Senate 
Appropriations Subcommittee on Labor, Health and Human Services, 
Education and Related Agencies, I am Julie Block, Chief Executive 
Officer of the National Eczema Association (NEA).
    As member of the Senate who strongly value the role of the National 
Institutes of Health (NIH), I am writing first to express to you my 
deep gratitude for your past support. The NIH is our Nation's 
preeminent medical research institution and represents our best hope 
for finding cures, improving treatments, and gaining a better 
understanding of the diseases and conditions that affect millions of 
Americans. On behalf of the NEA, I respectfully request your continued 
support for NIH funding.
    I would also like to thank you for inviting us to submit testimony 
on our own behalf. The NEA is a 501(c)(3) nonprofit organization that 
receives no Federal grants or sub grants, nor do we receive Federal 
contracts or subcontracts. Our mission is to help improve the health 
and quality of life of persons living with eczema/atopic dermatitis, 
including those who have the disease and their loved ones. This is a 
family disease. Through programs focused on advocacy, education, and 
research, we involve both public and private sectors in addressing 
these needs. In these current times, there is much the public does not 
know or understand about how devastating this disease can be.
    There are many types of eczemas, with atopic dermatitis (AD) 
recognized as the most severe and chronic. Atopic dermatitis is a 
genetic skin disease that affects over 30 million people in the United 
States; 10 percent of the American populations have some form of atopic 
dermatitis.
    Atopic dermatitis falls into a category of disease called atopy, 
which includes asthma and hay fever. The three together are known as 
the ``Atopic Triad.'' Atopic dermatitis almost always begins in 
childhood, usually during infancy. However, it is important to remember 
that atopic dermatitis is not just a childhood disease, as is commonly 
believed. For most people afflicted with the disease it becomes a 
lifelong sentence. The skin becomes dry, scaly, red and intensely 
itchy. It cracks, bleeds, weeps, and often gets infected.
    For many patients with eczema, one of the worst consequences of the 
disease is the isolation and withdrawal from other people and 
community. Patients are often treated as if they were lepers even 
though atopic dermatitis is not contagious. Some patients choose not to 
have children, fearful of passing on a life of suffering to yet another 
generation. Some patients feel this choice so strongly they submit to 
voluntary sterilization in young adulthood. Atopic dermatitis is an 
extremely isolating disease, regardless of whether that isolation stems 
from internal or external factors, and many severe atopics do not leave 
their homes.
    Others, like the young heroine of the story I'm about to relate, 
somehow find within themselves the courage to keep going, to keep 
fighting, to keep believing there is a place for them in the larger 
community. I hope her story not only inspires you, but inspires you to 
action.
    This is Angeline's story. Angeline is an adult atopic, having 
eczema since birth. Her nickname in school was ``Spot''--she would hide 
in the bathrooms during recess and lunchtime and scratch. She would try 
with all her might not to scratch during class, not to flake skin over 
her desk, not to crack and bleed. Constant, intolerable, itching has 
led to lifelong use of steroid treatments, both orally and topically, 
to assuage the itching and ``treat'' the eczema wounds. The constant 
itching, skin flaking off in sheets, dead, dry skin, and oozing 
abhorrent looking skin are just part of everyday life for Angeline.
    Her eczema has resulted in severe infections, and this physical 
trauma is accompanied by a level of psychic trauma few of us ever have 
to confront. She has had too many days when she can literally not get 
out of bed--the skin gets so bad that it eventually becomes a huge task 
to even move her legs and arm joints. On top of all that, her skin 
looks absolutely gruesome.
    Angeline has shed many tears, and at times wondered how she would 
go on. The years of bandaged hands to stop the scratching, steroid 
withdrawal, bank accounts spent on creams and miracle cures, vitamins 
and doctors appointments. When will it end? Some days Angeline is not 
at all available to ``face the world''.
    And people will tell you eczema is just a rash!
    As Angeline's story suggests, doctors, researchers, and scientists 
consistently underestimate the emotional consequences of this disease, 
its treatments, and its complications. The general public understands 
it even less. Before we can offer alternatives that will truly improve 
the quality of life for eczema sufferers, we must understand the 
disease mechanism and how it works. Committed physicians and ongoing 
research gives us all hope.
    The NEA is dedicated to raising awareness of these issues. The 
Association publishes a quarterly newsletter called The Advocate, 
oversees a volunteer Support Network program, distributes educational 
materials to patients and medical professionals, and conducts an annual 
Patient and Family Conference. As vocal advocates for atopic patients 
and their families, our staff attends several professional meetings 
each year, and educates governmental officials at local, State and 
national levels to provide input to the budget, research, and policy 
decisions about atopic dermatitis/eczema patients. In past years, the 
NEA educated public officials during the Government's smallpox 
vaccination campaign regarding the life-and-death consequences to 
atopic patients. We have been on Capitol Hill for NIAMS day many years 
in a row as a member of the National Institutes of Arthritis and 
Musculoskeletal and Skin Diseases Coalition to educate legislators on 
our disease.
    The NEA can boast many exciting accomplishments, including over 
$400,000 spent on eczema research since the inception of its research 
program in 2004. One of the NEA-funded grants to Dr. Gil Yosipovitch, 
MD of Wake Forest University has resulted in a major NIH grant to 
continue his work on itch. We anticipate yet another NIH award for NEA-
funded research to continue exciting work on prevention of atopic 
dermatitis in high-risk infants.
    The NIH and the research it supports are critical to the 
advancement of improved atopic dermatitis/eczema treatment and eventual 
cure. As part of the Coalition of Skin Disease, we believe that when a 
cure is found for any of these skin diseases, there is a good chance it 
will improve our ability to find a cure for other diseases. The recent 
boost in NIH funding in 2009 and 2010 was a very important step toward 
regaining the lost potential of the last several years.
    As you work to finalize the fiscal year 2011 appropriations, on 
behalf of the NEA, I respectfully request a funding increase of at 
least 7 percent for the National Institutes of Health (NIH) compared to 
the fiscal year 2010 baseline level.
    Help us give eczema patients and their families hope for the 
pleasure of everyday life, and being good in the skin their in!
    And again, thank you for your past support of biomedical research 
funding.
                                 ______
                                 
Prepared Statement of the National Federation of Community Broadcasters
    Thank you for the opportunity to submit testimony to this 
subcommittee regarding the appropriation for the Corporation for Public 
Broadcasting (CPB). As the President and CEO of the National Federation 
of Community Broadcasters (NFCB), I speak on behalf of 250 community 
radio stations and related individuals and organizations across the 
country. Nearly half our members are rural stations and half are 
controlled by people of color. In addition, our members include many 
low power FM stations that are putting new local voices on the 
airwaves. NFCB is the sole national organization representing this 
group of stations which provide independent, local service in the 
smallest communities of this country as well as the largest 
metropolitan areas. In summary, in this testimony, NFCB:
  --Thanks the subcommittee for its role in providing $25 million 
        station fiscal stabilization in light of the difficult economy 
        in last year's appropriation;
  --Requests $604 million in funding for CPB for fiscal year 2013 and 
        requests that advance funding for CPB is maintained to preserve 
        journalistic integrity and facilitate planning and local 
        fundraising by public broadcasters;
  --Supports CPB activities in facilitating programming and services to 
        the radio ``minority consortia'' dedicated to Native American, 
        Latino, and African-American radio stations;
  --Requests $59.5 million in fiscal year 2011 for conversion of public 
        radio and television to digital technology;
  --Supports CPB's funding for rural stations and assistance with new 
        technologies and requests report language regarding rural and 
        minority stations in this regard
  --Supports CPB programs focused on ensuring public radio is able to 
        fulfill its important mission of public safety during 
        emergencies; and
  --Supports CPB's role as a convener that can address questions and 
        important future trends across all public media.
    Community radio fully supports the forward funding appropriation of 
$604 million in Federal funding for CPB in fiscal year 2013. Money 
allocated to the Corporation for Public Broadcasting assists NFCB 
member stations throughout the country through community service 
grants. Community service grants are the core way that CPB uses to 
support radio stations--particularly targeted to stations offering the 
first public radio service to a community in a rural area, or to 
stations serving particular demographic constituencies. CPB's focus on 
these areas is critical to ensuring that public radio does not focus 
solely on higher-income audiences, but serves every American no matter 
their background or their location. These targeted stations provide 
critical, life-saving information to their listeners and are often in 
communities with very small populations and limited economic bases, 
thus the community is unable to financially support the station without 
Federal funds. For example, these stations offer programming in 
languages other than English or Spanish, they can offer emergency 
information targeted for a particular geographic area, and can offer 
in-depth programming on public health issues.
    In larger towns and cities, sustaining grants from CPB enable 
community radio stations to provide a reliable source of noncommercial 
programming about the communities themselves. Local programming is an 
increasingly rare commodity in a nation that is dominated by national 
program services and concentrated ownership of the media. CPB funding 
allows an alternative to exist in these larger markets. And with large 
newspaper shedding journalists, local community radio may be one of the 
only outlets able to pick up the slack in coverage of local political 
matters.
    For more than 30 years, CPB appropriations have been enacted 2 
years in advance. This insulation has allowed pubic broadcasting to 
grow into a respected, independent, national resource that leverages 
its Federal support with significant local funds. Knowing what funding 
will be available in advance has allowed local stations to plan for 
programming and community service and to explore additional 
nongovernmental support to augment the Federal funds. Most importantly, 
the insulation that advance funding provides is of critical importance 
in eliminating both the risk of and the appearance of undue 
interference with and control of public broadcasting.
    Community radio supports CPB activities in facilitating programming 
to Native American, Latino, and African-American radio stations. CPB 
has played a critical role in providing support and assistance to radio 
stations serving communities of color, particularly communities that 
could be better served by noncommercial radio. While CPB has long 
supported television programming focused on underserved communities, 
its programs for radio are newer and are very welcome. Given the 
importance and accessibility of radio in many underserved communities, 
NFCB urges the subcommittee to endorse the long-term viability of these 
radio minority consortia.
    Specifically, with important support from CPB, Native Public Media 
(NPM) has burst on to the scene to ensure that Native Americans have 
access to noncommercial broadcast and new technologies alike. NPM has 
worked in the last few years to facilitate applications for 
noncommercial radio stations by almost 40 applicants from tribal and 
native entities, bringing many of these service areas within the reach 
of a public radio signal for the first time. NPM has undertaken 
research to identify the spectrum allocations currently serving Indian 
country in order to target better service in the future, releasing a 
report called The New Media, Technology and Internet Use in Indian 
Country: Quantitative and Qualitative Analyses, which included a usage 
survey and case study that contains the first valid and credible data 
on Internet use among Native Americans. In addition, NPM was able to 
play a critical role in ensuring that tribal entities have the ability 
to obtain new radio stations in the future by successfully 
demonstrating to the FCC the need and legal justification for a tribal 
priority in radio.
    In addition, in the last year the newest minority consortium has 
been started--the Latino Public Radio Consortium. The Latino Public 
Radio Consortium is an organization that represents and supports 33 
public radio stations. It recognizes that Latinos are under-represented 
in the Nation's public broadcasting institutions, decisionmaking 
structures, that there is little programming in English or in Spanish 
produced by Latinos or with a Latino focus and, as a consequence, 
Hispanics are vastly underrepresented among public radio's news and 
public affairs audiences.\1\ To illustrate, a study by Station Resource 
Group's Grow the Audience project showed that, for public radio to 
acquire a representative share of the college-educated market for 
Latinos, it would need to triple its audience.\2\
---------------------------------------------------------------------------
    \1\ Latino Public Radio Consortium, Brown Paper, p.1 available at 
http://www.latinopublic radioconsortium.org/index.php?s=41.
    \2\ Station Resource Group, Grow the Audience, Listening by Black 
and Hispanic College Graduates (2008) at p. 17, available at http://
www.srg.org/GTA/GTA%20Black%20Hispanic%20 Report.pdf.
---------------------------------------------------------------------------
    During this funding year the Consortium has established the 
communications and governance structure to enable the Hispanic stations 
to support each other and to develop additional resources. An important 
new project that is indicative of future work is the development of 
Historias, a partnership with Story Corps, a national oral history 
project of the Library of Congress and public radio. Through this 
collaboration, Story Corps Historias will gather and record 900 
individual interviews with Latinos around the country.
    This year CPB is funding new services for African-American public 
radio stations designed to improve and increase public media's service 
to the American public. NFCB believes that this project, like the other 
consortia, is vital to ensure that all Americans benefit from public 
funds and the breadth and depth of public radio. In addition to the 
minority consortia, CPB supports Satelite Radio Bilingue which provides 
24 hours of programming to stations across the United States and Puerto 
Rico addressing issues of particular interest to the Latino population 
in Spanish and English. CPB also supports Native Voice One (NV1), which 
is distributing politically and culturally relevant programming to 
Native American stations.
    Community radio supports $59.5 million in fiscal year 2011 for the 
conversion to digital technology. While public television's digital 
conversion needs were mandated by the FCC, public radio is converting 
to digital to provide more public service and to keep up with 
commercial radio. The Federal Communications Commission has approved a 
standard for digital radio transmission that will allow multicasting. 
This development of second and third audio channels will potentially 
double or triple the service that public radio can provide listeners, 
particularly in unserved and underserved communities. In addition, 
public radio is in great need of CPB's leadership and resources to 
transition to new media platforms, in particular through such projects 
as the American Archive, which will make existing programming 
accessible to all and on all platforms.
    Community radio supports CPB's funding for rural stations and 
assistance with new technologies. For the past few years, CPB has 
increased support to rural stations and committed resources to help 
public radio take advantage of new technologies such as the Internet, 
satellite radio and digital broadcasting. We support these new 
technologies so that we can better serve the American people, but want 
to ensure that smaller stations with more limited resources are not 
left behind in this technological transition. We ask that the 
subcommittee include language in the appropriation that will ensure 
that funds are available to help the entire public radio system, 
particularly rural and minority stations, utilize new technology.
    A good example of CPB's role is the Public Media Innovation grant 
CPB gave KAXE, one of NFCB's rural members, a chance to experiment with 
the concept of becoming ``a web operation that owned a radio station.'' 
PMI described this project as one of the most visionary proposals they 
funded. As part of the grant, KAXE began the development of Northern 
Community Internet, which would provide hyper-local news content to 
more than a dozen communities in northern Minnesota. Through this 
project, KAXE learned many important things about how to create content 
that is relevant and accessible across a Web site, radio station, and 
social media. The journalists involved continue to be very interested 
in the project, even though the current pilot is over.
    Community radio supports CPB programs focused on ensuring public 
radio is able to fulfill its important mission of public safety during 
emergencies. CPB funding has supported an important new project led by 
NFCB called Station Action for Emergency Readiness (SAFER). NFCB, in 
partnership with NPR and with support from CPB, has developed a step-
by-step manual that stations can use to develop and/or supplement their 
own emergency readiness plans; a set of digital tools that stations can 
embed in their own Web sites to keep community members informed; and 
links to national and local resources that can supplement station's 
coverage. This project was inspired by the experience of NFCB member 
WWOZ in New Orleans as a result of Katrina and was furthered by the 
work of NFCB member KWMR in Point Reyes Station, California. KWMR is 
small and local community and provided absolutely critical life-saving 
information to its community during terrible floods of 2004-2005.
    Community radio supports CPB's role as a convener that can address 
questions and important future trends across all public media. CPB 
plays an extremely important role in the public and Community Radio 
system: it convenes discussions on critical issues facing us as a 
system. They support research so that we have a better understanding of 
how we are serving listeners. And, they provide funding for 
programming, new ventures, expansion to new audiences, and projects 
that improve the efficiency of the system. This is particularly 
important at a time when there are so many changes in the radio and 
media environment with media consolidation and new distribution 
technologies.
    Thank you for your consideration of our testimony.
                                 ______
                                 
Prepared Statement of the National Health Care for the Homeless Council
    The National Health Care for the Homeless Council respectfully asks 
the Senate Committee on Appropriations to strengthen and expand the 
Nation's health centers by appropriating the $2.4 billion for the 
Consolidated Health Centers Program in fiscal year 2011, as included in 
the administration's budget proposal.
    The National Health Care for the Homeless Council is a membership 
organization engaged in education and advocacy to improve healthcare 
for homeless persons and all Americans. We represent 111 organizational 
members, including 100 Health Care for the Homeless (HCH) projects, and 
more than 700 individuals who provide care to people experiencing 
homelessness throughout the country.
    Homelessness and Health.--Poverty, lack of affordable housing, and 
the lack of comprehensive health insurance are among the underlying 
structural causes of homelessness. For those struggling to pay for 
housing and other basic needs, the onset of a serious illness or 
disability easily can result in homelessness following the depletion of 
financial resources. The experience of homelessness causes poor health, 
and poor health is exacerbated by restricted access to appropriate 
healthcare--which only prolongs homelessness. Additional barriers to 
healthcare access include lack of transportation, inflexible clinic 
hours, complex requirements to qualify for public health insurance, and 
mandatory unaffordable co-payments for various services.
    Mainstream healthcare safety net providers often fail to meet the 
needs of homeless people. In the absence of universal healthcare, the 
Federal Government supports a separate healthcare system for low-income 
and uninsured people. Community Health Centers and publicly funded 
mental health and addictions programs form the core of this healthcare 
safety net. Unfortunately, limited resources, lack of experience with 
this population, and insufficient linkages to a full range of health 
and supportive services seriously restrict the ability of mainstream 
providers to meet the unique needs of people experiencing homelessness.
    The Federal HCH Program--administered by the Health Resources and 
Services Administration (HRSA)--currently supports 207 HCH projects in 
all 50 States, the District of Columbia, and Puerto Rico. Congress 
established Health Care for the Homeless in 1987 to provide targeted 
services for people experiencing homelessness, including primary and 
behavioral healthcare along with social services, as well as intensive 
outreach and case management to link clients with appropriate 
resources. Approximately 70 percent of those served by HCH projects 
lack comprehensive health insurance. The HCH program has been 
reauthorized three times, most recently in 2008 with passage of the 
Health Care Safety Net Act. HCH projects served more than 1 million 
patients in 2009--a sizable number, but far below the estimated 4 
million Americans who annually experience homelessness. Authorizing 
language designates 8.7 percent of the total health center 
appropriation to support the HCH program.
    Community Health Centers.--Over the past several years, the 
expansion of community health centers has received bipartisan support 
from Members of Congress, to include through the American Recovery and 
Reinvestment Act of 2009. Federally Qualified Health Centers (FQHCs) 
consistently have proven their effectiveness in delivering 
comprehensive medical care to underserved populations. Though health 
centers currently serve more than 16 million people annually, at least 
56 million Americans--both insured and uninsured--face inadequate 
access to primary care due to a shortage of physicians and other 
providers. Without sufficient access to care, the health problems of 
the insured and underinsured are exacerbated, resulting in costly 
treatment, medical complications, and even premature death.
    Investments in Community Health Centers contained the Patient 
Protection and Affordable Care Act will also be a significant tool that 
will help clinics grow to meet the needs of patients seeking primary 
care, especially as the Medicaid expansion provisions are enacted in 
2014. This Medicaid expansion will be a greatly needed improvement for 
our homeless patients, since most are currently ineligible for 
coverage.
    Within the current economic context, a massive unmet need remains 
for health center resources despite years of incremental expansion 
through the Health Center Growth Initiative. The deteriorating economy 
leaves more Americans unemployed, at risk of homelessness, and in need 
of health services. According to the Department of Labor, the 
unemployment rate was 9.7 percent in March 2010. Given the prevalence 
of employer-sponsored health coverage, high unemployment leaves many 
Americans without health coverage, thus creating a greater need for 
safety net services provided by community health centers.
    Fiscal Year 2011 Appropriations.--In recognition of the growing 
need for primary healthcare services, the House Committee on 
Appropriations along with other Members of Congress has been supportive 
of strengthening and expanding community health centers. In the 
President's fiscal year 2011 budget proposal, the Community Health 
Center program receives $2.4 billion--$290 million above the fiscal 
year 2010 appropriation. This includes a total of $209 million (8.7 
percent) for the HCH program.
    To continue strengthening the Nation's health center 
infrastructure, we encourage the Senate Committee on Appropriations 
Subcommittee on Labor, Health and Human Services, and Education, and 
Related Agencies to appropriate the $2.4 billion for the Community 
Health Center program (including $209 million for the HCH program), as 
contained in the administration's fiscal year 2011 budget proposal.
    The National Council applauds Congress for its strong support of 
community health centers. We thank Chairman Harkin and the Senate 
Committee on Appropriations Subcommittee on Labor, Health and Human 
Service, and Education, and Related Agencies for your consideration of 
this testimony.
                                 ______
                                 
          Prepared Statement of the National Kidney Foundation
    The National Kidney Foundation (NKF) appreciates the opportunity to 
present public witness testimony for the written record in support of 
fiscal year 2011 funding for the Centers for Disease Control and 
Prevention.
    Kidney disease is the ninth leading cause of death in the United 
States. More than 26 million American adults are estimated to have some 
level of chronic kidney disease (CKD), yet most of them are 
undiagnosed. Early detection and treatment can prevent or slow the 
progression to irreversible kidney failure, or end-stage renal disease 
(ESRD). Many do not even reach end stage; late-stage CKD patients are 
far more likely to die of cardiovascular disease than to reach ESRD, 
and early detection is beneficial here also.
    Approximately 70 percent of new ESRD cases are directly 
attributable to diabetes or hypertension (with diabetes alone the cause 
of nearly half of all new cases annually). Furthermore, ESRD increases 
dramatically with age, and the prevalence among racial and ethnic 
minorities is much higher than among whites. Medicare covers dialysis 
or transplantation regardless of age or other disability (the only 
disease-specific coverage under the program) and the ESRD Program has 
saved millions of lives. However, the cost is substantial and 
disproportionate to the Medicare population. Less than 7 percent of the 
Medicare population carries a diagnosis of CKD, but they account for 21 
percent of Medicare expenditures.
    Despite the social and economic impact, no national public health 
program focusing on early detection and treatment of CKD existed until 
2005, when Congress provided funding for fiscal year 2006 to initiate a 
Chronic Kidney Disease Program at the CDC. The CKD program, which has 
received approximately $2 million annually, will build capacity and 
infrastructure at CDC for a kidney disease public health program. The 
objectives of the initiative are to assess and monitor the burden of 
CKD and its risk factors; develop methods to identify high risk 
populations; develop public health strategies to prevent the 
development of CKD and reduce its progression to kidney failure; and, 
develop models to assess the economic burden of CKD.
    In 2008 and 2009, the CDC and NKF collaborated on a demonstration 
project to detect individuals with or at high risk of CKD. The CKD 
Health Evaluation and Risk Information Sharing project (CHERISH) uses 
diabetes, hypertension, and age (older than 50) as risk factors to 
select participants for the screenings. Eight screenings of more than 
800 individuals in four States detected CKD in over one-quarter of the 
individuals, who demonstrate the need for better risk factor control of 
high blood pressure, diabetes, and high cholesterol. Awareness of 
kidney disease remains very low.
    Early detection and intervention of chronic kidney disease is not 
difficult and intervention tools to treat early CKD are widely 
available. The level of progression to chronic kidney failure or ESRD 
and the rate of premature cardiovascular death are unacceptable. 
Continued support, as requested by the administration in its 2011 
budget request, will promote comprehensive public health approaches in 
CKD by the CDC, including screening, surveillance, economic analysis, 
coordination with ongoing internal activities (cardiovascular disease 
and stroke prevention, diabetes, obesity, family history/genetics, 
communicable disease such as hemodialysis catheter infections), 
interagency collaboration (NIH, AHRQ, and HHS) and ultimately 
implementation through state departments of health to impact care, 
improve outcomes and reduce costs.
                                 ______
                                 
         Prepared Statement of the National Minority Consortia
    The National Minority Consortia (NMC) submits this statement on the 
fiscal year 2013 appropriation for the Corporation for Public 
Broadcasting (CPB). The NMC is a coalition of five national 
organizations dedicated to bringing the unique voices and perspectives 
from America's diverse communities into all aspects of public 
broadcasting and to other media, including content transmitted 
digitally over the Internet. The role we fulfill in this regard has 
been crucial to public broadcasting's mission for more than 30 years. 
We are unique as organizations and as a coalition of organizations in 
the services we provide in access, training, and support for important 
and timely public interest content to our communities and to public 
broadcasting. We ask the subcommittee to:
  --Direct CPB to increase its efforts for diverse programming with 
        commensurate increases for minority programming and for 
        organizations and stations located within underserved 
        communities;
  --Direct CPB to establish a percentage basis for biennial funding of 
        the NMC to permit long-range financial and strategic 
        planning;\1\
---------------------------------------------------------------------------
    \1\ Currently funding for the NMC, in the aggregate, represents 
only 1.2 percent of CPB's request. We suggest increasing that 
percentage to an amount equal to not less than 20 percent of the amount 
requested for television programming, or approximately $20 million, to 
be split equally among the five groups listed here and beginning 
immediately upon enactment of this legislation.
---------------------------------------------------------------------------
  --Direct CPB to establish an annual ``report card'' on diversity to 
        track efforts to better represent the full breadth of the 
        American people and their experiences through public 
        television, public radio and nonprofit media online;
  --Direct CPB to publish on the Internet clear and enforced guidelines 
        for all CPB-directed funding, including funds jointly 
        administered by PBS and NPR, and end the closed-door funding 
        processes historically in place, especially as the current 
        practices favor existing relationships and can be seen as 
        biased against minority applicants, in particular.
    Report Language.--We ask for report language, specifically an 
addition to report language from the fiscal year 2006 Appropriations 
Act (and also included in the fiscal year 2007 Senate report), which 
recognizes the contribution of the NMC and directs that the CPB 
partnership with us be expanded. The Report stated:

    ``The Committee recognizes the importance of the partnership CPB 
has with the National Minority Public Broadcasting Consortia, which 
helps develop, acquire, and distribute public television programming to 
serve the needs of African American, Asian American, Latino, Native 
American, Pacific Islander, and many other viewers. As many communities 
in the Nation welcome increased numbers of citizens of diverse ethnic 
backgrounds, the local public television stations should strive to meet 
these viewers' needs. With an increased focus on programming to meet 
local community needs, the Committee encourages CPB to support and 
expand this critical partnership.'' (S. Rpt. 109-103, p. 298)

    We request that the above language be modified to direct CPB to 
increase its funding of the NMC and the various minority radio 
consortia to a level equal, in the aggregate, to 20 percent of funds 
allocated to television production.
    Fiscal Year 2013 Appropriation.--We support a fiscal year 2013 
advance appropriation for CPB of $604 million, which recognizes the 
need to develop content that reaches across traditional media 
boundaries, such as those separating television and radio. However, we 
feel strongly that should CPB receive this appropriation, CPB should be 
directed to engage in transparent and fair funding practices that 
guarantee all applicants equal access to these public resources. In 
particular, we urge Congress to direct CPB to insert language in all of 
its funding guidelines that encourages and rewards public media that 
fully represents and reaches a diverse American public.\2\
---------------------------------------------------------------------------
    \2\ According to the 2008 Public Radio Tech Survey, 90 percent of 
public radio listeners are White. Of those, 84 percent are college 
educated, with 48 percent having graduate degrees. This compares to 
just 9 percent of Americans who have postgraduate degrees. It is 
therefore mandatory that we prioritize actually ``reaching'' a diverse 
audience of Americans and not simply reflecting diverse and often 
misleading staffing numbers to measure public media's effectiveness in 
serving all of the American taxpayers that fund CPB.
---------------------------------------------------------------------------
    While public broadcasting continues to uphold strong ethics of 
responsible journalism and thoughtful examination of American history, 
life and culture, including the ways we are a part of a global society, 
it has not kept pace with our rapidly changing public as far as 
diversity is concerned. Members of minority groups continue to be 
underrepresented on both the programming and oversight levels within 
public broadcasting as well as on the content production side. There 
are fewer than five executives of diverse background at the highest 
levels in the three leading organizations within public broadcasting. 
This is unacceptable in America today, where minorities comprise more 
than 35 percent of the population.
    Public broadcasting has the potential to be particularly important 
for our Nation's growing minority and ethnic communities, especially as 
we transition to a broadband-enabled, 21st century workforce that 
relies on the skills and talent of all of our citizens. While there is 
a niche in the commercial broadcast and cable world for quality 
programming about our communities and our concerns, it is in the public 
broadcasting sphere where minority communities and producers should 
have more access and capacity to produce diverse high-quality 
programming for national audiences. We therefore, urge Congress to 
insert strong language in this act to ensure that this is the case and 
that these opportunities are made available to minorities and other 
underserved communities.
    About the NMC.--With primary funding from the CPB, the NMC serves 
as an important component of American public television as well as 
content delivered over the Internet. By training and mentoring the next 
generation of minority producers and program managers as well as 
brokering relationships between content makers and distributors (such 
as PBS, APT, and NETA), we are in a perfect position to ensure the 
future strength and relevance of public television and radio television 
programming from and to our communities. However, these efforts are 
vulnerable because of chronic underfunding and lack of meaningful and 
ongoing representation within CPB's decisionmaking processes. This 
instability, coupled with what is essentially a decrease in our funding 
over time, are the primary reasons that have led to a public media that 
has become less diverse over the past 5 years.\3\
---------------------------------------------------------------------------
    \3\ CPB funding for the NMC remained flat for 13 years until fiscal 
year 2008, at approximately $1 million per year per consortia. At that 
time, we received a one-time increase of $150,000 per organization. In 
fiscal year 2009, we received another one-time increase of 
approximately $500,000 each, but have been told that does not reflect a 
permanent increase. Over this same 13-year period, CPB's budget nearly 
doubled.
---------------------------------------------------------------------------
    This is obviously not the case in the rest of America. With 
minority populations already estimated at more than 35 percent of the 
U.S. population, it is more important that our public institutions 
reflect this reality.
    Individually, each NMC organization is engaged in cultivating 
ongoing relationships with the independent producer community by 
providing technical assistance and program funding, support and 
distribution. Often the funding we provide is the initial seed money 
for a project, thus allowing it to develop. We also provide numerous 
hours of programming to individual public television and radio 
stations, programming that is beyond the production reach of most local 
stations. To have a real impact, we need funding that recognizes and 
values the full extent of minority participation in public life.
    While the NMC organizations work on projects specific to their 
communities, the five organizations also work collaboratively. An 
example of a joint production in which the NMC provided the initial 
seed money is ``Unnatural Causes: Is Inequality Making Us Sick?'', a 
multi-part series that uncovers the roots of racial and socio-economic 
disparities in health and spotlights community initiatives to achieve 
health equality. Our seed money enabled the project to go forward and 
to attract additional funding. We are also co-producers of and 
presenters in this series, which originally aired in 2008 and was 
rebroadcast just this year. Additionally, we jointly funded an online 
initiative around the Presidential election in 2008 and continue to 
explore as a group other topics of national importance.
    CPB Funds for the NMC.--The NMC receives funds from two portions of 
the CPB budget: organizational support funds from the Systems Support 
and programming funds from the Television Programming funds. The 
organizational support funds we receive are used for operations 
requirements and also for programming support activities and for 
outreach to our communities and system-wide within public broadcasting. 
The programming funds are re-granted to producers, used for purchase of 
broadcast rights and other related programming activities. Each 
organization solicits applications from our communities for these 
funds. A brief description of our organizations follows:
    Center for Asian American Media.--CAAM's mission is to present 
stories that convey the richness and diversity of Asian-American 
experiences to the broadest audience possible. We do this by funding, 
producing, distributing, and exhibiting works in film, television, and 
digital media. Over our 25-year history we have provided funding for 
more than 200 projects, many of which have gone on to win Academy, Emmy 
and Sundance awards, examples of which are Daughter from Danang; Of 
Civil Rights and Wrongs: The Fred Korematsu Story; and Maya Lin: A 
Strong Clear Vision. CAAM presents the annual San Francisco 
International Asian American Film Festival and distributes Asian 
American media to schools, libraries, and colleges.
    Latino Public Broadcasting (LPB).--LPB supports the development, 
production, and distribution of public media content that is 
representative of Latino people, or addresses issues of particular 
interest to Latino Americans. LPB provides a voice to the diverse 
Latino community throughout the United States. Since its creation in 
1998 by Edward James Olmos, LPB has provided more than 200 hours of 
programming to public television, including Roberto Clemente, the 
Sundance award winners Farmingville and El General, and Emmy-nominated 
The Life and Times of Frida Kahlo. LPB has organized more than 100 
workshops for the advancement of Latino producers and launched the 
first Latino anthology series on public television, VOCES, which aired 
its second season in 2009 on PBS stations across the country. LPB has 
received the Imagen Award and the National Council of La Raza's Alma 
Award.
    The National Black Programming Consortium (NBPC).--NBPC develops, 
produces, and funds television and more recently audio and online 
programming about the Black experience for American public media 
outlets. Since its founding in 1979, NBPC has provided hundreds of 
broadcast hours documenting African- American history, culture, and 
experience to public television and launched major initiatives that 
have brought important public media content to diverse audiences. In 
2006, NBPC launched the New Media Institute (NMI) a program designed to 
train makers of public media to provide real value to communities using 
digital platforms. Currently, NBPC is preparing to launch the Public 
Media Corps, a highly visible, national, broadband-based program 
designed to extend the reach of taxpayer funded diverse content into 
the digital realm, to recruit the next generation of content makers, 
innovators and other stakeholders coming from all of America's 
communities, and to empower all Americans with relevant, critical, and 
timely information.
    Native American Public Telecommunications (NAPT).--NAPT shares 
Native stories with the world through support of the creation, 
promotion, and distribution of Native media. Founded in 1977, through 
various media-public television and radio, and the Internet-NAPT brings 
awareness of Indian and Alaska Native issues. Through the CPB-funded 
Production Fund, 5 to 10 new projects are supported each year. Last 
year, we worked with American Experience in the award winning We Shall 
Remain, a five-part Native history series. NAPT operates the AIROS 
Native Network, a 24/7 Internet radio station that features music, 
news, interviews, documentaries, and audio theater. We also feature 
downloadable podcasts with Native filmmakers, musicians, and tribal 
leaders. VisionMaker Video is now the premier source for quality Native 
educational and home videos. Profits made from video sales are invested 
in new NAPT productions. All aspects of our programs encourage the 
involvement of young people to learn more about careers in the media--
to be the next generation of storytellers. Through our location at the 
University of Nebraska--Lincoln, we offer student employment, 
internships, and fellowships. Reaching the general public and the 
global market is the ultimate goal for the dissemination of Native-
produced media.
    Pacific Islanders in Communications (PIC).--Since 1991, PIC has 
delivered programs and training that bring voice and visibility to 
Pacific Islander Americans. PIC presented the broadcast premier of the 
award-wining film, Whale Rider, on PBS--the story of young girl who 
confronts years of tribal tradition to fulfill her destiny as the 
leader of her people. Other PBS broadcasts include Time and Tide, about 
the devastating effects of global warming on the Pacific Islands and 
Polynesian Power the story of Pacific Islanders in the NFL. Currently 
PIC is developing a multi-part series, Expedition: Wisdom, in 
partnership with the National Geographic Society. PIC offers a wide 
range of development opportunities for Pacific Island producers through 
travel grants, seminars and media training. Producer training programs 
are held in the U.S. territories of Guam and American Samoa, as well as 
in Hawai`i, on a regular basis.
    Thank you for your consideration of our recommendations. We see new 
opportunities to increase diversity in programming, production, 
audience, and employment in the new media environment, and we thank 
Congress for support of our work on behalf of our communities.
                                 ______
                                 
          Prepared Statement of the National Marfan Foundation
    Mr. Chairman, thank you for the opportunity to submit testimony 
regarding the fiscal year 2011 budget for the National Heart, Lung and 
Blood Institute, the National Institute of Arthritis, Musculoskeletal 
and Skin Diseases, and the Centers for Disease Control and Prevention. 
The National Marfan Foundation is grateful for the subcommittee's 
strong support of the National Institutes of Health (NIH) and the 
Centers for Disease Control and Prevention, particularly as it relates 
to life-threatening genetic disorders such as Marfan syndrome. Thanks 
in part to your leadership we are at a time of unprecedented hope for 
our patients.
    It is estimated that 200,000 people in the United States are 
affected by Marfan syndrome or a related condition. Marfan syndrome is 
a genetic disorder of the connective tissue that can affect many areas 
of the body, including the heart, eyes, skeleton, lungs and blood 
vessels. It is progressive condition and can cause deterioration in 
each of these body systems. The most serious and life-threatening 
aspect of the syndrome is a weakening of the aorta. The aorta is the 
largest artery carrying oxygenated blood from the heart. Over time, 
many Marfan syndrome patients experience a dramatic weakening of the 
aorta which can cause the vessel to dissect and tear.
    Early surgical intervention can prevent a dissection and strengthen 
the aorta and the aortic valves. If preventive surgery is performed 
before a dissection occurs, the success rate of the procedure is more 
than 95 percent. If surgery is initiated after a dissection has 
occurred, the success rate drops below 50 percent. Aortic dissection is 
a leading killer in the United States, and 20 percent of the people it 
affects have a genetic predisposition, like Marfan syndrome, to 
developing the complication. Fortunately, new research offers hope that 
a commonly prescribed blood pressure medication might be effective in 
preventing this frequent and devastating event.
            fiscal year 2011 appropriations recommendations
National Institutes of Health
    Mr. Chairman, NMF joins with other voluntary patient and medical 
organizations in recommending an appropriation of $35 billion for the 
National Institutes of Health in fiscal year 2011. This level of 
funding will ensure continued expansion of research on rare diseases 
like Marfan syndrome and build upon the significant investment provided 
to the NIH in the American Recovery and Reinvestment Act.
National Heart, Lung and Blood Institute
            Pediatric Heart Network Clinical Trial
    NMF applauds the National Heart, Lung and Blood Institute for its 
leadership in advancing a landmark clinical trail on Marfan syndrome. 
Under the direction of Dr. Lynn Mahoney and Dr. Gail Pearson, the 
Institute's Pediatric Heart Network has spearheaded a multicenter study 
focused on the potential benefits of a commonly prescribed blood 
pressure medication (losartan) on aortic growth in Marfan syndrome 
patients.
    Dr. Hal Dietz, the Victor A. McKusick Professor of Genetics in the 
McKusick-Nathans Institute of Genetic Medicine at the Johns Hopkins 
University School of Medicine, and the director of the William S. 
Smilow Center for Marfan Syndrome Research, is the driving force behind 
this groundbreaking research. Dr. Dietz uncovered the role that the 
growth factor TGF-beta plays in aortic enlargement, and demonstrated 
the benefits of losartan in halting aortic growth in mice. He is the 
reason we have reached this time of such promise and NMF is proud to 
have supported Dr. Dietz's cutting-edge research for many years.
    Over the past 4 years, more than 500 Marfan syndrome patients (age 
6 months to 25 years) have been enrolled in this study. Patients are 
randomized onto either losartan or atenolol (a beta blocker that is the 
current standard of care for Marfan patients with an enlarged aortic 
root). We are on schedule to meet the trial's enrollment target of 604 
patients by the end of this year. This is a noteworthy accomplishment 
in itself given the rarity of Marfan syndrome. We anxiously await the 
results of this first-ever clinical trial for our patient population. 
It is our hope that losartan will emerge as the new standard-of-care 
and greatly reduce the need for surgery in at-risk patients.
    Mr. Chairman, NMF is proud to actively support the losartan 
clinical trial in partnership with the Pediatric Heart Network. 
Throughout the life of the trial we have provided support for patient 
travel costs, coverage of select echocardiogram examinations, and 
funding for ancillary studies. These ancillary studies will explore the 
impact that losartan has on other manifestations of Marfan syndrome.
            Evaluation of Surgical Options for Marfan Syndrome Patients
    Mr. Chairman, we are grateful for the subcommittee's 
recommendations in the fiscal year 2010 bill encouraging NHLBI to 
support research on surgical options for Marfan syndrome patients.
    For the past several years, the NMF has supported an innovative 
study looking at outcomes in Marfan syndrome patients who undergo 
valve-sparing surgery compared with valve replacement. Initial findings 
were published last year in the Journal of Thoracic and Cardiovascular 
Surgery. Some short term questions have been answered, most importantly 
that valve-sparing can be done safely on Marfan patients by an 
experienced surgeon. The consensus among the investigators however is 
that long-term durability questions will not be answered until patients 
are followed for 10 years.
    As a result, the principal investigators involved in the study 
recently submitted an RO-1 grant proposal to the NHLBI seeking support 
for this effort. Confirming the utility and durability of valve sparing 
procedures will save our patients a host of potential complications 
associated with valve replacement surgery. We encourage the 
subcommittee to continue its support for this much-needed research in 
fiscal year 2011.
            NHLBI ``Working Group on Research in Marfan Syndrome and 
                    Related Conditions''
    In 2007, NHLBI convened a ``Working Group on Research in Marfan 
Syndrome and Related Conditions.'' Chaired by Dr. Dietz, this panel was 
comprised of experts in all aspects of basic and clinical science 
related to the disorder. The panel was charged with identifying key 
recommendations for advancing the field of research in the coming 
decade. The recommendations of the Working Group are as follows--

    ``Scientific opportunities to advance this field are conferred by 
technological advances in gene discovery, the ability to dissect 
cellular processes at the molecular level and imaging, and the 
establishment of multi-disciplinary teams. The barriers to progress are 
addressed through the following recommendations, which are also 
consistent with Goals and Challenges in the NHLBI Strategic Plan.
  --Existing registries should be expanded or new registries developed 
        to define the presentation, natural history, and clinical 
        history of aneurysm syndromes.
  --Biological and aortic tissue sample collection should be 
        incorporated into every clinical research program on Marfan 
        syndrome and related disorders and funds should be provided to 
        ensure that this occurs. Such resources, once established, 
        should be widely shared among investigators.
  --An Aortic Aneurysm Clinical Trials Network (ACTnet) should be 
        developed to test both surgical and medical therapies in 
        patients with thoracic aortic aneurysms. Partnership in this 
        effort should be sought with industry, academic organizations, 
        foundations, and other governmental entities.
  --The identification of novel therapeutic targets and biomarkers 
        should be facilitated by the development of genetically defined 
        animal models and the expanded use of genomic, proteomic and 
        functional analyses. There is a specific need to understand 
        cellular pathways that are altered leading to aneurysms and 
        dissections, and to develop robust in vivo reporter assays to 
        monitor TGFb and other cellular signaling cascades.''

    We look forward to working closely with NHLBI to pursue these 
important research goals and ask the Subcommittee to support the 
recommendations of the Working Group.
National Institute of Arthritis and Musckuloskeletal and Skin Diseases
    NMF is proud of its longstanding partnership with the National 
Institute of Arthritis and Musculoskeletal and Skin Diseases. Dr. 
Steven Katz has been a strong proponent of basic research on Marfan 
syndrome during his tenure as NIAMS director and has generously 
supported several ``Conferences on Heritable Disorders of Connective 
Tissue.'' Moreover, the Institute has provided invaluable support for 
Dr. Dietz's mouse model studies. The discoveries of fibrillin-1, TGF-
beta, and their role in muscle regeneration and connective tissue 
function were made possible in part through collaboration with NIAMS.
    As the losartan trail continues to move forward, we hope to expand 
our partnership with NIAMS to support related studies that fall under 
the mission and jurisdiction of the Institute. One of the areas of 
great interest to researchers and patients is the role that losartan 
may play in strengthening muscle tissue in Marfan patients. We would 
welcome an opportunity to partner with NIAMS on this and other 
research.
Centers for Disease Control and Prevention
    Mr. Chairman, we are very grateful to you and the subcommittee for 
your support of a Marfan syndrome awareness project currently being 
developed by the NMF and the CDC. One of the most important things we 
can do to prevent untimely deaths from aortic aneurysms is to increase 
awareness of Marfan syndrome and related connective tissue disorders. 
Our collaboration with the CDC in fiscal year 2010 will enable us to 
expand our outreach to the general public and healthcare providers and 
ultimately save lives.
    It is a hopeful time in our community as we reach out to at-risk 
populations about the cardiovascular complications associated with 
Marfan syndrome. Just last month, the American College of Cardiology 
and the American Heart Association issued landmark practice guidelines 
for the treatment thoracic aortic aneurysms and dissections. The NMF is 
promoting awareness of the new guidelines in collaboration with other 
organizations through a new Coalition known as TAD; the Thoracic Aortic 
Disease Coalition. We hope to partner with the CDC in fiscal year 2011 
to increase awareness of the guidelines so all patients will be 
adequately diagnosed and treated.
    For fiscal year 2011, NMF joins with the CDC Coalition in 
recommending an appropriation of $8.8 billion for the CDC. We also join 
with the Friends of the National Center on Birth Defects and 
Developmental Disabilities in recommending a funding level of $163.5 
million for NCBDD in 2011. NCBDD and its single-gene disorders program 
serve as the home within CDC for the Marfan syndrome community.
                                 ______
                                 
      Prepared Statement of the National Postdoctoral Association
    Mr. Chairman and members of the subcommittee: Thank you for this 
opportunity to testify in regard to the fiscal year 2011 funding for 
the National Institutes of Health (NIH). We are writing today in regard 
to support for postdoctoral scholars, specifically in support of the 6 
percent increase in NIH training stipends, as requested in the 
President's budget.
Background: Postdocs are the Backbone of U.S. Science and Technology
    According to estimates by The National Science Foundation (NSF) 
Division of Science Resource Statistics, there are approximately 89,000 
postdoctoral scholars in the United States \1\. The NIH and the NSF 
define a ``postdoc'' as: An individual who has received a doctoral 
degree (or equivalent) and is engaged in a temporary and defined period 
of mentored advanced training to enhance the professional skills and 
research independence needed to pursue his or her chosen career path. 
The number of postdocs has been steadily increasing. The incidence of 
individuals taking postdoc positions during their careers has risen, 
from about 25 percent of those with a pre-1972 doctorate to 46 percent 
of those receiving their doctorate in 2002-2005 \2\. Moreover, the 
number of science and engineering doctorates awarded each year is 
steadily rising with doctorates awarded in the medical/life sciences 
almost tripling between 2003 and 2007 \3\.
---------------------------------------------------------------------------
    \1\ National Science Foundation Division of Science Resource 
Statistics. (January 2010). Science and engineering indicators 2010. 
Arlington, VA: National Science Board.
    \2\ Ibid.
    \3\ Ibid.
---------------------------------------------------------------------------
    Postdocs are critical to the research enterprise in the United 
States and are responsible for the bulk of the cutting edge research 
performed in this country. Consider the following:
  --Fully 43 percent of first authors on Science papers are 
        postdocs.\4\
---------------------------------------------------------------------------
    \4\ Davis, G. 2005. Doctors without orders. American Scientist 
93(3, supplement). http://postdoc.sigmaxi.org/results/.
---------------------------------------------------------------------------
  --According to the National Academies, postdoctoral researchers 
        ``have become indispensable to the science and engineering 
        enterprise, performing a substantial portion of the Nation's 
        research in every setting.'' \5\
---------------------------------------------------------------------------
    \5\ COSEPUP. (June 2001). Enhancing the postdoctoral experience for 
scientists and engineers. Washington, D.C.:National Academy Press. p. 
10.
---------------------------------------------------------------------------
  --Postdoctoral training has become a prerequisite for many long-term 
        research projects.\6\ In fact, the postdoc position has become 
        the de facto next career step following the receipt of a 
        doctoral degree in many disciplines.
---------------------------------------------------------------------------
    \6\ COSEPUP. (June 2001). Enhancing the postdoctoral experience for 
scientists and engineers. Washington, D.C.: National Academy Press. p. 
11.
---------------------------------------------------------------------------
  --The retention of women and under-represented groups in scientific 
        research depends upon their successful and appropriate 
        completion of the postdoctoral experience.
  --Postdoctoral scholars carry the potential to solve many of the 
        world's most pressing problems; they are the principal 
        investigators of tomorrow.
    Unfortunately, postdocs are routinely exploited. They are paid a 
low wage relative to their years of training and are often ineligible 
for workman's compensation, disability insurance, paid maternity or 
paternity leave, employer-sponsored medical benefits, and retirement 
accounts.
    The NPA advocates for policies that support postdoctoral training. 
We advocate for policy change within the research institutions that 
host postdoctoral scholars. More than 150 institutions, including the 
National Institutes of Health (NIH) and the National Science Foundation 
(NSF) have adopted portions of the NPA's recommended practices.
Problem: Postdoc Salaries/Stipends Don't Meet Cost-of-Living Standards
    The NIH leadership has been aware that these stipends are too low 
since 2001, after the publication of the results of the study Enhancing 
the Postdoctoral Experience for Scientists and Engineers conducted by 
The National Academies' Committee on Science, Engineering and Public 
Policy (COSEPUP). In response, the NIH pledged (1) to increase entry-
level stipends to $45,000 by raising the stipends at least 10 percent 
each year and (2) to provide automatic cost-of-living increases each 
year thereafter to keep pace with inflation.
    Without sufficient appropriations from Congress, the NIH has not 
been able to fulfill its pledge. In 2007, the stipends were frozen at 
2006 levels and since then have only been raised twice: by 1 percent 
each year in 2009 and 2010. The 2010 entry-level training stipend is 
$37,740, the equivalent of a GS-8 position in the Federal Government 
(NIH Statement NOT-OD-10-047), despite the postdocs' advanced degrees 
and specialized technical skills. Furthermore, this stipend remains far 
short of the promised $45,000. Certainly, it is not reflective of any 
cost-of-living increases.
    The NPA's research has shown that the NIH training stipends are 
used as a benchmark by research institutions across the country for 
establishing compensation for postdoctoral scholars. In order to keep 
the ``best and the brightest'' scientists in the U.S. research 
enterprise, the NPA believes that it is extremely important that 
Congress appropriate funding for the 6 percent increase in training 
stipends.
    Please consider the following requests from scientists in other 
countries:
  --In 2009, the NPA was approached by a scientist from Qatar for help 
        in recruiting U.S. scientists, and the Qatar Foundation is 
        prepared to offer compensation and benefits that would far 
        exceed those received by most postdocs in the United States.
  --Scientists from Canada, China, Japan, and Australia, among other 
        countries, have been seeking the NPA's advice and have asked 
        the NPA to establish partnerships with their organizations.
    And the following statistics:
  --Although the 2007 U.S. expenditures on Research and Development 
        (R&D) exceeded that of any other country/region, from 1996 to 
        2007, the U.S. R&D/GDP ratio held steady, while China's ratio 
        doubled.\7\
---------------------------------------------------------------------------
    \7\ National Science Foundation Division of Science Resource 
Statistics. (January 2010). Science and engineering indicators 2010. 
Arlington, VA: National Science Board.
---------------------------------------------------------------------------
  --From 1996 to 2007, the R&D growth rate for the Asia/Pacific region 
        increased from 24 to 31 percent, while the North American 
        region's growth rate decreased from 40 to 35 percent.\8\
---------------------------------------------------------------------------
    \8\ Ibid.
---------------------------------------------------------------------------
  --From 1996 to 2007, the United States average annual growth of R&D 
        expenditures averaged 5 percent, whereas China's average annual 
        growth topped 20 percent.\9\
---------------------------------------------------------------------------
    \9\ Ibid.
---------------------------------------------------------------------------
    If the United States is to stay competitive in the global research 
enterprise, there needs to be continued, steady increases in NIH 
funding. If the U.S. research enterprise is to keep the best and 
brightest of postdoctoral scholars, there needs to be a significant 
increase in training stipends, sooner rather than later.
Solution: Keep the NIH's Original Promise To Raise the Minimum Stipends
    In the 2010 NIH budget request, H.R. 3293 contained a 2-percent 
increase in the NRSA Stipend level. The Senate version of the bill 
contained no increase. In December 2009 the House-Senate Subcommittee 
reached a consensus and approved a 1-percent increase in the NRSA 
stipend level.
    The NPA would ask the subcommittee to recognize that such small 
increases are simply not enough. We ask the subcommittee to honor the 
President's request (NIH Summary of the Fiscal Year 2011 President's 
Budget):

    Ruth L. Kirschstein National Research Service Awards.--A total of 
$824.4 million, which is a 6 percent increase more than the fiscal year 
2010, will be directed to training stipends. This increase sends a 
clear message to both existing and ``would be'' scientists that their 
efforts are valued.

    The NPA believes it is fair, just, and necessary to reward the new 
scientists who will do the bulk of the research discovering cures for 
disease and developing new technologies to improve the quality of life 
for millions of people in the United States. Accordingly, we also 
recommend that the NIH:
  --Review the base stipend amount in terms of what it should be today, 
        9 years after the pledge was made.
  --Provide cost-of-living adjustments for postdoctoral scholars 
        located in regions with higher costs of living.
  --Develop a funding mechanism to provide supplemental funding for 
        postdoctoral scholars on research grants that would help to 
        ensure equitable compensation for all of the NIH-funded 
        postdoctoral scholars.
    Finally, 10 years have passed since the National Academies' COSEPUP 
study on the postdoc. The NPA applauds the changes that have taken 
place to improve the postdoc situation but also recognizes that many 
serious issues remain unresolved that may, and most probably will, 
negatively affect the future U.S. research workforce. Thus, the NPA 
recommends that the Senate mandates and appropriate funds for a follow-
up study that would provide information about the state of the 
postdoctoral community today.
    Thank you for your consideration.
                                 ______
                                 
         Prepared Satement of the National Psoriasis Foundation
                       introduction and overview
    The National Psoriasis Foundation (the Foundation) appreciates the 
opportunity to submit written testimony for the record regarding fiscal 
year 2011 Federal funding needs for psoriasis and psoriatic arthritis 
research. The Foundation serves as the world's largest patient-driven, 
nonprofit, voluntary organization committed to finding a cure for and 
eliminating the devastating effects of psoriasis and psoriatic 
arthritis through research, advocacy, and education. Psoriasis--the 
Nation's most prevalent autoimmune disease, affecting as many as 7.5 
million Americans--is a genetic, chronic, inflammatory, painful, 
disfiguring, and life-altering disease that requires life-long, 
sophisticated medical intervention and care. Psoriasis imposes serious 
adverse effects on affected individuals and families, and 30 percent of 
people with psoriasis also develop psoriatic arthritis, which causes 
pain, stiffness, and swelling in and around the joints and can lead to 
permanent disability.
    The Foundation seeks to advance public and private efforts to 
improve treatment of psoriasis and psoriatic arthritis, identify a cure 
and ensure that all people with psoriasis and psoriatic arthritis have 
access to the medical care and treatment options they need to live 
normal lives with the highest possible quality of life. We work with 
policymakers at the local, State, and Federal levels to advance 
policies and programs that will reduce and prevent suffering from 
psoriasis and psoriatic arthritis. To that end, we are most grateful 
that, in fiscal year 2010, Congress addressed the need to collect 
epidemiological data about psoriasis, by appropriating $1.5 million for 
researchers at the Centers for Disease Control and Prevention's (CDC) 
National Center for Chronic Disease Prevention and Health Promotion 
(NCCDPHP) to begin the process of developing a national psoriasis and 
psoriatic arthritis data collection and patient registry. Considerable 
progress has been made, in the short amount of time since the initial 
appropriation, to develop this registry in a thoughtful and deliberate 
manner. We respectfully request that Congress continue to support this 
important initiative, by appropriating $2.5 million in fiscal year 2011 
to allow this national psoriasis data collection initiative to move 
into the implementation phase. With additional fiscal year 2011 
funding, researchers can begin to collect data and increase our 
understanding of the co-morbidities, such as diabetes and heart attack, 
which are associated with psoriasis; examine the relationship of 
psoriasis to other public health concerns (e.g., smoking and obesity); 
and gain important insight into the long-term impact and treatment of 
psoriasis and psoriatic arthritis.
    In addition, the Foundation supports the President's fiscal year 
2011 budget request for a $1 billion increase in funding for the 
National Institutes of Health (NIH). The Foundation urges the 
subcommittee to provide a total fiscal year 2011 allocation of $32.2 
billion to NIH; this funding will help support new investigator-
initiated research grants for genetic, clinical, and basic research 
related to the understanding of the cellular and molecular mechanisms 
of psoriasis and psoriatic arthritis, as well as studies to expand on 
our nascent understanding of psoriasis and psoriatic arthritis 
patients' myriad co-morbid conditions.
            the impact of psoriasis and psoriatic arthritis
    Psoriasis typically first strikes between the ages of 15 and 25, 
but can develop at any time and usually lasts a lifetime. Total direct 
and indirect healthcare costs of psoriasis are calculated at more than 
$11.25 billion annually, with work loss accounting for 40 percent of 
the cost burden. There is mounting evidence that people with psoriasis 
are at elevated risk for myriad other serious, chronic, and life-
threatening conditions. Although data still are emerging on the 
relationship of psoriasis to other diseases and their ensuing costs to 
the medical system, it is clear that psoriasis goes hand-in-hand with 
psoriatic arthritis and other co-morbidities, such as Crohn's disease, 
diabetes, metabolic syndrome, obesity, hypertension, heart attack, 
cardiovascular disease, and liver disease. Recent studies have found 
that people with severe psoriasis have a 50 percent higher mortality 
risk and die 3 to 6 years younger than those who do not have psoriasis. 
Studies have found that psoriasis causes as much disability as other 
major chronic diseases, and individuals with psoriasis are twice as 
likely to have thoughts of suicide as people without psoriasis or with 
other chronic conditions.
    Despite some recent breakthroughs, many people with psoriasis and 
psoriatic arthritis remain in need of effective, safe, long-term, and 
affordable therapies to allow them to live normally and improve the 
overall quality of their lives. Due to the nature of the disease, 
patients have to cycle through available treatments, which often stop 
working. While there are an increasing number of methods to control the 
disease, there is no cure. Often the treatments have serious side 
effects and can pose long-term risks for patients (e.g., suppress the 
immune system, deteriorate organ function, etc.). The lack of viable, 
long-term methods of control for psoriasis could be addressed through 
an increased Federal commitment to epidemiological, genetic, clinical 
and basic research. NIH and CDC research, taken together, hold the key 
to improved treatment of these diseases, better diagnosis of psoriatic 
arthritis and eventually a cure for psoriatic conditions.
     the role of cdc in psoriasis and psoriatic arthritis research
    Despite our increased understanding of the auto-immune 
underpinnings of psoriasis and its treatments, there is a dearth of 
population-based epidemiology data on psoriatic disease. The majority 
of existing epidemiological studies of psoriasis are based on case 
reports, case series and cross-sectional studies. Several analytical 
studies have been performed to identify potentially modifiable risk 
factors (e.g., smoking, diet, etc.) and some have yielded conflicting, 
or inconsistent, results. In addition, most case-controlled studies 
have been hospital-based, or specialty clinic-based, and, therefore, 
are limited in their value. Broadly representative population-based 
studies of psoriasis are lacking and needed.
    There is enormous opportunity to investigate the epidemiology of 
psoriasis, as there are still wide gaps in our knowledge of this 
disease. For example, there is a critical need to better understand the 
natural progress of chronic plaque psoriasis in order to identify which 
patients may experience spontaneous remissions and which patients may 
experience flares of their disease--and when and why. Large, broadly 
representative population-based studies can expand our understanding of 
the potential risk factors for developing psoriasis, and future 
interventional trials can determine if altering modifiable risk 
factors, such as smoking and obesity, leads to a lower risk of 
psoriasis. Research into triggers and causes of psoriatic disease is 
also likely to be useful in determining advancements for other auto-
immune disorders. Finally, determining the relative importance of 
psoriasis, its treatments and its associated behaviors with the risk of 
developing co-morbidities--such as cardiovascular disease, cancer, and 
other diseases--will allow health professionals to better counsel 
patients and help them interpret long-term safety of novel therapies 
for psoriasis. The data collection and registry underway at the CDC 
will significantly advance our understanding of psoriatic disease and 
help answer some of the most pressing and perplexing questions facing 
researchers, clinicians, and patients.
           psoriasis and psoriatic arthritis research at nih
    It has taken nearly 30 years to understand that psoriasis is, in 
fact, not solely a disease of the skin but also of the immune system. 
In recent years, scientists have finally identified the immune cells 
involved in psoriasis. The last decade has seen a surge in our 
understanding of these diseases accompanied by new drug development. 
Scientists are poised as never before to make major breakthroughs.
    Within the NIH, the National Institute of Arthritis and 
Musculoskeletal and Skin Diseases, the National Center for Research 
Resources, the National Human Genome Research Institute, and the 
National Institute of Allergy and Infectious Diseases are the principal 
Federal Government agencies that currently support--or have funded--
psoriasis research. Additionally, research activities that relate to 
psoriasis or psoriatic arthritis also have been undertaken at the 
National Cancer Institute; however, the Foundation maintains that many 
more NIH Institutes and Centers have a role to play, especially with 
respect to the myriad co-morbidities of psoriasis, as noted earlier. 
Although overall NIH funding levels improved for psoriasis research in 
fiscal year 2010, and funding was boosted through stimulus funding 
awards of $3 million in fiscal year 2009 and (an estimated) $2 million 
in fiscal year 2010, the Foundation remains concerned that, generally, 
total NIH funding is not keeping pace with psoriasis and psoriatic 
arthritis research needs. Further, the Federal Government's investment 
in psoriasis and psoriatic arthritis research is not commensurate with 
the impact of the disease. An analysis of longitudinal Federal funding 
data shows that, on average, NIH has spent approximately $1 per person 
with psoriasis--per year--over the past decade. We commend NIH for the 
increased fiscal year 2009 psoriasis research investment, which is 
currently estimated at approximately $1.70 per psoriasis patient. 
According to Psoriasis Foundation scientific advisors, approximately 
$37.5 million in NIH sponsored grants (about $5 per psoriasis patient 
per year) over 5 years is the Federal biomedical investment needed to 
achieve the next phase of progress toward improved psoriasis and 
psoriatic arthritis treatments and a cure.
    Adequate investment in psoriasis and psoriatic arthritis research 
in fiscal year 2011 and beyond is imperative, because a rare 
convergence of findings reached through various research studies only 
recently has elucidated new ideas about the mechanisms involved in 
psoriasis. Greater funding of genetics, immunology, and clinical 
research focused on understanding the mechanisms of psoriasis and 
psoriatic arthritis is needed. Key areas for additional support and 
exploration include: studying the genetic susceptibility of psoriasis; 
developing animal models of psoriasis; identifying the environmental 
and lifestyle triggers for psoriasis; understanding the relationship of 
psoriasis to co-morbidities, such as heart attack, diabetes, increased 
mortality, and lymphoma; identifying and examining immune cells and 
inflammatory processes involved in psoriasis; examining the 
relationship between psoriasis and mental illnesses, such as depression 
and suicidal ideation; and elucidating psoriatic arthritis specific 
genes and other biomarkers.
                        funding request summary
    The Foundation recognizes that Congress and the Nation currently 
face unprecedented fiscal challenges. However, we also believe that 
greater fiscal year 2011 investment in biomedical and epidemiologic 
research at NIH and CDC will prove stimulative to the economy, by 
supporting researchers and academic institutions across the Nation. 
Further, researchers are poised, as never before, to bear fruit with 
regard to the development of new, safe, effective, and long-lasting 
treatments and--ultimately--a cure for psoriasis and psoriatic 
arthritis. We thank the Subcommittee in advance for providing the 
following fiscal year 2011 funding allocations:
  --$2.5 million to the NCCDPHP within the CDC to continue to collect 
        data on psoriasis and psoriatic arthritis and to implement a 
        patient registry to improve the knowledge base of the 
        longitudinal impact of these diseases on the individuals they 
        affect, as well as increase understanding of disease triggers 
        and co-morbid conditions; and
  --$32.2 billion to NIH and its Institutes and Centers with 
        encouragement to expand their psoriasis and psoriatic arthritis 
        research portfolios, with an emphasis on understanding more 
        about common co-morbid conditions.
                               conclusion
    On behalf of the Foundation's Board of Trustees and the 7.5 million 
individuals who suffer from psoriasis and psoriatic arthritis, whom we 
represent, thank you for affording us the opportunity to submit written 
testimony regarding the fiscal year 2011 funding levels necessary to 
ensure that our Nation adequately addresses the needs of those who 
suffer with psoriasis and psoriatic arthritis, by improving therapies 
and eventually finding a cure. We believe that additional research 
undertaken at the NIH, coupled with epidemiologic efforts at the CDC, 
will help advance the Nation's efforts to improve treatments and 
identify a cure for psoriatic conditions. Please feel free to contact 
us at any time; we are happy to be a resource to subcommittee members 
and your staff. We very much appreciate the subcommittee's attention 
to, and consideration of, our fiscal year 2011 requests.
                                 ______
                                 
              Prepared Statement of National Public Radio
    Thank you Chairman Harkin and Senator Cochran for the opportunity 
to support funding for public broadcasting. As NPR's president and CEO, 
I am testifying on behalf more than 850 public radio station partners, 
producers and distributors of public radio programming including 
American Public Media (APM), Public Radio International (PRI), the 
Public Radio Exchange (PRX), and many stations, both large and small 
that create and distribute content through the Public Radio Satellite 
System (PRSS).
    The public radio system and the tens of millions of Americans who 
listen to public radio programming every week are grateful, Chairman 
Harkin and Senator Cochran, for your decades of support for public 
broadcasting funding. We are also grateful for the additional $25 
million in funding provided by Congress last year to help stations 
offset the devastating financial impact of the country's economic 
crisis.
    Public radio's service to America is a story of continuing success, 
increasing dedication to news, journalism, public affairs and cultural 
programming, and expanding deployment of technology to improve our 
reach and impact. The nearly 34 million people tuning weekly into 
public radio programming is more than the total combined circulation of 
USA Today, the Wall Street Journal, The New York Times, Los Angeles 
Times, The Washington Post, and the next top 62 newspapers. Twenty-five 
NPR member stations in the top 30 markets rank in the top three most 
listened to stations for news. We are serving the American public 
through our broadcast stations, through our websites and Internet 
streaming and through applications for the iPhone, iPad, Droid, 
Blackberry, and other mobile devices.
    Consider the contributions made by these public radio stations 
whose local public service illustrates a system-wide commitment to 
community service:
  --Iowa Public Radio.--WOI AM and FM at Iowa State University, WSUI-AM 
        and KSUI-FM at the University of Iowa, and KUNI-FM and KHKE-FM 
        at the University of Northern Iowa are at the center of the 
        newly consolidated State operation. With combined revenues of 
        about $6 million annually and about 60 employees, roughly one-
        third of staff is devoted to news. Iowa Public Radio enhances 
        civic and cultural connections across the State, strengthening 
        communities and reflecting Iowa's sense of place. The weekend 
        program Iowa Roots is aired statewide and features stories, 
        music and talk with traditional artists from a variety of 
        ethnic, geographic, occupational, and religious groups found in 
        Iowa.
  --WXPR.--A community-licensed public radio station with studios in 
        Rhinelander, WXPR serves about a 70-mile diameter area of 
        Wisconsin, plus some bits of Michigan's Upper Peninsula. On the 
        air since 1983, WXPR would never have been built, nor continued 
        to serve the local community today without the continuing 
        effort and generosity of many people in the Northwoods, plus 
        the support of the Corporation for Public Broadcasting. WXPR is 
        proud to provide the only radio service to large, sparsely 
        populated rural areas of the State and is planning to expand 
        coverage with two small repeater stations in Ironwood and Iron 
        Mountain, Michigan.
  --Mississippi Public Broadcasting.--More than 127,000 Mississippians 
        listen to MPB radio programming each week. More than 7,000 
        blind and print-impaired people in the State use the Radio 
        Reading Service of Mississippi through MPB which provides on-
        the-air readings of newspapers, books and magazines for persons 
        who are unable to read the printed word, either because of 
        visual handicaps or because of other physical handicaps, such 
        as the inability to turn pages. MPB also serves as primary 
        source of emergency information and news during crisis 
        situations and was nationally recognized for its coverage 
        during Hurricanes Gustav, Rita, and Katrina.
  --Minnesota Public Radio (MPR).--MPR operates a regional network of 
        38 stations, covering Minnesota and parts of Wisconsin, the 
        Dakotas, Michigan, Iowa, and Idaho. With 850,000 listeners each 
        week, MPR has the largest audience of any regional public radio 
        network and an expanding news department of 76 that is 
        committed to improving local and regional coverage. MPR is a 
        leader in classical and current music, and in a growing online 
        news service, NewsQ.
    Stations like these, operating in every State and congressional 
district in the country, have become living embodiments of journalistic 
excellence, providing news, information, and cultural programming as 
other sources of media are contracting or retreating from local 
coverage. Many are the only locally owned and operated news 
organization in their community.
Public Funds for Public Media
    The Corporation for Public Broadcasting (CPB) is an indispensable 
public funding source for public radio, accounting for roughly 12 
percent of an average public radio station's annual budget. The public 
broadcasting community is urging Congress to appropriate $604 million 
in 2-year advanced funding for fiscal year 2013.
    Journalism, news, information, and cultural programming are the 
cornerstones of public radio. And we are expanding in these areas, as 
many commercial news organizations contract. For example, public 
broadcasting stations have launched Local Journalism Centers (LJCs), 
combining funds from CPB and resources of 27 station entities to expand 
and improve journalism on the regional level. A primary goal of this 
initiative is to replace some of the traditional newsgathering capacity 
that has been lost amid the recent cutbacks, to take full advantage of 
developing technology in order to nourish and support the creation of 
new journalistic endeavors, and to ensure that there are no barriers to 
the distribution of public media content.
    A second recent joint initiative--Project Argo--is aimed at 
bringing expanding information on topics critical to communities and 
the Nation. This project, supported by CPB and the John S. and James L. 
Knight Foundation, provides a pilot group of 12 NPR stations with the 
resources to expand original reporting, and to curate, distribute and 
share online content about high-interest, specialized subjects. The 2-
year pilot will help a dozen stations establish themselves as 
definitive sources of news on a topic selected by each one as most 
relevant to its community, such as city politics, the changing economy, 
healthcare, immigration, and education. These online reports will help 
fill the growing gap in local news offerings.
Digital Funding
            Broadcasting's Digital Transition
    Broadcasting remains the principle distribution path for public 
radio programs. By the end of 2009, 463 stations were on the air with 
digital signals and more than 180 were multicasting (sending out two or 
more program streams) to their communities and listeners. Recent action 
by the Federal Communications Commission permitting public radio 
stations to boost HD signal power and provide expanded signal coverage 
creates another compelling reason to continue conversion funding. Many 
public radio stations will be seeking to boost power to better serve 
their communities in the coming year. Public broadcasting's funding 
request to continue our digital transformation in fiscal year 2011 is 
$59.5 million.
    Public Radio is using digital broadcasting as a tool to improve and 
broaden the reach of our programming to poorly served and un-served 
audiences. Radio reading services for the blind and deaf are becoming 
more accessible. Stations' service to communities during times of local 
and regional emergencies will benefit from digital broadcasting's more 
flexible and adaptable features. Digital broadcasting technology has 
enabled public radio stations to:
  --Provide Increased Local Services to Communities.--Stations are 
        doubling and tripling programming offerings by multicasting 
        through HD radio channels 2 and 3 options while super-serving 
        existing and new groups of listeners.
  --Increase the Diversity of Programming by Providing Additional 
        Content for Current Audience.--Use of HD radio channels 2 and 3 
        means more news programming options, music and entertainment 
        for listeners. The additional HD radio channels allow stations 
        to add public affairs programming, educational instruction, 
        international news, specialty music streams (jazz, classical, 
        bluegrass, folk, rock, pop, international, etc.), and non-
        English language news.
  --Bring the Content Rich World of Public Radio to Blind and Deaf 
        Audiences.--Relying often on small armies of volunteers, more 
        than 120 stations provide 24-hour life-line service consisting 
        of news education and readings from daily newspapers and 
        magazine articles. Text information services such as emergency 
        warnings and public service alerts may also be incorporated 
        into the signal to enable display of this data.
            The New Network: Internet, Web and Mobile Platforms
    The 1967 Public Broadcasting Act Gave Enduring Reality to two 
Important Concepts.--Public funds for public broadcasting and the 
creation of a national, independent, not-for-profit network of 
television and radio broadcasters to serve the American public. More 
than four decades later, as public broadcasting's embrace of new 
technologies to serve and engage a wider and more diverse audience 
quickens its transformation into Public Media, a New Network for the 
digital era must be fostered. This New Network, built upon a Public 
Media Platform and utilizing the success and assets of public 
broadcasting as its core, will enable the next generation of content 
creation and distribution so that the American public can benefit from 
a larger vision of service from Public Media.
    Public radio is embracing the networked environment as a primary 
platform for audience and community service. To ensure that the 
American public continues to have free and universal access to public 
media content, high-speed and affordable broadband access is simply a 
necessity. Congressionally appropriated digital transition funds are 
essential to help ensure our success in providing a larger, more 
diverse and more inclusive service to the American public.
    Among the many station and national network initiatives underway, 
these are worth highlighting:
  --NPR's API.--In July 2008, NPR released an open Application 
        Programming Interface, (API), a new pathway for content and 
        functions to be widely shared on the web. NPR was one of the 
        first major national media organizations to launch an API and 
        it is an integral component of our mission to create a more 
        informed public. It allows public radio stations and individual 
        users to play a direct role in broadening web access to public 
        radio content. The principle of openness encompassed in this 
        web tool is a fundamental extension of the standards of free 
        and universal access that are common to more traditional 
        distribution of public radio content. Utilization of the API by 
        stations enables the creation of content that more closely 
        matches local community needs and interests, and facilitates 
        diverse, more creative presentations of content, again to 
        connect local information needs with content generated by 
        other, collaborating communities.
  --The Public Media Platform.--Realizing public media's full potential 
        requires a strategic investment in an information architecture 
        that brings together fragmented digital assets. The Public 
        Media Platform, under development by NPR in partnership with 
        CPB, APM, PRI, PBS and the Public Radio Exchange (PRX), will 
        allow content from a wide variety of independent and 
        institutional producers to be combined in a common back-end 
        system; and then for that content to be extracted and displayed 
        on a wide variety of digital platforms based on business rules 
        set by the producers. It is in essence and in practice the 
        digital equivalent of the satellite distribution network that 
        serves public radio's broadcast audience with the powers of 
        search, social media tools, analytics, and data.
    Thank you again for continuing to support funding for public 
service media.
                                 ______
                                 
      Prepared Statement of the National Primate Research Centers
    The Directors of the eight National Primate Research Centers 
(NPRCs) respectfully submit this written testimony for the record to 
the Senate Appropriations Subcommittee on Labor, Health and Human 
Services, Education, and Related Agencies. The NPRCs appreciate the 
commitment that the members of this subcommittee have made to 
biomedical research through your strong support for the National 
Institutes of Health (NIH), and recommend that you maintain this 
support for NIH in fiscal year 2011 by providing an increase of 3.5 
percent more than fiscal year 2010. Within this proposed increase the 
NPRCs also respectfully request that the subcommittee provide the 
National Center for Research Resources (NCRR) with the resources to 
continue a robust construction, renovation, and instrumentation grant 
program as begun through the American Recovery and Reinvestment Act, 
which as explained in this testimony, would help to ensure that the 
NPRCs and other animal research resource programs continue to serve 
effectively in their role as a vital national resource. Additionally, 
the NPRCs request that Congress provide NCRR no less than $86,412,000 
for the NPRC P51 (base grant) program, the amount equal to the 
President's budget request. This program supports a portion of the 
operational costs of the eight NPRCs.
The NPRCs' Role as a National Resource and in the NIH Director's Five 
        Themes
    The NPRCs collaborate as a transformative and innovative network to 
support the best science and act as a resource to the biomedical 
research community as efficiently as possible. There is an exceptional 
return on investment in the NPRC program; $10 is leveraged for every $1 
of research support for the NPRCs. It is important to sustain funding 
for the NPRC program and the NIH as a whole to continue to grow and 
develop the innovative plan for the future of NIH. The NPRCs have a 
commitment from NCRR to develop a 5-year strategic plan to further 
enhance the capabilities of the NPRCs by building on current progress.
    NIH Director Dr. Francis Collins laid out his vision for the future 
of the agency in terms of five ``themes.'' The NPRCs as a consortium 
and as a resource to the biomedical research community currently play 
an important role in each of the five themes.
    High-throughput Technologies.--The NPRCs have been leading the 
development of a new Biomedical Informatics Research Network (BIRN) for 
linking brain imaging, behavior, and molecular informatics in nonhuman 
primate preclinical models of neurodegenerative disease. Using the 
cyberinfrastructure of the BIRN project for data-sharing, this project 
will link research and information to other primate centers, as well as 
other geographically distributed research groups.
    Translational Research.--Nonhuman primate models bridge the divide 
between basic biomedical research and implementation in a clinical 
setting. Currently, 7 of the 8 NPRCs are affiliated with and 
collaborate with the NCRR Clinical and Translational Science Awards 
(CTSA) Program through their host institution. Specifically, the 
nonhuman primate models at the NPRCs often provide the critical link 
between research with small laboratory animals and studies involving 
humans. As the closest genetic model to humans, nonhuman primates serve 
in the development process of new drugs, treatments, and vaccines, to 
ensure safe and effective use for the Nation's public.
    Using Science To Enable Healthcare Reform.--Animal models are an 
essential tool for bridging basic biomedical research and patient 
healthcare, and the NPRCs are a national resource which supports the 
achievement of this goal. The network of the eight NPRCs is taking a 
leadership role to encourage collaboration among researchers and 
healthcare providers across disciplines and institutions, with the goal 
of advancing biomedical knowledge and improving human health.
    Global Health.--Primate models are necessary for research on global 
infectious diseases. Primates have served as the best model for various 
types of HIV research, and their availability for use has resulted in 
at least 14 licensed anti-viral drugs for treatment of HIV infection. 
Primate models will continue to be necessary to defend the world 
against possible future epidemics such as SARS, West Nile Virus, and 
avian flu; and they are critical to current efforts to create vaccines 
for Ebola and Marburg viruses, and for infectious agents that could be 
used by terrorists. They also serve as the best model for development 
of vaccines for tuberculosis and malaria.
    Although the number of chimpanzees essential to biomedical research 
is very few, chimpanzees remain the only valid research model for 
developing vaccines that prevent infection by the hepatitis C virus, 
from which millions of people worldwide suffer. Researchers do not 
embark upon the use of chimpanzees in research without due 
consideration, and are acutely aware of the ethical challenges and 
moral responsibilities of such research. But the fact remains that 
chimpanzee models have led to major medical advances; as a case in 
point, thanks to chimpanzee research, there are vaccines for hepatitis 
A and B.
    Reinvigorating the Biomedical Research Community.--The success of 
the U.S. Government's efforts in enhancing public health is contingent 
upon the quality of research resources that enable scientific research 
ranging from the most basic and fundamental to the most highly applied. 
Biomedical researchers have relied on one such resource--the National 
Primate Research Centers--for nearly 50 years for research models and 
expertise with nonhuman primates. The NPRCs are highly specialized 
facilities that foster the development of nonhuman primate animal 
models and provide expertise in all aspects of nonhuman primate 
biology. NPRC facilities and resources are currently used by more than 
2,000 NIH-funded investigators around the country.
    The NPRCs are also supportive of getting students interested in the 
biomedical research workforce pipeline at an early age. For example, 
Yerkes NPRC supports a program that connects with local high schools 
and colleges in Atlanta, Georgia, and invites students to participate 
in research projects taking place at their field station location.
The Need for Facilities Support
    As exemplified in the NPRCs' role in the future direction of NIH, 
the program is a vital resource for enhancing public health and 
spurring innovative discovery. In an effort to address many of the 
concerns within the scientific community regarding the need for funding 
for infrastructure improvements, the NPRCs support the continuation of 
a robust construction and instrumentation grant program at NCRR.
    The NPRCs thank Congress for appropriating $1.3 billion of NIH 
Recovery Act funds for construction (C06), renovation (G20), and 
instrumentation (S10) grants. The number of applications received by 
NCRR illustrated the pent up need for facilities funding in the 
biomedical research community. Some of our centers received awards but 
a number of primate centers (and many other animal facilities) did not.
    Animal facilities, especially primate facilities, are expensive to 
maintain and are subject to abundant ``wear and tear.'' In prior years, 
funding was set aside that fulfilled the infrastructure needs of the 
NPRCs and other animal research facilities. The NPRCs ask the 
subcommittee to provide an appropriation of no less than $125 million 
to NCRR for construction and renovation of animal facilities through 
C06 and G20 programs. Without proper infrastructure, the ability for 
animal facilities, including the NPRCs, to continue to meet the high 
demand of the biomedical research community will be unattainable.
    Thank you for the opportunity to submit this written testimony and 
for your attention to the critical need for primate research and the 
continuation of infrastructure support, as well as our recommendations 
concerning funding for NIH in the fiscal year 2011 appropriations bill.
                                 ______
                                 
          Prepared Statement of the National Respite Coalition
    Mr. Chairman, I am Jill Kagan, Chair of the ARCH National Respite 
Coalition, a network of respite providers, family caregivers, State and 
local agencies and organizations across the United States who support 
respite. Twenty-five State respite coalitions are also affiliated with 
the NRC. This statement is presented on behalf of the these 
organizations, as well as the Lifespan Respite Task Force, a coalition 
of more than 80 national and 100 State and local groups who supported 
the passage of the Lifespan Respite Care Act (Public Law 109-442). 
Together, we are requesting that the subcommittee include funding for 
the Lifespan Respite Care Program administered by the U.S. 
Administration on Aging in the fiscal year 2011 Labor, Health and human 
Service, and Education, and Related Agencies appropriations bill at its 
modest authorized level of $94.8 million. This will enable:
  --State replication of best practices in Lifespan Respite systems to 
        allow all family caregivers, regardless of the care recipient's 
        age or disability, to have access to affordable respite, and to 
        be able to continue to play the significant role in long-term 
        care that they are fulfilling today;
  --Improvement in the quality of respite services currently available;
  --Expansion of respite capacity to serve more families by building 
        new and enhancing current respite options, including 
        recruitment and training of respite workers and volunteers; and
  --Greater consumer direction by providing family caregivers with 
        training and information on how to find, use and pay for 
        respite services.
                           who needs respite?
    In 2009, a national survey found that more than 65 million family 
caregivers are providing care to individuals of any age with 
disabilities or chronic conditions (Caregiving in the U.S. 2009. 
Bethesda, MD: National Alliance for Caregiving and Washington, DC: 
AARP, 2009). It has been estimated that these family caregivers provide 
$375 billion in uncompensated care, an amount almost as high as 
Medicare spending ($432 billion in 2007) and more than total spending 
for Medicaid, including both Federal and State contributions and both 
medical and long-term care ($311 billion in 2005) (Gibson and Hauser, 
2008).
    While the aging population is growing rapidly, increasing the need 
for family caregiver support for this age group, the majority of family 
caregivers are caring for someone under age 75 (56 percent); 28 percent 
of family caregivers care for someone between the ages of 50-75, and 28 
percent are caring for someone under age 50, including children (NAC 
and AARP, 2009). Family caregiving is not just an aging issue, but also 
a lifespan issue for the majority of the Nation's families.
    Compound this picture with the growing number of caregivers known 
as the ``sandwich generation'' caring for young children as well as an 
aging family member. It is estimated that between 20 and 40 percent of 
caregivers have children under the age of 18 to care for in addition to 
a parent or other relative with a disability. And in the United States, 
6.7 million children, with and without disabilities, are in the primary 
custody of an aging grandparent or other relative.
    Families of the wounded warriors--those military personnel 
returning from Iraq and Afghanistan with traumatic brain injuries and 
other serious chronic and debilitating conditions--are at risk for 
limited access to respite. Together, these family caregivers are 
providing an estimated 80 percent of all long-term care in the United 
States. This percentage will only rise in the coming decades with an 
expected increase in the number of chronically ill veterans returning 
from war, greater life expectancies of individuals with Down's Syndrome 
and other disabling and chronic conditions, the aging of the baby boom 
generation, and the decline in the percentage of the frail elderly who 
are entering nursing homes.
                         what is respite need?
    State and local surveys have shown respite to be the most 
frequently requested service of the Nation's family caregivers 
(Evercare and NAC, 2006). Yet respite is unused, in short supply, 
inaccessible, or unaffordable to a majority of the Nation's family 
caregivers. The 2009 NAC/AARP survey of caregivers found that a 
majority (51 percent) have medium or high levels of burden of care, 
measured by the number of activities of daily living with which they 
provide assistance, and 31 percent of all family caregivers were 
identified as ``highly stressed''. Half of all family caregivers (53 
percent) say that their caregiving takes time away from family and 
friends. Of those who sacrificed this time, 47 percent feel high 
emotional stress. Moreover, the 2009 survey found that despite the fact 
that among caregivers' most frequently reported unmet needs were 
``finding time for myself'' (32 percent), ``managing emotional and 
physical stress'' (34 percent), and ``balancing work and family 
responsibilities'' (27 percent), only 11 percent of caregivers of 
adults 18+ make use of respite. This represents an increase from 5 
percent in 2004, but still far less than the percentage who could 
benefit from respite. Of six proposed national policies or programs 
presented to help caregivers, 3 in 10 selected respite as the preferred 
service (NAC and AARP, 2009). According to another survey in 2006, the 
percentage of family caregivers able to make use of respite in rural 
areas was only 4 percent (Easter Seals and NAC, 2006). In a study of a 
nationally representative profile of noninstitutionalized children ages 
0-17 who were receiving support from the Supplemental Security Income 
(SSI) program because of a disability, only 8 percent reported using 
respite, but three-quarters of families had unmet respite needs (Rupp, 
K, et al, 2005-2006).
    Barriers to accessing respite include reluctance to ask for help, 
fragmented and narrowly targeted services, cost, and the lack of 
information about how to find or choose a provider. Even when respite 
is an allowable funded service, a critically short supply of well-
trained respite providers may prohibit a family from making use of a 
service they so desperately need.
    Twenty of 35 State-sponsored respite programs surveyed in 1991 
reported that they were unable to meet the demand for respite services. 
The 25 State coalitions and other National Respite Network members 
confirm that long waiting lists or turning away of clients because of 
lack of resources is still the norm. A study conducted by the Family 
Caregiver Alliance identified 150 family caregiver support programs in 
all 50 States and Washington, DC, funded with State-only or State/
Federal dollars. Most of the funding comes from the Federal National 
Family Caregiver Support Program. As a result, programs are 
administered by local area agencies on aging, primarily serve the 
aging, and provide only limited respite, if at all. Only about one-
third of the 150 identified programs serve caregivers who provide care 
to adults age 18-60 who must meet stringent eligibility criteria. As 
the report concluded, ``State program administrators see the lack of 
resources to meet caregiver needs in general and limited respite care 
options as the top unmet needs of family caregivers in the States.''
    While most families take great joy in helping their family members 
to live at home, it has been well documented that family caregivers 
experience physical and emotional problems directly related to 
caregiving responsibilities. Three-fifths of family caregivers age 19-
64 surveyed recently by the Commonwealth Fund reported fair or poor 
health, one or more chronic conditions, or a disability, compared with 
only one-third of noncaregivers (Ho, Collins, Davis and Doty, 2005). A 
study of elderly spousal caregivers (aged 66-96) found that caregivers 
who experience caregiving-related stress have a 63 percent higher 
mortality rate than noncaregivers of the same age (Schulz and Beach, 
December 1999).
    For the millions of families of children with disabilities, respite 
has been an actual lifesaver. However, for many of these families, 
their children will age out of the system when they turn 21 and they 
will lose many of the services, such as respite, that they currently 
receive. In fact, 46 percent of U.S. State units on aging identified 
respite as the greatest unmet need of older families caring for adults 
with lifelong disabilities.
    Disparate and inadequate funding streams exist for respite in many 
States. But even under the Medicaid program, respite is allowable only 
through State waivers for home and community-based care. Under these 
waivers, respite services are capped and limited to narrow eligibility 
categories. Long waiting lists are the norm.
    Respite may not exist at all in some States for adult children with 
disabilities still living at home, or individuals under age 60 with 
conditions such as ALS, MS, spinal cord or traumatic brain injuries, or 
children with serious emotional conditions. In Tennessee, a young woman 
in her twenties gave up school, career and a relationship to move in 
and take care of her 53 year-old mom with MS when her dad left because 
of the strain of caregiving without any support.
              respite benefits families and is cost saving
    Respite has been shown to be a most effective way to improve the 
health and well-being of family caregivers that in turn helps avoid or 
delay out-of-home placements, such as nursing homes or foster care, 
minimizes the precursors that can lead to abuse and neglect, and 
strengthens marriages and family stability. A recent report from the 
U.S. Department of Health and Human Services prepared by the Urban 
Institute found that higher caregiver stress among those caring for the 
aging increases the likelihood of nursing home entry. Reducing key 
stresses on caregivers, such as physical strain and financial hardship, 
through services such as respite would reduce nursing home entry. 
(Spillman and Long, USDHHS, 2007)
    Budgetary benefits that accrue from respite are just as compelling. 
Delaying a nursing home placement for just one individual with 
Alzheimer's or other chronic condition for several months can save 
thousands of dollars. In an Iowa survey of parents of children with 
disabilities, a significant relationship was demonstrated between the 
severity of a child's disability and their parents missing more work 
hours than other employees. It was also found that the lack of 
available respite interfered with parents accepting job opportunities. 
(Abelson, A.G., 1999)
    Moreover, data from ongoing research at Oklahoma State University 
found that the number of hospitalizations, as well as the number of 
medical care claims decreased as the number of respite days increased 
(Fiscal Year 1998 Oklahoma Maternal and Child Health Block Grant Annual 
Report, July 1999). A Massachusetts social services program designed to 
provide cost-effective, family-centered respite care for children with 
complex medical needs found that for families participating for more 
than 1 year, the number of hospitalizations decreased by 75 percent, 
physician visits decreased by 64 percent, and antibiotics use decreased 
by 71 percent (Mausner, S., 1995).
    In the private sector, the most recent study by Metropolitan Life 
Insurance Company and the National Alliance for Caregivers found that 
U.S. businesses lose from $17.1 billion to $33.6 billion per year in 
lost productivity of family caregivers (MetLife and National Alliance 
for Caregiving, 2006). Offering respite to working family caregivers 
could help improve job performance and employers could potentially save 
billions
                lifespan respite care program will help
    The Lifespan Respite Care Act is based on the success of statewide 
Lifespan Respite programs in Oregon, Nebraska, Wisconsin, and Oklahoma. 
Arizona and Texas both recently passed State legislation to establish 
Lifespan Respite Programs, but Arizona's program was cut due to State 
budget shortfalls. Twelve States, including Arizona, began 
implementation in 2009 with the first wave of Federal Lifespan Respite 
funding.
    Lifespan Respite, which is a coordinated system of community-based 
respite services, helps States use limited resources across age and 
disability groups more effectively. Pools of providers can be 
recruited, trained and shared, administrative burdens can be reduced by 
coordinating resources, and savings used to fund new respite services 
for families who may not qualify for any existing Federal or State 
program.
    The first State Lifespan Respite programs in Oregon, Nebraska, 
Wisconsin, and Oklahoma provide best practices on which to build a 
national respite policy. The programs have been recognized by the 
National Conference of State Legislatures, which recommended the 
Nebraska program as a model for State solutions to community-based 
long-term care, the National Governors Association, and the President's 
Committee for People with Intellectual Disabilities. The White House 
Conference on Aging recommended Congressional support for the Lifespan 
Respite Care Act.
    The purpose of the law is to expand and enhance respite services, 
improve coordination, and improve respite access and quality. Under a 
competitive grant program, States are required to establish State and 
local coordinated Lifespan Respite care systems to serve families 
regardless of age or special need, provide new planned and emergency 
respite services, train and recruit respite workers and volunteers and 
assist caregivers in gaining access to services. Those eligible would 
include family members, foster parents or other adults providing unpaid 
care to adults who require care to meet basic needs or prevent injury 
and to children who require care beyond that required by children 
generally to meet basic needs.
    The Federal Lifespan Respite program is administered by the U.S. 
Administration on Aging, Department of Health and Human Services (HHS). 
AoA provides competitive grants to State agencies in concert with Aging 
and Disability Resource Centers working in collaboration with State 
respite coalitions or other State respite organizations. The program 
was authorized at $53.3 million in fiscal year 2009 rising to $95 
million in fiscal year 2011. Congress appropriated $2.5 million in 
fiscal year 2009 and again in fiscal year 2010. In fiscal year 2009, 12 
States received 36-month $200,000 grants to implement Lifespan Respite. 
In these States, that represents less than $.18 per caregiver.
    The administration recommended $5 million for Lifespan Respite as 
part of its Middle Class Initiative. We are heartened to see that 
support for family caregiving is recognized as a critical component of 
a typical family's economic and social well-being. However, the focus 
of the administration's request was on support for family caregivers of 
the aging population. While this is an issue of growing concern, we 
must not neglect that fact that at least half of the Nation's family 
caregivers are caring for someone with MS, ALS, traumatic brain or 
spinal cord injury, mental health conditions, developmental 
disabilities or cancer who are under the age of 60 and $5 million will 
not address their need for respite. This is also the population most 
likely to be ineligible for any existing State or Federal respite 
resources.
    No other Federal program mandates respite as its sole focus. No 
other Federal program would help ensure respite quality or choice, and 
no current Federal program allows funds for respite start-up, training, 
or coordination or to address basic accessibility and affordability 
issues for families. We urge you to include $94.8 million in the fiscal 
year 2011 Labor, Health and Human Services, and, Education, and Related 
Agencies appropriations bill so that Lifespan Respite Programs can be 
replicated in the States and more families, with access to respite, 
will be able to continue to play the significant role in long-term care 
that they are fulfilling today.
                                 ______
                                 
Prepared Statement of the National REACH Coalition for the Elimination 
                         of Health Disparities
    The National REACH Coalition represents more than 40 communities 
and coalitions in 22 States working to eliminate racial and ethnic 
health disparities and improve the health of African American, Asian 
Pacific Islander, Native American, and Latino populations and 
communities. The coalition is an outgrowth of the Racial and Ethnic 
Approaches to Community Health (REACH U.S.) 2010 initiative, started a 
decade ago by the Centers for Disease Control and Prevention (CDC). 
REACH programs are on the front lines, providing coordination and 
leadership for the advancement and translation of community-based 
participatory research into evidence-based practices, policies, and 
community empowerment.
    For the fiscal year 2011 funding cycle the National REACH Coalition 
encourages the Labor, Health and Human Services, and Education, and 
Related Agencies (Labor-HHS) Subcommittee to increase funding for the 
Racial and Ethnic Approaches to Community Health program to $60 
million, an increase of $20.356 million more than fiscal year 2010.
    The NRC gratefully acknowledges the strong bipartisan support that 
the Senate Subcommittee on Labor-HHS has provided to the REACH U.S. 
program in recent years, most REACH programs were not eligible for 
additional funding provided by the American Recovery and Reinvestment 
Act and yet are working in communities that are among the hardest hit 
by the recession. With significant budget challenges at the State/local 
levels, REACH programs provide an important safety net to help 
eliminate racial and ethnic health disparities and close the health 
equity gap.
    Chronic diseases are the Nation's leading causes of morbidity and 
mortality and account for 75 percent of every $1 spent on healthcare in 
the United States. Collectively, they account for 70 percent of all 
deaths nationwide. Thus, it is highly likely that nearly 3 of 4 persons 
living in your district will be likely to develop a chronic condition 
requiring long-term and costly medical intervention. Moreover, chronic 
diseases account for the largest health gap among racial and ethnic 
minority populations. African Americans have higher mortality rates for 
cardiovascular disease and stroke, and cancer of the lung, colon/
rectum, breast, cervix, and prostate than Whites, American Indians/
Alaska Natives, Asian/Pacific Islanders, and Hispanic Americans.
    REACH U.S. programs are working hard to eliminate these health 
disparities and many have proven success in their communities. 
Collectively as the National REACH Coalition, our programs have engaged 
hundreds of local coalition members and touched the lives of thousands 
of program participants in this nationwide campaign against health 
disparities. As a result, the REACH communities are testing, evaluating 
and implementing practice and evidence-based interventions that reduce 
the human and financial cost of these preventable diseases and 
associated risk factors by:
  --In South Carolina, the REACH Charleston and Georgetown Diabetes 
        Coalition reports that a 21 percent gap in blood sugar testing 
        between African Americans and whites has been virtually 
        eliminated. Amputations among African-American males with 
        diabetes have been reduced by more than 33 percent. Each 
        avoided amputation avoids at least $40,000 in expenditures; 
        expanding this program could substantially reduce South 
        Carolina's annual diabetes-related financial burden of more 
        than $900 million.
  --The REACH for Wellness program in Georgia's Atlanta Empowerment 
        Zone reports that from 2002 to 2004 the percentage of adults 
        who regularly participated in moderate to vigorous physical 
        activity increased from 25.4 percent to 28.7 percent; the 
        percentage who reported checking their total blood cholesterol 
        increased from 69.1 percent to 79.7 percent, and the percentage 
        of adults who smoked decreased from 25.8 percent to 20.8 
        percent.
  --The REACH Alabama Breast and Cervical Cancer Coalition in Macon 
        County reports that disparities in mammography screening 
        between white and African American women decreased from 15 
        percent to 2 percent from 1998 to 2003.
  --In Massachusetts, the Greater Lawrence Family Health Center, a 
        REACH Center of Excellence in Eliminating Health Disparities, 
        has been able to demonstrate long-term disparity reductions 
        among Latinos on five measures of diabetic care and outcomes.
  --Data from the REACH Risk Factor Survey show that the REACH program 
        is having a significant impact in key areas of risk reduction 
        and disease management:
    --From 2001 to 2004, African Americans transitioned from being less 
            likely to more likely than whites to have their cholesterol 
            checked.
    --In REACH communities, the sizable gap in cholesterol screening 
            between Hispanics and the national average is closing.
    --In REACH communities, the proportion of American Indians with 
            high blood pressure who take medication increased from 67 
            percent in 2001 to 74 percent in 2004.
    --Cigarette smoking among Asian men in REACH communities decreased 
            from 35 percent in 2001 to 24 percent in 2004.
    REACH U.S. communities have spent the last decade leveraging CDC 
funding with public private partnerships in order to effectively 
address health disparities. Using innovative science-based approaches 
we have demonstrated that health disparities once considered expected 
are not intractable. REACH U.S. has provided a sound return on 
investment, but we could do a lot more. In 2007, more than 200 
communities applied for funding in the last CDC REACH U.S. program 
application cycle, but only 40 were funded. While we are extremely 
grateful for the $4 million increase REACH U.S. received in fiscal year 
2010, without additional support REACH U.S. will not be able to extend 
its successful, cost-effective evidence- and practice-based programs to 
communities bearing a disproportionate share of the national chronic 
disease burden.
    Providing a $20.356 million increase, for a total of $60 million in 
fiscal year 2011 for REACH U.S. programs will ensure investment and 
sustainability in the bread and butter of prevention and wellness 
programs--community-led and community-driven interventions. 
Furthermore, health disparities and health equity will continue to be 
addressed and REACH U.S. programs will have the ability to be expanded 
in our Nation's most underserved communities. We strongly urge the 
subcommittee to consider this request to strengthen the capacity of the 
REACH U.S. program.
    We thank you for this opportunity to present our views to this 
subcommittee. We look forward to working with you to improve the health 
and safety of all Americans.
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association
    Thank you Chairman Harkin, Ranking Member Cochran, and other 
honorable members of the subcommittee for the opportunity to submit 
written testimony on the importance of funding the Centers for Disease 
Control and Prevention's (CDC) Healthy Communities Program. We 
respectfully request funding of $30 million in the fiscal year 2011 
Labor, health and Human Services, and Education, and Related agencies 
appropriations bill.
    NRPA is a 501(c)3 national nonprofit organization with more than 
21,000 members. We represent both citizens and park and recreation 
professionals. Our mission is to advance parks, recreation and 
environmental conservation for the benefit of all people. Because we 
represent the public park and recreation agencies in the United States, 
we touch the lives of more than 300 million people in virtually every 
community. Park and recreation agencies play a major role in the fight 
against obesity and are poised and capable of doing even more through 
the creation of new cross-cutting partnerships that promote health 
lifestyle choices for children and adults.
    Our Nation currently faces an obesity epidemic that is claiming the 
lives of adults and children. According to the CDC, the obesity rate in 
children ages 6 to 11 doubled from 6.5 percent in 1980 to 17 percent in 
2006; and tripled among those ages 12 to 19 to 17.6 percent during the 
same time period. More than one-third of U.S. adults--more than 72 
million people--were obese in 2005-2006.
    Obesity also has a crippling effect on our Nation's economy and is 
largely responsible for the exuberant rise in healthcare costs. CDC 
reports that data from the 1998 and 2006 Medical Expenditure Panel 
Surveys (MEPS) revealed that obesity increased medical costs by 37 
percent from 1998 to 2006. A 2009 study released by RTI, a nonprofit 
research firm, showed that obese Americans cost the country about $147 
billion in weight-related medical bills in 2008, double what it was a 
decade ago. Obesity now accounts for about 9.1 percent of medical 
spending in our country.
    The obesity and chronic disease epidemics plaguing our Nation did 
not manifest themselves overnight. These epidemics grew to be national 
issues of concern by impacting one individual, one family, and one 
community at a time. A multitude of factors such as lack of physical 
activity, poor diet, and excessive tobacco and alcohol use have led to 
this national epidemic. The good news is that many of the health risk 
factors that contribute to the development of chronic disease and 
obesity are preventable. However, the only way we will truly reduce 
obesity is to employ a comprehensive strategy that addresses these 
factors where people live, work, learn and recreate. In order for us to 
effectively combat these epidemics, local communities must be armed 
with the necessary tools and resources to implement policy, 
environmental and systematic changes geared towards promoting increased 
physical activity, nutritious foods, and the prevention of chronic 
disease in children, youth, and adults.
    Investment in prevention and wellness was one of President Obama's 
eight core principles guiding healthcare reform. Congress also stressed 
the importance of prevention at the community level throughout the 
health reform debate and through inclusion of various prevention 
measures in the Patient Protection and Affordable Care Act and 
Education Affordability Reconciliation Act. The economics of community 
level prevention are clear. As noted by the Trust For America's Health, 
for an investment of $10 per person per year in proven community-based 
programs to increase physical activity, improve nutrition, and prevent 
smoking and other tobacco use, the country could save more than $16 
billion annually within 5 years. This is a return of $5.60 for every $1 
spent. Prevention programs provide proven returns on investment. We are 
asking this subcommittee to further invest in prevention through 
increased fiscal year 2011 appropriations for CDC's Healthy Communities 
Program.
    Through its Healthy Communities program, CDC facilitates the 
collaboration of local and State health departments, national 
organizations with extensive reach into communities and a wide range of 
community leaders and stakeholders to develop, activate and spread 
policy, systems and environmental changes that prevent chronic disease 
by changing behavior and increasing the opportunities for healthier 
lifestyles. These community leaders and stakeholders represent local 
elected officials, city and county health officials, tribal programs, 
parks and recreation departments, local YMCAs, health-related 
coalitions, and education, business, health, planning, and 
transportation sectors. This collaboration results in proven community-
based programs and environmental changes that encourage people to be 
more physically active, improve nutrition, and abstain from tobacco 
use.
    To date, more than 240 communities have received funding and 
technical support through CDC's Healthy Communities Program which has 
resulted in measurable changes at the local level. An additional 170 
communities will receive funding to improve the health of their 
communities during the next 3 years.
    Davenport, Iowa has recently received Healthy Communities funding, 
and has allowed the formation of a broad coalition of stakeholders that 
has begun work to prevent chronic disease. In Davenport, Iowa the top 
five leading causes of death are heart disease (26.6 percent), cancer 
(23 percent), other conditions (19.7 percent), stroke (7.8 percent), 
and chronic lung/respiratory disease (6.3 percent). Efforts to reverse 
these trends include identifying means of increasing the usage of 
Davenport parks and trails; promoting healthier lifestyles in 
workplaces by engaging employers in encouraging employees to use stairs 
instead of elevators; making all Davenport parks tobacco-free; and 
increasing student wellness in Davenport schools by revising school 
wellness policies.
    Chicago, Illinois is a great example of the impact and success of 
the Healthy Communities program. The city has noted that 26 percent of 
their children and 25 percent of their adult populations are obese by 
national standards. Contributing to the poor health of this community 
is the lack of opportunities for physical activity and the fact that 
the west side of Chicago lacks grocery stores which has caused it to 
become a ``food desert''. This, in turn causes residents to utilize 
fast food chains and convenience stores as a main source of 
nourishment. Recognizing the health and financial implications of an 
obese population, Chicago is taking proactive steps to ensure a 
healthier a community. The park district has introduced new fitness 
classes in parks throughout the city and is now offering a minimum of 
60 minutes of moderate to vigorous activity for all children's programs 
offered through parks. Through the leadership of the Mayor's office, a 
healthy vending policy has been initiated at all park facilities and 
the park district is implementing community produce gardens which will 
be maintained by local youth. Additionally, smoking has been banned on 
all Chicago Park District Property, indoors and out including beaches. 
Thanks to funding provided through CDC's Healthy Communities program, 
the city of Chicago will be able to implement more policy, systems and 
environmental changes, such as these, to combat chronic disease and 
obesity throughout the city.
    Funding for the CDC's Healthy Communities program is vital to 
successfully combating chronic disease and obesity at the local level 
in communities across the country. Previous funding levels have been 
inadequate. The Healthy Communities program has gone from $46.6 million 
in fiscal year 2005 to only $22.7 million in fiscal year 2010. As a 
result, hundreds of eligible communities have applied for highly 
competitive projects but remain unfunded due to limited Federal 
resources.
    Given the health implications and the fiscal hardship associated 
with chronic disease and obesity, we can no longer afford to be a 
nation that simply treats the problem. Now, more than ever Congress 
must increase its investment in community prevention programs such as 
this. NRPA respectfully requests that this committee provide increased 
funding for CDC's Healthy Communities program to $30 million in the 
fiscal year 2011 appropriations bill.
    Thank you for this opportunity to submit testimony.
                                 ______
                                 
          Prepared Statement of the National Sleep Foundation
Summary of Fiscal Year 2011 Recommendations
    Provide $2 million in funding for sleep activities within the 
Community Health Promotion account within the Chronic Disease Program 
at the Centers for Disease Control and Prevention (CDC). Expanded 
funding for sleep and sleep disorder-related activities would allow the 
CDC fund additional States to collect essential national and State-
specific surveillance data; to support targeted public awareness 
initiatives; to create training materials for healthcare professionals; 
and build and test public health interventions.
    Mr. Chairman and members of the subcommittee, thank you for 
allowing me to submit testimony on behalf of the National Sleep 
Foundation (NSF). I am Dr. Frankie Roman, Chair of the NSF's Government 
Affairs Committee and a sleep specialist at Ohio Sleep Disorder 
Centers, in Akron, Ohio. NSF is an independent, nonprofit organization 
that is dedicated to improving public health and safety by achieving 
understanding of sleep and sleep disorders, and by supporting sleep-
related education, research, and advocacy. We work with sleep medicine 
and other healthcare professionals, researchers, patients and drowsy 
driving advocates throughout the country as well as collaborate with 
many Government, public, and professional organizations with the goal 
of preventing health and safety problems related to sleep deprivation 
and untreated sleep disorders.
    Sleep problems, whether in the form of medical disorders or related 
to work schedules and a 24/7 lifestyle, are ubiquitous in our society. 
It is estimated that sleep-related problems affect 50 to 70 million 
Americans of all ages and socioeconomic classes. Sleep disorders are 
common in both men and women; however, important disparities in 
prevalence and severity of certain sleep disorders have been identified 
in minorities and underserved populations. Despite the high prevalence 
of sleep disorders, the overwhelming majority of sufferers remain 
undiagnosed and untreated, creating unnecessary public health and 
safety problems, as well as increased healthcare expenses. Annual 
surveys conducted by NSF show that more than 60 percent of adults have 
never been asked about the quality of their sleep by a physician, and 
fewer than 20 percent--have ever initiated such a discussion.
    Additionally, Americans are chronically sleep deprived as a result 
of demanding lifestyles and a lack of education about the impact of 
sleep loss. Sleepiness affects vigilance, reaction times, learning 
abilities, alertness, mood, hand-eye coordination, and the accuracy of 
short-term memory. Sleepiness has been identified as the cause of a 
growing number of on-the-job accidents, automobile crashes and multi-
model transportation tragedies.
    According to the National Highway Traffic Safety Administration's 
2002 National Survey of Distracted and Drowsy Driving Attitudes and 
Behaviors, an estimated 1.35 million drivers have been involved in a 
drowsy driving crash in the previous 5 years. According to NSF's 2009 
Sleep in America poll, 54 percent of people admit that they have driven 
drowsy at least once in the past year, with 28 percent reporting that 
they do so at least once a month or more. A large number of academic 
studies and Government reports have linked lost productivity, poor 
school performance, and major public health problems to chronic sleep 
loss and sleep disorders.
    The 2006 Institute of Medicine (IOM) report, Sleep Disorders and 
Sleep Deprivation: An Unmet Public Health Problem, found the cumulative 
effects of sleep loss and sleep disorders represent an under-recognized 
public health problem and have been associated with a wide range of 
negative health consequences, including hypertension, diabetes, 
depression, heart attack, stroke, and at-risk behaviors such as alcohol 
and drug abuse--all of which represent long-term targets of the 
Department of Health and Human Services (HHS) and other public health 
agencies. Moreover, the personal and national economic impact is 
staggering. The IOM estimates that the direct and indirect costs 
associated with sleep disorders and sleep deprivation total hundreds of 
billions of dollars annually.
    Sleep science and Federal reports have clearly detailed the 
importance of sleep to health, safety, productivity and well-being, yet 
studies continue to show that millions of Americans remain at risk for 
serious health and safety consequences of untreated sleep disorders and 
inadequate sleep, due to a lack of awareness, community interventions, 
and inadequate screening. Unfortunately, despite recommendations in 
numerous Federal reports, there is a lack of epidemiological data, 
large clinical trials and no on-going national educational programs 
regarding sleep issues aimed at the general public, healthcare 
professionals, underserved communities or major at-risk groups.
    NSF believes that every American needs to understand that good 
health includes healthy sleep, just as it includes regular exercise and 
balanced nutrition. Sleep must be elevated to the top of the national 
health agenda in order to adequately address other national public 
health problems mentioned above. We need your help to make this happen.
    Our biggest challenge is bridging the gap between the established 
sleep science best practices and the level of knowledge about sleep 
held by healthcare practitioners, educators, employers, and the general 
public. Because resources are limited and the challenges great, we 
think creative and new partnerships are needed to fully develop sleep 
awareness, education and clinical training initiatives. Consequently, 
the NSF has spearheaded important initiatives to raise awareness of the 
importance of sleep to the health, safety, and well-being of the 
Nation. One of our most important partnerships in these efforts is with 
the Centers for Disease Control and Prevention (CDC).
    For the last 7 years, Congress has recommended that the CDC support 
activities related to sleep and sleep disorders. As a result, CDC's 
National Center for Chronic Disease Prevention and Health Promotion has 
been collaborating with NSF and more than twenty voluntary 
organizations and Federal agencies to form the National Sleep Awareness 
Roundtable (NSART), which was officially launched in March of 2007. 
Congress also provided specific funding for these efforts for the past 
3 years.
    In fiscal year 2008, Congress provided $818,000 for activities 
related to sleep and sleep disorders, including CDC's participation in 
NSART and incorporating sleep-related questions into established CDC 
surveillance systems. With this funding, CDC included one core sleep 
question in its national data collection efforts in 2008 and has 
provided grants to 8 States to include an optional sleep module in 
their data collection efforts through the Behavioral Risk Factor 
Surveillance System (BRFSS). Recent analysis of the core data found 
that more than 1 in 10 Americans report having insufficient sleep or 
rest every day for the past 30 days. Significantly, sleep problems were 
found to be more prevalent in southeastern States in what is commonly 
referred to as the ``stroke belt.'' This region has an unusually high 
incidence of stroke, cardiovascular disease, diabetes, obesity, 
depression, and quality of life, which are associated with inadequate 
sleep quality and quantity. The CDC is currently recruiting up to 14 
States and hopes to expand the data collection to all 50 States if 
appropriate funding is obtained.
    CDC also included one question in the Youth Risk Behavior 
Surveillance System (YRBSS). Of note, the YRBSS has already revealed 
that only one-third of high-school students get 8 or more hours of 
sleep on an average school night, far below the recommended 9.25 hours. 
This new data will provide important information on the prevalence of 
sleep disorders and enable researchers to better address the complex 
interrelationship between sleep loss and comorbid conditions such as 
obesity, diabetes, depression, hypertension, and drug and alcohol 
abuse.
    Additionally, CDC and NSART supported and actively participated in 
NSF's ongoing national public awareness initiatives including National 
Sleep Awareness Week and Drowsy Driving Prevention Week. The year, with 
CDC's support and guidance, NSF launched a new initiative called Sleep 
Health and Safety Conference 2010 designed to educate clinicians and 
other healthcare professionals about sleep disorders in order to 
increase better diagnosis and treatment.
    In fiscal year 2009, Congress provided $900,000 to the CDC for 
sleep activities. CDC plans to expand the number of States it is able 
to fund for BRFSS data collection and provide support for national 
public and professional awareness initiatives as well as activities of 
the National Sleep Awareness Roundtable.
    Although the CDC has taken initial steps to begin to consider how 
sleep affects public health issues, the agency needs additional 
resources to take appropriate actions, as recommended by the IOM and 
other governmental reports. Expanded funding for sleep and sleep 
disorder-related activities would allow the CDC to create much needed 
educational programs for schools and occupational settings and training 
materials for current and future health professionals; build and test 
public health interventions; expand surveillance and epidemiological 
activities; and create further fellowships and research opportunities. 
The following are detailed scenarios for various funding levels.
  --$2 million:
    --Expand Surveillance on BRFSS.--CDC could double the number of 
            grants it provides to States to use the optional sleep 
            module and include more core questions in the nationwide 
            data collection through the Behavioral Risk Factor 
            Surveillance System. CDC would also expand its 
            participation in and funding of national public and 
            professional initiatives aimed at promoting sleep as a 
            health behavior, treatment of obstructive sleep apnea, and 
            drowsy driving as well as the goals and activities of the 
            National Sleep Awareness Roundtable.
    --Public Education.--CDC could support the development of a 
            national sleep health communications campaign that use 
            targeted approaches for delivering sleep-related messages, 
            especially in public schools and workplaces. Currently, no 
            such programs exist.
    NSF and members of the National Sleep Awareness Roundtable believe 
that an ongoing partnership with CDC is critical to address the 
enormous public health impact of sleep and sleep disorders. We hope 
that the subcommittee will provide funding of $2,000,000 to the CDC to 
execute programs as outlined here.
    Thank you again for the opportunity to present you with this 
testimony.
                                 ______
                                 
  Prepared Statement of the National Technical Institute for the Deaf
    I am pleased to present the fiscal year 2011 budget request for 
NTID, one of eight colleges of RIT, in Rochester, New York. Created by 
Congress by Public Law 89-36 in 1965, we provide university technical 
and professional education for students who are deaf and hard-of-
hearing, leading to successful careers in high-demand fields for a sub-
population of individuals historically facing high rates of 
unemployment and under-employment. We also provide baccalaureate and 
graduate level education for hearing students in professions serving 
deaf and hard-of-hearing individuals. As of fall 2009, NTID served a 
total 1,474 students from across the nation, including 1,307 deaf and 
hard-of-hearing students and 167 hearing students. NTID students live, 
study and socialize with more than 15,000 hearing students on the RIT 
campus.
    NTID has fulfilled our mission with distinction for 42 years.
                             budget request
    As shown below, NTID's fiscal year 2011 budget request was 
$66,252,000 in operations and $3,640,000 in construction, for a total 
of $69,892,000; the President's request is $63,037,000 in operations 
and $1,640,000 in construction, for a total of $64,677,000.

                                     FISCAL YEAR 2011 BUDGET REQUEST STATUS
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Operations     Construction        Total
----------------------------------------------------------------------------------------------------------------
NTID request....................................................          66,252           3,640          69,892
President's request.............................................          63,037           1,640          64,677
                                                                 -----------------------------------------------
      Difference................................................           3,215           2,000           5,215
----------------------------------------------------------------------------------------------------------------

    For the last 2 fiscal years (2009 and 2010), NTID's operations 
budget has been level-funded at $63,037,000; the President's 
recommended budget for fiscal year 2011 would mark a third consecutive 
year of level funding.
    For these past 2 years, NTID has been able to absorb level-funding 
in operations primarily due to two factors: (1) a self-initiated 
budget-reduction/revenue enhancement campaign from fiscal year 2003 
through fiscal year 2007; and (2) a withholding of salary increased by 
RIT for fiscal year 2010. However, realized savings from the campaign 
now have been re-allocated and are no longer available, and RIT 
recently has announced a 2 percent salary increase for fiscal year 
2011.
    While NTID certainly would benefit from a budget increase to 
support upcoming strategic initiatives (see below), we understand the 
resource challenges facing the subcommittee this year. While an 
additional $1,640,000 beyond the President's recommended operations 
funding for fiscal year 2011 is needed, we are amenable to meeting this 
need by shifting funds designated in the President's 2011 budget from 
construction to operations. This would ensure NTID stays within the 
total allocation proposed in the President's 2011 budget of 
$64,677,000, and still fully meet our Operations needs. We will seek 
alternative funding for needed construction items.
                               enrollment
    In fiscal year 2010 (fall 2009), we attracted the largest 
enrollment in our 42-year history. Truly a national program, NTID 
enrolls students from all 50 States. Our current enrollment is 1,474. 
Over the last 3 years our enrollment has increased 18 percent (224 
students). For fiscal year 2011, NTID anticipates maintaining this 
record high enrollment level. Our enrollment history over the last 5 
years is shown below:

                                                                               NTID ENROLLMENTS: FIVE-YEAR HISTORY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                   Deaf/hard-of-hearing students                                 Hearing students
                                                                 ----------------------------------------------------------------------------------------------------------------
                           Fiscal year                                                                                             Interpreting                                     Grand total
                                                                     Undergrad       Grad RIT          MSSE          Subtotal         program          MSSE          Subtotal
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
2006............................................................           1,013              53              38           1,104             116              36             152           1,256
2007............................................................           1,017              47              31           1,095             130              25             155           1,250
2008............................................................           1,103              51              31           1,185             130              28             158           1,353
2009............................................................           1,212              48              24           1,284             135              31             166           1,450
2010............................................................           1,237              38              32           1,307             138              29             167           1,474
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                        student accomplishments
    For our graduates, 95 percent have been placed in jobs commensurate 
with the level of their education (using the Bureau of Labor Statistics 
methodology). Of our fiscal year 2007 graduates (the most recent class 
for which numbers are available), 63 percent were employed in business 
and industry, 29 percent in education/nonprofits, and 8 percent in 
government.
    Graduation from NTID has a demonstrably positive effect on 
students' earnings over a lifetime, and results in a noteworthy 
reduction in dependence on Supplemental Security Income (SSI), Social 
Security Disability Insurance (SSDI), and public assistance programs. 
In fiscal year 2007, NTID, the Social Security Administration, and 
Cornell University examined approximately 13,000 deaf and hard-of-
hearing individuals who applied and attended NTID over our entire 
history. We learned that graduating from NTID has significant economic 
benefits. By age 50, deaf and hard-of-hearing baccalaureate graduates 
earned on average $6,021 more per year than those with associate 
degrees, who in turn earned $3,996 more per year on average than those 
who withdrew before graduation. Students who withdrew earned $4,329 
more than those who were not admitted. Students who withdrew 
experienced twice the rate of unemployment as graduates.
    The same studies showed 78 percent of these individuals were 
receiving SSI benefits at age 19, but when they were 50 years old, only 
1 percent of graduates drew these benefits, while on average 19 percent 
of individuals who withdrew or were not admitted continued to 
participate in the SSI program. Graduates also accessed SSDI, an 
unemployment benefit, at far lesser rates than students who withdrew; 
by age 50, 34 percent of nongraduates were receiving SSDI, while 22 
percent of baccalaureate graduates and 27 percent of associate 
graduates were receiving them. Considering the reduced dependency on 
these Federal income support programs, the Federal investment in NTID 
returns significant societal dividends.
    NTID clearly makes a significant, positive difference in earnings, 
and in lives.
            strategic initiatives beginning fiscal year 2011
    NTID has just completed Strategic Decisions 2020, a strategic plan 
based on our founding mission statement. This statement sets forth our 
institutional responsibility to work with students to develop their 
academic, career, and life-long learning skills as future contributors 
in a rapidly changing world. It also recognizes our role as a special 
resource for preparing individuals who are deaf and hard-of-hearing, 
for conducting applied research in areas critical to the advancement of 
individuals who are deaf and hard-hard-of hearing, and for 
disseminating our collective and cumulative expertise.
    Strategic Decisions 2020 establishes key initiatives responding to 
future challenges and shaping future opportunities. These initiatives, 
scheduled for implementation beginning in fiscal year 2011, include:
  --Pursuing enrollment targets and admissions and programming 
        strategies that will result in increasing numbers of our 
        graduates achieving baccalaureate degrees and higher, while 
        maintaining focus and commitment to quality associate-level 
        degree programs leading directly to the workplace;
  --Improving services to under-prepared students through working with 
        regional partners to implement intensive summer academic 
        preparation programs in selected high-growth, ethnically 
        diverse areas of the country. Through this initiative, NTID 
        will identify those students demonstrating promise for success 
        in career-focused degree-level programs and beyond, and provide 
        consultation to others regarding postsecondary educational 
        alternatives;
  --Expanding NTID's role as a National Resource Center of Excellence 
        regarding the education of deaf and hard-of-hearing students in 
        senior high school (grades 10, 11, and 12) and at the 
        postsecondary level education. Components of this role as a 
        National Resource Center of Excellence will include:
    --Center for Excellence in STEM Education.--NTID currently is 
            working to develop an externally funded Center of 
            Excellence on STEM Education for Deaf and Hard of Hearing 
            Students. This is an example of making our expertise 
            available nationally and enhancing deaf and hard-of-hearing 
            students' access to STEM fields.
    --NTID Research Centers.--NTID will organize research resources 
            into Research Centers focused on the following strategic 
            areas of research: Teaching and Learning; Communication; 
            Technology, Access, and Support Services; and Employment 
            and Adaptability to Social Changes and the Global 
            Workplace.
    --Outreach Programs Extending.--Outreach activities to junior and 
            senior high school students who are deaf and hard-of-
            hearing, many of who represent AALANA populations, to 
            expand their horizons regarding a college education. We 
            also support other colleges and universities serving 
            students who are deaf and hard-of-hearing, as well as 
            postcollege adults who are deaf and hard-of-hearing.
  --Enhancing efforts to become a recognized national leader in the 
        exploration, adaptation, testing, and implementation of new 
        technologies to enhance access to, and support of, learning by 
        deaf and hard-of-hearing individuals.
                            ntid background
Academic Programs
    NTID offers high-quality, career-focused associate degree programs 
preparing students for specific well-paying technical careers. A 
cooperative education component ties closely to high demand employment 
opportunities. NTID also is expanding the number of its transfer 
associate degree programs, currently numbering seven, to better serve 
the higher achieving segment of our student population seeking 
bachelors and masters degrees in an increasingly demanding marketplace. 
These transfer programs provide seamless transition to baccalaureate 
studies in the other colleges of RIT. In support of those deaf and 
hard-of-hearing students enrolled in the other RIT colleges, NTID 
provides a range of access services (including interpreting, real-time 
speech-to-text captioning, and note-taking) as well as tutoring 
services. One of NTID's greatest strengths is our outstanding track 
record of assisting high-potential students to gain admission to, and 
graduate from, the other colleges of RIT at rates comparable to their 
hearing peers.
Student Life
    Our activities foster student leadership and community service, and 
provide opportunities to explore a wide range of other educational 
interests. Emphasis is placed on coordination between academic faculty 
and student development professionals in supporting college success for 
students.
                                summary
    It is extremely important that our funding be provided at the full 
level requested by the President as we continue our mission to prepare 
deaf and hard-of-hearing people to enter the workplace and society. We 
ask only that the funds provided by the President for Construction be 
moved into operations.
    Our alumni have demonstrated that they can achieve independence, 
contribute to society, earn a living, and live a satisfying life as a 
result of NTID. Research shows that NTID graduates over their lifetimes 
are employed at a much higher rates, earn substantially more 
(therefore, paying significantly more in taxes), and participate at a 
much lower rate in SSI, SSDI, and public assistance programs than those 
who withdraw or who apply but do not attend NTID.
    We are hopeful that the members of the subcommittee will agree that 
NTID, with its long history of successful stewardship of Federal funds 
and outstanding educational record of service with people who are deaf 
and hard-of-hearing, remains deserving of your support and confidence.
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation
    Mr. Chairman, members of the subcommittee, on behalf of the 
National Wildlife Federation (NWF), our Nation's largest conservation 
advocacy and education organization, and our more than 4 million 
members and supporters, I thank you for the opportunity to provide 
funding recommendations for the Department of Education, Department of 
Labor (DOL), and the Corporation for National and Community Service 
(CNCS).
    We believe that the overall Federal investment in environmental and 
sustainability education programs nationwide--pennies per capita--is 
woefully inadequate. While NWF supports numerous programs under the 
jurisdiction of this subcommittee, the purpose of this testimony is to 
recommend levels of funding for specific sustainability education at 
institutions of higher education, education and training for clean 
energy and ``green'' jobs, environmental education at the K-12 level, 
and national service programs that we believe are vital to NWF's 
mission to inspire Americans to protect wildlife for our children's 
future. The National Wildlife Federation also supports climate change 
education and environmental education programs across the Federal 
agencies at the U.S. Forest Service, Environmental Protection Agency, 
National Science Foundation, National Aeronautics and Space 
Administration, National Oceanic and Atmospheric Administration, and 
U.S. Department of the Interior.

                                           SUMMARY OF RECOMMENDATIONS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year
                Agency                                  Program                        2011         Fiscal year
                                                                                  recommendation    2010 level
----------------------------------------------------------------------------------------------------------------
Education............................  University Sustainability Program........             $50         ( \1\ )
                                       Healthy High Performance Schools.........              25  ..............
Labor................................  Green Jobs Act...........................             125             $50
CNCS.................................  Clean Energy Service Corps...............             100  ..............
----------------------------------------------------------------------------------------------------------------
\1\ See under Department of Education.

    Funding for these programs is supported broadly through the 
Campaign for Environmental Literacy's Green Education Budget and the 
conservation community's Green Budget documents.
The Need for Environmental Education and Sustainability Education
    As our Nation moves towards a clean energy economy and creates new 
``green jobs,'' we must ensure that our education and training 
infrastructure keeps pace. Congress and President Obama have stated 
their desire to pass comprehensive climate change legislation this 
year, a priority that the National Wildlife Federation strongly 
supports. To be successful and remain competitive as a Nation in a new 
clean energy economy, we must have an environmentally literate and 
well-trained citizenry that has the knowledge and skills to find new 
and innovative solutions to protect our planet. While public awareness 
and concern about global warming continues to rise, the vast majority 
of the public does not understand how climate change works, how it 
impacts their lives and careers, and how their decisions and actions 
contribute to it.
    Educating Americans about climate change is a huge opportunity for 
our Nation to prepare today's leaders, and the leaders of tomorrow, to 
implement the solutions created through comprehensive climate change 
legislation. Unfortunately, some still mistakenly see environmental 
protection programs as a costly burden on prosperity. In fact, the 
challenge posed is an entrepreneur's dream. Addressing global warming 
will generate millions of good new jobs and put the United States at 
the exciting forefront of a new clean energy economy. The successful 
transition to this new green economy hinges on education and training. 
This testimony focuses on key programs that educate and train Americans 
at institutions of higher education, in our Nation's K-12 schools, 
through conservation corps programs that educate and train at-risk 
youth for careers in clean energy, and through green workforce 
education and training programs at the Department of Labor.
                        department of education
University Sustainability Program
    The National Wildlife Federation supports funding the University 
Sustainability Program (USP) at $50 million in fiscal year 2011. 
Interest in sustainability is exploding on college campuses across the 
Nation, and institutions are making remarkable changes to try to reduce 
campus carbon footprints and energy use. However, despite increasing 
interest and demand from students, sustainability education programs on 
college campuses are on the decline according to a comprehensive study 
released in August 2008 by the National Wildlife Federation and 
Princeton Survey Research Associates International, called the ``Campus 
Environment 2008: A National Report Card on Sustainability in Higher 
Education.'' Environmental curriculum requirements are slipping and 
today's students may be less environmentally literate when they 
graduate than their predecessors.
    Congress authorized a new University Sustainability Program (USP) 
at the Department of Education as part U of the Higher Education 
Opportunity Act of 2008 (H.R. 4137). This program has the potential for 
high impact, high visibility, broad support within higher education, 
and is responsive to an important national trend in higher education. 
Sustainability on college campuses is critical, from education in the 
classroom to facility operations. Higher education produces almost all 
of the Nation's leaders in all sectors and endeavors, and many college 
campuses are virtually small cities in their size, environmental 
impact, and financial influence. Campuses use vast amounts of energy to 
heat, cool, and light their facilities. In all, the Nation's 4,100 
campuses educate or employ around 20 million individuals and generate 
more than 3 percent of the Nation's GDP. The economic clout of these 
schools is further multiplied by the hundreds of thousands of business 
suppliers, property owners, and other commercial and nonprofit entities 
involved with higher education. Funding for the newly authorized USP is 
critical to help provide difficult-to-get seed funding to launch 
sustainability education programs and to help support mainstream higher 
education associations in including sustainability in their work with 
their member institutions.
    In fiscal year 2010 Congress appropriated $28.8 million for the 
University Sustainability Program and five other programs as 
``invitational priorities'' under the Fund for Improvement in 
Postsecondary Education. We recommend that in fiscal year 2011 Congress 
fund the University Sustainability Program as a standalone program at 
$50 million.
Healthy High Performance Schools Program
    The National Wildlife Federation supports funding the Healthy High 
Performance Schools Program at $25 million in fiscal year 2011. The 
Healthy High Performance Schools Program seeks to facilitate the 
design, construction and operation of high performance schools: 
environments that are not only energy and resource efficient, but also 
healthy, comfortable, well lit, and containing the amenities for a 
quality education. This grant program is critical at a time when energy 
costs for America's elementary and secondary schools are skyrocketing. 
The No Child Left Behind Act (Public Law 107-110, title 5, part D, 
subtitle 18) authorized grants to State education agencies to advance 
the development of ``healthy, high performance'' school buildings. This 
program has yet to be funded by Congress. While it would seem to be a 
given that we are providing our children with a healthy learning 
environment, many of the Nation's 150,000 public school buildings fall 
far short of this standard. Research clearly shows that improving 
specific factors such as school indoor environmental quality improves 
attendance, academic performance, and productivity.
Pre-K-12 Environmental Education--No Child Left Inside Act
    While not yet authorized, the National Wildlife Federation strongly 
supports authorization of and full funding at $100 million per year for 
the No Child Left Inside (NCLI) Act (H.R. 2054), which the support of 
more than 1,600 national, State and local organizations representing 
more than 45 million Americans. The central new policy in this 
legislation is the incentive for States to create or update a State 
Environmental Literacy Plan. Environmental Literacy Plans can be 
developed to meet the needs of each State and systemically advance 
environmental education through the pre-K-12 education system. These 
State plans in NCLI support training and professional development 
opportunities for teachers and capacity building for environmental 
education at both the State and district level. In the past 12 years, 
an impressive base of research has been developed that demonstrates the 
positive effects that environmental and nature education programs have 
on improving academic performance and overall student learning. These 
data, collected from many peer-reviewed sources, include: improved 
statewide test results, higher scores in science and mathematics, 
higher student interest in science, greater real-world relevancy, fewer 
discipline problems in the classroom, and a more even playing field for 
students in under-resourced schools.
    The House passed a modified version of the bill in the 110th 
Congress by a bipartisan vote of 293-109. This strong support continues 
today with 90 current sponsors of H.R. 2054. Additionally, the 
Department of Education's A Blue Print for Reform: The Reauthorization 
of the Elementary and Secondary Education Act seeks to encourage 
schools to provide a well-rounded education through grants that support 
strengthening teaching and learning in environmental education. In 
fiscal year 2011, ``environmental education'' was also included in the 
President's budget request under a ``Well-Rounded Education.''
    The National Wildlife Federation also supports a priority for 
funding green career and technical education programs and initiatives 
at the Department of Education.
                          department of labor
    The National Wildlife Federation supports a priority for green jobs 
education and training at the Department of Labor through the Workforce 
Investment Act's Energy Efficiency and Renewable Energy Worker Training 
Program and the Community Based Job Training Program. NWF believes that 
community colleges are critical partners in training and educating the 
next generation of Americans for green jobs.
Energy Efficiency and Renewable Energy Worker Training Program
    The National Wildlife Federation supports funding the Energy 
Efficiency and Renewable Energy Worker Training Program at $125 million 
in fiscal year 2011. NWF greatly appreciates this subcommittee's first-
time investment in Green Jobs Education and Training in the recent 
American Recovery and Reinvestment Act and the $50 million provided in 
fiscal year 2010. This unprecedented investment will help jumpstart the 
education and training needed to prepare Americans for the clean energy 
economy. We hope that the Committee will continue to fund this program, 
authorized by the Green Jobs Act (GJA), title X of the Energy 
Independence and Security Act, at $125 million in fiscal year 2011. NWF 
believes it is important to make annual investments in this program 
through the regular appropriations process, in addition to necessary 
infusions of funding through stimulus and supplemental bills. This 
program identifies needed skills, develops training programs, and 
trains workers for jobs in a range of green industries, but has a 
special focus on creating ``green pathways out of poverty'' and 
responds to already existing skill shortages.
             corporation for national and community service
Clean Energy Service Corps
    The National Wildlife Federation supports funding the Clean Energy 
Service Corps at $100 million in fiscal year 2011. The Clean Energy 
Service Corps, building on the legacy of the depression-era Civilian 
Conservation Corps and modeled after today's Service and Conservation 
Corps, will address the Nation's energy and environmental needs while 
providing work and service opportunities, especially for disadvantaged 
youth ages 16-25.
                               conclusion
    Providing Federal support for environmental education, 
sustainability education, green jobs education and training and green 
national service programs is critical for securing our new clean energy 
future and preparing the next generation for the challenges and 
opportunities ahead. Thank you again for providing the National 
Wildlife Federation with the opportunity to provide testimony.
                                 ______
                                 
       Prepared Statement of The Ovarian Cancer National Alliance
    The Ovarian Cancer National Alliance (the Alliance) appreciates the 
opportunity to submit comments for the record regarding the Alliance's 
fiscal year 2011 funding recommendations. We believe these 
recommendations are critical to ensure advances to help reduce and 
prevent suffering from ovarian cancer. For 13 years, the Alliance has 
worked to increase awareness of ovarian cancer and advocated for 
additional Federal resources to support research that would lead to 
more effective diagnostics and treatments.
    As an umbrella organization with 49 State and local organizations, 
the Alliance unites the efforts of survivors, grassroots activists, 
women's health advocates and healthcare professionals to bring national 
attention to ovarian cancer. Our sole mission is to conquer ovarian 
cancer.
    According to the American Cancer Society, in 2009, more than 22,000 
American women were diagnosed with ovarian cancer and approximately 
15,000 lost their lives to this terrible disease. Ovarian cancer is the 
fifth leading cause of cancer death in women. Currently, more than half 
of the women diagnosed with ovarian cancer will die within 5 years. 
While ovarian cancer has early symptoms, there is no early detection 
test. Most women are diagnosed in stage III or stage IV, when survival 
rates are low. If diagnosed early, more than 90 percent of women will 
survive for 5 years, but when diagnosed later, less than 30 percent 
will.
    In addition, only a few treatments have been approved by the Food 
and Drug Administration (FDA) for ovarian cancer treatment. These are 
platinum-based therapies and women needing further rounds of treatment 
are frequently resistant to them. More than 70 percent of ovarian 
cancer patients will have a recurrence at some point, underlying the 
need for treatments to which patients do not grow resistant.
    For all of these reasons, we urgently call on Congress to 
appropriate funds to find solutions.
    As part of this effort, the Alliance advocates for continued 
Federal investment in the Centers for Disease Control and Prevention's 
(CDC) Ovarian Cancer Control Initiative. The Alliance respectfully 
requests that Congress provide $10 million for the program in fiscal 
year 2011.
    The Alliance also fully supports Congress in taking action on 
educating Americans about ovarian cancer through providing funding for 
Johanna's Law: The Gynecologic Cancer Education and Awareness Act 
(Public Law 109-475). The Alliance respectfully requests that Congress 
provide $10 million to implement Johanna's Law in fiscal year 2011.
    Further, the Alliance urges Congress to continue funding the 
Specialized Programs of Research Excellence (SPOREs), including the 
five ovarian cancer sites. These programs are administered through the 
National Cancer Institute (NCI) of the National Institutes of Health 
(NIH). The Alliance respectfully requests that Congress provide $5.795 
to the National Cancer Institute for fiscal year 2011.
            centers for disease control and prevention (cdc)
The Ovarian Cancer Control Initiative
    As the statistics indicate, late detection and, therefore, poor 
survival are among the most urgent challenges we face in the ovarian 
cancer field. The CDC's cancer program, with its strong capacity in 
epidemiology and excellent track record in public and professional 
education, is well positioned to address these problems. As the 
Nation's leading prevention agency, the CDC plays an important role in 
translating and delivering at the community level what is learned from 
research, especially ensuring that those populations disproportionately 
affected by cancer receive the benefits of our Nation's investment in 
medical research.
    Prompted by efforts from leaders of the Alliance and championed by 
Representative Rosa DeLauro--with bipartisan, bicameral support--
Congress established the Ovarian Cancer Control Initiative at the CDC 
in November 1999. Congress' directive to the agency was to develop an 
appropriate public health response to ovarian cancer and conduct 
several public health activities targeted toward reducing ovarian 
cancer morbidity and mortality.
    The CDC's Ovarian Cancer Control conducts research about early 
detection, treatment and survivorship nationwide to increase 
understanding of ovarian cancer. Some ongoing research includes 
studying: the relationship between recorded symptoms, time to 
diagnosis, and ovarian cancer histology, the availability of 
gynecologic oncologists for ovarian cancer care, and frequency of 
symptoms in women aged 65 years and older with ovarian cancer as 
compared to a matched cohort of cancer-free women, among many other 
research projects.
Johanna's Law: The Gynecologic Cancer Education and Awareness Act
    It is critical for women and their healthcare providers to be aware 
of the signs, symptoms and risk factors of ovarian and other 
gynecologic cancers. Often, women and providers mistakenly confuse 
ovarian cancer signs and symptoms with those of gastrointestinal 
disorders or early menopause. While symptoms may seem vague--bloating, 
pelvic or abdominal pain, increased abdominal size and bloating and 
difficulty, eating or feeling full quickly, or urinary symptoms 
(urgency or frequency)--they can be deadly without proper medical 
intervention.
    In recognition of the need for awareness and education, Congress 
unanimously passed Johanna's Law in 2006, enacted in early 2007. This 
law provides for an education and awareness campaign that will increase 
providers' and women's awareness of all gynecologic cancers including 
ovarian.
    Thanks to funding under Johanna's Law, more women are learning how 
to identify the signs and symptoms of gynecologic. The CDC have 
developed and disseminated over 275,000 fact sheets on gynecologic 
cancers in English and Spanish, created a Web page dedicated to 
information about these diseases that receive more than 1,500 hits a 
day, and are producing public service announcements for television 
scheduled to air beginning in September 2010. We must ensure that 
lifesaving information about gynecologic cancers continues to reach 
women.
    With continued funding, the CDC will be able to continue to print 
and distribute brochures, maintain and update the Web resources, 
develop additional educational materials such as posters for physician 
offices, complete continuing education materials for healthcare 
providers, and reach out to women beyond the original 40-60 year-old 
initial target group.
                                  nci
Specialized Programs of Research Excellence (SPORE) in the National 
        Institutes of Health
    The SPOREs were created by the NCI in 1992 to support 
translational, organ site-focused cancer research. The ovarian cancer 
SPOREs began in 1999. There are five currently funded Ovarian Cancer 
SPOREs located at the MD Anderson Cancer Center, the Fred Hutchinson 
Cancer Research Center, the Fox Chase Cancer Center, the Dana Farber/
Harvard Cancer Center and the Mayo Clinic Cancer Center.
    These SPORE programs have made outstanding strides in understanding 
ovarian cancer, as illustrated by their more than 300 publications as 
well as other notable achievements, including the development of an 
infrastructure between Ovarian SPORE institutions to facilitate 
collaborative studies on understanding, early detection and treatment 
of ovarian cancer.
Clinical Trials
    The NCI supports clinical research--the only way to test the safety 
and efficacy of potential new treatments for ovarian cancer. Two recent 
studies from NCI clinical trials show the impact of intraperitoneal 
chemotherapy in treating ovarian cancer (when chemotherapy is 
introduced directly into the woman's abdominal cavity, rather than her 
bloodstream) and the importance of ultrasound expertise in properly 
diagnosing the disease.
    NCI supports the Gynecology Oncology Group, a more than 50-member 
collaborative focusing on cancers of the female reproductive system. In 
2007 alone, GOG published 23 articles about ovarian cancer.
                                summary
    The Alliance maintains a long-standing commitment to work with 
Congress, the administration, and other policy makers and stakeholders 
to improve the survival rate for women with ovarian cancer through 
education, public policy, research, and communication. Please know we 
appreciate and understand that our Nation faces many challenges and 
Congress has limited resources to allocate; however, we are concerned 
that without increased funding to bolster and expand ovarian cancer 
education, awareness and research efforts, the Nation will continue to 
see growing numbers of women losing their battle with this terrible 
disease.
    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians, and researchers--we thank you for your leadership 
and support of Federal programs that seek to reduce and prevent 
suffering from ovarian cancer. Thank you in advance for your support of 
$10 million in fiscal year 2011 funding for the CDC's Ovarian Cancer 
Control Initiative and $10 million in fiscal year 2011 funding for 
Johanna's Law as well as your continued support of the SPORES program, 
an appropriation of $5.795 billion to NCI.
                                 ______
                                 
           Prepared Statement of the Oncology Nursing Society
    The Oncology Nursing Society (ONS) appreciates the opportunity to 
submit written comments for the record regarding fiscal year 2011 
funding for cancer- and nursing-related programs. ONS, the largest 
professional oncology group in the United States, composed of more than 
37,000 nurses and other health professionals, exists to promote 
excellence in oncology nursing and the provision of quality care to 
those individuals affected by cancer. As part of its mission, ONS 
honors and maintains nursing's historical and essential commitment to 
advocacy for the public good.
    In 2009, an estimated 1.48 million Americans will be diagnosed with 
cancer, and more than 562,340 will lose their battle with this terrible 
disease; at the same time the national nursing shortage is expected to 
worsen. Overall, age is the number one risk factor for developing 
cancer. Approximately 77 percent of all cancers are diagnosed at age 55 
and older.\1\ Despite these grim statistics, significant gains in the 
war against cancer have been made through our Nation's investment in 
cancer research and its application. Research holds the key to improved 
cancer prevention, early detection, diagnosis, and treatment, but such 
breakthroughs are meaningless, unless we can deliver them to all 
Americans in need. Moreover, a recent survey of ONS members found that 
the nursing shortage is having an impact in oncology physician offices 
and hospital outpatient departments. Some respondents indicated that 
when a nurse leaves their practice, they are unable to hire a 
replacement due to the shortage--leaving them short-staffed and posing 
scheduling challenges for the practice and the patients. These 
vacancies in all care settings create significant barriers to ensuring 
access to quality care.
---------------------------------------------------------------------------
    \1\ American Cancer Society. Cancer Facts and Figures 2009. http://
www.cancer.org/downloads/STT/500809web.pdf.
---------------------------------------------------------------------------
    To ensure that all people with cancer have access to the 
comprehensive, quality care they need and deserve, ONS advocates 
ongoing and significant Federal funding for cancer research and 
application, as well as funding for programs that help ensure an 
adequate oncology nursing workforce to care for people with cancer. ONS 
stands ready to work with policymakers at the local, State, and Federal 
levels to advance policies and programs that will reduce and prevent 
suffering from cancer and sustain and strengthen the Nation's nursing 
workforce. We thank the subcommittee for its consideration of our 
fiscal year 2011 funding request detailed below.
Securing and Maintaining an Adequate Oncology Nursing Workforce
    Oncology nurses are on the front lines in the provision of quality 
cancer care for individuals with cancer--administering chemotherapy, 
managing patient therapies and side-effects, working with insurance 
companies to ensure that patients receive the appropriate treatment, 
providing treatment education and counseling to patients and family 
members, and engaging in myriad other activities on behalf of people 
with cancer and their families. Cancer is a complex, multifaceted 
chronic disease, and people with cancer require specialty-nursing 
interventions at every step of the cancer experience. People with 
cancer are best served by nurses specialized in oncology care, who are 
certified in that specialty.
    As the overall number of nurses is expected to decline in the 
coming years, we likely will experience a commensurate decrease in the 
number of nurses trained in the specialty of oncology. With an 
increasing number of people with cancer needing high-quality 
healthcare, coupled with an inadequate nursing workforce, our Nation 
could quickly face a cancer care crisis of serious proportion, with 
limited access to quality cancer care, particularly in traditionally 
underserved areas. A study in the New England Journal of Medicine found 
that nursing shortages in hospitals are associated with a higher risk 
of complications--such as urinary tract infections and pneumonia, 
longer hospital stays, and even patient death.\2\ Without an adequate 
supply of nurses, there will not be enough qualified oncology nurses to 
provide the quality cancer care to a growing population of people in 
need, and patient health and well-being could suffer.
---------------------------------------------------------------------------
    \2\ Needleman J., Buerhaus P., Mattke S., Stewart M., Zelevinsky K. 
``Nurse-Staffing Levels and the Quality of Care in Hospitals.'' New 
England Journal of Medicine 346:, (May 30, 2002): 1715-1722.
---------------------------------------------------------------------------
    Of additional concern is that our Nation also will face a shortage 
of nurses available and able to conduct cancer research and clinical 
trials. With a shortage of cancer research nurses, progress against 
cancer will take longer because of scarce human resources coupled with 
the reality that some practices and cancer centers' resources could be 
funneled away from cancer research to pay for the hiring and retention 
of oncology nurses to provide direct patient care. Without a sufficient 
supply of trained, educated, and experienced oncology nurses, we are 
concerned that our Nation may falter in its delivery and application of 
the benefits from our Federal investment in research.
    ONS greatly appreciates the increase in funding in fiscal year 
2010. This represents an investment in patient care. ONS joins our 
colleagues from all nursing sectors and specialties to request $267.3 
million, a 10 percent increase over last year's level, for the Health 
Resources and Services Administrations (HRSA) title VIII programs in 
fiscal year 2011. The title VIII programs received a substantial 
increase in fiscal year 2010. Funding for these programs increased from 
$171.03 million to $243.872 million, a 42.6 percent increase. In 
particular the Nursing Faculty Loan Program received a 117 percent 
increase and the Loan Repayment and Scholarship program received a 152 
percent increase. However, the Advanced Education Nursing, Nursing 
Workforce Diversity, Comprehensive Geriatric Education, and Nurse 
Education, Practice, and Retention programs, which help complement the 
Loan Repayment and Scholarship programs, have not kept pace with 
inflation since fiscal year 2005 and did not receive any increases last 
year. Therefore, ONS along with the Nursing Community is requesting 
that the 10 percent increase in funding be awarded to these four 
programs.
    With additional funding in fiscal year 2011, the HRSA Workforce 
Development Programs will have much-needed resources to address the 
multiple factors contributing to the nationwide nursing shortage. 
Advanced nursing education programs play an integral role in supporting 
registered nurses interested in advancing in their practice and 
becoming faculty. As such, these programs must be adequately funded in 
the coming year.
    ONS strongly urges Congress to provide HRSA with a minimum of 
$267.3 million in fiscal year 2011 to ensure that the agency has the 
resources necessary to fund a higher rate of nursing scholarships and 
loan repayment applications and support other essential endeavors to 
sustain and boost our Nation's nursing workforce. Nurses--along with 
patients, family members, hospitals, and others--have joined together 
in calling upon Congress to provide this essential level of funding. 
The National Coalition for Cancer Research (NCCR), a nonprofit 
organization comprised of 23 national cancer organizations, and One 
Voice Against Cancer (OVAC), a collaboration of 39 national nonprofit 
organizations, are also advocating $267.3 million in fiscal year 2011 
for the Nurse Reinvestment Act. ONS and its allies have serious 
concerns that without full funding, the Nurse Reinvestment Act will 
prove an empty promise, and the current and expected nursing shortage 
will worsen, and people will not have access to the quality care they 
need and deserve.
Sustain and Seize Cancer Research Opportunities
    Our Nation has benefited immensely from past Federal investment in 
biomedical research at the National Institutes of Health (NIH). ONS has 
joined with the broader health community in advocating a 13.5 percent 
increase ($35.210 billion) for NIH in fiscal year 2011. This level of 
investment will allow NIH to sustain and build on its research 
progress, while avoiding the severe disruption to advancement that 
could result from a minimal increase. Cancer research is producing 
amazing breakthroughs--leading to new therapies that translate into 
longer survival and improved quality of life for cancer patients. In 
recent years, we have seen extraordinary advances in cancer research, 
resulting from our national investment, which have produced effective 
prevention, early detection, and treatment methods for many cancers. To 
that end, ONS calls upon Congress to allocate $5.795 billion to the 
National Cancer Institute (NCI), as well as $240 million to the 
National Center for Minority Health and Health Disparities in fiscal 
year 2011 to support the battle against cancer.
    The National Institute of Nursing Research (NINR) supports basic 
and clinical research to establish a scientific basis for the care of 
individuals across the life span--from management of patients during 
illness and recovery, to the reduction of risks for disease and 
disability and the promotion of healthy lifestyles. These efforts are 
crucial in translating scientific advances into cost-effective 
healthcare that does not compromise quality of care for patients. 
Additionally, NINR fosters collaborations with many other disciplines 
in areas of mutual interest, such as long-term care for older people, 
the special needs of women across the life span, bioethical issues 
associated with genetic testing and counseling, and the impact of 
environmental influences on risk factors for chronic illnesses, such as 
cancer. ONS joins with others in the nursing community and NCCR in 
advocating a fiscal year 2011 allocation of $160 million for NINR.
Boost Our Nation's Investment in Cancer Prevention, Early Detection, 
        and Awareness
    Approximately two-thirds of cancer cases are preventable through 
lifestyle and behavioral factors and improved practice of cancer 
screening. Although the potential for reducing the human, economic, and 
social costs of cancer by focusing on prevention and early detection 
efforts remains great, our Nation does not invest sufficiently in these 
strategies. The Nation must make significant and unprecedented Federal 
investments today to address the burden of cancer and other chronic 
diseases, and to reduce the demand on the healthcare system and 
diminish suffering in our Nation, both for today and tomorrow.
    As the Nation's leading prevention agency, the Centers for Disease 
Control and Prevention (CDC) plays an important role in translating and 
delivering, at the community level, what is learned from research. 
Therefore, ONS joins with our partners in the cancer community in 
calling on Congress to provide additional resources for the CDC to 
support and expand much-needed and proven effective cancer prevention, 
early detection, and risk reduction efforts. Specifically, ONS 
advocates the following fiscal year 2011 funding levels for the 
following CDC programs:
  --$255 million for the National Breast and Cervical Cancer Early 
        Detection Program;
  --$65 million for the National Cancer Registries Program;
  --$50 million for the Colorectal Cancer Prevention and Control 
        Initiative;
  --$50 million for the Comprehensive Cancer Control Initiative;
  --$25 million for the Prostate Cancer Control Initiative;
  --$5 million for the National Skin Cancer Prevention Education 
        Program;
  --$10 million for the Gynecologic Cancer and Education and Awareness 
        (Johanna's Law);
  --$10 million for the Ovarian Cancer Control Initiative; and
  --$6 million for the Geraldine Ferraro Blood Cancer Program.
Conclusion
    ONS maintains a strong commitment to working with Members of 
Congress, other nursing and oncology groups, patient organizations, and 
other stakeholders to ensure that the oncology nurses of today continue 
to practice tomorrow, and that we recruit and retain new oncology 
nurses to meet the unfortunate growing demand that we will face in the 
coming years. By providing the fiscal year 2011 funding levels detailed 
above, we believe the subcommittee will be taking the steps necessary 
to ensure that our Nation has a sufficient nursing workforce to care 
for the patients of today and tomorrow and that our Nation continues to 
make gains in our fight against cancer.
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers
Introduction
    Thank you, Chairman Harkin, Ranking Member Cochran, and other 
distinguished members of the subcommittee, for this opportunity to 
express support for the National Institutes of Health (NIH), the 
National Center for Health Statistics (NCHS), and Bureau of Labor 
Statistics (Bureau ).
Background on the Population Association of America/Association of 
        Population Centers (PAA/APC) and Demographic Research
    The PAA is a scientific organization comprised of more than 3,000 
population research professionals, including demographers, 
sociologists, statisticians, and economists. The APC is a similar 
organization comprised of 40 universities and research groups that 
foster collaborative demographic research and data sharing, translate 
basic population research for policy makers, and provide educational 
and training opportunities in population studies. Population research 
centers are located at public and private research institutions 
nationwide.
    Demography is the study of populations and how or why they change. 
Demographers, as well as other population researchers, collect and 
analyze data on trends in births, deaths, and disabilities as well as 
racial, ethnic, and socioeconomic changes in populations. Major policy 
issues population researchers are studying include the demographic 
causes and consequences of population aging, trends in fertility, 
marriage, and divorce and their effects on the health and well being of 
children, and immigration and migration and how changes in these 
patterns affect the ethnic and cultural diversity of our population and 
the Nation's health and environment.
    The NIH mission is to support research that will improve the health 
of our population. The health of our population is fundamentally 
intertwined with the demography of our population. Recognizing the 
connection between health and demography, the NIH supports extramural 
population research programs primarily through the National Institute 
on Aging (NIA) and the Eunice Kennedy Shriver National Institute on 
Child Health and Human Development (NICHD).
NIA
    According to the Census Bureau, by 2029, all of the baby boomers 
(those born between 1946 and 1964) will be age 65 years and older. As a 
result, the population age 65-74 years will increase from 6 percent to 
10 percent of the total population between 2005 and 2030. This 
substantial growth in the older population is driving policymakers to 
consider dramatic changes in Federal entitlement programs, such as 
Medicare and Social Security, and other budgetary changes that could 
affect programs serving the elderly. To inform this debate, 
policymakers need objective, reliable data about the antecedents and 
impact of changing social, demographic, economic, and health 
characteristics of the older population. The NIA Division of Behavioral 
and Social Research (BSR) is the primary source of Federal support for 
research on these topics.
    In addition to supporting an impressive research portfolio, that 
includes the prestigious Centers of Demography of Aging and Roybal 
Centers for Applied Gerontology Programs, the NIA BSR program also 
supports several large, accessible data surveys. One of these surveys, 
the Health and Retirement Study (HRS), has become one of the seminal 
sources of information to assess the health and socioeconomic status of 
older people in the United States. Since 1992, the HRS has tracked 
27,000 people, providing data on a number of issues, including the role 
families play in the provision of resources to needy elderly and the 
economic and health consequences of a spouse's death. HRS is 
particularly valuable because its longitudinal design allows 
researchers: (1) the ability to immediately study the impact of 
important policy changes such as Medicare Part D; and (2) the 
opportunity to gain insight into future health-related policy issues 
that may be on the horizon, such as HRS data indicating an increase in 
pre-retirees self-reported rates of disability. In 2011, HRS will 
collect biomarkers, enhancing its ability to track the onset and 
progression of diseases and conditions affecting the elderly.
    Currently, the NIA payline is 9 percent, and its operating line is 
flat. As research costs increase, NIA faces the prospect of funding 
fewer grants to sustain larger ones in its commitment base. With 
additional support in fiscal year 2011, the NIA BSR program could fully 
fund its large-scale projects, including the existing centers programs 
and ongoing surveys, without resorting to cost-cutting measures, such 
as cutting sample size, while continuing to support smaller 
investigator initiated projects. NIA could also sustain training and 
research opportunities for new investigators--especially those who 
received funding from the American Recovery and Reinvestment Act 
(ARRA).
NICHD
    Since its establishment in 1968, the Eunice Kennedy Shriver NICHD 
Center for Population Research has supported research on population 
processes and change. Today, this research is housed in the Center's 
Demographic and Behavioral Sciences Branch (DBSB). The Branch 
encompasses research in four broad areas: family and fertility, 
mortality and health, migration and population distribution, and 
population composition. In addition to funding research projects in 
these areas, DBSB also supports a highly regarded population research 
infrastructure program and a number of large database studies, 
including the Fragile Families and Child Well Being Study, New 
Immigrant Study, and National Longitudinal Study of Adolescent Health.
    NIH-funded demographic research has consistently provided critical 
scientific knowledge on issues of greatest consequence for American 
families: work-family conflicts, marriage and childbearing, childcare, 
and family and household behavior. However, in the realm of public 
health, demographic research is having an even larger impact, 
particularly on issues regarding adolescent and minority health. 
Understanding the role of marriage and stable families in the health 
and development of children is another major focus of the NICHD DBSB. 
Consistently, research has shown children raised in stable family 
environments have positive health and development outcomes. 
Policymakers and community programs can use these findings to support 
unstable families and improve the health and well being of children.
    One of the most important programs the NICHD DBSB supports is the 
Population Research Infrastructure Program (PRIP). Through PRIP, 
research is conducted at private and public research institutions 
nationwide. The primary goal of PRIP is ``to facilitate 
interdisciplinary collaboration and innovation in population research, 
while providing essential and cost-effective resources in support of 
the development, conduct, and translation of population research.'' 
Population research centers supported by PRIP are focal points for the 
demographic research field where innovative research and training 
activities occur and resources, including large-scale databases, are 
developed and maintained for widespread use.
    With additional support in fiscal year 2011, NICHD could restore 
full funding to its large-scale surveys, which serve as a resource for 
researchers nationwide. Furthermore, the NICHD could apply additional 
resources toward improving its funding payline, which has been as low 
as the 10th percentile prior to the recent infusion of ARRA funds. 
Additional support could be used to support and stabilize essential 
training and career development programs necessary to prepare the next 
generation of researchers and to support and expand proven programs, 
such as PRIP.
NCHS
    Located within the Centers for Disease Control (CDC), the NCHS is 
the Nation's principal health statistics agency, providing data on the 
health of the U.S. population and backing essential data collection 
activities. Most notably, NCHS funds and manages the National Vital 
Statistics System, which contracts with the States to collect birth and 
death certificate information. NCHS also funds a number of complex 
large surveys to help policy makers, public health officials, and 
researchers understand the population's health, influences on health, 
and health outcomes. These surveys include the National Health and 
Nutrition Examination Survey (NHANES), National Health Interview Survey 
(HIS), and National Survey of Family Growth. Together, NCHS programs 
provide credible data necessary to answer basic questions about the 
state of our Nation's health.
    Despite recent steady funding increases, NCHS continues to feel the 
effects of long-term funding shortfalls, compelling the agency to 
undermine, eliminate, or further postpone the collection of vital 
health data. For example, in 2009, sample sizes in HIS and NHANES were 
cut, while other surveys, most notably the National Hospital Discharge 
Survey, were not fielded. In 2009, NCHS proposed purchasing only ``core 
items'' of vital birth and death statistics from the States (starting 
in 2010), effectively eliminating three-fourths of data routinely used 
to monitor maternal and infant health and contributing causes of death. 
Fortunately, Congress and the new administration worked together to 
give NCHS adequate resources and avert implementation of these 
draconian measures. Nonetheless, the agency continues to operate in a 
precarious state.
    The administration recommends NCHS receive $161.9 million in fiscal 
year 2011. PAA and APC, as members of The Friends of NCHS, support the 
administration's request. The increased funding will be used to support 
a number of initiatives, including: (1) restore the National Health 
Interview Survey to 87,000; (2) fund 12 months of vital statistics data 
collection; and (3) implement re-engineered Web-based birth certificate 
data in 6 States and 4 territories; and (4) phase in electronic death 
certificate registration in States willing to enter a cost-sharing 
arrangement with the agency.
BLS
    During these turbulent economic times, data produced by the BLS are 
particularly relevant and valued. PAA and APC members have relied 
historically on objective, accurate data from the BLS. In recent years, 
our organizations have become increasingly concerned about the state of 
the agency's funding.
    We are pleased the administration has requested BLS receive a total 
of $645 million in fiscal year 2011. According to the agency, this 
funding level would enable BLS to improve the Consumer Expenditure 
Survey and reduce variance in the Consumer Price Index. Also, BLS could 
improve data used to measure occupational wage and employment growth 
and identify trends policymakers need to understand the turbulent labor 
market. Finally, the agency could support its work on developing an 
alternative poverty measure.
Summary of Fiscal Year 2011 Recommendations
    As members of the Ad Hoc Group for Medical Research, PAA and APC 
are asking Congress to provide NIH with an appropriation of $35 billion 
in fiscal year 2011--$3 billion more than the administration's request. 
Although the administration's request for NIH reflects inflation, we 
feel NIH needs additional support to sustain the new research capacity 
created by ARRA.
    PAA and APC, as members of the Friends of NCHS, ask that NCHS 
receive $161.9 million in fiscal year 2011, This funding is needed to 
maintain and improve the Nation's vital statistics system and to 
sustain and update the agency's major health survey operations.
    Finally, we ask you to support the administration's request, $645 
million, for the BLS, in fiscal year 2011.
    Thank you for considering our requests and for supporting Federal 
programs that benefit the population sciences.
                                 ______
                                 
  Prepared Statement of the Physician Assistant Education Association
    On behalf of its membership, the 149 accredited physician assistant 
(PA) education programs in the United States, the Physician Assistant 
Education Association (PAEA) is pleased to submit these comments on the 
fiscal year 2011 appropriations for PA education programs that are 
authorized through title VII of the Public Health Service Act.
    PAEA is a member of the Health Professions and Nursing Education 
Coalition (HPNEC) and we support the HPNEC recommendation for funding 
of at least $600 million in fiscal year 2011 for the health professions 
education programs authorized under title VII and VIII of the Public 
Health Service Act and administered through the Health Resources and 
Services Administration (HRSA).
    PAEA is grateful to the subcommittee for the recent funding 
increases for Title VII Health Professions programs in the Consolidated 
Appropriations Act, 2010 (Public Law 111-117) and for your support of 
Title VII health professions programs.
Need for Increased Federal Funding
    Faculty development is one of the profession's critical needs. In 
order to attract the best qualified to teaching, PA education programs 
must have the resources to train faculty in academic skills, such as 
curriculum development, teaching methods, and laboratory instruction. 
The challenges of teaching are broad and varied and include 
understanding different pedagogical theories, writing instructional 
objectives, and learning and applying educational technology. Most 
educators come from clinical practice and these skills are essential to 
transitioning to teaching. Educators are a critical element of meeting 
the Nation's demand for an increased supply of primary care clinicians.
    Generalist training, workforce diversity, and practice in 
underserved areas are key priorities identified by HRSA. It is 
increasingly important that the health workforce better represents 
America's changing demographics, as well as addresses the issues of 
disparities in healthcare. PA programs have been successful in 
attracting students from underrepresented minority groups and 
disadvantaged backgrounds. Studies have found that health professionals 
from underserved areas are 3 to 5 times more likely to return to 
underserved areas to provide care.
Physician Assistant Practice
    Physician assistants (PAs) are licensed health professionals who 
practice medicine as members of a team with their supervising 
physicians. PAs exercise autonomy in medical decisionmaking and provide 
a broad range of medical and therapeutic services to diverse 
populations in rural and urban settings. In all 50 States, PAs carry 
out physician-delegated duties that are allowed by law and within the 
physician's scope of practice and the PA's training and experience. 
Additionally, PAs are delegated prescriptive privileges by their 
physician supervisors in all 50 States, the District of Columbia, and 
Guam. This allows PAs to practice in rural, medically underserved areas 
where they are often the only full-time medical provider.
Physician Assistant Education
    There are currently 149 accredited PA education programs in the 
United States, which together graduate nearly 6,000 PA students each 
year. PAs are educated as generalists in medicine; their flexibility 
allows them to practice in more than 60 medical and surgical 
specialties. More than one-third of PA program graduates practice in 
primary care.
    The average PA education program is 27 months in length. Typically, 
1 year is devoted to classroom study and approximately 15 months is 
devoted to clinical rotations. The typical curriculum includes 400 
hours of basic sciences and nearly 600 hours of clinical medicine.
    The profession is expected to continue to grow as a result of the 
projected shortage of physicians and other healthcare professionals, 
the growing demand for professionals from an aging population, and the 
continuing strong PA applicant pool, which has grown by more than 10 
percent each year since the year 2000. The Bureau of Labor Statistics 
projects a 39 percent increase in the number of PA jobs between 2008 
and 2018. With its relatively short initial training time and the 
flexibility of generalist-trained PAs, the PA profession is well-
positioned to help fill projected shortages in the numbers of 
healthcare professionals.
    Currently there are almost 20 new PA programs in the accreditation 
pipeline. The continued growth of the profession heightens the need for 
additional resources. Additional resources will help meet the 
challenges of recruiting qualified faculty, shortages of preceptors and 
clinical sites, and the need to continue our work to increase the 
diversity of faculty and program applicants.
Title VII Funding
    Title VII funding is the only opportunity for PA programs to apply 
for Federal funding and plays a crucial role in developing and 
supporting PA education programs.
    Title VII funding fills a critical need for curriculum development 
and faculty development. Funding enhances clinical training and 
education, assists PA programs with recruiting applicants from minority 
and disadvantaged backgrounds, and funds innovative programs that focus 
on educating a culturally competent workforce. Title VII funding 
increases the likelihood that PA students will practice in medically 
underserved communities with health professional shortages. The absence 
of this funding would result in the loss of care to patients in 
underserved areas.
    Title VII support for PA programs has been strengthened with the 
enactment of the Patient Protection and Affordable Health Care Act 
(Public Law 111-148), which provides a 15 percent carve out in the 
appropriations process for PA programs. This funding will enhance 
capabilities to train a growing PA workforce and is likely to increase 
the applicant pool for faculty positions as a result of PA programs now 
being eligible for faculty loan repayment. Huge loan burdens serve as 
barriers for PAs' entry into academia.
    Here we provide several examples of how PA programs have used Title 
VII funds to creatively expand care to underserved areas and 
populations, as well as to develop a diverse PA workforce.
  --One Texas program has used its PA training grant to support the 
        program at a distant site in an underserved area. This grant 
        provides assistance to the program for recruiting, educating, 
        and training PA students in the largely Hispanic South Texas 
        and mid-Texas/Mexico border areas and supports new faculty 
        development.
  --A Utah program has used its PA training grant to promote 
        interprofessional teams--an area of strong emphasis in the 
        Patient Protection and Affordable Care Act--by creating a model 
        geriatric curriculum that includes didactic and clinical 
        education. The grant has also allowed the program to optimize 
        its relationship with three service-learning partners and 
        develop new partnerships with three service-learning sites.
  --An Alabama program used its PA training grant to update and expand 
        the current health behavior educational curriculum and HIV/STD 
        training. They were also able to include PA students from other 
        programs who were interested in rural, primary care medicine 
        for a 4-week comprehensive educational program in HIV disease 
        diagnosis and management.
  --A South Carolina program has developed a model program that offers 
        a 2-year academic fellowship for recent PA graduates with at 
        least 1 year of clinical experience. To further enhance an 
        evidence-based approach to education and practice, two specific 
        evidence-based practice projects were embedded in the 
        fellowship experience. Fellows direct and evaluate PA students' 
        involvement in the ``Towards No Tobacco'' curriculum, aimed at 
        fifth graders, and the PDA Patient Data experience, aimed at 
        assessing healthcare services.
Recommendations on Fiscal Year 2011 Funding
    The Physician Assistant Education Association requests the 
Appropriations Committee to support funding for title VII and VIII 
health professions programs at a minimum of $600 million for fiscal 
year 2011. This level of funding is crucial to support the Nation's 
demand for primary care practitioners, particularly those who will 
practice in medically underserved areas and serve vulnerable 
populations. Additionally we encourage support for the new programs and 
responsibilities contained in the Patient Protection and Affordable 
Care Act (Public Law 111-148), including a minimum of $10 million to 
support PA education programs. We thank the members of the subcommittee 
for their continued support of the health professions and look forward 
to your continued support of solutions to the Nation's health workforce 
shortage. We appreciate the opportunity to present the Physician 
Assistant Education Association's fiscal year 2011 funding 
recommendation.
                                 ______
                                 
  Prepared Statement of the Patient Alliance for Neuroendocrineimmune 
            Disorders Organization for Research and Advocacy
    Dear Chairman of the subcommittee on Labor, Health and Human 
Services, and Education, and Related Agencies: On behalf of our 
organization I want to share with you a matter of great importance to 
our patient advocacy organization. It is related to the CFS Advisory 
Committee (CFSAC), a congressional committee overseen by the Department 
of Health and Human Services established to provide science-based 
advice and recommendations to the Secretary of Health and Human 
Services and the Assistant Secretary for Health on a broad range of 
issues and topics pertaining to chronic fatigue syndrome (CFS). It has 
been at least 6 years since our organization has attended and provided 
input during CFSAC meeting and yet not one single crucial 
recommendation has been implemented or enacted. Currently the CFSAC is 
due to expire on September 5, 2010.
    We need to call you attention why is so important that this 
appropriation committee provide funding for research, patient care, 
physician education, and clinical trial within a center of excellence 
format. The CFSAC has consistently year after year as far back as 
September 2004 recommended the following:
    In September 2004--Recommendation 1.--We would urge the DHHS to 
direct the NIH to establish five Centers of Excellence within the 
United States that would effectively utilize state of the art knowledge 
concerning the diagnosis, clinical management, treatment and clinical 
research of persons with CFS. These Centers should be modeled after the 
existing Centers of Excellence program, with funding in the range of 
$1.5 million per center per year for 5 years.
    In August 2005--Recommendation 1.--We would urge the DHHS to direct 
the NIH to establish five Centers of Excellence within the United 
States that would effectively utilize state-of-the-art knowledge 
concerning the diagnosis, clinical management, treatment, and clinical 
research of persons with CFS. These Centers should be modeled after the 
existing Centers of Excellence program, with funding in the range of 
$1.5 million per center per year for 5 years.
    In November 20-21, 2006.--The Committee skipped recommending again 
because it was told that it needed to wait till the Secretary of Health 
could reply on the earlier recommendations therefore CFSA then provided 
recommendation 3--The committee recommends that CFS be included in the 
Roadmap Initiative of the NIH.
    In May 16-17, 2007--Recommendation 1.--There have been basic 
science advances which should be leading to new treatment strategies, 
yet progress in translating these advances into effective treatments 
has been slow. This is in large part due to a complete lack of clinical 
care centers and research centers. Investigators are frustrated by a 
lack of access to representative patient populations, and patients are 
frustrated by a lack of accessible expert clinical treatment centers. 
Funding mechanisms to develop new centers for either clinical care or 
centers for research are shrinking, but the needs of this underserved 
very ill patient population are unmet and growing.
    Therefore, the CFSAC recommends that the Secretary use the 
resources and talent of the agencies that make up the HHS to find ways 
to meet these needs. One starting point is our request that the HHS 
establish 5 regional clinical care, research, and education centers, 
centers which will provide care to this critically underserved 
population, educate providers, outreach to the community, and provide 
effective basic science, translational and clinical research on CFS. 
The advisory committee understands that fiscal exigencies have to date 
prevented the formation of these previously recommended centers, but it 
is our hope the Secretary will use the full weight of his office to 
effectively fund this program through existing funding mechanisms that 
might be available or new programs.''
    In November 28-29, 2007.--CFSAC voted unanimously to send the 
following recommendations to the Assistant Secretary for Health for 
transmittal to the Secretary:
  --It is recommended that a representative of AHRQ be added as an ex 
        officio member to CFSAC effective immediately, but at least in 
        advance of the next CFSAC meeting. The next CFSAC meeting is 
        scheduled to be held in May 2008.
  --It is recommended that the CDC effort on CFS be restructured to 
        reflect a broader expertise on the multifaceted capabilities 
        required to execute a comprehensive program that incorporates 
        the following elements:
    --an extramural effort directed by the Office of the Director;
    --sufficient funds for a program for which the authority and 
            accountability is housed at the level of a coordinating 
            center director;
    --a lab-based component that maintains the current search for 
            biomarkers and pathophysiology;
    --the recommendations of the external CDC Blue Ribbon panel, 
            including developing, analyzing, and evaluating new 
            interventions and continuing support for longitudinal 
            studies; and
    --an expanded patient, healthcare provider, and family caregiver 
            education effort that is managed by staff with appropriate 
            expertise in clinical and public education strategies.
    In May 5-6, 2008.--The committee unanimously recommended 4 items. 
For the purpose of my testimony I quote: ``CFSAC recommends to the 
Secretary of Health and Human Services that the Administrator of HRSA 
communicate with each Area Health Education Center (AHEC) regarding the 
critical need for provider education of CFS. HRSA has the potential to 
disseminate information on CFS to a wide range of providers, 
communities and educational institutions. HRSA should inform these 
groups that persons with CFS represent an underserved population and 
that there is a dramatic need for healthcare practitioners who can 
provide medical services to CFS patients. HRSA should further inform 
these groups that the CDC offers a web based CME program on CFS at 
www.cdc.gov/cfs; and encourage AHEC providers to participate in this 
CME program. Additionally, HRSA should alert AHECs of the availability 
of a CDC CFS provider toolkit.''
    In October 28-29, 2008.--Several recommendations were made. For the 
purpose of our testimony we quote:
  --``It is recommended that DHHS solicit the Department of Education's 
        cooperation on issues relating to pediatric CFS.
  --``It is recommended that the Transition report to the new 
        Administration and Secretary include the background of the 
        CFSAC and CFS and a list of the recommendations that have been 
        developed by this Committee over the past two chartered 
        periods, with any action taken on each point.
  --``CFSAC endorses the planned State of the Knowledge Conference to 
        be developed by the NIH.
  --``CFSAC recognizes that much can be done to ensure that every child 
        with CFS has the best possible access to support and treatment 
        and asks that the Secretary facilitate a taskforce or working 
        group to establish an ongoing interagency and interdepartmental 
        effort to coordinate school, family, financial, and healthcare 
        support for children and young adults with CFS.''
    In October 29-30, 2009--Recommendation 1.--Establish Regional 
Centers funded by DHHS for clinical care, research, and education on 
CFS. (Resubmitted from May 2009)
    As you can see, year after year, the same recommendation is being 
made, and yet there has not been any progress for the past 6 years in 
the most important recommendation from the CFSAC to the Secretary of 
Health regarding chronic fatigue syndrome. Therefore we urge you--our 
congressional leadership--to ensure funding for the 
Neuroendocrineimmune (NEI) Center<SUP>TM</SUP> and to the Whittemore 
Peterson Institute. Please allocate funding for scientific research, 
clinical trials, patient registry, physician education, public 
education and social services to an estimated 20 million Americans 
stricken with neuroendocrineimmune disorders such as chronic fatigue 
syndrome (CFS) and related illnesses. Throughout the United States, day 
after day we witness great suffering being inflicted on individuals, 
children, teenagers, adults and the elderly. We witness children being 
taken from their families simply because they ``have failed to find a 
primary physician to treat their child'' (Baldwin Family vs. DSS 
Buncombe County, North Carolina). Too much suffering because it seems 
that no one in our government cares to take courageous step and stand 
up for individuals with CFS.
    We urge you to provide funding to The NEI Center<SUP>TM</SUP>, a 
patient-driven community initiative in the State of New Jersey 
(hopefully in Florida as well), which will address all of the issues 
mentioned on the CFSAC recommendation in addition to addressing 
patient's quality of life issues. The cornerstone of the NEI 
Center<SUP>TM</SUP> (www.neicenter.com) is that discoveries and 
advances made in any one of the neuroendocrineimmune illnesses: chronic 
fatigue syndrome (CFS), myalgic encephalomyelitis or encephalopathy 
(ME), fibromyalgia (FM), Gulf War syndrome/illness (GWS/GWI), multiple 
chemical sensitivity (MCS), environmental illness (EI), chronic or 
persistent Lyme disease (CLD-PLD), Alzheimer's Disease (AD), and 
autism, will be applicable and beneficial to other neuroendocrineimmune 
illnesses, thereby bringing us closer to a cure.
    I ask you why hasn't this crucial issue be addressed promptly? Why 
has our government failed to address such injustice? I urge you to 
stand by the side of millions of Americans who presently do not have a 
voice. Their future depends on your vision. Help us to restore their 
health and their hopes. Please provide funding to the NEI 
Center<SUP>TM</SUP> and or similar efforts in the United States. This 
committee has the power. You can do it. And as one of the many 
individuals stricken with CFS, I thank you for this opportunity to 
share the plight of so many. We need a hero, and you have the 
opportunity to demonstrate vision, courage and foresight by allocating 
funding for future centers of excellence for CFS and other 
neuroendocrineimmune disorders. Thank you.
                                 ______
                                 
 Prepared Statement of the Program for Appropriate Technology in Health
    Program for Appropriate Technology in Health (PATH) appreciates the 
opportunity to submit written testimony regarding fiscal year 2011 
funding for global health research and development to the Senate Labor, 
Health and Human Services, and Education, and Related Agencies 
Appropriations Subcommittee. PATH is an international nonprofit 
organization that creates sustainable, culturally relevant solutions, 
enabling communities worldwide to break longstanding cycles of poor 
health. By collaborating with diverse public- and private-sector 
partners, we help provide appropriate health technologies and vital 
strategies that change the way people think and act.
    The ongoing struggle to improve global health relies on the 
availability of health interventions and technologies designed to 
prevent, diagnose, and treat disease. Although some effective 
interventions already exist, many more will be necessary if existing 
gains against infectious disease and other global health burdens are to 
be maintained and expanded. The drugs currently available for use 
against diseases that disproportionately impact the developing world 
are often too expensive for use in impoverished countries, and are also 
subject to disease resistance. Vaccines for many of these infectious 
diseases do not yet exist and diagnostic equipment, vaccine delivery 
devices, microbicides, contraceptives, and other health technologies 
appropriate for the developing world are in many cases not available or 
affordable. Achieving sustainable progress in the struggle to improve 
global health will require developing new health technologies, and 
creating or strengthening infrastructures that facilitate their 
availability to those who need them most.
    Such discoveries will require increased funding for global health 
research and development (R&D). Although the U.S. Government remains 
one of the most important investors in the development of new 
technologies, the need overshadows the contribution.
    When looking at U.S. spending on R&D writ large over the last four 
decades, Federal spending on all R&D, expressed as a percentage of 
gross domestic product (GDP), has declined by more than 60 percent: 
from just under 2 percent of GDP in 1965 to less than 1 percent in 
2007.\1\ During a speech delivered in early 2009, President Obama 
expressed a desire to reverse that trend by requesting a Federal R&D 
budget of $147.6 billion for fiscal year 2010 and by setting a goal of 
increasing national investment in R&D to more than 3 percent of GDP.\2\ 
Seizing upon this momentum, in fiscal year 2010 Congress appropriated 
$150.4 billion for national research and development--a 2.4 percent 
increase from 2009 funding. While global health R&D is just one 
component of the overall national R&D budget, PATH thanks you for this 
allocation and believes that this is a significant step towards 
achieving our country's global health goals.
---------------------------------------------------------------------------
    \1\ National Science Foundation. Gross domestic product and 
research and development (federally funded, non-Federal, and total): 
1953-2007. Arlington, VA: NSF; 2008. Available at: http://www.nsf.gov/
statistics/nsf08318/pdf/tab13.pdf.
    \2\ Speech to NAS, April 27, 2009. http://www.whitehouse.gov/
the_press_office/Remarks-by-the-President-at-the-National-Academy-of-
Sciences-Annual-Meeting/.
---------------------------------------------------------------------------
    Robust and sustained R&D funding is crucial to continued global 
health advancements. Developing a single drug--from basic discovery to 
clinical testing to product licensure--can cost as much as $800 million 
and may take up to a decade.\3\ Developing more complex products may 
take even longer and be even more expensive--as much as $1.2 
billion.\4\ R&D costs rise as products advance through clinical 
testing. In order to test whether a vaccine is safe and effective in 
humans, for example, researchers require thousands of volunteers and 
hundreds of health workers. As a result, late-stage trials are 
typically more expensive to complete than earlier trials.
---------------------------------------------------------------------------
    \3\ Conference Report to Accompany H.R. 2997. September 30, 2009. 
http://www.rules.house.gov/111/LegText/111_agcr_txt.pdf, p. 84.
    \4\ Tufts Center for the Study of Drug Development. Research 
Milestones. June 19, 2009. http://csdd.tufts.edu/Research/
Milestones.asp http://www.accessdata.fda.gov/scripts/opdlisting/oopd/
index.cfm.
---------------------------------------------------------------------------
    Effective diagnosis at, or near, the point of care enables better 
application of available treatment, avoids overuse of antibiotics that 
can promote resistant strains of pathogens, and allows healthcare 
workers to track outbreaks and mobilize resources quickly. Several 
programs funded in the Labor, Health and Human Services, and Education, 
and Related Agencies appropriations bill make a particularly critical 
contribution to point-of-care diagnostics, a research area that is key 
to improving health in the developing world. In low-resource settings, 
where many diagnostic tests are difficult to perform and laboratories 
are often inaccessible, there is great opportunity to make significant 
improvements to global health through the development and use of 
appropriate point-of-care diagnostics. In poor countries, healthcare 
facilities can be far away from the widely dispersed populations they 
serve. Specialized equipment, personnel, and safe waste-disposal 
systems are often not available. Without diagnostic testing, healthcare 
professionals have to rely solely on symptoms to diagnose and treat 
illness--an imperfect method given the similarity of symptoms among 
many diseases. This lack of clarity puts individuals, communities, and 
the world in danger. Incorrect diagnoses can harm people and even cost 
lives. And from a global perspective, ineffectively treated disease can 
become a starting point for epidemic or pandemic outbreaks.
    The National Institutes of Health (NIH) and the Centers for Disease 
Control and Prevention (CDC) continue to make significant contributions 
to the development of new health technologies. Generally speaking, NIH 
carries out the critical basic and preclinical research that provides 
the foundation for new product discovery and development, supports and 
conducts clinical trials of promising products, and develops the in-
country research capacity of developing world partners. CDC monitors 
and tracks infectious diseases worldwide, provides those involved in 
the control and prevention of such diseases with the critical 
intelligence they need to implement their programs effectively, 
supports researchers in their work by helping to direct their efforts 
towards the areas with the greatest potential for benefit, and warns 
researchers when new trends or disease strains emerge.
    Without sufficient funding for NIH and CDC, much of the cutting-
edge R&D being performed on point-of-care diagnostics for the 
developing world would not be taking place. While many commercial and 
nonprofit groups are working on diagnostic technologies, they are not 
necessarily doing so with an eye toward the developing world. For 
example, their efforts often target diseases that mainly concern 
wealthier countries, or they assume that sophisticated laboratories and 
trained personnel will be available to complement and operate their 
diagnostics. In contrast, diagnostic technologies for malaria, enteric 
diseases, neglected diseases such as Chagas disease, and other 
conditions whose heaviest burden falls on the developing world do not 
have a significant commercial market to incentivize research and 
development. Without investment by the U.S. Government, efforts to 
develop lower cost, easy to use, and appropriate diagnostic 
technologies-and by doing so improve care and reduce the development of 
drug resistance--would be hindered significantly. Expanding funds for 
these agencies would provide a powerful boost to point-of-care 
diagnostic development and availability.
    One promising area of innovation is nucleic acid (NA) amplification 
and detection, which is the most accurate way to diagnose many diseases 
that affect global health. Low-cost, highly accurate tests of this type 
are usually not available in low-resource settings. The small numbers 
of centralized laboratories that exist in developing countries tend to 
be in urban areas and cater primarily to the affluent. In contrast, 
rural healthcare facilities commonly have only basic equipment, and 
health workers have limited training and little ability to maintain 
equipment and handle reagents. Unreliable electric power to run the 
tests is also a major obstacle.
    Research conducted by PATH with support from NIH and CDC has 
pointed to the technical feasibility of a new, low-cost, disposable 
diagnostic platform for NA tests that can be used for detection of a 
wide variety of infectious diseases, including infant HIV and 
tuberculosis (TB). Other combinations of diagnostic technologies are 
also being explored with support from USAID and private funders. Small, 
portable, low-cost, instrument-free NA amplification tests that do not 
require electricity would have a vital impact on the ability of health 
workers and clinicians in developing countries to correctly and quickly 
diagnose disease. Patients who come from long distances and often 
cannot wait a few days to receive test results would be able to receive 
a diagnosis and treatment regimen on site at the point of care. Such 
tests could potentially replace the need for multi-million dollar 
central laboratory facilities.
    Another area where agencies funded by this subcommittee are making 
a significant contribution to global health is the ongoing effort to 
develop and test malaria vaccines. Malaria is a devastating parasitic 
disease transmitted through the bite of infected Anopheles mosquitoes. 
More than one-third of the world's population is at risk of malaria, 
with approximately 250 million cases and 1 million deaths per year. The 
vast majority of these deaths occur among African children under the 
age of 5. A malaria vaccine is desperately needed to confront this 
deadly disease and its impact in the developing world. While consistent 
use of effective insecticides, insecticide-treated nets, and malaria 
medicines saves lives, eradicating or even significantly reducing the 
impact of malaria will require additional interventions, including 
vaccines. Immunization is one of the most effective health 
interventions available. Just as it was necessary to use vaccines to 
control polio and measles in the United States, vaccines are needed as 
part of an effective control strategy for malaria.
    Several Federal agencies are involved in R&D for malaria vaccines, 
in partnership with the PATH Malaria Vaccine Initiative (MVI). NIH 
supports much of the basic research that underpins malaria drug and 
vaccine development efforts; the National Institute of Allergy and 
Infectious Diseases, an institute within NIH, is a particularly central 
player in malaria vaccine development efforts. CDC performs 
epidemiological research and international disease surveillance of 
malaria, providing critical data on the prevalence and spread of each 
of the four strains of the malaria parasite and the effectiveness of 
existing interventions.
    Indeed, many promising vaccine concepts would never have emerged 
from the laboratory without the research performed by Government 
scientists. Government-sponsored research is also critical to 
eliminating from consideration less promising approaches. Due in part 
to investments by the U.S. Government, there is one malaria vaccine 
candidate that, if proven, is just 5 years or so from introduction. In 
May 2009, RTS,S--developed by GlaxoSmithKline Biologicals--entered a 
large-scale phase 3 clinical trial, which is typically one of the final 
steps before licensure. The trial is being conducted at 11 African 
study centers in seven countries. Two of the centers, both in Kenya, 
are partnered with U.S. Government agencies, including the CDC and the 
Walter Reed Army Institute of Research. Results from one phase 2 
clinical study show that RTS,S reduced the risk of clinical malaria by 
53 percent in children aged 5 to 17 months. Although this is exciting 
news, it represents not an end, but a beginning for malaria vaccine 
development. In order to develop more effective vaccines towards the 
ultimate goal of eradication, increased investment in research and 
development at NIH and CDC must continue.
    The U.S. Department of Health and Human Services is also using its 
investments in science and technology to facilitate pandemic influenza 
preparedness. With support from the Biomedical Advanced Research and 
Development Authority (BARDA), PATH is supporting the enhancement of 
sustainable influenza vaccine production capacity in Vietnam as part of 
global preparedness efforts for a future pandemic. We are collaborating 
with various partners in Vietnam, including the Government of Vietnam 
and vaccine manufacturers, to assist in the production and clinical 
evaluation of affordable, high-quality influenza vaccines. The project 
builds upon support that BARDA is currently providing to the World 
Health Organization to assist Vietnam in preparing for eventual 
licensure and commercial-scale manufacturing of influenza vaccines and 
is an important step toward increasing local and regional vaccines 
supplies. This is part of a long-term strategy of international 
capacity building. As the H1N1 outbreak demonstrated, the emergence of 
a pandemic strain is unpredictable and the public health response needs 
are to rapidly create, manufacture, and distribute novel vaccines. 
Because of global travel and our interconnected world, international 
cooperation on influenza preparedness has direct relevance for health 
here in the United States.
    Continued progress in our Nation's effort to improve global health 
requires the development of new tools and technologies, which are 
heavily reliant on research performed and supported by NIH, CDC, and 
BARDA. For these reasons, we respectfully request robust funding for 
NIH, CDC, and BARDA to allow the agencies to maximize global health 
efforts, which each has stated as a priority for fiscal year 2011. 
Funding for these agencies is critical to moving forward research on 
HIV/AIDS, TB, malaria, and other diseases which disproportionately 
impact low-income countries. We support the President's budget request 
as the minimum amount needed for the Labor, Health and Human Services, 
and Education, and Related Agencies account for fiscal year 2011.
    We very much appreciate the subcommittee's consideration of our 
views, and we stand ready to work with subcommittee members and staff 
to ensure continued support for these important issues which are 
essential to achieving our country's global health goals.
                                 ______
                                 
            Prepared Statement of Prevent Blindness America
Funding Request Overview
    Prevent Blindness America (PBA) appreciates the opportunity to 
submit written testimony for the record regarding fiscal year 2011 
funding for vision related programs. As the Nation's leading nonprofit, 
voluntary organization dedicated to preventing blindness and preserving 
sight, PBA maintains a long-standing commitment to working with 
policymakers at all levels of government, organizations, and 
individuals in the eye care and vision loss community, and other 
interested stakeholders to develop, advance, and implement policies and 
programs that prevent blindness and preserve sight. PBA respectfully 
requests that the subcommittee provide the following allocations in 
fiscal year 2011 to help promote eye health and prevent eye disease and 
vision loss:
  --$5 million for the Vision Health Initiative at the Centers for 
        Disease Control and Prevention (CDC);
  --$1.2 million in fiscal year 2011 to support the Maternal and Child 
        Health Bureau's (MCHB) National Universal Vision Screening for 
        Young Children's Coordinating Center (Center);
  --$730 million in fiscal year 2011 for the title V Maternal and Child 
        Health (MCH) Services Block Grant; and
  --Increased fiscal year 2011 funding for the National Eye Institute 
        (NEI).
Introduction and Overview
    Vision-related conditions affect people across the lifespan from 
childhood through elder years. Good vision is an integral component to 
health and well-being, affects virtually all activities of daily 
living, and impacts individuals physically, emotionally, socially, and 
financially. Loss of vision can have a devastating impact on 
individuals and their families. An estimated 80 million Americans have 
a potentially blinding eye disease, 3 million have low vision, more 
than 1 million are legally blind, and 200,000 are more severely 
visually blind. Vision impairment in children is a common condition 
that affects 5 to 10 percent of preschool age children. Vision 
disorders (including amblyopia (``lazy eye''), strabismus (``cross 
eye''), and refractive error are the leading cause of impaired health 
in childhood.
    Of serious concern is that the NEI reports ``the number of 
Americans with age-related eye disease and the vision impairment that 
results is expected to double within the next three decades.'' \1\ 
Among Americans age 40 and older, the four most common eye diseases 
causing vision impairment and blindness are age-related macular 
degeneration (AMD), cataract, diabetic retinopathy, and glaucoma.\2\ 
Refractive errors are the most frequent vision problem in the United 
States--an estimated 150 million Americans use corrective eyewear to 
compensate for their refractive error.\3\ Uncorrected or undercorrected 
refractive error can result in significant vision impairment.\4\
---------------------------------------------------------------------------
    \1\ ``Vision Problems in the U.S.: Prevalence of Adult Vision 
Impairment and Age-Related Eye Disease in America,'' Prevent Blindness 
America and the National Eye Institute, 2008.
    \2\ Ibid.
    \3\ Ibid.
    \4\ Ibid.
---------------------------------------------------------------------------
    While half of all blindness can be prevented through education, 
early detection, and treatment, it is estimated that the number of 
blind and visually impaired people will double by 2030, if nothing is 
done to curb vision problems. To curtail the increasing incidence of 
vision loss in America, PBA advocates sustained and meaningful Federal 
funding for: programs that help promote eye health and prevent eye 
disease, vision loss, and blindness; needed services and increased 
access to vision screening; and vision and eye disease research. We 
thank the subcommittee for its consideration of our specific fiscal 
year 2011 funding requests, which are detailed below.
CDC's Vision Health Initiative: Helping To Save Sight and Save Money
    The financial costs of vision impairment to our country's fiscal 
health are staggering. PBA estimates that the annual costs of adult 
vision problems in the United States are approximately $51.4 
billion.\5\ The annual cost of untreated amblyopia--reduced vision in 
an eye that has not received adequate use during early childhood--is 
approximately $7.4 billion in lost productivity.\6\ NEI estimates that 
in 2003 the total direct and indirect costs of visual disorders and 
disabilities in the United States were approximately $68 billion, and 
with each passing year these costs continue to escalate.\7\ Vision care 
services consistently have been found to help prevent blindness, reduce 
vision loss, improve quality of life and well-being, increase 
productivity, and reduce costs and burdens on the Nation's healthcare 
system. Therefore, the Nation must increase access to--and awareness of 
the importance of--vision screenings and linkage to appropriate care 
for at-risk and underserved populations, as is provided by the CDC's 
Vision Health Initiative.
---------------------------------------------------------------------------
    \5\ ``The Economic Impact of Vision Problems,'' Prevent Blindness 
America, 2007.
    \6\ ``Our Vision for Children's Vision: A National Call to Action 
for the Advancement of Children's Vision and Eye Health, Prevent 
Blindness America,'' Prevent Blindness America, 2008.
    \7\ Ellwein Leon. Updating the Hu 1981 Estimates of the Economic 
Costs of Visual Disorders and Disabilities.
---------------------------------------------------------------------------
    The CDC reports that ``vision disability is one of the top ten 
disabilities among adults 18 years and older and the single most 
prevalent disabling condition among children.'' \8\ Effective public 
health initiatives can dramatically decrease the number of Americans 
who have vision loss or low vision. Initially funded by Congress in 
fiscal year 2003, the CDC's Vision Health Initiative has worked in a 
cost-effective way to identify, screen, and link to appropriate care 
individuals at risk for vision loss. This public-private partnership 
combines the resources of the CDC, chronic disease directors, State and 
local agencies on aging, and nonprofit organizations such as PBA. 
Highlights of the significant work of the CDC's Vision Health 
Initiative include:
---------------------------------------------------------------------------
    \8\ ``Improving the Nation's Vision Health: A Coordinated Public 
Health Approach,'' Centers for Disease Control, 2006.
---------------------------------------------------------------------------
  --Supporting the eye evaluation component of the National Health and 
        Nutrition Examination Survey (NHANES) that provides current, 
        nationally representative data and helps assess progress for 
        vision objectives contained within Healthy People 2010 and the 
        future efforts for Healthy People 2020.
  --Utilizing applied public health research to address the economic 
        costs of vision disorders and develop cost-effectiveness models 
        for eye diseases among various populations. Estimating the true 
        economic burden is essential for informing policymakers and for 
        obtaining necessary resources to develop and implement 
        effective interventions.
  --Aiding in the translation of science into programs, services, and 
        policies and in coordinating service activities with partners 
        in the public, private, and voluntary sectors.
    --Under the leadership of researchers at Johns Hopkins University 
            investigating the best methods for identifying patients who 
            need eye care services and providing linkages to follow-up 
            care within community health centers.
    --In coordination with researchers at Duke University evaluation of 
            strategies in primary care and pediatric settings to 
            improve the detection of childhood vision conditions and 
            diseases.
  --Providing data analyses and a systematic review of interventions to 
        promote screening for diabetic retinopathy and reviewing access 
        to and utilization of vision care in the United States.
  --Developing the first optional Behavioral Risk Factor Surveillance 
        System (BRFSS) vision module and introducing it into State use 
        in 2005 to gather information about access to eye care and 
        prevalence of eye disease and eye injury. Five States 
        implemented the module in 2005, and 11 States began using the 
        module in 2006.
    In fiscal year 2010, PBA requested $4.5 million to sustain and 
expand the Vision Health Initiative. In the final fiscal year 2010 
Consolidated Appropriations Act, Congress allocated $3.229 million a 
$7,000 increase from fiscal year 2009. PBA understands the budgetary 
challenges facing Congress and the Nation and, as such, appreciates 
this much-needed funding. However, with the demographics of eye 
disease, we strongly feel that a greater investment in the Vision 
Health Initiative must be made, so we can mount an adequate effort to 
address the growing public health threat of preventable vision loss 
among older Americans, low-income, and underserved populations.
    To that end, PBA respectfully requests the subcommittee provide a 
$5 million allocation for the Vision Health Initiative. This level of 
investment will help the CDC sustain and expand its efforts to address 
the growing public health threat of preventable vision loss among at-
risk and underserved populations. Additional fiscal year 2011 resources 
will support: strengthen State-based public health efforts to address 
vision and eye health; development of additional evidence-based public 
health interventions that improve eye health among the Nation's most 
at-risk and underserved; and expand initiatives to address the growing 
problem of diabetes among children and the associated impacts of 
diabetic retinopathy, which can develop later in life.
Investing in the Vision of Our Nation's Most Valuable Resource--
        Children
    While the risk of eye disease increases after the age of 40, eye 
and vision problems in children are of equal concern, due to the fact 
that, if left untreated, they can lead to permanent and irreversible 
visual loss and/or cause problems socially, academically, and 
developmentally. Although more than 12.1 million school-age children 
have some form of a vision problem, only one-third of all children 
receive eye care services before the age of 6.\9\ Approximately 80 
percent of what a child learns is done so visually.\10\ As such, good 
vision is essential for educational progress, proper physical 
development and athletic performance, and healthy self-esteem in 
growing children. Yet, according to a CDC report, only 1 in 3 children 
in America has received eye care services before the age of 6.
---------------------------------------------------------------------------
    \9\ ``Our Vision for Children's Vision: A National Call to Action 
for the Advancement of Children's Vision and Eye Health, Prevent 
Blindness America,'' Prevent Blindness America, 2008.
    \10\ Ottar WL, Scott WK, Holgado SI. Photoscreening for amblyogenic 
factors. J Pediatr Ophthalmol Strabismus. 1995; 32:289-295.
---------------------------------------------------------------------------
    In 2009, the Maternal and Child Health Bureau created the National 
Universal Vision Screening for Young Children Coordinating Center, a 
national vision health collaborative effort aimed at developing the 
public health infrastructure necessary to promote eye health and ensure 
access to a continuum of eye care for young children. PBA is requesting 
$1.2 million in fiscal year 2011 for the National Universal Vision 
Screening for Young Children Coordinating Center.
    With this level of funding, the Center, will continue to:
  --Partner with public and private entities--including State title V 
        programs for Children with Special Health Care Needs, 
        pediatricians and primary care providers, families and parent 
        organizations, professional societies and associations, Family-
        to-Family Health Information Centers, and State and community 
        agencies such as Healthy Start, Head Start, and elementary 
        schools--to expand the cadre of key stakeholders interested in 
        promoting young children's vision health and improving early 
        identification of vision problems in young children.
  --Develop and implement a statewide strategy to achieve universal 
        screening of children by age 4.
  --Determine a mechanism for uniform collection and reporting of 
        children's vision care and eye health data.
    With fiscal year 2011 funding, the Center also will be able to:
  --Broaden partnerships and expand coordination between the Center, 
        the State agencies that administer the title V Maternal and 
        Child Health Block Grant, and other State public health 
        entities to improve the early identification of vision problems 
        in children.
  --Support a consensus conference involving MCHB, CDC, the Agency for 
        Healthcare Research and Quality, NEI, and the Office of Head 
        Start to establish national standards for vision screening in 
        young children.
    In addition, States need increased resources to sustain and expand 
the provision of critical healthcare services to millions of pregnant 
women, infants, and children, including those with vision and eye care 
needs. Beyond direct services, the Maternal and Child Health (MCH) 
Services Block Grant supports vital public health services and systems 
that promote optimal health and help prevent disease. Therefore, 
Prevent Blindness America supports appropriating $730 million in fiscal 
year 2011 for the title V MCH Services Block Grant.
Advance and Expand Vision Research Opportunities
    PBA calls upon the subcommittee to increase its support for the NEI 
to bolster its efforts to identify the underlying causes of eye disease 
and vision loss, improve early detection and diagnosis of eye disease 
and vision loss, and advance prevention and treatment efforts. Research 
is critical to ensure that new treatments and interventions are develop 
to help reduce and eliminate vision problems and potentially blinding 
eye diseases facing consumers across the country. In 2009, Congress 
commended the NEI's leadership in basic and translational research 
through H. Res. 366 and S. Res. 209, which recognized NEI's 40 years as 
the National Institutes of Health Institute that leads the Nation's 
commitment to save and restore vision. The resolutions also designated 
2010-2020 as the Decade of Vision in recognition of the increasing 
health and economic burden of eye disease, mainly as a result of an 
aging population.
    The NEI will be able to continue to grow its efforts to:
  --Expand capacity for research, as demonstrated by the significant 
        number of high-quality grant applications submitted in response 
        to ARRA opportunities.
  --Address unmet need, especially for programs of special promise that 
        could reap substantial downstream benefits, as identified by 
        new NIH Director Dr. Francis Collins.
  --Fund research to reduce healthcare costs, increase productivity, 
        and ensure the continued global competitiveness of the United 
        States.
    By increasing funding for the NEI at the NIH, essential efforts to 
identify the underlying causes of eye disease and vision loss, improve 
early detection and diagnosis of eye disease and vision loss, and 
advance prevention, treatment efforts, and health information 
dissemination will be bolstered.
Conclusion
    On behalf of PBA, our Board of Directors, and the millions of 
people at risk for vision loss and eye disease, we thank you for the 
opportunity to submit written testimony regarding fiscal year 2011 
funding for the CDC's Vision Health Initiative, the Maternal and Child 
Health Bureau's National Universal Vision Screening for Young Children 
Coordinating Center and title V MCH Block Grants and the NEI. Please 
know that PBA stands ready to work with the subcommittee and other 
Members of Congress to advance policies that will prevent blindness and 
preserve sight. Please feel free to contact us at any time; we are 
happy to be a resource to subcommittee members and your staff. We very 
much appreciate the subcommittee's attention to--and consideration of--
our requests.
                                 ______
                                 
       Prepared Statement of the Pancreatic Cancer Action Network
    Mr. Chairman and members of the subcommittee: First and foremost, I 
want to thank you for your leadership and support for medical research 
carried out under the auspices of the National Institutes of Health 
(NIH). Your continuing support recognizes that the basic resource of 
this country is its people, and the Nation's strength can be no greater 
than the health of its citizenry.
    On behalf of the patients, families and scientists who make up the 
Pancreatic Cancer Action Network, I especially thank you for helping to 
shine a spotlight on the fourth leading cause of cancer death in the 
United States and one of the most lethal forms of cancer: pancreatic 
cancer. Your vigilance and encouragement is helping to correct that 
situation. Unfortunately, of the more than 42,000 diagnosed with 
pancreatic cancer last year, statistically, 76 percent died within 12 
months of their diagnosis and 95 percent will die within 5 years. We 
therefore still have a long way to go before the diagnosis does not 
nearly guarantee a death sentence. And we have a long way to go before 
the only major cancer with a 5-year survival rate still in the single 
digits enjoys the progress made against so many other forms of cancer.
    Two years ago some of you and your colleagues met with Dr. Randy 
Pausch, whose book, The Last Lecture, inspired millions of us to live 
our dreams. He inspired us even though he was facing his toughest life 
challenge; he was battling pancreatic cancer.
    Dr. Pausch's last appearance on Capitol Hill was in March 2008. He 
died 4 months later. His message was that we must change the research 
paradigm at NIH by providing more funding for the hardest research 
problems like pancreatic cancer because if we tackle the hardest 
problems, it will help us solve the easier problems.
    Since Dr. Pausch's death there has been increased publicity of this 
deadly disease with the subsequent diagnosis and death of actor Patrick 
Swayze, and the diagnosis of U.S. Supreme Court Justice Ruth Bader 
Ginsberg. Despite this publicity, the cold, hard fact remains that the 
number of new cases diagnosed and the number of deaths caused by 
pancreatic cancer are increasing. In fact, according to some experts, 
the number of new pancreatic cancer cases was projected to rise by 12 
percent in 2009, and to grow by 55 percent by the year 2030. These are 
startling numbers. We must take action now to not only change the 
current statistics, but to ensure that we have the tools for the 
future.
    But what patients, families, and advocates find most troubling is 
that while remarkable progress has been made against so many other 
forms of cancer, the progress we have made to detect or treat 
pancreatic cancer has changed little over the past 40 years:
  --There is no early detection for pancreatic cancer and many of the 
        risk factors are benign. As a result, the disease is usually 
        diagnosed in its late stages, often after it has metastasized 
        to other organs.
  --There are no effective treatment options, except for a surgical 
        procedure called the Whipple that only approximately 15 percent 
        of all pancreatic cancer patients are eligible for and 80 
        percent of patients who have the surgery have a recurrence and 
        die within 5 years.
    So, why has progress in pancreatic cancer been so slow in coming? 
The answer is two-fold. The pancreas is complex and, because of its 
location, a difficult organ to study. But frankly, the real obstacle is 
the failure to make this a priority. Despite the fact that pancreatic 
cancer is the fourth-leading cause of cancer death in the United 
States, historically less than 2 percent of the National Cancer 
Institute's (NCI's) budget is devoted to research in this field. I have 
included for the record a chart of NCI funding for the top five cancer 
killers--which includes pancreatic cancer--and their respective 
survival rates. This chart demonstrates in very dramatic fashion that 
there is a clear correlation between low investment in research and 
poor survival rates. When an investment has been made, the 5-year 
survival rates reflect those efforts.
    In the absence of a concerted, well-focused scientific agenda, 
promising research applications go unfunded; opportunities to explore 
early screening techniques and more effective therapeutic agents are 
forgone; and investigators become discouraged and move to other fields 
of study.
Recommendations
    How can the problem be corrected? Yes, funding for the NCI must be 
increased. In that regard, we join with our partners in the One Voice 
Against Cancer Coalition to ask that you provide $5.79 billion in 
funding for the NCI in fiscal year 2011--an increase of $691 million 
over the fiscal year 2010 appropriation.
    But steps must also be taken to mount a sustainable research effort 
against pancreatic cancer. Far more resources--money which will attract 
more scientists--must be brought to bear in order to find early 
detection tools and more effective treatments. To those ends, we 
strongly recommend that:
  --a pancreatic cancer research grant program be established, like the 
        program outlined in the H.R. 745 The Pancreatic Cancer Research 
        and Education Act, to support prioritized research projects 
        focused on basic research, finding more precise diagnostic and 
        early detection tools and innovative clinical trials on 
        promising therapeutic agents;
  --a policy of ``exceptions'' funding for grant applications whose 
        primary focus is on pancreatic cancer needs to be re-instituted 
        at the NCI; and
  --there must be more pancreatic cancer experts included on scientific 
        review panels.
    Though the pool of NCI-funded researchers investigating pancreatic 
cancer has gradually expanded in recent years, it still remains 
disproportionately miniscule when compared to the number of researchers 
in the other leading cancer fields. The recommendations I have outlined 
will help remedy that problem. They will also challenge the research 
community to rely less on ``safe bets'' and tackle difficult, high-risk 
problems, such as pancreatic cancer.
    Thank you for your time and consideration.
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
        Prepared Statement of the Pew Children's Dental Campaign
    The Pew Children's Dental Campaign, a campaign of the Pew Center on 
the States, would like to thank the Subcommittee Chairman for allowing 
the submission of this testimony in support of fiscal year 2011 
appropriations for oral health programs.
    The Pew Campaign works primarily at the State level to ensure that 
more children receive dental care and benefit from policies proven to 
prevent tooth decay. We are also mounting a national campaign to raise 
awareness of the problem, recruit influential leaders to call for 
change, and showcase states that have made progress and can serve as 
models for pragmatic, cost-effective reform.
    The Cost of Delay, recently released by The Pew Center on the 
States, found that 10 years after the 2000 report by the U.S. Surgeon 
General called dental disease a ``silent epidemic,'' too little has 
changed. The report finds that two-thirds of the States are failing to 
ensure that disadvantaged children get the dental healthcare they need. 
The good news is that this problem can be solved. At a time when State 
budgets are strapped, children's dental health presents a rare 
opportunity for Federal policy makers to make meaningful investments 
without breaking the bank-while delivering a strong return to 
taxpayers.
    The consequences of poor dental health among children are far 
worse--and longer lasting--than most policy makers and the public 
realize.
  --Early growth and development.--Having healthy baby teeth is vital 
        to proper nutrition and speech development and sets the stage 
        for a lifetime of dental health.
  --School readiness and performance.--In a single year, more than 51 
        million hours of school may be missed because of dental-related 
        illness.
  --Overall health.--A growing body of research indicates that 
        periodontal disease--gum disease--is linked to cardiovascular 
        disease, diabetes and stroke.
  --Economic consequences.--An estimated 164 million work hours each 
        year are lost because of dental disease. Dental problems can 
        hinder a person's ability to get a job in the first place
    Adequately funding Federal oral health programs will provide 
critical resources to States to plan, develop, coordinate, and operate 
cost-effective dental programs that prevent dental disease. Two ongoing 
Federal grant programs housed in the Centers for Disease Control and 
Prevention and the Human Resources and Services Administration directly 
support The Pew Campaign's goals, as do several new oral health 
prevention and workforce programs established by Public Law 111-148--
Patient Protection and Affordable Care Act.
    The Pew Center on the States asks that the Subcommittee consider 
the following fiscal year 2011 funding requests:
    Support the expansion of established Federal grant programs:
  --CDC State Grants Program, Surveillance, and Technical Assistance--
        Division of Oral Health.--With CDC support, States can better 
        promote oral health and efficiently administer scarce 
        resources, monitor oral health status and problems, and conduct 
        and evaluate prevention programs. This funding is critical to a 
        State's ability to prevent problems before they occur, rather 
        than treating them when they are painful and expensive. These 
        programs also support State community water fluoridation 
        programs and school-based dental sealant programs.
    For example, research shows that community water fluoridation 
offers one of the greatest return-on-investment of any preventive 
healthcare strategy. For most cities, every $1 invested in water 
fluoridation saves $38 in dental treatment costs. More than $1 billion 
could be saved annually if the remaining water supplies in the United 
States were fluoridated, according to the Centers for Disease Control.
    Pew supports expansion of this grant program to $33 million per 
year in order to reach all 50 States and the District of Columbia; an 
increase of $18 million more than the fiscal year 2010 appropriation.
    This program is authorized under section 4102 of Public Law 111-148 
as an amendment to the Public Health Service Act. Funding for this 
program fits the criteria for uses of the Public Health and Prevention 
Fund (fiscal year 2011 = $750 million). Please recommend and approve 
the transfer of $18 million of the Public Health and Prevention Fund to 
fulfill the program's authorization to support all 50 States.
    HRSA Dental Health Improvement Grants.--This program provides 
grants to States to support oral health workforce activities, under 
section 340G of the Public Health Service Act, and provide the 
opportunity for States to implement a range of innovative approaches to 
improve access to oral health services including, projects that address 
the oral health workforce needs of underserved areas in both urban and 
rural locations. For example, Florida used its Human Resources and 
Services Agency workforce grant for a task force that resulted in a 
regulatory change to expand the use of hygienists to improve the 
efficiency of sealant programs. Kansas is using these resources for 
several objectives, including promoting extended care permit 
utilization for dental hygienists and funding loan repayment programs 
for professionals working in underserved areas among other goals.
    Pew supports a grant program that is funded to reach all 50 States 
and the District of Columbia at a level of $20 million per year.
    Fully fund newly authorized or expanded oral health prevention 
programs in Public Law 111-148:
    School-based Sealant Programs--Establishment of school-based dental 
sealant programs.--The law requires that each of the 50 States and 
territories receive a grant for school-based dental sealant programs as 
well as to provide funding to Indian tribes. Sealants-clear plastic 
coatings applied by a hygienist or dentist-cost one-third as much as 
filling a cavity, and have been shown after just one application to 
prevent 60 percent of decay in molars. In The Cost of Delay, Pew finds 
that only 17 States have sealant programs that reach even one-quarter 
of their high-risk schools, and 11 reported having no programs at all.
    This program is authorized under section 4102 of Public Law 111-148 
as an amendment to the Public Health Service Act and is an eligible use 
of funding from the Public Health and Prevention Fund (fiscal year 2011 
= $750 million). Please recommend and approve the transfer of $312.5 
million of the Public Health and Prevention Fund to fulfill the program 
authorization to fund all 50 states. The estimated cost for fiscal year 
2011 provides for rapid acceleration and start-up funding along with 
information technology and evaluation. The annual costs in fiscal year 
2013 and beyond should be significantly less as the programs integrate 
with insurance payment options. This estimate assumes full funding of 
the CDC State Grants Program request (above) to support the additional 
expertise and management necessary for these programs.
    Alternative Dental Health Care Providers Demonstration Project.--
The law establishes/authorizes a 5-year, demonstration program 
beginning within 2 years of enactment (no later than March 23, 2012) to 
train or employ alternative dental healthcare providers in order to 
increase access to dental healthcare services in rural and other 
underserved communities. Each grant shall equal not less than $4 
million (for the life of the project).
    Pew requests $16 million for the first year of this program with at 
least a 2-year period of availability. The $16 million will allow up to 
four eligible entities to plan and implement a demonstration project 
funded at $4 million over the 5-year project. Pew supports ramping up 
the appropriations for this program in fiscal year 2012 to support 
additional eligible entities to apply for demonstration projects.
    The U.S. Department of Health and Human Services has designated 
more than 4,000 areas across the country as Dental Health Professional 
Shortage Areas (DHPSAs). More than 46 million people live in DHPSAs 
across the United States, an estimated 30 million of whom lack access 
to a dentist.
    In 2006, roughly 4,500 new dentists graduated from the United 
States' 56 dental schools. But it would take more than 6,600 dentists 
choosing to practice in DHPSAs to provide care for those 30 million 
people. More than 10 percent of those are needed in Florida alone, 
where it would take at least 751 new dentists to close the access gap.
    These dentist shortages are projected to worsen. Although several 
dental schools have opened in the past few years, the number of 
dentists retiring every year will soon exceed the number of new 
dentists graduating and entering practice. In 2006, more than one-third 
of all practicing dentists were older the age of 55 and edging toward 
retirement. The Federal expansion of Medicaid and public insurance 
including dental services will also compound the relative shortage of 
dentists and further limit access to care. In 2009, Minnesota became 
the first state in the country to authorize a new primary care dental 
provider called a dental therapist at both a basic and advanced level. 
At least 12 States are considering similar models.
    Oral Healthcare Prevention Education Campaign.--The law establishes 
a 5-year national, public education campaign that is focused on oral 
healthcare prevention and education. The campaign is required to use 
science-based strategies to convey oral health prevention messages that 
include, but are not limited to, community water fluoridation and 
dental sealants.
    This program is authorized under section 4102 of Public Law 111-148 
as an amendment to the Public Health Service Act and is an eligible use 
of funding from the Public Health and Prevention Fund (fiscal year 2011 
= $750 million). Please recommend and approve the transfer of $2 
million of the Public Health and Prevention Fund to fulfill the program 
mandate. This estimate assumes that planning and testing of messages 
occurs during fiscal year 2011 while the major public education 
campaign would take place in fiscal year 2012 and beyond.
    In total the Pew Center on the States asks the committee to make 
the following investment in improving oral health for children in the 
fiscal year 2011 budget:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Total fiscal year 2011 request.........................            383.5
Increase over 2010 appropriations for existing programs            351
Amount of increase funded by the Prevention and Public             332.5
 Health Fund...........................................
Increased investment in oral health out of the 302(b)               51
 subcommittee budget allocation........................
------------------------------------------------------------------------

    By making targeted Federal investments in effective policy 
approaches, States can help eliminate the pain, missed school hours and 
long-term health and economic consequences of untreated dental disease 
among kids. A handful of States are leading the way, but all States can 
and must do more to ensure access to dental care for America's children 
most in need. Thank you for your consideration of this testimony.
                                 ______
                                 
      Prepared Statement of the Pulmonary Hypertension Association
    Mr. Chairman, thank you for the opportunity to submit testimony on 
behalf of the Pulmonary Hypertension Association (PHA).
    I would like to extend my sincere thanks to the subcommittee for 
your past support of pulmonary hypertension (PH) programs at the 
National Institutes of Health (NIH), Centers for Disease Control and 
Prevention, and Health Resources and Services Administration. These 
initiatives have opened many new avenues of promising research, helped 
educate hundreds of physicians in how to properly diagnose PH, and 
raised awareness about the importance of organ donation and 
transplantation within the pulmonary hypertension (PH) community.
    I particularly want to thank the subcommittee for the unprecedented 
support you provided to the NIH as part of the American Recovery and 
Reinvestment Act. PH research has benefited substantially from that 
investment with more than 17 PH-specific projects receiving ARRA 
funding.
    I am honored today to represent the hundreds of thousands of 
Americans who are fighting a courageous battle against a devastating 
disease. Pulmonary hypertension is a serious and often fatal condition 
where the blood pressure in the lungs rises to dangerously high levels. 
In PH patients, the walls of the arteries that take blood from the 
right side of the heart to the lungs thicken and constrict. As a 
result, the right side of the heart has to pump harder to move blood 
into the lungs, causing it to enlarge and ultimately fail.
    PH can occur without a known cause or be secondary to other 
conditions such as: collagen vascular diseases (i.e., scleroderma and 
lupus), blood clots, HIV, sickle cell, or liver disease. PH impacts 
patients of all races, genders, and ages. Preliminary data from the 
REVEAL Registry suggests that the ratio of women to men who develop PH 
is 4:1. Patients develop symptoms that include shortness of breath, 
fatigue, chest pain, dizziness, and fainting. Unfortunately, these 
symptoms are frequently misdiagnosed, leaving patients with the false 
impression that they have a minor pulmonary or cardiovascular 
condition. By the time many patients receive an accurate diagnosis, the 
disease has progressed to a late stage, making it impossible to receive 
a necessary heart or lung transplant.
    PH is chronic and incurable with a poor survival rate. Fortunately, 
new treatments are providing a significantly improved quality of life 
for patients with some managing the disorder for 20 years or longer.
    Nineteen years ago, when three PH patients found each other, with 
the help of the National Organization for Rare Diseases, and founded 
the Pulmonary Hypertension Association, there were less than 200 
diagnosed cases of this disease. It was virtually unknown among the 
general population and not well known in the medical community. They 
soon realized that this was unacceptable, and formally established PHA, 
which is headquartered in Silver Spring, Maryland.
    I am pleased to report that we are making good progress in our 
fight against this deadly disease. Six new therapies for the treatment 
of PH have been approved by the FDA in the past 10 years.
                  the pulmonary hypertension community
    Mr. Chairman, I am privileged to serve as the President of the 
Pulmonary Hypertension Association and to interact daily with the 
patients and family members who are seeking to live their lives to the 
fullest in the face of this deadly, incurable disease.
    Carl Hicks is a former Army Ranger and a retired Colonel who led 
the first battalion into Iraq during the first Iraq war. Every member 
of his family was touched by pulmonary hypertension after the diagnosis 
of his daughter Meghan in 1994. I share their story here, in Carl's own 
words:

    `` `We're sorry Colonel Hicks, your daughter Meaghan has contracted 
primary pulmonary hypertension. She likely has less than a year to live 
and there is nothing we can do for her.'
    ``Those words were spoken in the spring of 1994 at Walter Reed Army 
Medical Center. They marked the start down the trail of tears for a 
young military family that, only hours before, had been in Germany. My 
family's journey down this trail hasn't ended yet, even though 
Meaghan's fight came to an end with her death on January 30, 2009. She 
was 27.
    ``Pulmonary hypertension struck our family, as it so often does, 
without warning. One day, we had a beautiful, healthy, energetic 12-
year old gymnast, the next, a child with a death sentence being robbed 
of every breath by this heinous disease. The toll of this fight was 
far-reaching. Over the years, every decision of any consequence in the 
family was considered first with regards to its impact on Meaghan and 
her struggle for breath.
    ``The investment made by our country in my career was lost, as I 
left the service to stay nearer my family. The costs for Meaghan's 
medical care, spread over the nearly 14 years of our fight, ran well 
into the seven figures. Meghan even underwent a heart and dual-lung 
transplant. These challenges, though, were nothing compared to the 
psychological toll of losing Meaghan who had fought so hard for 
something we all take for granted, a breath of air.''

    Over the past decade, treatment options, and the survival rate, for 
pulmonary hypertension patients have improved significantly. As 
Meaghan's story illustrates, however, courageous patients of every age 
lose their battle with PH each day. There is still a long way to go on 
the road to a cure and biomedical research holds the promise of a 
better tomorrow.
    Thanks to congressional action, and to advances in medical research 
largely supported by the NHLBI and other government agencies, PH 
patients have an increased chance of living with their pulmonary 
hypertension for many years. However, additional support is needed for 
research and related activities to continue to develop treatments that 
will extend the life expectancy of PH patients beyond the NIH estimate 
of 2.8 years after diagnosis.
            fiscal year 2011 appropriations recommendations
National Heart, Lung and Blood Institute
    In 2008, World Health Organization's Fourth World Symposium on 
Pulmonary Hypertension brought together PH experts from around the 
world. According to these leading researchers, we are on the verge of 
significant breakthroughs in our understanding of PH and the 
development of new and advanced treatments. Fifteen years ago, a 
diagnosis of PH was essentially a death sentence, with only one 
approved treatment for the disease. Thanks to advancements made through 
the public and private sector, patients today are living longer and 
better lives with a choice of seven FDA approved therapies. Recognizing 
that we have made tremendous progress, we are also mindful that we are 
a long way from where we want to be in (1) the management of PH as a 
treatable chronic disease, and (2) a cure.
    We are grateful to the National Heart, Lung and Blood Institute for 
their leadership in advancing research on PH. Our Association is proud 
to jointly sponsor investigator training grants (K awards) with NHLBI 
aimed at supporting the next generation of pulmonary hypertension 
researchers.
    Moreover, we were very pleased that NHLBI recently convened some of 
the community's leading scientists for a Working on Group on Pulmonary 
Hypertension. This panel is charged with developing recommendations 
that will guide PH research in the coming years. An overview of the 
Working Group's plan will be published in the American Journal of 
Respiratory and Critical Care Medicine this year and we encourage the 
subcommittee to support its implementation by NHLBI.
    Mr. Chairman, expanding clinical research remains a top priority 
for patients, caregivers, and PH investigators. We are particularly 
interested in establishing a pulmonary hypertension research network. 
Such a network would link leading researchers around the United States, 
providing them with access to a wider pool of shared patient data. In 
addition, the network would provide researchers with the opportunities 
to collaborate on studies and to strengthen the interconnections 
between basic and clinical science in the field of pulmonary 
hypertension research. Such a network is in the tradition of the NHLBI, 
which, to its credit and to the benefit of the American public, has 
supported numerous similar networks including the Acute Respiratory 
Distress Syndrome Network and the Idiopathic Pulmonary Fibrosis 
Clinical Research Network. We encourage the NHLBI to move forward with 
the establishment of a PH network in fiscal year 2011.
    For fiscal year 2011, PHA joins with other voluntary patient and 
medical organizations in recommending an appropriation of $35 billion 
for NIH. This level of funding will ensure continued expansion of 
research on rare diseases like pulmonary hypertension and build upon 
the significant investment made in the NIH as part of the American 
Recovery and Reinvestment Act.
Centers for Disease Control and Prevention
    Mr. Chairman, we are grateful to you and the subcommittee for 
providing funding in fiscal year 2010 for the continuation of PHA's 
Pulmonary Hypertension Awareness Campaign. We know for a fact that 
Americans are dying due to a lack of awareness of PH, and a lack of 
understanding about the many new treatment options. This unfortunate 
reality is particularly true among minority and underserved 
populations. More needs to be done to educate both the general public 
and healthcare providers if we are to save lives.
    To that end, PHA has utilized the funding provided through the CDC 
to: (1) launch a successful media outreach campaign focusing on both 
print and online outlets; (2) expand our support programs for 
previously underserved patient populations; and: (3) establish PHA 
Online University, an interactive curriculum-based Web site for medical 
professionals that targets pulmonary hypertension experts, primary care 
physicians, specialists in pulmonology/cardiology/rheumatology, and 
allied health professionals. The site is continually updated with 
information on early diagnosis and appropriate treatment of pulmonary 
hypertension. It serves as a center point for discussion among PH-
treating medical professionals and offers Continuing Medical Education 
and CEU credits through a series of online classes.
``Gift of Life'' Donation Initiative at HRSA
    PHA applauds the success of the Health Resources and Services 
Administration's ``Gift of Life'' Donation Initiative. This important 
program is working to increase organ donation rates across the country. 
Unfortunately, the only ``treatment'' option available to many late-
stage PH patients is a lung, or heart and lung, transplantation. This 
grim reality is why PHA established ``Bonnie's Gift Project.''
    ``Bonnie's Gift'' was started in memory of Bonnie Dukart, one of 
PHA's most active and respected leaders. Bonnie battled with PH for 
almost 20 years until her death in 2001 following a double lung 
transplant. Prior to her death, Bonnie expressed an interest in the 
development of a program within PHA related to transplant information 
and awareness. PHA will use ``Bonnie's Gift'' as a way to disseminate 
information about PH, transplantation, and the importance of organ 
donation, as well as organ donation cards, to our community.
    PHA has had a very successful partnership with HRSA's ``Gift of 
Life'' Donation Program in recent years. Collectively, we have worked 
to increase organ donation rates and raise awareness about the need for 
PH patients to ``early list'' on transplantation waiting lists. For 
fiscal year 2011, PHA recommends an appropriation of $30 million for 
this important program.
                                 ______
                                 
           Letter from Public Health--Seattle and King County
                                                    March 19, 2010.
Hon. Tom Harkin,
Chairman, Subcommittee on Labor, Health and Human Services, and 
        Education, and Related Agencies
Washington, DC.
Hon. Thad Cochran,
Ranking Member, Subcommittee on Labor, Healthy and Human Services, and 
        Education, and Related Agencies,
Washington, DC.
    Dear Senators Harkin and Cochran: As a large public health agency 
serving King County, Washington we urge your subcommittee to invest in 
programs that provide all of our Nation's youth with comprehensive, 
medically accurate, and age-appropriate sex education that helps them 
reduce their risk of unintended pregnancy, HIV, and other sexually 
transmitted infections (STIs).
    For the first time in more than a decade, the Nation's teen 
pregnancy rate rose 3 percent in 2006. During this time, teens were 
receiving less information about contraception in schools and their use 
of contraceptives was declining. While making up only one-quarter of 
the sexually active population, young people aged 15-24 account for 
roughly half of the approximately 19 million new cases of STIs each 
year. Those aged 13-24 account for one-sixth of new HIV infections, the 
largest share of any group.
    We are pleased that the President's fiscal year 2011 budget request 
once again included funding for more comprehensive and evidence-based 
approaches to sex education. However, by focusing the funding on teen 
pregnancy prevention, and not including the equally important health 
issues of STIs including HIV, the administration has missed an 
opportunity to provide true, comprehensive sex education that promotes 
healthy behaviors and relationships for all young people, including 
lesbian, gay, bisexual, and transgender youth. We must strategically 
and systemically provide young people with all the information and 
services they need to make responsible decisions about their sexual 
health. Therefore, we request that the teen pregnancy prevention 
initiative be broadened to address STIs, including HIV, in addition to 
the prevention of unintended teen pregnancy.
    Most of the evidence-based programs that have been proven effective 
at reducing risk factors associated with unintended teenage pregnancy 
and STIs by delaying sexual activity and increasing contraceptive use 
emphasize abstinence as the safest choice and also discuss 
contraceptive use as a way to avoid pregnancy and sexually transmitted 
infections, including HIV. In light of the evidence and recognizing 
more than half of young people have had sexual intercourse by the age 
of 18 and are at risk of both unintended pregnancy and STIs, we request 
that the subcommittee direct the Office of Adolescent Health to 
prioritize funds to programs that are more comprehensive in scope 
insofar as they encourage abstinence but also encourage young people to 
always use condoms or other contraceptives when they are sexually 
active. Leading public health and medical professional organizations--
including the American Medical Association, the American Academy of 
Pediatrics, the Society of Adolescent Medicine, and the American 
Psychological Association--support a comprehensive approach to 
educating young people about sex. In addition, the vast majority of 
parents want the Federal Government to fund programs that are medically 
accurate, age-appropriate, and educate youth about both abstinence and 
contraception.
    Congress should continue to act in the best interest of young 
people by supporting public health and education policies that are 
comprehensive, rooted in the best science, and reflect mainstream 
values. We urge you to include in the Subcommittee on Labor, Healthy 
and Human Services, and Education, and Related Agencies appropriations 
bill the strongest possible initiative that will meet the needs of all 
young people and help them achieve healthier and safer lives.
            Sincerely,
                           Matthew Golden, MD, MPH,
                                 Director, HIV/STD Program,
                            Public Health--Seattle and King County.
                                 ______
                                 
                Prepared Statement of the PKD Foundation
    Mr. Chairman, Ranking Member, and members of the subcommittee: 
Thank you for the opportunity to provide testimony on behalf of the PKD 
Foundation and the more than 600,000 Americans and 12.5 million people 
world-wide suffering from polycystic kidney disease (PKD). This 
subcommittee's commitment to advancing the great work of the National 
Institutes of Health (NIH) is legendary, and it must be continued. To 
meet that need, the PKD Foundation supports funding NIH at $35 billion 
in fiscal year 2011. Underfunding NIH will only slow the pace and 
progress of scientific discoveries for PKD patients and all people 
living with a life-threatening disease or chronic condition.
    The PKD Foundation also supports an appropriation of $500 million 
to the newly authorized Cures Acceleration Network (CAN) as established 
under the Patient Protection and Affordable Care Act (Public Law 11-
148; title X: sec. 10409). In order to help bridge the biomedical 
research ``valley of death,'' CAN and other innovative initiatives 
aimed at improving translational research and regulatory science at NIH 
must be fully funded.
PKD Essentials
    Polycystic kidney disease or PKD is one of the world's most 
prevalent, life-threatening, genetic diseases affecting more than 
600,000 Americans including newborns, children and adults regardless of 
gender, age, race or ethnicity. With the presence of PKD, cysts develop 
in both kidneys, leading to an increase in kidney size and weight. 
Cysts can range in size from a pinhead to a grapefruit or a football. 
They may also cause a normal kidney to grow from the size of a person's 
fist to that of a football or a basketball and weigh as much as 38 
pounds each. Early in the disease, patients often do not experience 
symptoms and many do not realize they have PKD until other organs 
become affected. Deterioration in every PKD patient varies, but 
ultimately more than half will end up in renal failure and require 
dialysis or a kidney transplant. Currently, there is no treatment or 
cure for PKD.
PKD Research Today
    PKD is the most therapy-ripe of all kidney diseases; research in 
PKD is progressive and robust. According to Dr. Francis Collins, NIH 
Director and former director of the Human Genome Research Institute, 
PKD research offers a tremendous ``return on investment.'' Dr. Collins 
called ``PKD [is] one of the hottest, most promising areas of research 
in all of biochemistry.'' In 1994, scientists discovered the genes that 
cause PKD, and currently, more than 20 clinical trials are underway to 
help uncover a treatment.
    Even with such success, PKD research is at a critical juncture. 
Akin to other diseases and chronic conditions, PKD researchers, 
patients and families are facing the biomedical research ``valley of 
death,'' the chasm in which basic research can languish. The ``valley 
of death'' is the point in the drug development pipeline where 
scientists work to develop prototype designs or invest in preclinical 
development. Because these processes are risky, funding is inconsistent 
and good ideas are often stopped in their tracks. The PKD Foundation 
seeks to overcome this chasm by developing systems to help advance and 
investing in translational research.
    The PKD Foundation believes there are three components necessary 
for bridging the ``valley of death.'' Those include: (1) purpose driven 
research with milestone gated research targets; (2) catalyzing and de-
risking the drug development process to help encourage pharmaceutical 
and biotechnology companies and major donors to invest; and, (3) 
mobilizing impatient patients who will not accept the status quo.
Efforts to Bridge the ``Valley of Death"
    On February 24, 2010, the NIH and the Food and Drug Administration 
(FDA) announced a collaborative initiative aimed at accelerating the 
drug development process by helping translate basic science into the 
availability of new and innovative drugs and devices. The NIH-FDA 
Initiative involves two interrelated scientific disciplines: 
translational research and regulatory science. Translational research 
involves shaping basic scientific discoveries into potential 
treatments. Regulatory science focuses on developing and using tools 
and standards to more efficiently aid in the development of therapeutic 
products. Improved regulatory science will help the FDA more 
effectively evaluate products for their safety and efficacy and help 
NIH scientists better understand what types of data and information 
should be collected for advancing basic research through the drug 
development process.
    The PKD Foundation fully supports this initiative and applauds the 
Department of Health and Human Services (HHS) for taking a bold step in 
addressing a lagging component in the drug development process. Both 
translational research and regulatory science are imperative for 
turning basic biomedical discoveries into therapies that will improve 
the health and well-being of patients. Providing a platform for purpose 
driven research is a necessary step in building a bridge over the 
``valley of death.''
    In addition to the NIH-FDA Initiative on translational and 
regulatory science, the PKD Foundation applauds Congress for 
authorizing the Cures Acceleration Network (CAN) through the Patient 
Protection and Affordable Care Act. Housed within the Office of the 
Director of NIH, CAN will work to bridge the ``valley of death'' by 
helping identify and advance basic research via translational 
scientific discoveries through a new grant making system.
    The PKD Foundation is confident that the role and programmatic 
functions of CAN will help address the unmet needs of our impatient 
patients. We are optimistic that CAN will help catalyze and de-risk the 
drug development process, thereby encouraging pharmaceutical and 
biotechnology companies to reach back and invest in developing safe and 
effective therapies. In order to realize the great potential of CAN, 
the PKD Foundation urges the Subcommittee to fund CAN at its $500 
million authorizing level.
Conclusion
    The NIH-FDA Initiative on translational and regulatory science and 
the Cures Acceleration Network are innovative ideas aimed at bridging 
the biomedical research ``valley of death.'' Coupling these innovative 
public endeavors with the efforts of private entities, such as the PKD 
Foundation's Drug Discovery Project, should help PKD patients and 
families rest a bit easier. Together we are working to advance the 
basic science and understanding of PKD, speed the discovery of 
treatments, and perhaps one day find a cure for PKD. To that end, the 
PKD Foundation supports $35 billion for NIH in fiscal year 2011 and 
$500 million for the Cures Acceleration Network. Funding NIH and its 
important initiatives and programs is one key to the future success of 
PKD research. Thank you.
                                 ______
                                 
              Prepared Statement of ProLiteracy Worldwide
    Chairman Harkin, Vice Chairman Cochran, and members of the 
subcommittee, on behalf of the millions of adult learners working to 
improve their basic skills and pursue greater economic opportunity for 
themselves and their families, thank you for the opportunity to provide 
written testimony regarding the President's fiscal year 2011 budget 
request for adult education and family literacy, provided for under the 
Workforce Investment Act, title II. We would be pleased to testify and 
participate in any future hearings regarding adult literacy and basic 
education.
    At a time when millions of Americans are struggling to find work 
and billions of dollars are being invested in job creation and in 
retraining our workforce, it is essential to also invest in adult 
learning in order to maximize our return on these investments and put 
more American families on the road to self-sufficiency and economic 
security. We strongly urge you to provide at least $750 million for 
Adult Basic and Literacy Education in fiscal year 2011 to better assist 
the one in seven adults nationally who struggle with illiteracy.
Background: ProLiteracy
    ProLiteracy Worldwide is the world's oldest and largest 
organization of adult literacy and basic education programs in the 
United States. ProLiteracy traces its roots to two premiere adult 
literacy organizations: Laubach Literacy International and Literacy 
Volunteers of America, Inc. In 2002, these two organizations merged to 
create ProLiteracy.
    ProLiteracy now represents more than 1,200 community-based 
organizations and adult basic education programs in the United States, 
and we partner with literacy organizations in 50 developing countries. 
In communities across the United States, these organizations use 
trained volunteers, teachers, and instructors to provide one on one 
tutoring, classroom instruction, and specialized classes in reading, 
writing, math, technology, English language skills, job-training and 
workforce literacy skills, GED preparation, and citizenship. Our 
members are located in all 50 States and in the District of Columbia. 
Through education, training and advocacy, ProLiteracy supports the 
frontline work of these organizations through regional conferences and 
other training events; credentialing; and the publication of materials 
and products used to teach adults basic literacy and English as a 
second language and to prepare adults for the U.S. citizenship exam and 
GED tests.
The Urgent Need to Invest in Adult Education
    In 2003, the U.S. Department of Education conducted the National 
Assessment of Adult Literacy (NAAL) in order to gauge the English 
reading and comprehension skills of individuals in the United States 
older than the age of 16 on daily literacy tasks such as reading a 
newspaper article, following a printed television guide, and completing 
a bank deposit slip. The results indicated that 30 million adults--14 
percent of this country's adult population--had below basic literacy 
skills; that is, their ability to read was so poor, they could not 
complete a job application without help or follow the directions on a 
medicine bottle. An additional 63 million adults read only slightly 
better.
    Due to funding constraints, the adult education system currently 
only has the capacity to serve approximately 2.5 million of these 93 
million adults each year. Adult education has been nearly flat funded 
for a decade, seeing only a modest overall increase from 2001-2009.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Education Budget History http://www2.ed.gov/
about/overview/budget/history/edhistory.pdf.
---------------------------------------------------------------------------
    The high percentage of low-literate adults can be connected to 
almost every socioeconomic problem this country faces. According to the 
U.S. Department of Education, an estimated 60 percent of prison inmates 
are barely literate. Struggling readers are also more likely to be 
unemployed and require public assistance. Low literacy also has a 
significant impact on public health and healthcare costs. The 2003 U.S. 
Department of Education National Assessment of Adult Literacy (NAAL) 
estimates that 36 percent of the adult U.S. population has Basic or 
Below Basic health literacy levels. Low health literacy is a major 
source of economic inefficiency in the U.S. healthcare system: it is 
estimated that the cost of low health literacy to the U.S. economy is 
between $106 billion to $238 billion annually. This represents between 
7 percent and 17 percent of all personal healthcare expenditures.\2\
---------------------------------------------------------------------------
    \2\ Low health literacy: implications for national health policy. 
Available at: http://npsf.org/askme3/pdfs/Case_Report_10_07.pdf.
---------------------------------------------------------------------------
The Proposed Adult Basic and Literacy Education Budget
    The proposed fiscal year 2011 budget includes several significant 
features that we strongly support. First, the President requested 
$612.3 million for State grants for adult education through the 
Workforce Investment Act (WIA), title II, an increase of $30 million 
compared to the 2009 appropriation. While ProLiteracy welcomes this 
overall increase to base funding, we agree with the National Coalition 
for Literacy's (of which we are a member) request for at least $750 
million for title II of WIA in fiscal year 2011, for the following 
reasons:
  --Although the President's proposal does increase base funding, it is 
        actually a $15.9 million decrease from last year's total 
        appropriation because of a one-time adjustment to correct for a 
        funding calculation error that occurred from 2003-2008. Many 
        States will receive a lower appropriation than in fiscal year 
        2010, at a time when many States are dramatically cutting 
        funding at the State and local levels due to budget deficits.
  --The President's proposal would not substantially increase the 
        current number of students being served. We estimate that an 
        increase to $750 million would serve an additional 500,000 
        students--still a very small percentage of the millions of 
        adults in the United States in need of adult literacy services, 
        but a substantial and measurable boost in the number of adults 
        ready to succeed in postsecondary education or occupational 
        training.
  --We support the President's goal of having the highest proportion of 
        college graduates in the world by the year 2020. However, even 
        if every State's graduation rates reached the level of the 
        highest-performing States, we cannot reach the President's goal 
        without a substantial increase in the number of out of school 
        adults entering into postsecondary education. Adult education 
        and literacy programs are an important component in the 
        development of a broader pipeline of learners entering into 
        postsecondary education.
Workforce Innovation
    In addition to an increase in State funding, the administration's 
budget includes a proposal to establish a new Partnership for Workforce 
Innovation between the Department of Labor (DOL) and the Department of 
Education (ED), providing a total of $321 million to support jointly 
administered competitive Adult and Youth Innovation grants to States 
and localities to test and replicate innovative workforce practices. A 
$30 million increase to the Office of Vocational and Adult Education's 
(OVAE) National Leadership funding represents OVAE's contribution to 
the fund.
    ProLiteracy applauds the administration's commitment to innovation. 
We urge the subcommittee to ensure that innovation funding will benefit 
adults at all skill levels, particularly the millions who are estimated 
to possess less than basic literacy skills. In order for these adults 
benefit from this fund, we recommend the following:
  --Both the Adult and Youth Workforce Innovation Funds should 
        encourage integration between title I and II programs.
    The Workforce Innovation Fund is a unique opportunity for the DOL 
and ED to develop coordinated approaches to build upon what works at a 
scale that can make a tangible difference to jobseekers. We suggest 
that the DOL and ED funds be combined to expand successful, integrated 
approaches to serving the lowest level learners and ensure eligible 
entities under this funding stream have a demonstrated capacity of 
serving adult learners.
    Adult education providers should also be eligible to apply for the 
funding contributed by DOL to both the Workforce Innovation Fund and 
the Youth Innovation Fund. This would help address a common criticism 
that Workforce Investment Act title I and II programs are too 
disconnected from each other and fail to provide well-integrated 
workforce development and adult education services. Grants to local 
adult literacy providers, working in partnership, for example, with 
local workforce investment boards, could develop more effective 
replicable practices to improve the lowest level learners placement and 
retention in employment.
    We also recommend that any definition of underserved populations in 
the DOL Workforce Innovation Fund include adult learners, particular 
those at the lowest levels of literacy, and that eligible entities 
under this funding stream should include those with a demonstrated 
capacity of serving adult learners via services that are linked to 
income, work, and academic supports and to better connect these systems 
with employers and postsecondary education.
    Also, because a significant number of young adults ages 16-24 
receive education services from adult education programs, we recommend 
that the DOL's Youth Innovation Fund explicitly define adult and family 
literacy services as an allowable education activity under this funding 
stream.
  --Eligibility for Workforce Innovation Fund grants should include 
        community-based organizations and other entities with 
        demonstrated capacity to assist adults at the lowest literacy 
        levels and their families, and include wraparound services.
  --The need for innovation should not come at the expense of the 
        existing WIA title II formula funds.
    As noted above, while the President is calling for an overall 
increase to base funding, some States will receive a substantially 
smaller appropriation--at a time when many States are dramatically 
cutting funding at the State and local level due to budget deficits. 
ProLiteracy urges the subcommittee to ensure that the Workforce 
Innovation Fund is funded on top of annual WIA formula funds, rather 
than as a carve out of existing formula funds.
    Thank you for the opportunity to present this testimony. We would 
be happy to respond to any questions that you may have.
                                 ______
                                 
          Prepared Statement of the Railroad Retirement Board
    Mr. Chairman and members of the subcommittee: We are pleased to 
present the following information to support the Railroad Retirement 
Board's (RRB) fiscal year 2011 budget request.
    The RRB administers comprehensive retirement/survivor and 
unemployment/sickness insurance benefit programs for railroad workers 
and their families under the Railroad Retirement and Railroad 
Unemployment Insurance Acts. The RRB also has administrative 
responsibilities under the Social Security Act for certain benefit 
payments and Medicare coverage for railroad workers. During the past 
year, the RRB has also administered special economic recovery payments 
and extended unemployment benefits under the American Recovery and 
Reinvestment Act of 2009 (ARRA), and more recently, extended 
unemployment benefits under the Worker, Homeownership, and Business 
Assistance Act of 2009.
    During fiscal year 2009, the RRB paid $10.5 billion, net of 
recoveries, in retirement/survivor benefits and vested dual benefits to 
about 589,000 beneficiaries. We also paid $154.1 million in net 
unemployment/sickness insurance benefits under the Railroad 
Unemployment Insurance Act to more than 40,000 claimants. In addition, 
the RRB paid benefits on behalf of the Social Security Administration 
amounting to $1.3 billion to about 115,000 beneficiaries, and we paid 
about $129.5 million in Economic Recovery Payments and $10.3 million in 
temporary extended unemployment benefits under ARRA to about 518,700 
beneficiaries and 3,100 claimants, respectively.
               proposed funding for agency administration
    The President's proposed budget would provide $110,573,000 for 
agency operations, which would enable us to maintain a staffing level 
of 891 full-time equivalent staff years in 2011. The proposed budget 
would also provide $1,500,000 for information technology investments. 
This includes $850,000 for costs related to an upgrade of the agency's 
mainframe computer. The remaining IT funds would be used for 
information security and privacy, E-Government initiatives, systems 
modernization, network operations, and some infrastructure replacement.
                            agency staffing
    The RRB's dedicated and experienced workforce is the foundation for 
our tradition of excellence in customer service and satisfaction. Like 
many Federal agencies, however, the RRB has a number of employees at or 
near retirement age. Nearly 70 percent of our employees have 20 or more 
years of service at the agency, and about 40 percent of the current 
workforce will be eligible for retirement by fiscal year 2012.
    To prepare for expected staff turnover in the near future, we are 
focusing on activities related to workforce planning and development. 
During the past year, the agency drafted a formal human capital plan 
that adheres to guidance issued by the Office of Personnel Management. 
The plan identifies demographic features of the agency's workforce and 
the skills needed to fulfill our mission. The plan also establishes a 
framework of actions over the next few years to recruit, retain, and 
develop talented employees. We have also drafted a succession plan that 
specifies staffing needed to meet organizational goals, identifies 
competency gaps and develops strategies to address overall human 
capital needs.
    In connection with these workforce planning efforts, our budget 
request for fiscal year 2011 includes a legislative proposal to enable 
the RRB to utilize various hiring authorities available to other 
Federal agencies. Section 7(b)(9) of the Railroad Retirement Act 
contains language requiring that all employees of the RRB, except for 
one assistant for each board member, must be hired under the 
competitive civil service. We propose to eliminate this requirement, 
thereby enabling the RRB to use various hiring authorities offered by 
the Office of Personnel Management.
                  information technology improvements
    In recent years, we have undertaken a series of strategic measures 
to improve computer processes and better position the RRB for the 
future. First, the agency moved to a relational database environment, 
and then optimized the data that reside in the legacy databases. In 
fiscal year 2009, we began a multi-year initiative to modernize our 
application systems, starting with Medicare processing systems. This 
effort will enable the RRB to maintain the capability of our business 
operations in the event of expected staff turnover, and to upgrade 
agency systems by building on the improvements that we have already 
completed. Much of the work related to this initiative will be 
completed by in-house staff. Our budget request for fiscal year 2011 
includes $150,000 for minimal contractual services related to the 
initiative.
    In order to keep pace with these planned improvements, it will be 
necessary to increase the capacity of our mainframe computer. In fiscal 
year 2008, a new mainframe computer was installed with scalability to 
provide for additional processing capacity as demand increases. Since 
then, demand for additional processing capacity has increased an 
average of 18 percent each year with the completion of various 
automation initiatives. Our fiscal year 2011 budget request includes 
$850,000 to upgrade the RRB's mainframe computer software in order to 
meet the rising demand for capacity.
    Our proposed budget also includes an additional $500,000 for other 
information technology investments. This funding will provide for 
essential equipment and services needed to maintain our network 
operations and infrastructure in fiscal year 2011, and to continue with 
other initiatives, such as E-Government and information security and 
privacy.
    The President's proposed budget includes $57 million to fund the 
continuing phase-out of vested dual benefits, plus a 2 percent 
contingency reserve, $1,140,000, which ``shall be available 
proportional to the amount by which the product of recipients and the 
average benefit received exceeds the amount available for payment of 
vested dual benefits.''
    In addition to the requests noted above, the President's proposed 
budget includes $150,000 for interest related to uncashed railroad 
retirement checks.
                  financial status of the trust funds
    Railroad Retirement Accounts.--The RRB continues to coordinate its 
activities with the National Railroad Retirement Investment Trust 
(Trust), which was established by the Railroad Retirement and 
Survivors' Improvement Act of 2001 (RRSIA) to manage and invest 
railroad retirement assets. Pursuant to the RRSIA, the RRB has 
transferred a total of $21.276 billion to the Trust. All of these 
transfers were made in fiscal years 2002 through 2004. The Trust has 
invested the transferred funds, and the results of these investments 
are reported to the RRB and posted periodically on the RRB's Web site. 
The market value of Trust-managed assets on September 30, 2009, was 
approximately $23.3 billion, a decrease of $2 billion from the previous 
year. Since its inception, the Trust has transferred approximately $8.9 
billion to the RRB for payment of railroad retirement benefits.
    In June 2009, we released the 24th Actuarial Valuation, including 
the annual report on the railroad retirement system required by section 
22 of the Railroad Retirement Act of 1974, and section 502 of the 
Railroad Retirement Solvency Act of 1983. The actuarial valuation 
indicates that cash flow problems occur only under the most pessimistic 
assumption. Even under that assumption, the cash flow problems do not 
occur until the year 2031. The long-term stability of the system, 
however, is not assured. Under the current financing structure, actual 
levels of railroad employment and investment performance over the 
coming years will determine whether additional corrective action is 
necessary.
    Railroad Unemployment Insurance Account.--The equity balance of the 
Railroad Unemployment Insurance (RUI) Account at the end of fiscal year 
2009 was $27.8 million, a decrease of $72.1 million from the previous 
year. The RRB's latest annual report on the financial status of the 
railroad unemployment insurance system was issued in June 2009. The 
report indicated that even as maximum daily benefit rates rise 43 
percent (from $61 to $87) from 2008 to 2019, experience-based 
contribution rates are expected to keep the unemployment insurance 
system solvent, except for small, short-term cash flow problems in 2010 
and 2011 under the moderate and pessimistic assumptions. Projections 
show a quick repayment of loans even under the most pessimistic 
assumption.
    Unemployment levels are the single most significant factor 
affecting the financial status of the railroad unemployment insurance 
system. However, the system's experience-rating provisions, which 
adjust contribution rates for changing benefit levels, and its 
surcharge trigger for maintaining a minimum balance, help to ensure 
financial stability in the event of adverse economic conditions. No 
financing changes were recommended at this time by the report.
    Due to the increased level of unemployment insurance payments 
during fiscal year 2009 and anticipated for fiscal year 2010, loans 
from the Railroad Retirement (RR) Account to the RUI Account became 
necessary beginning in December 2009. Transfers from the RR Account to 
the RUI Account through February 2010 amounted to $24.5 million. 
Current projections indicate that additional loans from the RR Account 
to the RUI Account during fiscal year 2010 could amount to 
approximately $43.5 million, for a total of $68 million during the 
fiscal year.
    In conclusion, we want to stress the RRB's continuing commitment to 
improving our operations and providing quality service to our 
beneficiaries. Thank you for your consideration of our budget request. 
We will be happy to provide further information in response to any 
questions you may have.
                                 ______
                                 
          Prepared Statement of the Railroad Retirement Board
    Mr. Chairman and members of the subcommittee: My name is Martin J. 
Dickman and I am the Inspector General for the Railroad Retirement 
Board. I would like to thank you, Mr. Chairman, and the members of the 
subcommittee for your continued support of the Office of Inspector 
General.
               budget request and background information
    I wish to describe our fiscal year 2011 appropriations request and 
our planned activities. The Office of Inspector General (OIG) 
respectfully requests funding in the amount of $8,936,000 to ensure the 
continuation of its independent oversight of the Railroad Retirement 
Board (RRB).
    The RRB's central mission is to pay accurate and timely benefits. 
During fiscal year 2009, the RRB paid approximately $10.5 billion in 
retirement and survivor benefits to 589,000 beneficiaries. RRB also 
paid roughly $154.1 million in net unemployment and sickness insurance 
benefits to almost 24,000 unemployment insurance beneficiaries and 
18,000 sickness insurance beneficiaries.
    The RRB contracts with a separate Medicare Part B carrier, Palmetto 
GBA, to process the Medicare Part B claims of qualified railroad 
retirement beneficiaries. As of September 30, 2009, there were about 
468,000 such beneficiaries enrolled in the Medicare Part B program 
through the RRB. During fiscal year 2009, Palmetto, GBA paid over $900 
million in benefits.
    During fiscal year 2011, the OIG will focus on areas affecting 
program performance; the efficiency and effectiveness of agency 
operations; and areas of potential fraud, waste, and abuse.
                         operational components
    The OIG has three operational components: the immediate Office of 
the Inspector General, the Office of Audit (OA), and the Office of 
Investigations (OI). The OIG conducts operations from several 
locations: the RRB's headquarters in Chicago, Illinois; an 
investigative field office in Philadelphia, Pennsylvania; and three 
domicile investigative offices located in Arlington, Virginia; Houston, 
Texas; and San Diego, California. These domicile offices provide more 
effective and efficient coordination with other Inspector General 
offices and traditional law enforcement agencies with which the OIG 
works joint investigations.
                            office of audit
    It is OA's mission to:
  --promote economy, efficiency, and effectiveness in the 
        administration of RRB programs and
  --detect and prevent fraud and abuse in such programs.
    To accomplish its mission, OA conducts financial, performance, and 
compliance audits and evaluations of RRB programs. In addition, OA 
develops the OIG's response to audit related requirements and requests 
for information.
    During fiscal year 2011, OA will focus on areas affecting program 
performance; the efficiency and effectiveness of agency operations; and 
areas of potential fraud, waste, and abuse. OA will continue its 
emphasis on long-term systemic problems and solutions, and will address 
major issues that affect the RRB's service to rail beneficiaries and 
their families. OA has identified four broad areas of potential audit 
coverage:
  --Financial accountability;
  --Railroad Retirement Act & Railroad Unemployment Insurance Act 
        benefit program operations;
  --Railroad Medicare Program Operations, including activities of 
        Palmetto, GBA; and
  --Security, privacy, and information management.
    During fiscal year 2011, OA must accomplish the following mandated 
activities with its own staff:
  --Audit of the RRB's financial statements pursuant to the 
        requirements of the Accountability of Tax Dollars Act of 2002 
        and
  --Evaluation of information security pursuant to the Federal 
        Information Security Management Act (FISMA).
    During fiscal year 2011, OA will complete the audit of the RRB's 
fiscal year 2010 financial statements and begin its audit of the 
agency's fiscal year 2011 financial statements. OA contracts with a 
consulting actuary for technical assistance in auditing the RRB's 
``Statement of Social Insurance'' which became basic financial 
information effective for fiscal year 2006. In fiscal year 2011, the 
cost of this contract is expected to increase significantly over the 
current contract amount.
    In addition to performing the annual evaluation of information 
security, OA also conducts audits of individual computer application 
systems which are required to support the annual FISMA evaluation. Our 
work in this area is targeted toward the identification and elimination 
of security deficiencies and system vulnerabilities, including controls 
over sensitive personally identifiable information.
    OA undertakes additional projects with the objective of allocating 
available audit resources to areas in which they will have the greatest 
value. In making that determination, OA considers staff availability, 
current trends in management, congressional and Presidential concerns.
                        office of investigations
    OI focuses its efforts on identifying, investigating, and 
presenting benefit fraud cases for prosecution. OI conducts 
investigations, throughout the United States, relating to the 
fraudulent receipt of RRB disability, unemployment, sickness, 
retirement/survivor, and Railroad Medicare benefits. OI investigates 
railroad employers and unions when there is an indication that they 
have submitted false reports to the RRB. OI also investigates 
allegations regarding agency employee misconduct and threats against 
RRB employees. Investigative efforts can result in criminal 
convictions, administrative sanctions, civil penalties, and/or the 
recovery of program benefit funds.
    OI's investigative results for fiscal year 2009 are:

------------------------------------------------------------------------
                          Item                                Amount
------------------------------------------------------------------------
Civil judgments.........................................              29
Indictments/informations................................              78
Convictions.............................................              48
Recoveries/collections..................................      $7,056,086
------------------------------------------------------------------------

    OI initiates cases based on information from a variety of sources. 
The agency conducts computer matching of employment and earnings 
information reported to State governments and the Social Security 
Administration with RRB benefits paid data. Referrals are made to OI if 
a match is found. OI also receives allegations of fraud through the OIG 
Hotline, contacts with State, local and Federal agencies, and 
information developed through audits conducted by the OIG's Office of 
Audit.
    Presently, disability and Railroad Medicare fraud cases constitute 
more than 60 percent of OI's total caseload. These cases often involve 
complicated schemes and result in the recovery of substantial funds for 
the agency's trust funds. They also require considerable time and 
resources such as travel by special agents to conduct surveillance, 
numerous witness interviews, or more sophisticated investigative 
techniques. Additionally, these fraud investigations are extremely 
document-intensive and involve complicated financial analysis.
    During fiscal year 2011, OI anticipates an ongoing caseload of more 
than 400 investigations. OI will continue to coordinate its efforts 
with agency program managers to address vulnerabilities in benefit 
programs that allow fraudulent activity to occur and will recommend 
changes to ensure program integrity. OI plans to continue proactive 
projects to identify fraud matters that are not detected through the 
agency's program policing mechanisms.
                               conclusion
    In fiscal year 2011, the OIG will continue to focus its resources 
on the review and improvement of RRB operations and will conduct 
activities to ensure the integrity of the agency's trust funds. This 
office will continue to work with agency officials to ensure the agency 
is providing quality service to railroad workers and their families. 
The OIG will also aggressively pursue all individuals who engage in 
activities to fraudulently receive RRB funds. The OIG will continue to 
keep the subcommittee and other members of Congress informed of any 
agency operational problems or deficiencies.
    The OIG sincerely appreciates its cooperative relationship with the 
agency and the ongoing assistance extended to its staff during the 
performance of their audits and investigations. Thank you for your 
consideration.
                                 ______
                                 
    Prepared Statement of the Ryan White Medical Providers Coalition
                              introduction
    I am Dr. Kathleen Clanon, an HIV physician and Medical Director of 
the HIV ACCESS program in Oakland, California. I am submitting written 
testimony on behalf of the Ryan White Medical Providers Coalition.
    Thank you for the opportunity to discuss the important HIV/AIDS 
care conducted at Ryan White Part C-funded programs nationwide. 
Specifically, the Ryan White Medical Provider Coalition, the HIV 
Medicine Association, the CAEAR Coalition, and the American Academy of 
HIV Medicine estimate that approximately $407 million is needed to 
provide the standard of care for all part C program patients. (This 
estimate is based on the current cost of care and the number of 
patients that part C clinics serve.) While these are exceptionally 
challenging economic times, we request $338 million for Ryan White Part 
C programs in fiscal year 2011. This $131 million funding increase 
would help meet the goal of providing the standard of care to all 
patients who need it.
    The Ryan White Medical Providers Coalition was formed in 2006 to be 
a voice for medical providers across the Nation delivering quality care 
to their patients through part C of the Ryan White program. We 
represent every kind of program, from small and rural to large urban 
sites in every region in the country. We speak for those who often 
cannot speak for themselves and we advocate for a full range of primary 
care services for these patients. Sufficient funding for part C is 
essential to providing appropriate care for individuals living with 
HIV/AIDS.
    Part C of the Ryan White Program funds comprehensive HIV care and 
treatment, services that are directly responsible for the dramatic 
decreases in AIDS-related mortality and morbidity over the last decade. 
The Centers for Disease Control and Prevention estimate that there are 
more than 1.1 million persons living with HIV/AIDS, and in 2008 
approximately 240,000, or almost 1 in 4, of these individuals received 
services from part C medical providers--a dramatic 30 percent increase 
in patients in less than 10 years.
    The recent passage of healthcare reform is a great achievement, but 
many of the legislation's provisions and programs will not take effect 
for several years. In the meantime, part C clinics need additional 
resources today to continue delivering lifesaving and cost-effective 
care to the growing number of people living with HIV.
    the cost of care is reasonable; the reimbursement for care isn't
    On average it costs $3,501 per person per year to provide the 
comprehensive outpatient care and treatment available at part C-funded 
programs, including lab work, STD/TB/Hepatitis screening, ob/gyn care, 
dental care, mental health and substance abuse treatment, and case 
management. Part C funding covers only a small percentage of the total 
cost of this comprehensive care, with some programs receiving $450 (12 
percent of the total cost) or less per patient per year to cover the 
cost of care.
               part c programs save both lives and money
    Investing in part C services improves lives and saves money. In the 
United States, nearly 50 percent of persons living with HIV/AIDS who 
are aware of their status are not in regular care. Early and reliable 
access to HIV care and treatment both helps patients with HIV live 
relatively healthy and productive lives and is more cost effective. One 
study from the Part C Clinic at the University of Alabama at Birmingham 
found that patients treated at the later stages of HIV disease required 
2.6 times more healthcare dollars than those receiving earlier 
treatment meeting Federal HIV treatment guidelines.
         patient loads are increasing at an unsustainable rate
    Patient loads have been increasing at part C clinics nationwide, 
despite the fact that there has not been significant new Federal 
funding, and in many cases, State and/or local funding has been cut. A 
steady increase in patients has occurred on account of higher diagnosis 
rates and declining insurance coverage resulting in part from the 
economic downturn. The CDC reports that the number of HIV/AIDS cases 
increased by 15 percent from 2004 to 2007 in 34 States.\1\
---------------------------------------------------------------------------
    \1\ Centers for Disease Control and Prevention. HIV/AIDS 
Surveillance Report, 2007. Vol. 19. U.S. Department of Health and Human 
Services, Centers for Disease Control and Prevention; 2009:5. 
www.cdc.gov/hiv/topics/surveillance/resources/reports/.
---------------------------------------------------------------------------
    For example, a clinic in Henderson, North Carolina, has seen its 
patient load increase almost nine fold from 35 patients in 2000 to 
nearly 300 today, yet the clinic is receiving less funding now than 10 
years ago. This clinic is the only facility of its kind for people with 
HIV within 45 miles and it is struggling to deliver the complex care 
these patients need. At another clinic in Greensboro, North Carolina, 
the number of patients more than doubled from 321 patients in 2002 to 
more than 800 in 2009. The clinic continues to deliver care in the same 
space with the same staffing as in 2002 despite the 250 percent 
increase in patients. Meeting this growing demand requires the maximum 
effort of existing staff, and position vacancies prevented enrollment 
of new patients for several months during 2009. In Sonoma County, 
California, funding has become so scarce that the Part C Clinic there 
is closing its doors, forced to patch together new medical homes in 
other locations for 350 patients.
    Our patients struggle in times of plenty, and during this economic 
downturn they have relied on part C programs more than ever. While 
these programs have been underfunded for years, State and local 
economic pressures are creating a crisis in our communities. Clinics 
are discontinuing primary care and other critical medical services, 
such as laboratory monitoring; suffering eviction from their clinic 
locations; operating only 4 days per week; and laying off staff just to 
get by. Years of nearly flat funding combined with large increases in 
the patient population and the recent economic crisis are negatively 
impacting the ability of part C providers to serve their patients.
    The following graph demonstrates the growing disparity between 
funding for part C and the increasing patient population. I refer to 
this gap between funding and patients as the ``Triangle of Misery'' 
because it represents both the thousands of patients who deserve more 
than we can offer and the part C programs nationwide that are 
struggling to serve them with shrinking resources.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               conclusion
    These are challenging economic times, and we recognize the severe 
fiscal constraints Congress faces in allocating limited Federal 
dollars. However, Congress itself has recognized the need to 
substantially increase part C funds in its recent passage of the 
reauthorization of the Ryan White Program in September 2009. In this 
law, Congress recommended funding Ryan White Part C Programs at $259 
million in fiscal year 2011, a $52 million increase more than the 
fiscal year 2010 funding level.
    The significant financial and patient pressures that we face in our 
clinics at home propel us to request a substantial Federal investment 
of $338 million in fiscal year 2011 for Ryan White Part C programs to 
support medical providers nationwide in delivering appropriate and 
effective HIV/AIDS care to their patients. Thank you for your time and 
consideration of our request.
                                 ______
                                 
  Prepared Statement of the Spina Bifida Association and Spina Bifida 
                               Foundation
                        funding request overview
    The Spina Bifida Association (SBA) and the Spina Bifida Foundation 
(SBF) respectfully request that the subcommittee provide the following 
allocations in fiscal year 2011 to help improve quality-of-life for 
people with Spina Bifida:
  --$7.5 million for the National Spina Bifida Program within the 
        National Center on Birth Defects and Developmental Disabilities 
        at the Centers for Disease Control and Prevention (CDC) to 
        support existing program initiatives and allow for the further 
        development of the National Spina Bifida Patient Registry.
  --$5.126 million for the CDC's national folic acid education and 
        promotion efforts to support the prevention of Spina Bifida and 
        other neural tube defects.
  --$26.342 million to strengthen the CDC's National Birth Defects 
        Prevention Network.
  --$163.5 million in overall funding for the CDC's National Center on 
        Birth Defects and Developmental Disabilities.
  --$611 million for the Agency for Healthcare Research and Quality 
        (AHRQ).
  --$32.2 billion for the National Institutes of Health (NIH) to 
        support biomedical research.
                        background and overview
    On behalf of the estimated 166,000 individuals and their families 
who are affected by all forms of Spina Bifida--the Nation's most 
common, permanently disabling birth defect--SBA and SBF appreciate the 
opportunity to submit written testimony for the record regarding fiscal 
year 2011 funding for the National Spina Bifida Program and other 
related Spina Bifida initiatives. SBA is a national voluntary health 
agency, working on behalf of people with Spina Bifida and their 
families through education, advocacy, research and service. The SBF 
assists SBA in its fundraising and advocacy efforts. SBA and SBF stand 
ready to work with Members of Congress and other stakeholders to ensure 
our Nation mounts and sustains a comprehensive effort to reduce and 
prevent suffering from Spina Bifida.
    Spina Bifida, a neural tube defect, occurs when the spinal cord 
fails to close properly within the first few weeks of pregnancy and 
most often before the mother knows that she is pregnant. Over the 
course of the pregnancy--as the fetus grows--the spinal cord is exposed 
to the amniotic fluid, which increasingly becomes toxic. It is believed 
that the exposure of the spinal cord to the toxic amniotic fluid erodes 
the spine and results in Spina Bifida. There are varying forms of Spina 
Bifida occurring from mild--with little or no noticeable disability--to 
severe--with limited movement and function. In addition, within each 
different form of Spina Bifida the effects can vary widely. 
Unfortunately, the most severe form of Spina Bifida occurs in 96 
percent of children born with this birth defect.
    The result of this neural tube defect is that most people with it 
suffer from a host of physical, psychological, and educational 
challenges--including paralysis, developmental delay, numerous 
surgeries, and living with a shunt in their skulls, which seeks to 
ameliorate their condition by helping to relieve cranial pressure 
associated with spinal fluid that does not flow properly. As we have 
testified previously, the good news is that after decades of poor 
prognoses and short life expectancy, children with Spina Bifida are now 
living into adulthood and increasingly into their advanced years. These 
gains in longevity, principally, are due to breakthroughs in research, 
combined with improvements generally in healthcare and treatment. 
However, with this extended life expectancy, our Nation and people with 
Spina Bifida now face new challenges, such as transitioning from 
pediatric to adult healthcare providers, education, job training, 
independent living, healthcare for secondary conditions, and aging 
concerns, among others. Individuals and families affected by Spina 
Bifida face many challenges--physical, emotional, and financial. 
Fortunately, with the creation of the National Spina Bifida Program in 
2003, individuals and families affected by Spina Bifida now have a 
national resource that provides them with the support, information, and 
assistance they need and deserve.
    As is discussed below, the daily consumption of 400 micrograms of 
folic acid by women of childbearing age, prior to becoming pregnant and 
throughout the first trimester of pregnancy, can help reduce the 
incidence of Spina Bifida, by up to 70 percent. However, 3,000 
pregnancies are affected by Spina Bifida, resulting in 1,500 babies 
born each year with the condition, and, as such, with the aging of the 
Spina Bifida population and a steady number of affected births 
annually, the Nation must take additional steps to ensure that all 
individuals living with this complex birth defect can live full, 
healthy, and productive lives.
                          cost of spina bifida
    It is important to note that the lifetime costs associated with a 
typical case of Spina Bifida--including medical care, special 
education, therapy services, and loss of earnings--are as much as $1 
million. The total societal cost of Spina Bifida is estimated to exceed 
$750 million per year, with just the Social Security Administration 
payments to individuals with Spina Bifida exceeding $82 million per 
year. Moreover, tens of millions of dollars are spent on medical care 
paid for by the Medicaid and Medicare programs. Efforts to reduce and 
prevent suffering from Spina Bifida will help to not only save money, 
but will also save--and improve--lives.
  improving quality-of-life through the national spina bifida program
    Since, 2001, SBA has worked with Members of Congress and staff at 
the CDC to help improve our Nation's efforts to prevent Spina Bifida 
and diminish suffering--and enhance quality-of-life--for those 
currently living with this condition. With appropriate, affordable, and 
high-quality medical, physical, and emotional care, most people born 
with Spina Bifida likely will have a normal or near normal life 
expectancy. The CDC's National Spina Bifida Program works on two 
critical levels--to reduce and prevent Spina Bifida incidence and 
morbidity and to improve quality-of-life for those living with Spina 
Bifida.
    The National Spina Bifida Program established the National Spina 
Bifida Resource Center housed at the SBA, which provides information 
and support to help ensure that individuals, families, and other 
caregivers, such as health professionals, have the most up-to-date 
information about effective interventions for the myriad primary and 
secondary conditions associated with Spina Bifida. Among many other 
activities, the program helps individuals with Spina Bifida and their 
families learn how to treat and prevent secondary health problems, such 
as bladder and bowel control difficulties, learning disabilities, 
depression, latex allergies, obesity, skin breakdown, and social and 
sexual issues. Children with Spina Bifida often have learning 
disabilities and may have difficulty with paying attention, expressing 
or understanding language, and grasping reading and math. All of these 
problems can be treated or prevented, but only if those affected by 
Spina Bifida--and their caregivers--are properly educated and given the 
skills and information they need to maintain the highest level of 
health and well-being possible. The National Spina Bifida Program's 
secondary prevention activities represent a tangible quality-of-life 
difference to the 166,000 individuals living with all forms of Spina 
Bifida, with the goal being living well with Spina Bifida.
    An important resource to better determine best clinical practices 
and the most cost effective treatments for Spina Bifida is the National 
Spina Bifida Registry, now in its second year. Nine sites throughout 
the Nation are collecting patient data, which supports the creation of 
quality measures and will assist in improving clinical research that 
will truly save lives, while also realizing a significant cost savings.
    In fiscal year 2010, SBA requested that $7 million be allocated to 
support and expand the National Spina Bifida Program. In the final 
fiscal year 2010 Omnibus Appropriations Act, Congress provided $6.242 
million for this program, a slight increase following 3 years of 
essentially flat funding. SBA understands that the Congress and the 
Nation face unprecedented budgetary challenges and, as such, 
appreciates this modest increase. However, the progress being made by 
the National Spina Bifida Program must be sustained and expanded to 
ensure that people with Spina Bifida--over the course of their 
lifespan--have the support and access to quality care they need and 
deserve. To that end, SBA respectfully urges the subcommittee to 
Congress allocate $7.5 million in fiscal year 2011 to the program, so 
it can continue and expand its current scope of work; further develop 
the National Spina Bifida Patient Registry; and sustain the National 
Spina Bifida Resource Center. Increasing funding for the National Spina 
Bifida Program will help ensure that our nation continues to mount a 
comprehensive effort to prevent and reduce suffering from--and the 
costs of--Spina Bifida.
                        preventing spina bifida
    While the exact cause of Spina Bifida is unknown, over the last 
decade, medical research has confirmed a link between a woman's folate 
level before pregnancy and the occurrence of Spina Bifida. Sixty-five 
million women of child-bearing age are at-risk of having a child born 
with Spina Bifida. As mentioned above, the daily consumption of 400 
micrograms of folic acid prior to becoming pregnant and throughout the 
first trimester of pregnancy can help reduce the incidence of Spina 
Bifida, by up to 70 percent. There are few public health challenges 
that our Nation can tackle and conquer by nearly three-fourths in such 
a straightforward fashion. However, we must still be concerned with 
addressing the 30 percent of Spina Bifida cases that cannot be 
prevented by folic acid consumption, as well as ensuring that all women 
of childbearing age--particularly those most at-risk for a Spina Bifida 
pregnancy--consume adequate amounts of folic acid prior to becoming 
pregnant.
    Since 1968, the CDC has led the Nation in monitoring birth defects 
and developmental disabilities, linking these health outcomes with 
maternal and/or environmental factors that increase risk, and 
identifying effective means of reducing such risks. The good news is 
that progress has been made in convincing women of the importance of 
folic acid consumption and the need to maintain a diet rich in folic 
acid. This public health success should be celebrated, but still too 
many women of childbearing age consume inadequate daily amounts of 
folic acid prior to becoming pregnant, and too many pregnancies are 
still affected by this devastating birth defect. The Nation's public 
education campaign around folic acid consumption must be enhanced and 
broadened to reach segments of the population that have yet to heed 
this call--such an investment will help ensure that as many cases of 
Spina Bifida can be prevented as possible.
    SBA is the managing agent for the National Council on Folic Acid, a 
multi-sector partnership reaching more than 100 million people a year 
with the folic acid message. The goal is to increase awareness of the 
benefits of folic acid, particularly for those at elevated risk of 
having a baby with neural tube defects (those who have Spina Bifida 
themselves, or those who have already conceived a baby with Spina 
Bifida). With additional funding in fiscal year 2011, CDC's folic acid 
awareness activities could be expanded to reach the broader population 
in need of these public health education, health promotion, and disease 
prevention messages. SBA advocates that Congress provide additional 
funding to CDC to allow for a targeted public health education and 
awareness focus on at-risk populations (e.g., Hispanic-Latino 
communities) and health professionals who can help disseminate 
information about the importance of folic acid consumption among women 
of childbearing age.
    In addition to a $7.5 million fiscal year 2011 allocation for the 
National Spina Bifida Program, SBA urges the subcommittee to provide 
$5.126 million for the CDC's national folic acid education and 
promotion efforts to support the prevention of Spina Bifida and other 
neural tube defects; $26.342 million to strengthen the CDC's National 
Birth Defects Prevention Network; and $163.5 million to fund the 
National Center on Birth Defects and Developmental Disabilities.
         improving healthcare for individuals with spina bifida
    As you know, AHRQ's mission is to improve the outcomes and quality 
of healthcare, reduce healthcare costs, improve patient safety, 
decrease medical errors, and broaden access to essential health 
services. AHRQ's work is vital to the evaluation of new treatments, 
which helps ensure that individuals living with Spina Bifida continue 
to receive state-of-the-art care and interventions. To that end, we 
request a $611 million fiscal year 2011 allocation for AHRQ, so it can 
continue to provide guidance and support to the National Spina Bifida 
Patient Registry and help improve quality of care and outcomes for 
people with Spina Bifida.
         sustain and seize spina bifida research opportunities
    Our Nation has benefited immensely from our past Federal investment 
in biomedical research at the NIH. SBA joins with other in the public 
health and research community in advocating that NIH receive increased 
funding in fiscal year 2011. This funding will support applied and 
basic biomedical, psychosocial, educational, and rehabilitative 
research to improve the understanding of the etiology, prevention, cure 
and treatment of Spina Bifida and its related conditions. In addition, 
SBA respectfully requests that the Subcommittee include the following 
language in the report accompanying the fiscal year 2011 LHHS 
appropriations measure:

    ``The Committee encourages NIDDK, NICHD, and NINDS to study the 
causes and care of the neurogenic bladder in order to improve the 
quality of life of children and adults with Spina Bifida; to support 
research to address issues related to the treatment and management of 
Spina Bifida and associated secondary conditions, such as 
hydrocephalus; and to invest in understanding the myriad co-morbid 
conditions experienced by children with Spina Bifida, including those 
associated with both paralysis and developmental delay.''
                               conclusion
    Please know that SBA and SBF stand ready to work with the 
Subcommittee and other Members of Congress to advance policies and 
programs that will reduce and prevent suffering from Spina Bifida. 
Again, we thank you for the opportunity to present our views regarding 
fiscal year 2011 funding for programs that will improve the quality-of-
life for the 166,000 Americans and their families living with all forms 
of Spina Bifida.
                                 ______
                                 
                 Prepared Statement of Status C Unknown
    Status C Unknown (SCU) is a nonprofit organization. SCU's mission 
is to educate those impacted by HCV about treatment options and promote 
enhanced HCV awareness among the general public, healthcare 
communities, and policymakers. Our strategic focus is prevention 
education, support and advocacy. We are a multi-program organization 
with primary focus on legislative activities and programs, both 
statewide and nationally. We have led the way in hepatitis C advocacy 
since 2005 in collaboration and partnerships with other community based 
organizations, service providers, New York State Department of Health 
(NYSDOH) and New York City Department of Health and Mental Hygiene (NYC 
DOHMH).
    As you craft the fiscal year 2011 Labor-HHS-Education 
appropriations legislation, we urge you to consider the following 
critical funding needs of viral hepatitis programs:
    Specific funding needs:
  --We are requesting an increase of $30.7 million for a total of $50 
        million for the Centers for Disease Control and Prevention 
        (CDC) Division of Viral Hepatitis (DVH).
  --At least $20 million for an adult hepatitis B vaccination 
        initiative through the CDC Section 317 Vaccine Program.
  --$10 million for the Substance Abuse and Mental Health Services 
        Administration (SAMHSA) to fund a project within the Programs 
        of Regional and National Significance (PRNS) to reach persons 
        who use drugs with viral hepatitis prevention services.
    General funding needs:
  --Increase funding for Community Health Centers to increase their 
        capacity to serve people with chronic viral hepatitis;
  --Increase funding for the Ryan White Program to adequately cover 
        persons co-infected with viral hepatitis through additional 
        case management, provider education and coverage of viral 
        hepatitis drug therapies;
  --Increase funding for the National Institutes of Health to support 
        their Action Plan for Liver Disease Research.
Specific Funding Needs
            Division of Viral Hepatitis--Fiscal Year 2011 Request: 
                    $30.7 million
    The recently released Institute of Medicine (IOM) report, 
``Hepatitis and Liver Cancer: A National Strategy for Prevention and 
Control of Hepatitis B and C'' found that the public health response 
needs to be significantly ramped up. The IOM report attributes low 
public and provider awareness to the lack of public resources. 
Seventeen of the 22 recommendations in the report are specific to CDC 
DVH and State health departments. In order to implement these 
recommendations to improve the Federal response, resources must be 
increased to health departments which are the backbone of the Nation's 
public health system and coordinate the response to these epidemics.
    President Obama's budget proposal includes a $1.8 million increase 
for the Division of Viral Hepatitis (DVH) at CDC, which is woefully 
insufficient to address infectious diseases of this magnitude. While 
operating on the smallest Division budget for the prevention of 
infectious diseases within CDC, DVH will never be able to sufficiently 
prevent and manage these epidemics under its current fiscal 
constraints. States and cities receive an average funding award from 
DVH of $90,000. This is only enough for a single staff position and is 
not sufficient for the provision of core prevention services. These 
services are essential to preventing new infections, increasing the 
number of people who know they are infected, and following up to help 
those identified to remain healthy and productive. We believe this 
increase is an important first step to making hepatitis prevention 
services more widely available. The expanded services should include 
hepatitis B and C education, counseling, testing, and referral in 
addition to delivering hepatitis A and B vaccine, and establishing a 
surveillance system of chronic hepatitis B and C.
            Section 317 Vaccine Program--Fiscal Year 2011 Request: $20 
                    million
    CDC identified funds through program cost savings in the Section 
317 Vaccine Program, allocating $20 million in fiscal year 2008 and $16 
million in fiscal year 2009 for purchase of the hepatitis B vaccine for 
high-risk adults. We commend CDC for prioritizing high-risk adults with 
this initiative, but relying on the availability of these cost savings 
is not enough. Additionally, this initiative does not support any 
infrastructure or personnel and health departments need additional 
funding to support the delivery of this vaccine. We request a 
continuation of $20 million in fiscal year 2011 for an adult hepatitis 
B vaccination initiative through the CDC's Section 317 Vaccine Program.
            Substance Abuse and Mental Health Services Administration--
                    Fiscal Year 2011 Request: $10 Million
    Persons who use drugs are disproportionately impacted by hepatitis 
B and C. The Substance Abuse and Mental Health Services Administration 
(SAMHSA) Center for Substance Abuse Prevention (CSAP) and Center for 
Substance Abuse Treatment (CSAT) are uniquely positioned to reach 
populations at risk for hepatitis B and C. The existing infrastructure 
of substance abuse prevention and treatment programs in the United 
States provides an important opportunity to reach Americans at risk or 
living with viral hepatitis. We urge you to provide $10 million to 
SAMHSA to fund a project within the Programs of Regional and National 
Significance (PRNS) to reach persons who use drugs with viral hepatitis 
prevention services.
General Funding Needs
            Medical Management and Treatment
    Access to available treatments and support services are critical to 
combat viral hepatitis mortality. While we are supportive of the 
President's efforts to modernize and expand access to healthcare, we 
also support increased funding for existing safety net programs. Low-
income patients who are uninsured or underinsured can and do seek 
services at Community Health Centers (CHCs). With the growing 
importance of CHCs as a safety net in providing frontline support for 
these individuals, we support increasing resources for CHCs to increase 
their capacity to serve people with chronic viral hepatitis.
    Many low-income individuals co-infected with viral hepatitis and 
HIV can obtain services through the Ryan White Program, however only 
half of the State AIDS Drug Assistance Programs (ADAPs) are able to 
provide viral hepatitis treatments to co-infected clients. We urge you 
to increase Ryan White funding so States can provide adequate coverage 
for co-infected clients. Increased resources are also needed to improve 
provider education on viral hepatitis medical management and treatment, 
to cover additional case management for patients undergoing treatment 
and to allow more states to add viral hepatitis therapies and viral 
load tests to their ADAP formularies. While Ryan White providers offer 
lifesaving care to co-infected clients, they also have the expertise 
and infrastructure to provide limited services to viral hepatitis mono-
infected clients.
            Research
    Finally, research is needed to increase understanding of the 
pathogenesis of hepatitis B and C. Further research to improve 
hepatitis B and C treatments that are currently difficult to tolerate 
and have low ``cure'' rates are also needed. The development of 
clinical strategies to slow the progression of liver disease among 
persons living with chronic infection, especially to those who may not 
respond to current treatment must be addressed. With effective vaccines 
against hepatitis A and B, it is important to continue to work towards 
the development of a vaccine against hepatitis C infection. The Liver 
Disease Branch, located within the National Institute of Diabetes and 
Digestive and Kidney Diseases (NIDDK) at the National Institutes of 
Health (NIH), has developed an Action Plan for Liver Disease Research. 
We request full funding for NIH to support the recommendations and 
action steps outlined in this Action Plan for Liver Disease Research.
    It is absolutely essential and urgent that we act aggressively to 
address the threat of viral hepatitis in the United States. In 2007 
alone, the CDC estimated that 43,000 Americans were newly infected with 
hepatitis B and 17,000 with hepatitis C. Unfortunately, it is believed 
that these estimates of hepatitis B and C infections are just the tip 
of the iceberg. Most people living with hepatitis B and more than 
three-fourths of people living with hepatitis C do not know that they 
are infected. It is estimated that the baby boomer population currently 
accounts for two out of every three cases of chronic hepatitis C. It is 
also estimated that this epidemic will increase costs by billions of 
dollars to our private insurers and public systems of health such as 
Medicare and Medicaid, and account for billions lost due to decreased 
productivity from the millions of American workers suffering from 
chronic hepatitis B and C.
    As you continue to draft the fiscal year 2011 Labor, Health and 
Human Services, and Education, and Related Agencies appropriations 
bill, we ask that you consider a generous increase for viral hepatitis 
prevention to counter several years of flat or inadequate growth in 
funding. A strong public health response is needed to meet the 
challenges of these costly infectious diseases. The viral hepatitis 
community welcomes the opportunity to work with you and your staff on 
this important issue.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience
                              introduction
    Mr. Chairman and Members of the Subcommittee, I am Michael E. 
Goldberg, M.D. I am the David Mahoney Professor of Brain and Behavior, 
in the Departments of Neuroscience, Neurology, Psychiatry, and 
Ophthalmology; as well as the Director of the Mahoney-Keck Center for 
Brain and Behavior Research at Columbia University and President of the 
Society for Neuroscience (SfN). My area of specialization is the 
physiology of cognitive processes: visual attention, spatial 
perception, and decisionmaking.
    On behalf of the 40,000 members of the Society for Neuroscience, I 
would like to thank you for your past support of neuroscience research 
at the National Institutes of Health (NIH). Research funded by NIH has 
returned significant dividends in terms of improved patient care as 
well as the development of prevention programs for brain and nervous 
system disorders. In this testimony, I will highlight how taxpayers 
have benefited from this investment, and how a sustained investment can 
enhance medical research, health, and economic strength.
                    fiscal year 2011 budget request
    The entire scientific community is deeply grateful for the historic 
investment in NIH through the American Recovery and Reinvestment Act 
(ARRA), which is now funding high quality research, while creating and 
preserving jobs. This investment in innovation and science is not only 
setting a path to new discoveries, but also helping to stimulate the 
national and local economies, preserving or creating an estimated 
50,000 new high-wage, hi-tech jobs at a critical time for U.S. 
research, and producing an estimated 2.5 return on investment for local 
communities. To continue this exciting scientific and economic momentum 
and maintain the current research capacity, the Society respectfully 
requests that Congress provide a fiscal year 2011 appropriation in the 
amount of $35 billion for NIH. This level of funding will build on the 
research activities supported by the regular 2010 appropriations and 
ensure that the Nation's universities do not lose scientific ground, 
and be forced to lay off thousands of U.S. scientists and their support 
staffs, when the ARRA funding ends this year. A strong investment in 
the scientific enterprise will ensure that there is not a dramatic drop 
in research activity and more job losses, as well as serve strong 
encouragement to keep our young researchers in the training pipeline 
and keep the programmers, technicians, and engineers so critical to 
biomedical research in their jobs.
                 what is the society for neuroscience?
    The Society for Neuroscience (SfN) is a nonprofit membership 
organization of basic scientists and physicians who study the brain and 
nervous system. SfN's mission is to:
  --Advance the understanding of the brain and the nervous system.
  --Provide professional development activities, information, and 
        educational resources for neuroscientists at all stages of 
        their careers.
  --Promote public information and general education about the nature 
        of scientific discovery and the results and implications of the 
        latest neuroscience research.
  --Inform legislators and other policymakers about new scientific 
        knowledge and recent developments in neuroscience research and 
        their implications for public policy, societal benefit, and 
        continued scientific progress.
                         what is neuroscience?
    Neuroscience is the study of the nervous system--including the 
brain, the spinal cord, and networks of sensory nerve cells, or 
neurons, throughout the body. Humans contain roughly 100 billion 
neurons, the functional units of the nervous system. Neurons 
communicate with each other by sending electrical signals long 
distances and then releasing chemicals called neurotransmitters which 
cross synapses--small gaps between neurons.
    The nervous system consists of two main parts. The central nervous 
system is made up of the brain and spinal cord. The peripheral nervous 
system includes the nerves that serve the neck, arms, trunk, legs, 
skeletal muscles, and internal organs.
    Critical components of the nervous system are molecules, neurons, 
and the processes within and between cells. These are organized into 
large neural networks and systems controlling functions such as vision, 
hearing, learning, breathing, and, ultimately, all of human behavior.
    Through their research, neuroscientists work to:
  --Describe the human brain and how it functions normally.
  --Determine how the nervous system develops, matures, and maintains 
        itself through life.
  --Find ways to prevent or cure many devastating neurological and 
        psychiatric disorders.
                  nih-funded brain research successes
    The funds provided in the past have helped neuroscientists make 
significant progress in diagnosing and treating neurological disorders. 
Today, thanks to NIH-funded research, scientists and healthcare 
providers have a much better understanding of how the brain functions.
    The following are a few of the many success stories in neuroscience 
research:
  --Post-traumatic Stress Disorder (PTSD).--For years it was thought 
        that those who survived or witnessed a trauma should be able to 
        tough it out and move on. But scientific studies funded by the 
        NIH helped reveal that PTSD is a serious brain disorder with 
        biological underpinnings. Healthcare practitioners today are 
        better able than ever to help those who have suffered a 
        traumatic event to cope, thanks to research over the past 20 
        years. Yet much remains to be done, and this research must 
        continue aggressively in light of returning veterans' 
        healthcare needs in coming generations. NIH-funded studies on 
        the brain chemicals and structures altered in PTSD offer 
        particular hope for developing effective treatments. One 
        approach is to target the corticotrophin-releasing factor 
        (CRF), a brain chemical that plays a crucial role in 
        coordinating the body's response to stress. And NIH-funded 
        studies showed that drugs called selective serotonin reuptake 
        inhibitors improved the memory of patients with PTSD and 
        reduced shrinkage of brain tissue in the part of the brain 
        involved in memory and emotion, helping PTSD patients better 
        deal with traumatic memories.
  --Age-related Macular Degeneration.--As you grow older, you may some 
        day notice your vision becoming blurry or distorted. Straight 
        lines appear wavy, and it becomes more difficult to recognize 
        familiar faces. These signs may point to age-related macular 
        degeneration, or AMD, the leading cause of blindness and vision 
        impairment among older Americans. AMD is a form of 
        neurodegeneration that affects the light-sensitive nerve cells 
        in the retina at the back of the eye. AMD causes nerve cells in 
        the macula, the central region of the retina, to break down, 
        and abnormal deposits accumulate beneath the retina. Many 
        elderly people with AMD become socially isolated from friends 
        and family and can no longer participate in the activities they 
        once enjoyed. Thanks to work supported by NIH, scientists have 
        made rapid advances in understanding AMD and are beginning to 
        develop new treatments. Getting older remains the strongest 
        risk factor, but scientists now know that AMD results from a 
        complex interaction among genetic and environmental factors. 
        For example, smoking increases the risk. One recent NIH study 
        found that supplementing the diet with high levels of 
        antioxidants and zinc reduced patients' risk of developing the 
        advanced form of AMD disease by about 25 percent. The first 
        drug to treat AMD was approved by the FDA in 2000. When this 
        drug is activated by the application of laser light, it 
        eliminates the faulty blood vessels underneath the retina and 
        reduces further loss of vision. Doctors also may treat the 
        disease directly with laser surgery, destroying new blood 
        vessels and sealing leaks. Scientists have found important 
        similarities between deposits that form in the eye in AMD and 
        deposits in the brain in age-related neurodegenerative diseases 
        such as Alzheimer's and Parkinson's. The deposits are found in 
        some types of kidney disease as well. Because the effects of 
        treatments are easier to visualize in the eye, studies of AMD 
        may lead to improved treatment of these other diseases.
  --New Treatments From Nature's Poisons.--Neuroscientists have 
        uncovered an unlikely source of new treatments for neurological 
        disorders and diseases--the toxins and venoms of fish, snails, 
        frogs, scorpions, and other creatures of land and sea. Brain 
        researchers are finding that what makes these poisonous 
        substances dangerous in the wild may also make them useful 
        tools in the clinic. Already, they are helping to relieve 
        chronic pain, and they may one day prove effective in treating 
        brain cancer. One deadly venom--that of the giant yellow 
        Israeli scorpion aptly nicknamed the ``deathstalker''--is being 
        studied as a possible tool in the treatment of glioma, the most 
        common type of brain tumor. Each year, about 22,000 Americans 
        are diagnosed with this quickly spreading cancer, and many die 
        within 12 months. Glioma cells spread throughout the brain, 
        including into its narrowest spaces, with the help of special 
        ion channels not found in healthy brain cells. A chemical in 
        the deathstalker's venom, chlorotoxin, binds to these ion 
        channels, an action that slows down the cancer's growth without 
        harming nearby healthy cells. Other research suggests that 
        chlorotoxin may be able to help kill gliomas and perhaps other 
        cancerous tumors through a different mechanism--by shutting off 
        their blood supply. A non-narcotic synthetic form of a 
        poisonous compound found in the venom of cone snails is already 
        helping to relieve chronic neuropathic pain in humans. 
        Neuroscientists are currently investigating whether other 
        chemicals in cone snail venom might help block the surge of 
        electrical brain activity that triggers epileptic seizures.
    The above success stories required a close working collaboration 
between the basic researcher discovering new knowledge and the 
clinical-physician researcher translating those discoveries into new 
and better treatments. Much other research in neuroscience is dedicated 
to understanding basic phenomena, which, although motivated by clinical 
problems, are not yet at the stage where they can be translated into 
cures. For example, patients with lesions in the parietal lobe, a part 
of the cerebral cortex, are devastated by deficits in visual attention 
and spatial perception. NIH-supported research in my own laboratory has 
illuminated much of the signal processing by which the parietal lobe 
enables subjects to locate objects in space and attend to them. We now 
understand why patients with parietal lesions behave as they do; 
helping them is the next step. Other groups in the Mahoney-Keck Center 
at Columbia University are doing NIH-supported research into the basic 
mechanisms of how subjects assign value to objects in the world, and 
make choices based on that value. A clinically relevant example of 
these processes is the question of why a drug addict assigns high value 
to drugs and then decides to acquire them. This research will 
illuminate the neurobiology of processes like drug-seeking, and may 
lead to better treatment,
                               conclusion
    The field of neuroscience research holds great potential for 
addressing the numerous neurological illnesses that strike more than 50 
million Americans annually. As noted by my institution's (Columbia 
University) Mind, Brain and Behavior Initiative: ``In the 20th century, 
scientists discovered a great deal about the brain. They discovered 
what happens to individual neurons when memories are made and created 
powerful tools to image brain function. But while they made great 
strides toward understanding molecules, cells, and brain circuitry, 
scientists continue to unearth how these circuits come together in 
systems to record memories, illuminate sight and produce language. We 
have entered an era in which knowledge of nerve cell function has 
brought us to the threshold of a more profound understanding of 
behavior and of the mysteries of the human mind. Many believe that the 
next level of understanding will come from analyses not of single cells 
but of ensembles of neurons whose concerted actions must underlie the 
complexity of human behavior and thought. Neural circuits must, in some 
way, account for high-level functions such as memory, self-awareness, 
language, joy, depression, and anger. Taking this research to the next 
level through collaborations with the social sciences will illuminate 
and identify the role of social interactions in normal and abnormal 
brain function.'' However, this can only be accomplished by a 
consistent and strong funding source.
    An NIH appropriation of $35 billion for fiscal year 2011 is 
required to take this research to the next level in order to improve 
the health of Americans and to sustain the Nation's global 
competitiveness. Additionally, the new research capacity must be 
sustained to realize the scientific outcomes initiated by the Recovery 
Act dollars and to ensure the next generations of scientists will have 
opportunities in research. A strong scientific investment not only 
produces ground breaking medical treatments and discoveries; it 
supports national economic recovery, by creating thousands of jobs and 
forming the foundation for a stronger national economy based on 
technology and innovation.
    Thank you for the opportunity to submit this testimony.
                                 ______
                                 
   Prepared Statement of The Society for Healthcare Epidemiology of 
                                America
    The Society for Healthcare Epidemiology of America (SHEA) 
appreciates this opportunity to express its support for Federal efforts 
to prevent and reduce healthcare-associated infections. SHEA was 
founded in 1980 to advance the application of the science of healthcare 
epidemiology. The Society works to achieve the highest quality of 
patient care and healthcare personnel safety in all healthcare settings 
by applying epidemiologic principles and prevention strategies to a 
wide range of quality-of-care issues. SHEA is a growing organization, 
strengthened by its membership in all branches of medicine, public 
health, and healthcare epidemiology.
    SHEA and its members are committed to implementing evidence-based 
strategies to prevent healthcare-associated infections (HAIs). SHEA 
members have scientific expertise in evaluating potential strategies 
for eliminating preventable HAIs. We collaborate with a wide range of 
infection prevention and infectious diseases societies, specialty 
medical societies in other fields, quality improvement organizations, 
and patient safety organizations in order to identify and disseminate 
evidence-based practices.
    Our principal partners in the private sector are sister societies 
such as the Infectious Diseases Society of America and the Association 
of Professionals in Infection Control and Epidemiology. The Centers for 
Disease Control and Prevention (CDC), its Division of Healthcare 
Quality Promotion and the Federal Healthcare Infection Practices 
Advisory Committee, and the Council of State and Territorial 
Epidemiologists (CSTE) have been invaluable Federal partners in the 
development of guidelines for the prevention and control of HAIs and in 
their support of translational research designed to bring evidence-
based practices to patient care. Further, collaboration between experts 
in the field (epidemiologists and infection preventionists), CDC and 
the Agency for Healthcare Research and Quality (AHRQ) plays a critical 
role in defining and prioritizing the research agenda. In 2008, SHEA 
aligned with the Joint Commission and the American Hospital Association 
to produce and promote the implementation of evidence-based 
recommendations in the Compendium of Strategies to Prevent Healthcare-
Associated Infections in Acute Care Hospitals (http://www.shea-
online.org/about/compendium.cfm). The Society also contributes expert 
scientific advice to quality improvement organizations such as the 
Institute for Healthcare Improvement, the National Quality Forum, and 
State-based task forces focused on infection prevention and public 
reporting issues.
    SHEA applauds the Congress for its support of HAI prevention and 
reduction activities through the American Recovery and Reinvestment Act 
(ARRA) in 2009. SHEA continues to collaborate with the Department of 
Health and Human Services (HHS) and the CDC to translate agency goals 
and objectives for HAI funds into actions at the bedside that can 
achieve meaningful reductions in preventable HAIs. However, there is a 
critical need for ongoing congressional support of a national 
prevention strategy to address a problem estimated by CDC to be one of 
the top ten causes of death in the Nation and one that poses a 
significant economic burden on the Nation's healthcare system.
CDC
    The CDC plays a critical role in public health protection through 
its health promotion, prevention, preparedness, and research 
activities. As you consider fiscal year 2011 funding levels for the 
CDC, SHEA urges your support of at least $8.8 billion for CDC's ``core 
programs'' to ensure that the agency is able to carry out its 
prevention mission and to assure an adequate translation of new 
research into effective State and local programs. CDC's leadership was 
especially critical in efforts to provide support and guidance to State 
and local health departments as well as the public in its response to 
the 2009 H1N1 influenza virus. In addition to maintaining a strong 
public health infrastructure and protecting Americans from public 
health threats and emergencies, SHEA strongly believes that CDC 
programs play a vital role in reducing healthcare costs, improving the 
public's health, and providing much-needed unbiased education on HAIs 
and their prevention.
    SHEA is particularly concerned about CDC's Infectious Diseases 
program budget, which supports critical management and coordination 
functions for infectious diseases research, policy development, and 
intervention programs including related specific epidemiology and 
laboratory activities. SHEA recommends an fiscal year 2011 funding 
level of $2.3 billion for CDC's Infectious Diseases programs.
    Within the Emerging and Zoonotic Infectious Disease programs' 
proposed budget, the agency's Antimicrobial Resistance budget would be 
cut dramatically by $8.6 million, or just more than 50 percent. This 
vital program is necessary to help combat the rising crisis of drug 
resistance, one of the most pressing problems and greatest challenges 
that healthcare providers will confront during the coming decade. As 
bacteria and other micro-organisms are becoming more resistant to 
antimicrobials, our current therapeutic options are dwindling and 
research and development of new antibiotics is lagging. For the first 
time since the discovery and introduction of penicillin in the 1940s, 
we are dangerously close to a return to the pre-antibiotic era.
    Antimicrobial resistance is a very real problem that extends to 
every segment of the healthcare community. Yet the President's fiscal 
year 2011 budget would allow only 20 State/local health departments and 
healthcare systems to be funded for surveillance, prevention, and 
control of antimicrobial resistance, down from 48 this past year. It 
would also eliminate all grants to States for the successful Get Smart 
in the Community program to combat improper uses of antibiotics. These 
cuts would be devastating at a time when we need to be fully committed 
to the goals of antimicrobial stewardship, to the research needed to 
define the most effective interventions and to educating the next 
generation of stewards.
    CDC's antimicrobial resistance activities including State-based and 
local surveillance and educational initiatives are so critical to 
protecting Americans from serious and life-threatening infections that 
SHEA urges you to double funding for CDC's antimicrobial resistance 
activities to at least $40 million in fiscal year 2011.
    SHEA strongly supports the proposed fiscal year 2011 increase of 
$12.3 million in the Preparedness, Detection and Control of Infectious 
Diseases line item to allow for the expansion of the National 
Healthcare Safety Network from 2,500 to 5,000 hospitals. SHEA believes 
that protecting and improving resources for implementation of programs 
that standardize measurement of appropriate HAI outcomes and 
performance measures should be a priority. Our most valuable resource 
in this regard is NHSN, a voluntary, secure, Internet-based 
surveillance system that integrates and expands patient and healthcare 
personnel safety surveillance systems. Many States consider NHSN to be 
the best option for implementing standardized reporting of HAI data. It 
is an enormously important national resource and effective funding and 
support is essential to expand its implementation. The proposed 
increase will allow CDC to build on progress made with fiscal year 2009 
ARRA funds to leverage the NHSN and support the dissemination of HHS 
evidence-based practices within hospitals to reduce these infections 
and save lives. These funds are also intended to allow CDC to build the 
workforce capacity, laboratory facilities, and skills sets within State 
and local health departments to enhance the ability to detect and 
control emerging infectious diseases. It should be noted that this 
funding level is not sufficient to sustain the NHSN and State and local 
health department activities in this area.
    SHEA urges you to increase the funding for CDC's budget line for 
Emerging Infections by $25 million in fiscal year 2011. In fiscal year 
2010, $11.7 million of this budget line were allocated to the Division 
of Healthcare Quality and Promotion. The additional $25 million should 
be used to support State and local health department HAI surveillance 
and prevention activities and provide a means for sustaining and 
expanding the important HAI initiatives that have been started using 
ARRA funds. Given the condition of State economies, it is unlikely that 
State funding will be available and the benefits of most programs will 
be lost at the end of 2011 without continued Federal support. As we 
seek to strengthen our public health infrastructure and reorient our 
health system toward prevention and preparedness, a strong Federal role 
should be part of a comprehensive approach to reduce HAIs and costs in 
line with the goals of healthcare reform.
    On a related note, recognizing that currently 21 States mandate the 
use of NHSN for State public reporting and this number is expected to 
grow, immediate efforts should be made to enable interfaces between 
electronic health records (EHRs) and NHSN. In this way, additional 
burdens are not placed upon healthcare entities from either an 
infection prevention and control or information technology (IT) 
perspective as the desirability for national database integration 
proceeds.
    SHEA is pleased with the proposed establishment and funding ($10 
million) of a new workforce program, the Health Prevention Corps, 
within the CDC to enhance the capacity of the public health 
infrastructure to respond to current and emerging health threats. This 
program is intended to recruit new talent for State/local health 
departments with a focus on disciplines with known workforce shortages, 
such as epidemiology. This investment is very timely, as a recently 
released report from the CSTE documented a 10 percent decline in the 
number of State-based epidemiologists over the last 3 years, with a 40 
percent deficit in the overall number of epidemiologists needed for 
full capacity across the 50 States. Clearly, our ability to reduce and 
prevent HAIs is highly dependent upon a continued strong investment in 
hospital infrastructure and qualified personnel for infection 
prevention and control.
National Institutes of Health (NIH)
    SHEA is very pleased that ARRA infused the NIH with billions of 
dollars for research projects that will enable growth and investment in 
biomedical research and development, public health, and healthcare 
delivery. The NIH is the single-largest funding source for infectious 
diseases research in the United States and the life-source for many 
academic research centers. The NIH-funded work conducted at these 
centers lays the ground work for advancements in treatments, cures, and 
medical technologies. We applaud Congress for acknowledging the impact 
of scientific research in stimulating the economy. It is critical that 
we maintain this momentum for medical research capacity. Accordingly, 
SHEA supports an overall funding level of $35 billion for NIH in fiscal 
year 2011.
    While SHEA is very pleased with the proposed major investment in 
Agency for Healthcare Research and Quality (AHRQ) for research focused 
on HAIs (discussed below), support for basic, translational, and 
epidemiological HAI research has not been a priority of the NIH. 
Despite the fact that HAIs are among the top 10 annual causes of death 
in the United States, scientists studying these infections have 
received relatively less funding than colleagues in many other 
disciplines. In 2008, NIH estimated that it spent more than $2.9 
billion on funding for HIV/AIDS research, approximately $2 billion on 
cardiovascular disease research, about $664 million on obesity research 
and, by comparison, National Institute of Allergy and Infectious 
Diseases (NIAID) provided $18 million for MRSA research. SHEA believes 
that as the magnitude of the HAI problem becomes part of the dialogue 
on healthcare reform, it is imperative that the Congress and funding 
organizations put significant resources behind this momentum.
    The limited availability of Federal funding to study HAIs has the 
effect of steering young investigators interested in pursuing research 
on HAIs toward other, better-funded fields. While industry funding is 
available, the potential conflicts of interest, particularly in the 
area of infection-prevention technologies, make this option seriously 
problematic. These challenges are limiting professional interest in the 
field and hampering the clinical research enterprise at a time when it 
should be expanding.
    Our discipline is faced with the need to bundle, implement, and 
adhere to interventions we believe to be successful while 
simultaneously conducting basic, epidemiological, pathogenetic and 
translational studies that are needed to move our discipline to the 
next level of evidence-based patient safety. The current convergence of 
scientific, public and legislative interest in reducing rates of HAIs 
can provide the necessary momentum to address and answer important 
questions in HAI research. SHEA strongly urges you to enhance NIH 
funding for fiscal year 2011 to ensure adequate support for the 
research foundation that holds the key to addressing the multifaceted 
challenges presented by HAIs.
AHRQ
    SHEA strongly supports the proposed investment of $34 million by 
AHRQ in fiscal year 2011 to reduce and prevent HAIs. Funds made 
available through AHRQ (and CDC) should be used, in part, for 
translational research projects that can allow more rapid integration 
of science into practice. As an example, this could involve use of 
funds to support positions through which large collaboratives could be 
supported in States not currently part of AHRQ or Health Research and 
Educational Trust projects (for example, Public Health Research 
Institute and Keystone, which have achieved successful reductions in 
device-associated infections). Experts in the field (Epidemiologists 
and Infection Preventionists), in collaboration with CDC and the AHRQ, 
should be engaged in order to further define and prioritize the 
research agenda. As we strive to eliminate all preventable HAIs, we 
need to identify the gaps in our understanding of what is actually 
preventable. This distinction is critical to help guide subsequent 
research priorities and to help set realistic expectations. SHEA 
believes in the importance of conducting basic, epidemiological and 
translational studies (to fill basic and clinical science gaps). While 
health services research (i.e., successful implementation of strategies 
already known or suspected to be beneficial) may provide some immediate 
short-term benefit, to achieve further success, a substantial 
investment in basic science, translational medicine, and epidemiology 
is needed to permit effective and precise interventions that prevent 
HAIs.
    SHEA thanks the subcommittee for this opportunity to share our 
priorities with respect to fiscal year 2011 funding for HHS, CDC, NIH, 
and AHRQ. SHEA is pleased to serve as a resource to the committee going 
forward on issues related to healthcare epidemiology.
                                 ______
                                 
 Prepared Statement of the Sexuality Information and Education Council 
                          of the United States
    SIECUS, the Sexuality Information and Education Council of the 
United States, has served as a strong national voice for sexuality 
education, sexual health, and sexual rights for more than 45 years.
    SIECUS affirms that sexuality is a fundamental part of being human, 
one that is worthy of dignity and respect. We advocate for the right of 
all people to accurate information, comprehensive education about 
sexuality, and sexual health services. SIECUS works to create a world 
that ensures social justice and sexual rights.
   president's teen pregnancy prevention initiative at the office of 
                           adolescent health
    As an organization committed to the health and education of our 
Nation's young people, we urge the subcommittee to invest in programs 
that provide all of our Nation's youth with comprehensive, medically 
accurate, and age-appropriate sex education that helps them reduce 
their risk of unintended pregnancy, HIV, and other sexually transmitted 
infections (STIs), as well as teach them about healthy relationships 
and communication and decisionmaking skills so they can make 
responsible decisions and lead safe and healthy lives.
    For the first time in more than a decade, the Nation's teen 
pregnancy rate rose 3 percent in 2006. During this time, teens were 
receiving less information about contraception in schools and their use 
of contraceptives was declining. Moreover, while making up only one-
quarter of the sexually active population, young people aged 15-24 
account for roughly one-half of the approximately 19 million new cases 
of sexually transmitted infections (STIs) each year. Those aged 13-24 
account for one-sixth of new HIV infections, the largest share of any 
age group.
    We are pleased that the President's fiscal year 2011 budget request 
once again included funding for more comprehensive and evidence-based 
approaches to sex education. However, by focusing the funding on teen 
pregnancy prevention, and not including the equally important health 
issues of STIs including HIV, the Administration has missed an 
opportunity to provide true, comprehensive sex education that promotes 
healthy behaviors and relationships for all young people, including 
lesbian, gay, bisexual, and transgender (LGBT) youth. We must 
strategically and systemically provide young people with all the 
information and services they need to make responsible decisions about 
their sexual health. Therefore, we request that the teen pregnancy 
prevention initiative be broadened to address STIs, including HIV, in 
addition to the prevention of unintended teen pregnancy.
    Most of the evidence-based programs that have been proven effective 
at reducing risk factors associated with unintended teenage pregnancy 
and STIs by delaying sexual activity and increasing contraceptive use 
emphasize abstinence as the safest choice and also discuss 
contraceptive use as a way to avoid pregnancy and STIs, including HIV. 
In light of the evidence and recognizing more than one-half of young 
people have had sexual intercourse by the age of 18 and are at risk of 
both unintended pregnancy and STIs, we request that the committee 
direct the Office of Adolescent Health to prioritize funds to programs 
that are more comprehensive in scope insofar as they encourage 
abstinence but also encourage young people to always use condoms or 
other contraceptives when they are sexually active.
    Leading public health and medical professional organizations--
including the American Medical Association, the American Academy of 
Pediatrics, the Society of Adolescent Medicine, and the American 
Psychological Association--support a comprehensive approach to 
educating young people about sex. Focusing on more comprehensive 
approaches is both good policy and good politics. It is good policy 
because it is based on scientific considerations and takes into account 
the reality of teens' lives. In sharp contrast to abstinence-only-
until-marriage programs, there is strong evidence that more 
comprehensive approaches do help young people both to withstand the 
pressures to have sex too soon and to have healthy, responsible, and 
mutually protective relationships when they do become sexually active. 
Importantly, the evidence is strong that sex education programs that 
promote abstinence as well as the use of condoms do not increase sexual 
behavior. Studies show that when teens are educated about condoms and 
have access to the method, levels of condom use at first intercourse 
increase while levels of sex stay the same.
    Moreover, the CDC's Task Force on Community Preventive Services 
recently reviewed Comprehensive Risk Reduction programs and found 
sufficient evidence to recommend their use and support a conclusion 
that Comprehensive Risk Reduction interventions can have a beneficial 
effect on public health. The recommendation is based on sufficient 
evidence of effectiveness in: reducing a number of self-reported risk 
behaviors, including (1) engagement in any sexual activity, (2) 
frequency of sexual activity, (3) number of partners, and (4) frequency 
of unprotected sexual activity; (5) increasing the self-reported use of 
protection against pregnancy and STIs; and (6) reducing the incidence 
of self-reported or clinically-documented sexually transmitted 
infections.
    In addition, the vast majority of parents want the Federal 
Government to fund programs that are medically accurate, age-
appropriate, and educate youth about both abstinence and contraception. 
Nationwide polls show that 8 in 10 voters want young people to receive 
a comprehensive approach to sex education that includes teaching about 
both abstinence and contraception. Furthermore, according to the 
results of a 2005-2006 nationally representative survey of U.S. adults, 
published in the Archives of Pediatrics and Adolescent Medicine, there 
is far greater support for comprehensive sex education than for the 
abstinence-only approach, regardless of respondents' political leanings 
and frequency of attendance at religious services. Overall, 82 percent 
of those polled supported a comprehensive approach, and 68 percent 
favored instruction on how to use a condom; only 36 percent supported 
abstinence-only programs.
    In these tight budget times, we are pleased that the President's 
fiscal year 2011 budget increased funding for the new teen pregnancy 
prevention initiative by $19.2 million, for a total of $133.7 million. 
We urge the committee to fund the initiative at least at the 
President's requested level of $133.7 million. We are also pleased that 
the President's budget has once again included zero dedicated funding 
for failed abstinence-only-until-marriage programs, and we encourage 
the subcommittee not to include funding for these ineffective programs.
    Congress should continue to act in the best interest of young 
people by supporting public health and education policies that are 
comprehensive, rooted in the best science, and reflect mainstream 
values.
 hiv prevention at the centers for disease control and prevention (cdc)
    President Obama proposed an increase of $31 million for HIV 
prevention programs at the Centers for Disease Control and Prevention 
(CDC). While we are grateful for this proposed increase during such 
difficult economic times, this amount is far from what is needed to 
reduce the number of new infections in the United States, which still 
stands at more than 56,000 per year. State and local health departments 
and community-based organizations need increased resources to 
strengthen and expand outreach, education, HIV testing, and prevention 
programs targeting high-risk populations. The CDC believes that in 
order to adequately address the HIV epidemic in this Nation, an 
additional $878 million is needed over each of the next 5 years. We are 
requesting an increase of $878 million for a total of $1.6 billion for 
CDC HIV prevention activities in fiscal year 2011.
    With increased funding, other crucial prevention efforts can be 
augmented such as the delivery and evaluation of behavioral 
interventions, social marketing campaigns, surveillance, and other 
preventative education programs. Community based organizations and 
State and local health departments are all facing severe financial 
challenges. Through budget cuts, hiring freezes, layoffs, and 
furloughs, health departments across the Nation continue to curtail 
core public health functions including those that prevent the spread of 
HIV and other infectious diseases. Additional Federal resources are 
absolutely necessary if we are to reverse the increase of new 
infections. Investing in HIV prevention will result in billions of 
dollars in reduced healthcare costs in the future. Moreover, given the 
strong epidemiological link between HIV and other STDs, including high 
rates of co-infection among certain populations such as African 
Americans and men who have sex with men, an increased investment in STD 
programs (through the Division of STD Prevention) is an essential 
component of scaling up HIV prevention efforts. The cost of treating 
new cases of HIV each year that is attributable to Chlamydia, 
gonorrhea, syphilis, and genital herpes is more than $1 billion per 
year.
    We also request an increase of $20 million, for a total of $60.2 
million, for the Division of Adolescent and School Health's HIV 
Prevention Education. Recent estimates suggest that while representing 
25 percent of the ever sexually active population, 15-24 year-olds 
acquire nearly one-half of all new STDs. Each year, one in four 
sexually active teenagers contracts a sexually transmitted disease. In 
addition, nearly 15 percent of the 56,000 annual new cases of HIV 
infections in the United States occurred in youth ages 13 through 24 in 
2006. This means that an average of one young person every hour of 
every day is infected with HIV in the United States. It is essential 
that we provide schools with the resources they require to build and 
strengthen their capacity to improve child and adolescent health.
  title x family planning program at the office of population affairs
    We request that funding for the title X family planning program be 
increased to $700 million over the next 5 years, beginning with an 
increase of $76.5 million in fiscal year 2011.
    Title X is a vital part of our Nation's healthcare infrastructure. 
The Institute of Medicine (IOM), in their recent review of the program, 
found title X to be a ``valuable program'' providing ``critical 
services'' to those in need, but also noted that the program is not 
currently receiving the funds needed to fulfill its mission. As the 
Administration and Congress work to reform our healthcare system, the 
President has stated that we must build on what works. Title X is a 
prime example of the type of successful programs that should be 
expanded. We appreciate the President's leadership in providing a $10 
million increase for title X in his fiscal year 2011 budget request. 
However, in spite of the program's critical role and proven 
effectiveness, funding for title X continues to fall well short of what 
is needed.
    Title X serves nearly 5 million low-income women and men at more 
than 4,500 health centers each year. Title X services help women and 
men plan the number and timing of their pregnancies, thereby helping to 
prevent nearly 1 million unintended pregnancies each year, nearly one-
half of which would otherwise end in abortion. In addition to providing 
contraceptive services and supplies, title X health centers provide 
basic preventive health services, education, and counseling. For 
example, in 2007, title X centers provided 2.2 million Pap tests and 
2.4 million clinical breast exams. Not only do the services provided 
through title X promote public health, they also save tax dollars. For 
every public dollar invested in title X, $4.02 is saved in Medicaid-
related costs alone.
                               conclusion
    We urge you to include in the Labor, Health and Human Services, and 
Education, and Related Agencies appropriations bill the strongest 
possible teen pregnancy prevention and sex education initiative that 
will meet the needs of all young people and help them achieve healthier 
and safer lives. We also urge you to adequately fund HIV prevention at 
the CDC and the title X family planning program so that the health 
goals of our Nation can be met.
                                 ______
                                 
     Prepared Statement of the Society for Maternal-Fetal Medicine
    Mr. Chairman and members of the subcommittee: The Society for 
Maternal-Fetal Medicine is pleased to have the opportunity to submit 
testimony in support of the fiscal year 2011 budget for the Eunice 
Kennedy Shriver National Institute of Child Health and Human 
Development (NICHD). We are grateful for your strong and sustained 
commitment to the National Institutes of Health (NIH), in particular 
the NICHD. Through the programs of the NICHD, ground-breaking research 
advances have been made that have changed the practice of obstetrics.
    Established in 1977, the Society for Maternal-Fetal Medicine (SMFM) 
is dedicated to improving maternal and child outcomes; and raising the 
standards of prevention, diagnosis, and treatment of maternal and fetal 
disease.
    Maternal-fetal medicine specialists, also known as MFM specialists, 
perinatologists and high-risk pregnancy physicians, are highly trained 
obstetricians/gynecologists with advanced expertise in obstetric, 
medical, and surgical complications of pregnancy and their effects on 
the mother and fetus. The complex problems faced by these mothers may 
lead to death or problems, both short-term and life-long for both the 
mothers and their babies. Only through research can complications 
involving the mother or unborn fetus be understood, treated, prevented 
and eventually solved.
    The mission of NICHD is to ensure that every child is born healthy 
and that women suffer no harmful effects from reproductive processes. 
NICHD supports a blend of basic, clinical, translational, and 
multidisciplinary research studies that address a myriad of issues in 
pregnancy such as:
  --Preterm Birth.--Preterm birth (delivery before 37 weeks' gestation) 
        is associated with increased risks of death in the immediate 
        newborn period as well as in infancy, and can cause long-term 
        complications including devastating disabilities. About 20 
        percent of premature babies die within the first year of life, 
        and although the survival rate is improving, many preterm 
        babies have life-long disabilities, including cerebral palsy, 
        mental retardation, respiratory problems, and hearing and 
        vision impairment. Preterm birth occurs in nearly 13 percent of 
        all deliveries in the United States, a higher rate than in 
        other developed countries (5-9 percent). The total cost of 
        preterm birth in the United States is $26 billion a year, 
        according to a 2006 report of the Institute of Medicine.
  --Stillbirth.--Stillbirth defined as the death of a fetus at 20 or 
        more weeks of gestation, complicated nearly 26,000 pregnancies 
        in the United States in 2005. Considerable racial disparity 
        exists--stillbirth is more than twice as common among African 
        Americans than Caucasian women (11.1 versus 4.8 per 1,000). 
        Other maternal risk factors for stillbirth include advanced 
        age, obesity, and co-existing medical disorders such as 
        diabetes or hypertension. The possible impact of environmental 
        exposures on stillbirth risk remains unknown. Of known 
        stillbirth causes, the most common are genetic abnormalities, 
        alterations in the number or structure of the chromosomes, 
        maternal infection, hemorrhage, and problems with the umbilical 
        cord or placenta. However, the cause remains unknown in about 
        one-half of all stillbirths.
  --Hypertensive Diseases in Pregnancy.--High blood pressure 
        (hypertension) during pregnancy endangers the health of both 
        the mother and the baby and is increasingly common as women 
        delay pregnancy until they are older, and as they are more 
        frequently overweight. Hypertension in pregnancy is the second 
        leading cause of maternal death in the United States, 
        accounting for 15 percent of all deaths. For the mother, it is 
        associated with early delivery, increased need for labor 
        induction because of pregnancy complications, stroke, pulmonary 
        or heart failure, and death. The likelihood and severity of 
        these complications increases as the severity of the 
        hypertension increases, and if pre-eclampsia develops. Pre-
        eclampsia is characterized by high blood pressure and the 
        presence of protein in the urine. Its cause, or causes, remains 
        one of the greatest mysteries in obstetrics and is a major 
        cause of maternal, fetal, and neonatal mortality worldwide.
  --Pregestational and Gestational Diabetes.--The hormonal changes of 
        pregnancy can seriously worsen pre-existing diabetes and often 
        bring about a diabetic state (gestational diabetes) in 
        predisposed women. Whether diabetes mellitus existed before 
        conception or gestational diabetes develops during pregnancy, 
        maternal glucose intolerance can have significant medical 
        consequences for both mother and baby. Poorly controlled 
        diabetes is associated with miscarriage, congenital 
        malformations, abnormal fetal growth, stillbirth, obstructed 
        labor, increased cesarean delivery, and neonatal complications. 
        Up to 200,000 pregnancies are affected by gestational diabetes 
        each year.
    Great strides are being made through NICHD-supported research to 
address the complex situations faced by mothers and their babies. One 
of the most successful approaches for testing research questions 
related to preterm birth is the NICHD research networks, which allow 
researchers from across the country to coordinate their work and share 
data. The networks deal with different aspects of the problem of 
preterm birth and its consequence. For example:
  --Maternal-Fetal Medicine Units Network.--To achieve a greater 
        understanding and pursue development of effective treatments 
        for the prevention of preterm births, low birth weight infants 
        and medical complications during pregnancy, in 1986 the NICHD 
        established the Maternal-Fetal Medicine Units Network (MFMU). 
        The MFMU Network has changed obstetrical practice by 
        identifying new effective therapies and putting an end to 
        practices that are not useful. It is the only national research 
        infrastructure capable of performing the much needed large 
        trials that provide the evidence on which sound medical 
        practice is based. The MFMU Network is also the ideal vehicle 
        to collaborate with other NIH networks, as well as 
        international networks in order to improve global health. Since 
        its inception, the Network has made several exciting scientific 
        advancements and has been able to rapidly turn laboratory and 
        clinical research into diagnostic examinations and treatment 
        procedures that directly benefit those affected.
    --A major advance in the prevention of preterm birth has been the 
            use of progesterone in the second and third trimesters, 
            which resulted in a substantial reduction in the rate of 
            preterm delivery among women who had a previous preterm 
            birth and also reduced the risk of newborn complications. 
            The annual savings of preventing recurrent preterm delivery 
            by progesterone treatment in the United States has been 
            estimated at more than $2 billion. Research into 
            progesterone use in women with other risk factors is 
            continuing. So far studies have shown that progesterone 
            treatment is not effective in twin or triplet pregnancies, 
            but it may reduce the rate of preterm birth in women with a 
            short cervix. If effective for this indication, 
            progesterone treatment would be particularly helpful for 
            identifying women at risk in their first pregnancy. Ongoing 
            study is needed to identify the optimal populations for 
            treatment and the best treatment regimens.
    --A significant development in clinical care, antenatal 
            corticosteroid administration promotes fetal lung maturity. 
            It is one of the most effective means of preventing newborn 
            complications, including respiratory distress, 
            intraventricular hemorrhage, and death, when preterm birth 
            occurs. Though a single course of treatment is effective if 
            given before preterm birth, the effect appears to decline 
            over time if the pregnancy remains undelivered. Research 
            over the past decade has shown that repeated doses of 
            antenatal corticosteroids, either weekly or on alternate 
            weeks, is associated with negative effects on fetal growth 
            that could potentially outweigh their benefits. Current 
            research is evaluating the potential benefits of a single 
            ``rescue course'' of corticosteroids for undelivered women 
            who have a second episode of threatened preterm delivery.
    --Large trials have suggested that magnesium sulfate treatment, 
            given when preterm delivery is expected before 32-34 weeks, 
            results in a reduction in cerebral palsy. Because cerebral 
            palsy is the most prevalent chronic motor disability, with 
            an estimated lifetime cost of nearly $1 million per 
            individual, its prevention is of great significance to 
            patients, their family and to society. While current 
            evidence is encouraging, further study is needed to 
            determine the optimal treatment regimen and which 
            pregnancies would benefit most from this intervention.
    Though novel and important research areas have emerged to improve 
the outcomes of mothers and babies, there are still many challenges 
that face us:
  --Translation of Genomics and Proteomics into Preterm Birth and 
        Stillbirth.--Preterm birth and stillbirth represent two of the 
        most important complications of pregnancy. Prevention of 
        preterm birth and stillbirth depends on identifying women at 
        risk and understanding the mechanisms of disease. It is 
        imperative that NICHD take advantage of high throughput 
        technologies to understand the causes of preterm birth and 
        stillbirth and support genomics, proteomics, and metabolomics 
        studies focusing on prediction and prevention of preterm birth 
        and stillbirth, as well as the use of existing biobanks. The 
        promise of these new technologies is that a better 
        understanding of the biologic processes involved in pregnancy 
        and pregnancy complications will lead to improved prediction, 
        prevention, and treatment strategies that will improve maternal 
        and infant health.
  --Severe, Early Adverse Pregnancy Outcomes.--Women with severe, early 
        adverse pregnancy outcome, such as multiple losses, demises, 
        and severe pre-eclampsia, are at increased risk for long-term 
        chronic health problems, including hypertension, stroke, 
        diabetes, and obesity. Studies have shown that women who have 
        had pre-eclampsia are more likely to develop chronic 
        hypertension, to die from cardiovascular disease and to require 
        cardiac surgery later in life. In addition, approximately 50 
        percent of women with gestational diabetes will develop 
        diabetes later in life. Pregnancy can be considered as a window 
        to future health and the immediate postpregnancy period 
        provides a unique opportunity for prevention of chronic 
        diseases later in life. Studies to identify women at risk for 
        long term morbidity, and to develop strategies to prevent long 
        term adverse outcomes in these women are urgently needed.
  --Maternal Fetal Medicine Units (MFMU)Network.--Vigorous support of 
        the MFMU Network is needed so that therapies and preventive 
        strategies that have significant impact on the health of 
        mothers and their babies will not be delayed. Until new options 
        are created for identifying those at risk and developing cause 
        specific interventions, preterm birth will remain one of the 
        most pressing problems in obstetrics.
    As the subcommittee moves forward with deliberations on the fiscal 
year 2011 budget, we urge you to provide greater resources to NIH, and 
in particular to NICHD. Research is the cornerstone for improving our 
understanding of the physiology and pathophysiology of pregnancy, the 
interrelationship between the mother and fetus, the impact of medical 
conditions on pregnancy and the impact of medical diseases and 
pregnancy outcomes on the long term health of both mother and child. 
With your support, researchers can continue to peel away the layers of 
complex problems of pregnancy that have such devastating consequences.
    Recommendations.--The Society for Maternal Fetal Medicine 
recommends:
  --An appropriation of $35 billion for the NIH in fiscal year 2011.
  --A funding level of $1.5 billion for NICHD.
  --NICHD sustain the research investment in the MFMU Network to 
        facilitate resolution of the myriad of problems that affect 
        high-risk mothers and their fetuses.
  --NICHD support genomics, proteomics, and metabolomics studies 
        focusing on prediction and prevention of preterm birth and 
        stillbirth.
  --NICHD identify women at risk for long-term morbidity and develop 
        strategies to prevent long-term adverse outcomes.
    Thank you for the opportunity to present our views.
                                 ______
                                 
     Prepared Statement of the Society for Public Health Education
    The Society for Public Health Education (SOPHE) is a professional 
health education organization founded in 1950 to promote the health of 
all people by stimulating research on the theory and practice of health 
behavior; translating sound science into practice; and supporting high-
quality standards for professional preparation. SOPHE is the only 
independent professional organization devoted exclusively to health 
education and health promotion. SOPHE's 4,000 national and chapter 
members work daily to improve health outcomes and promote wellness in a 
variety of settings, including schools, universities, healthcare 
organizations, corporations, voluntary health agencies and Federal, 
State, and local government. There are currently 20 SOPHE chapters 
covering more than 30 States and regions across the country.
    SOPHE's broad membership enables us to advocate and understand the 
need for increased resources targeted at the most pressing public 
health issues. For the fiscal year 2011 funding cycle, SOPHE encourages 
the Labor, Health and Human Services, Education, and Related Agencies 
(Labor-HHS) Subcommittee to increase funding for public health programs 
that focus on preventing chronic disease and other illnesses; 
eliminating health disparities; and promoting the coordinated school 
health model. In particular, SOPHE would like to request the following 
fiscal year 2011 funding levels for Labor-HHS programs:
  --$969.85 million for the National Center for Chronic Disease 
        Prevention and Health Promotion;
  --$50 million for the Centers for Diseases Control and Prevention 
        (CDC) and CDC Racial and Ethnic Approaches to Community Health 
        (REACH U.S.) program;
  --$77.64 million for CDC Division of Adolescent and School Health, 
        $33.9 million of which shall be specifically appropriated for 
        the coordinated school health program; and
  --$30 million for the CDC Healthy Communities Program.
    SOPHE gratefully acknowledges the strong bipartisan support that 
the Senate Labor-HHS Subcommittee has provided to the CDC in recent 
years, including the funding dedicated to the Prevention and Wellness 
Fund in the American Recovery and Reinvestment Act of 2009. The field 
of health education and health promotion, which is some 100 years old, 
uses sound science to plan, implement, and evaluate interventions that 
enable individuals, groups, and communities to achieve personal, 
environmental, and population health. There is a robust, scientific 
evidence-base documenting not only that various health education 
interventions work but that they are also cost-effective. These 
principles serve as the basis for our support for the programs outlined 
below.
Preventing Chronic Disease
    The data are clear: chronic diseases are the Nation's leading 
causes of morbidity and mortality and account for 75 percent of every 
dollar spent on healthcare in the United States. Collectively, they 
account for 70 percent of all deaths nationwide. Thus, it is highly 
likely that 3 of 4 persons living in the districts of the Labor-HHS 
Subcommittee members will develop a chronic condition requiring long-
term and costly medical intervention in their lifetime. In 2008, heart 
disease and stroke were estimated to cost $448 billion in medical 
expenditures and lost productivity. In 2009, U.S. healthcare 
expenditures exceeded $7,200 for every man, woman, and child, primarily 
for diagnosis and treatment of chronic diseases.
    SOPHE is requesting a fiscal year 2011 funding level of $969.85 
million for CDC's National Center for Chronic Disease Prevention and 
Health Promotion (NCCDPHP) in order to adequately address the cost of 
chronic disease care and prevent it from further burdening our Nation's 
citizens and productivity. NCCDPHP is at the forefront of the U.S. 
efforts to prevent and control chronic diseases. The Center was 
substantially cut in 2006, and then has essentially been level-funded 
and has decreasing resources due to across the board rescissions--while 
chronic disease rates have continued to soar.
    Studies show that spending as little as $10 per person on proven 
preventive interventions could save the country more than $16 billion 
in just 5 years. The public overwhelmingly supports increased funding 
for disease prevention and health promotion programs. Small investments 
now in community-led, innovative programs will help to increase our 
Nation's productivity and performance in the global market; decrease 
rates of infant mortality, deaths due to cancer, cardiovascular 
disease, diabetes, and HIV/AIDS, and; increase immunization rates.
    SOPHE is requesting a fiscal year 2011 funding level of $30 million 
for CDC's Healthy Communities Program to advance policy and 
environmental change strategies in support of healthy eating, active 
living, and chronic disease and obesity prevention. Through the Healthy 
Communities Program, CDC collaborates with local and State health and 
park departments, national organizations with extensive community 
outreach, and community leaders to prevent chronic disease. Among the 
many successes of the program since its inception are restoring 
physical education to the school day; requiring physical activity and 
healthy snacks in child care sites; changing zoning requirements to 
include sidewalks to promote physical activity; and enhancing farmers 
markets and community gardens to for wider access to fruits and 
vegetables.
    Chronic disease prevention programs, like those delivered by 
NCCDPHP, are especially needed among our Nation's youth. In the last 20 
years, the percentage of overweight youth has more than doubled, and 
for the first time in two centuries, children may have a shorter life 
expectancy than their parents. Fifteen percent of children and 
adolescents are overweight and more than one-half of these children 
have at least one cardiovascular disease risk factor, such as elevated 
cholesterol or high blood pressure. Almost 80 percent of young people 
do not eat the recommended five servings of fruits and vegetables each 
day. Daily participation in high school physical education classes 
dropped from 42 percent in 1991 to 32 percent in 2001. Patterns of poor 
nutrition, lack of physical activity, and other behaviors such as 
alcohol and tobacco use established during youth often continue into 
adulthood and contribute markedly to costly, chronic conditions.
    CDC's Coordinated School Health Programs have been shown to be 
cost-effective in improving children's health, their behavior, and 
their academic success. This funding builds bridges between State 
education and public health departments to coordinate health education, 
nutritious meals, physical education, mental health counseling, health 
services, healthy school environments, health promotion of faculty, and 
parent and community involvement. Gallup polls show strong parental, 
teacher, and public support for school health education.
    SOPHE urges this subcommittee to support an appropriation of $33.9 
million in fiscal year 2010 for CDC's Division of Adolescent and School 
Health, Coordinated School Health Programs. In 2008, 43 States (plus 
five tribal governments and four territorial education agencies) 
applied for such funding; however, because of limited resources, only 
22 States and 1 tribal government were funded. A funding level of $33.9 
million would allow capacity building grants to an additional of up to 
17 States (from 23 to 40).
    Chronic diseases account also for the largest health gap among 
populations and increase health disparities among racial and ethnic 
minority groups. As the U.S. population becomes increasingly diverse, 
the Nation's health status will be heavily influenced by the morbidity 
of racial and ethnic minority communities. African Americans, Alaskan 
Natives, American Indians, Asian Americans, Hispanic Americans, and 
Pacific Islanders are more likely than whites to have poorer health and 
to die prematurely, especially from chronic conditions.
    SOPHE strongly urges an allocation of $50 million for CDC's REACH 
U.S. initiative to eliminate health disparities among urban and rural 
communities in the areas of cardiovascular disease, immunizations, 
breast and cervical cancer screening and management, diabetes, HIV 
infections/AIDS, and infant mortality. A funding level of $50 million 
would allow for the distribution of monies to support at least 10 2-
year planning grants for communities to implement evidence- and 
practice-based approaches to reducing chronic disease rates.
    Launched in 2007, REACH U.S. is the next evolution of REACH 2010, 
which was developed by HHS and CDC to find ``out of the box'' 
community-driven solutions to address health disparities. REACH U.S. is 
unique because it works across public and private sectors to conduct 
community based prevention research and demonstration projects that 
address social determinants of health. REACH U.S. programs are time-
tested, community-led interventions that have proven success in 
decreasing health disparities. President Obama highlighted a need to 
address health disparities in his fiscal year 2011 budget blueprint, 
and with increased funding REACH U.S. programs can address his call to 
action.
    Thank you for this opportunity to present our views to this 
subcommittee. We look forward to working with you to improve the health 
and quality of life for all Americans.
                                 ______
                                 
     Prepared Statement of the Society for Women's Health Research
    On the behalf of the Society for Women's Health Research (SWHR) and 
the Women's Health Research Coalition (WHRC), we are pleased to submit 
the following testimony in support of Federal funding of biomedical 
research, and specifically women's health research.
    SWHR, a national nonprofit organization based in Washington DC, is 
widely recognized as the thought leader in research on sex differences 
and is dedicated to improving women's health through advocacy, 
education, and research. SWHR was founded in 1990 by a group of 
physicians, medical researchers, and health advocates who wanted to 
bring attention to the myriad of diseases and conditions that affect 
women uniquely.
    In 1999, the WHRC was established by SWHR to give a voice to 
scientists and researchers from across the country that are committed 
to improving women's health research. WHRC now has more than 650 
members, including leaders within the scientific community and medical 
researchers from many of the country's leading universities and medical 
centers, as well as leading voluntary health associations, and 
pharmaceutical and biotechnology companies.
    SWHR and WHRC are committed to advancing the health of women 
through the discovery of new, targeted scientific knowledge. We believe 
that sustained funding for biomedical and women's health research 
programs conducted and supported across the Federal agencies is 
absolutely essential if we are to meet the health needs of women, and 
men, and advance the Nation's research capability.
    In this testimony we address the clinical successes and financial 
hardships of five key agencies and subgroups doing the important work 
of sex-based research: National Institutes of Health (NIH), NIH's 
Office of Research on Women's Health (ORWH), Health and Human Services' 
Office of Women's Health (HHS), the Centers for Disease Control and 
Prevention (CDC), and the Agency for Healthcare and Research Quality 
(AHRQ). If America wants to remain a leader in healthcare advancement, 
if we are serious about the advancement of personalized medicine, if we 
are ready to stop wasting healthcare dollars on inappropriate 
treatments or the costs that come with guessing versus knowing-then we 
implore Congress to supply these agencies with the tools needed to 
accomplish these goals.
National Institutes of Health
    Past congressional investment and support for NIH has positioned 
the United States as the world leader in biomedical research and has 
provided a direct and significant impact on women's health research and 
the careers of women scientists over the last decade. The 111th 
Congress saw the importance of increasing funds to NIH in the 2009 
American Recovery and Reinvestment Act (ARRA). This funding is having 
an enormous impact on research and research facilities throughout the 
United States, creating new jobs, new innovations and improved 
technologies. However, the U.S.'s position as world leaders in 
biomedical research is threatened by a budget that does not continue to 
provide significant funding to NIH. Flat-lining NIH funding, or worse, 
cutting funds and not keeping up with inflation, threatens the 
developments started by ARRA, and puts the innovative research 
practices and reputation that America is known for in jeopardy.
    When faced with budget cuts, NIH has shown that it is left with no 
other option but to reduce the number of grants it is able to fund. 
When not including the one-time ARRA infusion of funds, the number of 
new grants funded by NIH had dropped steadily with budgets growing at 
less than that of inflation since fiscal year 2003. A shrinking pool of 
available grants has a significant impact on scientists who depend upon 
NIH support to cover both salaries and laboratory expenses to conduct 
high-quality biomedical research, putting both medical advancement and 
job creation at risk. Failure to obtain a grant decreases publishing of 
new finds and decreases the number of scientists gaining experience in 
research, both reducing a scientist's likelihood of achieving tenure in 
a university setting. New and less established researchers are forced 
to consider other careers, the end result being the loss in academia of 
the skilled bench scientists and researchers so desperately needed to 
sustain America's cutting edge in biomedical research.
    SWHR recommends Congress to set a laudable goal of reaching $40 
billion in NIH funding in the next 3 years. To meet this goal, SWHR 
urges you to exceed the administration's fiscal year 2011 request of a 
$1 billion increase and to allocate an additional $3 billion in funding 
for the NIH in fiscal year 2011, resulting in a total research budget 
of $34 billion.
    In addition, SWHR requests that Congress strongly encourage the NIH 
to utilize ARRA funding as well as appropriated dollars to ensure that 
women's health research receives resources sufficient to meet the 
health needs of all women. SWHR further recommends that NIH, with the 
funds provided, report sex differences in all research findings. With 
the tools the NIH already has available, it should seek to expand its 
inclusion of women in basic, clinical and medical research to phase I, 
II, and III studies. By currently only mandating sufficient female 
subjects in phase III, science misses out on the chance to look for 
variability by sex in the early phases of research, where scientists 
look at treatment safety and determine safe dose levels for new 
medications. By raising the bar, NIH can continue to serve as a role 
model for industry research, as well as other nations. Only by gaining 
more information on how therapies work in women will medicine be able 
to advance more targeted and effective treatments for all patients, men 
and women alike.
    Only within the past decade have scientists begun to uncover 
significant biological and physiological differences between women and 
men, as it impacts health and medicine. Sex-based biology, the study of 
biological and physiological differences between women and men, has 
revolutionized the way that the scientific community views the sexes. 
Sex differences play an important role in disease susceptibility, 
prevalence, time of onset, and severity and are evident in cancer, 
obesity, heart disease, immune dysfunction, mental health disorders, 
and many other illnesses. Medications can have different effects in 
woman and men, based on sex specific differences in absorption, 
distribution, metabolism, and elimination. It is imperative that 
research addressing these important differences be supported and 
encouraged. Congress clearly recognizes these important sex differences 
and NIH should as well.
Office of Research on Women's Health
    The NIH's Office of Research on Women's Health (ORWH) has a 
fundamental role in coordinating women's health research at NIH: 
advising the NIH Director on matters relating to research on women's 
health and sex and gender research; strengthening and enhancing 
research related to diseases, disorders, and conditions that affect 
women; working to ensure that women are appropriately represented in 
research studies supported by NIH; and developing opportunities for and 
support of recruitment, retention, re-entry and advancement of women in 
biomedical careers. ORWH is currently implementing recommendations from 
the NIH working group on Women in Biomedical Careers to maximize the 
potential of female biomedical scientists and engineers in both the NIH 
and external research community.
    Two highly successful programs supported by ORWH that are critical 
to furthering the advancement of women's health research are Building 
Interdisciplinary Research Careers in Women's Health (BIRCWH) and 
Specialized Centers of Research on Sex and Gender Factors Affecting 
Women's Health (SCOR). The BIRCWH program, created in 2000, is an 
innovative, trans-NIH career development program that provides 
protected research time for junior faculty by pairing them with senior 
investigators in an interdisciplinary mentored environment. SCORs, 
established in 2003, are designed to increase the transfer of basic 
research findings into clinical practice by housing laboratory and 
clinical studies under one roof. These programs benefit the health of 
both women and men through sex and gender research, interdisciplinary 
scientific collaboration, and provide tremendously important support 
for young investigators in a mentored environment. Each BIRCWH receives 
approximately $500,000 a year, most of which comes from the ORWH budget 
but is also supported by many NIH Institutes and Centers. Each SCOR 
program costs $1 million per year and results in unique research.
    Additionally, Advancing Novel Science in Women's Health Research 
(ANSWHR) was created by ORWH in 2007 to promote innovative new concepts 
and interdisciplinary research in women's health research and sex/
gender differences. ORWH also has the Research Enhancement Awards 
Program (REAP) to support meritorious research on women's health that 
just missed the IC pay line and a Partnership with the National Library 
of Medicine to identify overarching themes, specific health topics, and 
research initiatives into women's health. ORWH, through successful 
collaboration with the NIH ICs, provides research funding for: breast 
cancer, HPV vaccines, uterine leiomyoma, vulvodynia, irritable bowel 
syndrome, stroke, substance abuse, eating disorders including obesity, 
menopause, microbicides, chronic pain syndromes, autoimmune disorders, 
muscular skeletal disorders, and health disparities among many other 
issues.
    In order for ORWH's programs and research grants to continue to 
expand and thrive, Congress must direct that NIH continue its support 
of ORWH and provide it with $2 million dollar budget increase, bringing 
its fiscal year 2011 total to $44.9 million.
Health and Human Services' (HHS) Office of Women's Health (OWH)
    The HHS OWH is the Government's champion and focal point for 
women's health issues. It works to redress inequities in research, 
healthcare services, and education that have historically placed the 
health of women at risk. Without OWH's actions, the task of translating 
research into practice would and will be only more difficult and 
delayed.
    Under HHS, several agencies have Federal offices specific to 
women's health. Agencies currently with offices, advisors, or 
coordinators for women's health or women's health research include the 
Food and Drug Administration, Centers for Disease Control and 
Prevention, Agency for Healthcare Quality and Research, Indian Health 
Service, Substance Abuse and Mental Health Services Administration, 
Health Resources and Services Administration, and Centers for Medicare 
and Medicaid Services. It is imperative that these offices are funded 
at levels adequate for them to perform their assigned missions, and are 
sustainable so as to support needed changes in the long term. We ask 
that the Committee Report reflect Congress's supports of the permanent 
existence of these various Federal women's health offices, recommending 
that they are appropriately funded on a permanent basis to ensure that 
these programs can continue and be strengthened in the coming fiscal 
year.
    It is only through continued and increased funding that the OWH 
will be able to achieve its goals. The budget for fiscal year 2010, as 
in recent years, flatlined OWH budget at $33.7 million. This was, in 
essence, a decrease, due to inflation. Considering the amount and 
impact of women's health programs from OWH, we urge Congress to provide 
an increase of $2 million for the HHS OWH, a total $35.7 million 
requested for fiscal year 2011.
Centers for Disease Control and Prevention (CDC)
    SWHR supports the national and international work of the CDC, and 
especially the work of CDC's OWH. While aware of unavoidable cuts in 
many sectors of the fiscal year 2011 budget, SWHR is concerned that the 
proposed CDC budget cuts and project eliminations jeopardize a number 
of programs that benefit women, leaving them with even fewer options 
for sound clinical information. Research and clinical medicine are 
still catching up from decades of a male-centric focus, and when 
diseases strike women, there is a paucity of basic knowledge on how 
diseases affect female biology, a lack of drugs that have been 
adequately tested in women, and now even fewer options for information 
through the many educational outreach programs of the CDC.
    Cutting funding for programs on blood disorders, specifically for 
von Willebrand's disease, which has disproportionate impact on women, 
ending awareness campaigns on gynecological cancers funded by Johanna's 
Law, and eliminating specific funds dedicated to projects on 
Inflammatory Bowel Disease and Interstitial Cystitis (IC) will all 
result in women losing an advocate and a partner in advancing women's 
health. The proposed cuts to IC programs, in particular, equate to a 
loss of approximately half of its budget. These reductions translate to 
more than just a significant cut in total CDC budget. They create 
losses in jobs and in advocacy efforts led by patients suffering from 
these diseases, particularly IC, and their advocacy organizations, 
eliminating important education toward diagnosis and treatment. SWHR 
hopes that there will be serious consideration of the impact 
eliminating these programs will have on women, and men, who suffer 
these diseases, and encourages reviewing alternate sources of funding 
as a means to continue these important programs. The total savings 
realized by eliminating these programs is less than one half of 1 
percent of the total programmatic resources budget for the CDC, and 
their elimination will have ramifications on patients and providers, as 
well as incalculable effects on advocacy groups, jobs, and information 
campaigns.
Agency for Healthcare and Research Quality (AHRQ)
    The Agency for Healthcare Research and Quality's work serves as a 
catalyst for change by promoting the results of research findings and 
incorporating those findings into improvements in the delivery and 
financing of healthcare. Through AHRQ's research projects, lives have 
been saved. For example, it was AHRQ who first discovered that women 
treated in emergency rooms are less likely to receive life-saving 
medication for a heart attack. AHRQ funded the development of two 
software tools, now standard features on hospital electrocardiograph 
machines, which have improved diagnostic accuracy and dramatically 
increased the timely use of ``clot-dissolving'' medications in women 
having heart attacks.
    While AHRQ has made great strides in women's health research, its 
budget has been dismally funded for years, though targeted funding 
increases in recent years for dedicated projects, including funds from 
ARRA, are moving AHRQ in the right direction. However, more core 
funding is needed to help AHRQ continue doing the research that helps 
patients and doctors make better medical decisions.
    AHRQ's budget for fiscal year 2009 was $372 million, $397 million 
for fiscal year 2010. Such modest annual increases will not offer 
results that improve decisionmaking by doctors and patients for 
improved health outcomes. This agency has been operating under a major 
shortfall for years. Decreased funding seriously jeopardizes the 
research and quality improvement programs that Congress mandates from 
AHRQ. We recommend Congress fund AHRQ at the administration's proposed 
$611 million for fiscal year 2011, an increase of $214 million more 
than the fiscal year 2010 level. The lion's share of this increase will 
appropriately focus on patient-centered health research. This will 
ensure that adequate resources are available for high-priority 
research, including women's healthcare, sex and gender-based analyses, 
and health disparities-information that can help to better personalize 
treatments and improve outcomes for female and male patients 
nationwide.
Summary of Recommendations
  --NIH fiscal year 2011--Additional $3 billion funding, $34 billion 
        total. Increased focus on women's health research. Inclusion of 
        women in all phases of NIH research.
  --OWHR fiscal year 2011--Additional $2 million funding, $44.9 million 
        total.
  --HHS fiscal year 2011--Permanent funding of Federal women's health 
        offices throughout HHS. Additional $2 million for OWH, $35.7 
        million total.
  --CDC fiscal year 2011--Restored or alternate funding for 4 select 
        projects.
  --AHRQ fiscal year 2011--Match the administration's proposed budget 
        of $611 million.
    In conclusion, SWHR and the WHRC would like to thank the Chair and 
this subcommittee for its strong record of support for medical and 
health services research and its unwavering commitment to the health of 
the Nation through its support of peer-reviewed research. We look 
forward to continuing to work with you to build a healthier future for 
all Americans.
                                 ______
                                 
          Prepared Statement of the Trust for America's Health
    My name is Jeff Levi, and I am Executive Director of Trust for 
America's Health (TFAH), a nonprofit, nonpartisan organization 
dedicated to saving lives by protecting the health of every community 
and working to make disease prevention a national priority.
    As you craft the fiscal year 2011 Labor, Health and Human Services, 
Education, and Related Agencies appropriations bill, I hope that you 
will include robust funding for prevention and preparedness programs at 
the Centers for Disease Control and Prevention (CDC) and the Office of 
the Assistant Secretary for Preparedness and Response (ASPR) in order 
to promote health and help protect Americans from natural and manmade 
threats and disasters. Moreover, as you work with the Department of 
Health and Human Services to allocate funding from the Prevention and 
Public Health Fund, I urge you to use this funding to support the long-
term transformation of the Nation's public health system.
Community Prevention
    The United States spends more than any other Nation in the world on 
healthcare costs but lags behind other nations in certain indicators of 
health. To improve health across the country, we must transform 
communities to remove barriers to healthy lifestyles and ensure that 
Americans have access to healthy environments, nutritious foods and 
venues for physical activity. TFAH was pleased with the unprecedented 
investment that was made in community prevention via the American 
Recovery and Reinvestment Act (ARRA). Through its Communities Putting 
Prevention to Work Initiative, we'll begin to sow the seeds of 
transformation. In addition, programs at the CDC, in particular Healthy 
Communities and Racial and Ethnic Approaches to Community Health Across 
the U.S. (REACH-U.S.), prioritize the health of communities and support 
innovative approaches to addressing disparities and improving health. 
In fiscal year 2011, TFAH supports a total of $52 million for the 
Healthy Communities Program and $60 million for the REACH program to 
expand these successful programs to additional communities.
School Health
    More than 23 million children in the United States are overweight 
or obese. To improve their health, we must reach them where they spend 
a great deal of time, and that includes schools. The Division of 
Adolescent and School Health's (DASH) Coordinated School Health Program 
provides funding to 22 States and one tribal government to strengthen 
the ability of State and local education agencies to address critical 
health issues, including obesity, asthma, tobacco use, HIV, STDs, and 
teen pregnancy, by building the capacity of funded partners to support 
science-based, cost-effective health programming. The President's 
fiscal year 2011 budget proposes to increase funding for DASH by $3.875 
million. We strongly support an increase for DASH's School Health 
Program and hope that at a minimum, the program will receive an 
additional $20 million in fiscal year 2011 to enable CDC to fund 15 
additional State education agencies and 25 additional local education 
agencies to reach more children and youth through quality school health 
programs.
Pandemic Influenza
    The recent H1N1 flu outbreak demonstrated how rapidly a new strain 
of flu can emerge and spread around the world. H1N1 provided a real-
world test that showed our strengths and vulnerabilities to respond to 
a major infectious disease outbreak. Prior pandemic preparedness 
investments resulted in the development of medical countermeasures that 
have been used in the H1N1 response. In addition, supplemental 
appropriations have been used for response activities, including 
vaccine production, distribution and administration; antiviral drugs; 
surveillance; communications and community mitigation; and laboratory 
support for virus detection. TFAH supports continuing funding for our 
annual pandemic flu preparedness activities in fiscal year 2011 at CDC 
($156 million), the National Institutes of Health (NIH) ($35 million), 
the Food and Drug Administration (FDA) ($45 million) and the Office of 
the Secretary ($66 million) in order to strengthen our preparedness and 
response during any future outbreaks.
    TFAH also urges appropriators to explore means to incorporate 
pandemic preparedness funds for State and local health departments into 
annual funding streams, such as the CDC Public Health Emergency 
Preparedness and ASPR Hospital Preparedness Program cooperative 
agreements. There is no annually recurring funding to support State and 
local pandemic preparedness. Yet, pandemic and all-hazards preparedness 
requires sustainable lab capacity, modernized disease surveillance 
systems, a well-trained workforce, effective medical countermeasures 
delivery and administration, surge capacity, and continuous exercising 
and improvement of response plans.
    Another critical funding stream is the Biomedical Advanced Research 
and Development Authority (BARDA), which provides incentives and 
guidance for research and development of products to counter 
bioterrorism and pandemic flu. The President's budget proposes $476 
million for BARDA, with funding made available from current BioShield 
Special Reserve Fund balances. These funds would support research on 
countermeasures for biological threat agents, volatile nerve agents and 
radiological and nuclear threats. TFAH supports an increase in funding 
for BARDA and recommends that in fiscal year 2011, at least $500 
million is provided, with the acknowledgement that higher levels of 
funding must ultimately be allocated and sustained.
Global Disease Detection (GDD)
    Despite remarkable breakthroughs in medical research and 
advancements in immunization and treatments, infectious diseases are 
undergoing a global resurgence that threatens health. It is estimated 
that newly emerging and re-emerging infectious diseases will continue 
to kill at least 170,000 Americans annually. CDC's GDD Program helps 
recognize infectious disease outbreaks, improve the ability to control 
and prevent outbreaks, and detect emerging microbial threats. For 
fiscal year 2011, TFAH recommends $56 million for the GDD Program to 
enable CDC to increase the number of GDD centers and expand capacity at 
existing Centers. Funding would bring Thailand, Kenya, China and 
Guatemala to full capacity, support Egypt and Kazakhstan as basic 
centers and establish four additional developing centers.
Environmental Health
    An additional area of interest for TFAH is the connection between 
our environment and our health. CDC's Environmental Health Laboratory 
performs biomonitoring measurements--the direct measurement of people's 
exposure to toxic substances in the environment. By analyzing blood, 
urine, and tissues, scientists can measure actual levels of chemicals 
in people's bodies, and determine which population groups are at high 
risk for exposure and adverse health effects, assess public health 
interventions, and monitor exposure trends over time. TFAH supports an 
additional $19.6 million for the Environmental Health Laboratory's 
biomonitoring capacity in fiscal year 2011 in order to fund 7 to 10 
grantees to conduct biomonitoring, increase the number of chemicals 
measured in CDC's National Report on Human Exposure to Environmental 
Chemicals, enable CDC to provide training and quality assurance for 
State laboratories awarded funds, and support the National Report on 
Biochemical Indicators of Diet and Nutrition.
    Another important program, the National Environmental Health 
Tracking Network, enhances our understanding of the relationship 
between environmental exposures and the incidence and distribution of 
disease. The Tracking Network helps build our capacity to respond to 
environmental health issues and helps document links between 
environmental hazards and chronic disease. The National Network 
launched in July of 2009. CDC now funds just 22 States and one city to 
build and implement State-based tracking networks that will feed into 
the National Network. One additional State will be funded due to the 
increase in the fiscal year 2010 appropriations for this program. In 
order for the Network to be truly national in scope, it must be 
expanded to all States. To build toward that vision, TFAH recommends 
providing $50 million for CDC's Environmental and Health Outcome 
Tracking Network to expand it to up to 13 additional grantees and 
support the continued development of a sustainable Network.
    TFAH is also concerned about the potential health effects of 
climate change, including injuries and fatalities related to severe 
weather events and heat waves; infectious diseases; allergic symptoms; 
respiratory and cardiovascular disease; and nutritional and water 
shortages. TFAH was appreciative of the $7.5 million included in fiscal 
year 2010 for the Climate Change Program at CDC. To enable CDC to fund 
20-25 States and localities for climate change needs assessment and 
planning, in addition to supporting other climate change preparedness 
activities, TFAH recommends at least $15,000,000 for CDC's Climate 
Change Program in fiscal year 2011. Ultimately, $50 million is needed 
to develop a credible and effective Climate Change Program.
Public Health Workforce
    A final area of critical importance to our Nation's health is our 
public health workforce. The latest job loss survey by the National 
Association of County and City Health Officials (NACCHO) found that 
local health departments lost 8,000 jobs in the second half of 2009--
compounding the loss of another 8,000 positions in the first half of 
the year. To address the workforce shortages in State and local health 
departments, the President's budget proposes a new workforce program, 
the Health Prevention Corps, which will recruit new talent into service 
for State and local health departments. The program will target 
disciplines with known shortages, such as epidemiology, environmental 
health and laboratory. Fiscal year 2011 funding would be used to 
establish a management plan for staffing and program administration, 
convene stakeholders to establish the program framework, and develop a 
curriculum for Corps members. TFAH supports the President's request of 
$10 million for the Health Prevention Corps in fiscal year 2011.
The Prevention and Public Health Fund
    The Prevention and Public Health Fund, established by the Patient 
Protection and Affordable Care Act (Public Law 111-148), provides $500 
million in fiscal year 2010 and $750 million in fiscal year 2011 for 
programs authorized by the Public Health Service Act for prevention, 
wellness, and public health activities. This funding should be used to 
support the long-term transformation of the Nation's public health 
system. Investments from the Fund should be used in a manner that 
leverages change throughout the public health system--with a move away 
from a stove-piped, disease-by-disease approach to one that addresses 
the determinants of health in a cross-cutting manner.
    The overarching goal should be to optimize the health of everyone 
by creating healthier, more resilient communities, through policy, 
systems, organizational, and environmental change. Investments from the 
Fund should be science informed or evidence based, have measurable 
health outcomes and policy goals, promote innovation, focus on the 
determinants of health and health equity, and be held accountable. The 
National Prevention Strategy should become the basis for defining the 
goals of a transformed public health system, identifying gaps in the 
current system, and how the Fund can be used to help close these gaps.
Expenditure of Initial Funds
    As the National Prevention Strategy is developed over the next 
year, expenditures under the Fund for fiscal year 2010 and fiscal year 
2011 should be consistent with the following categories of expenditure, 
which were included in the House-passed bill. These include:
  --Community Prevention.--A focus on community prevention is the 
        centerpiece of a transformed public health system. The focus 
        should reflect cross-cutting approaches to reducing the risks 
        that affect health and safety. In addition to chronic diseases, 
        attention should be given to other critical health issues, such 
        as injury and violence prevention, reproductive health, 
        infectious diseases, emergency preparedness, mental health, 
        birth defects and developmental disabilities, and environmental 
        health. While State and local health departments must be 
        central players in community prevention, grant funding is also 
        needed to support the work of nongovernmental organizations.
  --Core Capacity (For Both Health Departments and Others Doing 
        Community Prevention).--Health departments have varying levels 
        of expertise and competency to design and manage community 
        interventions that focus on policy, systems, organizational, 
        and environmental change. All health departments should be 
        supported in their efforts to expand the role of community 
        prevention in addressing the health needs of their populations, 
        but particular effort should be made to close the geographic 
        gap in capacity to build healthier, safer, and more resilient 
        communities. This can be done at least in part through the 
        support of the accreditation process, which is focused on 
        building these capacities and thresholds. Even with 
        accreditation, we will need to provide funding to build a 
        public health workforce able to serve in these accredited 
        health departments.
  --Research, Development, and Dissemination of Best Practices.--There 
        is a continuing need to expand the science base of prevention, 
        with particular emphasis on translation into practice and data 
        to do appropriate program evaluation. This would include 
        ramping up the capacity of the task forces on community and 
        clinical prevention, creating the research and technical 
        support for innovation in community prevention, and 
        establishing the newly authorized program in public health 
        services and systems research, with a particular emphasis on 
        data collection and analysis.
                                 ______
                                 
              Prepared Statement of the The AIDS Institute
    Dear Chairman Harkin and members of the subcommittee: The AIDS 
Institute, a national public policy research, advocacy, and education 
organization, is pleased to comment in support of critical HIV/AIDS and 
Hepatitis programs as part of the fiscal year 2011 Labor, Health and 
Human Services, and Education, and Related Agencies appropriation 
measure. We thank you for your support of these programs over the 
years, and trust you will do your best to adequately fund them in the 
future in order to provide for and protect the health of many 
Americans.
                                hiv/aids
    HIV/AIDS remains one of the world's worst health pandemics in 
history. According to the Centers for Disease Control and prevention 
(CDC), 583,298 people have died of AIDS in the United States. In 2008, 
the CDC announced that its estimate of new infections per year is now 
56,300, which is 40 percent higher than previous estimates. That 
translates into a new infection every 9\1/2\ minutes. At the end of 
2007, an estimated 1.1 million people in the United States were living 
with HIV/AIDS.
    The AIDS Institute, working in coalition with other AIDS 
organizations, has developed funding request numbers for each of these 
domestic AIDS programs. We ask that you do your best to adequately fund 
them at the requested level.
    We are keenly aware of budget constraints and competing interests 
for limited dollars. Unfortunately, despite the growing need, domestic 
HIV/AIDS programs have experienced only very minor increases in recent 
years. We are pleased that President Obama continues to focus on 
domestic HIV/AIDS programs and has proposed increases for prevention 
and treatment. We hope you will support the President's desire and 
increase funding for these important public health programs. Federal 
funding is particularly critical at this time since State and local 
budgets are being severely cut during this economic downturn. Many 
States and local governments have greatly cut their HIV prevention and 
HIV/AIDS care programs at the very same time demand for services are 
escalating.
    Below are The AIDS Institute's program requests and supporting 
explanation:
Centers for Disease Control and Prevention--HIV Prevention and 
        Surveillance

                        [In millions of dollars]
------------------------------------------------------------------------
                                                                 Amount
------------------------------------------------------------------------
Fiscal year 2010.............................................        728
Fiscal year 2011 community request...........................      1,606
------------------------------------------------------------------------

    New infections are particularly occurring in certain populations, 
including African-American men and women and men who have sex with men. 
In order to address the specific needs of these populations and the 
increased number of people infected, CDC is going to need additional 
funding. Currently, the United States spends only about 4 percent of 
its domestic HIV/AIDS spending on prevention.
    The AIDS Institute is extremely supportive of President Obama's 
budget request to ``begin a focused initiative to prevent HIV through 
holistic and integrated approached to protect the health of gay, 
bisexual, and other MSM.'' We congratulate the President for proposing 
additional funding and for focusing it on gay men, which represent a 
majority of HIV cases in the United States and is the only group in 
which HIV incidence is increasing.
    Unfortunately, the $31 million increase for fiscal year 2011 
requested by the President is far from what is needed to significantly 
reduce the number of new HIV infections. According to the CDC's 
professional judgment budget, an additional $878 million for each of 
the next 5 years is necessary to improve HIV prevention efforts and 
reduce HIV transmission in the United States. Therefore, The AIDS 
Institute supports an increase for CDC HIV prevention funding by $878 
million in fiscal year 2011.
    This additional funding would be targeted toward: (1) Increasing 
HIV testing and the number of people who are reached by effective 
prevention programs; (2) developing new tools to fight HIV with 
scientifically proven interventions; and (3) improving systems to 
monitor HIV and related risk behaviors, and to evaluate prevention 
programs.
    Investing in prevention today will save money tomorrow. Every case 
of HIV that is prevented saves, on average, $1 million of lifetime 
treatment costs for HIV. The CDC estimates that the cost of treating 
the estimated 56,300 new HIV infections in 2006 will translate into 
$9.5 billion in annual future medical costs.
    At a time when State and local HIV prevention budgets are being 
cut, just to keep at the current funding levels will require a level of 
resources greater than what has been proposed. The AIDS Institute is 
concerned about any effort that would actually reduce the level of HIV 
prevention dollars at the State level. That is why we are opposed to 
language requested by the administration that would allow States to 
move up to 10 percent of its CDC funding, including HIV funding, to 
address the top six leading causes of death.
Ryan White HIV/AIDS Programs

                        [In millions of dollars]
------------------------------------------------------------------------
                                                                 Amount
------------------------------------------------------------------------
Fiscal year 2010.............................................    2,290.9
Fiscal year 2011 community request...........................    3,101.5
------------------------------------------------------------------------

    The centerpiece of the Government's response to caring and treating 
low-income people with HIV/AIDS is the Ryan White HIV/AIDS Program. 
Ryan White currently serves more than half a million low-income, 
uninsured, and underinsured people each year. In fiscal year 2010, the 
Program received an increase of $53 million, or just 2.3 percent. This 
increase does not even cover the rate of inflation. The AIDS Institute 
urges you to provide substantial funding increases to all parts of the 
Ryan White Program. Consider the following:
  --Caseload levels are increasing. People are living longer due to 
        lifesaving medications; there are more than 56,000 new 
        infections each year; and increased testing programs will 
        identify 12,000 to 20,000 new people infected with HIV each 
        year. With rising unemployment, people are losing their 
        employer-sponsored health coverage.
  --State and local budgets are experiencing cutbacks due to the 
        economic downturn. A recent survey by the National Alliance of 
        State and Territorial AIDS Directors found that State HIV/AIDS 
        funding reductions totaling more than $170 million occurred in 
        29 States during fiscal year 2009. The situation for this year 
        and next will be even worse. Thirty-three States who 
        participated in the survey anticipate a decrease in State 
        funding this year.
  --There are significant numbers of people in the United States who 
        are not receiving life-saving AIDS medications. An IOM report 
        concluded that 233,069 people in the United States who know 
        their HIV status do not have continuous access to Highly Active 
        Antiretroviral Therapy.
    Specifically, The AIDS Institute requests the following funding 
levels for each part of the Program:
  --Part A provides medical care and vital support services for persons 
        living with HIV/AIDS in the metropolitan areas most affected by 
        HIV/AIDS. We request an increase of $225.9 million, for a total 
        of $905 million.
  --Part B base provides essential services including diagnostic, viral 
        load testing and viral resistance monitoring and HIV care to 
        all 50 States, the District of Columbia, Puerto Rico, and the 
        territories. We are requesting a $55.9 million increase, for a 
        total of $474.7 million.
  --The AIDS Drug Assistance Program (ADAP) provides life-saving HIV 
        drug treatment to more than 150,000 people, the majority of 
        whom are people of color (59 percent) and very poor (74 percent 
        are at or below 200 percent of the Federal poverty level). 
        Currently, ADAPs are experiencing unprecedented growth. The 
        monthly growth of 1,271 clients is an increase of 80 percent 
        from fiscal year 2008 when ADAPs experienced an average monthly 
        growth of 706 clients. Due to a lack of funding, States have 
        instituted waiting lists and have reduced the number of drugs 
        on their formularies, reduced eligibility and capped 
        enrollment. There are currently 859 people in 10 States on ADAP 
        waiting lists. In order to address the ADAP funding crisis, 
        which will grow even worse in fiscal year 2011, we are 
        requesting an increase of $370.1 million for a total of 
        $1,205.1 million.
  --Part C provides early medical intervention and other supportive 
        services to more than 248,000 people at more than 380 directly 
        funded clinics. We are requesting a $131 million increase, for 
        a total of $337.9 million.
  --Part D provides care to more than 84,000 women, children, youth, 
        and families living with and affected by HIV/AIDS. We are 
        requesting a $7 million increase, for a total of $84.8 million.
  --Part F includes the AIDS Education and Training Centers (AETCs) 
        program and the Dental Reimbursement program. We are requesting 
        a $15.2 million increase for the AETC program, for a total of 
        $50 million, and a $5.4 million increase for the Dental 
        Reimbursement program, for a total of $19 million.
    For fiscal year 2011, the President requested an increase of only 
$39.5 million, or just 1.7 percent, for the entire Ryan White Program 
and no increase for Parts A and D of the Program. The AIDS Institute 
urges the subcommittee to consider the growing needs of all Parts of 
the Ryan White Program and provide the necessary resources it requires 
to meet the needs of people living with HIV/AIDS in the United States.
National Institutes of Health--AIDS Research

                        [In billions of dollars]
------------------------------------------------------------------------
                                                                 Amount
------------------------------------------------------------------------
Fiscal year 2010.............................................        3.1
Fiscal year 2011 community request...........................        3.5
------------------------------------------------------------------------

    The National Institutes Health (NIH) conducts research to better 
understand HIV and its complicated mutations, discover new drug 
treatments, develop a vaccine and other prevention programs such as 
microbicides, and ultimately develop a cure. The critically important 
work performed by the NIH not only benefits those in the United States, 
but the entire world. This research has already helped in the 
development of many highly effective new drug treatments, prolonging 
the lives of millions of people. As neither a cure nor a vaccine 
exists, and patients continue to build resistance to existing 
medications, additional research must continue. NIH also conducts the 
necessary behavioral research to learn how HIV can be prevented best in 
various affected communities. We ask the subcommittee to fund critical 
AIDS research at the community requested level of $3.5 billion.
Comprehensive Sex Education
    President Obama and Congress took steps toward implementing 
comprehensive sexual education in fiscal year 2010 by ending 
discretionary funded abstinence-only until marriage programs and 
creating the Teen Pregnancy Prevention Initiative. We urge the Congress 
to continue no funding for abstinence only education programs. 
Additionally, we believe the Teen Pregnancy Prevention Initiative 
should be expanded so that it addresses other aspects of sexual health, 
including HIV and STD prevention.
Syringe Exchange Programs
    By eliminating the Federal funding ban on syringe exchange programs 
in fiscal year 2010, Congress allowed funding of a proven method to 
reduce the transmission of HIV and other infectious diseases. The AIDS 
Institute requests that you work to ensure that this ban is not 
reinstated.
Minority AIDS Initiative
    The AIDS Institute supports increased funding for the Minority AIDS 
Initiative (MAI), which is funded by numerous Federal agencies. MAI 
funds services nationwide that address the disproportionate impact that 
HIV has on communities of color. We are requesting a $207.1 million 
increase across the MAI's programs, for a total of $610 million.
                            viral hepatitis
    The Institute of Medicine (IOM) recently released a report 
``Hepatitis and Liver Cancer: A National Strategy for Prevention and 
Control of Hepatitis B and C.'' It outlines a number of recommendations 
on how the incidence of Hepatitis B and C infections can be decreased. 
These recommendations include increased public awareness campaigns, 
heightened testing and vaccination programs, continued research, along 
with improved surveillance and other prevention programs.
    According to the IOM, 3.5-5.3 million people, or 1-2 percent of the 
U.S. population are living with chronic Hepatitis B or C. Because of 
their asymptomatic nature, the vast majority of infected people are 
unaware of their infection. There are an estimated 43,000 new acute 
Hepatitis B infections each year in the United States. The CDC 
estimates that 10 percent of people with Hepatitis B are co-infected 
with HIV and 25 percent of people with Hepatitis C are co-infected with 
HIV. Congress currently funds CDC's Viral Hepatitis Division at only 
$19.3 million. Given the huge impact that Hepatitis B and C have on the 
health of so many people, and the large treatment costs, The AIDS 
Institute requests an increase of $30.7 million, for a total of $50 
million.
    The AIDS Institute asks that you give great weight to our testimony 
as you deliberate over the fiscal year 2011 appropriation bill.
                                 ______
                                 
           Prepared Statement of the Tri-Council for Nursing
    The Tri-Council for Nursing, comprising the American Association of 
Colleges of Nursing, the American Nurses Association, the American 
Organization of Nurse Executives, and the National League for Nursing, 
respectfully requests $267.3 million (a 10 percent increase) for the 
Nursing Workforce Development programs authorized under title VIII of 
the Public Health Service Act (42 USC 296 et seq.) in fiscal year 2011.
    The Tri-Council is a long-standing alliance focused on leadership 
and excellence in the nursing profession. The Nation is currently in 
the twelfth year of the nurse and nurse faculty shortages, contributing 
to a workforce deficit that diminishes the quality of patient care in 
the United States. As the Nation looks towards reforming the healthcare 
system by focusing on expanding access, decreasing cost, and improving 
quality, a significant investment must be made in strengthening the 
nursing workforce.
    In fiscal year 2010, your subcommittee provided a considerable 
funding boost for title VIII that helped support the Loan Repayment and 
Scholarship program and Nurse Faculty Loan program. These increases 
will help bolster the pipeline of nurses and nurse faculty, which are 
so critical to reversing the nursing shortage. It is extremely 
important to maintain last year's funding level for these crucial 
programs in fiscal year 2011. The Tri-Council believes the 10 percent 
requested increase should be directed to the four title VIII programs 
that have not kept pace with inflation since fiscal year 2005. These 
programs include the Advanced Education Nursing, Nursing Workforce 
Diversity, Nurse Education, Practice, and Retention, and Comprehensive 
Geriatric Education programs, which help expand nursing school capacity 
and increase patient access to care. The 10 percent increase awarded to 
these programs in proportion to their fiscal year 2010 funding level 
would be a wise investment of Federal resources.
four nursing workforce growth areas: critical title viii programs that 
                           provide solutions
A Shortage of Providers Needed to Meet Increasing Healthcare Demands
    With healthcare access expanded through the newly passed reforms, 
more providers will be needed. According to the U.S. Bureau of Labor 
Statistics (BLS), nursing is the Nation's top profession in terms of 
projected job growth with more than 581,000 new nursing positions being 
created through 2018 (a 22 percent increase in the workforce). 
Moreover, healthcare professionals with knowledge and expertise in 
primary, transitional, and preventative care will be in great demand. 
Registered Nurses (RNs), Advanced Practice Registered Nurses (APRNs), 
and RNs with advanced education have the skills and are licensed to 
provide these vital services. The Advanced Education Nursing Grants and 
Traineeships help to educate the next generation of these providers in 
addition to the faculty who educate them.
    Advanced Education Nursing (AEN) Grants (section 811) support the 
preparation of RNs in master's and doctoral nursing programs. The AEN 
grants help to prepare our Nation's nurse practitioners, clinical nurse 
specialists, nurse midwives, nurse anesthetists, nurse educators, nurse 
administrators, public health nurses, and other nurse specialists 
requiring advanced education. In fiscal year 2008 (the most recent year 
for which data are available), these grants supported the education of 
5,649 students.
  --AEN Traineeships assist graduate nursing students by providing full 
        or partial reimbursement for the costs of tuition, books, 
        program fees, and reasonable living expenses. In fiscal year 
        2008, this funding helped support 6,675 graduate nurses and 
        APRNs.
  --Nurse Anesthetist Traineeships (NAT) support the education of 
        students in nurse anesthetist programs. In some States, 
        Certified Registered Nurse Anesthetists (CRNAs) are the sole 
        anesthesia providers in almost 100 percent of rural hospitals. 
        Much like the AEN Traineeships, the NAT provides full or 
        partial support for the costs of tuition, books, program fees, 
        and reasonable living expenses. In fiscal year 2008, the 
        program supported 2,145 future CRNAs.
Increasing Nursing Diversity to Improve Patient Care
    According to an April 2000 report prepared by the National Advisory 
Council on Nurse Education and Practice, a culturally diverse nursing 
workforce is essential to meeting the healthcare needs of the Nation's 
population. However, the initial findings from the 2008 National Sample 
Survey of Registered Nurses show that while RN graduates entering the 
profession represent greater cultural diversity, when compared to the 
U.S. population, the profession still does not represent the current 
demographics of this country. Nurses from racial and ethnic minorities 
underrepresented in nursing contribute significantly to the provision 
of healthcare services and are leaders in the development of models of 
care that address the unique needs of our Nation's populations. The 
Workforce Diversity Grants under title VIII help to ensure a nursing 
workforce is developed to meet the healthcare needs of all patients.
    Workforce Diversity Grants (section 821) prepare students from 
disadvantaged backgrounds to become nurses. This program awards grants 
and contract opportunities to schools of nursing, nurse-managed health 
centers, academic health centers, State or local governments, and 
nonprofit entities looking to increase access to nursing education for 
disadvantaged students, including racial and ethnic minorities 
underrepresented among RNs. In fiscal year 2008, the program supported 
11,638 students.
Education, Practice, and Retention: Enhancing and Maintaining the 
        Knowledge Base of Nursing
    Advances in healthcare technology, practice, and systems influence 
the way nurses deliver quality care. Like other health professions, 
nurses must continually expand their knowledge base to adapt to the 
changing healthcare environment. Higher learning and continued 
education for nurses are expected of all RNs as the profession strives 
for excellence in patient care. The Nurse Education, Practice, and 
Retention Grant program is designed to ensure RNs obtain additional 
knowledge in the discipline by expanding their entry-level education, 
improving their practice, and retaining seasoned clinicians in the 
profession.
    Nurse Education, Practice, and Retention Grants (section 831) help 
schools of nursing, academic health centers, nurse-managed health 
centers, State and local governments, and healthcare facilities 
strengthen programs that provide nursing education. The three priority 
areas under this program help to:
  --Expand the enrollment in baccalaureate nursing programs;
  --Develop and implement internship and residency programs to 
        encourage and mentor, as well as for the development of 
        specialties;
  --Provide education in new technologies, including distance learning 
        methodologies;
  --Establish or expand nursing practice arrangements in 
        noninstitutional settings to demonstrate methods to improve 
        access to primary healthcare in medically underserved 
        communities;
  --Provide care for underserved populations and other high-risk groups 
        such as older adults, individuals with HIV/AIDS, individuals 
        with substance use disorders, people who are homeless, and 
        those who are victims of domestic violence;
  --Provide managed care, quality improvement, and other skills needed 
        to practice in existing and emerging organized healthcare 
        systems;
  --Develop cultural competencies among nurses;
  --Offer grants for career ladder programs to promote career 
        advancement for nursing personnel and to assist individuals in 
        obtaining education and training required to enter the nursing 
        profession and advance within the profession; and
  --Provide grants that enhance patient care delivery systems and are 
        directly related to nursing activities by enhancing 
        collaboration and communication among nurses and other 
        healthcare professionals, and promote nurse involvement in the 
        organizational and clinical decisionmaking processes of a 
        healthcare facility.
    In fiscal year 2008, the priority areas under this program 
supported 42,761 nurses and nursing students.
Increased Nursing Care Needed for an Aging Population
    Today, more than at any other time in our Nation's history, nurses 
face an unprecedented challenge-caring for an aging population that is 
growing at an exponential rate. According to the U.S. Census Bureau, 
36.3 million Americans are older the age of 65, which represents 12 
percent of the total population. It has been projected that by 2050, 
86.5 million Americans will be older the age of 65. This represents a 
147 percent increase between the years 2000 and 2050.
    The National Center for Healthcare Statistics has reported that 
older adults account for 50 percent of hospital days, 60 percent of 
ambulatory adult primary care visits, 70 percent of all home care 
visits, and 85 percent of residents in nursing homes. Moreover, 63 
percent of newly licensed nurses report that older adults comprise a 
majority of their patient loads. Clearly, more RNs are needed with 
expertise in geriatric nursing. The Comprehensive Geriatric Education 
Grants help to educate the next generation of these practitioners.
    Comprehensive Geriatric Education Grants (section 855) are awarded 
to schools of nursing or healthcare facilities to better provide 
nursing services for older adults. These grants are used to educate RNs 
who will provide direct care to older Americans, develop and 
disseminate geriatric curriculum, prepare faculty members, and provide 
continuing education. In fiscal year 2008, this program supported 6,514 
nurses and nursing students.
    With increased funding, these four programs can help address many 
issues currently impacting the nursing shortage. Therefore, the Tri-
Council respectfully request $267.3 million (a 10 percent increase) for 
the Nursing Workforce Development programs in fiscal year 2011.
                                 ______
                                 
              Prepared Statement of The Endocrine Society
    The Endocrine Society is pleased to submit the following testimony 
regarding fiscal year 2011 Federal appropriations for biomedical 
research, with an emphasis on appropriations for the National 
Institutes of Health (NIH). The Endocrine Society is the world's 
largest and most active professional organization of endocrinologists 
representing more than 14,000 members worldwide. Our organization is 
dedicated to promoting excellence in research, education, and clinical 
practice in the field of endocrinology. The Society's membership 
includes thousands of researchers who depend on Federal support for 
their careers and their scientific advances.
    Each year, the NIH funds thousands of research grants, facilitating 
the discovery of methods of prevention, treatment, and cure for 
debilitating diseases that negatively impact the health of the Nation's 
citizens and fuel rising healthcare costs. Nearly half of all Americans 
have a chronic medical condition, and these diseases now cause more 
than half of all deaths worldwide. Deaths attributed to chronic 
conditions could reach 36 million by 2015 if the trend continues 
unabated.
    Congress and President Obama recognized the contributions of NIH to 
the health of the Nation and the Nation's economy by awarding the 
agency more than $10 billion through the American Recovery and 
Reinvestment Act (ARRA). These funds supported more than 12,000 grants 
and created more than 50,000 jobs. ARRA funds have allowed the NIH to 
award grants, including those described in the bulleted list below, 
which will lead to breakthroughs in hundreds of disease areas, 
including those chronic diseases that result in the death of so many 
people each year.
  --A project is using information from a clinical trial in people with 
        type 2 diabetes and heart disease to examine the association 
        between fat cell hormones and CVD, including their potential 
        usefulness in prognosis, monitoring effects of therapy, and 
        identifying risk.
  --A project will conduct research in mice to develop a vehicle to 
        deliver a specific gene that may prevent type 1 diabetes.
  --A grant to provide insights into the mechanisms by which diet and 
        exercise reduce abdominal fatness and improve cardiovascular 
        health in overweight and obese persons with type 2 diabetes. 
        These mechanisms include systemic inflammation, insulin 
        sensitivity, and aerobic and strength fitness.
  --Researchers will define how certain carbohydrate molecules affect 
        hormone function, to better understand reproductive 
        development, and development of breast and prostate cancer.
  --Scientists will assess how a specific gene helps trigger the 
        development of stem cells into sperm, which could lead to new 
        treatments for male infertility or new contraceptive targets.
  --A project will investigate the role of developmental exposure to 
        Bisphenol A (BPA) on obesity and metabolic syndrome.
    Most of these grants would not have been funded through the regular 
grant approval process, and without the ARRA funds, the discoveries 
that are expected to result from these projects would never have a 
chance to be made. Furthermore, many of the scientists funded through 
these grants may never have received the funds necessary to start or 
continue their careers, including many first-time awardees. As the 
United States continues to lose its place as the world leader in 
innovation, we cannot miss out on opportunities to award bright young 
scientists and engage them in the research process.
    Unfortunately, the grants and jobs created will disappear at the 
end of fiscal year 2010 if Congress does not sustain the momentum 
created by the ARRA funds with a significant increase in the fiscal 
year 2011 budget. While it is not feasible to expect that the NIH 
budget can be increased in 1 year to a level that will sustain the 
12,000 grants awarded through the ARRA funds, Congress must do what it 
can to ensure that NIH receives steady, sustainable, predictable 
increases that avoid the boom and bust cycle that NIH experienced with 
the doubling of its budget, and now faces again with the end of the 
ARRA funds.
    The Endocrine Society remains deeply concerned about the future of 
biomedical research in the United States without sustained support from 
the Federal Government. The Society strongly supports the continued 
increase in Federal funding for biomedical research in order to provide 
the additional resources needed to enable American scientists to 
address the burgeoning scientific opportunities and new health 
challenges that continue to confront us. The Endocrine Society 
recommends that NIH receive $37 billion in fiscal year 2011 to prepare 
for the poststimulus era and ensure the steady and sustainable growth 
necessary to continue building on the advances made by scientists 
during the past decade.
                                 ______
                                 
       Prepared Statement of the Telehealth Leadership Initiative
    The Telehealth Leadership Initiative (TLI)--a nonprofit 
organization that represents the telehealth and e-health stakeholders 
before legislative, administrative, and judicial branches of local, 
State, and national governments and the entire telehealth community--
appreciates the opportunity to submit written testimony to the Senate 
Labor, Health and Human Services, Education, and Related Agencies 
Appropriations Subcommittee. We respectfully request that the 
subcommittee maintain last year's funding levels and continue to 
provide $11.6 million for the Office for the Advancement of Telehealth 
(OAT), in the fiscal year 2011 Labor, Health and Human Services, 
Education, and Related Agencies appropriations bill. These resources 
will support access to quality healthcare services, through telehealth 
technologies, for remote, rural and underserved populations.
                          telehealth overview
    Telehealth, also known as telemedicine, is the providing of 
healthcare, health information, and health education across a distance, 
using telecommunications technology, and specially adapted equipment. 
It allows physicians, nurses, and healthcare specialists to assess, 
diagnose and treat patients without requiring both individuals to be 
physically in the same location, regardless of whether that distance is 
across a street, across a city, across the State, or across continents.
    There are many applications for telehealth, such as:
  --Monitoring patients with chronic conditions or at-risk populations;
  --Medical care for home-bound patients or those in rural, remote, or 
        frontier locations;
  --Mental telehealth for incarcerated populations;
  --Access to medical care in areas with provider shortages;
  --Access to healthcare services for those in correctional facilities; 
        and
  --Availability of expert consultations via satellite for individuals 
        on the battlefield, cruise ships, space stations, research 
        stations, and other inaccessible locations.
    Telehealth has been used to successfully accomplish the following:
  --Prevent unnecessary delays in receiving treatment;
  --Reduce or eliminate travel expenses;
  --Reduce or eliminate the separation of families during difficult and 
        emotional times;
  --Utilize the services of healthcare providers in locales where the 
        supply of physicians may be adequate or at a surplus; and
  --Allow patients to spend less time in waiting rooms.
    Currently, telehealth is practiced in many settings, such as rural 
hospitals, school districts, home-health settings, nursing homes, 
cruise ships, on the battlefield, and even on NASA space missions. 
Telehealth is well-established in certain disciplines, such as 
radiology and dermatology, and is being expanded in other disciplines, 
for example, home telehealth, mental telehealth, ocular telehealth, 
teledermatology, telepathology, telerehabilitation. It is being 
utilized further for specific populations, including individuals who 
are incarcerated or live or are stationed in remote locations.
                              oat overview
    The Office for the Advancement of Telehealth (OAT), which is a 
grant making agency at the Department of Health and Human Services, is 
responsible for promoting the use of telehealth technologies for 
healthcare delivery, education, and health information services. 
Through its programs, OAT helps bring access to care to those living in 
remote, rural and underserved populations.
             requested funding levels for fiscal year 2011
    Over the years, telehealth has improved a patient's access to 
timely specialty care, reduced medical errors, and saved our healthcare 
system money. Last year, Congress funded telehealth initiatives at 
$11.6 million for fiscal year 2010. This year, the TLI urges the Senate 
to maintain the same funding level for fiscal year 2011.
    We feel strongly that an $11.6 million funding level for OAT is 
essential to ensuring that millions of Americans have access to quality 
healthcare services. Maintaining these funding levels will allow these 
programs to continue to work with and support communities, in their 
efforts to develop cost-effective uses of telehealth technologies.
    These initiatives, carried out through OAT, are especially valuable 
in a time when millions of Americans are struggling to access quality 
healthcare services.
                     credentialing and privileging
    In fiscal year 2010, the subcommittee expressed its concern about a 
process soon to be enforced by the Centers for Medicare and Medicaid 
Services that would require all telemedicine originating sites where 
the patient is located to credential and privilege all telemedicine 
practitioners. For many small hospitals receiving telemedicine 
services, this could mean credentialing and privileging tens, if not 
hundreds, of telemedicine practitioners. It is a cost and personnel 
burden that essentially would force the closure of many telemedicine 
programs throughout the country. It is the single greatest threat to 
the expansion of telemedicine.
    Since passage of the fiscal year 2010 appropriations, some positive 
developments have occurred. CMS has reached out to the telemedicine 
community and appears to be actively seeking a solution to the impact 
of this credentialing and privileging requirement. We urge the 
Committee to continue to exert it's oversight on this issue to ensure 
that CMS develops a workable policy that does not cripple the delivery 
of telehealth services, while at the same time protects patient safety, 
a goal that the telehealth community shares with CMS.
                               conclusion
    Thank you for you attention to this important healthcare matter. We 
know you face many challenges in choosing funding priorities, but we 
hope you will continue to keep telehealth a priority and maintain last 
year's funding levels of $11.6 million, in this year's fiscal year 2011 
appropriations' process. TLI appreciates the opportunity to share its 
views, and we thank you for your consideration of our request.
                                 ______
                                 
             Prepared Statement of the NephCure Foundation
One Family's Story
    Mr. Chairman and members of the subcommittee thank you for the 
opportunity to provide written testimony today, I am Dee Ryan and my 
husband is Lieutenant Colonel John Kevin Ryan, an Iraq war veteran. I 
would like to tell you about my 6-year-old daughter Jenna's nephrotic 
syndrome (NS), a medical problem caused by rare diseases of the kidney 
filter. When affected, these filters leak protein from the blood into 
the urine and often cause kidney failure requiring dialysis or kidney 
transplantation. We have been told by our physician that Jenna has one 
of two filter diseases called Minimal Change Disease (MCD) or Focal and 
Segmental Glomerulosclerosis (FSGS). According to a Harvard University 
report there are presently 73,000 people in the United States who have 
lost their kidneys as a result of FSGS. Unfortunately, the causes of 
FSGS and other filter diseases are very poorly understood.
    In October 2007, my daughter began to experience general swelling 
of her body and intermittent abdominal pain, fatigue and general 
malaise. Jenna began to develop a cough and her stomach became 
dramatically distended. We rushed Jenna to the emergency room where her 
breathing became more and more labored and her pulse raced. She had 
symptoms of pulmonary edema, tachycardia, hypertension, and pneumonia. 
Her lab results showed a large amount of protein in the urine and a low 
concentration of the blood protein albumin, consistent with the 
diagnosis of FSGS. Jenna's condition did not begin to stabilize for 
several frightening days.
    Following her release from the hospital we had to place Jenna on a 
strict diet which limited her consumption of sodium to no more than 
1,000 mg per day. Additionally, Jenna was placed on a steroid regimen 
for the next 3 months. We were instructed to monitor her urine protein 
levels and to watch for swelling and signs of infection, in order to 
avoid common complications such as overwhelming infection or blood 
clots. Because of her disease and its treatment, which requires strong 
suppression of the immune system, Jenna did have a serious bacterial 
infection several months after she began treatment.
    We are frightened by her doctor's warnings that NS and its 
treatment are associated with growth retardation and other medical 
complications including heart disease. As a result of NS, Jenna has 
developed hypercholesterolemia and we worry about the effects the 
steroids may have on her bones and development. This is a lot for a 
little girl in kindergarten to endure.
    Jenna's prognosis is currently unknown because NS can reoccur. Even 
more concerning to us is that Jenna may eventually lose her kidneys 
entirely and need dialysis or a kidney transplant. While kidney 
transplantation might sound like a cure, in the case of FSGS, the 
disease commonly reappears after transplantation. And even with a 
transplant, end stage renal disease caused by FSGS dramatically 
shortens one's life span.
    The NCF has been very helpful to my family. They have provided us 
with educational information about NS, MCD, and FSGS and the 
organization works to provide grant funding to scientists for research 
into the cause and cure of NS.
    Mr. Chairman, because the causes of NS are poorly understood, and 
because we have a great deal to learn in order to be able to 
effectively treat NS, I am asking you to please significantly increase 
funding for the NIH. Also, please support the establishment of a 
collaborative research network that would allow scientists to create a 
patient registry and biobank for NS/FSGS, and that would allow 
coordinated studies of these deadly diseases for the first time. 
Finally, please urge the National Institute of Diabetes and Digestive 
and Kidney Disease (NIDDK) to continue to focus on FSGS/NS research in 
general, consistent with the recent program announcement entitled 
Grants for Basic Research in Glomerular Disease (R01) (PA-10-113).
    Mr. Chairman, on behalf of the thousands of people suffering from 
NS and FSGS and the NephCure Foundation (NCF), thank you for this 
opportunity to submit this testimony to the subcommittee and for your 
consideration of my request.
More Research is Needed
    We are no closer to finding the cause or the cure of FSGS. 
Scientists tell us that much more research needs to be done on the 
basic science behind the disease.
    NCF, the University of Michigan, and other important university 
research health centers have come together along with the National 
Institutes of Health (NIH) to support the establishment of the 
Nephrotic Syndrome Rare Disease Clinical Research Network. This network 
is a new collaboration between research institutions, the NCF, and NIH 
supporting research on NS and FSGS. This initiative has tremendous 
potential to make significant advancements in NS and FSGS research by 
pooling efforts and resources, including populations for clinical 
trials. The addition of Federal resources to this important initiative 
is crucial to ensuring the best possible outcomes for the Nephrotic 
Syndrome Rare Disease Clinical Research Network occur.
    NCF is also grateful to the NIDDK for issuing of a program 
announcement (PA) that serves to initiate grant proposals on glomerular 
disease; the PA, issued in March 2007, is glomerular-disease specific. 
The announcement will utilize the R01 mechanism to award researchers 
funding. In February 2010 the PA was re-released for a further 3 years.
    We ask the subcommittee to encourage the ORDR to continue to 
support the Nephrotic Syndrome Rare Disease Clinical Research Network 
to expand FSGS research. We also ask the subcommittee to encourage 
NIDDK to continue to issue glomerular disease program announcements.
Too Little Education About a Growing Problem
    When glomerular disease strikes, the resulting NS causes a loss of 
protein in the urine and edema. The edema often manifests itself as 
puffy eyelids, a symptom that many parents and physicians mistake as 
allergies. With experts projecting a substantial increase in nephrotic 
syndrome in the coming years, there is a clear need to educate 
pediatricians and family physicians about glomerular disease and its 
symptoms.
    It would be of great benefit for CDC to begin raising public 
awareness of the glomerular diseases in an attempt to diagnose patients 
earlier.
    We ask the subcommittee to encourage CDC to establish a glomerular 
disease education and awareness program aimed at both the general 
public and healthcare providers.
Glomerular Disease Strikes Minority Populations
    Nephrologists tell us that glomerular disease strikes African 
Americans nearly 5 times more frequently than white Americans. No one 
knows why this is, but some studies have suggested that the MYH9 gene, 
which is 5 times more prevalent in African Americans, may be linked to 
susceptibility to FSGS. NIDDK will be sponsoring a conference on this 
issue on April 19-20, 2010.
    We ask that the NIH pay special attention to why this disease 
affects African Americans to such a large degree and often in a more 
severe manner. The NCF wishes to work with the NIDDK and the National 
Center for Minority Health and Health Disparities (NCMHD) to encourage 
the creation of programs to study the high incidence of glomerular 
disease within the African-American population.
    There is also evidence to suggest that the incidence of glomerular 
disease is higher among Hispanic Americans than in the general 
population. An article in the February 2006 edition of the NIDDK 
publication Recent Advances and Emerging Opportunities, discussed the 
case of Frankie Cervantes, a 6-year-old boy of Mexican and Panamian 
descent. Frankie has FSGS received a transplanted kidney from his 
mother. We applaud the NIDDK for highlighting FSGS in their 
publication, and for translating the article about Frankie into both 
English and Spanish. Only through similar efforts at cross-cultural 
education can the African-American and Hispanic-American communities 
learn more about glomerular disease.
    The Nephrotic Syndrome Rare Disease Clinical Research Network 
offers an excellent opportunity for NCMHD to collaborate with a wide 
variety of researchers and institutions to increase knowledge of NS/
FSGS. The addition of NCMHD would add additional insight into the 
minority community, which is so disproportionately impacted by FSGS.
    We ask the subcommittee to encourage ORDR, NIDDK, and NCMHD to 
collaborate on research that studies the incidence and cause of this 
disease among minority populations. We also ask the subcommittee to 
urge NIDDK and the NCMHD undertake culturally appropriate efforts aimed 
at educating minority populations about glomerular disease.
                                 ______
                                 
            Prepared Statement of the Scleroderma Foundation
    Mr. Chairman, I am Cynthia Cervantes, I am 12 and in the ninth 
grade. I live in southern California and in October 2006 I was 
diagnosed with scleroderma. Scleroderma means ``hard skin'' which is 
literally what scleroderma does and, in my case, also causes my 
internal organs to stiffen and contract. This is called diffuse 
scleroderma. It is a relatively rare disorder effecting only about 
300,000 Americans.
    About 2 years ago I began to experience sudden episodes of 
weakness, my body would ache and my vision was worsening, some days it 
was so bad I could barely get myself out of bed. I was taken to see a 
doctor after my feet became so swollen that calcium began to ooze out. 
It took the doctors (period of time) to figure out exactly what was 
wrong with me, because of how rare scleroderma is.
    There is no known cause for scleroderma, which affects three times 
as many women as men. Generally, women are diagnosed between the ages 
of 25 and 45, but some kids, like me, are affected earlier in life. 
There is no cure for scleroderma, but it is often treated with skin 
softening agents, anti-inflammatory medication, and exposure to heat. 
Sometimes a feeding tube must be used with a scleroderma patient 
because their internal organs contract to a point where they have 
extreme difficulty digesting food.
    The Scleroderma Foundation has been very helpful to me and my 
family. They have provided us with materials to educate my teachers and 
others about my disease. Also, the support groups the foundation helps 
organize are very helpful because they help show me that I can live a 
normal, healthy life, and how to approach those who are curious about 
why I wear gloves, even in hot weather. It really means a lot to me to 
be able to interact with other people in the same situation as me 
because it helps me feel less alone.
    Mr. Chairman, because the causes of scleroderma are currently 
unknown and the disease is so rare, and we have a great deal to learn 
about it in order to be able to effectively treat it. I would like to 
ask you to please significantly increase funding for the National 
Institute of Health so treatments can be found for other people like me 
who suffer from scleroderma. It would also be helpful to start a 
program at the Centers for Disease Control and Prevention to educate 
the public and physicians about scleroderma.
                         scleroderma foundation
    The Scleroderma Foundation is a nonprofit organization based in 
Danvers, Massachusetts with a three-fold mission of support, education, 
and research. The Foundation has 21 chapters nationwide and more than 
175 support groups.
    The Scleroderma Foundation was established on January 1, 1998 
through a merger between two organizations, one on the west coast and 
one on the east coast, which can trace their beginnings back to the 
early 1970s. The Foundation's mission is to provide support for people 
living with scleroderma and their families through programs such as 
peer counseling, doctor referrals, and educational information, along 
with a toll-free telephone helpline for patients and a quarterly 
magazine, The Scleroderma Voice.
    The Foundation also provides education about the disease to 
patients, families, the medical community, and the general public 
through a variety of awareness programs at both the local and national 
levels. More than $1 million in peer-reviewed research grants are 
awarded annually to institutes and universities to stimulate progress 
in the search for a cause and cure for scleroderma. Building awareness 
of the disease to patients, families, the medical community and the 
general public to not only generate more funding for medical research, 
but foster a greater understanding of the complications faced by people 
living with the disease is a further major focus.
    Among the many programs arranged by the Foundation is the Annual 
Patient Education Conference held each summer. The conference brings 
together an average of 500 attendees and experts for a wide range of 
workshops on such topics as the latest research initiatives, coping and 
disease management skills, caregiver support, and exercise programs.
                         who gets scleroderma?
    There are many clues that define susceptibility to develop 
scleroderma. A genetic basis for the disease has been suggested by the 
fact that it is more common among patients whose family members have 
other autoimmune diseases (such as lupus). In rare cases, scleroderma 
runs in families, although for the vast majority of patients there is 
no other family member affected. Some Native Americans and African 
Americans get worse scleroderma disease than Caucasians.
    Women are more likely to get scleroderma. Environmental factors may 
trigger the disease in the susceptible host. Localized scleroderma is 
more common in children, whereas scleroderma is more common in adults. 
However, both can occur at any age.
    There are an estimated 300,000 people in the United States who have 
scleroderma, about one-third of whom have the systemic form of 
scleroderma. Diagnosis is difficult and there may be many misdiagnosed 
or undiagnosed cases as well.
    Scleroderma can develop and is found in every age group from 
infants to the elderly, but its onset is most frequent between the ages 
of 25 to 55. There are many exceptions to the rules in scleroderma, 
perhaps more so than in other diseases. Each case is different.
                         causes of scleroderma
    The cause is unknown. However, we do understand a great deal about 
the biological processes involved. In localized scleroderma, the 
underlying problem is the overproduction of collagen (scar tissue) in 
the involved areas of skin. In systemic sclerosis, there are three 
processes at work: blood vessel abnormalities, fibrosis (which is 
overproduction of collagen) and immune system dysfunction, or 
autoimmunity.
                                research
    Research suggests that the susceptible host for scleroderma is 
someone with a genetic predisposition to injury from some external 
agent, such as a viral or bacterial infection or a substance in the 
diet or environment. In localized scleroderma, the resulting damage is 
confined to the skin. In systemic sclerosis, the process causes injury 
to blood vessels, or indirectly perturbs the blood vessels by 
activating the immune system.
    Research continues to assemble the pieces of the scleroderma puzzle 
to identify the susceptibility genes, to find the external trigger and 
cellular proteins driving fibrosis, and to interrupt the networks that 
perpetuate the disease.
    Unfortunately, support for scleroderma research at the National 
Institutes of Health over the past several years has been relatively 
flat funded at $20 million in fiscal year 2008, $21 million in fiscal 
year 2009, and an estimated $22 million in fiscal year 2010. This slow 
rate of increase is extremely frustrating to our patients who recognize 
biomedical research as their best hope for a better quality of life. It 
is also of great concern to our researchers who have promising ideas 
they would like to explore if resources were available.
                          types of scleroderma
    There are two main forms of scleroderma: systemic (systemic 
sclerosis, SSc) that usually affects the internal organs or internal 
systems of the body as well as the skin, and localized that affects a 
local area of skin either in patches (morphea) or in a line down an arm 
or leg (linear scleroderma), or as a line down the forehead 
(scleroderma en coup de sabre). It is very unusual for localized 
scleroderma to develop into the systemic form.
Systemic Sclerosis (SSc)
    There are two major types of systemic sclerosis or SSc: limited 
cutaneous SSc and diffuse cutaneous SSc. In limited SSc, skin 
thickening only involves the hands and forearms, lower legs and feet. 
In diffuse cutaneous disease, the hands, forearms, the upper arms, 
thighs, or trunk are affected.
    The face can be affected in both forms. The importance of making 
the distinction between limited and diffuse disease is that the extent 
of skin involvement tends to reflect the degree of internal organ 
involvement.
    Several clinical features occur in both limited and diffuse 
cutaneous SSc. Raynaud's phenomenon occurs in both. Raynaud's 
phenomenon is a condition in which the fingers turn pale or blue upon 
cold exposure, and then become ruddy or red upon warming up. These 
episodes are caused by a spasm of the small blood vessels in the 
fingers. As time goes on, these small blood vessels become damaged to 
the point that they are totally blocked. This can lead to ulcerations 
of the fingertips.
    People with the diffuse form of SSc are at risk of developing 
pulmonary fibrosis (scar tissue in the lungs that interferes with 
breathing, also called interstitial lung disease), kidney disease, and 
bowel disease.
    The risk of extensive gut involvement, with slowing of the movement 
or motility of the stomach and bowel, is higher in those with diffuse 
rather than limited SSc. Symptoms include feeling bloated after eating, 
diarrhea or alternating diarrhea and constipation.
    Calcinosis refers to the presence of calcium deposits in, or just 
under, the skin. This takes the form of firm nodules or lumps that tend 
to occur on the fingers or forearms, but can occur anywhere on the 
body. These calcium deposits can sometimes break out to the skin 
surface and drain whitish material (described as having the consistency 
of toothpaste).
    Pulmonary Hypertension (PH) is high blood pressure in the blood 
vessels of the lungs. It is totally independent of the usual blood 
pressure that is taken in the arm. This tends to develop in patients 
with limited SSc after several years of disease. The most common 
symptom is shortness of breath on exertion. However, several tests need 
to be done to determine if PH is the real culprit. There are now many 
medications to treat PH.
Localized Scleroderma
            Morphea
    Morphea consists of patches of thickened skin that can vary from 
half an inch to 6 inches or more in diameter. The patches can be 
lighter or darker than the surrounding skin and thus tend to stand out. 
Morphea, as well as the other forms of localized scleroderma, does not 
affect internal organs.
            Linear scleroderma
    Linear scleroderma consists of a line of thickened skin down an arm 
or leg on one side. The fatty layer under the skin can be lost, so the 
affected limb is thinner than the other one. In growing children, the 
affected arm or leg can be shorter than the other.
            Scleroderma en coup de sabre
    Scleroderma en coup de sabre is a form of linear scleroderma in 
which the line of skin thickening occurs on the forehead or elsewhere 
on the face. In growing children, both linear scleroderma and en coup 
de sabre can result in distortion of the growing limb or lack of 
symmetry of both sides of the face.
            fiscal year 2011 appropriations recommendations
    An increase in funding for the National Institutes of Health (NIH) 
to $35 billion.
  --An increase for the National Institute of Arthritis and 
        Musculoskeletal and Skin Diseases (NIAMS) concurrent with the 
        overall increase to NIH.
  --Committee recommendation encouraging the Centers for Disease 
        Control and Prevention to partner with the Scleroderma 
        Foundation to promoting increased awareness of scleroderma 
        among the general public and healthcare providers.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    For 41 years, United Tribes Technical College (UTTC) has provided 
postsecondary career and technical education, job training and family 
services to some of the most impoverished Indian students from 
throughout the Nation. Unemployment among the Great Plains tribes, 
where most of our students are from, typically run at about 75 percent. 
We are governed by the five tribes located wholly or in part in North 
Dakota; we are not part of the North Dakota State college system and do 
not have a tax base or State-appropriated funds on which to rely. We 
have consistently had excellent retention and placement rates and are a 
fully accredited institution. Section 117 Perkins funds represent about 
half of our operating budget and provide for our core instructional 
programs. The request of the United Tribes Technical College Board is 
for the following authorized programs:
  --$10 million for base funding authorized under section 117 of the 
        Carl Perkins Act (20 U.S.C. 2327). This is $1.8 million above 
        the fiscal year 2010 level. These funds are shared via a 
        formula by UTTC and Navajo Technical College.
  --$36 million as requested by the American Indian Higher Education 
        Consortium for title III (section 316) of the Higher Education 
        Act (Strengthening Institutions program) that provides 
        construction funds for facilities at tribally controlled 
        colleges. This is $4 million more than the fiscal year 2010 
        level. Among UTTC's pressing facility needs is funding for 
        phase II of our science and technology building and for student 
        housing. We are working to cobble together various sources of 
        funding to complete the science and technology building and to 
        build student housing.
  --$973 million for the TRIO programs nationally which is $120 million 
        more than the requested amount. This would replace the $57 
        million in mandatory funding that is expiring for the Upward 
        Bound program plus provide an increase for other TRIO programs.
    Base Funding.--Funds requested under section 117 of the Perkins Act 
above the fiscal year 2010 level are needed to: (1) maintain 100-year-
old education buildings and 50-year-old housing stock for students; (2) 
upgrade technology capabilities; (3) provide adequate salaries for 
faculty and staff (who have not received a cost of living increase this 
year and who are in the bottom quartile of salary for comparable 
positions elsewhere); and (4) fund program and curriculum improvements, 
including at least three 4-year degree programs.
    Acquisition of additional base funding is critical as UTTC has more 
than tripled its number of students within the past 6 years, but actual 
base funding for educational services has increased only 25 percent in 
that period. Our Perkins funding provides a base level of support 
allowing the college to compete for discretionary contracts and grants 
leading to additional resources annually for the college's programs and 
support services.
    Title III (Section 316) Strengthening Institutions.--We need title 
III construction funds for:
  --Science and Technology Building.--UTTC provides education for more 
        than 1,000 students in 100-year old former military buildings 
        (Fort Abraham Lincoln), along with one 33-year old ``skills 
        center'' which is inadequate for modern technology and science 
        instruction. We have completed phase I of the building and now 
        look to complete phase II. We have raised $5 million, including 
        $1 million in private funding, $3 million from the U.S. 
        Department of Education and $1 million in borrowed funds. The 
        total project cost is expected to be around $12 million. Our 
        current facility lacks laboratories with proper ventilation and 
        other technologies which are standard in science education. We 
        lack a modern auditorium/lecture hall with features such as 
        computer Internet access and electrical outlets and a library 
        with appropriate computer stations. Our present library has 
        been cited by the accrediting agency as being inadequate.
  --Student Housing.--We are constantly in need of more student 
        housing, including family housing. We would like to educate 
        more students but lack of housing has at times limited the 
        admission of new students. With the expected completion of a 
        new Science and Math building on our South Campus on land 
        acquired with a private grant, we urgently need housing for up 
        to 150 students, many of whom have families. New housing on the 
        South Campus could also accommodate those persons we expect to 
        enroll in a new police training programs.
      While UTTC has constructed three housing facilities using a 
        variety of sources in the past 20 years, approximately 50 
        percent of students are housed in the 100-year-old buildings of 
        the old Fort Abraham Lincoln, as well as in duplexes and 
        single-family dwellings that were donated to UTTC by the 
        Federal Government along with the land and Fort buildings in 
        1973. These buildings require major rehabilitation. New 
        buildings for housing are actually cheaper than trying to 
        rehabilitate the old buildings that now house students.
    TRIO Programs.--UTTC currently has no TRIO funding. We are in 
particular need of funding from the student Support Services Program to 
improve retention, transfer, and graduation rates for our Pell Grant 
recipients. Our students need tutoring, mentoring, academic counseling 
and career development services to help them successfully complete 
their academic courses of study. Our study body meets the eligibility 
requirements of TRIO's Student Support Services program.
  --83 percent of students meet the low-income criteria for TRIO's 
        Student Support Services.
  --68 percent of our students are first generation college attendees.
  --17 percent of all UTTC applicants in 2008 had a Graduate 
        Equivalency Diploma.
  --74 percent of our students need remediation in math, reading and 
        composition.
  --80 percent of our students have Limited English proficiency.
    With regard to our students with a Limited English background, we 
note that although not all UTTC students speak their Native language 
fluently, many speak forms of English that differ from Standard English 
because of the influence of other languages' vocabulary, intonation, 
and vernacular. Although UTTC strongly supports the preservation and 
use of Native languages, our students tend to have difficulty reading, 
writing, and speaking the Standard English as is required of them by 
the College and the workplace.
    We also note the January 13, 2009, report of the Department of 
Education's Office of Vocational and Adult Education on its recent site 
visit to UTTC (October 7-9, 2008). While some suggestions for 
improvements were made, the Department commended UTTC in many areas: 
for efforts to improve student retention; the commitment to data-driven 
decisionmaking, including the implementation of the Jenzabar system 
throughout the institution; the breadth of course offerings; 
collaboration with 4-year institutions; expansion of online degree 
programs; unqualified opinions on both financial statements and 
compliance in all major programs; being qualified as a low-risk 
grantee; having no reportable conditions and no known questioned costs; 
clean audits; and use of the proposed measurement definitions in 
establishing institutional performance goals.
    Below are some important things we would like you to know about our 
UTTC:
  --UTTC Performance Indicators.--UTTC has:
    --An 85 percent retention rate.
    --A placement rate of 94 percent (job placement and going on to 4-
            year institutions).
    --A projected return on Federal investment of 20-to-1 (2005 study 
            comparing the projected earnings generated over a 28-year 
            period of UTTC Associate of Applied Science and Bachelor 
            degree graduates of June 2005 with the cost of educating 
            them).
    --The highest level of accreditation. The North Central Association 
            of Colleges and Schools has accredited UTTC again in 2001 
            for the longest period of time allowable--10 years or until 
            2011--and with no stipulations. We are also one of only two 
            tribal colleges accredited to offer accredited on-line 
            (Internet-based) associate degrees.
    --More than 20 percent of graduates go on to 4-year or advanced 
            degree institutions.
  --Our Students.--Our students are from Indian reservations throughout 
        the Nation, with a significant portion of them being from the 
        Great Plains area. Our students have had to make a real effort 
        to attend college; they come from impoverished backgrounds or 
        broken families. They may be overcoming extremely difficult 
        personal circumstances as single parents. They often lack the 
        resources, both culturally and financially, to go to other 
        mainstream institutions. Through a variety of sources, 
        including Perkins funds, UTTC provides a set of family and 
        culturally-based campus services, including: an elementary 
        school for the children of students, housing, day care, a 
        health clinic, a wellness center, several on-campus job 
        programs, student government, counseling, services relating to 
        drug and alcohol abuse and job placement programs. We are 
        currently serving 168 students in our elementary school and 169 
        youngsters in our child development centers.
  --UTTC Course Offerings and Partnerships with Other Educational 
        Institutions.--We offer accredited vocational/technical 
        programs that lead to 17 2-year degrees (Associate of Applied 
        Science and 11 1-year certificates, as well as a 4-year degree 
        in elementary education in cooperation with Sinte Gleska 
        University in South Dakota. We intend to expand our 4-year 
        degree programs. While full information may be found on our Web 
        site (www.uttc.edu), among our course offerings are:
    --Licensed Practical Nursing.--This program results in great demand 
            for our graduates; students are able to transfer their UTTC 
            credits to the North Dakota higher educational system to 
            pursue a 4-year nursing degree.
    --Medical Transcription and Coding Certificate Program.--This 
            program provides training in transcribing medical records 
            into properly coded digital documents. It is offered 
            through the college's Exact Med Training program and is 
            supported by Department of Labor funds.
    --Tribal Environmental Science.--This program is supported by a 
            National Science Foundation Tribal College and Universities 
            Program grant. This 5-year project allows students to 
            obtain a 2-year AAS degree in Tribal Environmental Science.
    --Community Health/Injury Prevention/Public Health.--Through our 
            Community Health/Injury Prevention Program we are 
            addressing the injury death rate among Indians, which is 
            2.8 times that of the U.S. population. This program has in 
            the past been supported by the IHS, and is the only degree-
            granting Injury Prevention program in the Nation. Given the 
            overwhelming health needs of Native Americans, we continue 
            to seek resources for training of public health 
            professionals.
    --Online Education.--Our online education courses provide increased 
            opportunities for education by providing web-based courses 
            to American Indians at remote sites as well as to students 
            on our campus. These courses provide needed scheduling 
            flexibility, especially for students with young children. 
            They allow students to access quality, tribally focused 
            education without leaving home or present employment. We 
            offer online fully accredited degree programs in the areas 
            of Early Childhood Education, Community Health/Injury 
            Prevention, Health Information Technology, Nutrition and 
            Food Service and Elementary Education.
    --Criminal Justice.--Our criminal justice program leads many 
            students to a career in law enforcement, and as noted 
            elsewhere in this testimony, we are actively working on 
            establishing a police training academy at UTTC.
    --Computer Information Technology.--This program is at maximum 
            student capacity because of limitations on resources for 
            computer instruction. In order to keep up with student 
            demand and the latest technology, we need more classrooms, 
            equipment and instructors. We provide all of the Microsoft 
            Systems certifications that translate into higher income 
            earning potential for graduates.
    --Nutrition and Food Services.--We help meet the challenge of 
            fighting diabetes and other health problems in Indian 
            Country through education and research. As a 1994 Tribal 
            Land Grant institution, we offer a Nutrition and Food 
            Services AAS degree in order to increase the number of 
            Indians with expertise in nutrition and dietetics. There 
            are few Indian professionals in the country with training 
            in these areas. We have also established a Diabetes 
            Education Center that assists local tribal communities, our 
            students and staff to decrease the prevalence of diabetes 
            by providing food guides, educational programs, training 
            and materials.
    Our Perkins and Bureau of Indian Education funds provide for nearly 
all of our core postsecondary educational programs. Very little of the 
other funds we receive may be used for core career and technical 
educational programs; they are competitive, often one-time supplemental 
funds which help us provide the services our students need to be 
successful. We cannot continue operating without Perkins funds.
    Thank you for your consideration of our requests.

</pre></body></html>
